<html>
<title> - CREATING THE DEPARTMENT OF HOMELAND SECURITY: CONSIDERATION OF THE ADMINISTRATION'S PROPOSAL</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  CREATING THE DEPARTMENT OF HOMELAND SECURITY: CONSIDERATION OF THE 
                       ADMINISTRATION'S PROPOSAL
=======================================================================



                                HEARINGS

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        JUNE 25 and JULY 9, 2002

                               __________

                           Serial No. 107-113

                               __________

       Printed for the use of the Committee on Energy and Commerce







 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________


                           U.S. GOVERNMENT PRINTING OFFICE
80-680                         WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
RICHARD BURR, North Carolina         BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
GREG GANSKE, Iowa                    BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           TOM SAWYER, Ohio
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES ``CHIP'' PICKERING,          GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
TOM DAVIS, Virginia                  THOMAS M. BARRETT, Wisconsin
ED BRYANT, Tennessee                 BILL LUTHER, Minnesota
ROBERT L. EHRLICH, Jr., Maryland     LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        CHRISTOPHER JOHN, Louisiana
CHARLES F. BASS, New Hampshire       JANE HARMAN, California
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska
ERNIE FLETCHER, Kentucky

                  David V. Marventano, Staff Director
                   James D. Barnette, General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

               JAMES C. GREENWOOD, Pennsylvania, Chairman

MICHAEL BILIRAKIS, Florida           PETER DEUTSCH, Florida
CLIFF STEARNS, Florida               BART STUPAK, Michigan
PAUL E. GILLMOR, Ohio                TED STRICKLAND, Ohio
RICHARD BURR, North Carolina         DIANA DeGETTE, Colorado
ED WHITFIELD, Kentucky               CHRISTOPHER JOHN, Louisiana
  Vice Chairman                      BOBBY L. RUSH, Illinois
CHARLES F. BASS, New Hampshire       JOHN D. DINGELL, Michigan,
ERNIE FLETCHER, Kentucky               (Ex Officio)
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)














                            C O N T E N T S

                               __________
                                                                   Page

Hearings held:
    June 25, 2002................................................     1
    July 9, 2002.................................................   129
Testimony of:
    Allen, Hon. Claude, Deputy Secretary, U.S. Department of 
      Health and Human Services..................................    52
    Anderson, Philip, Senior Fellow, Center for Strategic and 
      International Studies......................................   107
    Atlas, Ronald, President-Elect, American Society for 
      Microbiology...............................................   113
    Baumann, Jeremiah D., Environmental Health Advocate, U.S. 
      Public Interest Research Group.............................   249
    Cassell, Gail H., Vice President, Scientific Affairs, 
      Distinguished Lilly Research Scholar for Infectious 
      Diseases, Eli Lilly and Company............................   158
    Cobb, Donald D., Associate Director for Threat Reduction, Los 
      Alamos National Laboratory:
        June 25, 2002............................................    93
        July 9, 2002.............................................   198
    Copeland, Guy, Vice President, Information Infrastructure 
      Advisory Programs, Federal Sector, Computer Sciences 
      Corporation................................................   223
    Costantini, Lynn P., Director--Online Services, North 
      American Electric Reliability Council......................   232
    Dacey, Robert F., Director, Information Security Issues, 
      General Accounting Office..................................   207
    Gordon, General John A., Administrator, National Nuclear 
      Security Administration....................................    57
    Hamburg, Margaret A., Vice President, Biological Programs, 
      Nuclear Threat Initiative..................................   166
    Hauer, Jerome M., Director, Office of Public Health Emergency 
      Preparedness, Department of Health and Human Services......   136
    Heinrich, Janet, Director, Health Care and Public Health 
      Issues, General Accounting Office:
        June 25, 2002............................................    71
        July 9, 2002.............................................   157
    McDonnell, James F., Director, Energy Security and Assurance 
      Program, Department of Energy..............................   187
    Nokes, David, Director, Systems Assessment and Research 
      Center, Sandia National Laboratories.......................    83
    O'Toole, Tara, Director, Center for Civilian Biodefense 
      Studies, Johns Hopkins University..........................   118
    Plaugher, Edward P., Chief, Arlington County Fire Department, 
      Executive Agent, Washington Area National Medical Response 
      Team.......................................................   101
    Ridge, Hon. Tom, Director of Transition Planning for Proposed 
      Department of Homeland Security and Assistant to the 
      President for Homeland Security............................    14
    Smith, William, Executive Vice President, Network Operations, 
      BellSouth..................................................   220
    Sobel, David L., General Counsel, Electronic Privacy 
      Information Center.........................................   258

                                 (iii)

    Stringer, Lew, Medical Director, Division of Emergency 
      Management, North Carolina Department of Crime Control and 
      Public Safety..............................................    97
    Sullivan, John P., Jr., President and Chief Engineer, Boston 
      Water and Sewer Commission.................................   238
    Tritak, John S., Director, Critical Infrastructure Assurance 
      Office, Department of Commerce.............................   182
    Vantine, Harry C., Program Leader, Counterterrorism and 
      Incident Response, Lawrence Livermore National Laboratory..    79
    Varnado, Samuel G., Director, Infrastructure and Information 
      Systems Center, Sandia National Laboratories...............   191
    Watson, Kenneth C., President, Partnership for Critical 
      Infrastructure Security, Cisco Systems, Inc................   242
Additional material submitted for the record:
    Ahern, Jason P., Assistant Commissioner, U.S. Customs 
      Service, prepared statement of.............................   267
    Brooks, Linton F., Acting Administrator, National Nuclear 
      Security Administration, U.S. Department of Energy, 
      prepared statement of......................................   269
    Bryden, Robert A., Stff Vice President of Security, FedEx 
      Corporation, prepared statement of.........................   272
    Holsen, Jim, Vice President, Engineering, United Parcel 
      Service, Inc., prepared statement of.......................   287
    Howe, Barry, Vice President, Thermo Electron Corporation, 
      prepared statement of......................................   284
    Jones, Gary, Director, Natural Resources and Environmental 
      Issues, General Accounting Office, prepared statement of...   291
    Martin, Steven W., Director, Homeland Security, Pacific 
      Northwest National Laboratory, prepared statement of.......   282
    Nokes, David, Director, Systems Assessment and Research 
      Center, Sandia National Laboratories, prepared statement of   288
    Panico, Frank, Manager, International Networks and 
      Transportation, U.S. Postal Service, prepared statement of.   272
    Shotts, Wayne J., Associate Director for Nonproliferation, 
      Arms Comtrol and International Security, Lawrence Livermore 
      National Laboratory, prepared statement of.................   274

                                  (iv)















  CREATING THE DEPARTMENT OF HOMELAND SECURITY: CONSIDERATION OF THE 
                       ADMINISTRATION'S PROPOSAL

                              ----------                              


                         TUESDAY, JUNE 25, 2002

                  House of Representatives,
                  Committee on Energy and Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:10 a.m., in 
room 2123, Rayburn House Office Building, Hon. James C. 
Greenwood (chairman) presiding.
    Members present: Representatives Greenwood, Stearns, 
Gillmor, Burr, Whitfield, Bass, Fletcher, Tauzin (ex officio), 
Deutsch, Stupak, Strickland, and DeGette.
    Also present: Representatives Deal, Cubin, Waxman, Markey, 
Sawyer, Capps, and Harman.
    Staff present: Tom DiLenge, majority counsel; Amit Sachdev, 
majority counsel; Ray Shepherd, majority counsel; Nandan 
Kenkeremath, majority counsel; Edith Holleman, minority 
counsel; and Chris Knauer, minority investigator.
    Mr. Greenwood. The subcommittee will come to order. The 
Chair would announce before the commencement of opening 
statements that, pursuant to the rules, the chairman of the 
subcommittee and the ranking member and the chairman of the 
full committee and the ranking member of the full committee 
will be accorded 5 minutes for opening statements; other 
members of the subcommittee shall be accorded 3 minutes apiece.
    We welcome the participation of other members of the full 
committee who are not members of the subcommittee, and should 
they arrive and wish to make opening statements, we will grant 
them time--yield them time, the amount of time being dependent 
upon how many of them there are.
    And the Chair welcomes Governor Ridge, my friend--good to 
have you with us--and yields himself 5 minutes for the purpose 
of an opening statement.
    Good morning. Today the subcommittee will hold the first 
day of a multipart hearing to examine how the Bush 
Administration's proposal to establish a Department of Homeland 
Security will affect the agencies and the operations over which 
this committee now exercises principal jurisdiction. Our first 
witness is the current Director of the Office of Homeland 
Security and our former colleague, Governor Tom Ridge, who is 
appearing today in his capacity as the chief of the transition 
team for this new department.
    The President could have made no finer choice in responding 
to the disaster of September 11 than by appointing Tom Ridge to 
be Director of the Office of Homeland Security. The challenge 
before him is daunting, but those of us who know Tom also know 
that he has always heeded his country's call.
    In 1968, while still in law school, Tom Ridge was drafted 
into the U.S. Army. He fought in Vietnam as an infantry 
sergeant and was awarded the Bronze Star. He was the first 
enlisted Vietnam veteran elected to Congress.
    Now he has been enlisted in a new struggle. True to form, 
he has labored tirelessly since last September to help improve 
the security of our homeland and our fellow citizens.
    The President's proposal is a bold one. It envisions a 
department whose mission includes border and transportation 
security; emergency preparedness and response; chemical, 
biological, radiological, and nuclear countermeasures; 
information analysis and infrastructure protection. If approved 
as now proposed, only the Department of Defense and the 
Department of Veterans' Affairs would have more employees than 
the almost-170,000 workers proposed for the Department of 
Homeland Defense.
    Few would dispute the need for consolidation and 
coordination of the nearly 100 agencies that now share 
responsibility for these critical tasks. This subcommittee's 
oversight over the past 2 years also has demonstrated the need 
for a single agency to take charge of the responsibility to 
enhance the protection of our Nation's critical infrastructure 
and key terrorist targets, both in the public and private 
sector. The latter includes several industry sectors over which 
this committee has principal jurisdiction, including the 
electricity and telecommunications grids and our Nation's 
drinking water systems.
    As our hearing last April demonstrated, precious little has 
been done since 1997 when a Presidential blue ribbon panel 
urged the establishment of a robust public-private partnership 
to identify critical assets, assess their interdependencies and 
vulnerabilities, and take steps to mitigate our risks.
    Moreover, this subcommittee's oversight with respect to 
Federal counterterrorism R&D programs has raised many of the 
same concerns. As the General Accounting Office reported to 
this subcommittee last September, just prior to the anthrax 
attacks on this city, our Federal bioterrorism research 
programs, scattered throughout a dozen or more agencies, are 
poorly coordinated and lack a clear sense of priority and 
focus. The same is true for the myriad of Federal programs 
aimed at improving the preparedness of Federal, State and local 
governments and emergency response providers to deal with major 
disasters, terrorist attacks and other public health 
emergencies. In fact, there were so many such programs within 
the Department of Health and Human Services itself that in the 
bioterrorism bill this committee recently shepherded through 
the Congress, we created a new Assistant Secretary at HHS just 
to coordinate all these emergency preparedness and response 
functions.
    And this is just one department. Can there be any doubt why 
every serious study of this issue has ended in a call for some 
form of centralization, or focal point of coordination in the 
executive branch? The President's proposal moves us firmly in 
that direction.
    The focus of today's hearing is on the critical aspect of 
emergency preparedness and response and how the President 
proposes to improve our national efforts in this area. We 
cannot move too soon. Yesterday, for example, CNN reported on 
the new threats being made by a spokesman for al Qaeda who, in 
a sickening and warped reference to September 11, told 
Americans they should, quote, fasten their safety belts and 
then spoke of the death of up to 4 million Americans including 
1 million children through the use of chemical and biological 
weapons.
    Although Governor Ridge will testify today on all aspects 
of the President's proposal, the remainder of our panels and 
witnesses will focus on the emergency preparedness and response 
issue, namely Title V of the administration's proposal. With 
respect to those functions or programs that are proposed for 
transfer from any agency to the new department, two questions 
seem in order: First, how do these programs operate currently; 
and second, what are the potential advantages or disadvantages 
to the proposed transfer?
    In our case, while the President's bill is a useful 
blueprint, many important questions remain to be resolved. For 
example, what is the scope of the new secretary's authority 
over HHS's public health preparedness programs and how might it 
alter the current focus on important dual-use programs? Why are 
some of the agencies' preparedness and response programs 
transferred completely, others transferred partially and others 
left unchanged in their respective departments? And for those 
assets or functions not fully transferred to the new Secretary, 
but under his authority, how does the administration plan to 
ensure a workable model with one Secretary directing the assets 
or programs of another?
    As I said at the outset, the task before the President, the 
Congress and today's chief witness is daunting, but whatever 
the challenge, we must meet it. In the midst of the battle of 
Bunker Hill, Abigail Adams wrote these words to her husband in 
Philadelphia:
    ``Dearest friend, the day, perhaps the decisive day, has 
come on which the fate of America depends. Now the fate of 
America rests with us, and of one thing I am certain. Unless a 
spirit of cooperation and trust informs all of our efforts, we 
are unlikely to succeed. And to be successful, we have a duty 
to speak plainly to the American people about the clear and 
present dangers that lead us to this enormous investment in 
this massive undertaking.''
    Again, I want to thank Governor Ridge and all of our 
witnesses for agreeing to appear before us today, many on short 
notice.
    I will recognize the ranking member, the gentleman from 
Florida, Mr. Deutsch, for an opening statement.
    Mr. Deutsch. Thank you, Mr. Chairman. And thank you, 
Governor Ridge.
    This is an issue where I think it is accurately described 
that there is no light between any of us in the Congress, the 
435 Members of the House and the 100 Members of the Senate. And 
I think that we stand completely with the President on the 
creation of this department, which is an integral part of the 
war on terrorism.
    I think if we have learned anything post-September 11, it 
is reminding us that the most fundamental thing we can do as a 
government and as elected officials is the security of our 
constituents. And, in fact, I think we understand that 
unfortunately, prior to September 11, we were not looking at it 
quite the way we should. And specifically, I think, we 
acknowledge at this point that terrorists' or terrorist states' 
particularly weapons of mass destruction are an existential 
threat to the United States and to our people.
    And, Governor Ridge, I have read your comments and I would 
completely agree with basically all of them, but one I want to 
focus on which I think is the--in a sense, the essence for the 
creation of the department is that, at the present time, there 
really is no one who is responsible or no agency that is 
responsible, but--you are in your position, but no agency that 
is responsible for homeland security.
    And my experience in life--and I think for most of us if we 
think about our experience in life--is, something never gets 
done correctly unless someone is responsible and in charge. And 
I think that is the essence of, the purpose of this agency 
where I think the goal, the need, is absolutely imperative.
    I also think the facts of, again, what you have put 
together and what others have put together at this point 
specifically show the sort of ad hoc dispersed nature of some 
of these responsibilities. I think as we move forward--and I 
think this is one of these issues where we really are working 
hand-in-hand--in a very bipartisan tradition in this committee, 
although we have many disagreements, we have many agreements as 
well.
    We will disagree, as we did last week on prescription 
drugs, but on this, I think there are no disagreements. And I 
think what we are really looking for is working with you, 
working with each other, just really trying to make it as good 
as possible.
    And I think we are at the level of details. I don't think 
that this is a case where the devil is in the details. I really 
don't. I think it is the details of working with you to really 
try to structure a department that will maximize the imperative 
that we are successful.
    One of the analogies that I have used in talking about 
post-September 11 and I would add to this creation of this 
department, I think there are several World War II analogies--
two, really, I think, at least for me, and when I have spoken 
about this, they have been very on point.
    One is clearly, obviously, Pearl Harbor where the United 
States wasn't prepared; and if we look historically, the 
Japanese might have seen it as a short-term victory. But I 
think historically, obviously it was an incredible disaster for 
them. Had the United States entered the war in the Pacific, 
which is unclear whether we would not have--would have, and I 
think it was overdetermined once we entered the war that we 
would be successful.
    The other analogy is the Manhattan Project. And when it was 
started it was not overdetermined that we would be successful 
in that effort. But if we were not successful, obviously 
history would be a lot different.
    Governor, I speak to you, and I know your commitment is 
total on this; and I speak to ourselves about this, that I 
think that just as we had no choice but to be successful with 
the Manhattan Project, we have no choice but to be successful 
with what we are doing to prevent weapons of mass destruction 
attacking the United States. And I believe the creation of this 
department is a critical component of that.
    So I look forward to working with you and with my 
colleagues on both sides of the aisle over the next, really, 
hopefully, just several months. I think setting the date of 
September 11 to try to get it resolved by is doable. As you 
well know as a former Member, we can always argue about things. 
We will have enough things to argue about between now and 
January 20 if we want to. Hopefully, we won't.
    Hopefully, we will put deadlines on ourselves and force us 
with the minutia of details, with the minutia of jurisdiction. 
Hopefully, we will get over that and understand that we are all 
working together for one goal.
    So I yield back the balance of my time.
    Mr. Greenwood. The Chair thanks the gentleman and yields 5 
minutes for an opening to the chairman of the full committee, 
the gentleman, Mr. Tauzin.
    Chairman Tauzin. Thank you, Chairman Greenwood, and I am 
pleased to join you in welcoming Governor Ridge to testify on 
President Bush's historic proposal for the creation of the new 
Cabinet-level Department of Homeland Security.
    Governor Ridge, I think you and we, too, understand that we 
are going to play some important roles here. But the truth is 
that bureaucrats and legislators and even Cabinet-level 
officials really play a second-place role when it comes to 
defending the country in this very important time. It is the 
men and women of the military, the National Guard or the fire 
and emergency response teams and the incredible heart and 
courage of the people of America who are on the front line, the 
eyes and ears of our country, the first responders who really 
have this task at hand; and our job is to help arm them and 
properly coordinate them.
    And I, first of all, want to thank you because the other 
side of that coin is that we have learned since September 11 
that there can be a lot of finger-pointing in this country when 
things go wrong, and there can be a lot of people trying to put 
the blame on someone else for not sharing information or 
coordinating properly.
    You, however, left your job as Governor of the great State 
of Pennsyvania at the summoning of our President, and you 
decided to be the person where the buck stops in coordinating 
and making sure this awful finger-pointing exercise doesn't 
happen again. And this is the next, obviously, important step 
in that process, to make sure there is someone at a Cabinet 
level for whom the final responsibility rests in coordination.
    That is an awesome responsibility, sir, and I commend you 
for taking it on in this temporary position. And frankly, I 
would hope that the President has the good sense, when we are 
through with this work, to continue you in a permanent position 
if you are willing to undertake it.
    I wanted to talk briefly with you this morning about some 
of our roles in connection with your role in the establishment 
of this new department. First, our committee has jurisdiction, 
and we will continue to have jurisdiction, obviously, over many 
of the programs that the Department of Energy and the national 
labs, the Department of Health and Human Services, all of which 
serve vital roles in preparing and responding to chemical, 
biological, radiological and nuclear attacks. All areas where--
if this spokesman for al Qaeda is real and his statements are 
believable, all areas of vulnerability these people hope to 
exploit in these programs, such as the nuclear emergency 
support teams that identify and respond to radiological and 
nuclear threats as well as public health programs; such as the 
strategic national stockpile of drugs and vaccines that must be 
stocked and rapidly deployed, this new department will now play 
an important role.
    Title V of the President's proposal contains a plan for 
consolidating and coordinating these functions. Well, obviously 
we have to help you make sure that that is done properly. It is 
a critical function as we face new threats.
    Second, our committee has jurisdiction and will continue to 
have jurisdiction over research and development programs for 
chemical, biological, radiological and nuclear countermeasures. 
Programs that the Health and Human Services Department, DOE and 
national labs in which the country's top scientists are 
currently working on new methods for detecting and detecting 
terrorist attacks. For example, there are improved sensors to 
detect radiological devices, new scanners to screen luggage and 
cargo, new technologies to detect and neutralize biological 
hazards.
    Title III of the President's plan would transfer many of 
these programs, and it is important, I think, as we handle this 
transfer, to see what we can do about somehow coordinating the 
very diverse efforts that are going on in as many as four 
different labs on the same subject, and to make sure we get the 
best in new, innovative technologies out there to protect our 
borders and to make travel in this country as safe as we can 
make it.
    And a third of the department's jurisdiction will continue 
to have jurisdiction over the regulation of many of the 
Nation's most critical infrastructure and assets, including 
both publicly and privately owned assets in telecommunications 
and energy and safe food and drinking water, as well as many 
manufacturing facilities in the country that could be targets.
    Governor Ridge, I want to thank you for something else: for 
being accessible to this committee without subpoena, 
voluntarily meeting with us, counseling with us, as we went 
through the process post-9/11 of examining all the agencies 
under our jurisdiction and all these critical assets, and where 
the vulnerabilities might be and what we might do to encourage 
the agency heads to begin developing protection and 
countermeasures to make sure these assets are protected.
    The key is to recognize that most of the critical, 
important infrastructures are privately owned, privately 
operated. And the only way to succeed is going to be creating 
the strong public-private partnerships for national security. 
It doesn't create new regulatory regimes in this country, new 
bureaucracies that are going to make the economy worse off, but 
literally relies upon the strength of those private-sector-
owned and -operated entities to work with us in a partnership 
to make sure they are protected properly.
    We want to point out one more thing, and I will be asking 
you a couple of questions about it. In the meetings we had 
post-9/11, we were shocked to find out how many of the 
vulnerability assessments that exist in this country, how many 
of the detailed plans and drawings and important critical 
assets in this country are on the Internet, were available 
under the Freedom of Information for anybody to obtain. And 
this committee is vitally concerned, as we create this new 
department, that there are some common standards for 
vulnerability assessments and there are some real strong 
amendments, the Freedom of Information Act and other acts that 
would unfortunately allow some of this critical information to 
be available to people who might use it as a road map for 
terror in the future.
    We have to cut a delicate balance here because we are a 
free society, and we want people to know what our Government is 
doing; but there is a line we have to draw when it comes to 
providing free to anybody who wants it a road map of how to get 
into a nuclear plant or how to find a critical 
telecommunications infrastructure, and doing something with it.
    Finally, Governor Ridge, we just passed the Bioterrorism 
Act. This committee was primarily responsible for its 
development, as you know. There are some conflicts now in the 
new proposals. We are really beginning to assess, to coordinate 
the act we just passed with the new proposal the President just 
made. We are going to need your help in doing that. We don't 
want to leave some of the good work we did on bioterrorism 
undone because we are now changing the structure of things.
    Finally, I want to thank the chairman for also calling 
today Deputy Secretary Claude Allen and General Gordon, who are 
also going to assist us in this inquiry.
    Let me say, Mr. Chairman, yesterday I spent some time with 
Leader Armey, and I want to inform the committee and the 
Governor that we are sticking firmly to the July 12 timetable. 
We are going to get this work done quickly. And we in the House 
are going to finish the work on this critical national 
proposal, and we are going to do it well; and I am going to 
thank you for helping us do it right.
    [The prepared statement of Hon. W.J. ``Billy'' Tauzin 
follows:]
  Prepared Statement of W.J. ``Billy'' Tauzin, Chairman, Committee on 
                          Energy and Commerce
    Thank you Chairman Greenwood, I am pleased to join you today in 
welcoming Governor Tom Ridge to testify on behalf of President Bush's 
historic proposal for the creation of a new Cabinet-level Department of 
Homeland Security.
    Governor Ridge, let me thank you for the job that you have been 
doing--tirelessly and without complaint--to defend our borders and keep 
the citizens of this great country safe and secure, in our cities, our 
communities, and our homes. After the terrorist attacks last fall, 
President Bush asked you to accept perhaps the single most important, 
and certainly the most difficult, job in the Nation. And you have risen 
to the challenge.
    We in the Congress appreciate the job you are doing, and we will 
continue to do our part for this cause--a cause that requires us to 
make absolutely sure that the men and women who are fighting this war 
against terrorism on our behalf, including our military, our 
Reservists, the National Guard, and Federal, State, and local law 
enforcement personnel, have the tools, the resources, and the support 
they need to keep us safe from the harm our enemies seek to bring to 
our shores.
    With regard to the President's proposal, I support creating a 
Cabinet-level department--one that will not only pick up the role of 
homeland security coordinator, but a new Department with an empowered 
Secretary who has the authority and resources needed to protect our 
country from the threats of terrorism.
    The Committee on Energy and Commerce has an important 
responsibility to assist the Administration with this proposal. First, 
we have jurisdiction--and will continue to have jurisdiction--over many 
of the programs at the Department of Energy (DOE), the National Labs, 
and the Department of Health and Human Services (HHS) that serve vital 
roles in preparing for and responding to chemical, biological, 
radiological and nuclear attacks. These include energy programs such as 
the nuclear emergency support teams that identify and respond to 
radiological and nuclear threats, as well as public health programs, 
such as the Strategic National Stockpile of drugs and vaccines that 
must be stocked and rapidly deployed in the event of a chemical or 
biological attack. Title 5 of the President's proposal contains a plan 
for consolidating and coordinating these functions in the new 
Department of Homeland Security. We must ensure that this is done 
properly and that these programs are integrated in a manner that allows 
them to respond promptly in the event of a future attack.
    Second, this Committee has jurisdiction--and will continue to have 
jurisdiction--over research and development programs for chemical, 
biological, radiological and nuclear countermeasures. These are 
programs at HHS, DOE and the National Labs in which our country's top 
scientists are working to develop new methods for detecting and 
preventing terrorists attacks--such as improved sensors to detect 
radiological devices, new scanners to screen luggage and cargo, and new 
technologies to detect and neutralize biological hazards. Title 3 of 
the President's proposal contains a plan for transferring many of these 
programs to the new Department. It is important for us to remember that 
new and improved technologies and American ingenuity and innovation are 
among the greatest advantages we have in fighting terrorism, second 
only to the heart and conviction of the people of this country.
    Third, this Committee has jurisdiction--and will continue to have 
jurisdiction--over the regulation of many of our Nation's most critical 
infrastructures and assets, including both publicly and privately owned 
assets that are integral to the delivery of telecommunications and 
information technology services, the production and distribution of 
energy, and the delivery of safe food and drinking water, as well as 
manufacturing facilities that may be targets of potential terrorist 
actions. Title 2 of the President's proposal would add to the mission 
of the new Department the responsibility to analyze vulnerabilities and 
improve protection for these critical assets and infrastructures. The 
key to our success in this area is to recognize that many of the most 
important critical infrastructures are privately owned and operated, 
and the only way to succeed in assuring their protection is through a 
strong and effective public-private partnership for national security.
    After the September 11th attacks, I and other senior Members of 
this Committee on a bipartisan basis met with high-ranking private 
sector officials to encourage them to work together in a public-private 
partnership to ensure that our critical infrastructures are adequately 
protected against potential terrorist attacks. Not only must potential 
targets of terrorism be adequately protected, but we also must ensure 
that sensitive information about these assets, such as vulnerability 
assessments, are never allowed to be used as roadmaps for terrorist 
action. I believe that the new Department should develop a 
comprehensive framework across the critical infrastructure sectors, 
including common standards for vulnerability assessments, and that we 
in Congress must provide additional legal protections to protect such 
sensitive information from improper public disclosure.
    Finally, it is worth noting that, just this month, the President 
signed a sweeping $4.6 billion dollar bioterrorism preparedness bill 
into law, which was shepherded through Congress by Members of this 
Committee on a bipartisan basis. Many of the issues that we dealt with 
in crafting that new law, and many of the proposals to combat 
bioterrorism, will need to be evaluated in the context of the new 
Department of Homeland Security. Sorting out roles and responsibilities 
for the new Department and the other Federal agencies already tasked 
with many of these functions will be a significant challenge that we 
must complete quickly.
    I commend the President for his proposal. It reflects a sound 
framework to get this job done, and I believe credit is due not only to 
the President for taking this bold step, but also to those, such as 
former Senators Warren Rudman and Gary Hart, who have for sometime 
recognized this need and whose foresight and ideas are undoubtedly 
reflected here.
    Again, I want to thank Governor Ridge, and each of our other 
witnesses, including Deputy Secretary Claude Allen from the Department 
of Health and Human Services, and General John Gordon, Administrator of 
the National Nuclear Security Administration at the Department of 
Energy, for coming here today. I look forward to today's testimony and 
to working with the Administration and my colleagues on both sides of 
the aisle to craft legislation that creates a Cabinet-level Department 
of Homeland Security worthy of the people who work tirelessly everyday 
to protect us. Mr. Chairman, I yield back the balance of my time.

    Mr. Greenwood. The Chair thanks the chairman of the 
committee, and recognizes the gentleman from Michigan, Mr. 
Stupak, for 3 minutes for an opening statement.
    Mr. Stupak. Thank you Mr. Chairman. I look forward to 
today's hearing and welcome Governor Ridge.
    We have spent a lot of time since September 11, and I am 
sure we will do more in the future. Let me say right away that 
I accept the principle that homeland security is so important 
that it demands a Cabinet-level position. In fact, as one of 
the early cosponsors of some of the proposals put forth by the 
Democratic Caucus, it is not whether what caucus put it 
forward, but the idea and the principle that we do need a 
Cabinet-level position for homeland security.
    As such, the Secretary serving as the head of this 
department should have the information, the authority and 
resources to carry out the task of protecting our citizens and 
our domestic resources and infrastructure.
    That said, however, I believe that Members of Congress of 
both parties want to see a homeland security proposal from the 
administration that is more than just a mere shuffling of the 
chairs at the table. If the chain of command for organizations 
like the Coast Guard and FEMA, the Federal Emergency Management 
Agency, are reorganized, we want to be able to ask about the 
missions and the staffing and the cost of the change.
    If information-gathering is reorganized--if information-
gathering is reorganized, we want to know what intelligence 
will be collected, how it will be distributed and whether the 
net change puts information in fewer hands or more hands, and 
whether it speeds distribution of intelligence, or does it 
encumber it?
    Reorganization will come, and the public needs to stay 
involved; and it needs to make the President, the Republican 
leadership in the House and the Democratic leadership in the 
Senate aware of its concerns. And with the chairman putting 
forth that July 12 deadline, it is even more important that 
those concerns are expressed immediately. Whether 
reorganization winds up being merely changed for the sake of 
change or a real improvement in protection of our Nation will 
depend on the questions that are asked, the debates that are 
held and the attention paid to the details of the President's 
proposal.
    Again, welcome, Governor Ridge; and I look forward to 
hearing from you and other witnesses today.
    And, Mr. Chairman, with that, I will yield back the balance 
of my time.
    Mr. Greenwood. The Chair thanks the gentleman and 
recognizes the gentleman from Kentucky, Mr. Whitfield, for 3 
minutes for an opening statement.
    Mr. Whitfield. Thank you, Mr. Chairman.
    And, Governor Ridge, we welcome you to the committee today 
and look forward to your testimony on what President Bush has 
described as the biggest restructuring of the Federal 
Government in 40 years. We also look forward to the testimony 
of the witnesses on the other three panels.
    I think all of us understand and recognize that this is a 
complex piece of legislation, and it will be interesting to 
determine exactly how the new Department of Homeland Security 
will interact with the existing agencies in working out the 
areas of responsibility, and who has direct authority.
    So I am looking forward to the testimony today as we embark 
on this very important legislation, and thank you for being 
here.
    Mr. Greenwood. Chair thanks the gentleman, and the Chair 
notes the presence of the two gentleladies from California who 
are members of the full committee, but not members of the 
subcommittee. We welcome your participation.
    The Chair recognizes the presence of the gentleman from 
California. The Chair will grant each of you 3 minutes for an 
opening statement, beginning with Mrs. Capps.
    Mrs. Capps. Thank you, Mr. Chairman, and I thank you for 
holding this hearing.
    And welcome and thank you, Governor Ridge, for yet again 
coming before us with information and insight into what is 
happening to this restructuring effort.
    I don't have formal remarks; I am very eager to get into 
the conversation. I came to Congress after putting in a couple 
decades' work in public health in my community. I am very eager 
to hear how this legislation, which I helped craft--the 
bioterrorism preparedness bill--to ensure those resources get 
in the hands of the first responders.
    Each time I go back to my district, the safety and health 
people there are wondering and asking about this. And I am very 
concerned that we do this with all haste. While this 
restructuring is very preoccupying, and I can understand that, 
we can't forget that our mission really is in the local 
communities, because that is where this battle needs to be 
waged.
    So I will be yielding back my time and looking forward to 
the hearing. Thank you very much.
    Mr. Greenwood. The Chair thanks the gentlelady and yields 3 
minutes to the other gentlelady from California, Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman. I also would like to 
thank the chairman of the full committee for personally 
inviting me to participate.
    Good morning, Governor Ridge. I would hope that once we set 
up this Department of Homeland Security, you would not have to 
spend the entire summer testifying before Congress ever again.
    I think this concept is very important. As you know, many 
pieces of it were borrowed from legislation some of us 
introduced on a bipartisan basis up here. You have put them in 
a different order, but I am proud to support your proposal and 
am one of the original cosponsors of the Armey bill that was 
introduced yesterday.
    I think that we, up here, can contribute a few refinements 
that would help the legislation be more successful. And I just 
want to address one area right this minute in my remaining few 
seconds, which is public-private partnerships.
    You were nice enough to participate last week in a really 
spectacular meeting that 12 members cohosted on a bipartisan 
basis called Technology and Terrorism. We had 120 CEOs up here, 
and they were talking about their frustration with connecting 
their technologies into our homeland security effort.
    The mechanism for doing this needs to be refined in this 
new department. H.R. 4629, introduced by Congressman Tom Davis, 
has some very good ideas in it, but I would hope, as we 
proceed, that we do refine this procurement process.
    Second, I said public-private partnerships. On the 
partnership point, the government at the Federal, State and 
local levels must work more closely with private entities to 
ensure homeland security. The Government is responsible for 
providing security for citizens, but the private sector shares 
the responsibility to protect against attack or disruption, and 
it controls many of the assets needed to do so.
    When we have questions, I will ask you more about this, but 
let us as a committee, especially one focused on commerce, lend 
our expertise, working with your office to make the public-
private partnership piece of this legislation more effective.
    I yield back the balance of my time.
    Mr. Greenwood. Chair thanks the gentlelady and recognizes 3 
minutes for purposes of an opening statement to the gentleman 
from Florida, Mr. Stearns.
    Mr. Stearns. Good morning and thank you, Mr. Chairman.
    Governor Ridge, you are going to have a lot of patience in 
life. Governor of Pennsylvania might look pretty good to you 
after this process. They think you are doing a great job, and 
we are here to support you in any way we can and we're just 
glad, as a U.S. citizen, you're willing to tackle this.
    Most of my speech, Mr. Chairman, I will make part of the 
record by unanimous consent.
    Mr. Greenwood. Without objection.
    Mr. Stearns. I think it's already been pointed out, not 
since--the creation of such an enormous department, like this, 
encompassing a vast organization of Government resources has 
not been attempted since the National Security Act of 1947.
    I think one of the concerns some of us have, Governor 
Ridge, is that while we take all this organization and move all 
these departments together, what about the intelligence 
failures and what are we doing to streamline within a 
department--if you just take all these departments and put them 
together and do nothing to change the individual departments 
and streamline them and give them more high tech equipment and 
make sure that these departments are talking to each other--you 
know, that would be the question: Is the President's proposal 
adequate in that respect?
    Two FBI units, a national domestic preparedness office and 
the National Infrastructure Protection Center would be 
transferred to the department under the President's plan. What 
about reform or transformation of the FBI, the CIA, related to 
counterterrorism? You know, in light of what we learn and see 
in time and U.S. News report, there has got to be something 
done there, and I think it would be a false assumption for 
Americans to think just making this new Homeland Security is 
going to solve all the problems.
    We on the Energy and Commerce Committee are very concerned 
about some of our jurisdiction and how that is going to work, 
because once we have a department getting its funds through 
you, yet the department remains in one agency, how is that 
going to work?
    So you have a daunting task ahead of you, and I want to 
commend you. And I assume you are part of the wellness 
preparedness program the President has in running every day and 
making sure you are not stressed out here. Godspeed to you and 
thank you for testifying.
    Mr. Greenwood. The Chair thanks the gentleman, and the 
Chair recognizes for 3 minutes the gentleman from California, 
Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman. And welcome, 
Governor Ridge, to this hearing. I am very glad to have this 
opportunity to further examine the Bush Administration's 
proposal for the Department of Homeland Security.
    The proposal raises many questions of importance to this 
committee as well as other committees. I am very concerned 
about the proposed transfer of important public health 
functions of the Department of Health and Human Services. I 
believe that the transfer of these functions may undermine the 
rebuilding of core public health capacities that is now under 
way. If our public health system is structured and viewed 
exclusively through the lens of fighting terrorism, it may 
seriously weaken our ability to respond to other threats to the 
health of the American people.
    It appears that several HHS offices are to be transferred. 
These include Office of Emergency Preparedness, the National 
Disaster Medical System and the Metropolitan Medical Response 
System. With these offices may go significant authority to 
oversee our Nation's response to public health emergencies.
    Such a transfer may also shift to the Department of 
Homeland Security the power to make bioterrorism and emergency 
preparedness grants to State and local public health systems. 
These grants were the cornerstone of the recently enacted 
Public Health Security and Bioterrorism Response Act. Their 
purpose was not only to fund specific preparations for 
bioterrorism. Just as critically, the grants were intended to 
turn around decades of neglect of our Nation's public health 
infrastructure.
    It is beyond argument that our public health system is in 
disrepair, and we cannot protect our citizens from bioterrorist 
attacks if our public health system is not working. Detecting 
and responding to a bioterrorist attack is just like detecting 
and responding to other emerging epidemics. It requires fully 
functioning and coordinated public health systems at the local, 
State and Federal levels.
    For this reason, the bioterrorism bill directed HHS to 
coordinate the repair of Federal, State and local public health 
systems as part of bioterrorism and emergency preparedness. The 
expertise to establish priorities and coordinate this effort 
lies with the public health experts and scientists at HHS and 
CDC. If priority-setting, coordination and/or grant-making 
functions are transferred to a new department, focused on 
terrorism, I am very concerned that the necessary rebuilding 
and upgrading of our public health response system will take a 
back seat.
    If we attempt to protect ourselves against terrorist 
attacks at the expense of our Nation's public health system, we 
may find that we have undermined rather than enhanced our 
Nation's true security.
    And I thank you for this opportunity for an opening 
statement, and I look forward to working with you, Governor 
Ridge, on this very important issue.
    Mr. Greenwood. The Chair thanks the gentleman.
    [Additional statements submitted for the record follow:]
Prepared Statement of Hon. Ted Strickland, a Representative in Congress 
                         from the State of Ohio
    Let me start by thanking Chairman Greenwood and Ranking Member 
Deutsch for holding this hearing today. All Americans are aware of the 
need to rethink how we defend our country, and so I thank Governor 
Ridge, as well as the witnesses who will follow him, for being here to 
answer our questions about the president's proposed Department of 
Homeland Security. I am pleased that the Administration has attempted 
to put together all the ideas for increased domestic security that have 
been raised during the past eight months, many of which have been 
discussed in hearings like this. Now Congress must fulfill its role to 
balance the power of the Executive Branch and question the president's 
proposal. It's our responsibility on this panel today to ask questions 
of our witnesses that will allow us to flesh out the skeletal 
suggestion put forth by the president as well as to create a new 
department that will best serve the constituents whom we represent here 
in Washington.
    When we talk about protecting America, we should be thinking in 
terms of what's proactive and preventative instead of only what's 
reactive and responsive. While we all understand the need to formulate 
``countermeasures'' and to devise plans for ``emergency preparedness 
and response,'' I am concerned that the president's proposal may not 
give the secretary of the new department enough authority to prevent 
disaster. We have learned from the news media in recent weeks that we 
might have averted the terrorist attacks on September 11th if our 
federal agencies had been configured differently or had communicated 
with each other more effectively. In other words, we might have been 
able to prevent disaster.
    In my view, we have two main strategies at our disposal: we can 
deter future attacks with our brawn, or we can halt them with our 
brain--with our intelligence capabilities. We can spend hundreds of 
millions of dollars on star wars, or we can spend a couple hundred 
dollars on language courses so that we have linguists who can translate 
the mountains of raw intelligence data that we collect but never 
analyze. But, even if all the data are analyzed and packaged in a form 
that is presentable to the secretary of the new department, what 
assurances do we have that one intelligence gathering agency, be it the 
CIA, the NSA, or the FBI with its new powers, would share its reports 
with the others? Will the new secretary have any authority to ensure 
that information is shared and that our intelligence operations are 
working together to prevent disaster? These questions are among many 
that we will be seeking answers to in the coming weeks.
    In particular, last Fall I wrote to Secretary Abraham to express my 
concern for the safeguarding of our federal nuclear facilities and the 
nuclear materials stored at these sites. Substantial quantities of 
nuclear materials, including highly enriched uranium and plutonium, are 
stored in chemically and physically unstable forms across the 
Department of Energy complex. Some of these nuclear materials are 
stored in outdated containers that often sit in deteriorated facilities 
or even outside, exposed to the elements. In either case these storage 
facilities were not built with the intention of protecting nuclear 
materials from terrorist attacks. At the DOE facility in Piketon, Ohio, 
for example, the majority of the 16,000 depleted uranium hexafluoride 
canisters stored onsite are out in the open.
    I think it is tremendously important that we have an understanding 
of how the Department of Homeland Security will protect America and its 
citizens from acts of malice against the physical structures and 
containers holding special nuclear materials, by-products, and source 
materials, especially in those cases where the physical structures may 
be vulnerable to significant radiological and other consequences.
    I anticipate hearing from the witnesses about how such drastic 
governmental restructuring will affect--good or bad--the ability of the 
different agencies to fulfill their objectives. I look forward to a 
thoughtful and candid discussion of the proposals to protect our 
nuclear assets, in addition to plans for safeguarding Americans if 
terrorists were to strike at nuclear facilities. I thank the Chair and 
yield back the remainder of my time.
                                 ______
                                 
    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan
    Thank you, Mr. Chairman, for holding this initial hearing on the 
President's proposed new cabinet agency for homeland security. I have 
made no secret of my skepticism that mere reorganization can solve the 
problems we face, or that reorganization would not create significant 
new problems. That is why this hearing, and others like it across the 
Congress, are so necessary. They cannot simply be ``check the box'' 
exercises.
    The Committee on Energy and Commerce will need to address several 
questions in the coming weeks about the proposed new structure. First, 
I note we just passed, and the President just signed, a carefully 
crafted comprehensive bioterrorism measure. It established programs to 
rebuild our public health infrastructures at the state and local 
levels, which are where responses to terrorism occur, as well as 
strengthened the federal capacity to address possible threats. Will the 
new Department actually increase fragmentation in the largely cohesive 
federal effort against bioterrorism and other public health 
emergencies? Will the new Department undermine the state and local 
public health focus of the new law?
    Second, will the Department's security activities undermine the 
enforcement of existing environmental, health and safety protections, 
or be otherwise detrimental to such safeguards developed over many 
years after full and open consideration by the Congress? Will the 
Department be given broad authority to override existing statutes and 
regulations? Will the accelerated and superficial treatment accorded 
thus far to this proposed reorganization provide an opportunity for 
major mischief?
    Third, and more broadly, will this reorganization result in more 
confusion, more expense, more bureaucracy, more people, more harm to 
the civil service, more harm to public employee unions--and less work? 
Will the country actually be more vulnerable during what will likely be 
a lengthy transition period? Will the Department remain fully 
accountable to the people, and to the Congress, for its security 
mission as well as for the non-security functions it may inherit?
    Our constituents will expect us to know the answers to these and 
many other questions before we act. Today's hearing is a small step 
towards developing the kind of understanding we will need to address 
this matter responsibly.

    Mr. Greenwood. Governor, you are aware that the committee 
is holding an investigative hearing and when doing so has had 
the practice of taking testimony under oath. It is my 
understanding that you have no objection to offering your 
testimony under oath.
    Mr. Ridge. None.
    Mr. Greenwood. The Chair also advises you that under the 
rules of the House and the committee, you are entitled to be 
advised by counsel. My understanding is that you don't feel the 
need to be advised by counsel.
    Mr. Ridge. That's correct.
    Mr. Greenwood. If you would stand and raise your right 
hand.
    [Witness sworn.]
    Mr. Greenwood. Thank you Governor, you are under oath and 
we look forward to your testimony and please begin.

 TESTIMONY OF HON. TOM RIDGE, DIRECTOR OF TRANSITION PLANNING 
 FOR PROPOSED DEPARTMENT OF HOMELAND SECURITY AND ASSISTANT TO 
              THE PRESIDENT FOR HOMELAND SECURITY

    Mr. Ridge. Chairman Greenwood, Ranking Member Deutsch and 
subcommittee members, I certainly appreciate the opportunity to 
testify--with the microphone on--in support of the President's 
historic proposal to unify our homeland security efforts under 
one Cabinet-level Department of Homeland Security.
    Since the terrorist attacks of September 11, all of America 
has risen to the challenge of improving the security of our 
homeland. In partnership with Congress, with States and 
localities, with law enforcement, with the private sector and 
academia, America has made great progress in securing its 
borders and preserving its way of life and the security of its 
citizens.
    The President believes our Nation must now take the next 
critical step by unifying our efforts under a single Department 
of Homeland Security. Only Congress can create such a 
department, and I am here today to personally convey the 
President's deep desire to work with Members to accomplish this 
goal. The President believes that the creation of a single 
department with a single, clear line of authority, as quite a 
few of the members of the committee have discussed, would not 
only improve our preparedness for future attack, but also 
strengthen these partnerships, thereby helping to prevent a 
future attack.
    Earlier this month, the President signed an executive order 
appointing me as Director of the Transition Planning Office for 
the Department of Homeland Security, to be housed within the 
Office of Management and Budget. While I will still retain the 
title of Assistant to the President for Homeland Security, my 
testimony today will be given as Director of this new entity.
    This proposal was the result of a deliberative planning 
process that really began with an effort led by Vice President 
Cheney a year ago, in May of 2001, and continued as part of the 
mission of the Office of Homeland Security when it was created 
on October 8, 2001, as well.
    My staff and I have met with thousands of Government 
officials at the Federal, State and local levels, with hundreds 
of experts and many, many more private citizens. Throughout 
these discussions, we have constantly examined ways to organize 
the Government better.
    The President's proposal also draws from the conclusion of 
many recent reports on terrorism, reports by blue ribbon 
commissions such as Hart-Rudman, Bremmer and the Gillmore 
Commissions, as well as a variety of reports from the many 
think tanks who have really investigated the issues relating to 
international terrorism and homeland security over the past 
several years.
    It also draws, admittedly--and proudly I might add--from 
the legislative proposals of Congressmen and Congresswomen, 
including Mac Thornberry and Jane Harman, Ellen Tauscher, Jim 
Gibbons, Saxby Chambliss and others, along with Senators Joe 
Lieberman and Arlen Specter and Bob Graham.
    This historic proposal would be the most significant 
transformation in the U.S. Government since 1947. The creation 
of this department would transform the current, rather 
confusing patchwork of Government activities related to 
homeland security into a single department whose primary 
mission--whose primary mission is to protect our homeland.
    Responsibility for homeland security is currently dispersed 
among more than 100 different Government organizations, and the 
President believes--and I sense that it is a belief shared with 
many Members of the Congress of the United States, both 
Chambers, both parties--that we need a single department whose 
primary mission is to protect our way of life and our citizens; 
a single department to secure our borders, synthesize and 
analyze intelligence, combat bioterrorism and direct Federal 
emergency response activities.
    The proposal to create a Department of Homeland Security is 
one more key step in the President's national strategy for 
homeland security. Like the national security strategy, ladies 
and gentlemen, the national strategy for homeland security will 
form the intellectual underpinnings to guide the decisionmaking 
of planners, budgeters and policymakers for years to come.
    From securing our borders to combatting bioterrorism to 
protecting the food supply, most of the initiatives of the 
Federal Government in pursuing--excuse me, the majority of the 
initiatives the Federal Government is pursuing as part of our 
strategy to secure the homeland have already been discussed 
publicly. We will certainly refine them with the national 
strategy. The strategy will pool together all of the major 
ongoing activities and new initiatives that the President 
believes are essential to our long-term effort to secure the 
secure the homeland.
    Now permit me, if you will, just a few comments with 
regards to details of the President's plan.
    Preventing future terrorist attacks must be our No. 1 
priority. Because terrorism is a global threat, we must have 
complete control over who and over what enters the United 
States. We must prevent foreign terrorists from entering and 
bringing in instruments of terror, while at the same time 
facilitate the legal flow of people and goods upon which our 
economy relies. Protecting our borders and controlling entry to 
the United States has always been the responsibility of the 
Federal Government. Yet this responsibility is currently 
dispersed among more than five major Government organizations 
in five different departments.
    The new department would unify authority over the Coast 
Guard, Customs Service, Immigration and Naturalization Service 
and Border Patrol, the Animal and Plant Health Inspection 
Service of the Department of Agriculture and the recently 
created Transportation Security Administration. All aspects of 
border control, including the issuing of visas, would be 
informed by a central information-sharing clearinghouse and 
compatible data bases. It will be greatly improved in that 
process.
    The new department would unify government's efforts to 
secure our borders in the transportation system that move 
people from our borders to anywhere in this country within just 
a matter of hours.
    Although our top priority is preventing future attacks, Mr. 
Chairman, we cannot assume that we will always succeed. We 
cannot assume--it would be perilous to assume we could create a 
fail-safe system. Therefore, we must also prepare to recover as 
quickly as possible from attacks that do occur.
    The Department of Homeland Security will buildupon the 
Federal Emergency Management Agency as one of its key 
components in this effort. The new department would assume 
authority over Federal grant programs for local and State first 
responders, such as fire fighters, police and emergency medical 
personnel, and manage such critical response assets as the 
nuclear emergency search team and the national pharmaceutical 
stockpile. It would build a comprehensive national management 
system that would consolidate existing Federal Government 
emergency response plans into one genuinely all-hazard plan.
    The department would ensure that response personnel have 
and use equipment and systems that allow them to communicate 
with one another. As the President made clear in the State of 
the Union address, the war against terrorism is also a war 
against the most deadly weapons known to mankind--chemical, 
biological, radiological and nuclear weapons. If our enemies 
acquire these weapons, there is no doubt in anyone's mind, I 
believe, that they will certainly use them. They will use them 
with consequences potentially far more devastating than those 
we suffered on September 11.
    Currently, efforts to counter the threats of these weapons 
are too few and too fragmented. The President believes we must 
launch a systematic national effort against these weapons that 
is equal in size to the threat that they pose, and the 
President's proposal, we believe, does just that. The new 
department would implement a national strategy to prepare for 
and respond to the full range of terrorist threats involving 
weapons of mass destruction.
    The Department of Homeland Security would set national 
policy and establish guidelines for State and local governments 
to plan for the unthinkable, and direct exercises and drills 
for Federal, State and local weapons of mass destruction 
response teams. At the very heart of this particular feature of 
the President's proposal is to develop even stronger 
partnerships with the State and local first responders. The 
homeland will be secure when the hometown is secure, and that 
is why the President believes very strongly that we need to 
have this relationship with the State and local governments and 
build in that relationship as the Federal support for the kind 
of equipment, drills and training essential to build a national 
capacity to be able to respond to these threats.
    The Department of Homeland Security would provide direction 
and establish priorities for national research and development, 
for related tests and evaluations and for the development and 
procurement of new technology and equipment. Additionally, the 
new department would incorporate and focus the intellectual 
power of several important scientific institutions including 
our national labs in this effort.
    Finally, preventing future terrorist attacks requires good 
information in advance. The President's proposal recognizes 
this and would develop a new organization with the authority 
and the capacity to generate and provide such critical 
information. The new department would fuse intelligence, 
integrate intelligence from multiple sources and other 
information pertaining to threats to the homeland, including 
information from the CIA and the FBI, as well as the NSA, INS, 
Customs and the many other departments and agencies that have 
an information-gathering, intelligence-sharing capability 
within this country.
    It would also comprehensively evaluate the vulnerabilities 
of America's critical infrastructure to which many of the 
Members alluded and note the pertinent intelligence against 
those vulnerabilities for the purpose of identifying protective 
priorities and supporting protective steps being taken either 
by the department, other Federal departments and agencies, 
State and local agencies and the private sector.
    The individuals that work for the organizations tapped by 
President Bush for the new department are among the most 
talented and certainly the most capable patriots in our 
Government. We are proud of what they are doing to secure our 
homeland, and we call upon them to continue their crucial work 
while the new department is created. This consolidation of the 
government's homeland security efforts can achieve great 
efficiencies and free up additional resources over time for the 
fight against terrorism. They should rest assure that their 
efforts will only be improved by the Government reorganization 
proposal made by President Bush.
    To achieve these efficiencies, the new Secretary will 
require considerable flexibility in procurement, integration of 
information technology systems and personnel issues.
    Even with the creation of a new department, ladies and 
gentlemen, there will remain a strong need for a White House 
Office of Homeland Security. Homeland security will remain a 
multidepartmental issue and will continue to require 
interdepartmental collaboration and coordination. Additionally, 
the President will continue to require the confidential advice 
of a close assistant. Therefore the President's proposal 
intends for the existing Office of Homeland Security to 
maintain a strong role. The President believes this will be 
critical for the future success for the new office itself.
    During the transition period, Mr. Chairman, the Office of 
Homeland Security will maintain vigilance and continue to 
coordinate the other Federal agencies involved in homeland 
security.
    The President appreciates the enthusiastic, bipartisan 
response from Congress and is gratified by the expressions of 
optimism about how quickly this bill might be passed. Until the 
Department of Homeland Security becomes fully operational, the 
proposed department's designated components will continue their 
mandate to help ensure the security of this country.
    During his June 6 address to the Nation, the President 
asked Congress to join him in establishing a single, permanent 
department with an overriding and urgent mission, securing the 
homeland of America and protecting the American people. 
Extraordinary times call for extraordinary measures. We know 
that the threats are real and the need is urgent. In working 
together, we all know we must succeed in this mutual endeavor.
    President Truman did not live to see the end of the cold 
war, but the war did end, and historians agree that the 
consolidation of Federal resources was critical to our ultimate 
success.
    Ladies and gentlemen, my colleagues in this effort, we, 
too, have that opportunity for leadership and to create a 
legacy that will benefit future generations as well. I thank 
you for the attention you have given my remarks and your public 
expressions of both desire and will to work together to achieve 
our mutual goal that is reorganizing Government to enhance our 
ability to protect our fellow citizens and our way of life; and 
I thank you very much.
    [The prepared statement of Hon. Tom Ridge follows:]
                  Prepared Statement of Hon. Tom Ridge
Introduction
    Chairman Greenwood, Congressman Deutsch, Subcommittee Members, I 
appreciate the opportunity to testify today in support of the 
President's historic proposal to unify our homeland security efforts 
under one Cabinet-level Department of Homeland Security.
    Since the terrorist attacks of 9-11, all of America has risen to 
the challenge of improving the security of our homeland. In partnership 
with Congress, with states and localities, and with the private sector 
and academia, we have worked to map and protect our critical 
infrastructure, including nuclear power plants; to seal our borders 
from terrorists and their deadly cargo; to strengthen enforcement of 
our immigration laws; and to prepare for and prevent attacks involving 
weapons of mass destruction.
    The President believes our nation must now take the next critical 
step by unifying our efforts under a single Department of Homeland 
Security. Only Congress can create such a Department, and I am here 
today to personally convey the President's deep desire to work with 
Members to accomplish this goal. He believes the creation of a single 
Department with a single, clear line of authority would not only 
improve our preparedness for a future attack, but also strengthen these 
partnerships, thereby helping to prevent a future attack.Earlier this 
month, the President signed an Executive Order appointing me as 
Director of the Transition Planning Office for the Department of 
Homeland Security, to be housed within the Office of Management and 
Budget. While I will still retain the title of Assistant to the 
President and Homeland Security Advisor, my testimony today will be 
given as the Director of this new entity. I look forward to responding 
to your questions after providing a short statement on the proposed 
legislation and how it would make Americans safer.
The President's Proposal
    On June 6, 2002, President Bush addressed the nation and put forth 
his vision to create a permanent Cabinet-level Department of Homeland 
Security. Two days ago, on June 18, 2002, I delivered to the Congress 
the President's proposed legislation for establishing the new 
Department. This is an historic proposal. It would be the most 
significant transformation of the U.S. government in over a half-
century. It would transform and largely realign the government's 
confusing patchwork of homeland security activities into a single 
department whose primary mission is to protect our homeland. The 
proposal to create a Department of Homeland Security is one more key 
step in the President's national strategy for homeland security.
    It is crucial that we take this historic step. At the beginning of 
the Cold War, President Truman recognized the need to reorganize our 
national security institutions to meet the Soviet threat. We emerged 
victorious from that dangerous period thanks in part to President 
Truman's initiative. Today we are fighting a new war against a new 
enemy. President Bush recognizes that the threat we face from terrorism 
requires a reorganization of government similar in scale and urgency to 
the unification of the Defense Department and creation of the CIA and 
NSC.
    Currently, no federal government department has homeland security 
as its primary mission. In fact, responsibilities for homeland security 
are dispersed among more than 100 different government organizations. 
Creating a unified homeland security structure will align the efforts 
of many of these organizations and ensure that this crucial mission--
protecting our homeland--is the top priority and responsibility of one 
department and one Cabinet secretary.
    Immediately after last fall's attack, the President took decisive 
steps to protect America--from hardening cockpits and stockpiling 
vaccines to tightening our borders. The President used his legal 
authority to establish the White House Office of Homeland Security and 
the Homeland Security Council to ensure that our federal response and 
protection efforts were coordinated and effective. The President also 
directed me, as Homeland Security Advisor, to study the federal 
government as a whole to determine if the current structure allows us 
to meet the threats of today while anticipating the unknown threats of 
tomorrow. After careful study of the current structure--coupled with 
the experience gained since September 11 and new information we have 
learned about our enemies while fighting a war--the President concluded 
that our nation needs a more unified homeland security structure.
The Department of Homeland Security
    The creation of the Department of Homeland Security would empower a 
single Cabinet official whose primary mission is to protect the 
American homeland from terrorism. The mission of the Department would 
be to:

<bullet> Prevent terrorist attacks within the United States;
<bullet> Reduce America's vulnerability to terrorism; and
<bullet> Minimize the damage and recover from attacks that do occur.
    The Department of Homeland Security would mobilize and focus the 
resources of the federal government, state and local governments, the 
private sector, and the American people to accomplish its mission. It 
would have a clear, efficient organizational structure with four 
divisions.

<bullet> Information Analysis and Infrastructure Protection
<bullet> Chemical, Biological, Radiological, and Nuclear 
        Countermeasures
<bullet> Border and Transportation Security
<bullet> Emergency Preparedness and Response
Information Analysis and Infrastructure Protection
    The Information Analysis and Infrastructure Protection section of 
the Department of Homeland Security would complement the reforms on 
intelligence and information-sharing already underway at the FBI and 
the CIA. The Department would analyze information and intelligence for 
the purpose of understanding the terrorist threat to the American 
homeland and foreseeing potential terrorist threats against the 
homeland.
    Furthermore, the Department would comprehensively assess the 
vulnerability of America's key assets and critical infrastructures, 
including food and water systems, agriculture, health systems and 
emergency services, information and telecommunications, banking and 
finance, energy (electrical, nuclear, gas and oil, dams), 
transportation (air, road, rail, ports, waterways), the chemical and 
defense industries, postal and shipping entities, and national 
monuments and icons. Critically, the Department would integrate its own 
and others' threat analyses with its comprehensive vulnerability 
assessment for the purpose of identifying protective priorities and 
supporting protective steps to be taken by the Department, other 
federal departments and agencies, state and local agencies, and the 
private sector. Working closely with state and local officials, other 
federal agencies, and the private sector, the Department would help 
ensure that proper steps are taken to protect high-risk potential 
targets.
    In short, the Department would for the first time merge under one 
roof the capability to identify and assess threats to the homeland, map 
those threats against our vulnerabilities, issue timely warnings, and 
organize preventive or protective action to secure the homeland.
Chemical, Biological, Radiological and Nuclear Countermeasures
    The war against terrorism is also a war against the most deadly 
weapons known to mankind--chemical, biological, radiological and 
nuclear weapons. If the terrorists acquire these weapons, they will use 
them with consequences that could be far more devastating than those we 
suffered on September 11th. Currently, our efforts to counter the 
threat of these weapons to the homeland are too few and too fragmented. 
We must launch a systematic national effort against these weapons that 
is equal to the threat they pose.
    The President's proposed legislation would accomplish this goal. It 
would authorize the Department of Homeland Security to lead the federal 
government's efforts in preparing for and responding to the full range 
of terrorist threats involving weapons of mass destruction. To do this, 
the Department would set national policy and establish guidelines for 
state and local governments. It would direct exercises and drills for 
federal, state, and local chemical, biological, radiological, and 
nuclear (CBRN) attack response teams and plans. The result of this 
effort would be to consolidate and synchronize the disparate efforts of 
multiple federal agencies currently scattered across several 
departments. This would create a single office whose primary mission is 
the critical task of protecting the United States from catastrophic 
terrorism.
    The Department would serve as a focal point for America's premier 
centers of excellence in the field. It would manage national efforts to 
develop diagnostics, vaccines, antibodies, antidotes, and other 
countermeasures. It would consolidate and prioritize the disparate 
homeland security related research and development programs currently 
scattered throughout the Executive Branch. It would also assist state 
and local public safety agencies by evaluating equipment and setting 
standards.
Border and Transportation Security
    Our number one priority is preventing future terrorist attacks. 
Because terrorism is a global threat, we must attain complete control 
over whom and what enters the United States in order to achieve this 
priority. We must prevent foreign terrorists from entering our country 
and bringing in instruments of terror. At the same time, we must 
expedite the legal flow of people and goods on which our economy 
depends.
    Protecting our borders and controlling entry to the United States 
has always been the responsibility of the Federal government. Yet, this 
responsibility is currently dispersed among more than five major 
government organizations in five different departments. Therefore, 
under the President's proposed legislation, the Department of Homeland 
Security would for the first time unify authority over major federal 
security operations related to our borders, territorial waters, and 
transportation systems.
    The Department would assume responsibility for operational assets 
of the United States Coast Guard, the United States Customs Service, 
the Immigration and Naturalization Service (including the Border 
Patrol), the Animal and Plant Health Inspection Service, and the 
Transportation Security Administration. The Secretary of Homeland 
Security would have the authority to administer and enforce all 
immigration and nationality laws, including, through the Secretary of 
State, the visa issuance functions of consular officers. As a result, 
the Department would have sole responsibility for managing entry into 
the United States and protecting our transportation infrastructure. It 
would ensure that all aspects of border control, including the issuing 
of visas, are informed by a central information-sharing clearinghouse 
and compatible databases.
Emergency Preparedness and Response
    Although our top priority is preventing future attacks, we cannot 
assume that we will always succeed. Therefore, we must also prepare to 
minimize the damage and recover from attacks that do occur. The 
President's proposed legislation would require the Department of 
Homeland Security to ensure the preparedness of our nation's emergency 
response professionals, provide the federal government's emergency 
response to terrorist attacks and natural disasters, and aid America's 
recovery.
    To fulfill these missions, the Department would oversee federal 
government assistance in the domestic disaster preparedness training of 
first responders and would coordinate the government's disaster 
response efforts. The Federal Emergency Management Agency (FEMA) would 
become a central component of the Department of Homeland Security, and 
the new Department would administer the grant programs for 
firefighters, police, emergency personnel, and citizen volunteers 
currently managed by FEMA, the Department of Justice, and the 
Department of Health and Human Services. The Department would manage 
certain crucial elements of the federal government's emergency response 
assets, such as the Strategic National Stockpile. In the case of an 
actual or threatened terrorist attack, major disaster, or other 
emergency, the Secretary of Homeland Security would have the authority 
to call on other response assets, including Energy's and the EPA's 
Nuclear Incident Response teams, as organizational units of the 
Department. Finally, the Department would integrate the federal 
interagency emergency response plans into a single, comprehensive, 
government-wide plan, and ensure that all response personnel have the 
equipment and capability to communicate with each other as necessary.
State/Local Government & Private Sector Coordination
    The Department of Homeland Security would consolidate and 
streamline relations on homeland security issues with the federal 
government for America's state and local governments, as well as the 
private sector. It would contain an intergovernmental affairs office to 
coordinate federal homeland security programs with state and local 
officials. It would give state and local officials one primary contact 
instead of many when it comes to matters related to training, 
equipment, planning, and other critical needs such as emergency 
response.
Secret Service
    The Department of Homeland Security would incorporate the Secret 
Service, which would report directly to the Secretary. The Secret 
Service would remain intact and its primary mission will remain the 
protection of the President and other government leaders. The Secret 
Service would also continue to provide security for designated national 
events, as it did for the recent Olympics and the Super Bowl.
Non-Homeland Security Functions
    The Department of Homeland Security would have a number of 
functions that are not directly related to securing the homeland 
against terrorism. For instance, through FEMA, it would be responsible 
for mitigating the effects of natural disasters. Through the Coast 
Guard, it would be responsible for search and rescue, navigation, and 
other maritime functions. Several other border functions, such as drug 
interdiction operations and naturalization, and would also be performed 
by the new Department.
White House Office of Homeland Security and Homeland Security Council
    The President intends for the White House Office of Homeland 
Security and the Homeland Security Council to continue to play a key 
role, advising the President and coordinating a vastly simplified 
interagency process.
Making Americans Safer
    The Department of Homeland Security would make Americans safer 
because our nation would have:

<bullet> One department whose primary mission is to protect the 
        American homeland;
<bullet> One department to secure our borders, transportation sector, 
        ports, and critical infrastructure;
<bullet> One department to integrate threat analyses and vulnerability 
        assessments;
<bullet> One department to coordinate communications with state and 
        local governments, private industry, and the American people 
        about threats and preparedness;
<bullet> One department to coordinate our efforts to protect the 
        American people against bioterrorism and other weapons of mass 
        destruction;
<bullet> One department to help train and equip for first responders;
<bullet> One department to manage federal emergency response 
        activities; and
<bullet> More security officers in the field working to stop terrorists 
        and fewer resources in Washington managing duplicative and 
        redundant activities that drain critical homeland security 
        resources.
The New Department Would Improve Security Without Growing Government
    The Department of Homeland Security must be an agile, fast-paced, 
and responsive organization that takes advantage of 21st-century 
technology and management techniques to meet a 21st-century threat.
    The creation of a Department of Homeland Security would not 
``grow'' government. The new Department would be funded within the 
total monies requested by the President in his FY 2003 budget already 
before Congress for the existing components. In fact, the President's 
FY 2003 budget will increase the resources for the component parts by 
$14 billion over the FY 2002 budget. We expect that the cost of the new 
elements (such as the threat analysis unit and the state, local, and 
private sector coordination functions), as well as department-wide 
management and administration units, can be funded from savings 
achieved by eliminating redundancies inherent in the current structure.
    In order to respond to rapidly changing conditions, the Secretary 
would need to have great latitude in re-deploying resources, both human 
and financial. The Secretary should have broad reorganizational 
authority in order to enhance operational effectiveness, as needed. 
Moreover, the President will request for the Department significant 
flexibility in hiring processes, compensation systems and practices, 
and performance management to recruit, retain, and develop a motivated, 
high-performance and accountable workforce. Finally, the new Department 
should have flexible procurement policies to encourage innovation and 
rapid development and operation of critical technologies vital to 
securing the homeland.
Working Together to Create the Department of Homeland Security
    President Bush recognizes that only the Congress can create a new 
department of government. During his June 6th address to the nation, 
the President asked Congress to join him in establishing a single, 
permanent department with an overriding and urgent mission: securing 
the homeland of America, and protecting the American people. I am here 
to ask, as the President did, that we move quickly. The need is urgent. 
Therefore, the President has asked Congress to pass his proposal this 
year, before the end of the congressional session.
    Preliminary planning for the new Department has already begun. The 
formal transition would begin once Congress acts on the President's 
proposed legislation and the President signs it into law. Under the 
President's plan, the new Department would be established by January 1, 
2003, with integration of some components occurring over a longer 
period of time. To avoid gaps in leadership coverage, the President's 
proposal contemplates that appointees who have already been confirmed 
by the Senate would be able to transfer to new positions without a 
second confirmation process.
    During this transition period, the Office of Homeland Security will 
maintain vigilance and continue to coordinate the other federal 
agencies involved in homeland security. Until the Department of 
Homeland Security becomes fully operational, the proposed Department's 
designated components will continue to operate under existing chains of 
command.

    Mr. Greenwood. Thank you, Governor; thank you very much.
    The Chair recognizes himself for 5 minutes for purposes of 
questions.
    Governor, as you know, this committee worked hard to pass 
the Public Health Security and Bioterrorism Preparedness and 
Response Act of 2002; and the title of that act, Public Health 
Security and Bioterrorism Preparedness and Response was meant 
to underline the dual-use nature of the programs and the grants 
that we wanted to create.
    We directed the Secretary of Health and Human Services in 
that statute to award grants to States, cities and hospitals 
and other health care facilities and providers to enhance 
education, training, supplies and equipment at the local level 
for bioterrorist attacks and other public health care 
emergencies, many of them naturally occurring.
    The--we noticed in the bill, DOJ--we did that because we 
know that DOJ and FEMA were geared toward more traditional 
first responders, such as fire and police, and we wanted to get 
these grants out to the health care providers.
    In the President's homeland security proposal, these 
bioterrorism programs would be continued to run through HHS, 
but the Secretary of the Department of Homeland Security could 
essentially control the HHS programs by establishing its 
parameters and setting its priorities. The question is, how do 
we make sure that these resources are there to prepare for an 
assault by West Nile virus or a new strain of influenza, so we 
have preparedness for the naturally occurring disasters and 
still are prepared for possible terroristic--bioterroristic 
attacks and how do you see the Secretary coordinating those 
concerns?
    Mr. Ridge. Mr. Chairman, first of all, you and your ranking 
member on the committee need to be congratulated once again for 
the extraordinary effort on the bioterrorism measure. It went a 
long way in helping focus the departments and the Government 
and on the critical need not only now, but in the future in 
dealing with this issue.
    You raise a very important issue that hopefully is dealt 
with to your satisfaction within the legislation. You note very 
appropriately that the public health system really is a dual 
infrastructure. Whether the microbes of an infectious disease 
are brought to us in an envelope from a terrorist or as a 
result of Mother Nature, it is still problematic to citizens 
and communities.
    The Health and Human Services will continue to have an 
independent funding stream to direct the resources to the dual 
infrastructure, the CDC and NIH and other laboratories and 
research facilities as well. But by specific legislative 
language included in this proposal the President submits to 
you, there is a direct responsibility for the new Cabinet 
Secretary to cooperate and coordinate and establish priorities 
in conjunction with the Secretary of Health and Human Services.
    It, incidentally, is a partnership that predated the 
legislative proposal. Secretary Thompson has worked very, very 
closely with the Office of Homeland Security and the White 
House, and in fact, Secretary Thompson and his people worked 
closely with us on the language of this legislation.
    So your interests are appropriate in ensuring that the 
collaboration that preexisted, that this proposal continues to 
exist; and we believe that the language in the President's 
initiative ensures that.
    Mr. Greenwood. Kind of a day-to-day basis, I mean, what 
happens if the Secretary of Homeland Security calls up the 
Secretary of HHS and says, I am concerned about some 
intelligence that we are gathering about the potentiality of a 
bioterrorist assault in a particular part of the country, and I 
would like to marshal some CDC forces out there, and the 
Secretary of Health and Human Services says, I don't think we 
can spare that right now, I am worried about an outbreak of a 
pathogen naturally occurring that the CDC has been monitoring 
in another part of the country; and the two Secretaries become 
less than congenial in their cooperation?
    How do you see that being resolved?
    Mr. Ridge. I think there probably would be a two-step 
process. First of all, since the President seeks to retain the 
Office of Homeland Security within the White House, we will 
continue to have a coordination role. The matter may be 
resolved by the intervention of the Assistant to the President, 
bringing the parties together.
    It is a process that we have used on several occasions 
internally, and I suspect that would be used again. I believe 
that is at the heart of the President's decision to keep that 
Assistant to the President for Homeland Security operational 
within the White House.
    But, second, obviously if there is a disagreement between 
Cabinet members or among Cabinet members, the ultimate tie 
breaker is the President of the United States.
    Mr. Greenwood. So it is your understanding that the 
Secretary of Homeland Security would not be able to say to the 
Secretary of Health and Human Services, I have listened to what 
you have said, appreciate your concerns, now do what I tell 
you--wouldn't have the power to override unilaterally?
    Mr. Ridge. I believe the President preserves the autonomy 
of both Cabinet Secretaries.
    Clearly, the intelligence information that would be 
available to the Secretary of Homeland Security would also be 
available to the Secretary of Health and Human Services; and 
based upon that information, based upon vulnerability 
assessments that are available to both, it would hopefully 
result in an agreement on joint action.
    But in the possible event that a difference of opinion 
would arise, there are tie breakers to move quickly.
    Mr. Greenwood. The Chair recognizes the gentleman from 
Florida, Mr. Deutsch, for 5 minutes.
    Mr. Deutsch. Thank you, Mr. Chairman. And I guess my focus 
is a follow-up on what the chairman mentioned.
    We are getting into some of the details. I think there is a 
concern, just trying to flesh out this issue, of how we 
envision--because we actually think we have done a good job and 
are doing a good job and continue to make strides in the public 
health area that--you know, taking public health into--or what 
would be left.
    What is your vision of what would be left in HHS of public 
health issues after the Department of Homeland Security takes 
out the significant component?
    Mr. Ridge. One of the most critical pieces, I believe, is 
our public health infrastructure. NIH and CDC remain an 
integral and robust part of the Health and Human Services 
research effort, outreach effort and response effort.
    So I think the point of the legislation is to create an 
environment and a means by which the Secretary of Homeland 
Security, working in collaboration with the Secretary of Health 
and Human Services and understanding that the research 
infrastructure preexisted the Department of Homeland Security 
and has a longstanding relationship with Health and Human 
Services, CDC, NIH and the other laboratories to which they may 
refer research--that infrastructure continues to exist.
    And Health and Human Services will obviously have the 
opportunity to come up and work with Congress on public-health-
related issues specifically. But as they work on health-related 
issues, bioterrorism issues, there will be that collaborative 
relationship between the two.
    And when it comes to local preparedness, that grant program 
that heretofore had been in Health and Human Services, will be 
shifted to the Department of Homeland Security. It will be in 
everyone's best interest, however, recognizing the dual nature 
of the infrastructure that exists out there in the public 
health system, that the work is done in collaboration; and that 
is the specific reason that the Secretary of Health and Human 
Services is mentioned in this legislation--in Title III, I 
believe.
    Mr. Deutsch. Again, this is not really in any way a 
critique, but the best result.
    Mr. Ridge. We are trying to work to refine it.
    Mr. Deutsch. Focusing on this issue specifically--and you 
just mentioned it, and that is--our understanding is that the 
public health funding mechanism that HHS does, the department 
will take over all of that. And theoretically--again within 
your mission, or not your person, but the mission of the new 
department, this is again--I guess where the concern lies is 
that in my opening statement, I talked about the fact that I 
think people are doing a much better job. In fact, it is a 
necessary condition that they have responsibility, that they 
have goals and that they achieve those goals.
    Unfortunately, a lot of the things related to public health 
are not what we, I think, really envision as your goal as a new 
department. And I guess the concern I have, and I think many of 
the members of this subcommittee and committee share, is that, 
if anything, we need to be pushing forward on all sorts of 
public health issues that are really not a component of--as you 
said in your answers previous to this, are not really a 
component of bioterrorism or chemical, you know, potential 
weapons of mass destruction against the United States.
    So how do we--I mean, I understand what you are saying. But 
as we are structuring an agency, how do we deal with this 
concern, I think, is a very real question. And I know you 
responded----
    Mr. Ridge. I think you raised a very important point and 
you have offered, as all the committee members have, to work 
with us on refining the language so that it continues to meet 
the goals of the President as well as the committee's goal of 
continuing to buildup a public health infrastructure that has 
been--that has deteriorated over the past decade or so for lack 
of funding; and that refinement we'll just have to work with 
you on as we go about moving this legislation forward.
    But it is clear that the public health infrastructure, any 
investment from--either directly from Health and Human Services 
or Homeland Security will end up having dual value, one in 
combating terrorism, another just making our public health 
system more robust and, frankly, long-term, improving the 
overall health of the country generally.
    So working out that refinement with you in the language to 
make sure that we meet both objectives is certainly something 
we want to do.
    Mr. Deutsch. I see my time is running out. I would like to 
ask one much more general question, which is, what lessons have 
we learned and going forward at this point in the creation? 
Obviously we talked about what happened post-World War II and 
the creation of the National Security apparatus. But really, 
the more recent agencies, the Department of Energy, other 
agencies in terms of their creation. And I've read a number of 
press accounts of just historically your interviews with people 
that the creation of a new department almost by definition has 
inherent bureaucratic problems in terms of staffing issues, in 
terms of other issues.
    I mean, how are you approaching the just systemic problems 
of, you know, creating that large of a bureaucracy, and what's 
the apparatus that you have in place at this point in time to 
deal with some of those acknowledged issues that you will face?
    Mr. Ridge. Congressman, first of all, the legislation 
provides from the effective date a year transition period, 
because clearly your ability to aggregate all these people and 
all these departments and the infrastructure is certainly going 
to take some time. And so there is a year transition process. 
And you and I can well imagine that it will probably take even 
longer than that to get the kind of specific changes and 
refinements we need to maximize the effectiveness of this 
organization. But we have got a good period of time, a year 
transition.
    Second, the President has asked in his proposal that the 
new Secretary be given more flexibility and greater agility in 
order to deal with issues such as the information system 
integration procurement and, for that matter, personnel. And 
depending on the wish and will of the Congress of the United 
States investing in the new Secretary the ability--the 
flexibility to deal with some of these issues I think would 
depend how quickly we can get the system operating to maximum 
effectiveness.
    Mr. Greenwood. The Chair thanks the gentleman, and 
recognizes the Chairman of the full committee, Mr. Tauzin.
    Chairman Tauzin. Thank you, Mr. Chairman.
    Governor Ridge, I hope you will give me a minute just to 
get something off my chest. There is a lot of work in this bill 
and a lot of work that I know you are doing in terms of 
securing our borders, and they need to be secured, but there's 
three points I want to quickly make.
    One is that the instruments for terrorists to use against 
our people are here. The jet fuel that was exploded at the 
World Trade Center and here at the Pentagon was made in 
America. The airplanes were built in America. And the fuel 
trucks and the ambulances that a couple of people in New Jersey 
were trying to buy this week were made in America. And I 
suspect that we haven't paid enough attention to that. We had 
better, that someone with an evil intent against our people 
doesn't have to bring a doggone thing in through our borders. 
We have got a lot of stuff right here in America that they can 
turn against us if they are evil enough and intentional enough 
to do it.
    Second, the terrorists are here. They are not in 
Afghanistan. If anybody has not seen Jihad in America, pick it 
up from PBS. The cells are operating not just in New York and 
Washington, but in little communities all over this country, in 
St. Louis, in New Orleans, in Kansas City and communities all 
over this country. They are here, they are operating, and they 
have come in under student visas. And in the 1990's, I started 
an effort to try to do something about students, and could not 
get any attraction to the issue. But we have let people in 
under student visas and left it entirely up to the school to 
track their movements. Some of them never registered to go to 
school; if they did register in school in English, they could 
switch to chemical engineering or nuclear engineering, for all 
we know, and nobody ever notified the State Department. And if 
they graduated or if they left, nobody notified the State 
Department, and they have settled in in communities all over 
this country. And we need to face that fact. We have let them 
in and they are here, and they are waiting for new 
instructions. And we had better face that fact. And the 
information they need to do is harm is so readily available in 
a free society. We really have to be careful.
    In the 1960's, 1970's, in the State legislature in 
Louisiana, I tried to require a--pass a bill to require the 
desensitization of something as common as ammonium nitrate 
fertilizer and make sure you wouldn't mix it with fuel oil and 
make a bomb. Couldn't get any traction on it. This committee 
held hearings on this issue. But a guy named McVeigh simply had 
to go in an agriculture center and buy some fertilizer and go 
to a hardware store and buy a few canisters of butane gas, and 
he built a bomb that took down a Federal building.
    We predicted that in the 1970's when we were debating 
whether we should desensitize ammonium nitrate fertilizer 
before it's sold in the markets. Information about how to do 
that is on the Internet. Information about how to use thousands 
of available chemicals and products we make in America to turn 
them into weapons of destruction, here in America, not 
imported, not bringing a doggone thing in through a ship or a 
plane, but right in this country, the information on how to use 
those things, readily available.
    You have got an awesome task; we have an awesome task. But 
we have to face the facts: We have let the enemy in; he resides 
among us; and he is prepared to use the things, the common 
things in our lives to turn them against us, to do us harm. And 
a free society, a Nation that prides itself on freedom of 
information and a free access to goods and supplies and 
information suddenly is challenged about how to balance all 
those incredibly important rights that make us special, make 
this country special, against now the threat that lives at home 
with us in our own neighborhoods. And, this department is going 
to be critical.
    And I want to ask you a couple of questions about it, but I 
want to make that statement first, because I hope everyone 
realizes just how serious this business is, and how creating a 
department with the absolute buck-stops-here authority to 
organize and coordinate and to do anything within our legal 
system to stop these people from harming our citizens here in 
America now, unlike any threat we have faced in the history of 
our country, is going to be simply awesome, and we have got to 
do this thing right.
    I noticed in the President's proposal, for example, that 
the Freedom of Information changes. The changes you recommend 
being made about providing new protections against public 
disclosure of some sensitive information is limited only to 
information that's provided voluntarily, and is non--it is 
provided by non-Federal entities with respect to critical 
infrastructure activities. I wonder why that's limited. I 
wonder why, when the government compels a private entity, such 
as a safe water drinking facility or an electric generation 
facility or a manufacturing plant that's manufacturing critical 
components--when the government complies, they have to submit a 
vulnerability assessment, and it's under government requirement 
mandate to do so, why we couldn't protect that information as 
much as we would protect information that's voluntarily 
supplied. I hope you look at that.
    Mr. Ridge. We will.
    Chairman Tauzin. I hope you look at whether or not the non-
Federal entity limitation is a good one, or whether there are 
some Federal entities that may supply information to your--to 
our new Department of Homeland Security that ought not be in 
the public domain; that may be accessible by the right persons 
in the government, but nevertheless protected from disclosure 
on the Internet because it may open the door to some sort of 
road map for destruction. We need to be careful, very careful 
about that, as we go down the future.
    I notice in the bill, Governor Ridge, that one of the R&D 
programs, nuclear smuggling, is exempted from complete transfer 
to the Homeland Security office, that it suggests instead that 
the DOE jointly operates the program. I wonder if that isn't a 
better model for a number of R&D programs. And I would--you 
don't need to respond today, but I would love your office, 
before we act on this proposal, to explain to us why that model 
wouldn't work for a number of the other R&D programs which are 
equally sensitive as nuclear smuggling might be in terms of 
joint operation, rather than simple pure transfer out of the 
department.
    I want to emphasize the points that Mr. Waxman made about 
our public health entities, and I believe Chairman Greenman 
made it, too. When we debated the bioterrorism bill, we were 
very, very careful not to create a special unit at the CDC that 
strictly related to terrorist attacks to our public health, 
because, frankly, when an outbreak of infectious disease hits 
or something else happens in this country, we don't know at the 
start how it happened, we just know we have got a problem on 
our hands. CDC has to respond whether it's a terrorist or 
whether it's a natural pathogen in our society. And we have to 
be careful that we don't create a situation where bureaucrats 
have to first debate where to send the issue before we can 
respond. And I would hope that as we evolve this new 
department, we are careful about that.
    I would like to point out to the committee again in regards 
to my opening statement, we discovered just last week that the 
smallpox--rather, the anthrax bacteria that was sent in the 
mail was probably cultured here in America, not brought in over 
borders, again, but cultured here in America and may be 
cultured again in America.
    CDC needs to respond whether it's someone culturing it in a 
lab and it accidentally gets out, or someone has got an evil 
intent in sticking it in the mail trying to kill people. They 
have got to have a clear capacity to respond and not wait for 
some bureaucrat to say, ``Okay. We don't think it's a terrorist 
attack, so you are in charge instead of us.'' that's a very, 
very sensitive decision we have to make.
    I want to also mention that in regard to--in regard to the 
President's proposal, there is a proposal in here to give the 
new Secretary authority to take, seek--or, seek to effect 
protective measures to secure critical assets, including those 
in the private sector. I mentioned this in the opening 
statement, but I hope you pay an awful lot of attention. I want 
to look at this very carefully before we complete action on 
this bill.
    The last thing we need is to create another bureaucracy 
with regulatory authority in this area, and I would hope this 
is not designed to do that. And we are going to be watching 
very carefully that this truly represents an effort to 
coordinate the public/private partnership rather than creating 
new lines of authority that are going to contradict other 
regulatory agencies of the government in some of these private 
sector operations.
    Finally, Governor Ridge, I think one of the best pieces of 
information and advice that came to the President the other day 
at our meeting with you came from John Dingell of Michigan, the 
ranking member of our full committee, who pointed out to the 
President and to you--and I wanted to emphasize his words 
again--that we have seen in the past creation of Federal 
agencies cobbled together out of pieces of different other--
different agencies, with other different cultures and with 
other different organizational structures. We have seen the 
creation of some big messes. He cited the Energy Department as 
one. I want to second that.
    The Energy Department represents one of the most difficult 
organizations in the government to manage because it was 
cobbled together, with all sorts of different pieces, some of 
which contradict one another; there are fiefdoms all over that 
department that don't cooperate with one another, that the 
right hand doesn't know what the left hand is doing, and 
wouldn't want to know if it was told.
    The problems inside the Energy Department are not because 
of the--of any particular leaders, and Mr. Abraham is doing his 
best, as you know, to manage that department, as other 
Secretaries have done before him. It was a problem inherent in 
the way it was constructed.
    I would urge you and the President to pay special attention 
to Mr. Dingell's words here, as we cobble together a new 
department, one that may be more critical than any we have ever 
cobbled together in a long, long time. I would hope that you 
pay special attention to the pieces you put together, and to 
make sure we don't create another mess like we have created 
with the Energy Department.
    Thank you, Mr. Chairman.
    Mr. Ridge. Thank you very much for your commentary, your 
observations, and the recommendations and concerns you have 
expressed. Let me just try to summarize a quick response, 
noting the many interests and concerns you have with the 
legislation: That a good organization isn't necessarily a 
guarantee of success. A flawed organization is guarantee of 
failure. And that's why we believe that working together with 
Congress as we refine the ideas and address the concerns, 
hopefully, we can avoid the pitfalls that have undermined 
earlier reorganization efforts, and never really led to the 
unity of command and the kind of effectiveness that I think 
those who had organized it way back when had intended and had 
hoped. We need to avoid all those pitfalls as we ramp up this 
new organization.
    Mr. Greenwood. The Chair thanks the gentleman, and 
recognizes for 5 minutes for inquiry the gentleman from 
Michigan, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman.
    Governor Ridge, you said in your statement that homeland 
security works when the hometown is secure. I want to talk a 
little bit about IBETs and some of the intelligence-gathering 
stuff that we have going on in this country. The IBETs, as you 
know, are Intelligence Border Enforcement Teams, and there are 
13 of them, and after September 11, I think Customs did a 
pretty good job. But I want to point out where I think there is 
a gaping hole. I want to see if this is still driven by 
Customs, or will Homeland Security now take charge.
    Thanks to my friend here, Mr. Strickland, here is Michigan. 
It's just a map of Michigan. You have an IBET down here in the 
Detroit area, right down here. And that comes right around 
here, so that's pretty much covered here. But then you don't 
have another IBET until you get way over here to Thunder Bay, 
Canada. So all this area in here--and by the way the crow 
flies, if you did a straight line, it's about 700 miles. But 
where we have a lot of activity is here in Sault Sainte Marie, 
Canada.
    Mr. Ridge. Right.
    Mr. Stupak. And that's about 700 miles. When you come over 
here, the islands are right here by Drummond and then the 
Channels. It's very easy, St. Mary's River, are very easy to 
cross. It's a major hole in our IBETs. So my question is, if 
you are going to do an IBET, who will make that determination 
now? Customs? Or will Homeland Security?
    Mr. Ridge. Customs will be an integral part of the 
reorganization effort. Interestingly, you talk about this 
rather unique alignment of multiple agencies led by Customs. 
Because when I complete the hearing today, I am going to spend 
a little time with some of the officials that are running one 
down in Key West. It's a good model. It's been very effective 
where it has been deployed. I see no reason why the new Cabinet 
Secretary would do anything other than to try to continue to 
enhance and empower its activity.
    As you know, the President in his 2003 budget proposal also 
calls for I think the largest increase in support for the Coast 
Guard ever. We need additional people and boats and platforms 
to buildup their capacity, because clearly now border security 
and port security has taken on an enhanced dimension. So----
    Mr. Stupak. But then who would do an IBET then? Coast Guard 
or Homeland Security now?
    Mr. Ridge. Well, by definition, if the Coast Guard's doing 
it under the new department, Homeland Security would be doing 
it. Again, it is a best practice that I would suspect that the 
new Secretary would continue to try to deploy. It has proven to 
be successful.
    Mr. Stupak. Well, at these IBETs, and even--we don't have 
an IBET here at Sault Sainte Marie, where I think we should. We 
do have the Sault Area Intelligence Committee, and they are 
working with the Canadians, and we have 12 Federal agencies 
working out here trying to help secure the border here. But the 
problem with that one--that's one of the problems we are 
concerned about--is, while you have 12 agencies working well 
with the Canadians and all the local and county law 
enforcement, no is one is in charge. You have 12 agencies. They 
are all working together cooperatively--and I don't mean to be 
critical of what they do. I think they do a great job. But if 
something happens or if someone has to call a shot, we are 
going to do this, there is no one there who is in charge. And I 
think that's one of the problems we have when we start talking 
about security at our borders and elsewhere. And I would hope 
the new Homeland Security would have, at least at these area 
intelligence committees, someone to go to. Who is the go-to 
person in that local area, is what we sort of need to do.
    Mr. Ridge. You highlight a feature of border security that 
became evident to me as we put together a team from Customs and 
Coast Guard and INS and other agencies that deal with border 
security to develop a 21st century smart border accord with our 
friends in Canada.
    Mr. Stupak. Sure.
    Mr. Ridge. That's an ongoing process, where we look to 
critical review of our infrastructure, protective 
infrastructure, and how we facilitate the flow of people and 
goods, at the same time enhancing security.
    So under the new agency, the coordinating function to a 
certain extent would be replaced by a command function, because 
you have Customs in one department, you have INS in one 
department, you have Border Patrol in another.
    Mr. Stupak. FBI.
    Mr. Ridge. Now, under the President's proposal, they would 
be all aligned singularly under an under secretary. So I think 
you will enhance the effectiveness of that kind of program, 
because you now have a command structure that can direct that 
it be done. And it is a good practice.
    Mr. Stupak. But if it's the IBET or like the Sault Area 
Intelligence Committee, I guess what I want to know, so we 
aren't pointing fingers like we do after September 11, where 
would I go to get full accountability on the issue? Who or what 
department--and, as we say--does the buck stop here? And, will 
the department order Customs to do it, the new department? Who 
is going to have the accountability? Where does the buck really 
stop with that new proposal?
    Mr. Ridge. I think it's a very appropriate question that 
you've asked, because you want the authority to get things 
done, be aligned with the accountability. And, at the end of 
the day, that will be determined by the new Cabinet Secretary. 
But----
    Mr. Stupak. So the Cabinet Secretary would be----
    Mr. Ridge. Clearly, I think that's the primary reason 
behind the President's reorganization effort aligning authority 
with accountability.
    In here, what you finally have is a consolidation of the 
many agencies involved in IBET under one command structure. You 
can do--you can go so far trying to coordinate activity among 
organizations. I think you can go even further when you can 
command activity among organizations. And now I think you have 
a unitary command structure that will enhance the capacity of 
those multiple agencies to do that kind of job.
    Mr. Stupak. Well, when you see your Florida IBET, I would 
be interested in seeing your reaction to it, and see if there 
is one person in charge down there, or are we still all 
cooperatively.
    Mr. Greenwood. The time of the gentleman has expired.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Greenwood. The Chair recognizes the gentleman from 
Kentucky, Mr. Whitfield, for 5 minutes.
    Mr. Whitfield. Thank you, Mr. Chairman.
    Governor Ridge, Chairman Tauzin touched on a matter that 
I'm interested in and I'm sure other members of the committee 
are also, and that was the FOIA protection in the President's 
proposal being limited to voluntary information supplied by 
non-Federal entities. And, as he has indicated, EPA and others 
sometimes require entities to provide vulnerability 
assessments, which, under the President's legislation, would be 
subject to a FOIA request. Is that an issue that you all are 
willing to revisit and determine whether or not his proposal 
would be subject to change in that area, or not?
    Mr. Ridge. Yes, it is, Congressman. I mean, the legislation 
as drafted was directed specifically at a problem that has been 
experienced by a lot of the Cabinet Secretaries, and even 
during the work of the Office of Homeland Security, and that 
is, getting an understanding that 80 to 90 percent of the 
critical infrastructure in this country is owned by for-profit 
entities. And they are anxious, just as all Americans are, to 
help. They are anxious to participate. They want to let the 
government know, for a variety of reasons, where they view 
themselves as vulnerable. As--the companies are custodians of 
not only the proprietary interests, but they're neighbors in 
communities, they're corporate citizens, and have a 
responsibility to all these different groups. But they are 
not--our sense is that they would be a lot more forthcoming 
voluntarily in sharing this kind of information with us if it 
was part of a limited exemption to the Freedom of Information 
Act.
    So whether or not we expand it is certainly worth 
consideration, not only in this bill but down the road in the 
years ahead.
    Mr. Whitfield. Okay. Well, thank you, Governor. And I 
notice also that some of the transferred functions that would 
be coming into the new department relate to DOE's non-
proliferation work with certain countries, and particularly 
Russia. And this is a little bit parochial interest of mine, 
narrowly focused, and maybe you don't know the answer to it, 
but recently DOE entered into a new agreement with the United 
States Enrichment Corporation to be the executive agent for 
bringing in enriched uranium from Russia as a part of the non-
proliferation efforts in that country. Is that the type of an 
agreement that would be transferred to the new agency, or would 
that remain with the National Security Council? Or do we know?
    Mr. Ridge. That kind of agreement as presently drafted, I 
believe, with remains with the National Security----
    Mr. Whitfield. Okay.
    Mr. Ridge. [continuing] apparatus of this country.
    Mr. Whitfield. Okay.
    Mr. Ridge. You should know that the agencies and 
departments and programs that we have drafted into the 
Department of Homeland Security has been done with very close 
collaboration with the Department of Energy and others. And 
because of the complex nature of these programs--you just 
alluded to one of them--there are international aspects to this 
that involve issues that are related to homeland security, but 
also involving the Department of State and the National 
Security Advisory and the like. So, we have been very careful 
in drafting these programs. But that would remain with the 
national security apparatus of this country.
    Mr. Whitfield. I notice that we have some private 
companies, like FedEx and the Port of Virginia that are 
actively testing and pursuing installation of radiation 
detection devices throughout their systems right now. But there 
are no Federal standards in this regard for radiation detection 
devices, and there is no single Federal entity to which the 
companies can look to guidance--for guidance and support. Will 
this new Department of Homeland Security be able to assist in 
providing leadership in that area for these private companies 
that want to pursue this?
    Mr. Ridge. Congressman, you've raised that question; 
Congresswoman Harman has raised that question. Literally dozens 
of your colleagues have done the same thing.
    It is the purpose of the creation of the unit within 
Homeland Security of weapons of mass destruction 
countermeasures, and to involve a means by which we can 
establish the kind of standards and the point of access so the 
companies can work--know, one, the standards that we would like 
their equipment to meet; and, two, a point of access to get 
their equipment, their technology tested against those 
standards.
    So, again, this is a work in progress, but develop a center 
of excellence around the Lawrence Livermore Lab, but using the 
other national labs and the other research facilities in this 
country, we would hope to, one, create a point of access for 
testing and evaluation; and, two, as we develop national 
strategy, to set national standards.
    One of the big challenges we have in setting a--in 
developing a national strategy over a Federal system is we 
can't necessarily dictate to State and locals or Federal 
agencies, for that matter, the kinds of equipment that they 
must acquire or purchase. But by setting standards, we can go a 
long way in making sure that the equipment, from whomever the 
vendor might be, is interoperable with the other equipment that 
may be needed at the time.
    Mr. Whitfield. Thank you.
    Mr. Greenwood. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Ohio, Mr. Strickland, for 5 
minutes.
    Mr. Strickland. Thank you. And my friend from Michigan has 
a quick question here. I do have some questions, but I will 
yield the time to him temporarily.
    Mr. Stupak. Thanks.
    Exactly on that point, on the radiation detection issue. 
Customs said we are going to do it, and then Customs says we 
know nothing about it, so they give it to DOE. DOE says we 
don't know anything about it, so we give it to Lawrence 
Livermore now. So now we have three ways down the scale. Who is 
making the decision? Who is going to be ultimately responsible 
and accountable? This has been going on for some time.
    Mr. Ridge. It has.
    Mr. Stupak. And someone has got to say enough is enough. 
Let's get the decision done. Let's get it made. Here, you have 
got Customs in saying, do this. Then they say, well, we really 
don't know anything about it, so we will give it to DOE. They 
contract to DOE; DOE says, yeah, good idea. We should do a 
standard, but we don't know what it is. Let's contract to one 
of our labs.
    Now we are three ways down the ladder and three rungs down 
the ladder. How is this ever going to get done? We need someone 
to take the bull by the horns and say get it done.
    Mr. Ridge. Congressman, I think you reflect a challenge not 
only for Homeland Security in terms of how those three 
departments operate, but overall the operation of the Federal 
Government. You know, bringing some kind of a concerted effort 
to resolve these issues and getting someone to make a decision 
based upon a national strategy, national priorities, and 
national vulnerabilities is what needs to be done, and that is 
at the heart of the President's proposal.
    One, the Department of Homeland Security, where this kind 
of issue can be resolved once a strategy is developed, 
priorities have been developed based on vulnerabilities and 
threat assessments, and then targeting the research, the 
appropriate research dollars to that end.
    We have a fairly robust and fairly expansive and expensive 
series of research and development activities within the 
Federal Government. It's ad hoc, and at least under the 
umbrella of the Department of Homeland Security, those kinds of 
efforts relating to protecting our way of life and our citizens 
would be given, I think, a strategic focus, long overdue, as 
you pointed out in your question.
    Mr. Stupak. Right. And in this whole thing, we have 
entities willing to install the equipment, we have vendors 
willing to sell the equipment. How do we bring it all together 
is really sort of the crux. Going back to the accountability 
issue, we have vendors, again, willing to sell, you have got 
people willing to install. But what do we install? What's the 
standard? How do we do it? That's--that's the part we have got 
to get our hands on, and I'm just looking for more specific 
proposals in the President's legislation that would put someone 
in charge to get it done, to get that accountability.
    Mr. Ridge. Well, I think if you take a look at the one unit 
in there that deals with research and development and science 
and technology, that is the President's intention, that the 
centerpiece of the strategic--the strategic direction for 
homeland security research and development would be here. It 
would be through the Lawrence Livermore Laboratory. You would 
have centers of excellence at some of the other laboratories. 
We have got an extraordinary system of academic research 
institutions around this country. I mean, we have got plenty of 
people who are prepared intellectually with the laboratories 
and the experience to direct their focus once the Federal 
Government decides where that--where that research should be 
directed. We have got plenty of people out there that can help 
us do it, once we give them specific direction. We don't do it 
now. We just do it on an ad hoc basis.
    Mr. Strickland. Mr. Secretary, I just wanted to share some 
information that was in the Youngstown Vindicator regarding the 
possible location of the new department, and just to let you 
know that Youngstown, Ohio would be more than happy to provide 
a home for your new department. There has been some discussion.
    Mr. Ridge. I thought maybe in Pennsylvania somewhere. But 
apparently----
    Mr. Strickland. That's exactly what I was thinking.
    Mr. Ridge. We can get close to the river.
    Mr. Strickland. Sir, so that we both can benefit. But I 
have been thinking about this new department since the 
President has made his proposal, and one of the things that has 
concerned me is the fact that it appears that there was at 
least some failure to analyze data and to communicate data and 
so on. And I've been wondering how this new Secretary who is 
going to be responsible for homeland security is going to be 
able to do what they need to do--he or she needs to do if they 
don't have some direct authority over the agencies that are 
most responsible for intelligence in this country, specifically 
the FBI. And I'm wondering, how will the new Secretary be able 
to assure us and the Nation that the failures that have been 
identified in terms of not only data collection but data 
analysis and dispensation and the sharing of data and so on, 
how will the Secretary be able to deal with that problem, if it 
continues to exist, without having some direct authority over 
that agency?
    Mr. Ridge. Congressman, your question goes to the heart of 
the ultimate desire of the President, the Congress of the 
United States, and the people of this country, must do 
everything we can to prevent the attacks from occurring in the 
first place. And at the very heart of that effort is acting on 
credible intelligence and information, interdicting and 
preventing the attacks from occurring.
    By specific legislative language, the Congress of the 
United States will empower the new Secretary to secure the 
reports and the assessments and the analytical work done by the 
CIA and the FBI, but also be empowered to get the information 
and intelligence that any other agency generates. This is an 
historic new capacity within the intelligence community, 
because within the Department of Homeland Security there will 
be an integration and fusion function that heretofore has not 
existed. It will be based upon whether or not that assessment--
there are credible assessments with regard to threats, because 
in the same department you will match that up against potential 
vulnerabilities. More often than not, private rather than 
public. But if you have a credible threat targeted to a 
specific sector, to a specific company, to an area, you will be 
able to match and take a look at the vulnerabilities that may 
exist there, and then, again, in the same department have a 
recommendation of prescriptive or protective measures to be 
taken in response to the threat based upon the vulnerability.
    Let me just say, if I might, that the President believes 
very, very strongly that the CIA, which obviously gathers from 
time to time information that is relevant to domestic 
terrorism, also secures information with regard to terrorism 
around the world, also is involved on a daily basis with 
securing information with regard to challenges from sovereign 
states. Weapon systems, biochemical systems, and the like. So 
the portfolio of responsibilities for the CIA far, far exceeds 
just the targeting of domestic terrorist information.
    The President also believes very strongly that there is a 
direct line of authority, the DCI to one person in the 
executive branch, and that's directly to the President of the 
United States.
    The President also believes that the FBI should remain an 
integral part of the chief law enforcement agency of this 
country, the Attorney General's Office.
    But again, by specific legislative language, if the 
Congress adopts the President's proposal, you will create a new 
capacity of intelligence, integration, fusion, analysis, and 
then application. Because the reports and the assessments--the 
Phoenix memo would come to the new agency. Prior to this 
legislation, the Phoenix memo might have been lost in the 
department, in the FBI; but as the language is written with 
regard to the President's new Department of Homeland Security, 
the Phoenix memo would obviously be shared internally, but also 
be a piece of the information, the gathering that the FBI has 
done that would be shared with the new Department of Homeland 
Security.
    Mr. Greenwood. The time of the gentleman has expired.
    Mr. Ridge. I'm sorry. It's a long-winded answer to a very 
appropriate question.
    Mr. Greenwood. That's what we are here for.
    Mr. Ridge. All right.
    Mr. Greenwood. The gentleman from Kentucky is recognized 
for 5 minutes.
    Mr. Fletcher. Thank you, Mr. Chairman.
    And, Governor, I want to thank you. I know we all have some 
questions how this new agency will operate. I think there is 
very little question as to your capability of leadership and 
the choice that the President has made in you. So I want to say 
thank you for your leadership thus far.
    As I look over your testimony, and of the three really 
mission areas of this new agency, to prevent terrorist attacks, 
reduce America's vulnerability, and minimize the damage and 
recovery from attacks that do occur, I think I understand a 
little more clearly the prevention portion and kind of the 
reducing vulnerability. In the minimizing the damage and more 
in the response, as I understand it, if there were a major 
terrorist attack today, of whatever type it might be that the 
roles and responsibilities of the various Federal agencies that 
respond to such emergencies are currently well-defined in the 
Federal response plan.
    Mr. Ridge. Right.
    Mr. Fletcher. The FBI would be the lead for the crisis 
management portion; FEMA would lead for consequence management; 
and, if the attack occurred overseas on foreign soil, then the 
State Department would take the lead. And there are various 
other scenarios as well where the lead Federal agency may 
change.
    I think we have all been assured that this seemingly 
convoluted system would work and that everyone would understand 
the chain of command in it. But under this new plan, let me ask 
you, would the new Homeland Security Secretary be the lead 
Federal agency for all events, whether criminal or whether of 
natural origin, whether domestic or foreign? How would that be 
sorted out?
    Mr. Ridge. I believe it is the intent of the President that 
the unit within the new department dealing with the emergency 
preparedness and response become an all-hazard agency, and that 
is the Federal Emergency Management Agency. Heretofore, it 
would be responsible for the consequence management of acts of 
nature and potentially even horrific accidentally caused acts, 
such as the fires out in Arizona, but under the President's 
proposal become the lead agency to respond to both terrorist 
incidents and natural incidents as well.
    Mr. Fletcher. Well, what--given that, and the FBI--say you 
went back to an event like 9/11--of course, the Justice 
Department, there is criminal investigations of the Department 
of Defense.
    Mr. Ridge. Right.
    Mr. Fletcher. How would you see as far as the leadership 
role of the Secretary of the agency in responding? What roles 
would the FBI take? Would they still lead the criminal aspect 
and FEMA the natural disaster, if it were a different 
situation? And what would the new Secretary's responsibility--
and who would be the lead--who is going to be the boss in some 
of these decisions?
    Mr. Ridge. First of all, I would share with you that at the 
time the disaster occurs, I think the lines are--between law 
enforcement and FEMA are very much blurred, because the natural 
impulse of the men and women who rush to the scene, whether 
they are police, firefighters, emergency medical folks, or 
civilian volunteer, are to save as many lives as possible. And 
so I think you'll find that the first responders at the scene 
as you go about trying to save lives as quickly as possible 
will ultimately have the responsibility. That means as soon as 
FEMA can get to the scene, they would oversee the response and 
recovery effort. That is not to exclude, if the circumstances 
warranted, the FBI from the very beginning trying to preserve 
whatever evidence there might be at the scene. But as we have 
discovered in the two horrific--in the multiple horrific events 
around 9/11, the first impulse is to save lives. And that's 
exactly what they did. And the information that the FBI has 
gleaned isn't so much from the scene of the crime, it's from 
other sources as they patch together the profile of the 
terrorists and learned what they did and how they did it in 
preparation of the 9/11 tragedies.
    Again, the anthrax is a little bit different situation 
where you really had to have a collaborative effort at the 
scene.
    So I think it's going to vary from incident to incident. 
But at the end of the day, I believe you are going to have--you 
need FEMA to be in charge of the response. Mr. Fletcher. Then 
the FBI would still maintain control and the lead of the 
criminal aspect of it?
    Mr. Ridge. Correct.
    Mr. Fletcher. FEMA, kind of the first response and the 
humanitarian----
    Mr. Ridge. Right.
    Mr. Fletcher. To make sure to reduce the loss of life, and 
recovery.
    Mr. Ridge. Correct. Interestingly enough, when I visited 
Fort McClellan in Alabama where they are preparing first 
responders to get to the scene, they were training the firemen 
and the emergency medical technicians and others to be 
sensitive, depending on the scene and the kind of incident, 
about the necessity of trying to preserve what might be viewed 
later as evidence. And, at the same time, they were training 
the police, the local police, the State police, the auxiliary 
police, how to respond in a more traditional life-saving 
capacity.
    So there is a sensitivity within the first responder 
community to protect each--to support each other in the long-
term--with regard to their long-term duties. But the first 
response when people get to that scene is to save lives, not to 
gather evidence. But then it sorts itself out down the road.
    Mr. Fletcher. And I think, certainly, as this goes along I 
think, at least in my mind, it would help to be a little more 
clear of, you know, who is going to be in charge of what, 
who's--because one of the problems you have in management is 
always if you have two or more bosses, it makes it very 
difficult where the responsibility lies in a lot of these 
issues.
    Mr. Ridge. Clearly, the law enforcement function related to 
a terrorist incident, the investigation, the follow-on would 
vest in the Federal Bureau of Investigation. I mean, hopefully, 
there is no confusion there. Where there is confusion from time 
to time is who is in charge as soon as the incident occurs. And 
the experience that America witnessed and participated in on 9/
11, people didn't pay any attention to the authority given to 
them by virtue of the badges, whether it was law enforcement or 
first responder. The first impulse is, let's go in and save 
lives. Then you have a very appropriate delineation of 
responsibilities. But the investigative, the law enforcement 
side of this still belongs to the FBI.
    Mr. Fletcher. Thank you. I see my time has expired.
    Mr. Greenwood. The Chair thanks the gentleman.
    The gentlelady from California, Mrs. Capps, is recognized 
for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman.
    And, again, Governor Ridge, I want to pick up on a theme 
you referred to earlier, that our homeland is secure when the 
hometown is secure, going back to that local system and systems 
in place.
    I want to concentrate, if I could, on the Center for 
Disease Control, the CDC, and how that affects our local 
communities. In the third panel, a representative from the GAO, 
Janet Heinrich, has made a couple of statements that I want to 
bring into this and give you a chance to respond to her.
    She is expressing ``concerns about the proposed transfer of 
control from HHS, to the new Department for Public Health 
Assistance programs that have both basic public health and 
homeland security functions.'' And she says ``these dual-
purpose programs have important synergies that we believe 
should be maintained.'' And she expresses concern ``that 
transferring control over these programs, including priority 
setting to the new department, has the potential to disrupt 
some programs that are critical to basic public health 
responsibilities. We do not believe''--these are her words--
``that the President's proposal is sufficiently clear on how 
both the homeland security and public health objectives would 
be accomplished.''
    And, if I could, again, I was privileged to visit with 
Congressman Deutsch the Center for Disease Control site not 
long after 9/11, and to see that CDC was stretched beyond 
capacity before that date and now have so many additional 
responsibilities. And acknowledging that when I, in my years of 
being a school nurse, relied on them very directly for help 
with ongoing epidemics and issues of, for example ``is there 
enough flu vaccine on hand?'' These are the questions that my 
first responders are asking me. And so can you describe and 
will you describe how these fears can be allayed?
    Mr. Ridge. Well, first of all, again, you and your 
colleagues have raised a very important question with regard to 
the distinction between homeland security, related research and 
activities of the CDC, and the traditional public health work 
of the CDC. And we believe there is a very distinct care line 
here where the Department of Homeland Security would be 
involved in those issues that had primary--not necessarily 
exclusive, but primary homeland security dimension. That's not 
to say that the CDC would not continue to deal with public 
health issues, maternity care, child care, immunizations. I 
mean, are they going to continue to have the same programs they 
have working with the States and the localities on a variety of 
public health issues, continue to have the programs dealing 
with the restoration of some of the public health 
infrastructure, continue to have money for research-related 
issues of cancer and smoking and things of that sort?
    Mrs. Capps. Right.
    Mr. Ridge. So I think--I think there is a distinguishable 
line now. And if we need to further clarify that with language 
in the legislation, we certainly want to entertain that. But 
it's also, I think, very important to note that the legislation 
specifically calls for the two Secretaries to establish the 
kind of relationship so that both can take advantage of the 
dual-use infrastructure that has been built up through the 
extraordinary work of the Health and Human Services and the CDC 
over the past decades.
    Mrs. Capps. Let me thank you, and--but push this even 
further.
    Mr. Ridge. Sure.
    Mrs. Capps. Because we can talk about charts and flow 
charts, but it really becomes clear when you talk about 
dollars. And CDC, many would say, including me, was underfunded 
before 9/11. How will the dollars flow to do those basic 
activities?
    And let me add on to that an additional challenge that we 
have faced here in our House subcommittee, what some would 
say--at least from where I sit in California--a crisis of 
health care delivery. And the upper payment limit cuts to the 
State of California, for example, will take $300 million from 
our public health safety net hospitals. That's going to be 
difficult if there is no bioterrorism attack. That's going to 
be a real hardship on a State like ours. And those institutions 
are exactly where people go when they--when the flu epidemics 
hit and when if, God forbid, there is a bioterrorist attack. 
That's exactly where people will go.
    If we continue to cut resources to these programs, these 
hospitals, how can we add on another layer of preparedness?
    Mr. Ridge. Well, I tell you, I think you raise a question 
that under a new configuration of the executive branch would be 
appropriately raised with both the new Secretary of Homeland 
Security and the Secretary of Health and Human Services. The 
point being is that there will be an identifiable money stream 
with regard to specific programs that I think that can be 
identified and can be identified today. Over the years, 
obviously the Congress of the United States will have 
opportunity to increase dollars, whether it's through homeland 
security for those issues and that research relating more 
particularly to weapons of mass destruction, bioterrorism, 
chemical attacks and the like, but also work with the Secretary 
of Health and Human Services to bolster and fund programs 
related strictly to public health.
    I mean, so many of these programs--and again, that will be 
a balancing act that will require the best efforts of both the 
executive branch, but working in collaboration with the 
Congress of the United States that ultimately has the 
constitutional responsibility and authority to appropriate the 
monies. So you'll help create that balance.
    Mrs. Capps. Well, I know my time is up. But, you know, the 
President has said there are no additional dollars for this 
effort; and we are saying there weren't enough in the 
beginning. What shall we do now?
    Mr. Ridge. Well, there are--for the--for 2003, as we ramp 
up the new Department of Homeland Security, the President has 
spoken, recognizing what he has in the 2003 budget, which 
includes about a $14 billion increase for homeland security 
initiatives over the 2002 budget. What happens in the 2004 and 
beyond again will depend upon the interaction and the 
priorities set collectively between the Congress of the United 
States and the President.
    Mr. Greenwood. The Chair thanks the gentlelady, and 
recognizes for 5 minutes the gentleman from Ohio, Mr. Gillmor.
    Mr. Gillmor. Thank you, Mr. Chairman.
    And, Governor, one of the things I wanted to inquire about 
was in the bioterrorism bill, which we just completed, we 
provided for drinking water systems' vulnerability assessments 
and recommendations for action be done by EPA. Now under the 
proposed bill we have, it's my understanding that would take 
that authority out of EPA and put it under the new department. 
I guess the question is, does it make a lot of difference? Is 
it something that you feel really is an improvement in homeland 
security, or would it just as well be left with EPA where there 
is at least some body of expertise?
    Mr. Ridge. It would be our hope that the President's 
initiative could be embraced to include pulling that into the 
Department of Homeland Security because of the vulnerability 
assessment requirements that will be imposed upon the new 
department. If it's the congressional will to keep it at the 
EPA and mandate that that information be shared and become part 
of the infrastructure, the information infrastructure upon 
which the Department of Homeland Security operates, so be it. 
But it's just a feeling that we--in this new department, we 
have got, remember, the threat assessment matched against the 
vulnerabilities. And clearly, the water system, the energy 
systems, telecommunications, utilities, financial systems and 
the like are part of our critical infrastructure. So it was 
consistent with the President's belief that we ought to have 
that information-gathering capacity with regard to critical 
infrastructure within this department.
    Mr. Gillmor. I wasn't strongly suggesting that it stay with 
EPA; I was just trying to feel you out on where you were coming 
on that.
    Mr. Ridge. We think it would be better to put all this 
within this--this assessment within the new department.
    Mr. Gillmor. In title 3, the President proposes to transfer 
certain R&D programs from DOE to the new Secretary. And mostly 
those are the ones dealing with development of detectors or 
sensors for nuclear, bio, and chemical agencies.
    Now, most of the research is done by DOE's laboratories, 
which are public and private entities under control of DOE. The 
labs conduct such research, however, not just for DOD; they do 
similar research under the work for other programs where the 
CIA, FBI, State, and the Secret Service can also request their 
own work.
    Now, while it seems to make sense to have a single agency 
coordinating and prioritizing all the research, I'm not sure 
that the proposal does that since it only transfers the DOE 
programs and doesn't touch the rest of them.So why just 
transfer the DOE programs? Why not also transfer the work for 
other programs at the labs? Is that an oversight, or is there a 
reason for that?
    Mr. Ridge. I think we focused, Congressman, on the programs 
within the Department of Energy because of the very specific 
focus they have at the national labs and the expertise they 
have developed. But particularly, the Chem-Bio National 
Security Program where they have as their mission the 
development, the demonstration, and delivery of technologies 
and systems that will help this country prepare for, prevent, 
and respond to a terrorist attack. And they have been--this is 
work that they have been doing for years. It deals with bio and 
chem detectors, it deals with modeling capabilities to predict 
the effects of a chemical-bio attack. And again, in 
consultation with the Department of Energy, as we try to pull 
into the new Department of Homeland Security those programs, if 
not exclusively, then at least primarily deal with securing the 
homeland, this was very appropriate.
    Mr. Greenwood. The time of the gentleman has expired. The 
gentlelady from California, Ms. Harman, is recognized for 5 
minutes.
    Ms. Harman. Thank you, Governor Ridge, for your testimony. 
I have been listening carefully, and agree with your testimony 
and with your answers to questions.
    I would like to associate myself with the comments of our 
Chairman about the urgency of the threat and the fact that it 
is among us right now. And that prompts me to talk about the 
urgency I believe there is, not just to pass this legislation, 
but to implement certain changes which we could do this minute 
and not even wait for the legislation. One of them is 
information-sharing across the Federal Government and between 
the Federal Government and local first responders.
    As you know, Governor, H.R. 4598, a bill that Saxby 
Chambliss and I introduced some months back, has now been 
reported by the House Judiciary Committee, and also has the 
unanimous support of the House Intelligence Committee, and is 
ripe for action on the House floor. I would like to thank you 
for your help in fashioning this legislation, and just mention 
to my colleagues that this is a way to share information now, 
stripping out sources and methods so that those without 
security clearances can receive it. It would cover the FBI, the 
CIA, and all those agencies not in this new department, and 
would get their information down to first responders who 
desperately need to understand better what our threats are. So, 
thank you for your help with this. That's one thing we can do 
now.
    The other thing we can do now, I think, relates to 
interoperability. When Saxby Chambliss and I visited your 
excellent emergency facilities some weeks back, at your 
invitation, we saw state-of-the-art technology that you have 
been putting together. There is still an enormous amount of 
work down the road, and we all agree about hooking in private 
sector, cutting-edge technology into this new department. But 
meanwhile, there exists now integrating devices that can bring 
together the different frequencies and different handheld 
communication devices in an emergency. This would create 
interoperability, which we absolutely need for first responders 
from different police and fire and EMT agencies to come 
together at the scene of a terrorist attack in somebody's 
hometown. As you point out, all terrorist attacks are local.
    There is a device called the ACU-1000, which is built in 
North Carolina, and which many communities are using. Its 
problem is that it is too small to handle the requirements of 
large metropolitan areas like Los Angeles County. Yesterday, in 
front of this building I saw in a van a technology developed by 
a large aerospace company that wraps this ACU-1000, a technical 
term meaning adds to it, and can connect five or more vans to 
cover the frequencies that an entire metropolitan area might 
need to use in an emergency.
    Example: L.A. County has 88 cities, 55 police departments, 
33 fire departments. It could, they allege, cover L.A. County.
    My question to you is, how do we get to these bridging 
technologies--they may not be the perfect answer, but they sure 
are better than where we are--now? How do we make things like 
this happen right now, even before this department is up and 
running? Because, as our Chairman points out, these terrorists 
are among us and could attack us in 20 minutes from now.
    Mr. Ridge. First of all, Congresswoman, I think your point 
about bridging technologies and systems integration now, as we 
develop even more robust technologies and better systems down 
the road, is very appropriate, because I think it will take 
us--once we determine what our mission is and how we are going 
to achieve our goals, I think we can have the technology 
overlay, but we still have to work out some of these--some of 
these matters before we take advantage of the entrepreneurial 
nature of this country and our extraordinary technology sector.
    I would suggest that there are a couple of things that we 
have done and we can do. One, our Office of Homeland Security 
has been working with the President's Office of Science and 
Technology Policy. And my recommendation would be that we take 
a look at the technology application that you have just 
discussed, make it available to this--to these groups, and have 
them give us an assessment as to the impact on particularly 
urban communication systems where there remains a huge gap. 
Obviously, we need interoperable communications, we need a 
bridging system now. Down the road, we hope to have a unified 
system not only within urban America, but within the country.
    The second thing I would recommend, and I say this with 
enormous respect, the $3.5 billion first responder money is 
sitting in the 2003 budget. So, as Congress sets its priorities 
in dealing with the budget proposal in 2003, if we could make 
the homeland security portion, or many of those portions, 
available to local communities as quickly as possible, once 
there is a stamp of approval, once there is an imprimatur on 
pieces of equipment like this that it does the job it claims it 
can do, then we'll be in a position to buy these technologies 
immediately.
    Ms. Harman. Thank you. My time is up.
    Mr. Chairman, I just want to note--it is going to 10 
seconds--that at our Conference on Technology and Terrorism 
last week, Dr. Marburger was there from the Office of Science 
and Technology Policy. He was talking in terms of this whole 
effort coming on line in 2004.
    I think this effort is on line this minute, and bridging 
technologies, as you have just said, are the answer; and I 
would hope you would encourage him to be thinking with a little 
more urgency of the need to tap these various technologies in 
our country to confront the various terrorists in our country 
now. Thank you, Mr. Chairman.
    Thank you, Governor Ridge.
    Mr. Burr [presiding]. The gentlelady's time has expired. 
The Chair will recognize himself at this time. Let me welcome 
you and apologize--I was not here for opening statements--but 
also say that I am supportive of the President's proposal. 
There are a number of areas of the bioterrorism bill that we 
took a tremendous amount of time in trying to integrate. Where 
we knew there were strengths in agencies, we tried to beef up 
those strengths; where there were weaknesses, we tried to 
compensate, through the legislation, to make sure that the 
tools and resources were there for that in fact to be a 
success.
    And I think that many of those areas, as we anticipated, 
would be encompassed in the new homeland security agency; and I 
think, in most cases, we are very supportive of that. My 
questions are going to deal more with the areas where not 100 
percent of the responsibility of that area that we saw, where 
it might have been weak to start with, is shifting over and 
whether we thought through exactly the consequences of stealing 
half the responsibility and leaving the other half.
    The new department is a security entity first and foremost. 
Tasking it with the disaster mitigation and response and to a 
certain extent research and development might distract from the 
security responsibilities that homeland security has.
    Do you have any reservations about the pieces that you pick 
up that deal with research and development and mitigation of 
disaster response?
    Mr. Ridge. I believe the President's proposal tries to 
encompass the broadest range of homeland security matters under 
one agency, and that is from prevention and detection through 
preparation and response. And it is for that reason that you 
see the--this is a multitasked agency, and it covers the full 
spectrum of activities that would be appropriately associated 
with securing our homeland.
    And I think, in time, the integration of these different 
responsibilities--the establishment of a strategic plan dealing 
with research and development clearly has implications for the 
new analytical unit potentially, for the border aggregation 
clearly, and for the preparedness and response. So I think you 
can see that if you take a look at the different units, they 
are not really stovepiped. At the end of time, there is really 
a relationship among all of them.
    Mr. Burr. We looked very closely at things like that, the 
national medical response teams that we had. We tried to 
explore why they weren't more effective, that they are very 
crucial to our entity today; and I think through our efforts on 
bioterrorism, we felt there was a need to create an assistant 
secretary at HHS to sort of shepherd those areas. Now we sort 
of shift those responsibilities.
    I guess my question is, do you still think there are enough 
areas at HHS that we need that assistant secretary there, or 
can you envision the need, whether it is HHS or other agencies, 
where you have pulled in jurisdiction and responsibilities, do 
you need an assistant secretary there as a liaison for homeland 
security?
    Mr. Ridge. I know the committee was very concerned about 
creating that capacity within Health and Human Services, and I 
would leave it to your good judgment to determine whether or 
not you would want to create another one to work as a liaison. 
Clearly, given the dual nature of the infrastructure that both 
a Department of Homeland Security and HHS would be using; 
clearly, given the benefit of many of the research dollars and 
the need for communication and coordination, I am going to 
leave that to your best judgment as to whether or not you think 
it would enhance that collaborative effort to create a similar 
position now in HHS as we bring this position over to the 
Department of Homeland Security.
    Mr. Burr. Clearly, there are areas--I think section 905 of 
the President's proposal, and 906, deal with pharmaceutical 
stockpiles and select agent registration. Select agent 
registration was something that in the last administration was 
by default handed over to CDC because we found we didn't have a 
successful means to keep up with it.
    I am a little bit concerned. We all believe there needs to 
be a list that is kept, one that the appropriate people have 
access to, one that we don't question its accuracy.
    The difficulty that exists is that CDC seems to still be 
responsible for allowing these agents out for the purposes of 
research, but there is the problem of making sure that, in 
fact, that information gets from CDC to Homeland Security 
where, in fact, the registration of where that product has gone 
would have to be.
    Do you have any concerns about that?
    Mr. Ridge. I think, for security reasons, the select agent 
list must be--should be part of the Homeland Security function 
and any regulations attendant to the preservation and 
maintenance of that list. But CDC continues to have that public 
health responsibility and would continue to do the research on 
these pathogens and continue to oversee the work done, whether 
it is done at CDC or elsewhere in conjunction with the 
Department of Homeland Security.
    Mr. Burr. I truly do not raise it as a criticism, but there 
is a link where we are almost relying on the system we had 5 
years ago of somebody making a notification to another agency 
when the decision is made to let one of the pathogens go out 
for research purposes. And I know we were all faced with a 
shocking reality when the anthrax scare came, and we tried to 
track down how many places might have had anthrax under 
research.
    Mr. Ridge. And we weren't sure.
    Mr. Burr. Title VII of the bill deals with the coordination 
with non-Federal entities, the IG and the Secret Service. My 
only concern in section 701, which requires the secretary to 
direct and supervise grant programs of the Federal Government 
for State and local emergency response providers. And it is not 
a lack of confidence in Homeland Security to make those grants.
    I guess the question that I would have, how much input will 
the agencies that currently have that responsibility have, 
since a lot of the grant, a lot of the research, a lot of the 
programs that the grant money will be for might still be the 
responsibility of the other agency.
    Mr. Ridge. If I might, Congressman, give you a good 
example, the folks at the local level generally would like to 
go to one Federal agency to get emergency preparedness and 
response grants. They also recognize that they take many forms. 
There is a bioterrorism response initiative that HHS has. There 
is an Office of Domestic Preparedness that actually has even 
more dimensions, but that is in the Department of Justice. And 
then, obviously, FEMA.
    What I think is proposed under this legislation is, one, 
that we have by statute continued the collaboration with Health 
and Human Services so when these dollars go out they do go out 
in collaboration with Health and Human Services as it relates 
to the bioterrorism prevention and public health prevention.
    Two, the Office of Domestic Preparedness and the Department 
of Justice where it is envisioned that that entire operation 
would become a more robust and more muscular agency that FEMA 
becomes when they have responsibility for in excess of $3 
billion under the President's 2003 budget. And then clearly 
FEMA has been reaching out over the past several months working 
with States and local communities trying to work with them to 
set up a framework through which these multiple grants can be 
issued. So FEMA has also undertaken as part of its longer term 
goal the establishment of the kind of relationship they need 
with the States and the local communities to help frame the 
issuance of these grants.
    The goal here is to buildup a national capacity of some 
sort around the country. Obviously, it will not be done in a 
year. Congresswoman Harman pointed out the need for 
interoperability of communications. My sense, in talking to 
FEMA and a lot of other people is, that may be the No. 1 
priority. If you're going to save lives, it is predicated on 
time. The best way you minimize time is better communication; 
and unfortunately, we don't have integrated communications 
systems in too many places in this country.
    Having said that, FEMA is working with State and local 
governments to develop these plans. And what we are, what the 
President is hopeful of as it relates to the 2003 budget--and I 
know I am going off just a bit, but I say this to members who 
will be appropriating the dollars--is that the moneys that 
would be issued, not just in 2003, but in future years as we 
buildup a capacity to respond to terrorist activity, that we 
build it up consistent with plans that begin at the local level 
and then take it to the regional level and move up to the 
State, that we begin to develop a capacity around mutual aid 
packs, a capacity built on standards that are designed after 
consultation within the departments and agencies that are also 
designed based on threat assessments and vulnerabilities.
    So we still have a lot of work to do. And the purpose of 
the President's integration of all these agencies is to give 
some strategic focus not only to the efforts of the men and 
women that have been providing homeland security services for 
this country for a long time, but also give strategic focus to 
the dollars and technology and the kinds of equipment that we 
provide to this country to prepare for a potential response to 
a terrorist act.
    Mr. Burr. Governor, thank you. My time has expired.
    One more time I want to commend you personally for the job 
that you have done. You were asked to step in at a--I can't 
think of a more difficult time to take on a task that was then 
undefined and not understood. You were asked to do it with a 
limited group of people, and I think that you have done an 
extraordinary job. My hope is that as we take up this 
legislation and, hopefully, pass it in an expedited way that 
you, like we, remember that we can do things of this magnitude 
without growing bureaucracies that are bigger than the last 
one.
    And I know that the President's legislation chooses a 
secretary and a deputy and five under secretaries and no more 
than six assistant secretaries, but there is room for an 
additional 10 assistant secretaries. My hope is you will always 
think smaller from the standpoint of the internal structure up 
here and, in fact, remember what I think you learned very early 
on, that most of the intelligent folks and the best ideas 
happen in the localities around the country that are ultimately 
the ones that we need to communicate with in real time, so less 
emphasis is spent up here and more around the country.
    The Chair would recognize the gentleman from Massachusetts, 
Mr. Markey, for questions.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    Governor Ridge, the Nuclear Regulatory Commission and the 
Departments of Energy and Defense have historically had 
jurisdiction over nuclear facilities whether they be civilian 
or government. And they have had the responsibility for 
constructing the design basis threat against which each of 
these facilities has to be protected, and they also have 
responsibility for conducting the force-on-force test against 
those facilities.
    Now, in the overriding--in the legislation you have sent up 
it says that this new department will have primary 
responsibility for infrastructure protection. And so the 
question is, what does that mean in terms of the agency, yours 
or the NRC or the Department of Energy or Defense that will 
have primary responsibility over the security around nuclear 
facilities once the legislation is passed?
    Mr. Ridge. Congressman, I believe that your question 
highlights a characteristic of homeland security that can't be 
underscored enough, and that is the continuing need for 
intergovernmental and interdepartmental communication and 
coordination. It is a point you make very effectively. DOD and 
DOE and the Nuclear Regulatory Commission have multiple 
responsibilities with regard to the security of our nuclear 
facilities whether they be power plants or storage systems for 
nuclear weapons. That will continue to be the case.
    However, this new department, working particularly with the 
Nuclear Regulatory Commission on the design threat assessment 
as it relates to the potential vulnerabilities that exist, will 
play a very important role as we go about matching threats 
against vulnerabilities and taking prescriptive actions.
    Mr. Markey. So, for example, the Nuclear Regulatory 
Commission 9 months after September 11 have refused to begin a 
new design basis threat rulemaking, even though we know it 
moved from nonsuicidal, nontechnically sophisticated handfuls 
of terrorists that had to be protected against before September 
11 to something which is suicidal, technically sophisticated, 
heavily armed and large numbers.
    Would, under the new system, the Office of Homeland 
Security have responsibility for ordering the design basis 
threat regulation to be upgraded, or would that still remain 
with the Nuclear Regulatory Commission? Who would have the 
ultimate authority, the NRC or the Office of Homeland Security?
    Mr. Ridge. Ultimately, Congressman, if the Department of 
Homeland Security felt that the Nuclear Regulatory Commission 
hadn't moved either quickly enough or effectively enough vis-a-
vis the threat you are talking about, one would hope that the 
new Cabinet Secretary, in conjunction with the chairman of the 
Nuclear Regulatory Commission, can resolve that.
    Clearly, the President has said that he seeks to retain as 
part of the White House apparatus the Assistant to the 
President for Homeland Security that has been tasked with 
coordinating that activity and resolving differences of 
opinion. But if there is a difference of opinion finally, you 
get one tie breaker, and that is the President of the United 
States.
    Mr. Markey. The tie breaker is the President. The tie 
breaker is not whoever heads up the Office of Homeland 
Security?
    Mr. Ridge. I think the new Secretary of Homeland Security 
is going to be empowered with enormous authority and 
responsibility to deal with vulnerability assessments.
    Mr. Markey. I guess all I am saying is, if you identify a 
flaw in the security at Livermore or at Diablo Canyon and you 
go to the NRC or the Department of Energy and you say, upgrade, 
they say, no, we are not going to upgrade, we are not going to 
go to a new system, you are saying that the head of the Office 
of Homeland Security can't say, upgrade.
    Then it goes to the President to resolve the dispute 
between the two offices?
    Mr. Ridge. Well, first of all, I think it is important that 
we always play out the worst case scenario. And my judgment, 
Congressman, is that if the vulnerability assessment is 
significant, we won't have any difficulty getting the 
cooperation.
    But if you want to go to the worst case scenario----
    Mr. Markey. Yes.
    Mr. Ridge. [continuing] the matter would--since the assets 
themselves--none of the national labs are part of the 
infrastructure of the Department of Homeland Security.
    You talked about having problems at--the national lab at 
Livermore or Los Alamos does not have direct command and 
control over those entities. The first responsibility is to 
identify the vulnerability, convince them of the vulnerability 
and get them to do something about the vulnerability. If there 
remains a conflict, it would be resolved presumably within 
the--by the Assistant to the President for Homeland Security. 
There is a coordinating function, and that function remains 
within the White House.
    Mr. Markey. That would be someone on the President's staff 
that would resolve it?
    Mr. Ridge. Assistant to the President.
    Mr. Markey. That is the job to get then.
    Mr. Ridge. It's a pretty good job. It is the one I have 
right now. You are addressed with a great deal of authority.
    Mr. Markey. When you----
    Mr. Greenwood. The time of the gentleman has expired.
    Mr. Markey. Could I have 1 more minute?
    Mr. Greenwood. Unanimous consent, the gentleman is granted 
an additional minute.
    Mr. Markey. When you say, presumably the person on the 
President staff will then break the tie between the Office of 
Homeland Security and the NRC or the DOE, is that going to be 
written into the statute?
    Mr. Ridge. It is a function of the executive order signed 
by the President of the United States creating the office on 
October 8.
    I am going to say the other leverage that you have on any 
department or agency changing its direction or focus is also, 
the Congress of the United States would have to be--could be a 
potential partner in that enterprise as well. But if we are--as 
we've said before, this is an enterprise within which we are 
all engaged, and I guess I can imagine a worst case scenario, 
and I guess we have to plan for it, but I think it is very 
unlikely.
    Mr. Markey. Thank you very much. We appreciate your being 
here.
    Mr. Greenwood. The Chair thanks the gentleman and 
recognizes the gentleman from New Hampshire, Mr. Bass, for 5 
minutes.
    Mr. Bass. Thank you very much, Mr. Chairman. And thank you, 
Governor, for coming here. This must be a very interesting time 
in your life and certainly one of the most important issues 
that this Congress will deal with.
    I have a question having to deal with DOE's nuclear 
emergency support teams, the NEST teams. I served on the 
Intelligence Committee, and we had some involvement with this 
issue in prior years.
    Now, it is my understanding that the President's proposal 
transfers the control of DOE's nuclear response teams to the 
new Secretary in the event of an attack or emergency, and also 
gives the new Secretary the authority to set standards for 
DOE's group, as well as conduct training and exercises for 
these teams. But as I understand it, these DOE teams also 
always--almost always work in concert with DOD, and usually 
conduct joint exercises with DOD, FBI, State and other 
agencies, and that is because of their responsibility to deal 
with more than just a nuclear issue.
    Will the new Secretary coordinate the exercises and 
training of all of these interagency components or just the 
DOE, Department of Energy, portion?
    Mr. Ridge. I believe it is envisioned from time to time 
that we would want to deploy all of these agencies in a 
realistic drill or exercise. So depending on the circumstances 
and the nature of the drill, Congressman, it could very well 
oversee an exercise involving all those agencies and serving in 
a coordinating function.
    Mr. Bass. Okay. That is good.
    I also understand that DOE's radiological assistance teams, 
which are spread out regionally throughout the country, are 
currently authorized to respond to requests from State and 
local officials for assistance and need not wait until the 
Secretary of Energy formally calls them into action.
    Will the President's proposal change that requiring action 
by the new Secretary before these teams can be deployed for any 
reason?
    Mr. Ridge. Congressman, in that change in the--I cannot 
give you a specific answer to the change in the historical 
relationship. I will get back to you on that. That is the way 
they used to be deployed. I think there is a lot to be said for 
maintaining that kind of a relationship, but I will have to get 
back to you for a specific answer.
    Mr. Bass. I appreciate that and I yield back to the 
chairman.
    Mr. Greenwood. The Chair recognizes for 5 minutes the 
gentleman from California, Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    Mr. Ridge, in your own home State of Pennsylvania, a 
newspaper reporter for the Pittsburgh Tribune-Review conducted 
an investigation to determine how vulnerable chemical 
facilities were to terrorists after September 11; and I don't 
know if this article came to your attention, but it is pretty 
shocking. According to that article, which was published on 
April 7, the security was so lax at 30 sites that in broad 
daylight a Trib reporter wearing a press pass and carrying a 
camera could walk or drive right up to tanks, pipes and control 
rooms considered key targets for terrorists. And I want to read 
to you specifically what they found.
    ``Absent dilapidated or unfinished fence lines or 
carelessly opened gates allowed access to 18 sites. Inside the 
sites no one stopped the reporter from going wherever he 
wanted, even into control rooms and up to tanks and train 
switching and derailing levers. No security at the potentially 
deadliest plants of the 123 plants nationwide that individually 
could endanger more than a million people; two are in western 
Pennsylvania. The reporter spent more than an hour walking 
through each without encountering a guard or an employee.''
    Now, I wrote to the President on this issue on September 
26, 2001, asking him to use just $7 million out of the $40 
billion of the Emergency Supplemental Appropriations Act for 
recovery and response to terrorist attacks to examine the 
vulnerability of these facilities to attack. Congress required 
these vulnerability assessments to be completed by this August, 
yet apparently the administration has not even begun them.
    I am also concerned the administration has failed to make 
any proposal to address these significant risks. Does the 
administration support Congress, requiring decisive action to 
address these risks, and if so, why isn't it in your proposal?
    Mr. Ridge. Congressman, your reference to that--the 
critical infrastructure and the potentially devastating 
consequences associated with the terrorist attack on chemical 
facilities is something that the Office of Homeland Security 
has been focused on and clearly will become a priority of the 
new Department of Homeland Security. And I think, clearly, that 
not only this President, but previous Presidents have called 
on, and I believe the Congress of the United States has called 
on, the private sector and others to do a--perform critical 
infrastructure assessments and then take action to deal with 
the vulnerabilities.
    Obviously, the pace of the change within some sectors of 
the economy and within some companies hasn't been what you or I 
or most Americans would like.
    At the end of the day, when you have a Department of 
Homeland Security, Congressman, whose responsibility is to 
match threats with vulnerabilities and to work with other 
agencies within the Federal Government to harden these targets 
that are owned by the private sector, I think that will 
certainly accelerate the changes that are needed. And until 
such time, we continue to--the administration continues to work 
with all industry sectors to identify vulnerabilities and get 
them committed to taking action.
    I refer to a conversation that I had with some folks with 
regard to these vulnerabilities across the board in various 
sectors. And I think one of the ways, Congressman, that we can 
make sure that those chemical facilities or some of these other 
facilities in your neighborhood and my neighborhood, your State 
or mine, everybody else's, is up to the standard that we seek 
is to have our first responders in those communities visit and 
work with those companies to make sure that the standards are 
met, because these are the men and women who are going to have 
to show up if these facilities are attacked.
    Mr. Waxman. With all due respect, you just said we want 
this new department to be sure to do this job, we want the 
cooperation in the private sector to run these plants to be 
sure they're doing the job, and then we want the first 
responders to be doing the job. But you have been head of the 
Office of Homeland Security, and one of the mandates from 
Congress was to look at these vulnerabilities and do something 
about them.
    So does it strike you that maybe I am hearing you just 
point your finger at everybody else, but not taking 
responsibility for getting this done?
    Mr. Ridge. Oh, no. I wouldn't want you to interpret it that 
way. I suspect that there has been sufficient follow-up by 
Congress, and I would assure you there has been sufficient 
follow-up within the Office of Homeland Security.
    As part of the President's directive to our office, we were 
to--in the designing of a national strategy, we were to work 
with both the public and the private sector to do a critical 
infrastructure vulnerability assessment. That process is an 
ongoing process. It is something that needed to be done for a 
long, long time, and we are in the process of doing that, and 
that will be part of the national strategy that we will present 
to the President and to the Congress and to the public in the 
next several weeks.
    Mr. Waxman. Just one last short question. Was I incorrect 
when I said this was required to have been completed by August, 
but the administration has not even begun the assessment of the 
risk at these facilities?
    Mr. Ridge. The administration began that some time ago. It 
has been a work in progress within the Office of Homeland 
Security; and my recollection of the executive order creating 
our office, there was no specific timetable. We created our 
internal timetable and are trying to get most of it done before 
we submit the strategy to the President, to the Congress and 
the people sometime in July. But you can----
    Mr. Waxman. What is your own internal deadline?
    Mr. Ridge. We have said we are going to get the strategy to 
the President for his eyes by the 1st of July, mid-July. We are 
working on it.
    Mr. Waxman. That is a strategy, but there is a 
vulnerability.
    Mr. Ridge. Congressman, the enormity of that task, we don't 
shy away from it in any manner, shape or form. But this is a 
process that I believe Congress has been and probably will be 
working on years and years as well. We have taken advantage of 
some of the work that Congress has done, but our own internal 
work started several months ago. It will need a few more months 
to be completed to give you the kind of specificity that I 
think you are looking for.
    But we are doing our job, and when Congress completes its 
work and when the other agencies complete that work, I think we 
are going to have a pretty good system of determining where the 
vulnerabilities are and working together to come up with the 
means to harden those targets and reduce the vulnerability.
    Mr. Greenwood. The time of the gentleman has expired.
    Mr. Waxman. But assessments required by Congress are to be 
completed by August 2002?
    Mr. Greenwood. The time of the gentleman has expired. The 
Chair would note that the mandate from Congress to do the 
vulnerability assessment of the chemical facilities was passed 
in 1999, and it was the Clinton Administration that did nothing 
subsequent to that.
    The Chair thanks the Governor for your presence with us and 
for your testimony and for your guidance.
    Mr. Waxman. That is a little cheap, Mr. Chairman.
    Mr. Greenwood. The Chair has the floor and the gentleman 
may or may not be recognized in the future.
    The Chair notes, Governor, that you are thanked for your 
service many times a day for good reason because you have given 
us such a sense of confidence.
    But I would like to take the opportunity, as your friend, 
to thank your wife, Michelle, to thank your daughter, Leslie, 
and your son, Tommy. I know that after 10 years or so in the 
Congress, 8 years as Governor of Pennsylvania, they were 
probably and you were probably expecting to take off the mantle 
of responsibility and hang it up in the home cabinet for 
awhile. And I know it is only because of the dire circumstances 
that we faced and your sense of duty to your country that you 
put that mantle--and a large mantle it is--back on your broad 
shoulders, and we thank you for that. And we want to thank your 
family for the sacrifices they make every day in letting you do 
this job. Thank you. Thank you very much.
    The Chair then calls forward the second panel consisting of 
the Honorable Claude Allen, Deputy Secretary of the Department 
of Health and Human Services, as well as General John Gordon, 
Administrator of the National Nuclear Security Administration. 
Gentlemen, welcome. We thank you for being with us this 
morning. Thank you for your forbearance. Let me begin by saying 
that I believe you are aware that the committee is holding an 
investigative hearing and, when doing so, has had the practice 
of taking testimony under oath.
    Do either of you have any objection of giving testimony 
under oath?
    Chair then advises, under the Rules of the House and the 
rules of the committee, you are entitled to be advised by 
counsel. Do either of you care to be advised by counsel?
    Seeing negative responses, the Chair would ask that you 
rise and raise your right hand, and I will swear you in.
    [Witnesses sworn.]
    Mr. Greenwood. Thank you; you are under oath. And, Mr. 
Allen, I believe we will begin with your testimony.

   TESTIMONY OF HON. CLAUDE A. ALLEN, DEPUTY SECRETARY, U.S. 
 DEPARTMENT OF HEALTH AND HUMAN SERVICES; AND JOHN A. GORDON, 
    ADMINISTRATOR, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Mr. Allen. Thank you, Mr. Chairman, and members of the 
committee for the opportunity to appear before you to discuss 
the proposed Department of Homeland Security and how it will 
interface with the Department of Health and Human Services. 
Secretary Thompson and I support strongly the initiative that 
the President announced earlier this month and feel that this 
is the best direction for the Nation to move in order to ensure 
our homeland security.
    The threat of terrorism has become a part of our daily 
lives since September 11, and this new Department of Homeland 
Security will enable us to make significant advances in 
protecting the American public from terrorism. We are pleased 
that the Congress is giving the President's proposal such 
prompt and thorough review and attention. And Secretary 
Thompson and I look forward to working with you to ensure the 
passage of this important legislation.
    The President's proposal will transfer several terrorism-
related activities that are housed currently within HHS to the 
new Department of Homeland Security. Homeland security will 
assume responsibility also for setting goals and providing 
strategic direction for other relevant public health and 
medical activities, but will rely upon HHS to implement and 
operate them on a day-to-day basis. First, I want to talk with 
you about the activities that will go to homeland security. 
Those areas include the Select Agent registration enforcement 
program, the Office of the Assistant Secretary for Public 
Health Emergency Preparedness and the Strategic National 
Stockpile.
    Right now, the Centers for Disease Control and Prevention 
regulates the transfer of certain dangerous pathogens and 
toxins commonly referred to as ``Select Agents'' from one 
registered facility to another. These agents, such as the 
bacterium that caused anthrax, the bacterium that causes 
Plague, and the viruses that causes Ebola are used widely in 
the research laboratories across America. These Select Agents 
are prime examples and candidates for use by would-be 
bioterrorists, so when they are used in research, they must be 
kept under constantly safe and secure conditions.
    The Public Health Security and Bioterrorism Preparedness 
and Response Act of 2002 authorized HHS to promulgate and to 
enforce regulations concerning the possession and use of Select 
Agents as well as their transfer. While CDC has done its best 
to manage the Select Agent program, CDC is a public health 
agency and not a regulatory body. Therefore, we believe that 
the new department is better suited to prevent Select Agents 
from falling into the wrong hands.
    HHS will be prepared to provide homeland security with 
whatever scientific expertise and other technical expertise 
they may need to manage the program. In fact, under the 
administration bill, the Secretary of Homeland Security would 
administer the Select Agents program in consultation with the 
HHS Secretary, and HHS would continue to make key medical and 
scientific decisions, such as which biological agents should be 
included in the Select Agent list.
    Let me talk about the Office of the Assistant Secretary for 
Public Health and Emergency Preparedness. The Public Health 
Security and Bioterrorism Preparedness and Response Act of 2002 
also created the HHS Office of the Assistant Secretary for 
Public Health Emergency Preparedness. The responsibilities of 
this new office include the supervision of the Office of 
Emergency Preparedness, the National Disaster Medical System 
and the Metropolitan Medical Response Systems, as well as 
related HHS emergency management functions. By having this 
office within the Department of Homeland Security, we will have 
a seamless integration of our national public health and 
medical emergency management assets with the Nation's new 
preparedness and response infrastructure.
    Third, the National Pharmaceutical Stockpile, which 
currently CDC manages: The stockpile consists of 12 ``push 
packages'' of pharmaceuticals and medical supplies and 
equipment which are located strategically across the United 
States, and additional lots of pharmaceuticals and caches of 
medical materiel are maintained also by manufacturers under 
special contractual arrangements.
    The Secretary and I are proud of the job that CDC has done 
in managing our Strategic National Stockpile, which was 
evidenced in our ability to get a push package into New York 
City on September 11. This fine work has set the stage for 
smooth integration of the stockpile with our other national 
emergency preparedness and response assets within Homeland 
Security.
    The Secretary of Homeland Security will assume 
responsibility for continued development, maintenance and 
deployment of the National Stockpile, while the HHS Secretary 
will continue to determine its contents. This arrangement will 
ensure effective blending of our public health expertise with 
the logistical and emergency management expertise of Homeland 
Security.
    With the strong integration and cooperation that exists 
between HHS and Homeland Security, two functions of the new 
department will be carried out by HHS unless otherwise directed 
by the President. The first is Homeland Security's civilian 
human health-related biological, biomedical and infectious 
disease defense research and development work.
    We recognize the expertise, successful track record and 
unique capabilities of the National Institutes of Health and 
the Centers for Disease Control and Prevention. The Secretary 
of Homeland Security, in consultation with the HHS Secretary, 
shall have the authority to establish the research and 
development program that will be implemented through HHS. This 
means that Homeland Security will provide strategic direction 
regarding the Nation's biological and biomedical countermeasure 
research priorities.
    Certain public health-related activities will also be 
directed by Homeland Security and carried out through HHS. This 
would include activities like enhancing the bioterrorism 
preparedness of State and local governments and non-Federal 
public and private health care facilities and providers. The 
object of this provision is to continue the important role that 
CDC plays, that the Health Resources and Service Administration 
plays and other elements of HHS play in assisting States and 
local governments and the hospitals and public health community 
in preparing for and responding to large-scale public health 
emergencies.
    As with the research program, the Secretary of Homeland 
Security, in consultation with HHS Secretary, will have the 
authority to establish the Nation's antiterrorism preparedness 
and response program. But the implementation of the public 
health components of that program will be carried out largely 
through HHS.
    Mr. Chairman, members of the committee, our Nation needs a 
Department of Homeland Security. The Secretary and I strongly 
support the President's proposal and look forward to doing 
whatever is necessary to effect a smooth and swift transition 
of responsibilities and operations. We believe that the 
President's proposal strikes the right balance by playing to 
the strength of HHS and recognizing this agency's core mission 
that is the protection of the Nation's public health, while 
capitalizing on the strategic and logistical strength of the 
new Homeland Security. We will ensure that HHS fulfills its 
obligation to the new department and provides that whatever 
public health, medical and scientific expertise it may require.
    At this time, I would be happy to answer any questions that 
the committee may have.
    [The prepared statement of Hon. Claude A. Allen follows:]
     Prepared Statement of Hon. Claude A. Allen, Deputy Secretary, 
                Department of Health and Human Services
    Thank you, Mr Chairman and members of the Committee for giving me 
the opportunity to appear before you today to discuss the proposed 
Department of Homeland Security. Secretary Thompson and I strongly 
support the reorganization initiative that the President announced 
earlier this month.
    The threat of terrorism in its myriad forms has become an ever-
present part of our daily lives. The new Department will enable us to 
make further significant advances in protecting the American people 
from those who are bent upon inflicting death, destruction, and social 
disorder to achieve their ideological ends. We are pleased that the 
Congress is giving the President's proposal prompt and thorough 
attention. Secretary Thompson and I look forward to working with this 
and other Committees to ensure passage of the legislation for the new 
Department.
    The President's proposal deals with certain terrorism-related 
activities that currently are the responsibility of the Department of 
Health and Human Services (HHS). Some of these HHS activities would be 
transferred to the Department of Homeland Security (DHS). For other 
relevant public health and medical activities, DHS would assume 
responsibility for setting goals and providing strategic direction but 
would rely upon HHS to implement and operate the activities on a day-
to-day basis.
    I will discuss examples from each group of activities in turn.
      examples of activities proposed for transfer from hhs to dhs
    HHS functions conveyed to the new Department in the President's 
proposal include:

<bullet> The Select Agent registration enforcement program;
<bullet> The Office of the Assistant Secretary for Public Health 
        Emergency Preparedness; and
<bullet> The Strategic National Stockpile.
Select Agent Registration Program
    Within HHS, the Centers for Disease Control and Prevention (CDC) 
currently regulates the transfer of certain dangerous pathogens and 
toxins--commonly referred to as ``Select Agents''--from one registered 
facility to another. These agents are widely used in research 
laboratories across America. Examples are the bacterium that causes 
anthrax, the bacterium that causes Plague, and the virus that causes 
Ebola, a lethal hemorrhagic fever. Select Agents are prime candidates 
for use by would-be bioterrorists and thus, when used in research, must 
be kept constantly under safe and secure conditions.
    The recently enacted Public Health Security and Bioterrorism 
Preparedness and Response Act of 2002 authorized HHS to promulgate and 
enforce regulations concerning the possession and use of Select Agents, 
as well as their transfer. While CDC has done its best to manage the 
Select Agent program, CDC is a public health agency and not a 
regulatory body. We believe that the new department, with its strong 
multi-purpose security and regulatory infrastructure, will be well-
suited to prevent nefarious or other irresponsible uses of Select 
Agents. HHS will be prepared to provide DHS with whatever scientific 
expertise and other technical assistance it may seek to help it manage 
the program. Under the Administration bill, the Secretary of Homeland 
Security would administer the select agents program in consultation 
with the HHS Secretary, and HHS would continue to make key medical and 
scientific decisions, such as which biological agents should be 
included in the select agents list.
Office of the Assistant Secretary for Public Health Emergency 
        Preparedness
    The Public Health Security and Bioterrorism Preparedness and 
Response Act of 2002 created the HHS Office of the Assistant Secretary 
for Public Health Emergency Preparedness. The responsibilities of this 
new office include the supervision of the Office of Emergency 
Preparedness, the National Disaster Medical System, the Metropolitan 
Medical Response Systems, and related HHS emergency management 
functions. This cluster of activities is a logical and proper candidate 
for transfer to DHS--thereby enabling seamless integration of national 
public health and medical emergency management assets with the Nation's 
new preparedness and response infrastructure at DHS. The Public Health 
Service Officers and other HHS employees who have faithfully performed 
disaster relief work over the years have done a wonderful service for 
our Nation. They are a credit to HHS as they surely will be to the new 
Department.
National Pharmaceutical Stockpile
    CDC currently manages 12 ``push packages'' of pharmaceutical and 
medical supplies and equipment strategically located around the United 
States; additional lots of pharmaceuticals and caches of medical 
materiel are maintained by manufacturers under special contractual 
arrangements with CDC. You may recall that one of the push packages was 
dispatched to New York City on September 11th and that elements of the 
stockpile were used to respond to the anthrax attacks. The Secretary 
and I strongly believe that CDC has done an exemplary job managing what 
is now called the Strategic National Stockpile and this fine work has 
set the stage for integration of the Stockpile with other national 
emergency preparedness and response assets at DHS.
    The President's proposal is designed to achieve this integration by 
tapping the strengths of DHS and HHS in a precisely coordinated way. 
Thus, the Secretary of Homeland Security will assume responsibility for 
continued development, maintenance, and deployment of the Stockpile--
making it an integral part of the larger suite of federal response 
assets managed by FEMA and other future DHS components--while the 
Secretary of Health and Human Services will continue to determine its 
contents. The arrangement will ensure effective blending of the public 
health expertise of HHS with the logistical and emergency management 
expertise of DHS.
              dhs functions to be carried out through hhs
    Certain specific program level details and administrative choices 
are still being studied in order to ensure the most seamless 
transition, and to give the greatest possible levels of efficiency and 
effectiveness to our fight against the threat of biological warfare and 
to protect the public health. However, the President's proposal clearly 
designates the following two activity areas that the Secretary of 
Homeland Security will carry out through the Department of Health and 
Human Services:
1. Civilian Human Health-Related Biological, Biomedical and Infectious 
        Disease Defense Research and Development
    The President's proposal provides that the new Department's 
civilian human health-related biological, biomedical, and infectious 
disease defense research and development work shall--unless the 
President otherwise directs--be carried out through HHS. Under the 
President's proposal, the Secretary of Homeland Security, in 
consultation with the Secretary of Health and Human Services, shall 
have the authority to establish the research and development program 
that will be implemented through HHS. Thus, as the agency responsible 
for assessing threats to the homeland, DHS, in consultation with the 
HHS Secretary, will provide strategic direction regarding the Nation's 
biological and biomedical countermeasure research priorities.
2. Certain Public Health-Related Activities
    The President's proposal provides that the new Department shall--
unless otherwise directed by the President--carry out through HHS 
certain public health related activities (such as programs to enhance 
the bioterrorism preparedness of state and local governments and non-
federal public and private health care facilities and providers). The 
object of this provision is to continue the important role that HHS 
plays in assisting state and local governments and the hospital and 
public health community in preparing for and responding to large scale 
public health emergencies. As with the research program, the Secretary 
of Homeland Security, in consultation with the Secretary of Health and 
Human Services, will establish the Nation's anti-terrorism preparedness 
and response program and priorities, but the implementation of the 
public health components of that program will be carried out largely 
through HHS.
                               conclusion
    Mr. Chairman and members of the Committee, our Nation needs a 
Department of Homeland Security. The Secretary and I strongly support 
the President's proposal and look forward to doing whatever is 
necessary to effect a smooth and swift transition of responsibilities 
and operations. The Secretary and I believe that the President's 
proposal strikes the right balance: it plays to the strengths of HHS 
and recognizes this agency's core mission--the protection of our 
Nation's public health--while capitalizing on the strategic and 
logistical strengths of the new Department of Homeland Security. We 
will ensure that HHS fulfills its obligations to the new Department and 
provides it with whatever public health, medical, and scientific 
expertise it may require.
    At this time, I would be happy to answer your questions.

    Mr. Greenwood. Thank you very much, Mr. Secretary.
    General Gordon you are recognized for your opening 
statement

                  TESTIMONY OF JOHN A. GORDON

    Mr. Gordon. Thank you, Mr. Chairman. Again, on behalf of 
Secretary Abraham, we offer full support for the Homeland 
Security Act. My remarks this morning will focus primarily on 
what is Title V. We can go beyond that in the questions if you 
like.
    The President's proposal to organize the Department of 
Homeland Security is really quite visionary and enjoys the full 
support of the Secretary and I. It will significantly improve 
the way the government responds to threats.
    And the President's plan makes good sense. Centralizing the 
responsibility for our response to weapons of mass destruction 
can leverage resources currently spread across the government 
and allow us to operate more effectively and more efficiently. 
At the same time, leaving the nuclear response assets home-
based in DOE and the National Nuclear Security Administration 
will allow us to maintain their considerable expertise and make 
them available for other potential responses.
    We at NNSA are proud of the role we have had so far in the 
fight against terrorism, especially WMD terrorism, and look 
forward to working with the Congress and the administration to 
make a smooth transition to this new department. NNSA has 
really attracted over the years the world's premier nuclear 
scientists, technicians, engineers and designers, and they 
manage the national nuclear weapons program. These capabilities 
and these assets and the training have been applied toward 
Homeland Security and counterterrorism before 9/11, as well.
    In short, we have the responsibility to operate and 
maintain a strong technical capability to respond quickly to 
discrete, specific nuclear and radiological emergencies. People 
and equipment are trained and they're standing alert, along 
with unique transportation assets, ready to respond now.
    These capabilities were designed for short-term events, not 
24-7-365 operations. With that said, they responded remarkably 
well to 9/11 and to specific taskings following that, such as 
the Salt Lake Olympics. And, importantly, we are seeking to 
make them more responsive than they have been in the past by 
moving assets forward and realigning them to coincide better 
with the Federal districts.
    There are seven organizations that make up this capability. 
The first and most widely known is, in fact, the Nuclear 
Emergency Support Team, NEST. They do the search, the 
identification of nuclear materials, diagnostics, suspect 
devices, technical operations to render them safe and packaging 
for transport. We have an aerial measurement system with 
helicopters and fixed-wing aircraft to provide a rapid response 
to detect and measure radioactive material.
    There's an Accident Response Group that provides scientific 
and technical expertise to a U.S. nuclear accident or an 
incident. The real-time assessments of the consequences of 
potential radiation releases made by the Atmospherical Release 
Advisory Capability. The Radiological Assistance Program was 
established in the late 1950's and it comprises some 26 teams 
across the United States that are DOE and NNSA first responders 
to provide for the search, detection, and identification and 
advice to State, local, tribal, industry and even private 
citizens. They're actually called out about 24 times a year.
    The Radiation Emergency Assistance Center really works with 
the medical diagnostics and provides the basis for 
understanding the radiological and physiological response to 
radiation. And, finally, the Federal Government maintains an 
extensive response capability for radiological response, 
assessment and monitoring. This organization assures the hand-
off from crisis response to longer-term consequence management 
and monitoring and that that hand-off is accomplished smoothly 
and effectively.
    Through these tailored and responsive teams, NNSA is able 
to marshal highly trained, unique scientific and technical 
expertise drawn across the NNSA nuclear weapons complex and the 
DOE as a whole. More than 900 individuals are on call to 
respond in the event of a nuclear or radiological emergency. 
Only about 70 of these are full-time.
    The ability to call upon professionals from across the 
complex brings the depth of the nuclear/radiological response 
into this program and the full depth and breadth of the 
weapon's complex expertise and staffing can be brought to bear.
    Response teams are staffed with nuclear professionals who 
undertake this work as additional duty. Day-to-day, these 
individuals ensure the safety and reliability of our nuclear 
weapons stockpile, and with few exceptions, these individuals 
work other full-time jobs at DOE and NNSA, but they are on call 
as a response team when one is needed anywhere in the country. 
In that sense, nuclear incident response teams are analogous 
perhaps to the National Guard.
    The capabilities of the program are maintained and improved 
because of their cutting edge knowledge and because of their 
intimate relationship. These are the people who design and work 
on the weapons and the systems every day, and they are the ones 
we also bring into the fight, to the problem, in an incident. 
They have unique capabilities, but they are quite limited. Many 
years of hands-on work in some cases, going back to the 
Manhattan Project provides the knowledge and the insight and 
the background to draw upon.
    How will these teams work with the Department of Homeland 
Security? We believe that they will work very much as they do 
now. The team members will work at their regular jobs at DOE 
and NNSA unless they're activated. Under the Atomic Energy Act, 
the FBI is responsible to the United States for investigating 
illegal activities involving nuclear materials, including 
terrorist threats involving special nuclear materials. 
Executive Order 12656 provides the authority for DOE to assist 
in conducting, directing, and coordinating search and recovery 
operations for materials, weapons or devices in assisting and 
identifying and deactivating what we would call an improvised 
nuclear device or Radiological Dispersal Device. The State 
Department, Mr. Chairman, plays a similar role for overseas 
international events and has the authority to reach back to our 
teams for assistance. So when requested, NNSA-DOE response 
teams are activated and deployed in support or resolution of 
the crisis.
    Under the bill to establish Homeland Security, the new 
Secretary would coordinate responses to WMD incidents, 
including nuclear or radiological functions. We do not 
anticipate that the NNSA capabilities as a response to a 
nuclear or radiological accident or incident will be 
compromised in any way by this transfer of responsibility. What 
Homeland Security can add in addition to a centralized response 
to terrorism is a new and focused effort to set stronger 
standards for the capabilities of our teams, to strengthen 
training standards to ensure their inoperability, and to 
conduct joint exercises. There would be a single agency 
responsible for ensuring that we have the right assets 
available by setting nationally understood requirements and 
priorities.
    In summary, DOE and NNSA nuclear radiological response 
capabilities are critical in any domestic response to a nuclear 
radiological incident. But they are also vital to the DOE and 
to NNSA's capability to respond to an accident or incident 
within the weapons complex or the nuclear energy sector. With 
the teams organized essentially as they are now, subject to the 
call of the Secretary of Homeland Security, they can continue 
to function to support DOE and NNSA, the State Department and 
Homeland Security professionally, effectively and in a cost-
efficient manner.
    Mr. Chairman, I will be pleased to turn to your questions.
    [The prepared statement of John A. Gordon follows:]
  Prepared Statement of John A. Gordon, Under Secretary of Energy and 
     Administrator for Nuclear Security, National Nuclear Security 
               Administration, U.S. Department of Energy
    Thank you, Mr. Chairman. It's a pleasure to be here today to 
discuss Title V of the Homeland Security Act as it applies to the 
National Nuclear Security Administration (NNSA) at the Department of 
Energy (DOE).
    The President's proposal to organize the Department of Homeland 
Security (DHS) is at once visionary and down-to-earth. It will 
significantly improve the way the government responds to threats 
against the United States. Centralizing responsibility for our response 
to weapons of mass destruction will leverage resources currently spread 
across the government. The President's plan simply makes good sense. We 
at NNSA are proud of our role in the fight against terrorism, and we 
look forward to working with Congress and the Administration to make a 
smooth transition to a new department.
    The Department of Energy (DOE)/National Nuclear Security 
Administration (NNSA) develops and attracts the world's premiere 
nuclear scientists, technicians, and nuclear weapon designers as a 
result of over 50 years of managing the nation's nuclear weapons 
program. Many of these capabilities and assets have been applied toward 
homeland security and counter terrorism challenges long before 9/11, as 
well as since then.
    Under the Atomic Energy Act of 1954, as amended, the Federal Bureau 
of Investigation (FBI) is responsible, within the United States, for 
investigating illegal activities involving the use of nuclear 
materials, including terrorist threats involving the use of special 
nuclear materials. Executive Order 12656 provides authority for DOE to 
assist the FBI in conducting, directing, and coordinating search and 
recovery operations for nuclear materials, weapons, or devices, and 
assisting in identifying and deactivating an Improvised Nuclear Device 
(IND) or a Radiological Dispersal Device (RDD). Today's operations have 
been updated to address the threat of terrorists using weapons of mass 
destruction (WMD). When requested DOE/NNSA response teams are activated 
and deploy to support resolution of the WMD crisis.
    Under the Bill to establish the Department of Homeland Security, 
the new Secretary would coordinate responses to WMD incidents, 
including nuclear and/or radiological support function. We do not 
anticipate that the DOE/NNSA capabilities or response to a nuclear/
radiological accident or incident will be compromised in any way by 
this transfer of responsibility.
    Through tailored and responsive teams, DOE/NNSA is able to marshal 
highly trained and unique scientific and technical expertise in support 
of the Lead Federal Agency (LFA). This expertise is made up of 70 full 
time and 870 part time personal that draws from across the nuclear 
weapons complex and is composed of 29 full time and 118 part time 
Federal officials; 29 full time and 320 part time National Laboratory 
staff; and, 11 full time and 450 part time contractor staff.
    Although nearly 900 individuals are involved with the nuclear/
radiological incident response teams, through extensive matrixing and 
leveraging of resources, the cost to the government is only equivalent 
to 212 full time employees. This matrixing makes the response programs 
stronger and keeps the costs very low. The response teams are staffed 
with volunteers who, for the most part, work on ensuring the safety and 
reliability of the Nation's nuclear stockpile day in and day out. These 
professionals respond to staff a response team when called, much like a 
volunteer firefighter, or a National Guard member.
    Individuals from fifteen various DOE/NNSA sites/facilities or 
National Laboratories across the nation are on call to respond in the 
event of a nuclear/radiological incident or emergency. The ability to 
call upon professionals from across the weapons complex brings depth to 
the nuclear/radiological response programs. The full depth and breadth 
of the weapons complex experience and staffing are brought to bear in 
the event of a significant incident or an emergency.
    The capabilities of the response programs are improved because of 
the cutting edge knowledge of the stockpile stewardship program that 
these scientists bring with them when they respond to a call. This 
knowledge is gained over years of working with the stockpile 
stewardship program on a daily basis and cannot be duplicated--neither 
to replace the scientists on the response teams nor on the stockpile 
stewardship program. These very unique scientific/technical resources 
are extremely limited. Only the fundamental concepts of the stockpile 
stewardship programs are taught in a university. Many years of hands on 
work, in some cases going back to the Manhattan Project, provides 
knowledge, insights and background to draw upon that are invaluable.
          the nuclear/radiological incident response programs
    As the steward of the nation's nuclear weapons program, DOE/NNSA 
brings the knowledge and expertise of the world's leading nuclear 
scientists, technicians, and nuclear weapon designers in response to a 
significant nuclear/radiological incident or emergency. When the need 
arises, DOE/NNSA is prepared to respond immediately anywhere in the 
world with seven unique response capabilities.
    The response capability most widely known of is the Nuclear 
Emergency Support Team (NEST). The NEST program was initiated in 1974 
as a means to provide technical assistance to the Lead Federal Agency 
(LFA). NEST is our program for preparing and equipping specialized 
response teams to deal with the technical aspects of nuclear or 
radiological terrorism. NEST capabilities include search for and 
identification of nuclear materials, diagnostics and assessment of 
suspected nuclear devices, technical operations in support of render 
safe procedures, and packaging for transport to final disposition. NEST 
response team members are drawn from throughout the nation's nuclear 
weapons complex. Response teams vary in size from a five person 
technical advisory team to a tailored deployment of dozens of searchers 
and scientists who can locate and then conduct or support technical 
operations on a suspected nuclear device. NEST personnel and equipment 
are ready to deploy worldwide at all times.
    A Nuclear/Radiological Advisory Team deploys as part of an FBI-led 
Domestic Emergency Support Team (DEST) or as part of a State 
Department-led Foreign Emergency Support Team (FEST) is an incident 
occurs overseas to provide nuclear scientific and technical advice to 
the LFA.
    If the location of a suspected nuclear or radiological device is 
not known, search operations may be required. NEST search teams are 
routinely configured to detect and locate a radiological source using a 
variety of methods ranging from hand-carried to vehicle-mounted search 
equipment. The basic building block for NEST search operations is the 
Search Response Team (SRT). The Search Response Team is prepared to 
deploy on either civilian or military aircraft. Upon arrival on-scene, 
the Search Response Team can begin searching immediately or can equip 
and train local responders, who are already familiar with the search 
area.
    When a device is located, the specific resolution is dependent upon 
the political, technical, and tactical situation. The ultimate goal in 
resolving a nuclear terrorism crisis is to keep the terrorist device 
from producing a nuclear yield. This involves special explosive 
ordnance disposal (EOD) procedures conducted by highly-trained 
technical personnel. DOE/NNSA Joint Technical Operations Teams have 
been designated to work with military EOD teams during all phases of 
the crisis response. This approach also draws upon the personnel and 
equipment resources of the Accident Response Group (ARG).
    The Accident Response Group (ARG) mission is to manage the 
resolution of accidents or significant incidents involving nuclear 
weapons that are in DOE's custody at the time of the accident or 
incident. ARG will also provide timely, worldwide support to the 
Department of Defense in resolving accidents or significant incidents 
involving nuclear weapons in DoD's custody. Scientists, engineers, 
technicians, health physics and safety professionals from the National 
Laboratories and production facilities make up the ARG team. These 
skilled professionals from 30 different areas of technical expertise 
are ready to respond immediately. ARG members deploy with highly 
specialized, state-of-the-art equipment is used for monitoring, 
assessing or removing nuclear weapons, components or debris. Once the 
weapon leaves the site, the ARG mission is complete. Monitoring and 
assessment activities would most likely continue using other DOE/NNSA 
assets such as the Aerial Measuring System (AMS), the Atmospherical 
Release Advisory Capability (ARAC), the Federal Radiological Monitoring 
and Assessment Center (FRMAC), the Radiological Assistance Program 
(RAP), and the Radiation Emergency Assistance Center/Training Site 
(REAC/TS).
    The Aerial Measuring System (AMS) aircraft carry radiation 
detection systems, which provide real-time measurements of ground and 
airborne contamination--even very low radiation levels. AMS can also 
provide detailed aerial photographs and multi-spectral imagery and 
analysis of an accident site. AMS provides a rapid response to 
radiological emergencies with helicopters and fixed-wing aircraft 
equipped to detect and measure radioactive material deposited on the 
ground and to sample and track airborne radiation. The AMS uses a team 
of DOE/NNSA scientists, technicians, pilots and ground support 
personnel. Maps of the airborne and ground hazards are developed very 
rapidly which enables the scientists to determine ground deposition of 
radiological materials and project the radiation doses to which people 
and the environment are exposed. This information gives the decision-
making officials, e.g., the Federal Emergency Management Agency (FEMA), 
the Environmental Protection Agency (EPA), and state, local, or Tribal 
emergency management officials, information they need to effectively 
respond to the emergency. The AMS capability can also be used to locate 
lost or stolen radiological materials.
    The Atmospheric Release Advisory Capability (ARAC) role in an 
emergency begins when a nuclear, chemical, or hazardous material is 
released into the atmosphere. ARAC's main function is to provide near 
real-time assessments of the consequences of actual or potential 
radiation releases by modeling the movement of hazardous plumes to 
provide emergency response officials with the vital immediate 
information they need to rapidly evaluate airborne and ground 
contamination projections and thus effectively protect people and the 
environment. ARAC staff have vast databases available for a variety of 
data, including: a worldwide library of potential accident sites such 
as nuclear power plants and fuel-cycle facilities and a terrain 
database covering most of the world at a resolution of one-half 
kilometer.
    Upon receiving a request for support, ARAC's specialists begin 
downloading the most recent regional and site weather data for input 
into the model calculations. On-scene emergency response officials 
provide critical information such as the time and exact location of the 
release and the type of accident or incident causing the emergency. 
After ARAC team members have downloaded the regional weather 
information and received site input, computer codes simulate the 
release from the explosion, fire, vent or spill with dispersion models, 
which show the spread of the material. These dispersion models take 
into consideration the effects from the local terrain or topography and 
complex meteorology. ARAC staff scientists prepare graphic contour 
plots of the contamination overlaid on the local maps. These plots are 
distributed to emergency response officials and also provided to DOE/
NNSA response teams such as: AMS, ARG, FRMAC, RAP, REAC/TS, and NEST.
    In addition to accidental radiological releases, ARAC has assessed 
natural disasters such as volcanic ash cloud and earthquake-induced 
hazardous spills, manmade disasters such as the Kuwaiti oil fires, and 
toxic chemical releases from a wide spectrum of accidents.
    The Federal government maintains an extensive response capability 
for radiological monitoring and assessment. In the unlikely event of a 
major radiological incident, the full resources of the U.S. government 
can support state, local and Tribal governments. The FBI, as the Lead 
Federal Agency for domestic incidents, is responsible for leading and 
coordinating all aspects of the Federal response. DOE/NNSA may respond 
to a state or LFA request for assistance by deploying a RAP team. If 
the situation requires more assistance than RAP can provide, DOE/NNSA 
will alert or activate a Federal Radiological Monitoring and Assessment 
Center (FRMAC). FRMAC activities include: coordinating Federal offsite 
radiological environmental monitoring and assessment activities; 
maintaining technical liaison with state, local and Tribal governments; 
maintaining a common set of all offsite radiological monitoring data; 
and providing monitoring data and interpretations to the LFA, state, 
local and Tribal governments. The main DOE/NNSA emergency response 
assets that supplement and are integrated into FRMAC capabilities are: 
RAP, ARAC, AMS, and REAC/TS. These assets are employed to detect and 
monitor radiation, measure the concentration of radiation in the air 
and on the ground, and to evaluate current weather conditions and 
forecasts, which may affect the radiation impacts. Other Federal 
agencies provide key professionals specializing in technical areas of 
importance to the Federal monitoring assessment activities.
    The Radiological Assistance Program (RAP), established in the late 
1950's, is composed of 26 teams spread across the United States, RAP is 
often the first-responding DOE/NNSA resource in assessing an emergency 
situation and advising decision-making officials. A RAP response is 
tailored based on the scale of the event. Specific areas of expertise 
include: assessment, area monitoring, and air sampling, exposure and 
contamination control. RAP team members are trained in the hazards of 
radiation and radioactive materials to provide initial assistance to 
minimize immediate radiation risks to people, property, and the 
environment. Their equipment includes the most advanced radiation 
detection and protection equipment available.
    Since 1980, the Radiation Emergency Assistance Center/Training Site 
(REAC/TS) has been a World Health Organization Collaboration Center for 
Radiation Emergency Assistance. REAC/TS focuses on providing rapid 
medical attention to people involved in radiation accidents and is a 
resource to doctors around the world. DOE/NNSA's REAC/TS radiation 
experts are on call 24 hours a day for consultation to give direct 
medical and radiological advice to health care professionals at the 
REAC/TS treatment facility or an accident site. If needed, additional 
REAC/TS physicians and other team members can be deployed to the 
accident scene. This highly trained and qualified team can provide 
advice regarding assessment and treatment of contamination, conduct 
radiation dose estimates, diagnose and provide prognosis of radiation-
induced injuries, conduct medical and radiological triage, perform 
decontamination procedures and therapies for external and internal 
contamination, and calculate internal radiation doses from medially 
induced procedures.
    REAC/TS is also the recognized center for training national and 
foreign medical, nursing, paramedical, and health physics professionals 
for the treatment of radiation exposure. As a World Heath Organization 
Collaborating Center, REAC/TS is prepared to serve as a central point 
for advice and possible medical care in cases of radiation injuries; 
set up a network of available equipment and staff specializing in 
radiopathology; develop medical emergency plans in the event of a 
large-scale radiation accident; develop and carry out coordinated 
studies on radiopathology; prepare radiation documents and guidelines; 
and provide consultation or direct medical assistance to foreign 
governments if an actual radiation accident occurs.
    In summary, the DOE/NNSA nuclear/radiological response capabilities 
are critical in any domestic response to a nuclear/radiological 
incident, but they are also vital to the DOE and NNSA's ability to 
respond to an accident or incident within the weapons complex or 
nuclear energy sector. With the teams organized as they are now, 
subject to the call of the Secretary of Homeland Security, they can 
continue to function to support DOE and NNSA and Homeland Security in 
an efficient, cost-effective manner.
    The DOE/NNSA has more than 50 years of nuclear weapons experience 
that continue to provide the nation with an extensive base for science 
& technology, systems engineering, and manufacturing that has 
application across a broad set of national security missions, including 
homeland security and counter terrorism. Creation of a cabinet level 
Homeland Security agency holds promise for dramatic acceleration of 
improved capabilities against domestic threats. We in the DOE/NNSA are 
committed to the success of this new Department, and will work to 
facilitate it.
    I would be pleased to answer any questions.

    Mr. Greenwood. Thank you for your testimony, General.
    The Chair recognizes himself for 5 minutes for inquiry. Let 
me start with you, Secretary Allen.
    In order to speed the development of priority 
countermeasures, such as new vaccines and drugs, the Secretary 
of HHS is going to have to expedite approvals under the Federal 
Food, Drug, and Cosmetic Act. Moreover, some research efforts 
will be important both to counterterrorism and to advance 
public health research generally. We need to make sure that 
general research priorities are not diminished.
    How will HHS assure proper priority and coordination on the 
regulatory front with the new department?
    Mr. Allen. Mr. Chairman, the question is a very important 
one. It really goes to the heart of the mission of HHS, and in 
terms of time in dealing with bioterrorism.
    We don't believe the mission will change significantly at 
all in that regard for the very mere fact that HHS right now 
prioritizes the research, prioritizes how we are going to be 
addressing the need for getting new products to market. So we 
don't anticipate there will be much change at all, if any, in 
regards to how the FDA will move in terms of getting products 
approved for their use whether that be for a bioterrorism 
response or whether it is for a general civilian response in 
terms of the use.
    And to give you a good example, Congress just passed and 
the President has signed--as part of the bioterrorism 
legislation was included the passage of legislation that 
included the user fees for pharmaceutical products that would 
go to market. We believe that that will continue to be a part 
of that. But recognize that those products, those 
pharmaceutical products, while they serve a general purpose, 
using Cipro as an example--in terms of just an infection, they 
were used specifically in response to the anthrax outbreak 
which was a bioterrorism agent. So we don't anticipate there 
will be a significant change in how we were.
    The question we will have is that the department will need 
to coordinate with the Department of Homeland Security as we 
are looking at products that will be coming to market, that FDA 
will need to approve and review for approval; and that is going 
to be a function that will have to be conducted again at a very 
senior level within the department. But FDA will continue to be 
involved in that process, and we will just need to create a 
liaison to work with Homeland Security to ensure the speed and 
accuracy of getting that information between the departments 
and getting the products to market.
    Mr. Greenwood. The MDMS is being transferred from HHS to 
the new department, but as I understand it, these teams often 
have to be coordinated with other HHS elements, such as the 
Public Health Service.
    Will the separation of the MDMS from the Public Health 
Service present problems in your opinion, and if not, how will 
continued coordination be assured?
    Mr. Allen. We don't anticipate it will create problems in 
terms of the ultimate function of the MDMS system. While indeed 
the legislation under section 502 transfers that function to 
the new department, we do believe that as it currently exists 
in HHS, it was transferred from under the Assistant Secretary 
of Health to the Office of Public Health Preparedness, what 
would be the Assistant Secretary for Public Health Emergency 
Preparedness, and there had to be coordination even within the 
department of those assets and resources.
    So we would anticipate that there would be an ongoing 
coordination with, now, the Department of Homeland Security 
that had already existed between HHS, VA, the Veterans' 
Administration, FEMA, DOD and other agencies that were involved 
in the MDMS system.
    So we don't anticipate much change, but we would work 
through agreements, working with the Department of Homeland 
Security to ensure a smooth transition to ensure that those 
responses continue.
    Mr. Greenwood. Just a question or two to you, General 
Gordon.
    With respect to the NEST, the President's proposal leaves 
these teams under DOE authority generally, except for emergency 
situations when they would be under the new Secretary's 
authority. In our discussions with those who make up these 
teams at the labs, there is some sense of confusion as to the 
exact dividing line.
    Can you shed some additional light on that question, based 
on your understanding of the administration's views?
    Mr. Gordon. Mr. Chairman, now, today, if a team were to 
deploy to a situation under Federal control--a nuclear 
incident, a suspected weapon--that team would ``chop,'' in the 
military term, would ``deploy'' under the control and command 
of the lead Federal agency, which in most circumstances would 
be the FBI.
    Under this act, I think there is still a bit of a sorting 
out to be done on exactly how that relationship between the 
Secretary and the FBI works out. But the NEST teams will chop 
to the lead Federal agency.
    Mr. Greenwood. Sorting out requires some fine tuning of the 
legislative language.
    Mr. Gordon. I think it is just a decision. Whether it is 
legislation or within the administration, I think it is a 
decision.
    My sense is it's not going to have any measurable effect on 
the operation or the effectiveness of the teams. They are going 
to work for someone who is in charge of the overall action.
    Mr. Greenwood. Will this new bill require that the new 
Secretary authorize any deployments of these teams, or 
components of these teams, which I understand is not all that 
uncommon? Or will the DOE Secretary or the regional commanders 
of these teams remain authorized to deploy assets when deemed 
necessary or upon request of State or local officials?
    Mr. Gordon. We view these very much as dual-use assets in 
that regard. If there's a national incident that requires the 
team, the teams will provide it then. However, these are 
individuals with qualities and capabilities that we need to be 
able to deploy to an energy or national lab incident that we 
can deploy ourselves. There are not a huge number of teams, but 
certainly enough to handle more than one incident at a time.
    Mr. Greenwood. My time has expired, but before I yield to 
the ranking member, I would just ask that both Secretary Allen 
and General Gordon commit to us that your staffs will work 
diligently with us in the short, truncated period that we have 
to get this legislation prepared for the House floor.
    Mr. Gordon. Absolutely.
    Mr. Allen. Absolutely.
    Mr. Deutsch. Thank you, Mr. Chairman.
    Secretary Allen, I believe you were here throughout the 
entire comments by the Governor and the questions. And I really 
wanted to follow up a little bit about that. Besides myself, a 
number of other members, I think, are just really trying to 
inquire and really enter into a dialog into the changes of some 
of these responsibilities from HHS to this new department.
    Under this proposed governmental structure, what public 
health responsibilities are left in HHS?
    Mr. Allen. Actually, Congressman Deutsch, the vast majority 
of the public health responses are left in HHS. It does not 
dramatically impact the Public Health Service Act that exists 
right now to focus on HHS' public health responsibilities. What 
it does do is set some particular areas that will be dual use.
    What is transferred from HHS under the proposal are, one, 
the national pharmaceutical stockpile, which includes the 
procurement, the maintenance, and deployment of the stockpile; 
second, the transfer of the Office of the Assistant Secretary 
for Public Health Emergency Preparedness, which includes the 
National Disaster Medical System, includes the Metropolitan 
Medical Response teams, includes our Disaster Medical 
Assistance teams. Those assets which would also be part of our 
Office of Emergency Preparedness will transfer. And then last, 
the select agent regulations will transfer.
    So the vast majority of the functions of HHS will continue 
and will not be fully transferred over to the new department.
    Mr. Deutsch. Could you specifically respond to, I guess one 
of the questions I also asked Governor Ridge, regarding the 
grant program, the billion dollar grant program for public 
health preparedness established by Secretary Thompson and 
authorized by the 2002 Public Health Security and Bioterrorism 
Preparedness Act? How will that change in terms of the 
proposals?
    Mr. Allen. Under the proposals, the Department of Homeland 
Security will have the responsibility for those State and local 
programs; however, they will do that through contracting with 
HHS to run those programs. Certainly, the Administration did 
not want to disrupt what was accomplished in the public health, 
the act, the bioterrorism act, to disrupt what has already been 
taking place, and that is, is getting resources to State and 
local communities. We will still be in essence the grant 
managers in that sense actually working with State and local 
governments. It's simply that the strategic decisionmaking will 
be primarily the responsibility of the Department of Homeland 
Security, and they will consult with and contract with 
through--and through memorandums of understanding with the 
Department in carrying out of those functions.
    Mr. Deutsch. Now, our understanding is--my understanding as 
well is that for budgeting purposes, these two infrastructures 
that we are just describing cannot cost more than the single 
one. How is that possible? And is that correct?
    Mr. Allen. It's possible, because, for example, in terms of 
what we are already doing, the functions will--the functions, 
the personnel will remain at the Health Resources Services 
Administration, which is working on the possible preparedness 
issues, and will remain at the Center for Disease Control which 
is working with State and local health departments in terms of 
the functions there.
    So, in essence, the money is going to be funded through the 
Department of--the Department of Homeland Security, and they 
will contract with HHS to carry out those functions.
    Mr. Deutsch. In your testimony, you stated that HHS would 
continue to decide what agents would be on the select agent 
list. Could you cite the legislation or the provision for that?
    Mr. Allen. Actually, under the legislation, the scientific 
work that is being done, the medical expertise that is 
necessary right now to determine what the select agents are 
would be accomplished by working with the scientists who 
currently exist at H HS. Under the section 502, it transfers--
subsection 5, it transfers the work of the Office of Assistant 
Secretary for Public Health Emergency Preparedness, but also 
transfers--and all their functions in the strategic and 
national stockpile is also transferred.
    With regards to the select agent rule, I have to find the 
specific records.
    Mr. Deutsch. You can provide that to us, if you can.
    Mr. Allen. Sure. I will be glad to do that.
    Mr. Deutsch. Again, I just see my time is running out, so 
let me go through two other questions very quickly.
    What percentage of public health service officers are 
actually supposed to go over to the new agency?
    Mr. Allen. We don't have a number of actual individuals. I 
can give you the number of individuals who are supposed to 
transfer over.
    With regards to--if you will hold on for a second. Under 
the select agent rule, for example, we will be transferring 
seven FTEs. Those are the individuals who actually worked at 
CDC who worked on the select agent transfer program. We also--
under the Office of the Assistant Secretary for Public Health 
Preparedness, that would include approximately 116 staff and 
detailees who are currently on board, including 87 individuals 
who are at the Office of Emergency Preparedness. And for the 
functions in terms of the national, the national pharmaceutical 
stockpile would include currently about 28 individuals.
    Mr. Deutsch. Thank you.
    Mr. Allen. And your cite for the select agent rule, I do 
have that for you. It's under section 502. 302, I'm sorry. 
Section 302, subsection 1. It says that the select agent 
registration enforcement programs and activities of the 
Department of Health and Human Services, including the 
functions of the Secretary of HHS relating thereto, will 
transfer over.
    Mr. Whitfield. General Gordon, one of the laboratories in 
their written testimony asked a very good question about how 
NEST's effectiveness depends in large part on the continued R&D 
and technology improvement efforts under way at DOE. If you 
divide--if the NEST teams are divorced in some way from the R&D 
component, whether by transfer of NEST or transfer of those R&D 
components to Homeland Security, in your opinion, what would 
the impact of that be? And does that concern you?
    Mr. Gordon. Mr. Chairman, it's not our intent to break that 
link at all. The labs have a huge capacity to do this R&D. It's 
very important to us. And they are, of course, the ones who 
provide the experts for NEST.
    As we discussed in the statement, the NEST will continue to 
operate and live as an organic unit within the National Nuclear 
Security Administration and DOE, and be available as a national 
asset, as the demand requires. We intend to keep them linked 
tightly together.
    Mr. Whitfield. Okay. On these NEST teams, is it--many 
people devote time voluntarily to this. Is that correct? Or----
    Mr. Gordon. Of the 900 or so people that are identifiable 
on the full range of nuclear incident response teams, which 
goes beyond NEST, there is probably only about 70 full-time 
employees. The others, I'm not sure I would call them 
volunteers so much as additional duty. They accept this duty, 
they accept this responsibility. They train to it and exercise 
to it.
    But the point being, from my perspective, Mr. Chairman, the 
point being that's one of the reasons you just can't pick this 
thing up lock, stock, and barrel, and move it elsewhere. Their 
expertise, their currency is actually from the jobs they do day 
to day.
    Mr. Whitfield. You know, some people have described this 
situation as following the National Guard model in which 
equipment and supplies are centrally managed--in this case, by 
the new Secretary--while the personnel remain under the general 
authority of the respective departments--in this case DOE--
except when called to duty. Is that your understanding of the 
approach embodied in this bill?
    Mr. Gordon. I might use a different analogy but toward the 
same end. Military service today, their responsibility is to 
organize, train, and equip.
    Mr. Whitfield. Right.
    Mr. Gordon. And then they are then fought by a commander in 
chief. I think that there is an analogy here pretty strong to 
that point, that we would organize, train, and equip to 
standards that I would hope that the new department would help 
sharpen, help strengthen, and work the interoperability perhaps 
better than we do today.
    Mr. Whitfield. I was wondering if you would elaborate just 
a little bit on these joint tactical operations teams. 
Actually, what is their mission?
    Mr. Gordon. What they would be doing is we would be 
augmenting the individuals who were hands-on attempting to deal 
with or dismantle a weapon. So, basically, in those instances, 
Mr. Chairman, what we do is we bring in the technical expertise 
that sits behind the bomb squad.
    Mr. Whitfield. Okay.
    Now, Secretary Allen, if we move some of the key functions 
of the new Assistant HHS Secretary for Public Health 
Preparedness--and maybe you all touched on this earlier. But if 
we moved that to the new department, does that eliminate the 
need for that assistant secretary entirely, or would there be 
remaining functions, such as coordination, that would need to 
be done?
    Mr. Allen. Clearly, the need for coordination within the 
Department of HHS of these activities will not be eliminated. 
Whether that is the requirement of having an assistant 
secretary level function, that is something that remains to be 
addressed. Clearly, the department under Secretary Thompson 
following 9/11, he created the Office of Public Health 
Preparedness, and had a director of that office to coordinate 
those functions. But it was certainly the wisdom of Congress to 
create an office of an assistant secretary. So we would be 
flexible to work with it, but there will need to have very 
senior leadership coordinating the activities of the department 
to work with Homeland Security to ensure the continuity of 
those programs.
    Mr. Whitfield. Thank you very much. I see my time has 
expired. We will recognize the gentleman from Michigan for 5 
minutes.
    Mr. Stupak. Thank you, Mr. Chairman.
    General Gordon, I think in your opening statement you 
commented, or maybe it was in response to a question, about 
Salt Lake City Olympics. Did you--or, not you. But were there 
radiation detection devices at the Salt Lake Olympics?
    Mr. Gordon. We didn't set up specifically. The emphasis on 
the Salt Lake Olympics was more in the area of some biological 
response, which I would prefer to discuss in a different 
session.
    Mr. Stupak. Sure. But in answer to my question, so there 
wasn't any radiation detection devices at Salt Lake that you 
know of?
    Mr. Gordon. We did not set up specific portals.
    Mr. Stupak. Right. My question is, do you know if there 
were any radiation detection devices? I know you didn't set 
them up, but were there?
    Mr. Gordon. I just don't know the answer to your question.
    Mr. Stupak. Okay.
    Mr. Gordon. I will provide you a response.
    [The following was received for the record:]

    At the request of the U.S. Secret Service and the Federal Bureau of 
Investigation, and in support of the Utah Olympic Public Safety 
Command, the Department of Energy deployed the Nuclear/Radiological 
Advisory Team (NRAT) and members of the Radiological Assistance Program 
(RAP) team from Region 6 (Idaho) with portable radiation detection 
equipment to the Salt Lake City 2002 Winter Olympic Games. The 
equipment deployed included small pager-sized radiation detectors, 
detectors carried in briefcases and backpacks, and vehicle-mounted 
detectors. Identification units, which are used to identify the 
specific type of radiological material, were also sent. No radiation 
portal monitoring was conducted at any time.
    Prior to the arrival of the athletes, NRAT and RAP conducted 
radiological surveys around Salt Lake City and the high security areas. 
Surveys of this type are useful in cataloging the radiological 
signature of the surrounding areas, saving critical response time in 
the event of an actual incident. During the survey process several 
locations revealed an elevated radiation signature. In each instance, 
the NRAT scientists deployed with identification units and determined 
that the readings were due to natural background radiation, a normal 
occurrence. Once the Olympics began, the radiological surveying stopped 
and the teams assumed a response posture. There were no incidents 
requiring the use of NRAT or RAP personnel or equipment during the 
Olympics.

    Mr. Stupak. Okay. But the only point I was driving at--it 
wasn't a trick question--is my impression is that there were 
radiation detection devices we used at Salt Lake City. In the 
earlier panel with Governor Ridge here, we were talking a lot 
about radiation detection devices. If they were set up and used 
in Salt Lake City and if there is concerns we should have them 
elsewhere in this country, why aren't we using them? That's all 
I'm trying to get at.
    Mr. Gordon. Again, I would really like to discuss this in a 
different session.
    Mr. Stupak. Sure. Let me put it this way. When I was 
asking--we were talking about it before, myself and Governor 
Ridge, we talked about how Customs wanted these devices, and 
then contractors gave them to DOE, and DOE has now gone to one 
of the labs to try to get some standards and get some 
development going, and we are already down the three levels. 
And in response to the question, it was like, ``Well, 
Congressman, that's sort of the way the Federal bureaucracy 
works.'' I didn't get a warm, fuzzy feeling when I got that 
answer.
    I guess if we are going to do this new Homeland Security, 
Department of Homeland Security, how are things going to be 
different?
    Mr. Gordon. I want to sign up to exactly what I think you 
are getting at, sir. We had proposed and suggested at the 
beginning that there be developed in effect a lead technical 
agency that could bring together the disparate variety of 
activities that are under way in this with some national 
standards, with some national priorities that are set up for 
where we are going. That is, in my understanding, what is to be 
incorporated into this new department. Because what we have 
now, even in our own areas for the Department of Energy and 
NNSA, is some very specific capabilities that were put together 
for some very specific and somewhat narrow uses. We have now 
expanded those, I think, with considerable expertise and a 
little bit of alacrity in response to 9/11. The pagers, the 
sort of small radiation detection pagers that are used at 
airports have been made available to the extent that we could 
get them fast enough or cause them to be produced fast enough, 
deployed in a number of locations with a number of different 
forces.
    I think there is a good effort across the board in where we 
are using and deploying some systems, which I would be glad to 
talk with you in a smaller group, but it is time to pull it 
together in an aggressive program.
    Mr. Stupak. Okay. Again, maybe it would be appropriate in a 
closed session, and, again, just a little bit. But I'm still 
trying to get at if we create this new department how is it 
going to be different? How are we going to have accountability, 
responsibility, and make sure the job is getting done, and we 
don't have finger-pointing after an incident? That's what I'm 
driving at.
    Mr. Gordon. We bring it together in one place with 
individuals who are charged to look at it nationally----
    Mr. Stupak. Okay.
    Mr. Gordon. [continuing] who are designed to set up what 
are the priorities that you want us to spend our research 
dollars and our production dollars on, and take that in an 
aggressive step and just work right down a strategic plan.
    Mr. Stupak. I'm sure, Mr. Chairman, when we get into the 
radiation detection, I would suggest that might be a place we 
want to go in closed session. I know I have some more 
questions, but I am going to leave that issue right now and go 
to another spot.
    Well, let's take the NEST teams. I don't know of any 
significant problems that have been evident by the way these 
teams have been presently structured or how their command and 
control has worked in the past. So if you move NEST teams over 
to the new department, how is that going to improve them or 
improve their functionality?
    Mr. Gordon. I think the point, sir, is that they don't move 
over; that they become part of the coordinated units that are 
available to respond to a crisis upon the direction of the 
Secretary.
    Mr. Stupak. So the teams wouldn't move over to Homeland 
Security?
    Mr. Gordon. The teams do not move as a unit. They stay 
where they are because--they need, in fact, to stay inside the 
organization because they are not full-time personnel that 
deploy. These are actually the experts that are working on our 
stockpile stewardship program, working on our weapons, working 
the intelligence side. So we bring them together, as the 
Chairman had suggested, in a National Guard way or in a 
military service way to respond to individual crisis.
    Mr. Stupak. Okay. All right. I was under the impression, 
and maybe wrongly so, that NEST teams are going to be moved to 
Homeland Security.
    Mr. Gordon. No, sir. They would be available under the 
command of the Secretary of Energy upon call for national 
issues. They also would be available to the Secretary or myself 
for an DOE-NNSA incident where they had to respond. And we need 
them to stay tied in to their current work, because they are 
not full-time NEST employees, on the whole.
    Mr. Stupak. Okay. They stay where they are, but additional 
people can employ them, if need be.
    Mr. Gordon. And that's effectively the way it is today. If 
there were an incident this moment that involved a nuclear 
weapons or terrorist attack, the FBI would be responsible for 
commanding that incident, and we would deploy our forces to the 
FBI for their use.
    Mr. Greenwood. The time of the gentleman has expired.
    Thank you, Secretary Allen, thank you, General Gordon, for 
your testimony, for responding to our questions, to your 
pledges of cooperation as we work through this legislation. 
Thank you again, and you are excused.
    Mr. Gordon. Thank you, Mr. Chairman.
    Mr. Greenwood. The Chair then calls forward our third panel 
for this hearing. We have Ms. Jan Heinrich, who is the Director 
of Health Care and Public Health Issues at the U.S. General 
Accounting Office; Dr. Harry C. Vantine, Program Leader, 
Counterterrorism and Incident Response at the Lawrence 
Livermore National Laboratory; Dr.--or Mr. David Nokes, 
Director, Systems Assessment and Research Center, Sandia 
National Laboratories; Dr. Donald D. Cobb, Associate Director 
for Threat Reduction, Los Alamos National Laboratory; Dr. Lew 
Stringer, Medical Director, Division of Emergency Management, 
the North Carolina Department of Crime Control and Public 
Safety; and Mr. Edward P. Plaugher, Chief of the Arlington 
County Fire Department, and also Executive Agent, Washington 
Area, National Medical Response Team.
    Lady and gentlemen, we welcome you, and thank you for 
joining us this morning. And I would--you are aware that this 
committee is holding an investigative hearing, and when doing 
so, it is our practice to take testimony under oath. Do any of 
you have any objections to giving your testimony under oath? 
No? You are also, under the rules of this committee and the 
House, entitled to be represented by counsel. Do any of you 
wish to be represented by counsel this morning? Okay.
    Is Dr. Stringer not here? Doctor, take your time and hurry 
on up to the table.
    Welcome, Dr. Stringer. As I indicated to the other 
witnesses, sir, you are aware that this committee is holding an 
investigative hearing, and you are aware that, pursuant to our 
practices, we take testimony under oath. And I should ask you, 
do you have any objection to giving your testimony under oath?
    Mr. Stringer. No, sir.
    Mr. Greenwood. Then for all of you, you are entitled under 
the rules of the House and the committee to be represented by 
counsel. Do any of you wish to be represented by counsel? Okay. 
In that case, if you would each stand, and all stand and raise 
your right hands, I will swear you in.
    [Witnesses sworn.]
    Mr. Greenwood. Okay. You are all the under oath. And Ms. 
Heinrich, you are recognized for 5 minutes for your opening 
statement. Thank you for being with us.

 TESTIMONY OF JANET HEINRICH, DIRECTOR, HEALTH CARE AND PUBLIC 
    HEALTH ISSUES, U.S. GENERAL ACCOUNTING OFFICE; HARRY C. 
    VANTINE, PROGRAM LEADER, COUNTERTERRORISM AND INCIDENT 
  RESPONSE, LAWRENCE LIVERMORE NATIONAL LABORATORY; K. DAVID 
NOKES, DIRECTOR, SYSTEMS ASSESSMENT AND RESEARCH CENTER, SANDIA 
 NATIONAL LABORATORIES; DONALD D. COBB, ASSOCIATE DIRECTOR FOR 
THREAT REDUCTION, LOS ALAMOS NATIONAL LABORATORY; LLEWELLYN W. 
    STRINGER, JR., MEDICAL DIRECTOR, DIVISION OF EMERGENCY 
  MANAGEMENT, NORTH CAROLINA DEPARTMENT OF CRIME CONTROL AND 
PUBLIC SAFETY; AND EDWARD P. PLAUGHER, CHIEF, ARLINGTON COUNTY 
  FIRE DEPARTMENT, EXECUTIVE AGENT, WASHINGTON AREA NATIONAL 
                     MEDICAL RESPONSE TEAM

    Ms. Heinrich. Mr. Chairman and members of the subcommittee, 
I appreciate the opportunity to be here today to discuss the 
proposed creation of the Department of Homeland Security. Since 
the terrorist attacks of September 11 and the subsequent 
anthrax incidents, there has been concern about the ability of 
the Federal Government to prepare and coordinate an effective 
public health response to such events. Our earlier work found 
that more than 20 Federal departments and agencies carry some 
responsibility for bioterrorism preparedness and response, and 
that their efforts are fragmented.
    Emergency response is further complicated by the need to 
coordinate actions with agencies at the State and local level 
where much of the response activity would occur. My remarks 
will focus on the aspects of the proposal concerned with public 
health preparedness and response, and the two primary changes 
to the current system found in title 5 of the proposed bill.
    First, the proposal would transfer certain emergency 
preparedness and response programs, as we have already heard.
    Second, it would transfer the control over but not the 
operation of other public health preparedness assistance 
programs, such as providing emergency preparedness planning 
assistance to State and local governments from HHS to the new 
department.
    The consolidation of Federal agencies and resources for 
medical response to an emergency as outlined in the proposed 
legislation has the potential to improve efficiency and 
accountability for these activities at the Federal level, as 
well as the State and local levels. The programs to be 
consolidated have already been identified for you. As Governor 
Ridge has stated, issues of coordination will remain, however.
    The proposed transfer of the Metropolitan Medical Response 
System does not address the need for enhanced regional 
communication and coordination, for example. The National 
Disaster Medical System functions as a partnership among HHS, 
the Department of Defense, the Department of Veterans Affairs, 
FEMA, State and local governments, and the private sector. 
Thus, coordination across departments will still be required.
    Similarly, the Strategic National Stockpile will involve 
the VA for purchase and storage, and HHS, in regards to the 
medical contents.
    Although the proposed department has the potential to 
improve emergency response functions, its success is contingent 
on merging the perspectives of the various programs that would 
be integrated under the proposal. We are concerned that the 
lines of authority of the different parties in the event of 
emergency still need to be clarified.
    As an example, in the recent anthrax events, local 
officials complained about differing priorities between the FBI 
and public health officials handling suspicious specimens. The 
FBI viewed the specimens as evidence in a criminal case, while 
public health officials' first priority was contacting 
physicians to ensure effective treatment was begun promptly.
    The President's proposal to shift the authority, funding, 
and priority-setting for all programs assisting State and local 
agencies and public health emprgency Preparedness from HHS to 
the new department raises concerns because of the dual purpose 
nature of these activities. These programs include, as we have 
heard, the CDC's bioterrorism and preparedness programs and the 
HRSA Bioterrorism Hospital Preparedness Program. Functions 
funded through these programs are central to investigations of 
naturally occurring infectious disease outbreaks and to regular 
public health communications, as well as to identifying and 
responding to a bioterrorism event. Just as with the West Nile 
virus outbreak in New York City, which initially was feared to 
be the result of bioterrorism, when an unusual case of disease 
occurs, public health officials must investigate. Although the 
origin of the disease may not be clear at the outset, the same 
public health resources are needed, regardless of the source.
    The recently enacted Public Health Security and 
Bioterrorism Preparedness and Response Act of 2002 recognized 
that these dual purpose programs are needed in State and local 
communities. Now States are beginning to plan to expand 
laboratory capacity, enhance their ability to conduct 
infectious disease surveillance and epidemiological 
investigations, and develop plans for communicating with the 
public. While under the proposal, the Secretary of Homeland 
Security would be given control over these assistance programs, 
their implementation would continue to be carried out by H HS.
    The proposal also authorizes the President to direct that 
these programs no longer be carried out in that manner without 
addressing the circumstances under which such authority would 
be exercised.
    We are concerned that this approach may disrupt the synergy 
that exists in these dual purpose programs. We are also 
concerned that the separation of control over the programs from 
their operations would lead to difficulty in balancing 
priorities. Although the HHS programs are important for 
homeland security, they are just as important to the day-to-day 
needs of public health agencies and hospitals, such as 
reporting on meningitis outbreaks and providing alerts to the 
medical community on influenza. The current proposal does not 
clearly provide a structure that ensures that both the goals of 
homeland security and public health will be met.
    In summary, many aspects of the proposal are in line with 
our previous recommendations to consolidate programs, 
coordinate functions, and provide a statutory basis for 
leadership of homeland security. However, we do have concerns, 
as we have noted.
    Mr. Chairman, this completes my prepared statement. I am 
happy to respond to any questions you or other members may 
have.
    [The prepared statement of Janet Heinrich follows:]
Prepared Statement of Janet Heinrich, Director, Health Care and Public 
             Health Issues, U.S. General Accounting Office
    Mr. Chairman and Members of the Committee: I appreciate the 
opportunity to be here today to discuss the proposed creation of the 
Department of Homeland Security. Since the terrorist attacks of 
September 11, 2001, and the subsequent anthrax incidents, there has 
been concern about the ability of the federal government to prepare for 
and coordinate an effective public health response to such events, 
given the broad distribution of responsibility for that task at the 
federal level. Our earlier work found, for example, that more than 20 
federal departments and agencies carry some responsibility for 
bioterrorism preparedness and response and that these efforts are 
fragmented. <SUP>1</SUP> Emergency response is further complicated by 
the need to coordinate actions with agencies at the state and local 
level, where much of the response activity would occur.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Bioterrorism: Federal Research 
and Preparedness Activities, GAO-01-915, (Washington, D.C.: Sept. 28, 
2001).
---------------------------------------------------------------------------
    The President's proposed Homeland Security Act of 2002 would bring 
many of these federal entities with homeland security 
responsibilities--including public health preparedness and response--
into one department, in an effort to mobilize and focus assets and 
resources at all levels of government. The aspects of the proposal 
concerned with public health preparedness and response would involve 
two primary changes to the current system, which are found in Title V 
of the proposed bill. First, the proposal would transfer certain 
emergency preparedness and response programs from multiple agencies to 
the new department. Second, it would transfer the control over, but not 
the operation of, other public health preparedness assistance programs, 
such as providing emergency preparedness planning assistance to state 
and local governments, from the Department of Health and Human Services 
(HHS) to the new department. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ These changes are primarily covered by Sections 502 and 505, 
respectively, in Title V of the President's proposed legislation.
---------------------------------------------------------------------------
    In order to assist the committee in its consideration of this 
extensive reorganization of our government, my remarks today will focus 
on Title V of the President's proposal and the implications of (1) the 
proposed transfer of specific public health preparedness and response 
programs currently housed in HHS into the new department and (2) the 
proposed transfer of control over certain other public health 
preparedness assistance programs from HHS to the new department. My 
testimony today is based largely on our previous and ongoing work on 
federal, state, and local preparedness in responding to bioterrorist 
threats, <SUP>3</SUP> as well as a review of the proposed legislation.
---------------------------------------------------------------------------
    \3\ See ``Related GAO Products'' at the end of this testimony.
---------------------------------------------------------------------------
    In summary, we believe that the proposed reorganization has the 
potential to repair the fragmentation we have noted in the coordination 
of public health preparedness and response programs at the federal, 
state, and local levels. As we have recommended, the proposal would 
institutionalize the responsibility for homeland security in federal 
statute. We expect that, in addition to improving overall coordination, 
the transfer of programs from multiple agencies to the new department 
could reduce overlap among programs and facilitate response in times of 
disaster. However, we have concerns about the proposed transfer of 
control from HHS to the new department for public health assistance 
programs that have both basic public health and homeland security 
functions. These dual-purpose programs have important synergies that we 
believe should be maintained. We are concerned that transferring 
control over these programs, including priority setting, to the new 
department has the potential to disrupt some programs that are critical 
to basic public health responsibilities. We do not believe that the 
President's proposal is sufficiently clear on how both the homeland 
security and the public health objectives would be accomplished.
                               background
    Federal, state, and local government agencies have differing roles 
with regard to public health emergency preparedness and response. The 
federal government conducts a variety of activities, including 
developing interagency response plans, increasing state and local 
response capabilities, developing and deploying federal response teams, 
increasing the availability of medical treatments, participating in and 
sponsoring exercises, planning for victim aid, and providing support in 
times of disaster and during special events such as the Olympic games. 
One of its main functions is to provide support for the primary 
responders at the state and local level, including emergency medical 
service personnel, public health officials, doctors, and nurses. This 
support is critical because the burden of response falls initially on 
state and local emergency response agencies.
    The President's proposal transfers control over many of the 
programs that provide preparedness and response support for the state 
and local governments to a new Department of Homeland Security. Among 
other changes, the proposed bill transfers HHS's Office of the 
Assistant Secretary for Public Health Emergency Preparedness to the new 
department. Included in this transfer is the Office of Emergency 
Preparedness (OEP), which currently leads the National Disaster Medical 
System (NDMS) <SUP>4</SUP> in conjunction with several other agencies 
and the Metropolitan Medical Response System (MMRS). <SUP>5</SUP> The 
Strategic National Stockpile, <SUP>6</SUP> currently administered by 
the Centers for Disease Control and Prevention (CDC), would also be 
transferred, although the Secretary of Health and Human Services would 
still manage the stockpile and continue to determine its contents.
---------------------------------------------------------------------------
    \4\ In the event of an emergency, the National Disaster Medical 
System has response teams that can provide support at the site of a 
disaster. These include specialized teams for burn victims, mental 
health teams, teams for incidents involving weapons of mass 
destruction, and mortuary teams that can be deployed as needed. About 
2,000 civilian hospitals have pledged resources that could be marshaled 
in any domestic emergency under the system.
    \5\ The Metropolitan Medical Response System is a program that 
provides support for local community planning and response capabilities 
for mass casualty and terrorist incidents in metropolitan areas.
    \6\ The stockpile, previously called the National Pharmaceutical 
Stockpile, consists of two major components. The first component is the 
12-Hour Push Packages, which contain pharmaceuticals, antidotes, and 
medical supplies and can be delivered to any site in the United States 
within 12 hours of a federal decision to deploy assets. The second 
component is the Vendor Managed Inventory.
---------------------------------------------------------------------------
    Under the President's proposal, the new department would also be 
responsible for all current HHS public health emergency preparedness 
activities carried out to assist state and local governments or private 
organizations to plan, prepare for, prevent, identify, and respond to 
biological, chemical, radiological, and nuclear events and public 
health emergencies. Although not specifically named in the proposal, 
this would include CDC's Bioterrorism Preparedness and Response program 
and the Health Resources and Services Administration's (HRSA) 
Bioterrorism Hospital Preparedness Program. These programs provide 
grants to states and cities to develop plans and build capacity for 
communication, disease surveillance, epidemiology, hospital planning, 
laboratory analysis, and other basic public health functions. Except as 
directed by the President, the Secretary of Homeland Security would 
carry out these activities through HHS under agreements to be 
negotiated with the Secretary of HHS. Further, the Secretary of 
Homeland Security would be authorized to set the priorities for these 
preparedness and response activities.
          reorganization has potential to improve coordination
    The consolidation of federal assets and resources in the 
President's proposed legislation has the potential to improve 
coordination of public health preparedness and response activities at 
the federal, state, and local levels. Our past work has detailed a lack 
of coordination in the programs that house these activities, which are 
currently dispersed across numerous federal agencies. In addition, we 
have discussed the need for an institutionalized responsibility for 
homeland security in federal statute. <SUP>7</SUP> The proposal 
provides the potential to consolidate programs, thereby reducing the 
number of points of contact with which state and local officials have 
to contend, but coordination would still be required with multiple 
agencies across departments. Many of the agencies involved in these 
programs have differing perspectives and priorities, and the proposal 
does not sufficiently clarify the lines of authority of different 
parties in the event of an emergency, such as between the Federal 
Bureau of Investigation (FBI) and public health officials investigating 
a suspected bioterrorist incident. Let me provide you more details.
---------------------------------------------------------------------------
    \7\ U.S. General Accounting Office, Homeland Security: 
Responsibility and Accountability for Achieving National Goals, GAO-02-
627T (Washington, D.C.: Apr. 11, 2002).
---------------------------------------------------------------------------
    We have reported that many state and local officials have expressed 
concerns about the coordination of federal public health preparedness 
and response efforts. <SUP>8</SUP> Officials from state public health 
agencies and state emergency management agencies have told us that 
federal programs for improving state and local preparedness are not 
carefully coordinated or well organized. For example, federal programs 
managed by the Federal Emergency Management Agency (FEMA), Department 
of Justice (DOJ), and OEP and CDC all currently provide funds to assist 
state and local governments. Each program conditions the receipt of 
funds on the completion of a plan, but officials have told us that the 
preparation of multiple, generally overlapping plans can be an 
inefficient process. <SUP>9</SUP> In addition, state and local 
officials told us that having so many federal entities involved in 
preparedness and response has led to confusion, making it difficult for 
them to identify available federal preparedness resources and 
effectively partner with the federal government.
---------------------------------------------------------------------------
    \8\ U.S. General Accounting Office, Bioterrorism: Federal Research 
and Preparedness Activities, GAO-01-915, (Washington, D.C.: Sept. 28, 
2001).
    \9\ U.S. General Accounting Office, Combating Terrorism: 
Intergovernmental Partnership in a National Strategy to Enhance State 
and Local Preparedness, GAO-02-547T (Washington, D.C.: Mar. 22, 2002).
---------------------------------------------------------------------------
    The proposed transfer of numerous federal response teams and assets 
to the new department would enhance efficiency and accountability for 
these activities. This would involve a number of separate federal 
programs for emergency preparedness and response, including FEMA; 
certain units of DOJ; and HHS's Office of the Assistant Secretary for 
Public Health Emergency Preparedness, including OEP and its NDMS and 
MMRS programs, along with the Strategic National Stockpile. In our 
previous work, we found that in spite of numerous efforts to improve 
coordination of the separate federal programs, problems remained, and 
we recommended consolidating the FEMA and DOJ programs to improve the 
coordination. <SUP>10</SUP> The proposal places these programs under 
the control of one person, the Under Secretary for Emergency 
Preparedness and Response, who could potentially reduce overlap and 
improve coordination. This change would make one individual accountable 
for these programs and would provide a central source for federal 
assistance.
---------------------------------------------------------------------------
    \10\ U.S. General Accounting Office, Combating Terrorism: Selected 
Challenges and Related Recommendations, GAO-01-822 (Washington, D.C., 
Sept. 20, 2001).
---------------------------------------------------------------------------
    The proposed transfer of MMRS, a collection of local response 
systems funded by HHS in metropolitan areas, has the potential to 
enhance its communication and coordination. Officials from one state 
told us that their state has MMRSs in multiple cities but there is no 
mechanism in place to allow communication and coordination among them. 
Although the proposed department has the potential to facilitate the 
coordination of this program, this example highlights the need for 
greater regional coordination, an issue on which the proposal is 
silent.
    Because the new department would not include all agencies having 
public health responsibilities related to homeland security, 
coordination across departments would still be required for some 
programs. For example, NDMS functions as a partnership among HHS, the 
Department of Defense (DOD), the Department of Veterans Affairs (VA), 
FEMA, state and local governments, and the private sector. However, as 
the DOD and VA programs are not included in the proposal, only some of 
these federal organizations would be brought under the umbrella of the 
Department of Homeland Security. Similarly, the Strategic National 
Stockpile currently involves multiple agencies. It is administered by 
CDC, which contracts with VA to purchase and store pharmaceutical and 
medical supplies that could be used in the event of a terrorist 
incident. Recently expanded and reorganized, the program will now 
include management of the nation's inventory of smallpox vaccine. Under 
the President's proposal, CDC's responsibilities for the stockpile 
would be transferred to the new department, but VA and HHS involvement 
would be retained, including continuing review by experts of the 
contents of the stockpile to ensure that emerging threats, advanced 
technologies, and new countermeasures are adequately considered.
    Although the proposed department has the potential to improve 
emergency response functions, its success is contingent on several 
factors. In addition to facilitating coordination and maintaining key 
relationships with other departments, these include merging the 
perspectives of the various programs that would be integrated under the 
proposal, and clarifying the lines of authority of different parties in 
the event of an emergency. As an example, in the recent anthrax events, 
local officials complained about differing priorities between the FBI 
and the public health officials in handling suspicious specimens. 
According to the public health officials, FBI officials insisted on 
first informing FBI managers of any test results, which delayed getting 
test results to treating physicians. The public health officials viewed 
contacting physicians as the first priority in order to ensure that 
effective treatment could begin as quickly as possible.
 new department's control of essential public health capacities raises 
                                concern
    The President's proposal to shift the responsibility for all 
programs assisting state and local agencies in public health emergency 
preparedness and response from HHS to the new department raises concern 
because of the dual-purpose nature of these activities. These programs 
include essential public health functions that, while important for 
homeland security, are critical to basic public health core capacities. 
<SUP>11</SUP> Therefore, we are concerned about the transfer of control 
over the programs, including priority setting, that the proposal would 
give to the new department. We recognize the need for coordination of 
these activities with other homeland security functions, but the 
President's proposal is not clear on how the public health and homeland 
security objectives would be balanced.
---------------------------------------------------------------------------
    \11\ The recently enacted Public Health Security and Bioterrorism 
Preparedness and Response Act of 2002 (P.L.107-188) cited core public 
health capacities that state and local governments need, including 
effective public health surveillance and reporting mechanisms, 
appropriate laboratory capacity, properly trained and equipped public 
health and medical personnel, and communications networks that can 
effectively disseminate relevant information in a timely and secure 
manner.
---------------------------------------------------------------------------
    Under the President's proposal, responsibility for programs with 
dual homeland security and public health purposes would be transferred 
to the new department. These include such current HHS assistance 
programs as CDC's Bioterrorism Preparedness and Response program and 
HRSA's Bioterrorism Hospital Preparedness Program. Functions funded 
through these programs are central to investigations of naturally 
occurring infectious disease outbreaks and to regular public health 
communications, as well as to identifying and responding to a 
bioterrorist event. For example, CDC has used funds from these programs 
to help state and local health agencies build an electronic 
infrastructure for public health communications to improve the 
collection and transmission of information related to both bioterrorist 
incidents and other public health events. <SUP>12</SUP> Just as with 
the West Nile virus outbreak in New York City, which initially was 
feared to be the result of bioterrorism, <SUP>13</SUP> when an unusual 
case of disease occurs public health officials must investigate to 
determine whether it is naturally occurring or intentionally caused. 
Although the origin of the disease may not be clear at the outset, the 
same public health resources are needed to investigate, regardless of 
the source.
---------------------------------------------------------------------------
    \12\ These include the Health Alert Network (HAN), a nationwide 
system that facilitates the distribution of health alerts, 
dissemination of prevention guidelines and other information, distance 
learning, national disease surveillance, and electronic laboratory 
reporting, and Epi-X, a secure Web-based disease surveillance network 
for federal, state, and local epidemiologists that provides tools for 
searching, tracking, discussing, and reporting on diseases and is 
therefore a key element in any disease investigation.
    \13\ U.S. General Accounting Office, West Nile Virus Outbreak: 
Lessons for Public Health Preparedness, GAO/HEHS-00-180 (Washington, 
D.C.: Sept. 11, 2000).
---------------------------------------------------------------------------
    States are planning to use funds from these assistance programs to 
build the dual-purpose public health infrastructure and core capacities 
that the recently enacted Public Health Security and Bioterrorism 
Preparedness and Response Act of 2002 <SUP>14</SUP> stated are needed. 
States plan to expand laboratory capacity, enhance their ability to 
conduct infectious disease surveillance and epidemiological 
investigations, improve communication among public health agencies, and 
develop plans for communicating with the public. States also plan to 
use these funds to hire and train additional staff in many of these 
areas, including epidemiology.
---------------------------------------------------------------------------
    \14\ P.L. 107-188.
---------------------------------------------------------------------------
    Our concern regarding these dual-purpose programs relates to the 
structure provided for in the President's proposal. The Secretary of 
Homeland Security would be given control over programs to be carried 
out by another department. The proposal also authorizes the President 
to direct that these programs no longer be carried out in this manner, 
without addressing the circumstances under which such authority would 
be exercised. We are concerned that this approach may disrupt the 
synergy that exists in these dual-purpose programs. We are also 
concerned that the separation of control over the programs from their 
operations could lead to difficulty in balancing priorities. Although 
the HHS programs are important for homeland security, they are just as 
important to the day-to-day needs of public health agencies and 
hospitals, such as reporting on disease outbreaks and providing alerts 
to the medical community. The current proposal does not clearly provide 
a structure that ensures that both the goals of homeland security and 
public health will be met.
                        concluding observations
    Many aspects of the proposed consolidation of response activities 
are in line with our previous recommendations to consolidate programs, 
coordinate functions, and provide a statutory basis for leadership of 
homeland security. The transfer of the HHS medical response programs 
has the potential to reduce overlap among programs and facilitate 
response in times of disaster. However, we are concerned that the 
proposal does not provide the clear delineation of roles and 
responsibilities that we have stated is needed. We are also concerned 
about the broad control the proposal grants to the new department for 
public health preparedness programs. Although there is a need to 
coordinate these activities with the other homeland security 
preparedness and response programs that would be brought into the new 
department, there is also a need to maintain the priorities for basic 
public health capacities that are currently funded through these dual-
purpose programs. We do not believe that the President's proposal 
adequately addresses how to accomplish both objectives.
    Mr. Chairman, this completes my prepared statement. I would be 
happy to respond to any questions you or other Members of the Committee 
may have at this time.
    For further information about this testimony, please contact me at 
(202) 512-7118. Marcia Crosse, Greg Ferrante, Deborah Miller, and 
Roseanne Price also made key contributions to this statement.
                          related gao products
Homeland Security

    Homeland Security: Key Elements to Unify Efforts Are Underway but 
Uncertainty Remains. GAO-02-610. Washington, D.C.: June 7, 2002.
    Homeland Security: Responsibility and Accountability for Achieving 
National Goals. GAO-02-627T. Washington, D.C.: April 11, 2002.
    Homeland Security: Progress Made; More Direction and Partnership 
Sought. GAO-02-490T. Washington, D.C.: March 12, 2002.
    Homeland Security: Challenges and Strategies in Addressing Short- 
and Long-Term National Needs. GAO-02-160T. Washington, D.C.: November 
7, 2001.
    Homeland Security: A Risk Management Approach Can Guide 
Preparedness Efforts. GAO-02-208T. Washington, D.C.: October 31, 2001.
    Homeland Security: Need to Consider VA's Role in Strengthening 
Federal Preparedness. GAO-02-145T. Washington, D.C.: October 15, 2001.
    Homeland Security: Key Elements of a Risk Management Approach. GAO-
02-150T. Washington, D.C.: October 12, 2001.
    Homeland Security: A Framework for Addressing the Nation's Efforts. 
GAO-01-1158T. Washington, D.C.: September 21, 2001.

Public Health

    Bioterrorism: The Centers for Disease Control and Prevention's Role 
in Public Health Protection. GAO-02-235T. Washington, D.C.: November 
15, 2001.
    Bioterrorism: Review of Public Health Preparedness Programs. GAO-
02-149T. Washington, D.C.: October 10, 2001.
    Bioterrorism: Public Health and Medical Preparedness. GAO-02-141T. 
Washington, D.C.: October 9, 2001.
    Bioterrorism: Coordination and Preparedness. GAO-02-129T. 
Washington, D.C.: October 5, 2001.
    Bioterrorism: Federal Research and Preparedness Activities. GAO-01-
915. Washington, D.C.: September 28, 2001.
    Chemical and Biological Defense: Improved Risk Assessment and 
Inventory Management Are Needed. GAO-01-667. Washington, D.C.: 
September 28, 2001.
    Combating Terrorism: Need for Comprehensive Threat and Risk 
Assessments of Chemical and Biological Attacks. GAO/NSIAD-99-163. 
Washington, D.C.: September 14, 1999.
    West Nile Virus Outbreak: Lessons for Public Health Preparedness. 
GAO/HEHS-00-180. Washington, D.C.: September 11, 2000.
    Chemical and Biological Defense: Program Planning and Evaluation 
Should Follow Results Act Framework. GAO/NSIAD-99-159. Washington, 
D.C.: August 16, 1999.
    Combating Terrorism: Observations on Biological Terrorism and 
Public Health Initiatives. GAO/T-NSIAD-99-112. Washington, D.C.: March 
16, 1999.

Combating Terrorism

    National Preparedness: Technologies to Secure Federal Buildings. 
GAO-02-687T. Washington, D.C.: April 25, 2002.
    National Preparedness: Integration of Federal, State, Local, and 
Private Sector Efforts Is Critical to an Effective National Strategy 
for Homeland Security. GAO-02-621T. Washington, D.C.: April 11, 2002.
    Combating Terrorism: Intergovernmental Cooperation in the 
Development of a National Strategy to Enhance State and Local 
Preparedness. GAO-02-550T. Washington, D.C.: April 2, 2002.
    Combating Terrorism: Enhancing Partnerships Through a National 
Preparedness Strategy. GAO-02-549T. Washington, D.C.: March 28, 2002.
    Combating Terrorism: Critical Components of a National Strategy to 
Enhance State and Local Preparedness. GAO-02-548T. Washington, D.C.: 
March 25, 2002.
    Combating Terrorism: Intergovernmental Partnership in a National 
Strategy to Enhance State and Local Preparedness. GAO-02-547T. 
Washington, D.C.: March 22, 2002.
    Combating Terrorism: Key Aspects of a National Strategy to Enhance 
State and Local Preparedness. GAO-02-473T. Washington, D.C.: March 1, 
2002.
    Chemical and Biological Defense: DOD Should Clarify Expectations 
for Medical Readiness. GAO-02-219T. Washington, D.C.: November 7, 2001.
    Anthrax Vaccine: Changes to the Manufacturing Process. GAO-02-181T. 
Washington, D.C.: October 23, 2001.
    Chemical and Biological Defense: DOD Needs to Clarify Expectations 
for Medical Readiness. GAO-02-38. Washington, D.C.: October 19, 2001.
    Combating Terrorism: Considerations for Investing Resources in 
Chemical and Biological Preparedness. GAO-02-162T. Washington, D.C.: 
October 17, 2001.
    Combating Terrorism: Selected Challenges and Related 
Recommendations. GAO-01-822. Washington, D.C.: September 20, 2001.
    Combating Terrorism: Actions Needed to Improve DOD Antiterrorism 
Program Implementation and Management. GAO-01-909. Washington, D.C.: 
September 19, 2001.
    Combating Terrorism: Comments on H.R. 525 to Create a President's 
Council on Domestic Terrorism Preparedness. GAO-01-555T. Washington, 
D.C.: May 9, 2001.
    Combating Terrorism: Accountability Over Medical Supplies Needs 
Further Improvement. GAO-01-666T. Washington, D.C.: May 1, 2001.
    Combating Terrorism: Observations on Options to Improve the Federal 
Response. GAO-01-660T. Washington, DC: April 24, 2001.
    Combating Terrorism: Accountability Over Medical Supplies Needs 
Further Improvement. GAO-01-463. Washington, D.C.: March 30, 2001.
    Combating Terrorism: Comments on Counterterrorism Leadership and 
National Strategy. GAO-01-556T. Washington, D.C.: March 27, 2001.
    Combating Terrorism: FEMA Continues to Make Progress in 
Coordinating Preparedness and Response. GAO-01-15. Washington, D.C.: 
March 20, 2001.
    Combating Terrorism: Federal Response Teams Provide Varied 
Capabilities; Opportunities Remain to Improve Coordination. GAO-01-14. 
Washington, D.C.: November 30, 2000.
    Combating Terrorism: Need to Eliminate Duplicate Federal Weapons of 
Mass Destruction Training. GAO/NSIAD-00-64. Washington, D.C.: March 21, 
2000.
    Combating Terrorism: Chemical and Biological Medical Supplies Are 
Poorly Managed. GAO/T-HEHS/AIMD-00-59. Washington, D.C.: March 8, 2000.
    Combating Terrorism: Chemical and Biological Medical Supplies Are 
Poorly Managed. GAO/HEHS/AIMD-00-36. Washington, D.C.: October 29, 
1999.
    Combating Terrorism: Observations on the Threat of Chemical and 
Biological Terrorism. GAO/T-NSIAD-00-50. Washington, D.C.: October 20, 
1999.
    Combating Terrorism: Need for Comprehensive Threat and Risk 
Assessments of Chemical and Biological Attacks. GAO/NSIAD-99-163. 
Washington, D.C.: September 14, 1999
    Combating Terrorism: Use of National Guard Response Teams Is 
Unclear. GAO/T-NSIAD-99-184. Washington, D.C.: June 23, 1999.
    Combating Terrorism: Observations on Growth in Federal Programs. 
GAO/T-NSIAD-99-181. Washington, D.C.: June 9, 1999.
    Combating Terrorism: Analysis of Potential Emergency Response 
Equipment and Sustainment Costs. GAO/NSIAD-99-151. Washington, D.C.: 
June 9, 1999.
    Combating Terrorism: Use of National Guard Response Teams Is 
Unclear. GAO/NSIAD-99-110. Washington, D.C.: May 21, 1999.
    Combating Terrorism: Observations on Federal Spending to Combat 
Terrorism. GAO/T-NSIAD/GGD-99-107. Washington, D.C.: March 11, 1999.
    Combating Terrorism: Opportunities to Improve Domestic Preparedness 
Program Focus and Efficiency. GAO/NSIAD-99-3. Washington, D.C.: 
November 12, 1998.
    Combating Terrorism: Observations on the Nunn-Lugar-Domenici 
Domestic Preparedness Program. GAO/T-NSIAD-99-16. Washington, D.C.: 
October 2, 1998.
    Combating Terrorism: Observations on Crosscutting Issues. GAO/T-
NSIAD-98-164. Washington, D.C.: April 23, 1998.
    Combating Terrorism: Threat and Risk Assessments Can Help 
Prioritize and Target Program Investments. GAO/NSIAD-98-74. Washington, 
D.C.: April 9, 1998.
    Combating Terrorism: Spending on Governmentwide Programs Requires 
Better Management and Coordination. GAO/NSIAD-98-39. Washington, D.C.: 
December 1, 1997.

Disaster Assistance

    Disaster Assistance: Improvement Needed in Disaster Declaration 
Criteria and Eligibility Assurance Procedures. GAO-01-837. Washington, 
D.C.: August 31, 2001.
    Chemical Weapons: FEMA and Army Must Be Proactive in Preparing 
States for Emergencies. GAO-01-850. Washington, D.C.: August 13, 2001.
    Federal Emergency Management Agency: Status of Achieving Key 
Outcomes and Addressing Major Management Challenges. GAO-01-832. 
Washington, D.C.: July 9, 2001.

Budget and Management

    Budget Issues: Long-Term Fiscal Challenges. GAO-02-467T. 
Washington, D.C.: February 27, 2002.
    Results-Oriented Budget Practices in Federal Agencies. GAO-01-
1084SP. Washington, D.C.: August 2001.
    Managing for Results: Federal Managers' Views on Key Management 
Issues Vary Widely Across Agencies. GAO-01-592. Washington, D.C.: May 
25, 2001.
    Determining Performance and Accountability Challenges and High 
Risks. GAO-01-159SP. Washington, D.C.: November 2000.
    Managing for Results: Using the Results Act to Address Mission 
Fragmentation and Program Overlap. GAO-AIMD-97-146. Washington, D.C.: 
August 29, 1997.
    Government Restructuring: Identifying Potential Duplication in 
Federal Missions and Approaches. GAO/T-AIMD-95-161. Washington, D.C.: 
June 7, 1995.
    Government Reorganization: Issues and Principles. GAO/T-GGD/AIMD-
95-166. Washington, D.C.: May 17, 1995.
    Grant DesignGrant Programs: Design Features Shape Flexibility, 
Accountability, and Performance Information. GAO/GGD-98-137. 
Washington, D.C.: June 22, 1998.
    Federal Grants: Design Improvements Could Help Federal Resources Go 
Further. GAO/AIMD-97-7. Washington, D.C.: December 18, 1996.
    Block Grants: Issues in Designing Accountability Provisions. GAO/
AIMD-95-226. Washington, D.C.: September 1, 1995.

    Mr. Greenwood. Thank you very much.
    Dr. Vantine, you are recognized for 5 minutes.

                  TESTIMONY OF HARRY C. VANTINE

    Mr. Vantine. Well, thank you, Mr. Chairman, and members of 
the committee, for asking me to speak before you today. It's a 
pleasure to be here. My name is Harry Vantine. I head the 
Counterterrorism and Incident Response Program at Lawrence 
Livermore National Laboratory. Our program at Livermore covers 
the waterfront, chemical, biological, nuclear, radiological. 
Today, my remarks are going to concentrate on nuclear and 
radiological, but I think similar remarks could be made for the 
chem-bio program.
    Let me start by saying that my overall reaction to this 
legislation was that it is very broad, it's very inclusive. I 
think that's a very good thing. It's clear to me that as we go 
into the establishment of this Homeland Security Department, we 
are going to learn by doing, we are going to have to be able to 
change and adapt, and I think the legislation allows us to do 
that.
    What I would like to do is stress this morning some of the 
elements that I think are really important in countering 
terrorism. There are several elements that I see. One is that 
we need a layered approach to counterterrorism. There is no one 
silver bullet that is going to solve this problem. So, a 
layered approach. I mean, we've got to look at beginning--we've 
got to look at indications and warnings. We have got to try and 
see the threats. We have got to protect the materials, the 
nuclear materials that--or the weapons that might be diverted 
for terrorist use. We need to have response teams that search, 
that disable. We need to have consequence management teams. We 
need to do the whole spectrum, and that's what I call a layered 
approach. Any one of them won't work. It's a big problem. It's 
a huge problem.
    And so, you know, the second point I want to get to is 
because it's such a large problem, how do we solve that? We are 
going to need new and innovative approaches. And the way that--
coming from a technology laboratory like Livermore, the way I 
see new technologies, new approaches being developed is through 
R&D technology. I think we are going to have to rely very 
heavily on R&D to find those new solutions.
    Next, I would like to come to the issue of funding. When I 
look at R&D funding in industries, if I look at 
pharmaceuticals, biotechnologies, those type of industries, 
it's not unusual in some of the pharmaceutical industries to 
invest 20 percent of your revenues in R&D. We are going to have 
to have a very aggressive investment strategy and new 
approaches. Other companies invest 10 to 20 percent--10 to 15 
percent. DOD is in that category. DOD invests in RDT&E 
something like 10 percent. So I think that's another approach 
going forward.
    The fourth point I want to make is that I think we need 
clear lines of authority in this department. One of the 
drawbacks in the current system is that the current response 
system is somewhat a response that's clues together from 
different agencies. I think with this new department we have 
the ability to have people really dedicated to this mission, 
they know it's their job, and they're going to do it, and 
they're going to know what they have to do. They have clear 
authority.
    The final general--the general attribute I think this 
homeland security strategy needs is strategic planning. We 
really have to do planning on big systems. We have to take a 
big systems approach to how we do this. The planning has got to 
be based on risk assessment to protect entire infrastructures. 
At the laboratories, we've put together these big ideas in the 
past, we've put together ideas such as model city protection, 
the basis program for biological detection, protection system 
for protecting metros, detection and tracking system for 
looking at nuclear materials, a national test bid for cargo 
inspection. These are the kind of ideas that we need, 
overreaching ideas that really cover the waterfront.
    Information synthesis, I think, is also an important area. 
We are going to have to pull together the different 
intelligence functions from the different agencies. I think the 
new Office of Homeland--the Department of Homeland Security is 
going to have to have access to the intelligence data, the raw 
intelligence data it needs to process that information, to put 
it together, and understand the threats.
    And another program that's been brought over from the 
existing programs is the nuclear assessment program. It's an 
NNSA program that has actually run--operated all three of the 
national weapons laboratories, headed by Livermore, though, 
that--and these people have been real heroes since September 
11, working hard to look and assess nuclear threats.
    Let me say in summary that I really think we are going to 
have to make a sustained investment in science and technology 
to win the war on terrorism. It's an enormous task. It's a task 
that the laboratories are eager to do, and with your help and 
with your planning, we think we can do it.
    [The prepared statement of Harry C. Vantine follows:]
      Prepared Statement of Harry C. Vantine, Program Leader for 
  Counterterrorism and Incident Response, Lawrence Livermore National 
                               Laboratory
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. I lead the program in 
Counterterrorism and Incident Response at the Lawrence Livermore 
National Laboratory (LLNL). However, the opinions that I present today 
represent my views and not necessarily those of the Laboratory or the 
National Nuclear Security Administration. Today I would like to focus 
on nuclear and radiological response activities proposed for transfer 
to the Department of Homeland Security. There are analogies for 
chemical and biological response.
  importance of the cbrni (chem/bio/radiological/nuclear/information) 
                                mission
    The threat of covert/terrorist delivery of weapons of mass 
destruction (WMDs) is a concern of the utmost gravity. There are many 
important government missions, but there is none more important than 
the Homeland Security mission. Witnessing the changes in the past 20 
years, the bio-technology revolution, the breakup of the Soviet Union, 
the information explosion on the web, my conviction has only gotten 
stronger that Homeland Security is an enduring national security 
mission.
               essential elements of a response strategy
    What can we do to protect the U.S. against terrorist acquisition 
and use of WMDs? As with every other aspect of the terrorism problem, 
there is no silver bullet.
    We see the following as essential elements.

<bullet> A layered strategy is required, addressing the various stages 
        on this threat.
<bullet> This strategy will rely heavily on R&D. Only new solutions 
        will offer adequate level of protection and be affordable.
<bullet> Adequate funding is needed. Industries, such as information 
        technologies, biotechnologies, and pharmaceuticals, invest 
        heavily in R&D: 10 to 15% of their budget. DOD has a similar 
        profile of RDT&E investment.
<bullet> Clear lines of authority. This will shorten the time to get 
        new capabilities to the field. Multi-group, multi-level 
        approvals and negotiations will be curtailed.
<bullet> Strategic planning. Planning, based on risk assessment, is 
        needed to protect entire infrastructures. Included in this 
        planning are ideas such as Model City Protection, Detection and 
        Tracking Systems, and the National Testbed for cargo 
        inspection.
                       nuclear incident response
    The Nuclear Incident Response Program has a broad charter to train 
for and respond to nuclear threats at the local, regional, and national 
level. The program is multi-agency. In the DHS legislation, it appears 
that there are three Under Secretaries who deal with various aspects of 
nuclear counterterrorism: Sec.301 is Nuclear Countermeasures, Sec. 401 
is Border and Transportation Security, and Sec 501 is Emergency 
Preparedness and Response. The activities of there three need to be 
closely tied together so that there is one coordinated operational 
mission.
    The advent of monitoring systems, first responder reach back 
(``Triage''), expanded regional response (RAP or Radiation Assistance 
Program) capability will require more robust communication systems and 
a robust fusion cell manned by technical experts. We will need to 
respond rapidly to assess the level of threat while waiting for the 
arrival of advanced technical assets. To maximize this capability it is 
critical that the proper equipment be with the first responders, who 
need to be practiced in their interactions with the fusion cell. The 
Nuclear Laboratories have the capability of making rapid and detailed 
analyses if sufficient information is transmitted to them. Thus it is 
critical that the equipment for the first response assets be carefully 
screened to maximize its capability. At the same time the capability 
and technical personnel at LLNL and LANL need to be expanded to provide 
the proper coverage and response capability to any scenario which 
occurs.
             recommendations for nuclear incident response
1. Training should be realistic, with preparation and training aids 
        that challenge the responder. Results of training exercises 
        should be used to improve system response.
2. Training should mimic actual response operations. ``Practice like 
        you play.''
3. The operational architecture should include all levels of response 
        from the first responder, to the regional and national 
        responders.
4. A strategy to transition new technology into capable, prototype 
        operational systems is essential. Technology developers must be 
        included in the operational planning process.
5. Technical aspects of Nuclear Counter Terrorism should be managed by 
        the laboratories with technical capabilities in this area, i.e. 
        LLNL, LANL, SNL, and RSL. One laboratory should be in charge of 
        coordinating and managing these technical activities among all 
        the labs.
                       nuclear assessment program
    The Department of Homeland Security will have responsibilities for 
receiving and analyzing all source information in order to understand 
the nature and scope of the terrorist threat to the American homeland. 
This must involve access to both law enforcement and intelligence 
information at the most sensitive levels if the Department is to be 
successful in developing a strategic national plan for securing key 
resources and critical infrastructures, as well as responding to 
pending threats and attacks as they are detected. The terrorist threat 
is dynamic and global in nature. Understanding it and anticipating its 
countermoves will be an ongoing process that would benefit from 
interaction with other existing government programs analyzing and 
tracking a number of ``classic'' nuclear, chemical and biological 
threats and proliferation concerns. Essential intelligence information 
needed to support the Department's roles and missions must be quickly 
obtained, distributed, and analyzed so that protective priorities can 
be adjusted and/or warnings issued.
    The Department faces major information analysis challenges. The 
number and diversity of these suggest that it would be appropriate to 
generously size and support the Department's strategic law enforcement 
and intelligence analysis programs including the nuclear assessment 
program. It will certainly require some ``fully cleared'' people, 
direct intelligence oversight and specific infrastructure to comply 
with DCID policies and guidance. New protocols for sharing and 
integrating law enforcement information with intelligence data may have 
to be developed. Furthermore, it seems highly likely that, sooner or 
later, it will require some additional supporting communication 
infrastructure.
                          information analysis
    The rapid advances in computer and information technology have 
enabled our society to generate massive amounts of data and 
information, but frequently we end up drowning in this sea of data 
because we lack the ability to select out the information or the 
relationships between information that is relevant. It is possible to 
develop computing tools and architectures that will enable us to 
progress beyond information overload to credible insights that can be 
used by decision-makers. The need for this ``Information-to-Insight 
(I2I)'' capability spans many national security areas and most of the 
Laboratory's programs. I2I will create a fundamental shift in the way 
that we relate critical information. The impact will be especially 
great for combating threats to our national security where anticipating 
and characterizing specific threats based upon detailed data from many 
varied sources are prerequisites for taking preventative action before 
it is too late.
    We envision addressing questions and problems that require the 
ability to rapidly access massive amounts of data from disparate 
sources in such a way that one can uncover the critical linkages and 
insights hidden therein. Effectively linking the vast number of 
disparate and complex data sources that government decision makers and 
analysts must use to address U. S. national security issues is a major 
R&D challenge. Because our goal is to provide timely insights, the 
knowledge management system also needs to be able to constantly update 
itself.
                     other specific recommendations
    The new agency needs to have access to Restricted Data as defined 
in the Atomic Energy Act of 1954. This category of information has its 
own unique requirements compared to National Security Information and 
Law Enforcement Sensitive information. It would be reasonable to 
include within Sec. 203 (Access to Information) that any Restricted 
Data shared under that section is transmitted, retained, and 
disseminated consistent with the authority of the Secretary of Energy 
to protect Restricted Data. (This is similar to the approach taken for 
both intelligence information and law enforcement sensitive 
information.)
    The new agency needs to have access to radioactive materials for 
purposes of testing and evaluating equipment. This includes Special 
Nuclear Materials (SNM) in various forms (e.g., oxides and metals) and 
test objects that are in nuclear explosive-like configurations 
containing SNM. The new department should be given the authority to 
specify and order such sources from DOE, own the sources (transfer them 
from DOE), and determine where the sources will be used. The new agency 
should be required to conform to security requirements comparable to 
those of the Department of Energy for these types and quantities of 
material.
    The new agency needs to have the authority to work with the 
Director of Central Intelligence in setting priorities for intelligence 
gathering activities that may be critical to the security of the United 
States' homeland. In this way the new agency will not only be able to 
assess gathered information, but influence the type and priorities of 
information gathered by other agencies to make it more useful to the 
homeland security mission.
                          scope of the problem
    We must make a sustained investment in the science and technology 
to win the war on terrorism. It is an enormous task.
    In closing, let me assure you that we at Lawrence Livermore 
National Laboratory have long been concerned about the terrorist WMD 
threat. We have built on our historical nuclear weapons mission and 
developed unique expertise, capabilities, and technologies to meet 
these emerging threats. LLNL is already providing critical elements of 
the nation's defense against nuclear, chemical, and biological 
terrorism, many of which were called into action post-September 11. We 
are committed to using our world-class scientific and technological 
resources--people, equipment, and facilities--to meet the nation's 
national security needs today and in the future.

    Mr. Greenwood. Thank you, Dr. Vantine.
    Mr. Nokes for 5 minutes.

                   TESTIMONY OF K. DAVID NOKES

    Mr. Nokes. Mr. Chairman, distinguished members of the 
committee, thank you for allowing me to----
    Mr. Greenwood. I think your microphone is not on, sir. 
There we go.
    Mr. Nokes. Mr. Chairman and distinguished members of the 
committee, thank you for the opportunity to testify today. I am 
David Nokes. I am Sandia's director for our Systems Assessment 
and Research Center, and coordinator for our Homeland Security 
and Combating Terrorism Activities. I would like to briefly 
highlight some of the points I have made in my written 
testimony today.
    Sandia, as well as the other NNSA labs, were able to 
respond to the events of September 11 very quickly, with good 
technology. And the reason they did that is because of the 
investments that have been made by the NNSA nuclear weapons 
program, the Armed Control and Treaty Verification Programs, 
and the sponsorship of many other government agencies to our 
work or other's program. And that is the technology that has 
been harvested by the Nation from the laboratories to address 
the problems of homeland security.
    Perhaps you were aware that the decontamination foam that 
Sandia developed and licensed was used here on Capitol Hill to 
decontaminate or help decontaminate the anthrax. That was work 
that was done under our laboratory directed research and 
development program several years ago. And there are many other 
examples of work that was applicable directly to the events 
immediately post 9/11.
    Let me turn now to the challenging problems of chemical and 
nuclear and biological detection and the weapons of mass 
destruction. One of the specialties that we have are nuclear 
sensors that rely on spectral analysis. That's important 
because those sensors reduce the nuisance alarms, the false 
alarms, and have an excellent record of detecting malevolent 
nuclear devices. We believe that there are sensor technologies 
that we have that are ready now for commercialization that 
could be transferred to industry and could be produced in 
quantities at this time.
    We have also developed portable chemical and biological 
sensors, sensors that detect biotoxins, chemical agents, and 
recently we prototyped a system that would detect anthrax and 
identify anthrax in about a 5-minute timeframe. These are also 
in prototype stage, but they could join the suite of sensors 
that's available to first responders.
    An area that we have developed almost unique technology is 
in the system of tools that are used to dismantle and disable 
explosive devices, and these are devices that could be used as 
the foundation for a weapon of mass destruction. Sandia's tools 
have been deployed widely. We run schools and we have trained 
over 750 first responders in the use of these high-tech tools 
that are useful in dismantling explosive devices. We are a full 
participant in the emergency response, the NEST teams of the 
Department of Energy. At Sandia, we have about 90 folks who are 
members of the response teams, in addition to the normal job. 
These are additional duties that they have elected to take on. 
They have been the very core of our design activities, and 
that's why they are useful as they go out and try to assess and 
render safe the various nuclear incidents.
    We think it's going to be important for the Office of 
Homeland Security--the Department of Homeland Security to have 
a full portfolio of research activities, and it has to serve 
two parts. One is, we must provide the technology that's in 
hand to solve the current and emergent problems. And that's a 
transfer into industry so they can make these technologies 
available to the folks who need them.
    Second, an equally important part is a longer range vision 
of what we can do in research and development to make great 
security affordable and sustainable, because otherwise you will 
end up with a system that is unsustainable and unaffordable, 
and that's a challenge for the new department to establish that 
research agenda.
    I think that there is some bureaucratic problems that might 
harm the way the laboratories can be constructively engaged in 
the problems of the Office of--or the Department of Homeland 
Security. One that would be useful, if the NNSA were explicitly 
given the mission of developing technologies around homeland 
security, that would allow them to bring the force of the 
laboratories together, and it would be very useful if the 
Department of Homeland Security were able to task the 
laboratories directly as the agencies within the Department of 
Energy do. That would eliminate much of the bureaucratic 
problems that we have working with the government agencies.
    On behalf of the folks at Sandia, I applaud your efforts. I 
think this is going to be a very important step in actual 
national and homeland security. I thank you, and I would be 
happy to respond to your questions.
    [The prepared statement of K. David Nokes follows:]
   Prepared Statement of K. David Nokes, Sandia National Laboratories
                              introduction
    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to testify on the Administration's proposal to 
create a Department of Homeland Security, and specifically, the 
radiological, chemical, and biological response activities that may be 
of value to the new department. I am David Nokes, Director of Sandia 
National Laboratorie' Systems Assessment and Research Center. I have 
more than forty years experience in the nuclear weapons program, and 
currently head Sandia's activities that support our nation's 
intelligence community as well as the laboratory's activities in 
homeland security and the war against terrorism. I will shortly assume 
responsibility for all of Sandia's arms control, threat assessment, 
security technology, nonproliferation, and international cooperative 
programs as Vice President of Sandia's National Security and Arms 
Control Division.
    Sandia National Laboratories is managed and operated for the 
National Nuclear Security Administration (NNSA) of the U.S. Department 
of Energy (DOE) by Sandia Corporation, a subsidiary of the Lockheed 
Martin Corporation. Sandia's unique role in the nation's nuclear 
weapons program is the design, development, qualification, and 
certification of nearly all of the nonnuclear subsystems of nuclear 
warheads. We perform substantial work in programs closely related to 
nuclear weapons, including intelligence, nonproliferation, and treaty 
verification technologies. As a multiprogram national laboratory, 
Sandia also conducts research and development for other national 
security agencies when our special capabilities can make significant 
contributions.
    At Sandia National Laboratories, we perform scientific and 
engineering work with a mission in mind--never solely for its own sake. 
Even the fundamental scientific work that we do (and we do a great deal 
of it) is strategic for the mission needs of our sponsors. Sandia's 
management philosophy has always stressed the ultimate linkage of 
research to application. When someone refers to Sandia as ``the 
nation's premier engineering laboratory,'' that statement does not tell 
the whole story: We are a science and engineering laboratory with a 
focus on developing technical solutions to the most challenging 
problems that threaten peace and freedom.
    My statement will describe Sandia National Laboratories' 
contributions and capabilities in homeland security and discuss our 
technologies for radiological, chemical, and biological sensing. I will 
also describe our role in nuclear incident response and comment on the 
proposed relationship of that function to the Department of Homeland 
Security. Finally, I will offer suggestions for how the new department 
can efficiently access and manage the scientific and technology 
development resources it will require to support its mission.
    sandia's contributions to homeland security and the war against 
                               terrorism
    Like most Americans, the people of Sandia National Laboratories 
responded to the atrocities of September 11, 2001, with newfound 
resolve on both a personal and professional level. As a result of our 
own strategic planning and the foresight of sponsors to invest 
resources toward emerging threats, Sandia was in a position to 
immediately address some urgent needs.
    For example, by September 15, a small Sandia team had instrumented 
the K9 rescue units at the World Trade Center site to allow the dogs to 
enter spaces inaccessible to humans while transmitting live video and 
audio to their handlers. This relatively low-tech but timely adaptation 
was possible because of previous work we had done for the National 
Institute of Justice on instrumenting K9 units for SWAT situations.
    You may perhaps be aware that a formulation developed by Sandia 
chemists was one of the processes used to help eliminate anthrax in the 
Hart, Dirksen, and Ford buildings on Capitol Hill and at contaminated 
sites in New York and in the Postal Service. Sandia had developed the 
non-toxic formulation as a foam several years ago and licensed it to 
two firms for industrial production in 2000. The formulation 
neutralizes both chemical and biological agents in minutes.
    An array of devices invented by explosives experts at Sandia have 
proved to be effective for safely disarming several types of terrorist 
bombs. For the past several years, our experts have conducted training 
for police bomb squads around the country in the techniques for using 
these devices for safe bomb disablement. The shoe bombs that Richard 
Reid allegedly tried to detonate onboard a trans-Atlantic flight from 
Paris to Miami were surgically disabled with an advanced bomb-squad 
tool originally developed at Sandia. That device, which we licensed to 
industry, has become the primary tool used by bomb squads nationwide to 
remotely disable handmade terrorist bombs while preserving them for 
forensic analysis.
    Sandia is a partner with Argonne National Laboratory in the PROTECT 
program (Program for Response Options and Technology Enhancements for 
Chemical/Biological Terrorism), jointly funded by DOE and the 
Department of Justice. PROTECT's goal is to demonstrate systems to 
protect against chemical attacks in public facilities, such as subways 
and airports. For more than a year, a Sandia-designed chemical detector 
test bed has been operating in the Washington D.C. Metro. The system 
can rapidly detect the presence of a chemical agent and transmit 
readings to an emergency management information system. We successfully 
completed a demonstration of the PROTECT system at a single station on 
the Washington Metro. The program has since been funded to accelerate 
deployment in multiple Metro stations. DOE has also been requested to 
implement a PROTECT system for the Metropolitan Boston Transit 
Authority.
    Another major worry for homeland security is the potential for acts 
of sabotage against municipal water supplies. In cooperation with the 
American Water Works Association Research Foundation and the 
Environmental Protection Agency, Sandia developed a security risk 
assessment methodology for city water utilities. This tool has been 
employed to evaluate security and mitigate risks at several large water 
utilities. We have used similar methodologies to evaluate risks for 
other critical infrastructures such as nuclear power-generation plants, 
chemical storage sites, and dams.
    These and other contributions to homeland security and the war 
against terror are possible because of strategic planning we had 
conducted years ago and early investment in the capabilities that were 
needed to respond to emerging threats. The outstanding technology base 
supported by NNSA for its core missions is the primary source of this 
capability. We also made strategic decisions to invest laboratory-
directed research and development funds (LDRD) in the very things that 
we knew were urgent needs: items to the Afghanistan theater, the 
decontamination foam, the sensors we have deployed, and special-purpose 
robotics that we have developed. In recent months, requests for 
Sandia's services from federal agencies other than DOE for work in 
emerging areas of need have increased. Approximately twenty-eight 
percent of our total laboratory operating budget is now provided by 
federal agencies other than DOE.
               sandia capabilities for homeland security
    Sandia National Laboratories and the other nuclear weapon 
laboratories constitute a broad, multidisciplinary technology base in 
nearly all the physical sciences and engineering disciplines. We seek 
to leverage those capabilities to support other national security needs 
germane to our missions, including homeland security, when our 
capabilities can make significant contributions.
Nuclear Sensing
    A terrorist with a nuclear weapon and the knowledge and skill to 
use it, will use it if he is not stopped. The Department of Homeland 
Security will be responsible for preventing an attack on the United 
States by a terrorist with a nuclear weapon of mass destruction (WMD). 
The Department must prepare for this type of attack by reducing the 
vulnerability of the United States to nuclear terrorism through 
detection, identification, and interdiction of the nuclear materials 
that could be used in such an attack.
    Nuclear weapons that could be used by a terrorist organization can 
be divided into three categories:

<bullet> A stolen or purchased functional nuclear warhead. Such a 
        device has a high level of sophistication and the probability 
        that it would detonate is high. The damage it would cause would 
        be great, with large-scale loss of life, environmental 
        devastation, and economic ruin.
<bullet> A weapon indigenously crafted, by a terrorist organization, 
        from stolen or purchased plutonium or uranium. This device 
        would have a moderate level of sophistication and a lower 
        probability that it would detonate. However, if it did 
        detonate, the damage could be great, perhaps similar to that 
        caused by a stolen or purchased weapon.
<bullet> A radiation dispersal device (RDD) often referred to as a 
        ``dirty bomb.'' This is not a nuclear weapon, but consists of 
        radioactive material (of any type) packaged with conventional 
        explosives. It is designed simply to disperse radioactive 
        material over a target area. The level of sophistication may be 
        very low, but the probability that it would work is high, 
        although the results desired by the perpetrator may be 
        difficult to achieve. The actual damage a weapon of this type 
        would cause is relatively small, compared to a nuclear 
        detonation; however, it would result in radioactive 
        contamination and could cause public panic and fear.
    A nuclear bomb is a product of science and technology, and it is 
this same technology that must be used to protect against its use by 
terrorists. Scientists and engineers at the nation's nuclear weapon 
laboratories understand nuclear weapons--how they work, how to build 
them, what they can do. More importantly for homeland security, they 
know how to detect them, what characteristics to look for, how to sense 
their emissions, how to interpret what the sensors detect, and how to 
disable them.
    Sandia National Laboratories has more than fifty years of 
experience in the nuclear weapons arena and an extensive knowledge of 
nuclear weapon science and technology. In addition to our mission of 
nuclear weapons stewardship, we have long been committed to 
safeguarding the nuclear weapons stockpile and actively supporting 
nonproliferation. The terrorist attack at the 1972 Munich Olympics 
focused our awareness on our nation's vulnerability to terrorist 
attacks abroad and, in particular, on the need to protect our stored 
nuclear weapons. This led to our work in access delay and denial at 
weapons storage sites and improving the security of weapon storage 
vaults. More recently, we have turned our physical protection expertise 
to protection and control of nuclear materials in Russia and the former 
Soviet Union.
    If a terrorist intends to detonate a nuclear or radiological device 
in the United States, then he must deliver that device to his target. 
The device will emit radiation that can be detected with a radiation 
sensor. If his nuclear device was acquired or built outside the United 
States and smuggled into the country, we must find it before it enters 
or as it crosses into the country. If it originates in the United 
States, then we must detect it when it is being transported to the 
target site.
    There are many different types of radiation detectors. The one that 
usually comes to mind is the Geiger counter, a simple device that can 
detect the presence or absence of some types of radiation. But it can't 
tell you very much about what type of material is emitting the 
radiation. Because there are many naturally occurring, medical, and 
industrial radioactive materials, knowing what type of material is 
emitting the radiation is crucial in order to avoid false and nuisance 
alarms and to zero-in on only those objects that pose a threat. For 
this purpose you need a spectral sensor.
    Sandia National Laboratories produces radiation sensors for a 
variety of government customers. One of our specialties is spectral 
sensor systems that provide automatic radioactive material 
identification using special algorithms developed by Sandia. These 
systems detect and analyze nuclear materials quickly, in real time, in 
indoor or outdoor environments, and with a high degree of precision 
that provides a high level of confidence. We have produced a wide 
variety of sensor systems, from very large, fixed installations to 
small, rugged, portable battery-powered units.
    Sandia's Radiation Assessment Identification and Detection (RAID) 
System was originally conceived, built, and tested before the tragic 
events of September 11, 2001. However, it meets the post-9/11 need to 
help safeguard our nation from nuclear terrorism. This system is 
designed to detect and identify radioactive materials transported 
through portals at passenger and package terminals at international 
ports of entry. RAID uses a commercial sodium iodide scintillation 
spectrometer and associated electronics, along with Sandia-developed 
analysis algorithms, to detect and identify radioactive materials 
passing within several meters of the sensor. A video image of the 
detection event scene is displayed on a base-station computer. The 
system automatically and continuously updates and recalibrates for 
background phenomena and can identify a radioactive source even if the 
source is shielded.
    Based on our experience with RAID and other more advanced nuclear 
sensing systems, we believe the state of development of our nuclear 
sensors is such that the technology could be quickly transferred to 
commercial producers and widely and rapidly deployed at a cost of less 
than $50,000 per unit. These deployed systems would have a very high 
probability of detecting a smuggled nuclear weapon or an RDD if 
properly deployed. Nuclear sensing systems could be placed at ports of 
entry, around likely targets, or even scattered throughout a city to 
scan people, packages, and vehicles. Since these sensors are passive 
devices, they don't emit a signal and, consequently, are very difficult 
to detect. In other words, a terrorist can't use a radar detector to 
determine if one of these sensors is present. Unbeknownst to a 
terrorist, an alarm from one of these sensors could alert law 
enforcement personnel to the presence or movement of a weapon that 
employs radioactive material.
    Of course, challenges exist in transitioning any technology from 
the laboratory to mass-produced industrial products. However, as we 
have demonstrated many times with technologies that we have transferred 
to industry in the past, Sandia works closely with industrial partners 
to work through the design challenges associated with manufacturing 
engineering and commercialization.
    Another important tool in the war against nuclear terrorism is the 
Department of Energy's Second Line of Defense (SLD) program. Its 
purpose is to minimize the risk of nuclear proliferation and terrorism 
through cooperative efforts with foreign governments to strengthen 
their overall capability to detect and deter illicit trafficking of 
nuclear material across their borders. Here too, the nation's nuclear 
weapons laboratories have brought to bear their technical expertise in 
nuclear physics and engineering. Short-term, the Second Line of Defense 
program has adapted commercially available radiation detection 
equipment, security systems, and communications equipment to work 
comprehensively with Russian Customs and other foreign agencies to stop 
nuclear smuggling now. It is effective in detecting both weapons 
material and radiological dispersal devices.
    Long-term, the Second Line of Defense program will deploy radiation 
detection equipment optimized for border use, integrate it with local, 
regional, and national-level communication systems geared for quick 
response, and cooperatively train foreign officials in use of the 
systems. Long-term sustainability is planned into every level of the 
program to ensure continued training and equipment maintenance.
Chemical and Biological Agent Sensing
    Sandia is developing a variety of technical solutions to counter 
the threat posed by chemical and biological agents. This activity is 
supported by the DOE Chemical/Biological Nonproliferation Program 
(CBNP) and includes threat and response analysis, environmental sensing 
and monitoring, facility protection and biosecurity, advance chem/bio-
terror warning systems, reagent design, and decontamination technology.
    Sandia has developed a portable bio-sensor to put into the hands of 
first responders. Configured to detect toxins such as ricin and 
botulinum, the device uses micro-fabricated ``chips'' as a miniature 
chemical analysis lab to isolate and identify biological agents. This 
system has been demonstrated to also reliably and rapidly detect a 
variety of chemical weapon agents in realistic situations where 
obscurants to mask the signature are present. The system is being 
modified to analyze viruses and bacteria. We have identified commercial 
partners to produce and market the unit.
    A prototype handheld detector under development at Sandia can 
identify anthrax in less than five minutes. The instrument analyzes 
fatty acid esters vaporized from the cell walls of bacteria and 
compares them with cataloged signatures indicative of anthrax or other 
pathogens. This technique has been used to identify pathogens at the 
genus level and often at the species level. Identifying the bacillus in 
minutes, rather than the hours currently necessary, is a crucial step 
toward developing bio-attack warning systems and defenses such as foam 
dispersal systems in public facilities similar to the PROTECT system 
that is being deployed in the Washington Metro and other locations. We 
have applied for a patent on this detector and expect to license the 
technology to industry for commercial development and manufacture. 
Sandia's Laboratory-Directed Research and Development program supported 
this work.
    Sandia is engaged in an accelerated development effort for a 
standoff biological weapons detection system to provide advance warning 
of a biological weapon threat. The system will employ ultraviolet 
laser-induced fluorescence to scan for and to discriminate clouds of 
biological agents over a broad field of view. Prototypes of this system 
have been demonstrated on various mobile and fixed platforms and have 
demonstrated excellent standoff range and sensitivity. Under NNSA 
sponsorship, we are moving toward the demonstration phase of the system 
development in the next several months.
Explosives Detection
    Today, a commercially produced, walk-through portal for detecting 
trace amounts of explosive compounds on a person is available for 
purchase and installation at airports and other public facilities. The 
technology for this device was developed, prototyped, and demonstrated 
by Sandia National Laboratories over a period of several years and 
licensed to Barringer Instruments of Warren, New Jersey, for 
commercialization and manufacture. The instrument is so sensitive that 
microscopic quantities of explosive compounds are detected in a few 
seconds.
    Using similar technology, we have developed and successfully tested 
a prototype vehicle portal that detects minute amounts of common 
explosives in cars and trucks. Detecting explosives in vehicles is a 
major concern at airports, military bases, government facilities, and 
border crossings. The system uses Sandia's patented sample collection 
and preconcentrator technology that has previously been licensed to 
Barringer for use in screening airline passengers. The same technology 
has been incorporated into Sandia's line of ``Hound <SUP>TM</SUP>'' 
portable and hand-held sensors, capable of detecting parts-per-trillion 
explosives and other compounds. These devices can be of great value to 
customs and border agents at ports of entry.
Bomb Disablement Technology and Training
    As first responders, American firefighters, police, and emergency 
personnel will be called upon to be America's first line of defense 
against terrorist attacks. These men and women must be prepared for the 
full range of terrorist threats, from improvised explosive devices to 
chemical, biological, radiological, and nuclear weapons of mass 
destruction. It will be the responsibility of the Department of 
Homeland Security to ensure their preparedness by providing them with 
the training and tools they need to do their jobs.
    Sandia National Laboratories began holding advanced bomb-
disablement technology workshops for bomb squad technicians in 1994. 
Since then, Sandia has transferred advanced bomb-disablement technology 
to more than 750 workshop participants through Operation America and 
its predecessors, Operation Riverside and Operation Albuquerque. 
Operation America is a series of ongoing regional workshops hosted by a 
local police department in the state where the event is held and 
supported by regional FBI offices. Participants come from bomb squads, 
police and fire departments, and emergency response organizations 
throughout the United States, including most of our major metropolitan 
cities and the U.S. Capitol Police. They also come from other 
government agencies, all branches of the U.S. military, and, 
internationally, from our allies in some of the world's terrorism 
hotspots. Participants come to learn applied explosives technology and 
advanced bomb-disablement logic, tools, and techniques. Technical 
classroom presentations, live-range demonstrations, hands-on training, 
and special high-risk scenarios give them the knowledge and technology 
they need to respond to terrorist threats involving explosives.
    Most of the bomb-disablement technologies demonstrated in Operation 
America were developed by Sandia National Laboratories as part of the 
DOE Laboratory-Directed Research and Development program and our work 
for other federal agencies. These tools include the Percussion-Actuated 
Nonelectric (PAN) Disrupter used to dismantle suspected explosive 
devices and preserve forensic evidence. The device was used at the 
Unabomber's cabin in Montana and was available at the 1996 Summer and 
2002 Winter Olympic Games. More recently, Massachusetts State Police, 
with the assistance of the FBI, used the Sandia-developed PAN Disrupter 
to disable the alleged shoe bombs removed from an American Airlines 
flight from Paris to Miami.
    The PAN disrupter, as well as other advanced disablement tools 
developed by Sandia, are currently in use by local bomb squads and 
could be used against terrorist threats such as radiological dispersal 
devices (RDDs) and other weapons of mass destruction. Most of these 
bomb-disablement tools are relatively simple to assemble in the field, 
can be used safely from a distance, and are affordable, and they are 
currently in use throughout the bomb-disablement community. These tools 
disrupt and ``render-safe'' explosive packages without initiating the 
explosives or destroying forensic evidence.
    Once Sandia has researched, developed, and tested a bomb-
disablement tool, it begins the process of transferring the technology 
to the first-responders community, putting the technology in the hands 
of the men and women who need it. Operation America sponsors include 
Sandia National Laboratories, the National Institute of Justice, and 
DOE.
Critical Infrastructure Protection
    National security and the quality of life in the United States rely 
on the continuous, reliable operation of a complex set of 
interdependent infrastructures consisting of electric power, oil and 
gas, transportation, water, communications, banking and finance, 
emergency services, law enforcement, government continuity, 
agriculture, health services, and others. Today, they are heavily 
dependent on one another and becoming more so. Disruptions in any one 
of them could jeopardize the continued operation of the entire 
infrastructure system. Many of these systems are known to be vulnerable 
to physical and cyber threats and to failures induced by system 
complexity.
    In the past, the nation's critical infrastructures operated fairly 
independently. Today, however, they are increasingly linked, automated, 
and interdependent. What previously would have been an isolated 
failure, today could cascade into a widespread, crippling, multi-
infrastructure disruption. As the documented cases of attacks on vital 
portions of the nation's infrastructure grow, there is a sense of 
urgency within industry and government to understand the 
vulnerabilities.
    The National Infrastructure Simulation and Analysis Center 
(NISAC)--which would be transferred to the Department of Homeland 
Security under the Administration's bill--is a comprehensive capability 
to assess the nation's system of infrastructures and their 
interdependencies. NISAC's partners are Sandia National Laboratories 
and Los Alamos National Laboratory, both of which possess extensive 
supercomputer resources and software expertise. NISAC will provide 
reliable decision support analysis for policy makers, government 
leaders, and infrastructure operators. It will perform modeling, 
simulation, and analysis of the nation's infrastructures, with emphasis 
on the interdependencies.
    Sandia pioneered probabilistic risk assessment (PRA) as a tool for 
evaluating the risks associated with high-consequence systems such as 
nuclear weapons and nuclear power generation plants. We apply this tool 
to risk assessments for critical infrastructures such as dams, water 
utilities, chemical plants, and power plants. Combined with our 
expertise in security systems for nuclear facilities, we have helped 
utilities and industrial associations create security assessment 
methodologies that can guide owners and operators through the 
assessment process to determine vulnerabilities and identify mitigation 
options. Methodologies have been developed for water utilities, 
chemical storage facilities, dams, power plants, and electrical power 
transmission systems.
Cyber Sciences
    Computer systems and networks are attractive targets of attack by 
terrorists, foreign governments, or high-tech criminals. Government 
functions, commerce, and the military increasingly rely on cyber 
networks in their operations. Computerized supervisory control and data 
acquisition (SCADA) systems often control the operations of critical 
infrastructures such as power utilities and distribution networks and 
municipal water supplies.
    Sandia has significant activities in the technologies intended to 
protect cyber and network resources and the information that resides on 
such systems. Programs that assess the vulnerabilities associated with 
these systems are in place for our own resources as well as for those 
at other federal government agencies. Sandia operates a SCADA 
laboratory to study such cyber control systems and to determine 
effective protection strategies. We conduct red-teaming to challenge 
cyber and information systems and identify and remove vulnerabilities. 
Our objectives are to enhance the robustness of cyber systems and 
critical information systems and develop solutions for survivability 
and response options for systems under attack. Our understanding of the 
issues associated with computer and network vulnerabilities is enhanced 
by the microelectronic design and fabrication capability resident at 
Sandia as well as the state-of-the-art work performed as part of NNSA's 
Advanced Simulation and Computing (ASC) campaign.
                       nuclear incident response
    The President's bill to establish a Department of Homeland Security 
defines a Nuclear Incident Response Team that includes entities of the 
Department of Energy and the Environmental Protection Agency that 
perform nuclear and/or radiological emergency support functions 
(Section 504).
    NNSA plays a vital support role in combating acts of nuclear 
terrorism through its Nuclear Emergency Support Team (NEST). NEST 
provides the FBI and other federal and state agencies with technical 
assistance in response to terrorist use or threat of use of a nuclear 
or radiological device in the United States. NEST also supports the 
Department of State in a similar role for incidents overseas. Another 
NNSA team, the Accident Response Group (ARG), has the different mission 
of providing technical support in response to accidents involving U.S. 
nuclear weapons while they are either in the custody of DOE or the 
military services. The ARG and NEST teams draw from the same pool of 
experts at the NNSA laboratories, all of whom are volunteers.
    NEST maintains a fast-response capability for a radiological 
emergency involving dispersal of radioactive debris--for example, from 
the detonation of a so-called ``dirty bomb'' or radiological dispersal 
device (RDD). The NNSA's Radiological Assistance Program (RAP) provides 
initial responders who can be on the scene in a matter of hours. Their 
support role is to characterize the radiological environment, provide 
technical advice to the FBI, FEMA, and other emergency response 
agencies, and to assist with decontamination and material recovery. 
NNSA is in the process of enhancing the Radiological Assistance Program 
to perform radiological weapons detection and device characterization 
missions on a regional basis consistent with the FEMA response regions.
    The Joint Technical Operations Teams (JTOTs) are major operational 
elements of NEST that directly assist military units and crisis 
response operations. These teams are trained and equipped to support 
render-safe operations and advise on stabilization, packaging, and 
disposition procedures.
    In addition to the NEST and ARG capabilities, NNSA maintains 
Consequence Management Teams that are available to provide assistance 
to federal and state agencies that require radiological emergency 
assistance after an event has occurred. The teams are trained and 
equipped to support incident assessment, monitoring and sampling 
activities, laboratory analysis, and health and safety support to 
incident responders.
    Sandia National Laboratories contributes approximately ninety team 
members to the various elements of NEST, ARG, RAP, and Consequence 
Management. Sandia's role focuses largely on RAP incident response, 
device characterization, render-safe techniques, assessment and 
prediction of consequences from radiological incidents and accidents, 
and methods for containment of radiological materials. Sandia is the 
only NNSA laboratory that maintains the capability for containment of 
particulates that would be released in an RDD explosion.
    The President's bill would place the Nuclear Incident Response Team 
under the author-ity and control of the Secretary of Homeland Security 
during an actual or threatened terrorist attack or other emergency. 
During such a time, it would operate as an organizational unit of the 
Department of Homeland Security. At all other times, DOE/NNSA would be 
responsible for organizing, training, equipping, and exercising 
authority and control over NEST, ARG, and the Consequence Management 
Teams. This arrangement is not ideal, but it makes sense in this case 
because the volunteer NEST and ARG experts are integrated with the 
nuclear design activities of the DOE/NNSA laboratories. It would not be 
possible, for example, to transfer the NEST/ARG functions to the 
Homeland Security Department on a permanent basis because the personnel 
who constitute those teams are full-time weapon scientists, engineers, 
and technicians.
    Consequently, it will be important to establish and exercise a 
clearly understood process for deploying the Nuclear Incident Response 
Team elements to avoid interagency conflicts over roles and 
authorities. The process should be designed to minimize the layers of 
federal offices involved in both management and deployment.
   science and technology development for homeland security missions
    The national laboratories of the NNSA are widely regarded as the 
premier science and technology laboratories in the federal government. 
These institutions have a long history of excellence in research and 
development in nuclear weapons and other national security 
applications. They are uniquely able to deploy multidisciplinary teams 
on complex problems in a way that integrates science, engineering, and 
design with product.
    In a world where threats are increasingly insidious--with worrisome 
developments in chemical and biological weapons, cyber warfare, and 
proliferation--it is important that the NNSA laboratories be major 
contributors in the national effort to address these threats. These 
national laboratories can provide enormous value to homeland security 
challenges. They are also the logical entities to perform technology 
evaluation on the many products and proposals that will inevitably be 
advocated to the Department of Homeland Security from countless 
vendors.
    Unfortunately, established bureaucratic structures and regulations 
that insulate agencies from one another will stand in the way of 
effective utilization of the NNSA laboratories for homeland security 
unless legislative action is taken to remove the barriers. As a first 
step, it would be helpful to explicitly authorize NNSA to carry out 
research and development for homeland security by adding that activity 
to the NNSA's authorized missions listed at Title 42, Section 2121 of 
the United States Code. Next, the Homeland Security Act should give the 
Department of Homeland Security the power to task the NNSA laboratories 
directly, just as the Science, Energy, Environmental, and other non-
NNSA offices of DOE are able to do. That authority would eliminate the 
bureaucratic red tape and additional costs associated with the Work-
for-Others (WFO) process that inhibits access and utilization of the 
laboratories by non-DOE sponsors.
    It will be important for the Homeland Security Department to have 
the authority to determine for itself how and where to make its 
research and development investments to support its mission goals. 
There will be some laboratories and institutions that will seek to be 
designated as homeland security laboratories or as centers of 
excellence for this or that homeland security mission area. The 
Department will need to look beyond labels to demonstrated capabilities 
and a track record of deliverables. Its research and development 
program should encourage a competition of ideas among many performers, 
including industrial firms, universities, and federal laboratories, and 
then fund the development of the best ideas based on considerations of 
technical merit and not on who the performer is. The Defense Advanced 
Research Projects Agency (DARPA) uses such an approach, and it may be 
an effective model for the Homeland Security Department to emulate.
    Under the President's bill, the research and development program 
for the entire Department would be directed by the Under Secretary for 
Chemical, Biological, Radiological, and Nuclear Countermeasures. 
Certainly that official will have formidable R&D challenges, but he or 
she must also be cognizant of the science and technology needs for the 
other mission areas of homeland security, including information 
analysis and infrastructure protection, borders and transportation 
security, and emergency preparedness and response. As an alternative, 
it may be useful to consider a chief scientist position reporting to 
the Secretary with authority for coordinating and directing the 
Department's overall research and development program. Each Under 
Secretary may benefit from a dedicated R&D element focused on the 
challenges peculiar to his mission.
                         summary and conclusion
    Sandia National Laboratories and the other NNSA laboratories 
constitute a broad, multidisciplinary technology base in nearly all the 
physical sciences and engineering disciplines. We are eager to leverage 
those capabilities to support the science and technology needs of the 
Department of Homeland Security when our capabilities can make 
significant contributions.
    Sandia possesses strong competencies in nuclear, chemical, and 
biological sensors and engineered systems suitable for transfer to 
industry and deployment in homeland security applications. We have been 
proactive in supporting our nation's first responders and addressing 
the challenges of infrastructure protection. We have a track record of 
anticipating emerging homeland security threats and investing in 
technology development to counter them through our Laboratory-Directed 
Research and Development program and sponsor-directed programs. We are 
one of the premier laboratories for working with industry to transition 
laboratory technologies into deployable commercial applications.
    Bureaucratic and regulatory roadblocks exist that limit access to 
the DOE/NNSA national laboratories by other federal agencies, and those 
obstacles should be removed by the homeland security legislation in 
order to facilitate direct access to those resources. The Homeland 
Security Department needs the authority to manage a research and 
development program that encourages competition of ideas among many 
performers--including industrial firms, universities, and federal 
laboratories--and then fund the development of the best ideas based on 
technical merit and applicability to mission needs.
    On behalf of the dedicated and talented people who constitute 
Sandia National Laboratories, I want to emphasize our commitment to 
strengthening United States security and combating the threat to our 
homeland from terrorism and weapons of mass destruction. It is our 
highest goal to be a national laboratory that delivers technology 
solutions to the most challenging problems that threaten peace and 
freedom.
    Thank you, Mr. Chairman. I would be pleased to respond to any 
questions you may have.

    Mr. Greenwood. Thank you, Mr. Nokes.
    Dr. Cobb for 5 minutes.

                      TESTIMONY OF DON COBB

    Mr. Cobb. Thank you, Mr. Chairman and members of the 
committee. It is a pleasure for me to be here and talk about a 
very important part of the establishment of the new Department 
of Homeland Security, namely, the part that's associated with 
the ability to respond to threats of weapons of mass 
destruction, terrorism against our own country.
    My name is Don Cobb. I'm the Associate Director for Threat 
Reduction at Los Alamos. I have about 30 years experience in 
dealing with various kinds of threats, working in arms control, 
nonproliferation, and counterterrorism. Over that period of 
time I have had experience in developing technologies, from 
radiation technologies to satellite-based technologies.
    Los Alamos, about one quarter of the laboratory, something 
over 20 percent of the laboratory, is involved in these kind of 
threat reduction activities across the board. As you know, Los 
Alamos is operated by the University of California for the 
Department of Energy; has been for the last 60 years. So we are 
uniquely, along with our brethren at the other labs, operated 
for the country to do major missions that are broad S&T-based, 
like the homeland security issue is today.
    What I want to do is confine my remarks to the Nuclear 
Emergency Research Team and try to elucidate some of the issues 
that I think are most important in the setting up of this new 
department to preserve the capability and hopefully enhance our 
nuclear response capabilities.
    First, let me say Los Alamos is involved in virtually every 
aspect of nuclear emergency response, from threat analysis, 
analyzing all source information to understand what the threat 
is, to fielding detection diagnostics, radiation sensors, and 
so forth, to neutralizing the threat, to making recommendations 
how to--how to safe the device, whatever it may be. This is a 
shared responsibility that I have primarily with the other two 
NNSA laboratories.
    The main point that I want to make, and I think General 
Gordon made it earlier, is--made it for me, is that the NEST 
tech base is not something that you can isolate as a piece and 
transfer it to the new department. It does not stand alone. 
It's the synergy of that tech base with the nuclear weapons and 
threat reduction program at the laboratories.
    For example, to give you the idea, there are over 100 
people at Los Alamos that work at the Nuclear Emergency Support 
Team. Only about seven of these are full-time people. The rest 
of them are nuclear weapon designers, they're nuclear weapon 
engineers, they're people who do radiological detection 
development for sensors and systems. And it's those skills, and 
also the specialized facilities that we have where you can 
actually make measurements and utilize nuclear materials, that 
make this a unique support capability. We need to keep that 
synergy in the transition.
    Let me talk to three specific issues that I think are 
important to us that will matter but that can be resolved, I 
think--or, perhaps not through legislation, but through just 
negotiating the right roles and responsibilities between the 
existing DOE, the laboratories, and the new Department of 
Homeland Security.
    First, about command and control relating to NEST. It has 
to be clear, when NEST is under the authority of the new 
Department of Homeland Security, under what conditions it 
remains under the authority of the DOE. For example, under a 
heightened threat condition, we may be deploying people or 
looking at threats as part of our NEST responsibilities; we 
will call people in to work on that. Under that condition, we 
need to understand whether we are reporting to the DOE or 
whether we are reporting to the Department of Homeland 
Security.
    Similarly, the RAP program, the Radiation Assistance 
Program, has similar kinds of response to maybe State and local 
responders. We need to understand whether they continue to do 
that under the DOE.
    So the roles and responsibilities, and to clarify under 
what conditions these various responsibilities will occur 
between the departments has to be worked out. And then we need 
to jointly do exercises and drills and practices so we can 
understand how this actually plays together in case and when 
these assets are needed and they are called upon. So that's 
one. The command and control structure needs to be clarified.
    The second one has also been previously mentioned, but I 
want to raise it again because it is very important. The R&D 
that generates the technology that goes into the NEST programs 
quite often comes from other programs, not necessarily directly 
through the NEST program. It relies on and leverages other 
investments that are being made in parallel that develop 
related technology. Heretofore the DOE has accepted that 
responsibility and understands that kind of relationship.
    If the NEST R&D is rolled over to the Department of 
Homeland Security as part of a total R&D package, it will sever 
some of that leveraging, and it would have to be done very 
carefully. I would argue in favor of keeping the R&D and the 
technology integration as part of the NEST package and keep 
that as part of the current DOE structure.
    Then the third one I want to mention is legal issues. We 
currently, working for the University of California, have clear 
indemnification and liability protection for our people and our 
institution in participating and supporting NEST activities. 
That's because of our M&O contractual relationship that's 
spelled out very clearly. If we move that over to the 
Department of Homeland Security, again, we would have to 
examine all those legal issues again, and at least they would 
have to be redone, preserved in another way.
    So my final comment is we currently work--when we are 
called out, we have a DOE lead person in the field who leads 
our NEST teams. That lead person for the DOE interacts with the 
lead Federal agency. It might be the FBI, depending on what 
kind of incident it is. So there is a clear mechanism for doing 
this. The Department of Homeland Security could easily be the--
could be the lead Federal agency in certain emergency 
situations, and we'd still have our DOE NEST team responding in 
similar fashion. If we do that, if that's the nature of the 
relationship that's set up, then I think all of the issues that 
I've raised here are pretty straightforward in terms of being 
able to handle them. If we don't, it's going to be much more 
complicated.
    So thank you. And I would be happy to answer questions.
    [The prepared statement of Don Cobb follows:]
 Prepared Statement of Don Cobb, Associate Director, Threat Reduction, 
                     Los Alamos National Laboratory
                              introduction
    Thank you Mr. Chairman and distinguished members of the House 
Energy and Commerce Subcommittee on Oversight and Investigations, for 
inviting me here today to discuss the important issue of the creation 
of the Department of Homeland Security and what its proposed role will 
be in terms of dealing with chemical, biological, radiological and 
nuclear emergency response activities.
    I am Don Cobb, Associate Director for Threat Reduction at the 
Department of Energy National Nuclear Security Administration's Los 
Alamos National Laboratory. Los Alamos is one of the three NNSA 
laboratories responsible for maintaining the nation's nuclear 
stockpile. At Los Alamos, I am responsible for all programs directed at 
reducing threats associated with weapons of mass destruction. I 
personally have more than 30 years experience working to reduce these 
threats.
    Today, I would like to discuss with you the emergency response 
activities at Los Alamos National Laboratory, focusing on our 
involvement and work with nuclear emergency response efforts, primarily 
the Department of Energy's Nuclear Emergency Support Team (NEST). In 
addition to NEST, I also will discuss Los Alamos' efforts in responding 
to biological threats and incidents, in particular the Biological 
Aerosol Sentry and Information System (BASIS). Responding to the 
biological threat is an area in which our national capability is not as 
mature as the capabilities that we have in dealing with the nuclear 
threat.
                 nuclear emergency support team (nest)
    Los Alamos plays an important role within the area of nuclear 
emergency response. The largest and the most well-known team in this 
area is the DOE-managed NEST team. NEST was created in 1975 in response 
to concerns over nuclear terrorism activity. Its effectiveness is due 
to well-established interagency relationships including significant 
Department of Defense and FBI collaboration. NEST is focused on 
responding to a threatened act involving radiological or nuclear 
materials or devices. Among the range of potential terrorist threats 
involving weapons of mass destruction, the nuclear response 
infrastructure and capabilities are the most mature and capable of 
addressing the threat. NEST includes the capabilities to search for, 
diagnose, and disable an improvised nuclear device.
    NEST depends on a team of highly dedicated individuals at the 
national laboratories and facilities throughout the DOE-complex who 
volunteer their expertise to this program. Los Alamos' NEST and related 
activities are funded at approximately $10 million in fiscal year 2002. 
More than 100 Los Alamos scientists and engineers are involved in 
various aspects of the NEST program. Nearly all are involved in other 
parts of the Laboratory's research in nuclear weapons or threat 
reduction. Many of the employees who work part-time on NEST are 
involved with more than one team within the NEST program.
    It is important to note that NEST is more than a group of 
scientists who stand at the ready with pagers on their belts, waiting 
to be contacted to respond to a crisis. NEST team members at the DOE 
and NNSA laboratories, including Los Alamos, are involved in a wide 
range of related activities including research and development into 
diagnostic tools, disablement techniques, and computer simulations and 
modeling; working with the intelligence and law enforcement communities 
on the analysis of threats and the development of analytical tools; 
training of employees from other government agencies in environments 
that allow hands-on work with the actual nuclear materials that they 
might encounter in the field; and providing subject-matter experts when 
required. Los Alamos has the lead within NEST for development of 
nuclear diagnostic tools to help determine the nature of the suspected 
threat device and for maintenance of what is called the ``home team,'' 
a group of experts parallel to those that would be deployed in the 
field who can provide analysis, advice and technical support.
    Los Alamos is involved to varying degrees in all aspects of the 
national NEST program. The activities of the national team, and Los 
Alamos' role, are as follows:

<bullet> Search activities--Los Alamos is primarily involved in 
        research and evaluation of detectors used for search.
<bullet> Joint Tactical Operations Team (JTOT)--JTOT is a partnering of 
        DOE and DoD expertise that provides advice or direct assistance 
        to render safe a suspect malevolent employment of a nuclear 
        device by terrorists or others and to perform a nuclear safety 
        assessment for the eventual safe disposition of the device. Los 
        Alamos plays a major role in the JTOT mission and is involved 
        in maintaining management oversight, render-safe capability, 
        diagnostics capability, emergency response home team 
        capability, a watchbill (a group of experts who are on call 24 
        hours a day, seven days a week, year-round), communications 
        support and deployable equipment, and contingency planning.
<bullet> Accident Response Group (ARG)--ARG is responsible for dealing 
        with incidents involving a U.S. weapon, commonly referred to as 
        a ``Broken Arrow.'' Los Alamos has experts on the ARG roster 
        who may be called upon if their particular set of knowledge is 
        necessary to deal with the given situation.
<bullet> Disposition--These assets support both the JTOT and the ARG 
        team, making decisions about the ultimate disassembly and 
        disposition of a device after it has been made safe to move and 
        ship to a remote location.
<bullet> Consequence Management--Following an incident, this team is 
        involved in the immediate monitoring of any potential 
        radiological dispersal and in monitoring and forecasting that 
        can advise responders on issues of evacuation and treatment.
<bullet> Attribution--This area involves drawing upon capabilities from 
        the U.S. weapons testing program to analyze samples and draw 
        forensic inferences about a threat device.
<bullet> Radiological Assistance Program (RAP)--Related to but separate 
        from NEST, DOE and Los Alamos maintain response plans and 
        resources to provide radiological assistance to other federal 
        agencies; state local, and tribal governments; and private 
        groups requesting such assistance in the event of a real or 
        potential radiological emergency. The Los Alamos RAP 
        organization provides trained personnel and equipment to 
        evaluate, assess, advise, and assist in the mitigation of 
        actual or perceived radiological hazards or risks to workers, 
        the public, and the environment. This Los Alamos capability 
        supports associated activities throughout RAP Region Four: 
        Kansas, Oklahoma, Texas, Arizona, and New Mexico.
                     biological emergency response
    The biological science and medical communities responded to the 
challenge posed by the fall 2001 anthrax attacks. Los Alamos has been 
involved in responding to the attacks from the beginning, providing DNA 
forensics expertise to assist federal law enforcement agencies in the 
anthrax investigation. Our bioscience experts played an advisory role 
in the decontamination of the Senate Hart Office Building after the 
attacks, providing a strategy and advice for decontaminating the 
building so it could be restored to its regular function.
    Although more work and attention is needed in terms of biological 
emergency response, significant progress has been made through research 
efforts, many of which reside in DOE NNSA's Chemical and Biological 
National Security Program (CBNP). For instance, Los Alamos and Lawrence 
Livermore National Laboratory have been involved in research and 
development of bio-detection systems as part of CBNP. One such system 
to detect a biowarfare attack was demonstrated by Los Alamos and 
Livermore at the Winter Olympics in Salt Lake City. The system, called 
the Biological Aerosol Sentry and Information System (BASIS), provides 
public health officials with early warning of a potential bioterrorist 
attack.
                       emergency response issues
    The following issues related to transferring emergency response 
authority and responsibility to DHS should be addressed.

<bullet> NEST command and control--It must be clear when NEST is under 
        the authority of DHS and when it is under the authority of DOE. 
        For example, continuous monitoring and surveillance looking for 
        threats could be under either department. Once authorities 
        under various options are clear, it will be important to 
        establish joint training to exercise the various options.
<bullet> NEST research and development and technology integration--
        Heretofore, DOE has fulfilled the responsibility for NEST R&D 
        and technology integration. It is important to determine 
        whether this responsibility will continue in DOE or be 
        transferred to DHS. This is the underpinning for the continued 
        and improved effectiveness of NEST. Similarly, the ability to 
        respond to future biological threats depends on synergy with 
        the biological and health sciences.
<bullet> NEST legal issues--Legal issues related to liability and 
        indemnification for those that respond to emergency incidents 
        need to be sorted out and resolved. Individuals and contracting 
        entities responding to these incidents at the direction of the 
        federal government need clear legal protections.
<bullet> Biological Emergency Support Team (BEST)--The establishment of 
        a national BEST, perhaps modeled after NEST, should be 
        considered. Just as NEST relies on nuclear weapons and threat 
        reduction experts, a BEST will need to maintain close contact 
        with the biological and medical sciences communities.
                               conclusion
    At Los Alamos, we will continue to work with DOE NNSA and the other 
national laboratories to support the nation's ability to respond to 
emergencies involving weapons of mass destruction. We will work with 
the new DHS to ensure the continued effective function of these 
emergency response capabilities.

    Mr. Greenwood. Thank you, Dr. Cobb.
    Dr. Stringer, for 5 minutes.

             TESTIMONY OF LLEWELLYN W. STRINGER, JR.

    Mr. Stringer. Mr. Chairman, members of the committee, thank 
you for inviting me here today. I was here in October talking 
about how emergency responders at local, State, and Federal 
Governments were affected and what we needed. Well, I'm back 
again today. I'm going to talk about how the homeland----
    Mr. Greenwood. You did such a good job in October, we 
wanted a repeat performance.
    Mr. Stringer. Thank you, sir.
    I'm going to talk about how this could affect local and 
State governments, and how it could affect the national medical 
response system and OEP.
    In talking to my local, Federal and State cohorts, I really 
think we could put all of this together and call it the need 
for interoperability on a day-to-day basis.
    It's part of my job with the State looking at grants, how 
do we apply for them, trying to get the local and States to 
understand the stakeholders, what we are going to need to do to 
get them, and then all the many pots of money that are sort of 
dangled at us at the State level for locals and State from CDC, 
OEP, FEMA and many more. They all have different rules. They 
all have different time tables, they all have different things 
that we have got to try to understand and then explain to 
others in the State to be successful in getting the grant and 
using it. That's a real problem.
    In North Carolina, we are trying to develop a single 
unified terrorist plan, bringing the local and the State 
entities together to develop strategies for equipping, 
planning, training and exercising, so we have one plan, 
wherever it may be in the State, whatever city it may be in. 
This is very important. The planners in emergency management 
need one standard set of grant guidelines provided by one 
unified department for all WMD grants.
    I want to compliment the Department of Health and Human 
Services for the recent bio-state grant program. That was 
something that was--we could live with and it was really 
enjoyable to work with, believe it or not. I would recommend 
that other agencies copy this.
    We need funding assigned for program management and 
equipment maintenance allowances. Most State agencies, local 
emergency management, and public health agencies are bare-
boned. We have limited funds for planning and managing our 
daily activities, much less new initiatives. I would suggest 
that 10 to 20 percent of the grant funding be assigned for 
program management and equipment maintenance. Unfortunately, 
Federal programs have provided funds for training, planning, 
and purchasing, but it stops there. If the Department of 
Homeland Security doesn't follow through with a program that 
assists the locals and the States with this managing and 
planning, I'm afraid several years from now it will be like the 
old civil defense disaster package hospitals, sitting somewhere 
rotting, unable to be used.
    Unfortunately, terrorism is not going to go away, and we 
need to have continued support to organize a program and to 
manage it. We need grants that are awarded at 100 percent, not 
matching funds. I've heard rumors that FEMA's 2003 grants for 
WMD are going to be on a 75/25 basis. I can tell you that in 
North Carolina, and I suspect many other States, we can't 
support this. We are having troubles on a day-to-day basis.
    For the National Disaster Medical System and the Public 
Health Service Office of Emergency Preparedness, it's finally 
been recognized by Congress in the bioterrorist bill, and I 
really want to thank you all for that support. It really was 
greatly needed.
    Until recently, NDMS has had little funding, has inadequate 
staffing and accountability and minimum recognition from DHHS 
on a regular basis. In years past, some snidely referred to 
NDMS as the No Damned Medical System. This is no longer true, 
sir. NDMS responds to help local and State governments when 
they are overwhelmed with many crises, natural and man-made. 
Hurricanes, floods, earthquakes, air crashes, animal events, 
the recent avian influenza, and terrorism. The network of 
volunteers who step up to the plate and become part-time 
employees of the U.S. Public Health Service in a crisis has 
really been helpful.
    I have a problem right now, an example with the Federal 
Team, a WMD issue, which is my team, which is the National 
Medical Response Team-East, housed in North Carolina, just 
received one-sixth of our operating budget for 2001/2002. It--
to actually get the money appropriated by Congress, I had to 
get assistance from my Congressman to get HHS to turn the money 
loose. We were borrowing the money from a non-profit 
organization to support a Federal team for basic operating 
expenses. Eight months into the Federal fiscal year, I 
considered canceling planned training activities because we 
just could not afford to continue supporting a counterterrorist 
type team. And if it's not important after 9/11, when will it 
be?
    In closing, you have got to have support for planning and 
training and maintenance. We need to consider natural and man-
made disasters that overwhelm a State or local government. We 
need not to reinvent a wheel. The FEMA's Federal response plan 
has been around a while, and it's taken a good while for 
everybody, including the Federal Government, to fully 
understand it. It's got a counterterrorist or a terrorist annex 
since PDD 39 came about, and I believe everybody started going 
along with it now. Now, if we start something totally new and 
try to reinvent a wheel, it's going to be another 3 or 4 years 
at best before it's understood, and we will again have the same 
problem on a day-to-day basis with interoperability not 
present; and then in a crisis, whether it be by electronic or 
face-to-face, we will have a problem.
    This needs to be fixed. And I want to thank you for paying 
attention to it.
    [The prepared statement of Llewellyn W. Stringer, Jr. 
follows:]
  Prepared Statement of Llewellyn W. Stringer, Jr., Medical Director, 
 North Carolina Division of Emergency Management, Department of Crime 
                      Prevention and Public Safety
    Mr. Chairman and Members of the Committee, thank you for inviting 
me here today to discuss the issue of the establishment of a Department 
of Homeland Security. I am Dr. Lew Stringer, Medical Director of the 
North Carolina Division of Emergency Management, Department of Crime 
Prevention and Public Safety. I have a long history of emergency 
management experience that ranges from services as a local EMS Medical 
Director for 28 years, Director of the Special Operations Response 
Team-a disaster organization in North Carolina and involvement with the 
National Disaster Medical System through the Office of Emergency 
Preparedness, USPHS since 1990. In October, 2001 I spoke to this 
committee on WMD issues as it affected the local, state and federal 
response community.
    I am back today to address the issue of how a single homeland 
security department could affect local and state governments and the 
Office of Emergency Preparedness/ National Disaster Medical System. 
During the preparation of my statement and in discussions with my 
local, state and federal cohorts, this focus become the issues of 
``interoperability''.
    I have focused on chemical, biological and radiological response 
activities, as I know them to be, and have chosen 3 areas of focus: 1. 
Grants and funding; 2. Preparedness and planning at all levels; and 3. 
Response efforts.
    In my position in North Carolina, I have been involved for several 
years in the ``Grant Process'' which includes: applying for grants, 
explaining the grant requirements to state and local stake-holders, and 
trying to manage the many different ``pots of money'' dangled in front 
of my state by CDC, FEMA, OJP, DHHS and others. (They) all have 
different requirements, different time tables, different folks to meet 
with, and different ways to figure out how to be successful. In North 
Carolina, we are striving to develop a SINGLE, UNIFIED terrorist plan 
that must bring all the varied state and local agencies together by 
developing, planning, equipping, training, and exercising strategies 
into a single unified plan.
    Planners in emergency management need a standard set of guidelines, 
provided by one unified department, for all WMD grants. I want to 
compliment the DHHS on the presentation of requirements for the recent 
Bioterrorism state grants--others may wish to adopt their guidelines.
    We need funding assigned for program management and equipment 
maintenance allowances. MOST state agencies--local emergency management 
and public health agencies--are ``bare boned''. We have limited funds 
to plan or manage our day-to-day activities; much less manage new 
entities. I would suggest that 10-20 % of the grant funding be assigned 
for program management and equipment maintenance. Unfortunately, 
federal programs have provided money for terrorist planning/training 
and purchase of equipment but have stops there. Otherwise, Homeland 
Security planning will follow the same path as the old Civil Defense 
Packaged Disaster Hospital Program--nonfunctional, and useless--if 
needed in several years. Unfortunately, the need for terrorist 
preparedness will not go away and support for preparedness must be on 
going.
    We need grants awarded at 100% and not require matched funding. I 
have heard rumors that the 2003 FEMA Domestic Preparedness grants will 
be at awarded at matching 75/25%. I can tell you that in North 
Carolina, and I suspect many other states, we can not afford that type 
of ``support''.
    The National Disaster Medical System (NDMS) and the Public Health 
Office of Emergency Preparedness (OEP) have recently been officially 
recognized by Congress in the Bioterrorism bill signed on June 12th. I 
want to thank you on this committee for your efforts. Until recently, 
NDSM had little funding, inadequate staffing and accountability, and 
minimal recognition from DHHS. Some snidely referred to NDMS as No Damn 
Medical System. This is no longer the case. NDMS responds to help state 
and local governments when the locals become overwhelmed by natural or 
man-made disasters--hurricanes, floods, earthquakes, air crashes, 
animal events such as the avian influenza outbreak and terrorist 
events. The network of volunteer personnel who become temporary 
employees of the USPHS and respond has been gratifying, especially 
since September 11.
    Let me give you an example of my funding distribution problems:
    My Federal WMD team, Nation Medical Response Team-East, housed in 
North Carolina, has just now received the first \1/6\ of our operating 
budget for 2001-2002. To actually get the money, appropriated by 
Congress for OEP, I had to request assistance from my Congressman to 
get the DHHS moving. My Federal team had to use the monies of a non-
profit organization, Special Operations Response Team's emergency 
contingently funds, for a federal team's basic operating expenses. 
Eight months into the federal physical year, I considered canceling 
planned training because of the lack of released funding. Since 9/11 
certainly, this type of team has never been more needed.
    Now that you (Congress) have officially recognized OEP/NDMS and 
created an Assistant Secretary for Public Health Preparedness, who will 
direct OEP/NDMS, I am hopeful that such funding distribution issues 
will be resolved. Moving Public Health Preparedness, OEP and NDMS into 
the Department of Homeland Security should improve these funding 
distribution issues.
    I suspect that others, involved in response, are also looking 
forward to 100% coordination of efforts--for planning, funding and 
direction from individuals who are tasked by Congress and our 
President--to be 100% sure that services are 100% ready to make secure 
our homeland.
    We, in state government, need be confident in knowing that a 
coordinated, unified Federal response to natural or man-made disasters 
will continue under the Department of Homeland Security. The ground 
work was begun years ago by FEMA with what is called the Federal 
Response Plan, (FRP). Federal departments, offices and other Federal 
entities come under, or are responsible for various emergency support 
functions, when the Stafford Act is declared. As you know, the Federal 
Response Plan has a Terrorist Annex since PDD 39, which further defines 
the functions of crisis and consequence management roles. This plan is 
fairly well understood by states and is followed by federal, state and 
local governments.
    If the primary consequence offices and agencies, as well as some of 
the law enforcement entities, are moved from the departments where they 
now function and are placed under the steadfast management of the 
Department of Homeland Security, this should improve efficiency, 
simplify the annual budget process, and reduce redundancies and 
interagency competition.
    A downside for a Department of Homeland Security could be a failure 
of a service formally provided by the old agency plan not to be honored 
under the new department plan. For example, when OEP requests from DHHS 
the temporary assignment of USPHS Commissioned Corp personnel, will 
that request be honored by DHHS when OEP is no longer under DHHS?
    It is critical that in the new department, there must be a 
prominent health care focus. Many of the critical services needed in 
man-made or natural disaster are health care issues. There needs to be 
an adequate physician presence-not just a health care administrative 
presence ``to guide the Secretary in health care issues at all levels 
of department operation.
    In closing, I would like to speak about the critical need for 
communication ``interoperability'', which has become a ``buss word'' in 
Washington and in the state governments. In any emergency, first 
responders need to be able to communicate with other first responders, 
i.e. fire with medical, ambulance with police, and all with other 
agencies who become involved. Mutual aid and the federal response 
compounds the communication problem by brings more folks who need to 
talk with each other together. Communications issues have been 
mentioned in every disaster after-action report I have seen for years. 
These communication issues involve cost for locals. This will be a huge 
planning and funding issue that the Department of Homeland Security 
must address.
    I sincerely hope the new Department of Homeland Security will 
resolve or, at best, improve many ``interoperability'' issues existing 
today. The task will be daunting. In these difficult times, the aim 
should be to make all of us successful.

    Mr. Greenwood. We thank you, Dr. Stringer, for your 
testimony again.
    Mr. Plaugher.

                 TESTIMONY OF EDWARD P. PLAUGHER

    Mr. Plaugher. Good afternoon, Mr. Chairman, and members of 
the committee. I am Edward Plaugher, chief of the Arlington 
County Fire Department in Virginia. I appear today on behalf of 
the Washington, DC Area National Medical Response Team, of 
which I am its executive agent.
    I would like to begin by thanking the committee for having 
me here today. Issues related to terrorism and related 
preparedness efforts have taken on a new meaning in our Nation. 
Our region has been engaged for the previous 5 years prior to 
the events of September 11 in educating Federal policymakers as 
to the role of fire and emergency services in mitigating acts 
of terrorism. The men and women of my fire department were 
joined by thousands of others from the Washington, DC and New 
York metropolitan areas in demonstrating that role last fall. I 
believe we owe it to them and to the public safety good to move 
forward as quickly as possible in fashioning the most rational 
and workable national terrorism preparedness policy as soon as 
possible. The public safety and the memory of 343 fallen 
firefighter colleagues in New York City demand no less.
    Since its inception, the Office of Emergency Preparedness, 
U.S. Public Health Service, Department of Health and Human 
Services, has provided an invaluable contribution to the first 
responder community within our Nation. Creating and supporting 
the Disaster Medical Assistance Teams, DMATs, the Metropolitan 
Medical Response System, and the National Medical Response 
Teams, has provided not only financial support, but leadership 
and direction in the most critical aspects of disaster 
response, that is, the aspect of emergency medical care. It 
goes without saying that without this program, our Nation would 
not be as prepared as we are today to deal with both man-made 
and natural disasters.
    Long-range relation ships have been developed, and they are 
vital to the success of the program. As we found on September 
11, it is the upfront work that pays dividends during the 
emergency event.
    In addition, the last 6 years has seen the development of 
both public and local assets under the direction of OEP. These 
local assets, the Metropolitan Medical Response System, are 
designed to deal with the consequence of weapons of mass 
destruction incidents. Each NMRS has an order to get OEP 
funding that's been required to develop these very critical 
pre-incident relationships, bringing to the table disciplines 
who routinely do not work together, but during a disaster or 
terrorist event must not only work together, but they must do 
so in a seamless manner. Sacrificing any part of this long-term 
relationship building and seamless response to medical 
emergency management must not be allowed to vanish.
    Hence, my position on moving OEP to the new Department of 
Homeland Security is somewhat tied to building upon a well-laid 
foundation and not allowing this foundation to erode.
    I have seen the vast matrix of Federal programs, that is, 
the good, the bad, and the ugly. Direct relationship-building 
and financial support for local asset-building has produced 
outstanding results for emergency medical preparedness. OEP's 
and NMRS' system has provided this focus and is good.
    I have also seen the Department of Defense via the Weapons 
of Mass Destruction Act of 1996 provide training and exercises 
but fail to develop lasting relationships within a community or 
a city. That is bad. And it continues to miss the mark now as a 
Department of Justice program.
    The ugly that I am referring to is the State and local 
assistance program currently under way at the Department of 
Justice. Even though well intended by Congress and meaningful 
in amounts, over $100 million a year since Federal fiscal 1999, 
almost none of the support has reached the first responder 
community. Utilizing the States as a funding mechanism has not, 
and I believe will not, work as intended. As the police chief, 
my colleague in Arlington County, Edward Flynn, relates, 
terrorism is a global act with local response.
    Back to the concept of transferring OEP to homeland 
defense. If the transition of the relationship-building 
cornerstone crumbles, the transition is a giant step backwards. 
Local response is built on managing a wide array of assets, 
which is best accomplished in an atmosphere of trust.
    On the other hand, if more direct assistance is provided to 
local first responders with the State in the loop to provide 
uniformity between States and within States but not as a 
controlling element or as a barrier to assistance, then 
homeland defense and OEP could benefit from a single 
departmental alignment.
    Again, I want to thank the committee for giving me this 
opportunity to testify, and I look forward to your questions.
    [The prepared statement of Edward P. Plaugher follows:]
Prepared Statement of Edward P. Plaugher, Fire Chief, Arlington County, 
                                Virginia
    Good Morning/afternoon, Mr. Chairman and members of the Committee, 
I am Edward Plaugher, Chief of the Arlington County Fire Department. I 
appear today on behalf of the Washington, D.C. area National Medial 
Response Team (NMRT).
    I would like to begin by thanking the Committee for having me 
today. Issues related to terrorism and related preparedness efforts 
have taken on new meaning in our nation. Our region was engaged for 
five years prior to the events of last September in educating federal 
policy makers as to the role of the fire and emergency services in 
mitigating acts of terrorism. The men and women of my fire department 
were joined by thousands of others from the Washington, DC, and New 
York metropolitan areas in demonstrating that role last fall. I believe 
we owe it to them and to the public safety to move forward as quickly 
as possible in fashioning the most rational and workable national 
terrorism preparedness policy as is possible. The public safety and the 
memory of 343 fallen firefighters in New York demand no less.
    Since its inception, the Office of Emergency Preparedness, U.S. 
Public Health, Department of Health and Human Services has provided an 
invaluable contribution to the first responder community within our 
nation. Creating and supporting the Disaster Medical Assistance Teams 
(DMATS) and the National Medical Response Teams (NMRTs) has provided 
not only the financial support but the leadership and direction in the 
most critical aspect of disaster response emergency medical care. It 
goes without saying that without this program our nation would not be 
as prepared as we are to deal with both man-made and natural disasters. 
Long range relationships have been developed and are vital to the 
success of the program. As we found on September 11th it is the up 
front work that pays dividends during an emergency event.
    In addition the last six years has seen the development of public 
and local assets under the direction of OEP. These local assets, the 
Metropolitan Medical Response Systems are designed to deal with the 
consequences of weapons of mass destruction incidents. Each MMRS has, 
in order to get OED funding, been required to develop these very 
critical pre-incident relationships. Bringing to the table discipline 
who routinely to not work together but during a disaster of 
``terrorist'' event must not only work together but must do so in a 
seamless manner. Sacrificing any part of this long-term relationship 
building and seamless response to medical emergency management must not 
be allowed to vanish. Hence my position on moving OEP to the new 
department of Homeland Security is somewhat tied to building upon a 
well-laid foundation and not allowing this foundation to erode. I have 
seen with the vast matrix of federal programs ``the good, the bad and 
the ugly''. Direct relationship building and direct financial support 
for local relationship building has produced outstanding results for 
national medical preparedness without this the ability of the first 
responder community is greatly diminished. I have also seen the 
Department of Defense via the ``Weapons of Mass Destruction Act of 
1996'' provide training exercise and expertise but fail to develop 
lasting relationships within a community or city. That is bad and it 
continues to miss the mark now as a Department of Justice program. The 
ugly I am referring to is the State & local assistance program 
currently under way in the Department of Justice. Even though well 
intended by Congress and meaningful in amounts, over 100 million a 
year, almost none of the support has reached the first responder 
community. Utilizing the states as the funding mechanism has not, and I 
believe will not, work as intended. As the police chief in Arlington 
County, Edward Flynn relates ``Terrorism is a global act with local 
response''.
    Back to the concept of transferring OEP to Homeland Defense; if in 
the transition the relationship building cornerstone crumbles, the 
transition is a giant step backwards. Local response is built on 
managing a wide array of assets, which is best accomplished in an 
atmosphere of trust. On the other hand, if more direct assistance is 
provided to local first responders, with states in the loop to provide 
uniformity between states and within states, but not as a controlling 
element or as a barrier to assistance, then Homeland Defense and OEP 
could benefit with a departmental alignment.
    I want to thank the committee for giving me the opportunity to 
testify and look forward to your questions.

    Mr. Greenwood. The Chair thanks the gentleman. And, for 
your information, that is not a national alert; that is an 
indication that we have a series of votes on the floor. For the 
benefit of the members of the committee, what we will try to do 
is in the next 15 minutes allow each of the three of us to ask 
questions, and then we will be able to excuse this panel; and 
then we will take a brief recess until the next panel comes up.
    And let me ask a question, and I would ask, starting with 
Mr. Plaugher and going to my left, with the exception of Ms. 
Heinrich, because I have another question for her, this 
question:
    How ready do you think the labs and NDMS teams are today, 
and the other Federal response assets are, to respond to a true 
radiological or nuclear incident such as a dirty bomb? Are we 
sufficiently prepared and adequately organized to handle the 
threat now? And will the new proposal help improve such 
preparedness? So if somebody detonated a dirty bomb in 
Arlington, Virginia tomorrow morning and you had dead bodies 
and you had people wounded and you had people potentially 
exposed to radiological materials, how ready are we today, Mr. 
Plaugher, and how do you see that improving with this 
legislation?
    Mr. Plaugher. I think we are very far off the mark as far 
as for preparedness for a dirty bomb. I think we have focused 
most of our energy on chemical, and we are now starting to 
focus on biological. We have yet to begin the preparedness of 
the nuclear program, and it's just been a matter of assets and 
resources. We had to start somewhere. I personally chose to 
focus on chemical attack because of the incident in Tokyo, 
Japan, and the similarities between our system and their system 
and what we thought was the likelihood of event.
    We have also done a great deal of preparedness for 
conventional weaponry. So if it's dirty bomb with conventional 
weaponry, we will have some resources and capability to manage 
that piece of it. But as far as for the other levels of 
preparedness, we still have a long way to go.
    Mr. Greenwood. Does this bill help us get there?
    Mr. Plaugher. I think this bill will provide us with more 
focus, which I think is much needed. Coalescing these long-term 
relation ships, I've heard wonderful testimony today about the 
NEST teams and about their ability. I do have a relationship 
with a NEST team in the area, the one out of Andrews Air Force 
Base.
    So there is some capacity and some response capability. 
But, remember, I'm in the 4-minute business. I've got to make 
changes in the first 4 to 10 minutes of that incident scene, so 
I need that equipment and training and capability there 
immediately.
    We just received recently some new radiological monitoring 
from the Commonwealth of Virginia. So, I mean, we are working 
in that direction, but we still have a ways to go.
    Mr. Greenwood. Briefly, Dr. Stringer.
    Mr. Stringer. From a local and State standpoint, we've got 
a long way to go. As far as the NMRTA is concerned, I think 
being under the Homeland Security will allow some 
interopability and get to know the folks better, and I think 
that should help us in any type of response, bringing in 
Federal assets to assist a local government.
    Mr. Greenwood. Dr. Cobb.
    Mr. Cobb. Two quick comments. One, NEST has been focused 
since its inception on prior information, and also focused more 
on the higher-end threat, namely, a stolen or improvised 
nuclear device. That's one point.
    The second point is that while it's recognized that the 
bolt-out-of-the-blue could happen, and we are moving in that 
direction, something called the Triage program, I think 
discussing that capability would be better in a different 
environment.
    Mr. Greenwood. Very well.
    Mr. Nokes?
    Mr. Nokes. Let's see. One answer is the Operation America 
that Sandia conducted in Portsmouth, Virginia last month, where 
we had about 100 first responders, including many from the 
Washington, DC area, teaching them advanced bomb dismantlement 
techniques. So if the device had not exploded, perhaps the 
folks who had that training would have an advantage trying to 
render it safe. If it had already detonated, the effects are 
variable. They go from almost nothing to very tragic. And so it 
depends a lot on what the effects were. But, as Don said, the 
labs have been practicing for the very serious end of that 
experience, a nuclear weapon, and mostly radiation devices are 
within that envelope of practice.
    Mr. Greenwood. Dr. Vantine.
    Mr. Vantine. Mr. Chairman, if an RDD went off in Arlington 
yesterday, we've already failed. I think the new department can 
help in two ways: It can help regulate the materials at the 
source, and it can help detect the materials before this event 
ever happens.
    Mr. Greenwood. Ms. Heinrich, very quickly. Do you think we 
need better coordination between bio, the HHS and this new 
department in order to be prepared for this kind of an event?
    Ms. Heinrich. I think that the proposal for the most part 
is broadly stated, and I think that we have to have 
clarification on, as we have heard here before, the roles and 
responsibilities. It's not always clear what the control 
command relationships are. So, I think we need more 
information.
    Mr. Greenwood. Thank you. The gentleman from Florida, for 5 
minutes.
    Mr. Deutsch. Thank you, Mr. Chairman. And I'm going to just 
ask one question, and yield to my colleague from Colorado just 
not to have to keep you around for about another 45 minutes.
    Chief, you seem quite satisfied with your relationships 
with HHS and FEMA. Except for the possibility of getting more 
money, is there any reason to move these emergency response 
activities into a new department?
    Mr. Plaugher. Well, one of the things that the fire 
services has said repeatedly to Congress is that we need a 
national strategy, we need a national focus. And the coalescing 
of that--and that is all of its subparts--into a single agency 
has tremendous benefit to first responders in the development 
of a national strategy. I'd just ask, as this goes forward, 
that you allow the first responders to have some opportunities 
for dialog and input into that national strategy. I mean, we 
are the folks that are going to be there, we are the folks that 
are going to have to manage the incidents.
    So I think it does have some solid purpose and benefit, 
because we have seen the absence of a national strategy because 
of the splintered approach to date from the Federal agencies.
    Mr. Deutsch. Thank you. I'd yield to Ms. DeGette.
    Ms. DeGette. Thank you very much for yielding.
    Mr. Plaugher, let me just comment on what you are saying, 
because I had a meeting in my district, which is Denver, with 
the local first responders and the representatives of the 
State, and they even have a difficult time figuring out who 
should be giving them directions between the State and the 
local first responders, much less coordination in urban areas 
like my district between all the counties that are involved. 
And I think you are right, there needs to be some kind of 
directions, so long as it's not, you know, just another 
bureaucratic layer. I really appreciate what you are saying.
    I just have a couple quick questions for Mr. Nokes and Drs. 
Cobb and Vantine about the labs. First of all, how will the new 
Department of Homeland Security make the deployment of the 
technologies that the labs are developing easier to deploy in 
the field?
    Mr. Vantine. I think what happens is that when DHS starts 
funding the program and putting it together, they are going to 
work the whole issue of the systems issue. And so when the 
technology goes to field, it's going to be already coordinated 
with local response, regional response, and national response. 
It's going to be an integrative package. It's going to be 
vetted at the national laboratories to make sure that it works. 
It's going to have the best technology. So it will be a package 
that we put out in the field rather than pieces.
    Ms. DeGette. And you think under the current structure of 
the Department of Homeland--or, of what's happening now, it's 
just in pieces? It's not coordinated?
    Mr. Vantine. I think right now we rely on largesse of other 
programs. They do R&D in their areas, we take that and try to 
apply it to this problem, but we don't have the resources to 
put the technology that we really need on the problem.
    Ms. DeGette. So you envision that what this department 
would do, then, would be to take that technology and bring it 
all together?
    Mr. Vantine. Exactly. That's exactly right.
    Ms. DeGette. The other two, any additions?
    Mr. Nokes. I would make one comment, and that is, right 
now, as you well know, no one owns the problem and so everybody 
has a piece of it, and so we have a very tactical fragmented 
approach of applying technology to the issues. And I would hope 
that the new department is able to pull together the 
requirements across the--what are now different agencies and 
put together a coherent program, so you have good security that 
is uniform across the country and that would be the best thing.
    Ms. DeGette. We haven't achieved that yet, have we?
    Mr. Nokes. No.
    Mr. Cobb. Just a quick answer, over the past several months 
we have been working with NNSA anticipating the possibility 
that they'd be the lead Federal agency, or they'd have a major 
role in integrating the technologies. I think much of that is 
being transferred to the new department, that concept. We now 
have a lead Federal agency to develop the R&D, so that focus 
will help.
    Ms. DeGette. Has this coordination that you all think is so 
essential, and so do I, and is that part of a specific proposal 
that you have seen or is that just your hope for what the new 
agency would show?
    Mr. Cobb. There has been discussion, but I don't think it 
is in the framework of a specific proposal. Obviously, the 
legislation is very broad so the details still have to be 
worked.
    Ms. DeGette. Right, and I think that is all of our issues 
here today. And without, you know--without asking you specific 
details of how this would work, do you expect you will be 
consulted on how this coordination can be implemented in a 
plan?
    Mr. Vantine. I guess I would answer that I think we are in 
a negotiation stage right now as to how that is going to work. 
We are trying to talk to Congress and to the different agencies 
in trying to put together the package of how it is going to 
work. As you have issues with it, I think we have issues with 
it too. We don't see the details and I think they will be 
worked out over time.
    Ms. DeGette. That is always true when you're talking about 
a big bureaucracy, the devil is in the details.
    Mr. Nokes. I think, one more comment, as I look at the 
legislation, I see that science and technology is in the 
infrastructure under the Secretary's office, and the other 
Under Secretaries don't appear to have a science or technology 
advocate. So I think you might want to have a chief scientist, 
or somebody at the top that looks down at all of the technology 
requirements and makes resource allocation and priority 
judgments.
    Ms. DeGette. That was very helpful and now we have to go 
vote.
    Mr. Greenwood. The Chair thanks the gentlelady and the 
Chair thanks each of our witnesses for lending your expertise 
to this most vital effort and thank you again. You are excused. 
The Chair would note that we do have series of votes and the 
committee will recess until 1:35 and then we will bring forward 
the fourth panel.
    [Brief recess.]
    Mr. Greenwood. The committee will come to order, and we 
thank our witnesses, and they are Mr. Philip Anderson, Senior 
Fellow at the Center for Strategic and International Studies, 
Dr. Ronald Atlas, President-elect of the American Society for 
Microbiology and Dr. Tara O'Toole, Director of the Center for 
Civilian Biodefense Studies at Johns Hopkins University and 
thank each of you for being with us this morning and for your 
forbearance in waiting for us. You are aware that this is an 
investigative hearing and that when holding an investigative 
hearing, it is the practice of this committee to take testimony 
under oath. Do any of you have objection to giving your 
testimony under oath? The Chair would also then advise you that 
pursuant to the rules of this committee and the House, you are 
entitled to be represented by counsel. Do any of you require or 
ask to be represented by counsel. In that case if each of you 
would stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Greenwood. Thank you. You are under oath, and Mr. 
Anderson we will start with you, and you're recognized for 5 
minutes to give your opening statement.

    TESTIMONY OF PHILIP ANDERSON, SENIOR FELLOW, CENTER FOR 
     STRATEGIC AND INTERNATIONAL STUDIES; RONALD M. ATLAS, 
 PRESIDENT-ELECT, AMERICAN SOCIETY FOR MICROBIOLOGY; AND TARA 
  O'TOOLE, DIRECTOR, CENTER FOR CIVILIAN BIODEFENSE STUDIES, 
                    JOHNS HOPKINS UNIVERSITY

    Mr. Anderson. Good afternoon, Mr. Chairman, and members of 
the committee. It is an honor to be with you today to provide 
my views on vulnerabilities and response capability at the 
Federal, State and local levels for consideration in addressing 
the President's proposal to establish a Department of Homeland 
Security. The slide behind me depicts an area of contamination 
in the District of Columbia resulting from a detonation of a 
radiological dispersion device, an RDD, a dirty bomb, detonated 
on the National Capital Mall area in the area of the Air and 
Space Museum.
    CSIS conducted in-depth research and developed this 
realistic cross-jurisdictional crisis scenario with the purpose 
of helping to frame the planning requirement for the 
Metropolitan Washington Council of Governments, led crisis 
planning effort by identifying some of the key issues and 
friction points that needed to be addressed. The exercise 
portrayed the complexity associated with command control and 
communications between Federal, State and local government and 
the private sector and the general public.
    The exercise participants included mid to upper level 
decisionmakers and regional planners from the District of 
Columbia and other local jurisdictions as well as 
representatives from FEMA and the FBI. The results of this 
research effort and the scenario were also presented to the 
senior leadership of the New York City Police Department. The 
scenario that was employed involved an explosive dispersal 
device laced with radioactive Cesium 137. The scenario included 
expected casualty rates, critical infrastructure damage 
assessments, and effects across critical key infrastructure.
    The addition of a radiological event pushed the recovery 
portion of the scenario well beyond the scope of the exercise, 
but it did generate additional thought with respect to future 
planning. It's important to note that nowhere else in America 
do the people charged with addressing emergency response and 
recovery face a more daunting challenge than in the District of 
Columbia. Nonetheless, the presence of radioactivity was an 
issue that the participants were clearly not prepared to deal 
with. This would seem to indicate that the greater Washington 
region could be prepared for unconventional terrorist attacks 
involving materials that have the potential of contaminating 
large areas.
    In the absence of well-developed plans and given the 
complex multi-layer jurisdictions within the greater Washington 
area, the actions of the Federal, State and local governments 
could combine to reduce the efficiency and effectiveness of 
emergency preparedness and response, particularly for 
unconventional attacks. If you were to ask most Americans to 
describe their greatest terrorism fears, chances are that they 
would suggest cataclysmic scenarios involving weapons of mass 
destruction, nuclear biological or chemical devices.
    These views have been reinforced by the media and by the 
administration's recent spate of gloomy warnings. However, at 
present, there are significant financial and technical 
obstacles to terrorists obtaining and deploying effective 
weapons of mass destruction. There is, however, another 
category of attack that deserves at least equal attention from 
government, the private sector and public alike. Not just the 
high consequence, but very low probability weapons of mass 
destruction-type attacks or attacks on the opposite end of the 
spectrum involving a much higher probability, perhaps, a lone 
shooter or suicide bomber, but yet another category involving 
attacks that fall somewhere in the middle.
    In retrospect, this mid-level space is where September 11 
belonged and it is the space in which future terrorists will 
likely operate. Terrorist attack scenarios in this category 
typically involve unconventional tactics or weapons that 
include dirty bombs like that in the scenario we developed. 
From the terrorist perspective they assume widespread death and 
destruction is an unattainable goal. So they seek long-term 
disruption similar to that realized by the September 11 
attacks.
    Other examples include a well-coordinated attack involving 
multiple near simultaneous suicide bombings nationwide or 
targeting unsecured highly visible, nonnuclear aspects of 
energy infrastructure, very soft targets like oil refineries, 
petroleum or liquid natural gas terminals or perhaps tanker 
trunks. These types of unconventional attacks are achievable 
now and indeed well developed plans along these lines are 
probably already on the shelf.
    Most importantly, although they represent real 
possibilities, their impact in many cases is far more 
psychological than real, real in terms of loss of life and 
injury. Facing up to these threats must not mean giving into 
fear. Even as a Nation develops defensive technologies from 
radiation and chemical and biological sensors to bomb sniffing 
devices, citizens must be equipped with the tools to protect 
themselves psychologically. An intensive program to create 
public awareness can help avert the panic and paralysis attacks 
like these aim to inspire. With the arrest last week of 
Abdullah al Muhajir, Jose Padilla, the would-be dirty bomber, 
the importance of educating our first responders and the public 
in general about the new dangers we face is more apparent than 
ever.
    The response clean-up and recovery effort that would be 
required following a radiological attack for example, 
synchronized decisions at the Federal, State and local levels, 
as well as in the private sector must be fully thought through 
and incorporated in the comprehensive contingency plans. It is 
also important that long-term economic recovery plans be 
developed considering the implications of unconventional attack 
scenarios. The means to develop greater public awareness and 
acceptance of risks should be considered. As such scenarios 
that can be employed in table-top exercises and simulations 
should be designed and incorporated into the development and 
testing of plans to address the possibility of unconventional 
attacks.
    While we would all like to believe that the dirty bomb 
scenario represents a remote possibility, the evidence points 
to the contrary. How real a possibility that a terrible event 
like this could happen remains to be seen, but it is clear that 
adequate preparation for unconventional attack is essential. 
Addressing all the possible terrorist attacks is a daunting 
challenge, but it is important to keep in mind that from a 
terrorist perspective, the challenges are far greater. To kill 
large numbers of Americans and destroy significant portions of 
critical infrastructure is extremely difficult. The terrorist 
must depend on psychological impact to achieve his objectives, 
disrupting the economy, breaking our spirit and reducing our 
confidence in our government.
    By focusing on the most likely threats, increasing 
situational awareness and empowering first responders in the 
public with the knowledge they need, we weaken the terrorist 
arsenal as we strengthen our own.
    Mr. Chairman, over the long term, considering this new and 
very dangerous environment, the President's proposal must be 
acted upon to ensure unity of effort and clear lines of 
authority, responsibility and accountability at every level to 
effectively address the enormous complexity of securing the 
homeland. The road ahead remains fraught with challenges yet to 
be addressed, and we at the Center for Strategic and 
International Studies are ready and willing to help. Organizing 
effectively to ensure the security of American homeland is 
essential to the safety of our country's citizens and to our 
prosperity as a Nation. We appreciate the committee's 
leadership on this issue and we look forward to helping in any 
way we can. Thank you very much.
    [The prepared statement of Philip Anderson follows:]
  Prepared Statement of Philip Anderson, Senior Fellow and Director, 
 Homeland Security Initiative, Center for Strategic and International 
                                Studies
                            i. introduction.
    Good morning Mr. Chairman--Members of the Committee. It's an honor 
to be with you today, to present my views on ``Creating the Department 
of Homeland Security: Consideration of the Administration's Proposal . 
. . focusing on chemical, biological, and radiological response 
activities proposed for transfer to the Department of Homeland 
Security.'' Let me begin by saying that the statement I am about to 
give represents my views and in no way should be taken as the 
institutional view of CSIS. Before beginning though, let me provide you 
with some background on the work we are doing at CSIS.
    CSIS has completed a number of homeland security projects both 
prior to--and since the tragic events of September 11. In January 2001, 
CSIS released a report on the results of an eighteen-month study, 
Homeland Defense: A Strategic Approach. In June 2001, CSIS co-directed 
Dark Winter, a high-level simulation of a smallpox attack originating 
in Oklahoma City. In the immediate aftermath of September 11, CSIS 
convened an internal task force on terrorism, the results of which were 
published in To Prevail: An American Strategy for the Campaign against 
Terrorism. In March 2002, CSIS completed extensive research on the 
impact of a ``dirty bomb'' detonated on the National Capitol Mall. This 
in-depth research led to the development of a crisis-planning scenario 
which served as the basis for the Council of Governments led ``Greater 
Washington Crisis Planning Workshop'' which was held on March 21, 2002. 
The results of this research effort and the scenario were also 
presented to the senior leadership of the New York City Police 
Department on May 1, 2002.
    Currently CSIS is completing a White Paper on the challenges 
associated with the creation of a Department of Homeland Security that 
will provide actionable recommendations for decision makers for 
consideration in this critically important debate. CSIS is also working 
on a simulation exercise, patterned after our Dark Winter effort, to 
focus on the vulnerability of U.S. energy infrastructure. Rather than 
consequence management, this simulation exercise will focus on the less 
understood--and explored--scenarios in which policymakers must decide 
on whether and how to act in the case of a credible threat against 
critical energy infrastructure.
                             ii. overview.
    With the President's proposal to establish a Department of Homeland 
Security, there seems to be a renewed sense of urgency in Washington. 
When considering the number of threats we face from terrorists intent 
on doing us harm, this would certainly seem appropriate. The Nation is 
at war--a war that is occurring in many ways beyond the public's view. 
There can be no greater public recognition of this fact than the 
President's proposal to establish a Department of Homeland Security.
    I was asked to address response capability at the federal, state 
and local levels for consideration in addressing the President's 
proposal. In this new and very dangerous environment, it appears that 
if enacted, the President's proposal would greatly simplify management 
processes and unify the efforts of the 46 federal agencies that, to 
varying degrees, have responsibility for Homeland Security. In 
addition, the President's proposal would seem to represent an effective 
starting point to ensuring the means to effective communication and 
coordination between the federal, state and local governments to ensure 
unity of effort and clear lines of authority, responsibility and most 
importantly, accountability.
                          iii. the challenges.
    CSIS conducted in-depth research and developed a realistic crisis 
scenario to address a plausible--large--cross-jurisdictional crisis in 
Washington, DC. The overall purpose was to help frame the planning 
requirement for the Metropolitan Washington Council of Governments 
(COG) led crisis-planning effort by identifying some of the key issues 
and friction points to be addressed. The exercise portrayed the 
complexity associated with command, control and communications between 
federal, state and local government and the private sector/general 
public. CSIS facilitated discussions focused on how to resolve lines of 
communication, authority, and responsibility in an unconventional 
crisis environment.
    The exercise was designed to present participants with a large-
scale terrorist attack on downtown Washington, D.C. in order to 
facilitate discussion and identify questions to be addressed by a 
coordinated response plan. The exercise participants included mid to 
upper level decision-makers and regional planners from the COG task 
force working groups as well as from the District of Columbia and other 
local governments and from relevant agencies of the federal government 
to include FEMA and the FBI.
    The participant's role was to assimilate the events unfolding and 
operate within their own committee framework to discuss and determine 
the actions/recommendations they would take forward to superiors in 
addressing the regional response to mitigate near term and long-term 
risks. The exercise was not designed to be a decision driven war game 
where actions/decisions were analyzed or critiqued against some ideal 
or textbook solution.
    The comprehensive scenario that was employed involved an explosive 
dispersal device laced with radioactive Cesium 137. The scenario 
included expected casualty rates, critical infrastructure damage 
assessments, and effects across key critical infrastructure. The 
addition of a radiological event pushed the recovery portion of the 
scenario well beyond the scope of the exercise, but did generate 
additional thought with respect to future planning. The scenario was 
presented in three segments with the following questions providing the 
framework for discussion: What are the key decisions that have to be 
made? Who will make those decisions? What additional information do you 
need? Where do you propose to get this information? What are the 
critical interdependencies? Who will be the authoritative voice for the 
public? How will you communicate risk to the public?
    During the first segment, the participants were not made aware of 
the radiation associated with the scenario and appeared to be 
comfortable with near-term response procedures for dealing with a 
conventional explosion and the resulting crisis. Overall, emergency 
response procedures and coordination requirements were familiar at this 
level, due in part to the events of September 11.
    The necessity of having coordinated response procedures in place 
became clearer during the second segment of the scenario that provided 
the participants with the news that the bomb was in fact a ``dirty 
bomb''' that contained Cesium-137. The presence of radioactivity was an 
issue that the participants were clearly not prepared to deal with. 
Issues that the participants felt were critical to address at this 
stage were whether to shelter in place or evacuate the city, the 
requirement for the President to declare Martial Law, the possibility 
that METRO might be forced to shut down due to contamination, the role 
of the media, the presence of radiation, emergency personnel 
augmentation, and protective gear requirements.
    The long-term implications of a radiological attack became 
increasingly clear and overwhelming as the third segment was 
introduced. The scenario presented participants with reports of 
deserted D.C. streets and hotels, workers refusing to return to work, 
and parents refusing to send their children back to schools that had 
conducted field trips to D.C. on the day of the attack. These reports 
were indicative of the deep, long-lasting psychological impact that a 
radiological attack could have. The public has an inherent fear of 
radiation, even though there is almost no danger of dying from exposure 
to this type of isotope--only the potential for long-term health 
implications in the form of increased cancer and cataract rates. The 
participants felt that issues associated with long term economic impact 
and recovery were critical to address in advance of this type of 
attack.
    It is important to note that nowhere else in America do the people 
charged with addressing emergency response and recovery face a more 
daunting challenge than in Washington, D.C. Nonetheless, the presence 
of radioactivity was an issue that the participants were clearly not 
prepared to deal with. This would seem to indicate that the greater 
Washington region could be unprepared for unconventional terrorist 
attacks involving materials that have the potential of contaminating 
large areas. In the absence of well developed plans--and given the 
complex, multi-layered jurisdictions within the greater Washington 
region--the actions of the federal, local and state governments could 
combine to reduce the efficiency and effectiveness of emergency 
preparedness and response, particularly for unconventional attacks.
                      iv. general recommendations.
    At the heart of any effort to establish a Department of Homeland 
Security is the requirement to address the likely threats. However, 
defining likely threats in this new environment is problematic in that 
they will likely derive from multiple sources with different objectives 
and various means to do us harm. Defining the threat is risky but 
absolutely necessary for developing plans to organize and allocate 
resources to address the myriad vulnerabilities that exist.
    Later this summer, the White House Office of Homeland Security has 
said it will unveil a comprehensive national strategy to secure the 
United States from future terrorist attacks. Governor Ridge has 
emphasized that the strategy will be guided by a risk management 
philosophy, ``focusing our resources where they will do the most good 
to achieve maximum protection of lives and property.'' A risk 
management approach is essential--but defining the threat, identifying 
critical vulnerabilities, and developing effective capabilities to 
address them are a daunting challenge.
    With the arrest last week of Abdullah al Muhajir, the would-be 
``dirty bomber,'' the importance of educating our first responders and 
the public in general about the new dangers we face is more apparent 
than ever. If you asked most Americans to describe their greatest 
terrorism fears, chances are they would suggest cataclysmic scenarios 
involving weapons of mass destruction--nuclear, biological, or chemical 
devices. These views have been reinforced by the media and by the 
administration's recent spate of gloomy warnings. However, there are 
significant financial and technical obstacles to obtaining and 
deploying effective weapons of mass destruction (WMD). But since the 
consequences of a successful terrorist attack using such weapons would 
be devastating the government is correct to focus significant resources 
toward preventing these gruesome possibilities. There is, however, 
another category of attack that deserves at least equal attention from 
government, the private sector and the public alike: not just high 
consequence but very low probability WMD attacks or the less severe 
consequence but much higher probability suicide bomber attacks, but 
those attacks that fall in the middle. In retrospect, this mid-level 
space is where September 11 belonged, and it is the space in which 
future terrorists will likely operate.
    Terrorist attack scenarios in this category are typically 
unconventional and include ``dirty bombs'' like the one described 
herein which employed conventional explosives laced with radioactive 
Cesium-137--which can easily be found in industry, hospitals and 
medical labs. Or terrorists could develop a well-coordinated attack 
involving multiple near-simultaneous suicide bombings nationwide. They 
could also target unsecured, highly visible, non-nuclear aspects of 
energy infrastructure--``soft'' targets like oil refineries, petroleum 
or liquid natural gas terminals. These types of unconventional attacks 
are achievable now; indeed well developed plans along these lines are 
probably already on the shelf. But although they represent real 
possibilities, their impact in many cases is far more psychological 
than real--in terms of injury and loss of life. Facing up to these 
threats must not mean giving in to fear. Even as the nation develops 
defensive technologies--from radiation and chemical and biological 
sensors to bomb sniffing devices, citizens must be equipped with the 
tools to protect themselves psychologically. An intensive program to 
create public awareness can help avert the panic and paralysis attacks 
like these aim to inspire.
    The response, clean up, and recovery effort that would be required 
following a radiological attack for example--that synchronize decisions 
at the federal, state, and local levels as well as in the private 
sector--must be fully thought through and incorporated into 
comprehensive contingency plans. It is also important that long-term 
economic recovery plans be developed considering the implications of 
unconventional attack scenarios. The means to develop greater public 
awareness and acceptance of risks should be considered. As such, 
scenarios that can be employed in tabletop exercises and simulations 
should be designed and incorporated into the development and testing of 
plans to address the possibility of unconventional attacks. While we 
would all like to believe that the scenario described herein represents 
a remote possibility, the evidence points to the contrary. How real the 
possibility that a terrible event like this could happen remains to be 
seen but it is clear that adequate preparation for unconventional 
attack is essential.
    Addressing all the possible terrorist attack scenarios is a 
daunting challenge, but it is important to keep in mind that from the 
terrorist perspective, the challenges are far greater. To kill large 
numbers of Americans and destroy significant portions of critical 
infrastructure is extremely difficult. The terrorist must depend on 
psychological impact to achieve his objectives--disrupting the economy, 
breaking our spirit, and reducing our confidence in our government. By 
focusing on the most likely threats, increasing situational awareness 
and empowering first responders and the public with the knowledge they 
need, we weaken the terrorist arsenal as we strengthen our own.
                             v. conclusion
    Mr. Chairman, over the long term, considering this new and very 
dangerous environment, the President's proposal must be acted upon to 
ensure unity of effort and clear lines of authority, responsibility and 
most importantly, accountability at every level to effectively address 
the enormous complexity of securing the homeland.
    Mr. Chairman, the road ahead remains fraught with challenges yet to 
be addressed. The Center for Strategic and International Studies is 
ready and willing to help. Organizing effectively to secure the 
American Homeland is essential to the safety of our country's citizens 
and to our prosperity as a nation. We appreciate the Committee's 
leadership on this issue, and we look forward to helping in any way we 
can.

    Mr. Greenwood. Thank you, Mr. Anderson.
    Dr. Atlas for 5 minutes. You need to push the button on 
your microphone, sir.

                  TESTIMONY OF RONALD M. ATLAS

    Mr. Atlas. Chairman Greenwood, members of the subcommittee, 
we would like to thank you for inviting the American Society 
for Microbiology to testify on issues related to the 
administration's proposal to create the Department of Homeland 
Security. The ASM has submitted a written statement which I 
will briefly summarize. The ASM, which has particular expertise 
in biomedical research and public health protection, supports 
the establishment of a Department of Homeland Security that 
would have oversight, coordination and leadership functions for 
biodefense activities. We agree that the Department of Homeland 
Security should be established to serve the important function 
of integrating threat analysis and vulnerability assessments 
and to identify strategic priorities for preventative and 
protective steps that can be taken by other Federal agencies.
    We believe that the Department of Homeland Security would 
be able to work with the Department of Health and Human 
Services and the National Institute of Allergy and Infectious 
Diseases to pursue highly managed rapid paced and even 
classified research and development projects, which are needed 
to defend against the threat of biological weapons. ASM thinks 
that having a strong science and technology component within 
the Department of Homeland Security is essential and would help 
provide critical linkage among the numerous mission agencies 
charged with science development.
    By having a strong science component, the Department of 
Homeland Security would be able to play a vital role in 
coordinating, reviewing and evaluating scientific and technical 
programs relating to human animal and plant life. We need to 
recognize, however, that biodefense research is part of the 
continuum of the breadth of biomedical research aimed at 
protecting the Nation aimed at infectious diseases. This field 
is different than many other areas because of its duality and 
the high degree of overlap with the public health and 
biomedical research activities of the Nation.
    We do not want to create a duplicative system. Rather, we 
want a seamless, integrated and highly coordinated biodefense 
response system. Therefore, ASM believes that it is critical 
that a scientific health organization, namely HHS, continue to 
prioritize and conduct Federal research relating to civilian 
human-related, biological, biomedical and infectious diseases. 
We feel it is important to distinguish between policy and 
planning guidance, which would be well served by the Department 
of Homeland Security and the responsibility and/or authority 
for the direction, control and conduct of scientific research, 
which should remain within HHS.
    HHS and the National Institutes of Health are best 
qualified to establish biomedical research and development 
programs and to prioritize scientific opportunities and 
research. The National Institute of Allergy and Infectious 
Diseases bring to bear all aspects of biomedical research and 
full capability of science to achieve scientific advances and 
biodefense. The ability to build on the body of scientific 
knowledge underpins the capability of the United States to 
combat bioterrorism.
    Because it is difficult to distinguish an introduced 
infectious disease from a naturally occurring one, the 
strategies to protect against either event in terms of new 
scientific and technical approaches are the same. Since 9/11, 
National Institute of Allergy and Infectious Diseases has 
rapidly accelerated work to protect the Nation against the 
threat of bioterrorism. This acceleration has occurred across 
the spectrum of scientific activities from basic research in 
microbial biology to the development of vaccines and 
therapeutics to research related to diagnostic system.
    We fear that the proposal to transfer responsibility for 
biodefense research to the Department of Homeland Security 
could create unpredictability and loss of momentum for these 
research programs, would very likely divert money from research 
and would not be the optimum way to obtain the integrated work 
of the best scientific minds. It is clearly not the aim of the 
administration's proposal. We, therefore, feel that the HHS, in 
consultation and coordination with the Department of Homeland 
Security, should retain primary responsibility for accelerated 
biodefense research and development programs.
    ASM also would leave primary responsibility for planning 
for such emergencies for the Centers of Disease Control and 
prevention. We do not want to create a separate public health 
system for biodefense. A public health emergency arising from 
biological causes public health authorities must determine the 
nature of the organism, distinguish between a bioterrorism 
attack and a natural event, and respond rapidly to the health 
threat.
    Regarding the select agent registration program, the 
administration bill would transfer this and the enforcement 
programs of HHS to the new department. HHS currently has the 
scientific and institutional knowledge and expertise relating 
to dangerous biological agents, biosafety and biosecurity to 
administer the program, and ASM continues to believe that the 
CDC should be responsible for the select agent registration 
program, which is key to the development of the Nation's 
biodefense capability.
    Further, the administration bill does not appear to 
transfer the select agent registration and enforcement programs 
newly assigned to the Department of Agriculture. ASM believes 
that coordination and the registration programs for agriculture 
and human agents is critical as was recognized in H.R. 3448. 
The proper administration of the select agent program must 
balance public concern for safety with the need to not unduly 
encumber legitimate research and diagnostic testing. We need an 
integrated program that adds protection against misuse of 
microbial resources.
    Therefore, ASM is recommending that an interagency group 
with the involvement of scientific societies address the 
advisability of removing the select agent program from HHS 
authority. Finally, ASM's full testimony touches upon a number 
of other specific issues. These issues include management and 
oversight of the National Pharmaceutical stockpile and response 
to infectious disease outbreaks, be they natural or intentional 
and provisions relating to research programs and activities of 
the USDA and DOE.
    Each of these specific areas merits careful review by this 
committee. In closing, I want to reaffirm ASM's commitment to 
working with the administration and the Congress to achieve the 
most effective and most efficient system in the world for 
research control and response to the threat posed by biological 
agents.
    [The prepared statement of Ronald M. Atlas follows:]
   Prepared Statement of Ronald M. Atlas, President Elect, American 
                        Society for Microbiology
                              introduction
    The American Society for Microbiology (ASM) is pleased to testify 
before the House Energy and Commerce Subcommittee on Oversight and 
Investigations hearing on creating the Department of Homeland Security: 
Consideration of the Administration's Proposal with a focus on 
chemical, biological and radiological response activities proposed for 
transfer to the Department of Homeland Security (DHS). The ASM is the 
largest life science society with over 40,000 members and its principal 
goal is the study and advancement of scientific knowledge of 
microbiology for the benefit of human welfare.
    The ASM has worked with the Administration, the Congress and 
federal agencies on measures to protect against biological weapons and 
bioterrorism. Most recently, ASM provided expert advice on provisions 
to expand the Biological Weapons Statute in the USA Patriot Act and on 
Title II of the Public Health Security and Bioterrorism Preparedness 
and Response Act of 2002, which expands controls on certain dangerous 
biological agents and toxins. ASM members are involved in research and 
public health initiatives aimed at eradicating the scourge of 
infectious diseases, which daily end the lives of thousands of 
Americans and tens of thousands around the world. Infectious diseases 
remain the major cause of death in the world for those under the age of 
45 and particularly for children. They are the third leading cause of 
death in the United States.
    The ASM considers it critical that the proposed DHS build upon 
existing science and technology programs that hold promise in the 
defense against bioterrorism and in the effort against deadly 
infectious diseases. We would like to focus our comments on issues that 
Congress should consider on how best to achieve this goal.
            the role of the department of homeland security
1. Role of science and technology in Homeland Security is Critical
    The terrorist events of September 11 and the anthrax biocrimes 
reveal the need and complexity of homeland defense. The ASM, therefore, 
supports oversight, coordination and leadership for biodefense 
activities in a Department of Homeland Security (DHS). Given that 
science and technology will play a vital role in the biodefense of the 
nation, the ASM believes it is essential to establish a strong science 
and technology function in the DHS. This science component will provide 
the necessary linkage between the Secretary of Homeland Security and 
the numerous mission agencies charged with science and technology 
development.
2. The Department of Homeland Security has an important role to play in 
        defending the nation against biological threats.
    The DHS will have an important role in developing the nation's 
defenses against, and responses to, biological threats. The role of DHS 
should be to integrate threat analysis and vulnerability assessments 
and to identify priorities for preventive and protective steps to be 
taken by other federal agencies to protect the American public. The DHS 
can coordinate, review, and evaluate scientific and technical programs 
related to human, animal, and plant life. The DHS will be a proper 
governmental vehicle to coordinate and to integrate the expanded roles 
of mission agencies in bioterrorism related research. The important 
role of the United States Army Medical Research Institute for 
Infectious Diseases (USAMRIID) should be recognized and strengthened 
and it should interface with the proposed DHS.
    It will be important to define the boundaries between DHS and the 
mission agency with major responsibility for protecting the nation's 
health, HHS. An appropriate coordination office or position should be 
established within DHS. One approach, for example, would be for DHS to 
establish a position or appoint a person with the appropriate 
scientific background who would report to both the DHS Secretary and 
the HHS Secretary. That person would also work with the National 
Institutes of Health (NIH) and National Institute of Allergies and 
Infectious Diseases to ensure integration of threat and vulnerability 
analysis about bioterrorism. The goal, of course, would be mutually 
agreed upon research priorities that address threatening biological 
agents.
    Other mechanisms and/or functions may be needed for HHS and DHS to 
serve the vital role of coordinating the pursuit of an integrated 
research and development agenda for counter-terrorism, including highly 
directed, high risk, fast-paced, classified projects, and to manage 
between research results and applications to develop and evaluate 
specific technologies and for procurement. For example, NIH/NIAID has 
already accelerated basic and clinical research related to bioterrorism 
to focus on ``Category A'' agents considered by CDC to pose the highest 
threat. Last fall, the NIAID conducted a study to show that existing 
stocks of smallpox vaccine could be diluted at least 5-fold to provide 
immediate protection in case of a smallpox attack. NIAID also 
accelerated screening of antiviral compounds for activity against 
smallpox and related viruses and accelerated development of a ``new 
generation'' bioengineered anthrax vaccine and a promising Ebola virus 
vaccine. It has launched seven new fiscal year 2002 initiatives to 
expedite biodefense research.
3. ASM recommends that HHS continue to be responsible for the 
        prioritization, direction, and conduct of federal research 
        efforts related to civilian, human, health-related biological, 
        biomedical, and infectious diseases.
    Pathogenic microbes pose a threat to national security whether they 
occur naturally or are released in a bioterrorism attack. Biodefense 
research is part of the continuum of biomedical research aimed at 
protecting the nation and the world against infectious diseases. The 
capability to develop countermeasures and interventions is directly 
related to information generated by biomedical research on pathogenic 
microbes and the host response to these microbes. Therefore, it is 
critical that federal research efforts related to civilian human 
health-related biological, biomedical, and infectious diseases should 
be prioritized and conducted by, and at the direction of, the 
Department of Health and Human Services (HHS).
    It is important to distinguish between oversight functions such as 
policy and planning guidance and coordination, which would be served by 
the DHS and the responsibility and authority for the direction, control 
and conduct of scientific research. ASM recommends that HHS, a public 
health and biomedical research agency of unparalleled success, should 
continue to be responsible for the conduct and direction of scientific 
research.
    The Administration's Bill recognizes the necessity that HHS conduct 
the research and development programs related to infectious diseases. 
Section 303(a)(1) of the Bill provides that the Secretary of DHS shall 
carry out responsibilities related to civilian human health-related 
biological, biomedical, and infectious diseases through HHS and the 
Public Health Service ``under agreements with the Secretary of Health 
and Human Services, and may transfer funds to him in connection with 
such agreements.'' Section 301(2) of the Administration's Bill, 
however, gives DHS primary authority and responsibility for the conduct 
of national scientific research including ``directing, funding, and 
conducting research and development'' related to biological threats. 
Additionally, at Section 303(a)(2), the Bill provides that DHS, in 
consultation with HHS, ``shall have authority to establish the research 
and development program, including the setting of priorities.'' The ASM 
believes that the proposed restructuring of program authorities in the 
Administration's bill will create unpredictability for research 
programs, will divert monies from research and will not be the best 
approach to achieving the goal of civilian biodefense, which requires 
the involvement of the best scientific minds and the support of 
excellent science based on merit review.
    The HHS, the federal agency with the major mission for protecting 
the public health, is best qualified to establish biomedical research 
and development programs, identify scientific opportunities and the 
research approaches for ensuring that biodefense needs are met in the 
best way possible. The National Institute of Allergy and Infectious 
Diseases (NIAID) is best able to bring together all aspects of 
biomedical research and the full capability of science to ensure 
breakthroughs and advances of high quality for biodefense. The ability 
to build on the body of scientific knowledge underpins the capability 
of the United States to combat bioterrorism. For example, the national 
response mounted by NIH/NIAID to AIDS demonstrates the capability of 
science to respond to a threat. The response was based on years of 
accumulated scientific knowledge and biomedical research that had been 
well supported by Congress. The response to bioterrorism will require 
the same long-term dedication of financial resources and scientific 
talent.
    The NIAID, working with the DHS, has the knowledge about scientific 
capabilities to respond to threats and vulnerabilities related to the 
biological sciences. It can identify the science and infrastructure 
relevant to the most pressing issues and take advantage of the most 
highly leveraged opportunities for research that can contribute to 
counter-terrorism solutions. Because it is difficult to distinguish an 
introduced infectious disease from a naturally occurring one, the 
strategies to protect against either event in terms of new scientific 
and technical approaches, including surveillance, prevention and 
response, are the same. There will be dual benefits for public health 
in that investment in research to develop new therapeutics, vaccines, 
antivirals, genomics, diagnostics, sensitive detection devices and 
innovative surveillance approaches for biological agents will carry 
over to public health breakthroughs for all infectious diseases.
    The nation has already seen the ability of HHS to respond to 
bioterrorism. In the months since September 11, 2001, the NIAID has 
rapidly accelerated work to protect the nation against the threat of 
bioterrorism. This acceleration has occurred across the spectrum of 
scientific activities from basic research in microbial biology to the 
development of vaccines and therapeutics to research related to 
diagnostic systems. It is critical that this work continue to develop 
rapidly and efficiently without delay, disruption or loss of momentum.
    A scientific health agency, HHS, rather than the nonscientific, 
nonpublic health DHS should have the principal authority for developing 
and prioritizing scientific and health related programs. Essentially, 
therefore, the ASM suggests reversing the responsibilities identified 
in Section 303(a)(2) of the Administration's Bill. HHS, in consultation 
and coordination with DHS, should retain responsibility for accelerated 
research and development programs, including prioritizing such projects
                the public health system for biodefense
    The ASM is also concerned that the nation not create a separate 
public health system for biodefense. Therefore, the ASM would leave 
primary responsibility for planning for public health emergencies 
arising from biological causes with the HHS and Center for Disease 
Control. At the earliest possible moment after the outbreak of a 
contagion, it is critical to determine the nature of the organism and 
to distinguish between a bioterrorism attack and a natural event. Then, 
public authorities must respond rapidly and appropriately to the health 
threat that either one would present. The ASM believes CDC should be 
charged with these tasks.
    Section 505(a)(2) of the Administration's Bill requires DHS to 
carry out these functions under agreement with HHS. Again, the ASM 
believes the important and appropriate role for DHS is to coordinate 
planning and development of programs and to lend technical assistance 
to the responsible agency. It is entirely appropriate for HHS to 
coordinate and consult with DHS. As with the direction and control of 
research, however, the primary duty and authority should remain with 
the scientific agency with the existing knowledge, experience, and 
expertise to fulfill the critical mission. A scientific person within 
the DHS with the appropriate public health background and reporting to 
both the DHS Secretary and HHS Secretary could work closely with the 
CDC Director to achieve mutually agreed upon public health priorities 
for bioterrorism preparedness and response.
  administration and enforcement of the program for registration for 
                  possession and use of select agents
    Agriculture, the food supply, and the environment are potential 
targets of bioterrorism along with humans. It is important, therefore, 
to integrate and coordinate programs related to human, animal, and 
plant agents. Section 302(a) of the Administration Bill transfers to 
DHS the select agent registration and enforcement programs of HHS. 
However, it does not transfer the select agent registration and 
enforcement programs of the Department of Agriculture to the DHS. 
Subtitle C of the Public Health Security and Bioterrorism Preparedness 
Act of 2002 mandated coordination of activities of HHS and the 
Secretary of Agriculture regarding ``overlap agents''--that is, agents 
that appear on the separate lists prepared by HHS and Agriculture. 
Without doubt, such coordination must occur. Bioterrorism research and 
surveillance extends and applies to infectious disease and select agent 
research. The ASM believes that integration of the select agent 
registration program inevitably will assist in the creation of an 
efficient registration process thereby expediting registration.
    The proper administration of the select agent program is key to the 
development of the nation's biodefense capability and response and must 
balance the concerns for public safety with the need to not unduly 
encumber legitimate scientific research and laboratory diagnostic 
testing. The ASM continues to believe that HHS has the scientific and 
institutional knowledge and expertise related to dangerous biological 
agents, biosafety, and biosecurity in microbiological and biomedical 
laboratories and that it is best qualified to achieve the goal of 
protecting the public health and safety without interfering with 
research, and clinical and diagnostic laboratory medicine. Transferring 
this program to DHS raises many questions with regard to the 
administration of this program which must be carefully considered by 
Congress, which recently enacted new legislation and additional 
requirements for select agents. The ASM, therefore, requests that a 
review be done by an interagency group with the involvement of 
scientific societies to assess the advisability of removing the select 
agent program from HHS authority.
 each transfer of a scienific fundtion should be specifically reviewed
    Some additional specific measures in the Administration Bill 
require further consideration and comment by the ASM. The ASM continues 
to study the Administration Bill to evaluate the best approach to 
achieving expedited research that advances the defense against 
bioterrorism but does not dilute the continuing, critical battle 
against naturally occurring infectious diseases. The ASM suggests 
expeditious review of the appropriateness of each transfer of a 
facility or responsibility related to biological organisms from an 
existing agency. Similarly, the proposed transfers within the USDA 
should be carefully reviewed, in particular the justification should be 
considered for transferring Plum Island which addresses animal diseases 
but not incorporating the equivalent functional unit that addresses 
plant diseases.
    For example, as noted above, the defense against bioterrorism must 
be fully integrated into the nation's public health system that is led 
by the Centers for Disease Control and Prevention. Currently, CDC would 
use the national pharmaceutical stockpile in response to infectious 
disease outbreaks--both natural and intentional. Sections 501(3)(B) and 
502(6) would transfer the Strategic National Stockpile to DHS. Such 
transfer should be reviewed carefully during further consideration of 
the Bill. HHS should be responsible for developing the materials in the 
stockpile. Therefore, it seems appropriate for HHS to continue 
management of the stockpile. The ASM, however, understands the 
coordination and oversight function envisioned for DHS, and the final 
resolution of the management of the stockpile ultimately must depend 
upon the resolution of the scope and role of DHS responsibilities and 
activities. At this time, we also recommend that there be an external 
review of the CDC to ensure optimal preparedness for public health 
emergences and bioterrorism and to ensure appropriate integration with 
existing programs.
                               conclusion
    We appreciate the opportunity to present this testimony. The ASM is 
committed to working with Congress and the Administration to achieve 
the most efficient and effective system in the world for research, 
control, and response to the threat posed by biological agents.

    Mr. Greenwood. Thank you, Dr. Atlas.
    Dr. O'Toole for 5 minutes.

                    TESTIMONY OF TARA O'TOOLE

    Ms. O'Toole. Thank you, Mr. Chairman. I am a physician and 
a public health professional by training, so I am going to 
restrict my remarks to those aspects of the proposed new agency 
related to bioterrorism activities. First, I would like to say 
that I support the President's call for a new agency dedicated 
to homeland security. We are also extremely admiring of the 
President's and the administration's initiatives on 
bioterrorism, particularly over the past year. I think that the 
R&D initiative situated in NIH as well as the funds now going 
to State and local health departments for public health 
preparedness reflect the President's recognition of the 
importance of the bioterrorism threat as well as the unique 
nature of this threat and the necessary response.
    That said, however, I think the proposed reorganization as 
it pertains to bioterrorism functions raises several serious 
issues, and I would like to suggest some of them to you today. 
As I look at the proposed new agency, it appears to be a tiny 
island of bioscience, public health and medical functions 
around bioterrorism concerns within a very large ocean of more 
traditional national security and law enforcement functions. 
This worries me.
    First of all, my understanding is that the rationale for 
consolidating many of these other border security type 
functions into a single agency is to improve coordination, 
cooperation and collaboration amongst similar functions and to 
get them all under one roof. In the case of bioterrorism 
programs, however, we would not be consolidating public health 
and bioscience research functions, we would be splitting them 
out to a new agency. This raises the specter of either, as Dr. 
Atlas suggested, having to create redundant parallel programs 
in homeland security in order to have enough leadership to 
figure out what to do in these areas and do it properly, or 
leaving one of the other agencies, either HHS or homeland 
security with insufficient robustness and expertise to carry 
out these important and difficult tasks.
    The second problem that is raised by the proposed 
reorganization is the question of talent. The Hart-Rudman 
report talked quite eloquently about the crisis of competence 
that the Federal Government is facing, and it noted that in 
particular, we have failed to attract people with science and 
technology backgrounds into the Federal service. This is a 
problem we should confront now. Whoever belongs to this new 
agency, I think the Congress would do the country a great 
service if you could figure out ways to attracting young 
people, particularly with scientific backgrounds into Federal 
service.
    I don't see that in the new bill as of yet. I would like to 
list five things that I think are essential elements of any 
department, whatever we name it, or whatever it is that has to 
lead the Nation's biodefense and biopreparedness efforts. First 
of all, as I said, they must have adequate expertise and 
personnel. I believe the crisis of competence is already 
afflicting the Federal agencies. And whether or not 
bioterrorism programs move to homeland security, we must, we 
must hire many new, I would say, at least 100 professionals to 
deal with bioterrorism programs in CDC, HHS or homeland 
security. This is for the medical and public health parts of 
bioterrorism.
    Second, one of the critical aspects of success in 
bioterrorism prevention and preparedness is liaison with local 
authorities. The core of bioterrorism response is going to 
reside in hospitals, in clinics and in State health agencies. 
The Federal Government has to enable those entities to work 
properly. I am concerned that the programs already underway, 
particularly the public health preparedness programs initiated 
by the administration in February, are going to be disrupted 
with this move or even the threat of this move. These programs 
are getting started. The money is on the ground in the States.
    Whatever we do, however we do it, we should ensure that 
that progress is not thwarted. We will also, if we create a 
homeland security agency as the home for bioterrorism 
preparedness programs, be creating a two-stop shopping problem 
for local authorities. They will go to CDC for traditional 
infectious disease help and guidance. They will go to homeland 
security, should we move the bioterrorism programs there. I 
understand we are going to try to have tight coordination 
between those agencies, but again, we seem to be splitting 
rather than consolidating functions. That could be a real 
problem for local agencies which have limited resources to 
interact with the Federal Government.
    Third, I am worried about sustained support. However we 
configure bioterrorism programs, we are going to have to put 
resources into these programs for many years to come. If we 
move bioterrorism preparedness programs into homeland security, 
we may lose the opportunity to build dual use programs, that is 
bioterrorism response capabilities and systems that serve 
routine organizational purposes in the medical and public 
health field. That is not necessarily the case, but again, 
moving it to a new agency threatens to create parallel systems 
rather than one integrated system.
    Fourth, we have to have a robust biodefense research and 
development program. The President recognized this by granting 
NIH the greatest budget increase in history in the past year. 
We ought not to build this program from scratch, but we are 
starting from very far back in the field. NIH does not now do 
production and development of technologies. No one in the 
government does it well. However we go forward with biodefense 
R&D, we must engage the universities and the private sector in 
this enterprise. That is where the real talent in bioscience 
research lies in this country, not in the government.
    The government, aside from NIH, actually has very few 
bioscientists who are expert in R&D. So the new agency, whoever 
it is, has got to be able to engage industry and the university 
researchers and biodefense R&D.
    Finally, I think that it is critically important that 
bioterrorism and biodefense be seen as a top national security 
priority. Coming from the Hopkins Center for Biodefense 
Strategies, I am, as you might imagine, deeply worried about 
this threat. I believe that this threat will grow considerably 
in the next few years because the power and the diversity of 
biological weapons is linked to advances in the life sciences 
and these advances which will have great booms for human kind 
are moving very, very quickly. That said, should we decide to 
leave bioterrorism preparedness programs in HHS, we must make 
sure that those programs don't get left behind and left out of 
the national security policies planning and strategies. It has 
taken several years to get national security experts to 
recognize that it is essential to have public health and 
medical people at the table making decisions about these 
issues, and we should not lose that progress in the new move to 
the new agency should we decide to go in that direction. Thank 
you, Mr. Chairman.
    [The prepared statement of Tara O'Toole follows:]
   Prepared Statement of Tara O'Toole, Director, Center for Civilian 
            Biodefense Strategies, Johns Hopkins University
    Mr. Chairman, my name is Tara O'Toole. I am a physician and public 
health professional by training, the Director of the Johns Hopkins 
Center for Civilian Biodefense Strategies, and a faculty member of the 
Bloomberg School of Public Health. From 1993-97 I served as Assistant 
Secretary of Energy for Environment Safety and Health, and prior to 
that was a senior analyst at the Congressional Office of Technology 
Assessment. It is a privilege to come before you today to discuss the 
implications of President Bush's proposed bill to create a Department 
of Homeland Security. I shall confine my remarks to those aspects of 
the bill which deal with bioterrorism preparedness and biodefense 
activities.
    I strongly support the formation of a federal department of 
Homeland Security as outlined by the U.S. National Commission on 
National Security in the 21st Century (the ``Hart-Rudman report''). It 
makes great sense, as President Bush has advocated, to consolidate some 
of the many departments and agencies that share similar functions 
pertaining to border security, customs procedures, etc. in order to 
achieve greater collaborative power, efficiency and accountability.
    There are some potential advantages to be gained from placing 
bioterrorism preparedness and biodefense research and development 
activities in a new federal agency. The activities dealing with the 
biodefense mission are profoundly important to the nation's security 
and deserve the attention and support the new agency is likely to 
command in the coming years. If biodefense activities do not reside in 
the Homeland Defense Department, there is some peril that these crucial 
functions will be neglected. It is also important that the operational 
public health and medical biodefense functions are integrated with 
national security objectives and that biodefense experts be full 
participants in national security policymaking and strategic planning.
    I do, however, have serious concerns about the implications of 
moving bioterrorism preparedness programs and biodefense activities 
into the new agency, at least in the form presently envisioned.
    A bioterrorist attack would be unlike any other type of terrorist 
assault. This would not be a ``lights and sirens'' event with 
firefighters, police and emergency rescue teams rushing to the scene of 
attack. We will know we have been attacked with a biological weapon 
when victims become ill and report to doctors' offices and emergency 
rooms. The ``first responders'' to bioterrorism will be physicians and 
public health professionals from state and local health agencies. The 
center of action will be hospitals, clinics and laboratories. 
Bioterrorism response activities--which will involve actions needed to 
treat the sick and perhaps stem the spread of contagious disease--are 
quite different from the emergency response to other types of 
catastrophic terrorism or to natural disasters.
    Allowing for the inevitable transition period of confusion and 
adjustment, it is likely that the new agency will be more successful in 
instilling work habits of cooperation and collaboration to the extent 
that the agency's mission is coherent and tightly interconnected. It is 
not clear to me how or whether simply combining highly diverse 
functions from dozens of existing agencies under a single department 
results in better coordination or operational accountability. The 
description of the new department seems to envision an agency that is 
largely dedicated to security functions--border protection and control, 
vulnerability assessments of critical infrastructures, etc. The 
bioterrorism related programs and the scientific research and 
development aspects of the proposed department seem strikingly 
different from everything else the agency would handle.
    President Bush exercised admirable leadership this winter when he 
greatly increased funding for bioterrorism preparedness programs in 
Centers for Disease Control and Prevention (CDC) and initiated a 
significant investment in bioterrorism research and development to be 
administered through the National Institutes of Health (NIH). The 
anthrax attacks of 2001 revealed that considerable improvement is 
needed in the nation's ability to respond to such attacks. In the past 
six months, notable progress has been made by the DHHS Office of Public 
Health Preparedness (OPHP). The OPHP has set sound goals for upgrading 
local medical and public health response capabilities, and the 
``critical benchmarks'' it has demanded state health authorities 
achieve will provide clear indications of progress. We should consider 
disassembling and transferring this successful effort to the new 
department only after careful deliberation of what might be lost in the 
process. A recent poll reports that most Americans would seek and trust 
the advice of CDC during a public health emergency. It is unclear if 
such public confidence would transfer to the new department.
    Part of the rationale behind the formation of a Homeland Security 
agency, as I understand it, is to combine similar functions--such as 
border control, customs services and immigration policy, etc.--within a 
single department, thereby enhancing program focus, fostering 
cooperation and collaboration and improving operational effectiveness. 
Yet moving bioterrorism programs from the Department of Health and 
Human Services (DHHS) to the proposed new agency will likely impede all 
these goals. Instead of consolidating similar programs, the proposed 
agency would split bioterrorism preparedness programs from the related 
but more encompassing mission of public health protection which is 
DHHS' main objective.
    Rather than producing organizational coherence the proposed move 
would require that parallel capacities be created in both DHHS and the 
new agency. Homeland Security could not hope to lead the development of 
an effective bioterrorism response capability unless it were staffed 
with health officials and scientists having considerable expertise and 
experience in infectious disease, epidemic control, laboratory 
diagnosis, etc. Again, the country would be forced to create parallel 
workforces: one in Homeland Security for bioterrorism preparedness and 
another in DHHS for ``normal'' public health functions.
    Moving bioterrorism programs to Homeland Security would disturb the 
existing relationships between DHHS bioterrorism programs and the state 
and local public health departments and health care facilities which 
are the central core of bioterrorism response. This is an especially 
important consideration right now, when the federal grants to state 
health departments are just hitting the streets and programs to upgrade 
response capacities at the city, county and state level are getting 
started. Changing the federal partner for these path-breaking grants 
will almost inevitably slow progress in this critical arena.
    Moving bioterrorism preparedness and response activities out of 
DHHS may also sacrifice opportunities to construct dual use programs. 
Ideally, one would design bioterrorism response systems that also serve 
routine organizational purposes. There is a real danger that by 
sequestering bioterrorism programs in Homeland Security, they will be 
treated as ``emergency use only'' functions or seen as such, reducing 
the efficiency of preparedness efforts, and quite possibly compromise 
response effectiveness.
    Bioterrorism is, arguably, the type of terrorism with which the 
country is least familiar and for which the United States is least well 
prepared. A bioterrorist attack could be calamitous, killing many 
thousands of people in the initial assault. The consequences would be 
sustained and the crisis could continue for weeks or months, especially 
if the weapon used were a contagious disease. The economic and social 
disruption would be significant--as was seen in the aftermath of the 
2001 anthrax attacks when only 22 people were infected with a disease 
treatable with antibiotics. According to the Defense Science Board, we 
currently have countermeasures of some effectiveness (vaccines, drugs) 
for only 13 of the 50 pathogens most likely to be used as bioweapons. 
In addition, the institutions and infrastructures which would be at the 
core of bioterrorism response--health care organizations and the public 
health system--are financially frail, highly stressed, and have almost 
no capacity to contend with a sudden surge in demand for care.
    These factors make it imperative that we make significant headway 
quickly in our capacity to manage bioterrorist threats. If one looks at 
the description of the proposed department, bioterrorism-related 
activities appear to be a tiny island of bioscience, medical and public 
health functions within a gigantic ocean of security and border control 
operations. I am skeptical that such an odd coupling can be made to 
work, particularly in the short term when there is such need for rapid 
progress.
    I am especially worried about the fate of science and technology 
within the proposed department. Although there is clearly value in 
linking national security needs to research and development priorities, 
it is a very tall order to ask a single agency to develop national 
security strategy and implement operations on the scale envisioned for 
Homeland Security AND create a sophisticated scientific research and 
development capability over a broad range of disciplines and 
technologies.
    Furthermore, we should have no illusions that creating a viable 
biodefense R&D capability is merely a matter of transferring or 
consolidating existing capabilities and programs. Regardless of how 
biodefense R&D programs are structured, the US government will have to 
build its capacity in these areas far beyond our present state. This 
nation has tremendous talent in bioscience and biotechnology--but the 
majority of talent lives in universities and the private sector, not in 
government. Any successful biodefense strategy must find ways to engage 
top scientists and young scientists in these sectors. Creating a robust 
biodefense R&D capability should be a top national security priority 
however we eventually design the architecture of biosecurity functions.
    Bioterrorism must be considered a special category of terrorist 
threat. The potential power of bioweapons is easy to lose sight of in 
the aftermath of the thankfully limited anthrax attacks of 2001. But it 
is important to keep in mind that bioterrorism occupies a special 
category of terrorist threat that deserves careful scrutiny. The Hart-
Rudman Commission noted in its first volume of analysis that
        ``. . . the most serious threat to our security may consist of 
        unannounced attacks on American cities by sub-national groups 
        using genetically engineered pathogens.'' [US Commission on 
        National Security/21st Century, Sept. 15, 1999]
    As we design programs to prevent and respond to bioterrorist 
attacks we must proceed carefully, especially so since these weapons 
are largely unfamiliar to policy experts. However we decide to proceed 
in organizing federal bioterrorism activities, the nation's ability to 
respond to mass casualty situations and to effectively contain spread 
of contagious disease remains a grave concern. We must use our 
prodigious talent in bioscience to create the vaccines and therapies 
needed to respond to the bioweapons of today and of the future. We 
cannot afford a pause or loss of momentum in accomplishing these tasks.

    Mr. Greenwood. Thank you, Dr. O'Toole.
    The Chair recognizes himself for 5 minutes for inquiry. Dr. 
Atlas, in your testimony on page 3 you said the role of DHS 
should be to interrogate threat analysis and vulnerability 
assessments and to identify priorities, and I underscore 
priorities for preventative and protective steps to be taken by 
other Federal agencies to protect the American public. DHS can 
coordinate, review and evaluate scientific and technical 
programs relating to human animal and plant life. It seems to 
me you support some role for the new Secretary with respect to 
public health R&D and preparedness grants, including in some 
instances having the Secretary set the priority for such 
activities. Can you explain the distinction you are proposing 
and some alternative models such as dual reporting?
    Mr. Atlas. Yes, in a couple of ways. We see a very 
important strategic role for the new Secretary. The new 
Secretary will bring more of the intelligence community of the 
overall government perception of threat to human health and 
services for incorporation into the Nation's R&D plan. We could 
well imagine that the Assistant Secretary that has been 
discussed by your subcommittee today having a dual reporting 
responsibility, and I know that is normally very difficult, but 
we are dealing with such a complex issue with such duality, 
such overlap that we think that perhaps such a unique solution 
of having an individual with the health background that we need 
being able to assist both the Secretary of HHS and the 
Secretary of DHS in this area.
    Mr. Greenwood. Let me ask a question of Dr. O'Toole. I 
understand that you support the increased flexibility in the 
administration's proposal for personnel-related decisions. You 
talked about the need to bring young scientifically trained 
people in the government, and to do it as quickly as possible. 
Why is it necessary, in your opinion, for there to be this 
civil service rule flexibility for this new agency?
    Ms. O'Toole. Well, I think it wouldn't be necessary if we 
were allowed to hire several thousand new FTEs into the Federal 
Government. But absent that, in order to get a new skill mix 
into the government, it has been my experience that it was 
necessary to be able to move people in and out in ways that 
were not permitted by the civil service regulations.
    Mr. Greenwood. Mr. Anderson, what additional measures to 
coordinate the Federal, State and local response to a nuclear 
attack have been implemented subsequent to the Air and Space 
Museum exercise?
    Mr. Anderson. In following conversations I have had with 
local first responders, public safety, public health folks, 
there seems to be a great deal of momentum. I am not convinced 
that we are anywhere near close to being able to solve this 
problem and address it effectively. But at least the situation 
awareness exists that didn't exist previously, and I think that 
is going to lead to effective processes and procedures and 
hopefully equipment procurement, and all of the coordination 
that has to occur between the 17 surrounding jurisdictions in 
order to effectively deal with this.
    Mr. Greenwood. Did this exercise exclusively look at the 
consequences to the post explosion, or did you look at 
questions at all as to the access to the Cesium, for instance?
    Mr. Anderson. We developed the back end of this thing 
completely. We selected Cesium as the radioactive material, 
simply because it is readily available and there's enough of it 
missing or unaccounted, for according to the NRC, that it's 
reasonable to believe that it could have fallen into terrorists 
hands right here in this country.
    Mr. Greenwood. What are the sources of it?
    Mr. Anderson. Medical research, cancer research, cancer 
treatment. It has industrial applications with various types of 
diagnostic equipment. It is out there in large amounts. It 
would take a pound and-a-half to do what the slide depicted. 
And that was a DOD model that just plugged in 1,043 curies of 
Cesium 137, or a pound and a half and 4,000 of TNT. We 
absolutely believe--well, when we began, we thought it was a 
very remote possibility.
    We only selected a dirty bomb because we were looking for a 
cross-jurisdictional crisis that would help in their planning 
effort. When we finished the research--and again it included 
all the back-end stuff like where are you going to get the 
materials and where are you going to get a school bus and all 
the rest. We absolutely believe this a real possibility. How 
real remains to be seen, but real enough that we need to think 
it through in terms of how we are going to respond.
    Mr. Greenwood. My time has expired. The gentleman from 
Florida for 5 minutes.
    Mr. Deutsch. Thank you, Mr. Chairman. Dr. O'Toole, 
obviously you listened to Mr. Anderson's testimony in terms of 
the threat of biological and chemical, which is not something 
that he discounts, but is describing as very far away. Would 
you characterize those the same way he did?
    Ms. O'Toole. No.
    Mr. Deutsch. Do you want to elaborate on that?
    Ms. O'Toole. I think it is quite possible there could be a 
large bioterrorism attack in this country. It is very easy to 
do. The materials are at least as available as those necessary 
for a dirty bomb, although I agree with Mr. Anderson that a 
dirty bomb is also quite feasible. It's also possible that 
several small or a medium-sized biological attacks could be 
levied upon the United States and we would have a very 
difficult time figuring out what was going on and how to 
respond to it. As we saw with the anthrax attacks, which is 
only 22 cases, it doesn't take thousands and thousands of 
people being killed in order to cause disruption and economic 
loss.
    Mr. Deutsch. Let me follow up with the issue at hand which 
is our responsibility in terms of the proposal of the 
Department of Homeland Security. You have expressed grave 
doubts about this new department that it will have the capacity 
to address bioterrorism and infectious disease outbreaks. How 
would you envision if you were writing the legislation, how 
would you structure the public health research and response 
system?
    Ms. O'Toole. Well, as I said, first of all, I would hire 
more people into the system with appropriate expertise. I think 
that we need to build a much more operational Federal public 
health capacity that is able to go into the field, figure out 
the epidemiology.
    Mr. Deutsch. Let me make my question clearer. The people on 
the appropriation side, we are the subcommittee that 
authorizes, but will be involved at a direct level in terms of 
actually structuring. The issue that we have talked about this 
whole day so far is how much is HHS doing now in basically 
biologicals with the component--and, you know, I have spent 
some time at CDC and talked to them and they seem to have an 
incredible, sophisticated, well-run operation now, but the 
concept is to take that out of HHS and CDC and bring it into 
homeland security.
    So the issue in front of us is there seems to be some 
that's coming out and some that's staying in. I mean, would 
your advice be keep it in one place, whether it is HHS or bring 
everything over to homeland security, or Dr. Atlas suggested--I 
will be honest with you. I heard what you said. I don't think 
it is possible. The whole point of doing this is you have two 
people responsible and no one is going to be responsible as 
creative as you want to be. So I think--and Dr. Atlas, I would 
be happy for you to respond. But Dr. O'Toole, you can just 
respond specifically about that issue.
    Ms. O'Toole. If I had a magic wand in hand, I would keep it 
in HHS and make it more robust. I would, however build in 
mechanisms to both coordinate activities between HHS and 
homeland security as well as to ensure that bioterrorism gets 
appropriate notice and someone is accountable for bioterrorism 
and HHS. I think the bioterrorism functions are basically 
medical and public health functions. It's going to be really 
hard to transplant them into this new security agency. It's 
possible maybe 10 years from now, it will be highly desirable. 
But in the near term, as I said, we run the risk of disrupting 
our capabilities in this area with this transplant.
    Mr. Deutsch. Would that mean there is no advantages of 
thinking about the sort of public health response from a 
terrorism basis or just a naturally occurring event basis. Do 
you gain anything about that in sort of the discovery process 
or treatment process or prevention process?
    Ms. O'Toole. No. What you would gain is focus and attention 
directed toward bioterrorism. It would clearly be a national 
security priority, and it would be funded that way. And the 
people dealing with bioterrorism would be part of the national 
security inner circle. Public health is not now at the Federal 
or State level on the hot water circuit. That presumably would 
change to some extent. But again, I think you would lose a lot 
of functional capacity, at least in the near term with the 
move.
    Mr. Deutsch. This is obviously a decision that Congress is 
making over the next several months, and I think your 
perspective--and all three of your perspectives are unique in 
terms of the panels we have had up to this point. Hopefully--I 
know our staffs are interacting with you. But clearly, the 
direction of everyone up to you and the direction that most of 
us are at least coming from, and I think we still have open 
minds and this is what this whole process is about is that we 
are really talking about taking it away or setting up a two 
tiered system. And again having some experience no where in the 
orders of magnitude your experience with this and I know you're 
being sincere with your belief and based on your background, I 
think it's something we need to take very seriously.
    If you could just work with us because all of us are trying 
to get to the same goal, but the opinions you are expressing 
really are a minority opinion which might be the correct 
opinion but I think if I could encourage you to interact with 
our staffs and with members directly because you know, I think 
we have the ability to influence it and shape it the correct 
way.
    And as strongly as you can be--this is not politically 
driven, it's not anything driven. It's just trying to come to 
the best outcome. And I hear exactly what you're saying. Dr. 
Atlas, if I could give you the opportunity to respond.
    Mr. Atlas. I suggested what may be even more complicated, 
one individual, an individual who could serve that coordinating 
function, that integration between two secretaries. Like Dr. 
O'Toole and the testimony clearly indicated that HHS should 
retain the authority over the biomedical research and the 
public health response, but clearly, there is this new function 
of homeland security. There is a real need for it. It brings 
other assets of the government to bear and it is somehow 
linking those that we are, I think, debating as we are going 
back on this, and I do see the possibility that appropriate 
high level individual who can walk back and forth between the 
two with great freedom would be a valuable asset in homeland 
defense.
    Mr. Deutsch. Mr. Chairman, if I could just, for 15 seconds, 
kind of follow up with my last comment. But having spent some 
time at CDC I think, Dr. O'Toole, what you are specifically 
talking about where there are people there who basically made 
their career there and they seem to be able to attract the best 
and brightest within their little world of doing this 
biological. And I agree with you completely, this is really an 
individual basis. I mean, you need some incredibly bright--the 
brightest of the brightest people in the world looking at this 
to understand it. And if we are going to create a culture where 
we are not going to be able to attract and keep those people, 
it is going to be a failure. There is going on within HHS. Is 
there is at least, from a laymen's perspective, there is a 
culture that has been able to attract the brightest of the 
bright, even if the salary structure is not as good as it could 
be, and even if we can do a lot more. But we have got some 
people there who really are the best of the best, and I guess 
my real concern, which I hear you saying a little bit is, if we 
move this over to a new agency without any history, without any 
culture without any understanding how--you just can't move the 
whole function and move it over.
    Ms. O'Toole. Could I clarify just a minute, Mr. Chairman. I 
think you can move it but you better prepare that ground. I 
also think that you have to significantly revamp the CDC 
operation and bring a lot more people than had been coming into 
CDC in to do bioterrorism work in the near future. Either way, 
I think that the bioterrorism functions deserve a lot of 
attention and consideration. But what you don't want to do is 
break the operations that are now beginning to work out of HHS. 
They are young. They are like new chutes. If you transplant 
them too early into hostile soil, it's not going to work.
    Mr. Greenwood. Chair thanks the gentleman. The gentlelady 
from Colorado is recognized for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman. Dr. O'Toole, I really 
empathize with what you're saying, and I think part of the 
problem we have since the details of this proposal aren't 
completely fleshed out, it is hard for us to exactly see what 
would happen. But here's something that I kind of wanted to 
throw back at you, and if the gentlemen would like to answer 
it, that would be great, too.
    The problem with biological and also chemical warfare is 
that it really cuts across many agencies and many disciplines 
and the GAO's testimony today talked about--really highlighted 
the types of problems when you're dealing with competing 
authorities among different agencies. With the recent anthrax 
events that you referred to, for example, local officials were 
complaining that the FBI and the public health officials had 
competing priorities about handling specimens, and this proved 
problematic because the FBI was briefing FBI officials, and 
local health departments didn't know what was going on and 
first responders.
    I saw some of this in a town hall meeting--wasn't a town 
hall meeting, but a meeting with first responders talking about 
anthrax in Denver and the Postal Service employees in Denver 
got into a big argument with the State and with the FBI local 
offices there because the Postal Service couldn't get the FBI 
to test questionable specimens, and the Post Office didn't know 
what to do with them.
    And I hear what you're saying, but I wonder, does the 
solution of hiring more people really help resolve issues of 
how do you prioritize and how do you deal with these 
interdisciplinary issues, and maybe you have some idea and I 
would like to hear it, because I think it would help all of us.
    Ms. O'Toole. Hiring more people doesn't solve all problems. 
But I think some of the problems you mentioned would be at 
least alleviated to some extent if we had more realistic 
exercises so the people got used to working together and they 
had a better sense of what the protocols would be in an actual 
crisis. That was part of the problem in the anthrax response. 
It was sheer confusion. It was also lack of expertise. You had 
person A saying A and person B saying something else.
    So getting our acts together actually is going to be a real 
challenge, no matter where the bioterrorism functions lie 
within the Federal bureaucracy. So hiring people is not a one-
size-fits-all solution, but if you had more people, you could 
run more exercises and train more people. I think it would 
help.
    Ms. DeGette. How would you deal with the interdisciplinary 
issues that are such a problem right now?
    Ms. O'Toole. The interdisciplinary issues are always going 
to be there.
    Ms. DeGette. If you have one per--if you had a correctly 
structured agency where one person was in charge of saying 
here's the protocol for who's notified.
    Ms. O'Toole. You can do that no matter how you structure 
the organization. The problem is anticipating that we're going 
to have to be dealing with the Post Office, okay. There is an 
infinite number of scenarios that one can imagine for these 
nontraditional attacks and we need to create organizations that 
are expert enough and inventive enough and nimble enough to 
respond appropriately to things we never imagined before.
    Now all of the literature and all of the experience of 
emergency disaster personnel and scholarship shows that 
planning is the one thing that seems to help get people ready 
for the next unexpected disaster, not because you put together 
plans that you use, not because you generate protocols that you 
snap into place, but because people know each other and they 
work better, particularly when they have to invent things on 
the run if they do know each other.
    Ms. DeGette. You know, I think you're right, but we just 
had Operation Top-Off in Denver, which was a year ago, which 
was exactly this, planning for a biological attack. And yet 
that experience, which involved all the very same agencies that 
I was just talking about didn't help them even deal with an 
anthrax threat, much less a real incident.
    Ms. O'Toole. Top-Off was 2 years ago. There is still no 
public analysis of what we learned in Top-Off, in part because 
of a personnel deficiency. I think it did help, but I think the 
failings in Top-Off are an indication of how hard this is and 
how far we have to go. We need to be careful of silver-bullet 
solutions. This reorganization is not going to be a solution. 
It may be one step toward an ultimate solution, but it could 
also be a step backwards. We need to be very thoughtful about 
that.
    Ms. DeGette. I think those are very wise words, and thank 
you, Mr. Chairman.
    Mr. Greenwood. The Chair thanks the gentlelady from 
Colorado. The Chair thanks the panel, Mr. Anderson, Dr. Atlas, 
Dr. O'Toole. We appreciate the good service you offered us 
today to help us with this really important work. Thank you 
again. Panel is excused and the committee is adjourned.
    [Whereupon, at 2:30 p.m., the subcommittee was adjourned.]












  CREATING THE DEPARTMENT OF HOMELAND SECURITY: CONSIDERATION OF THE 
                       ADMINISTRATION'S PROPOSAL

                              ----------                              


                         TUESDAY, JULY 9, 2002

                  House of Representatives,
                  Committee on Energy and Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:15 a.m., in 
room 2123 Rayburn House Office Building, Hon. James C. 
Greenwood (chairman) presiding.
    Members present: Representatives Greenwood, Bilirakis, 
Gillmor, Burr, Whitfield, Bass, Tauzin (ex officio), Deutsch, 
Stupak, Strickland, and DeGette.
    Also present: Representatives Shimkus, Wilson, Buyer, 
Green, Capps, and Burton.
    Staff present: Tom DiLenge, majority counsel; Amit Sachdev, 
majority counsel; Ray Shepherd, majority counsel; Peter Kielty, 
legislative clerk; Brendan Williams, legislative clerk; Chris 
Knauer, minority investigator; Jonathan J. Cordone, minority 
counsel; Edith Holleman, minority counsel; David R. Schooler, 
minority general counsel; and David Nelson, minority 
investigator.
    Mr. Greenwood. The committee will come to order. The Chair 
recognizes himself for 5 minutes for the purpose of making an 
opening statement.
    Billboard ads for the movie ``Sum of All Fears,'' based on 
the Tom Clancy thriller, are emblazened with these chilling 
words: 27,000 nuclear weapons. One is missing.'' while the 
phrase is classic Hollywood promotion, in the post-September 11 
world, we find ourselves asking are we now at a point in our 
history when we have to be prepared for even such a doomsday?
    The threat of a terrorist attack involving nuclear weapons, 
or, more likely, radiological materials mixed with conventional 
explosives, the so-called dirty bombs, are more tangible than 
any of us could have ever imagined in the cold war period. The 
International Atomic Energy Association has documented 18 cases 
of trafficking since 1983 involving highly enriched uranium or 
plutonium, the key ingredients for an atomic bomb. These cases 
represent only those instances where the perpetrators were 
caught. A recent Washington Post article reports that the 
Intelligence Community believes that al Qaeda could already 
control a stolen Soviet-era tactical nuclear warhead or enough 
weapons-grade material to fashion a functioning, if less 
efficient, atomic bomb.
    And what about the so-called dirty bomb? Experts estimate 
that the loss of life would not approach that of an atomic 
bomb, but the economic consequences could be just as 
devastating.
    In testimony before the Senate Foreign Relations Committee, 
the Federation of American Scientists President Henry Kelly 
said that if the proper ingredients were used, a dirty bomb 
explosion could spread enough radioactive material to 
contaminate all of Manhattan, making it uninhabitable for 40 
years, and leading to the potential destruction of $2 trillion 
of real estate.
    The consequences of failing to safeguard our Nation and our 
people against such nuclear and radiological threats are simply 
too horrific to ignore.
    We must take the steps needed to prevent weapons of mass 
destruction or the materials used to make these devices from 
being shipped into and around our country. Fortunately, good 
work is now underway to reduce the threat of nuclear terrorism. 
U.S. Customs service, for example, is taking bold long-term 
steps in the right direction. Its Container Security Initiative 
seeks to secure shipments into America by requiring that 
containers bound for U.S. ports will be examined at their ports 
of origin. While this is a valuable security measure, it will 
take time to fully implement.
    For that reason, we must do more in the immediate future to 
protect our Nation from the agents of terror. To date, 
government agencies have been slow to take all available steps 
needed to protect our Nation's borders. Yet other Nations, 
including Germany, Ukraine, Slovakia, and Italy, currently use 
state-of-the-art technologies like portal monitoring systems to 
examine vehicles at border crossings, and for the past 10 years 
vehicles seeking entry into Poland have had to pass through a 
similar radiation detection system.
    None of this is unavailable to our own Federal agencies. 
Ironically, the U.S. Department of Energy has been working 
closely to install these devices at Russian border crossings. 
Indeed, DOD officials estimate that there are already 100 such 
vehicle monitoring devices in Russia right now.
    Clearly, the American people and this Congress feel a sense 
of urgency. So the question becomes why are we so far behind in 
this critical area, especially when the technology, much of it 
U.S. technology, exists to protect our seaports and our mail 
and express package delivery system infrastructure?
    This committee's 10-month investigation suggests two 
principal answers:
    First, the Federal Government has not provided sufficient 
guidance and assistance to the governmental and private sector 
entities at the front lines of homeland security on how to 
identify, evaluate, and implement currently available 
technologies that could measurably reduce the threat of nuclear 
smuggling. Indeed, we have been unable to find any Federal 
agency that believes it has the responsibility to do so.
    Second, not surprisingly, the Federal Government's research 
and developmental efforts in this area have not been 
sufficiently focused and coordinated. Much of the work is 
redundant, with numerous agencies contracting with various 
laboratories to conduct similar R&D activities again. This 
occurs because of the lack of organizational clarity. Up to 
this point, no one agency has been charged with developing a 
strategic plan for such research for its direction, funding, 
coordination, and implementation.
    All of this brings us to today's continuation of the 
hearing this subcommittee begun 2 weeks ago to consider the 
Bush administration' proposal to create a new Department of 
Homeland Security. Besides examining how this proposal may help 
to alleviate the two core problems described above, we will 
also review two other important aspects of the President's 
proposal at today's hearing: how public health research and 
development may be affected by the proposed transfer of certain 
authorities for terrorism-related biomedical research to the 
new Department; and how the critical infrastructure assessment 
and other related activities of the new Department may help 
improve our Nation's protection of key assets such as the 
energy and telecommunications grids and our food and drinking 
water supplies.
    We have many panels and witnesses to hear from today as we 
embark on this very serious undertaking. I appreciate the 
patience of our members and our witnesses as we proceed through 
what will undoubtedly be a long day.
    For purposes of information, let me provide a quick outline 
of the day before us. The first two panels will focus on the 
public health research and development activities potentially 
affected by title III of the administration's proposal. The 
third and fourth panels will focus on critical infrastructure 
protection issues based on title II of the administration's 
proposal, including discussion of public access to such 
information.
    The final two panels will discuss those aspects of title 
III that relate to research and development of nuclear, 
chemical, and biological detection technologies and other 
related programs at the Department of Energy currently proposed 
for transfer to the new Department.
    Based on my consultation with the committee minority staff, 
I expect that the subcommittee will approve a motion to close 
to the public the last two panels of today's hearing due to the 
sensitive nature of that discussion.
    Before I recognize the ranking member for an opening 
statement, I would like to point out that Thermo Electron 
Corporation and Sandia National Laboratory will conduct 
equipment demonstrations throughout the day. Members and staff 
are encouraged to use this opportunity to assess the 
capabilities of currently available detection devices.
    Thermo's equipment is set up in the chairman's meeting 
room, right next to the members' lounge near the hearing room, 
and Sandia's devices will be in the meeting room attached to 
the minority lounge. Thermo's demonstrations consist of a human 
portal device capable of detecting both metals and radiological 
material. The company will also have a live demo of the 
detectors used in vehicle portal systems, which will include a 
software display showcasing a graphical representation of the 
information collected by the detector. Thermo has also set up a 
model of a radiological detection device that can be used on 
cranes.
    Sandia will display various bomb disassemblement devices. 
While these devices are used to disassemble common explosive 
devices, they can also be used to deactivate dirty bombs. In 
addition, Sandia will have a nuclear detection device, but it 
will not be active. So you can take your nuclear devices right 
past it.
    The members are reminded that this is a continuation of a 
previous hearing. Opening statements will not be required, but 
they will be tolerated, and the Chair recognizes the ranking 
member Mr. Deutsch.
    Mr. Deutsch. Thank you, Mr. Chairman. Before I make a very 
brief comment, there are three organizations that have 
contacted us that want to be able to provide testimony, and 
without objection, we can allow that: National Association of 
City and County Health Officials; the American Public Health 
Association; and the Association of State and Territorial 
Health Officials.
    Mr. Greenwood. Without objection.
    Mr. Deutsch. Thank you, Mr. Chairman. As you mentioned, 
this is a continuation of our previous hearing. I look forward 
to working with you. I think this is really an issue which I 
described as working shoulder to shoulder, heart and soul 
together, to create this new Department. But as we're doing 
that, I think our job--and I think both of us would agree--is 
working out some of the details, particularly within areas of 
our jurisdiction, like HHS and NIH. And just a concern that we 
had expressed at the prior hearing, that some of the incredibly 
significant jobs that they do now not be put into a second and 
third or fourth place under an agency that clearly will have 
the most significant task that our government is facing.
    So with that, I would yield back the balance of my time.
    Mr. Greenwood. The Chair thanks the gentleman and 
recognizes the chairman of the full committee, the gentleman 
from Louisiana, Mr. Tauzin.
    Chairman Tauzin. Thank you, Mr. Chairman, and I too submit 
statements for the record. But I want to just mention a couple 
of things I think are critical as you begin an extraordinary 
day. I think you've got 26 witnesses ahead of the committee 
today as we work on a very short deadline to produce for the 
President and for the House our recommendations on this new 
Cabinet-level Department of Homeland Security. Our deadline is 
July 12, and we're going to meet it. So this hearing is 
critical to put on the record all of the investigation that is 
going to help us formulate those final recommendations before 
the end of this week. So we thank you, for all of you who 
participate today.
    I wanted to mention a couple of things, Mr. Chairman. You 
mentioned the striking lines from the movie, the ``Sum of All 
Fears,'' and it occurred to me that the attacks on our country 
may well take very different forms. Just last week we learned 
of an all-points bulletin announcement, announcing an effort to 
retrieve or recover a tanker truck that was stolen from a 
locked yard in Florida somewhere, the tanker truck containing 
chemical waste material. Obviously we've seen some of the 
reports indicating that those types of low-technology attacks 
are being discussed by al Qaeda and by some of the cells and 
networks that exist in this very country.
    We learned in the newspaper this week how when Mohammed 
Atta appeared before a USDA official seeking a loan to buy a 
crop duster, trying to get Federal taxpayer dollars to buy a 
crop duster that obviously was intended in his mind for a 
terrorist attack, that he went absolutely ballistic when he saw 
the beautiful aerial map of Washington, DC in the office there, 
and that he put cash on the table, trying to buy that beautiful 
map from the representative of the USDA because that map 
represented to him, obviously, a source of information upon 
which he might plan or his friends might plan an attack on this 
city.
    It calls to our attention the importance in this 
legislation of amending the Freedom of Information Act to make 
sure that road maps, vulnerability assessments of assets, both 
public and private, other road maps of sensitive installations 
and sensitive places in this country are not so easily 
available to people who might have improper motives, such as 
Mr. Mohammed Atta, in using those road maps to hurt this 
country or its people. Balancing the needs of freedom of 
information in this country against the concerns that I think 
of all that the USDA office represents is going to be a 
difficult challenge of this committee and the Congress, but I 
know that this committee will be up to it as we make our 
recommendations to the House.
    And one final thought, and that is that we've got some 
people we need to perhaps congratulate today. I want to single 
out the Port of Norfolk, Virginia, which is a private port 
authority which on its own set up a radiological detection 
system on one of its cargo planes with almost no help from the 
Federal Government. We've since come in and assisted them, but 
that kind of initiative is to be recognized, and I want to 
thank the Port of Norfolk, Virginia and the other ports of 
America who are doing things like that on their own.
    I have nine ports in my district, and we are working with 
every one of them. One of them is Port Fourchon, where 16 
percent of the oil that serves our country enters this country. 
I don't believe it is yet on the list of ports that receive 
Federal assistance in security, but we're working on that. 
Making sure that all of these ports are more adequately 
protected is going to be a critical component of this new 
Department.
    I want to congratulate the Customs Service pilot project 
that is underway at the Detroit/Windsor border where a single 
vehicle portal system is being tested, and we're very 
interested in learning the results of that test.
    I want to thank you, Mr. Chairman, and our staff for the 
work you did with FedEx and UPS. These two organizations are 
now planning to install radiation detection systems at their 
overseas hubs, and they intend to achieve 100 percent coverage 
of all packages that move through these organizations. That is 
a big step forward, and I want to thank all of you, Mr. 
Chairman and members of the staff, who have worked with these 
organizations in ensuring that.
    But we need to point out there is a lot of work to be done. 
We've got six Dewey labs, for example, that are currently 
working on research related to the detection of radiological 
and nuclear material, but little coordination behind their 
efforts. We hope this new Department will begin to coordinate 
those very important efforts to make sure that port authorities 
and customs services and other private entities who want to use 
technologies like this know what is the best technology and 
what works and what doesn't work. Now, that is going to be part 
of the recommendations.
    Finally, Mr. Chairman, if anyone wants to know when the 
next attack on America is going to occur, the answer came in a 
radio program today as I was driving into work. The next attack 
on America will occur today, every day. There are 30 cyber 
attacks that we can identify on sensitive government entities 
in this country, at least 30. There are days when there are 
hundreds, and there are days when there are thousands of such 
attacks, coming in from places as far away as China. Some of 
those are just business espionage attacks on private entities 
and Web sites. Some of those are probing attacks on very 
sensitive cyber systems that exist, that operate and that 
protect this country, that operate sensitive installations and 
protect this country in many important ways. Thirty identified 
attacks every day; today, tomorrow, every day. If we don't make 
sure the Homeland Security Department is prepared in this 
critical area of cyber security, we will have failed in our 
duty, and I hope this committee approaches that issue very 
seriously as we move forward with our recommendation.
    Thank you, Mr. Chairman.
    Mr. Greenwood. I thank the chairman.
    Are there members of the minority who wish to make opening 
statement? Beginning with Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman, and I'll be brief. I 
look toward to today's hearing. I believe this is the second 
hearing now we have had on the President's proposal to make 
Homeland Security a Cabinet-level position.
    I'm concerned that we're under a time line here of July 12, 
that this homeland security must be completed by then and 
passed. It is too important of an issue to put a time line out 
there and say you have to pass it. In my 10 years' experience 
when we do things under time line, that we don't have much 
rhyme or reason, usually we rush things through and questions 
are not answered. And then after the fact we are saying, why 
did we do that?
    So I would hope that we could slow this process down and 
give this President's proposal the due consideration it 
deserves, because I accept the principle that homeland security 
is so important, that it demands a Cabinet-level position. 
However, I'd like to see a clear chain of command in whatever 
new structure we approve, and I don't see that in the 
President's authority. And when we had the discussions last 
week with Director Ridge, he told me that this Cabinet-level 
position, after explaining--we were talking about ports and 
radiation, how it went from Customs and DOE to Sandia, and we 
still don't have an answer--and he said that is the way the 
Federal Government works.
    Well, if that is the way the Federal Government works, I 
don't want to pass a Cabinet-level position to have the Federal 
Government in a horizontal chain of command when a decision is 
never made; and once the decision is made, no one accepts the 
responsibility, but points to another person as the person who 
made that decision. So I would like to see a clear chain of 
command in whatever new structure we'll approve. We need to 
know there is a vertical authority and people will accept 
responsibility for their actions. We need to know where the 
buck stops, if you will.
    Portions of our homeland security are being neglected. 
Again, last week I pointed out where hundreds of miles of 
international coastland, about 700 miles, which is basically my 
district along Canada there, is currently without any 
surveillance or security measures whatsoever. And I think we 
need to know who we would go to talk to to get this thing 
fixed. That is not clear in the President's 
proposal.Reorganization will come, but it needs to be better 
than the piecemeal structure we see throughout the Federal 
Government today.
    So, again, while I'm supportive of the idea, I want to see 
a clear level of command here. I just don't want merely a 
shuffling of chairs at the table and calling it a Cabinet-level 
position and somehow we cured this ill that we have called 
homeland security by July 12.
    So I look forward to today's hearing. I understand it is 
going to be a long hearing, so I would yield back the balance 
of my time and I look forward to hearing from the witnesses. 
Thank you, Mr. Chairman.
    Mr. Greenwood. The Chair thanks the gentleman.
    Does the gentleman, Mr. Whitfield, care to make on opening 
statement?
    Ms. DeGette?
    Ms. DeGette. Yes.
    Mr. Greenwood. She's recognized for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman. I'd like to echo some 
of the sentiments of my colleague, Mr. Stupak. I think that it 
is essential that we have a Homeland Security Office with real 
authority, with a Cabinet-level authority. What I don't want to 
see is more layers of bureaucracy layered on what we have right 
now and no clear decisionmaking process. And I don't think any 
of us wants to see that, but if we rush this through in the way 
that it is envisioned, I think we could face a lot more 
problems when we face terrorist attacks, either from abroad or 
domestically. And with those sentiments, I yield back.
    Mr. Greenwood. The Chair thanks the gentlelady.
    The gentleman from New Hampshire, Mr. Bass, does not care 
to make an opening statement. Mr. Green, do you have a brief 
opening statement?
    Mr. Green. Mr. Chairman, just following up my colleagues on 
both sides of the aisle, I hope the new Department would be 
able to bring together what our goals are, but mainly the 
established collaborative relationships between all these 
agencies, that--maybe that is the goal of the administration, 
but think there may be some lacking in the actual language of 
the bill. But I support the Homeland Security Cabinet-level 
position, but also hopefully we'll give it the authority it 
needs to be able to protect us. Thank you.
    Mr. Greenwood. The Chair thanks the gentleman.
    Does the gentleman, Mr. Shimkus, wish to make an opening 
statement?
    Mr. Shimkus. I just want to thank the Chair for allowing 
other members from the committees come and sit in on the 
hearing and I look forward to the testimony.
    Mr. Greenwood. Delighted to have you with us.
    And that brings us to our first panel. Welcome, Mr. Hauer. 
Mr. Hauer is the Director of the Office of Public Health 
Emergency Preparedness in the Department of Health and Human 
Services. We thank you and we welcome you. Sir, you're aware 
that this committee is holding an investigative hearing and 
when we do so, it is our custom to take testimony under oath. 
Do you have any objection to giving your testimony under oath?
    Mr. Hauer. None whatsoever.
    Mr. Greenwood. So hearing that, you are also advised that 
pursuant to the rules of this House and committee, you are free 
to be represented by counsel. Do you choose to be represented 
by counsel?
    Mr. Hauer. No.
    Mr. Greenwood. In that case, would you stand and raise your 
right hand?
    [Witness sworn.]
    Mr. Greenwood. Thank you. You are under oath, and you are 
recognized for 5 minutes for your opening statement.

TESTIMONY OF JEROME M. HAUER, DIRECTOR, OFFICE OF PUBLIC HEALTH 
EMERGENCY PREPAREDNESS, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Hauer. Good morning, Mr. Chairman, and thank you. I 
thank you, too, members of the committee, for giving me the 
opportunity to appear before you today on behalf of Secretary 
Thompson to discuss the proposed Department of Homeland 
Security.
    The Secretary strongly supports the reorganization 
initiative, and, as the President announced earlier this month, 
the threat of terrorism in its myriad forms are becoming an 
ever-present part of our daily lives. The new Department will 
enable us to make further significant advances in protecting 
the American people from those who are bent upon inflicting 
death, destruction and social disorder, and to achieve their 
ideological goal.
    We are pleased that the Congress is giving the President's 
proposal prompt and thorough attention. Secretary Thompson and 
I look forward to working with this and other committees to 
ensure passage of the legislation for the new Department.
    The President's proposal deals with certain terrorist-
related activities that currently are the responsibility of the 
Department of Health and Human Services. Some of these HHS 
activities would be transferred to the Department of Homeland 
Security. For other relevant public health and medical 
activities, DHS would assume responsibility for setting goals 
and providing strategic direction, but would rely on HHS to 
implement and operate on a day-to-day basis.
    My written statement focuses on all activities being moved 
from the Department of HHS to the Department of Homeland 
Security. I'll focus today on two examples of those in the 
transfer.
    First, the Select Agent registration program. Within HHS, 
the Center for Disease Control and Prevention currently 
regulates the transfer of certain dangerous pathogens and 
toxins, commonly referred to as ``select agents'' from one 
registered facility to another. These agents are widely used in 
research laboratories across America. Examples are the 
bacterium that causes anthrax, the bacterium that causes 
plague, and the virus that causes Ebola, a lethal hemorrhagic 
fever. Select agents are prime candidates for use by would-be 
terrorists, and thus when used in research must be kept 
constantly under safe and secure conditions.
    The recently enacted Public Health Security and 
Bioterrorism Preparedness Response Act of 2002 authorized HHS 
to promulgate and enforce regulations concerning the possession 
and use of select agents as well as air transfer. While CDC has 
done its best to manage this program, CDC is a public health 
agency and not a regulatory body. We believe that the new 
Department, with its strong multipurpose security and 
regulatory infrastructure, will be well suited to prevent 
nefarious or other irresponsible uses of select agents. HHS 
will be prepared to provide DHS with whatever scientific 
expertise and other technical assistance it may seek to help to 
manage this program. Under the administration's bill, the 
Secretary of Homeland Security would administer the Select 
Agents program in consultation with the HHS Secretary, and HHS 
would continue to make key medical and scientific decisions, 
such as which biological agent should be included in the select 
agents list. Certain specific program-level details and 
administrative choices are still being studied in order to 
ensure the most seamless transition.
    Let me focus now on civilian human health-related 
biological and biomedical infectious disease defense and 
research programs.
    The President's proposal provides that the new Department's 
civilian human health-related biological, biomedical, and 
infectious disease defense research and development work shall, 
unless the President otherwise directs, be carried out through 
HHS. Under the President's proposal, the Secretary of Homeland 
Security, in consultation with the Secretary of Health and 
Human Services, shall have the authority to establish the R&D 
program that will be implemented through HHS. Thus, as the 
agency responsible for assessing threats to the homeland, DHS, 
in consultation with HHS, will provide strategic direction 
regarding the Nation's biological and biomedical countermeasure 
research priorities.
    The President's proposal provides that the new Department 
shall, unless otherwise directed by the President, carry out 
through HHS certain health-related activities such as programs 
to enhance the bioterrorism preparedness of State and local 
governments and nonFederal public and private health care 
facilities and providers. The object of this provision is to 
continue the important role that HHS plays in assisting State 
and local governments and the hospital and public health 
community in preparing for and responding to large-scale public 
health emergencies. As with the research program, the Secretary 
of Homeland Security, in consultation with the Secretary of 
Health and Human Services, will establish the Nation's 
antiterrorism preparedness and response program and priorities, 
but the implementation of the public health components of that 
program will be carried out largely through HHS.
    Mr. Chairman and members of the committee, our Nation needs 
a Department of Homeland Security. The Department of Health and 
Human Services strongly supports the President's proposal, and 
we look forward to doing whatever is necessary to effect a 
smooth and swift transition of responsibilities and operations.
    We believe that the President's proposal strikes the right 
balance. It plays to the strengths of HHS and recognizes this 
Agency's core mission, the protection of our Nation's public 
health, while capitalizing on the strategic and logistical 
strengths of the new Department of Homeland Security. We will 
ensure that HHS fulfills its obligations to the new Department 
and provides it with whatever public health, medical and 
scientific expertise it may require.
    I thank you for the time, and I'd be happy to answer any 
questions.
    [The prepared statement of Jerome M. Hauer follows:]
 Prepared Statement of Jerome M. Hauer, Acting Assistant Secretary of 
 Public Health Emergency Preparedness, Department of Health and Human 
                                Services
    Thank you, Mr Chairman and members of the Committee for giving me 
the opportunity to appear before you today on behalf of Secretary 
Thompson to discuss the proposed Department of Homeland Security. The 
Secretary strongly supports the reorganization initiative that the 
President announced earlier this month.
    The threat of terrorism in its myriad forms has become an ever-
present part of our daily lives. The new Department will enable us to 
make further significant advances in protecting the American people 
from those who are bent upon inflicting death, destruction, and social 
disorder to achieve their ideological ends. We are pleased that the 
Congress is giving the President's proposal prompt and thorough 
attention. Secretary Thompson and I look forward to working with this 
and other Committees to ensure passage of the legislation for the new 
Department.
    The President's proposal deals with certain terrorism-related 
activities that currently are the responsibility of the Department of 
Health and Human Services (HHS). Some of these HHS activities would be 
transferred to the Department of Homeland Security (DHS). For other 
relevant public health and medical activities, DHS would assume 
responsibility for setting goals and providing strategic direction but 
would rely upon HHS to implement and operate the activities on a day-
to-day basis.
    I will discuss examples from each group of activities in turn.
      examples of activities proposed for transfer from hhs to dhs
    HHS functions conveyed to the new Department in the President's 
proposal include:

<bullet> The Select Agent registration enforcement program;
<bullet> The Office of the Assistant Secretary for Public Health 
        Emergency Preparedness; and
<bullet> The National Pharmaceutical Stockpile.
Select Agent Registration Program
    Within HHS, the Centers for Disease Control and Prevention (CDC) 
currently regulates the transfer of certain dangerous pathogens and 
toxins--commonly referred to as ``Select Agents''--from one registered 
facility to another. These agents are widely used in research 
laboratories across America. Examples are the bacterium that causes 
anthrax, the bacterium that causes plague, and the virus that causes 
Ebola, a lethal hemorrhagic fever. Select Agents are prime candidates 
for use by would-be bioterrorists and thus, when used in research, must 
be kept constantly under safe and secure conditions.
    The recently enacted Public Health Security and Bioterrorism 
Preparedness and Response Act of 2002 authorized HHS to promulgate and 
enforce regulations concerning the possession and use of Select Agents, 
as well as their transfer. While CDC has done its best to manage the 
Select Agent program, CDC is a public health agency and not a 
regulatory body. We believe that the new department, with its strong 
multi-purpose security and regulatory infrastructure, will be well-
suited to prevent nefarious or other irresponsible uses of Select 
Agents. HHS will be prepared to provide DHS with whatever scientific 
expertise and other technical assistance it may seek to help it manage 
the program. Under the Administration bill, the Secretary of Homeland 
Security would administer the select agents program in consultation 
with the HHS Secretary, and HHS would continue to make key medical and 
scientific decisions, such as which biological agents should be 
included in the select agents list.
Office of the Assistant Secretary for Public Health Emergency 
        Preparedness
    The Public Health Security and Bioterrorism Preparedness and 
Response Act of 2002 created the HHS Office of the Assistant Secretary 
for Public Health Emergency Preparedness for which I serve as Acting 
Assistant Secretary. The responsibilities of this new office include 
the supervision of the Office of Emergency Preparedness, the National 
Disaster Medical System, the Metropolitan Medical Response Systems, and 
related HHS emergency management functions. This cluster of activities 
is a logical and proper candidate for transfer to DHS--thereby enabling 
seamless integration of national public health and medical emergency 
management assets with the Nation's new preparedness and response 
infrastructure at DHS. The Public Health Service Officers and other HHS 
employees who have faithfully performed disaster relief work over the 
years have done a wonderful service for our Nation. They are a credit 
to HHS as they surely will be to the new Department.
Strategic National Stockpile
    CDC currently manages 12 ``push packages'' of pharmaceutical and 
medical supplies and equipment strategically located around the United 
States; additional lots of pharmaceuticals and caches of medical 
materiel are maintained by manufacturers under special contractual 
arrangements with CDC. You may recall that one of the push packages was 
dispatched to New York City on September 11th and that elements of the 
stockpile were used to respond to the anthrax attacks. CDC has done an 
exemplary job managing what is now called the Strategic National 
Stockpile and this fine work has set the stage for integration of the 
Stockpile with other national emergency preparedness and response 
assets at DHS.
    The President's proposal is designed to achieve this integration by 
tapping the strengths of DHS and HHS in a precisely coordinated way. 
Thus, the Secretary of Homeland Security will assume responsibility for 
continued development, maintenance, and deployment of the Stockpile--
making it an integral part of the larger suite of federal response 
assets managed by FEMA and other future DHS components--while the 
Secretary of Health and Human Services will continue to determine its 
contents. The arrangement will ensure effective blending of the public 
health expertise of HHS with the logistical and emergency management 
expertise of DHS.
              dhs functions to be carried out through hhs
    Certain specific program level details and administrative choices 
are still being studied in order to ensure the most seamless 
transition, and to give the greatest possible levels of efficiency and 
effectiveness to our fight against the threat of biological warfare and 
to protect the public health. However, the President's proposal clearly 
designates the following two activity areas that the Secretary of 
Homeland Security will carry out through the Department of Health and 
Human Services:
1. Civilian Human Health-Related Biological, Biomedical and Infectious 
        Disease Defense Research and Development
    The President's proposal provides that the new Department's 
civilian human health-related biological, biomedical, and infectious 
disease defense research and development work shall--unless the 
President otherwise directs--be carried out through HHS. Under the 
President's proposal, the Secretary of Homeland Security, in 
consultation with the Secretary of Health and Human Services, shall 
have the authority to establish the research and development program 
that will be implemented through HHS. Thus, as the agency responsible 
for assessing threats to the homeland, DHS, in consultation with the 
HHS Secretary, will provide strategic direction regarding the Nation's 
biological and biomedical countermeasure research priorities.
2. Certain Public Health-Related Activities
    The President's proposal provides that the new Department shall--
unless otherwise directed by the President--carry out through HHS 
certain public health related activities (such as programs to enhance 
the bioterrorism preparedness of state and local governments and non-
federal public and private health care facilities and providers). The 
object of this provision is to continue the important role that HHS 
plays in assisting state and local governments and the hospital and 
public health community in preparing for and responding to large-scale 
public health emergencies. As with the research program, the Secretary 
of Homeland Security, in consultation with the Secretary of Health and 
Human Services, will establish the Nation's anti-terrorism preparedness 
and response program and priorities, but the implementation of the 
public health components of that program will be carried out largely 
through HHS.
                               conclusion
    Mr. Chairman and members of the Committee, our Nation needs a 
Department of Homeland Security. The Department of Health and Human 
Services strongly supports the President's proposal and we look forward 
to doing whatever is necessary to effect a smooth and swift transition 
of responsibilities and operations. We believe that the President's 
proposal strikes the right balance: it plays to the strengths of HHS 
and recognizes this agency's core mission--the protection of our 
Nation's public health--while capitalizing on the strategic and 
logistical strengths of the new Department of Homeland Security. We 
will ensure that HHS fulfills its obligations to the new Department and 
provides it with whatever public health, medical, and scientific 
expertise it may require.
    At this time, I would be happy to answer your questions.

    Mr. Greenwood. Thank you, Mr. Hauer, we appreciate your 
presence and your testimony.
    The Chair recognizes himself for 5 minutes for questions.
    As you know, sir, many in the public health community have 
expressed concern about sections 301 and 303 of the 
administration's proposal, which seem to grant this new 
Department of Homeland Security direction over the conduct of 
traditional public health research activities, albeit ones 
involving potential terrorist weapons such as anthrax and 
smallpox. The question is why did the administration propose 
this change, and what advantages do you see flowing from it, if 
adopted, and how do you respond to the concerns that have been 
raised about it?
    Mr. Hauer. Well, first of all, we have heard some of the 
concerns, but at the end of the day, I think that some of it is 
misinformation that has--or misunderstanding of the direction 
in which the new Department will play and the role the CDC will 
continue to play in addressing public health research. CDC will 
continue its normal course of public health research. What will 
happen is the new Department of Homeland Security will take 
responsibility for ensuring that certain aspects of the 
research, those related to threats that impact public health, 
are coordinated through them, because as with other types of 
R&D, this new Department will have access to information, will 
be able to coordinate research, and will ensure at the end of 
the day the focus of public health research when it comes to 
dealing with threats that this country now confronts is well 
coordinated by one Agency at the Federal level.
    Mr. Greenwood. Does that in your mind have the effect and 
is it the intent that if the Secretary of Homeland Security 
says to CDC, I want you to conduct the following research 
projects and I want you to do it right away and I want you to 
do it with this level of intensity and so forth, that given all 
these finite resources of government, that would trump and take 
priority over CDC's other projects at that time, and that the 
Department of Homeland Security would have the ability to sort 
of push some of CDC's agenda off the table temporarily while 
that----
    Mr. Hauer. Depending on the nature of the threat, I would 
envision that if in fact there is a threat or a threat or 
concern that Homeland Security feels is a high priority that 
they would work with CDC. CDC does ongoing biological and 
nuclear and chemical research currently, and it consistently 
rearranges its priorities based on things that are going on. 
One good example is West Nile. In 1999, when West Nile first 
was recognized in New York City, CDC had to reshift its 
priorities fairly quickly to understand what was going on.
    Mr. Greenwood. But I think we understand that, and that 
says it ought to be--I think the concern that has been raised 
here that needs to be clear in all of our minds is that on a 
given day if the Secretary of Homeland Security says to CDC, I 
want you to devote X resources and personnel to studying an 
Ebola in some capacity, and the Secretary of HHS says, no, that 
is--we don't need to do that. I'm much more interested in West 
Nile right now. Keep the folks on West Nile. And there is a 
disagreement about that, how is that resolved?
    Mr. Hauer. Well, the disagreements--I think that there will 
continue to be an Office of Homeland Security in the White 
House reporting to the President, and disagreements of those 
natures can be resolved at the Office of Homeland Security. But 
I would envision that if Homeland Security--the new Department 
of Homeland Security feels that the needs are that great, that 
HHS and in fact CDC will do everything possible to try and work 
with the new Department to ensure that research is done as 
expeditiously as possible.
    Mr. Greenwood. In your testimony you note that the new 
Secretary will have the ability to, quote, establish the 
research and development program for public health threats of a 
terrorist nature that will be carried out by HHS, which is what 
the President's proposal language says. Yet later you infer 
that this only means that the new Secretary will provide, 
quote, strategic direction regarding priorities for research. 
Is that all that is meant by the statutory language proposed or 
does the administration envision other functions for this new 
Secretary in this R&D area?
    Mr. Hauer. Well, I think the new Secretary, one, will set 
some of the research and development priorities for the 
chemical, biological, nuclear threats that we face. Clearly, 
the ongoing research at NIH already focuses on some of those; 
and in working with the new Department I think there will be a 
significant synergy so that as the new Secretary begins to set 
research priorities the new Secretary will clearly have to work 
with the center directors at NIH and at CDC. And the new 
Secretary--I don't envision the new Secretary actually 
conducting or in any way getting into the research business but 
working through NIH, working through CDC to actually conduct 
the research, set some of the priorities, to fund some of the 
research, but not to get into the actual research business in 
and of itself within the new Department.
    Mr. Greenwood. The Chair recognizes the ranking member, Mr. 
Deutsch, for 5 minutes.
    Mr. Deutsch. Thank you, Mr. Chairman.
    The Centers for Disease Control is one of the really 
international experts in infectious diseases and select agents. 
In fact, it is probably the most complete laboratory used for 
infectious disease identification research and surveillance. It 
works with researchers around the world in these diseases. 
However, when Governor Ridge testified before us in June, he 
said the new role of the Centers for Disease Control would be 
working with the maternal health, smoking and immunizations. 
Was that an accurate representation of CDC's new role? Why are 
we putting money to making their laboratory more secure and 
capable of working on bioterrorism if they are not working with 
these agents?
    Mr. Hauer. Well, in fact, CDC is working on threat agents. 
CDC has a very aggressive program in working with threat 
agents, and the new Department of Homeland Security will 
continue to work with the CDC. The new Department of Homeland 
Security will be--the intelligence component of the new 
Department will help determine what the focus of the new 
research is on threat agents, because they will able--through 
the intelligence work be able to determine what threat agents 
we confront at that point in time. CDC will continue their 
ongoing research in dealing with these kinds of threat agents, 
as will the NIH in looking for new ways, new vaccines, new ways 
to treat these types of threat agents, new ways of dealing with 
these types of threats.
    Mr. Deutsch. The Public Health Security Bioterrorism Act of 
2002 also gave CDC the responsibility for improving public 
health communication facilities and networks. Where does that 
task go under this new structure?
    Mr. Hauer. The HAN and NEDS, which are the infrastructure 
that are being developed nationwide to allow CDC, State health 
departments and city and county health departments to 
communicate, will stay at CDC, as will NEDS, which is an 
infrastructure in development at CDC to allow hospitals and 
health care providers to communicate with local health 
departments for either data mines, surveillance and other types 
of surveillance systems. That will again take place in the 
traditional public health activities--they will stay at CDC as 
they are now.
    Mr. Deutsch. If CDC is going to take on these additional 
responsibilities, how will that be funded and who will be----
    Mr. Hauer. Those responsibilities are at CDC right now and 
are funded through the Bioterrorism Act of 2002.
    Mr. Deutsch. Does Homeland Security have a clear 
understanding of the difference between law enforcement first 
responders, communications such as were needed on September 11 
and the public health surveillance network which is for public 
health and medical staff which may not be first responders?
    Mr. Hauer. Well, I don't think there is any question that 
there is a very clear understanding in the Homeland Security--
in the Office of Homeland Security right now and the people 
that I deal with that the responsibility for public health 
emergency is significantly different than the response to 
chemical or nuclear energies. One is clearly a type of response 
and a public health emergency--the first responders is a 
completely different community, and the detection of a public 
health emergency is one that will occur over time. It is not an 
immediate--I don't think there is any question that that is 
clearly understood and as part of a new structure of homeland 
security is integrated into that structure.
    Mr. Deutsch. Who is going to maintain responsibility to 
improve the capacities of the State and local laboratories?
    Mr. Hauer. That will be done through the Centers for 
Disease Control, through the laboratory response network. That 
will be an ongoing process. While Homeland Security will have 
some oversight of that, the function will remain with CDC.
    Mr. Deutsch. Has HHS failed with its recommendations about 
how to improve the preparedness of the public health system?
    Mr. Hauer. No. In fact during the last 8 months--I've 
worked in this environment for almost 8 years now and in fact 
had the first surveillance system in the country when I was 
still a commissioner in New York City and was extremely 
frustrated with HHS over time because HHS was not moving 
forward. During the last 14 months or so, the Department has 
made incredible strides.
    Secretary Thompson, even before being confirmed, recognized 
that bioterrorism was an issue that we would have to confront, 
and we did briefings for the Secretary early on in the 
administration. Since September of last year, we have 
accelerated our programs in large part because of the support 
we've gotten from Congress and the money we've received.
    We have done--the original plan, just one example, was to 
have 40 million doses of smallpox vaccine by 2005. When the 
Secretary took over, that was the plan. We are now going to 
have 260 million new doses of new vaccine by the end of this 
year.
    We have seen enormous strides at the State and local level 
on the ability to receive the national pharmaceutical 
stockpile, the training that is going on at the State and local 
level, the exercises we're seeing at the State and local level. 
We're finally seeing hospitals talking with their local health 
departments. We are finally seeing strides that heretofore have 
never occurred, and we expect as this gets integrated into the 
Department of Homeland Security that there will be even closer 
coordination with the--at the State and local level.
    Mr. Deutsch. If I can indulge in just one very short 
follow-up question, all that good future planning that you 
described, how will that be affected in terms of the switching 
of responsibilities to Homeland Security?
    Mr. Hauer. I don't see any effect. In fact, because of so 
much of what goes on in emergency response at HHS, it is so 
closely coordinated with FEMA, as this becomes integrated into 
the new department, I would imagine that the synergies will be 
even stronger and that we will clearly see more coordination 
both at the State and local level.
    Mr. Greenwood. The Chair thanks the gentleman and 
recognizes the chairman of the full committee, Mr. Tauzin.
    Chairman Tauzin. Thank you, Mr. Chairman.
    Mr. Hauer, as you're well aware, in the bioterrorism bill 
we've beefed up the select agent's program at CDC, basically 
making sure it is not only a registration but also a tracking 
system on select agents that may affect human health, and I 
understand that that is--that function is scheduled to be 
transferred to the Homeland Security office. But we also at the 
same time, as you know, put together a program at USDA, a 
similar program for tracking and registering not only the 
transfer or possession of select agents that may affect animal 
health and we also in the bioterrorism bill encouraged those 
two agencies to coordinate so that we end up with eventually a 
single registration and tracking system. After all, a select 
agent that can hurt an animal could well likewise hurt a human 
being.
    The question I have for you is, is it good for us to be 
transferring this function from CDC and at the same time 
leaving the other function at USDA, or should both functions be 
transferred simultaneously or neither one? What is your 
recommendation?
    Mr. Hauer. Well, let me give you the perspective from HHS. 
I'm not sure I can address the USDA perspective, but the--from 
HHS's perspective, CDC has never really been a regulatory 
agency. So having that function within CDC I think is probably 
not the best spot to locate it. CDC is quite good at 
determining what agents should be on a select agent list, but I 
think moving it into Homeland Security, where they have more of 
a coordination with law enforcement and intelligence, again 
provides a better synergy----
    Chairman Tauzin. But if that is correct, isn't it also true 
that the USDA function should move with it?
    Mr. Hauer. I don't know why at this point in time the USDA 
component remains where it is. I can't answer that.
    Chairman Tauzin. So you can't answer that. We can't either, 
and we don't understand that. It seems to us, at least--I would 
love your thoughts on this. But if you're going to move the CDC 
program because of the fact that it now connects the 
registration and tracking system to the coordination of law 
enforcement efforts in the area, that it would be logical to do 
the same thing for the USDA program as well.
    Mr. Hauer. Well, at first blush I would envision that the 
USDA in fact does do regulatory work and does have the 
capability to go out and do an inspection and track these kinds 
of things, where CDC and HHS have historically not. That 
would--that would be my----
    Chairman Tauzin. Nevertheless, the coordination with law 
enforcement personnel in materials of the investigatory 
outreach of those agencies in tracking and identifying perhaps 
the mishandling or mistransfer or improper possession of these 
agents would seem to compel an argument that those functions 
ought to all be coordinated out of the same office, does it 
not?
    Mr. Hauer. I certainly understand your thinking on this, 
but I will ask the folks at Homeland Security who are working 
on this what their thinking was, and I'll get back to you on 
it.
    Chairman Tauzin. Please do.
    Finally, we've got a lot of work to do today, and I don't 
want to keep you, but we watched with great interest the 
shooting at LAX Airport this last week. Interestingly enough, 
when the shooting occurred they immediately began a debate as 
to whether or not it was a terrorist attack. We noted local law 
enforcement--local guards, first of all, El Al Air and the 
local guards at LAX did their job, apparently, well. Local 
police came in and effectively did their job well. FBI was 
called in to find out whether it was a terrorist attack. Are 
there some parallels here to the questions of how we manage the 
very close similarity and features between a bioterrorism 
attack and a naturally occurring infectious disease in our 
Nation, and are their lessons there for how this new Homeland 
Security will work with other agencies that deal with everyday 
disease and research, et cetera?
    Mr. Hauer. Yeah. I think that is an excellent comparison, 
because early on in the evolution of an outbreak one might not 
know whether it is a naturally occurring outbreak, whether it 
is, you know, a bunch of kids who have had something bad to eat 
at school or--in a lunchroom or whether in fact we've had 
something a little more nefarious occur.
    It's only--you know, there are certain assumptions at this 
point in time. If we were to see anthrax or smallpox we could 
assume that it probably is not something innocent, but some of 
the other agents, some of the other things that could 
potentially be used could create some confusion----
    Chairman Tauzin. Although even with anthrax you have 
animals spreading the----
    Mr. Hauer. In the Southwest we see----
    Chairman Tauzin. The point I'm making is that the way in 
which we structure this new department, we had best be careful 
not to remove from certain agencies in the health community 
their ordinary capacity to be the first on the scenes and to do 
their job in terms of assessing an outbreak before you know 
whether it's a terrorist attack or a naturally occurring 
process. Right?
    Mr. Hauer. I think that is absolutely right. I think at the 
end of the day this Department, first of all, will not have 
impact on the way State and locals do outbreak investigation, 
other than to potentially strengthen what goes on at the local 
level and to be a catalyst for better coordination with law 
enforcement. But public health at the local level will continue 
as it is, as will public health activities at the Centers for 
Disease Control; and we have to ensure as the new Department 
evolves that the coordination between the new Department and 
HHS is a solid relationship so that those things that could 
evolve very innocently, at the end of the day that might not 
be--are escalated to the new Department for----
    Chairman Tauzin. Yes. We can draw another really far-out 
analogy. There was a horrific story a few years ago of the Boy 
Scouts, you know, trekking around the mountains here in America 
only to have one of the kids get lost. A helicopter located 
him, but nobody seemed to be--have the authority to tell the 
helicopter to land, pick him up, and to leave the kid out there 
overnight. Parents knew he was out there alone at night lost in 
the woods. The helicopter couldn't get authority to land to 
pick him up.
    That's our worst fear as we make these changes. Please know 
that. We hope--work with us on that. Our worst fear is that 
some bureaucrat is sitting around trying to figure out whether 
this is a bioterrorism attack or whether this is naturally 
occurring and so nobody moves until that decision is made. Our 
worst fear is that we take away authorities that currently 
would respond quickly, regardless of what caused the problem 
and begin to deal with it rapidly and effectively. Now I would 
hope again that be central in all of the considerations and the 
transfers of authority that take place.
    Thank you, Mr. Chairman.
    Mr. Greenwood. The Chair thanks the gentleman.
    The gentlelady from Colorado, Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    I'd like to follow up on Chairman Tauzin's questions, 
because I think they are important. You see, when a gunman goes 
into the L.A. Airport and shoots somebody, you know a crime has 
been committed. So local law enforcement officers respond to 
the crime, and they do what they need to do. Then we come and 
say, was it a terrorist attack or something else? But with 
biological warfare it is not so clear-cut, and I think that is 
the issue we've got.
    Because what happens is there's an outbreak of something, 
not anthrax or smallpox. I mean, we're going to make that same 
assumption just like when you have a gunman going into the L.A. 
Airport. But let's say you have some other kind of outbreak, 
and what would happen--I mean, right now, the CDC has 
responsibility for researching naturally occurring public 
health issues, issues like flu, food-borne illnesses, new and 
emerging infectious diseases. So we're now going to know--we're 
not going to be able to say if there's an outbreak of one of 
these diseases, well, this could be bioterrorism. It's probably 
likely going to be naturally occurring, unlike a shooting or 
some clear-cut crime. And so the question--so what would happen 
right now is there's an outbreak of Legionaire's disease or 
something else. CDC begins to investigate it. How are we going 
to be able to separate those normal functions of the CDC from 
biological warfare, and how is the new agency going to do that 
without totally subsuming the CDC's routine functions?
    Mr. Hauer. Well, let's start at the local level, because 
all terrorism really starts at the local level. I very much 
like your analogy of the law enforcement officers and the way 
they respond. An outbreak at the local level usually starts 
with a local or county health department, and it's escalated 
usually to the State health department and then to CDC. None of 
that would change. Much as at the local level the law 
enforcement agencies call the FBI in, local health departments 
will call in either the State health department or CDC.
    If in fact the outbreak or the incident is suspected based 
on what they see, based on the patterns to be something 
intentional rather than a naturally occurring outbreak, then 
the Department of Homeland Security clearly would be brought in 
early on so that the coordination with law enforcement and with 
other agencies is begun as quickly as possible.
    Ms. DeGette. Let me stop you right there. Who makes the 
determination to bring them in?
    Mr. Hauer. Well, that would be part of--as the information 
becomes available, HHS would notify Homeland Security very 
quickly that an outbreak investigation that they are looking at 
looks to be other than a naturally occurring outbreak; and as a 
matter of course, the new Department would probably be notified 
anytime there's a large outbreak or something suspicious as a 
matter of courtesy.
    Ms. DeGette. Okay. So I'm just trying to follow this, 
because I think it's important.
    Denver health, which actually--we have, as you know, one of 
the few coordinated departments. They see something they 
suspect is a big outbreak of something. They bring in the State 
health department. The State health department brings in CDC. 
Is it the CDC through HHS that then decides whether or not to 
bring Homeland Security in? Are there going to be Homeland 
Security people looking at that, too?
    Mr. Hauer. No. I would envision the HHS would notify 
Homeland Security that there's an outbreak of some kind, that 
it's being tracked. The other----
    Ms. DeGette. Okay. And then what's Homeland Security going 
to do that CDC doesn't do now?
    Mr. Hauer. Well, it depends on the nature of the outbreak, 
depending on what assets are needed, if the national 
pharmaceutical stockpile is needed. A lot of that requires 
infrastructure from other Federal agencies, air assets, 
mobilization of people, of volunteers, depending again on the 
nature of the outbreak, if we have to do a mass prophylaxis of 
people or a vaccination. All of that requires coordination from 
other Federal agencies, and that is better coordinated at the 
Department of Homeland Security.
    Ms. DeGette. Right. But I'm really talking about disease 
research and identification. In our last hearing, some of the 
medical and research experts said that they thought that 
transferring some of the responsibility for research in 
biological countermeasures and identification is simply going 
to add bureaucracy and it's going to put scientific decisions 
out of the hands of scientists and into the hands of 
bureaucrats. I'd like to know your response.
    Mr. Hauer. Yeah. But we've got to separate outbreak 
investigation or a response to a potential incident to the 
actual research and development activities that are going on on 
a daily basis. And the R&D activities that are currently being 
conducted by NIH and CDC would continue as they are----
    Ms. DeGette. Those would not be supervised by the new 
Department?
    Mr. Hauer. The new Department would coordinate and would 
oversee the bioterrorism, chemical terrorism and nuclear 
terrorism-related activity to ensure that at the Federal level 
we have a better coordinated approach. We have numerous R&D 
activities going on at the Federal level. By bringing them all 
together in one department we will have a more effective and 
more efficient R&D program.
    Ms. DeGette. Just one last question. I would ask unanimous 
consent for one additional----
    Mr. Greenwood. Without objection. The Chair would just 
remind you it's going to be a long day.
    Ms. DeGette. I know.
    But the Department of Homeland Security, we sort of have--
it would say to CDC and to NIH, we want you to do this 
research, because we think it's important.
    Mr. Hauer. Yes, I believe that is----
    Ms. DeGette. That is----
    Mr. Hauer. The question is one the chairman had earlier on.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Greenwood. The Chair recognizes the gentleman from New 
Hampshire, Mr. Bass, for 5 minutes.
    The gentleman from North Carolina, Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I really want to focus on the 
office that you're Acting Secretary of that we created in the 
bioterrorism bill, because I think that was debated heavily 
within the ranks of this committee. We saw a tremendous need 
for it, and I would take for granted you still see a tremendous 
need for it.
    Mr. Hauer. Yes. I think that there needs to be some kind of 
a coordinated function within HHS to continue to coordinate 
HHS's activities; and, again, the need for an Assistant 
Secretary's position is one that I would defer to Congress to 
decide about.
    Mr. Burr. Well, the great thing is you're here and we get 
to ask you. For that reason, I would ask you, do we need in the 
newly configured world of a shift of some responses over to 
Governor Ridge and Homeland Security to still create an 
Assistant Secretary slot at HHS that's configured much the same 
way?
    Mr. Hauer. Well, I think again there needs to be some 
coordinated function at HHS to be interfaced with the new 
Department and to coordinate the multiple activities within HHS 
that will remain with the Department once components are 
shifted over to Homeland Security.
    Mr. Burr. And the components that currently are under 
debate to shift are pretty obvious ones--the National Medical 
Response Team, the Metropolitan Response Teams, who also have 
significant roles as it relates to training, precautionary 
deployments because of national and international conferences 
that we feel that they may be needed for, which you could make 
a tremendous argument that they ought to stay over in HHS 
because their hopeful deployments are more for practice than 
they are for the actual threats.
    But we do leave at HHS the responsibilities, as I 
understand it, for bioterrorism preparedness, emergency 
preparedness, a number of things that are still over at HHS.
    I think the reason that this committee specifically created 
this Office of Assistant Secretary was we saw that without an 
Assistant Secretary there was an inability to focus on the 
preparedness that was needed. So I am asking you if we only 
shift a few of the functions and we've still got this huge 
slice that deals with our ability to prepare, don't we still 
need an Assistant Secretary level at HHS to drive that focus?
    Mr. Hauer. Yeah, the functions that are being shifted over 
to Homeland Security, or I should say the most obvious ones, 
are those that have response functions to either natural or 
intentional incidents, OEP, NDMS. Those functions because of 
the work they do with FEMA, with the Secret Service, with the 
FBI would fit quite naturally in the new department. The funds 
that will be coordinated and remain with HHS do need to have 
some coordinating focus within the Secretary's office. And how 
that's structured, you know, until the bill was passed we had a 
Director of the office, a Special Assistant. Any structure 
would work but we do need to have a coordinated focus within 
HHS for the Department of Homeland Security to deal with.
    Mr. Burr. I make the claim that there's a greater tendency 
today on the part of any agency to say now that we have an 
Office of Homeland Security it's their responsibility to make 
sure that the infrastructure for preparedness, whether it's 
national, whether it's State, whether it's local, is in fact in 
place, that they've the correct training, that they've got the 
right equipment, that they're prepared. Now we all understand 
it's the Office of Homeland Security that would make the 
notification in the event of a threat. But clearly the way 
we've designed it downstream, the equipping, the training will 
stay as a responsibility of HHS, am I correct?
    Mr. Hauer. That's correct.
    Mr. Burr. I guess what I would ask you is given that we 
were there before and even though we knew we needed this and 
this was from administration to administration to 
administration yet we didn't make a lot of progress, I'll ask 
you again don't you need an Assistant Secretary level to drive 
the type of focus within HHS regardless of who's there to make 
sure that downstream we have the components in place to be able 
to adequately address the call from Homeland Security that says 
we have to mobilize?
    Mr. Hauer. Yes, we definitely need somebody in the 
Secretary's office who reports to the Secretary, has the weight 
of the Secretary, to get and to maintain coordination of all 
the operational divisions within HHS.
    Mr. Burr. I might also add that we saw this office as a key 
component to our ability to rebuild our public health 
infrastructure in America. We cannot lose focus of that 
opportunity that we have. Even as we talk about how to split up 
these things we cannot miss the opportunity to rebuild that 
public health infrastructure, and that's through CDC.
    Mr. Hauer. It's within the focus of HHS and I think it 
deserves input from the Assistant Secretary level person.
    Mr. Greenwood. The Chair thanks the gentleman. Mr. Stupak 
is recognized for 5 minutes.
    Mr. Stupak. Thank you, Mr. Chairman. Following up Mr. 
Burr's question, whether we need an Under Secretary, the bill 
we have before us would give the current Secretary the 
authority to establish guidelines for State and local 
government efforts to develop and implement countermeasures to 
chemical, biological and other threats. But I believe the bill 
is ambiguous in conferring this authority. Is it your 
understanding that the guidelines are mandatory or are they 
merely suggestions?
    Mr. Hauer. The guidelines for State and local governments?
    Mr. Stupak. Yes.
    Mr. Hauer. Right now most of the money comes from the 
Federal Government.
    Mr. Stupak. But the bill. The bill's language, suggestive 
or mandatory?
    Mr. Hauer. Subjective of what, the guidelines?
    Mr. Stupak. Conferring the authority. Who's going to have 
the authority to do this?
    Mr. Hauer. It would be the Under Secretary of the 
Department of Homeland Security.
    Mr. Stupak. That's mandatory; they would have to do that?
    Mr. Hauer. That they would establish guidelines.
    Mr. Stupak. But yet it appears the bill doesn't really 
grant that authority. Do you believe these guidelines will be 
effective and will help to improve our State and local 
emergency preparedness if the Federal Government does not 
assist State and local units in acquiring the necessary 
technology? You can do the guidelines, you can say it's 
mandatory, but how do you assist them in acquiring the 
necessary technology to actually implement these guidelines to 
make us more secure?
    Mr. Hauer. At the State and local level? In fact, I think 
the Department of Homeland Security would fix one of the 
greatest problems for State and local responders, and that's 
been this multiple department approach. And, again, coming from 
the local level and the State level, I was always quite 
frustrated dealing with numerous departments here in DC.
    Mr. Stupak. How does this fix it?
    Mr. Hauer. It has one department that is coordinating 
units, one department that is coordinating technology, one 
department that is sending out a single message.
    Mr. Stupak. I won't have to go to HHS or DOE; I can go 
right to this department?
    Mr. Hauer. Correct.
    Mr. Stupak. Good. As you may be aware, the administration 
issued its homeland security proposal in advance of the joint 
House and Senate Intelligence Committee's completion of its 
analysis of what happened on September 11, how it might be 
prevented and how, moving forward, we might effectively respond 
to another attack. In your experience, isn't this analysis key 
to understanding what is needed to effectively prepare and to 
respond to an attack? Basically we're pushing this 
administration proposal, the chairman said it's going to be 
done by July 12. Shouldn't we really have the analysis of the 
joint committee before we push through a proposal? Don't we 
have the cart before the horse here?
    Mr. Hauer. In fact, I think that the proposal as it stands 
shows a fair amount of insight into the problems that we've 
confronted as a government.
    Mr. Stupak. A fair amount, but not all the insight, 
correct?
    Mr. Hauer. Poor choice of words. I think as it was drafted 
it really addresses many of the problems that I as a local 
responder for many years----
    Mr. Stupak. Many, but not all. See, the point I'm trying to 
say, if we've got these joint committees doing the work, 
shouldn't they do the work before we push through this 
proposal? I don't want to push this thing through and get it on 
the floor because we have this end of month recess, we're going 
to August, and say, jeez, we did this and we find out we did it 
half right or many things right but not all.
    Mr. Hauer. I think the longer we wait to try to resolve 
some of these problems, the longer we wait in trying to address 
the creation of this department, the longer we maintain some of 
the vulnerabilities that we have at the State level, the local 
level and at the Federal level. I think that's why the 
President at this point is anxious to move forward so 
aggressively to address this, because I think they see and 
understand exactly what the issues are.
    Mr. Stupak. But with all due respect, in our aggressiveness 
we shouldn't be blinded to the real needs that this country 
needs in homeland security.
    Mr. Hauer. Agreed. But I think that as the proposal stands, 
I think it addresses those issues. I think it addresses the 
needs.
    Mr. Stupak. Let's move on. I'd like to see the joint 
committee issue a report, their analysis, before we jump 
forward with this bill and not under this arbitrary time line. 
But the bill would also grant DHS the authority to develop 
interoperative communications technology in helping to ensure 
that emergency response providers acquire such technology, yet 
the bill does not include the authority for DHS to provide 
grants to assist State and local units of government to equip 
the first responders with the so-called interoperative 
communications technology. So how are we going to do this? How 
will the communications interoperability be improved without 
the authority?
    Mr. Hauer. I believe through the FEMA grant program and 
through the Department of Justice grant program there is the 
capability for State and local governments----
    Mr. Stupak. But you told me earlier we were going to do it 
all under Homeland Security for one-stop shopping.
    Mr. Hauer. But that will all be moved under Homeland 
Security.
    Mr. Stupak. So FEMA won't be in any more?
    Mr. Hauer. In combining those grant programs, one of the 
biggest frustrations at the local levels is all these multiple 
grant programs coming from FEMA, Justice and trying to figure 
out guidelines and who can do what, in trying to streamline 
that particularly, and I think you're absolutely right, 
interoperable communications has been a problem. It was a 
problem at the World Trade Center. And you know in many of the 
incidents I've managed over the years, interoperable 
communications has been a need. This new department will allow 
a better funding stream, a more coordinated funding stream and 
a more efficient funding stream so that things like 
interoperable communications can be funded.
    Mr. Stupak. So FEMA and Justice would be out of it?
    Mr. Hauer. They are moved into the new department and the 
money that they currently flow to the State and local 
governments would be better coordinated.
    Mr. Greenwood. The time of the gentleman has expired. Chair 
recognizes the gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I'll try to be brief, 
too. To my friend from Michigan I would just say that it's--he 
needs to talk to his minority leader. One of the driving 
emphasis to the movement so quick is the September 11 date set 
by the minority leader. I, too, am concerned about the speed at 
which we're moving. It's a bipartisan rapid movement to a 
finish line. I would--I like the aspect of this registrar to 
track and get information down or up the chain through the 
community health departments, the other Clancy book where they 
have the ebola virus spreading all over the place. The 
President at that time just stopped all flow of individuals 
within the country to try to contain the spread. I think that's 
part of it, the vision of what would happen if you could gather 
information of sporadic outbreaks and if you stopped the 
movement of people then you could possibly stop the spread, and 
I think that's a very positive thing.
    The question I have is why is the scope of the research 
authority given to the new Secretary limited to civilian 
efforts of the Federal Government and to what extent is the DOD 
research in these same areas, which I understand is quite 
extensive, being incorporated into the new department's 
authority?
    Mr. Hauer. I think when you look at the research that DOD 
does versus the research that we do at NIH and CDC, the 
research that DOD has historically done is combat environment 
research. It's based on military constructs and the needs of 
the military. And very often the military research does not 
transfer that easily to the civilian environment. We saw that 
in 1996 when a lot of DOD equipment was given to cities as part 
of the original Nunn-Lugar funding and a lot of cities really 
could not integrate military equipment into their response. The 
civilian research, however, is pretty much focused on the needs 
of the civilian responders, whether it's for chemical attack, 
nuclear or biological.
    So I think keeping that separation is a good one, I think, 
though it doesn't prohibit nor does it in any way obstruct the 
ability for the researchers to share data, to share what 
they're doing, but the military focus is really just a 
different focus. Ideally what you can do is take some of that 
military research that's going on, and this in fact occurs now, 
and hand it over to the civilian environment but to just, to 
take the military research per se, their focus has historically 
just been a little different.
    Mr. Shimkus. Does that sharing go on now?
    Mr. Hauer. Yes. In fact, we've got an ongoing program with 
DOD and we work closely with DOD. But again we work with them, 
a lot of their focus--and we're doing one project now on bio 
detection with them, but they look from the military 
perspective and how it would work in a combat environment. We 
have to translate that into how it works in the civilian 
environment.
    Mr. Shimkus. Being from the military environment, I 
understand there's great differences.
    I yield back my time.
    Mr. Greenwood. The Chair thanks the gentleman. The 
gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. We heard in our last 
hearing and again today we'll hear from medical and research 
experts that they believe transferring the responsibility of 
research and development in biological countermeasures to the 
Homeland Security is inefficient and adds additional 
bureaucracy and puts scientific decisions in the hands of the 
nonscientific agency. We haven't heard a response from the 
administration. Do you have a response to that concern about 
the adding bureaucracy, then taking the decisionmaking away to 
a nonscientific agency?
    Mr. Hauer. First of all, I don't think it takes any 
decisionmaking away from the researchers of NIH or CDC. I think 
at the end of the day having a central agency centrally 
coordinate the needs for research and then helps coordinate the 
direction of research based on the needs of terrorism will 
provide more efficiency with the use of our research dollars 
and I think more effectiveness. But it in no way inhibits 
what's going on in the scientific community. It in no way 
inhibits what is going on right now. It does not do anything to 
undermine the basic science research at NIH or the public 
health research at CDC.
    Mr. Green. You're the Acting Assistant Secretary of Public 
Health Emergency Preparedness. Your entire office would go over 
to the Homeland Security. Does that mean that HHS does not need 
to be in the public health and emergency preparedness program 
and would HHS be out of the preparedness business?
    Mr. Hauer. No. As I mentioned earlier, I think there's 
still a need to have somebody on the Secretary's staff who 
would be coordinating the activities of HHS.
    Mr. Green. And they would coordinate, I assume, with the--
--
    Mr. Hauer. With the department.
    Mr. Green. Would you explain the relationship between the 
select agent registration and lab security program with that of 
the lab bio safety programs already in operation under the 
proposed select agent registration lab security program.
    Mr. Hauer. The new select agent program is one that allows 
the new Department of Homeland Security to track and monitor 
agents that are being used. Mainly the pathogens that are being 
looked at in research labs around the country right now are 
pathogens that could be used as bioterrorist weapons. The new 
legislation, the legislation that was passed and would now be 
transferred to Homeland Security, allows the Department of 
Homeland Security to inspect labs, to trace and track the 
shipment of select agents, because clearly these agents could 
potentially be problematic if there's no control.
    Mr. Green. Who's going to take over the bio safety 
inspection program and will there be coordination?
    Mr. Hauer. Clearly there will be coordination. There's no 
question about it. CDC and NIH will continue to give guidance 
and technical assistance to the department re the lab safety 
and security issues.
    Mr. Green. Who's going to actually do it? Will it be the 
Homeland Security?
    Mr. Hauer. Yes, the Department of Homeland Security will 
oversee the select agent registry. The CDC and NIH will have 
input as to what agents should be on the select agent list.
    Mr. Green. Okay. Will the new Homeland Security also take 
over the bio safety regulation inspection program or will that 
still be under the CDC?
    Mr. Hauer. That would be under, if I'm correct, under the 
CDC.
    Mr. Green. Are you going to have dual inspectors? Will 
there be collaboration between the two?
    Mr. Hauer. I would envision there would be good 
collaboration between the two.
    Mr. Green. So there wouldn't be dual inspections by two 
Federal agencies?
    Mr. Hauer. I would not envision it at this point. That 
level of detail needs to be worked out as the department 
evolves.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Greenwood. The Chair thanks the gentleman, recognizes 
the gentlelady from New Mexico, Ms. Wilson, for 5 minutes.
    Mrs. Wilson. Thank you, Mr. Chairman. I appreciate your 
having this hearing today. I appreciate your having so many 
good witnesses. I wanted to start out with an observation, 
listening to the questioning that's going on, and then ask a 
couple of questions. It seems to me that kind of getting away 
from some of the detail and getting up to a more general 
strategic level, there are two strengths that the United States 
can buildupon to ensure homeland security. One is the ability 
to collect and integrate information. That's not within the 
realm of this committee's jurisdiction, but it is critical. The 
second is technological superiority. Without leveraging those 
two strengths, this department is not going to be successful, I 
don't think. Even the draft legislation is weak in both of 
those areas, as evidenced by the confusion about the R&D 
structure and the lack of an R&D structure in the bill itself. 
In the draft bill there's only one Under Secretary that has any 
kind of responsibility for R&D. It's underemphasized in the 
bill. It's unclear. And that's been demonstrated amply by the 
questions and answers we've gotten this morning where it needs 
to be clarified and we need to know how we're going to pursue 
research, development, tests, and evaluation, because if we 
don't we won't be able to leverage those strengths long term.
    I don't think the answer is necessarily moving more cells 
back and forth between a new department and old department in 
regard to particular research. I also think we should avoid the 
temptation to designate a particular group or a particular 
laboratory as the one that does research on homeland security, 
because every Under Secretary is going to have different needs. 
If you're the Under Secretary who's responsible for biological 
events you will be wanting to call on NIH and CDC and the 
pharmaceutical agency and national laboratories and 
universities, depending on the nature of the problem, of the 
alligators that are after you today. At the same time there 
needs to be a longer term focus. The guy who is responsible for 
emergency preparedness has problems and operations he needs to 
conduct today and will be looking at applied research. But 
there is nothing in the bill that gives the Department of 
Homeland Security that broad look and that long-term look for 
both basic research and applied research that will give us the 
things that all of those guys are going to be asking for 10 
years from now or 20 years from now. It's a critical weakness 
in the bill, and I think we're going to have to remedy it in 
part in this committee as well as other committees that are 
looking at it.
    Let me ask a couple of questions. What is your 
understanding in the base bill of where the budget authority 
lies? Who gets the money and manages the money for bioterrorism 
research? Is it you, or is it HHS or is it Department of 
Homeland Security?
    Mr. Hauer. It's the Department of Homeland Security.
    Mrs. Wilson. So they are the ones who will determine where 
the dollars get farmed out to, but they can call on the CDC lab 
or NIH or whatever?
    Mr. Hauer. Or one of the national labs. Again, one of the 
reasons you have better coordination of funding is by having a 
central focus for all the R&D on these different threats.
    Mrs. Wilson. You currently do work for others within HHS? I 
mean, do you have a Department of Defense or other Federal 
agencies come and say we've got this piece of work to do and 
there's a laboratory within HHS that has the expertise to do 
it?
    Mr. Hauer. On occasion, yes.
    Mrs. Wilson. Do those relationships--are they difficult to 
perform or are they--I mean, is it hard to do or is it a fairly 
seamless process for that money to be----
    Mr. Hauer. It depends on the nature of the research.
    Mrs. Wilson. Okay. Do you do cooperatively research with 
different agencies or even private industry and HHS 
laboratories-funded research?
    Mr. Hauer. Yes.
    Mrs. Wilson. How do those work?
    Mr. Hauer. It depends again on the nature of the research. 
We have ongoing research with other agencies, with 
universities; depends on whether it's the biologic area where 
we have strengths or in the nuclear area where we work with 
some of the national labs on some of the R&D programs. We have 
certain needs, but they might have certain strengths. Again it 
depends on the research.
    Mrs. Wilson. I know that your position is new and you're 
just getting up and running, but have you got in progress a 
strategic plan or an R&D road map for setting priorities in 
both short-term and long-term research in the biological area?
    Mr. Hauer. Absolutely. We're looking at a number of areas, 
including new vaccines, new antibiotics. We're working with NIH 
on the research strategy, both short and long term, on 
immunomodulations to try and avoid using antibiotics. We're 
again working both within HHS and with outside experts to help 
formulate some of the agenda.
    Mrs. Wilson. Thank you.
    Mr. Greenwood. The Chair thanks the gentlelady; recognizes 
for 5 minutes the gentlelady from California, Ms. Capps.
    Mrs. Capps. Thank you, Mr. Chairman, for holding this 
hearing and to you, Mr. Hauer, for your testimony. The 
publication, weekly publication, Mortality and Morbidity 
Report, from CDC was very useful to me in the years that I was 
a school nurse working in public health, as I did in my career 
before coming to this place. When I visited with Mr. Deutsch at 
the CDC a few months ago, I was struck by how intimately 
involved they are with health officers and health facilities on 
the local level, probably more than about any other Federal 
agency that I'm aware of. To me that is a real skill.
    To cite another example, shortly after 9/11, I, as did many 
of my colleagues, went back home to the various local entities 
that had come together around this event and put together 
disaster teams of preparedness using the local structure. I 
asked them what they needed. They told me they felt the public 
health and other infrastructures was already stretched before 
9/11 at the local level. We know that any event happens 
locally, witness the LAX event, whatever that means, which 
happens at a precise place.
    So what we have both in CDC and NIH, in my opinion, is that 
ability with professional expertise to go up and down the line 
from the local research interests to the national ability to 
gather together, coordinate and so forth. If we were stretched 
before 9/11 in our infrastructure, which I and others believe 
we were, how can whatever is being put together now through 
Homeland Defense mitigate those real needs that are there and 
not be seen, as some at home have said to me, where's the money 
for the first responders. We know what we need to do to 
prepare. We don't even have vaccines on hand for flu or various 
other things. That's where I'm coming from today.
    Mr. Hauer. The issue of the money getting to the first 
responders, HHS, and in probably record time for the Federal 
Government, the Secretary, once the President signed the bill 
in January, told us that we had a very short window to get 
money to the local and State public health departments, and in 
fact we did that. Thirty days after the grants came in they 
were reviewed. We had over 114 grants reviewed within 30 days 
from the four cities and the States and Territories, and they 
were reviewed and the money was committed and got it out to the 
States.
    Mrs. Capps. I don't want to interrupt you, but right at 
that point that was before this legislation. This new 
department that we are struggling with and asking questions 
about is going to be yet another layer. I mean, the immediacy 
that you just described is what is needed. What will this 
agency do?
    Mr. Hauer. I think a couple of things. First of all, this 
department, you mentioned earlier on that local responders 
continue to wonder where the money is. Having been one of them 
for many years, I understand those frustrations. I think what 
the President is trying to do is ensure that there is an 
efficiency in getting that money out as well as a rapidity in 
getting money out to State and local responders, but ensuring 
at the same time that there's not duplication of programs, as 
there is now, which is confusing local responders and making it 
very difficult for them to understand training guidelines. We 
have training programs that sometimes have contradictory 
information. We are giving out equipment, hand-held assets for 
detecting biological equipment, which should not be used by 
local responders.
    Mrs. Capps. I see the yellow light. I want to pin this down 
because I appreciate the fact that you have had very local 
experience and so you know what this is. It is very easy to be 
cynical and say this is just one more bureaucracy. Precisely at 
the area you're describing, coordination some of us are 
hearing, is that a transfer of authority? And I don't think 
we're--I for one am not even on the subcommittee but I'm very 
interested in this topic. I need to be convinced more clearly 
that the authority of professionals in the field, in the area 
of research, whatever, is not going to compromise that 
integrity.
    Mr. Hauer. I don't think there's any question that what 
this bill envisions is allowing from an R&D perspective those 
folks doing R&D, whether it's the national lab, NIH or CDC, to 
continue their focus, but when it comes to the threats that 
confront the country right now, whether it's chemical, 
biological or nuclear, to have a more coordinated effort in 
researching those types of remedies so that we don't have one 
agency giving something out to first responders that might not 
work while another agency is saying don't use them. And that's 
where we stand right now. I think that's what the President is 
trying to do.
    Mrs. Capps. Thank you.
    Mr. Greenwood. The Chair thanks the gentlelady. Mr. Hauer, 
thank you so much for your testimony, for answering our 
questions and for your service. You are excused.
    The Chair would call the next panel, consisting of Ms. Jan 
Heinrich, who is the Director of Health Care and Public Health 
Issues at the General Accounting Office; Dr. Gail Cassell, Vice 
President, Scientific Affairs, Distinguished Research Scholar 
for Infectious Diseases at Eli Lilly and Company; and Dr. 
Margaret Hamburg, Vice President, Biological Programs, Nuclear 
Threat Initiative.
    Thank you for being with us. This committee is holding an 
investigative hearing. When doing so, it is our practice to 
take testimony under oath. Do any of you have qualms about 
testifying under oath?
    In that case, I should also inform you that pursuant to the 
rules of the committee and the House, that you are entitled to 
be represented by counsel. Do any of you wish to be represented 
by counsel?
    Thank you. If you will stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Greenwood. Thank you very much. You are under oath. Ms. 
Heinrich, you are recognized for 5 minutes.

 TESTIMONY OF JANET HEINRICH, DIRECTOR, HEALTH CARE AND PUBLIC 
HEALTH ISSUES, GENERAL ACCOUNTING OFFICE; GAIL H. CASSELL, VICE 
  PRESIDENT, SCIENTIFIC AFFAIRS, DISTINGUISHED LILLY RESEARCH 
  SCHOLAR FOR INFECTIOUS DISEASES, ELI LILLY AND COMPANY; AND 
   MARGARET A. HAMBURG, VICE PRESIDENT, BIOLOGICAL PROGRAMS, 
                   NUCLEAR THREAT INITIATIVE

    Ms. Heinrich. Mr. Chairman and members of the subcommittee, 
I appreciate the opportunity----
    Mr. Greenwood. I think your mike is not on yet.
    Ms. Heinrich. Is that better?
    I appreciate the opportunity to be here today to discuss 
one component of the proposed creation of the Department of 
Homeland Security. My remarks will focus on the potential 
effects of reorganization of biomedical research under Title 
III.
    The proposed department is tasked with developing national 
policy for and coordinating the Federal Government's civilian 
research and development efforts for all threats, biological, 
radiological and nuclear. The new department could improve 
coordination of the biomedical research efforts, most of which 
is sponsored or conducted at the National Institutes of Health. 
The President's proposal could help improve coordination by 
giving one person the responsibility for a single national 
research and development agenda.
    In the past, we have recommended the creation of a unified 
strategy to reduce duplication and leverage resources, and 
suggested that the plan be coordinated with Federal agencies 
performing research as well as State and local authorities. 
Such a plan would help to ensure that research gaps are filled, 
unproductive duplication is minimized, and that individual 
agency plans are consistent with the overall goals.
    Interagency coordination will remain essential under the 
proposal. It should be noted that the legislation focuses on 
civilian efforts only. The new department will also need to 
coordinate with DOD because it also conducts biomedical 
research geared toward protecting service members, but 
applicable to the civilian population as well.
    NIH and DOD currently collaborate on a number of projects, 
such as a shared data base to compare the sequences and 
functions of pox virus genes and testing of new vaccines. This 
coordination needs to continue.
    It also includes four academic centers, CDC, USAMRID, 
DARPA, and American Type Culture Collection.
    Despite these positive aspects of the proposal, we are 
concerned about the implications of the proposed transfer of 
control and priority setting for dual-purpose research. The 
President's proposal would transfer the responsibility for 
biomedical defense research to the new department, but the 
programs would continue to be carried out by NIH. These 
programs include a variety of efforts to understand basic 
biological mechanisms of infection and to develop and test 
rapid diagnostic tools, vaccines, and antibacterial and 
antiviral drugs.
    The research on biologic agents that could be used by 
terrorists cannot be readily separated from research on 
emerging infectious diseases. For example, research being 
carried out on antiviral drugs for biodefense research is 
expected to be useful in the development of treatments for 
hepatitis C. Research to expand our knowledge of factors that 
play a role in determining antibiotic resistance, virulence and 
invasiveness, as well as factors influencing the severity of 
disease, are critical to emerging infectious diseases as well 
as biodefense research.
    In addition, the proposal would allow the new department to 
direct, fund and conduct research on its own. This raises the 
potential for duplication of efforts, lack of efficiency, and 
an increased need for coordination with other departments that 
would continue to carry out relevant research. It is 
inefficient to build and duplicate the expertise and facilities 
that already exist in the current Federal laboratories that are 
needed to conduct this work.
    In conclusion, better coordination of research efforts 
could reduce wasteful duplication and increase efficiency. We 
are concerned, however, with the President's proposal to 
transfer broad control of biomedical research to the new 
department. Although there is a need for a strategic plan for 
research, there is also a need for maintaining the synergy of 
biodefense, emerging infectious diseases, and basic biomedical 
research efforts.
    The R&D funding and priority setting needs to be vested at 
the program level best positioned to understand the benefits of 
both the basic and applied research efforts. If disagreements 
arise over priorities for biomedical research, there may need 
to be a mechanism for resolution within the Office of the 
President or in the Congressional appropriations process.
    Mr. Chairman, this concludes my remarks. I would be happy 
to answer any questions.
    [The prepared statement of Janet Heinrich appears at the 
end of the hearing.]
    Mr. Greenwood. Thank you, Ms. Heinrich.
    Ms. Cassell.

                  TESTIMONY OF GAIL H. CASSELL

    Ms. Cassell. The establishment of a new Federal Department 
of Homeland Security can potentially achieve greater 
efficiency, effectiveness and accountability regarding many 
aspects of terrorism. However, there are unique characteristics 
of bioterrorism that deserve special consideration and suggest 
the need to address them in a manner differently than that 
proposed by the administration's bill. I will limit my comments 
this morning to those that directly relate to research leading 
to countermeasures.
    There is no simple counter to bioterrorism, no magic 
bullet. Instead, development of an integrated set of strategies 
is required. Such efforts must include preventing countries 
from acquiring bioweapons in the first instance, dismantling 
existing programs and capabilities where proliferation has 
already occurred, deterring the use of biological weapons and 
ultimately putting in place countermeasures that can rapidly 
detect and effectively defend against such use. It is the 
latter that requires special consideration with respect to the 
proposed role of DHS.
    In the long term the only way to defend against 
bioterrorism is through a combination of constant surveillance, 
accurate diagnostics to identify threats as early as possible, 
and availability of high quality vaccines and drugs that can be 
useful against any attacks that do occur. Research related to 
bioterrorism is inextricably linked to that of naturally 
occurring infectious agents and development of the new 
antibiotics, antivirals diagnostics and vaccines. Thus, the 
research and development of technologies for biodefense should 
be synergistic and duplicative.
    The diversity of existing biological weapons and the ever 
increasing possibilities preclude simple therapeutic 
countermeasures to bioterrorism. Currently our countermeasures 
are very limited, even for known threats. This is a very 
important consideration. There are 13 viruses on the select 
agent list today, yet there is only one antiviral and this is 
for smallpox, and it must be administered intravenously. There 
are no truly broad spectrum antivirals. We have only a limited 
number of antivirals for a few naturally occurring viruses.
    The situation is somewhat better, but still worrisome with 
respect to antibiotics. There has only been one new class of 
antibiotics developed in the past 30 years. The Russians are 
known to have constructed bioweapons resistant to current 
antibiotics. While there are currently 23 antibiotics in Phase 
I through III clinical trials today, there are few new classes 
and importantly no new broad spectrum antibiotics, only more 
quinolones like Cipro. In short, our antibiotic armamentarium 
is limited and there is growing concern about an increase in 
resistance to existing antibiotics, exemplified by two 
different bills introduced within the past few months.
    An idea of the problem of resistance, in fact it's now 
known that the E. coli strains occurring, 90 percent of these 
are--or 50 percent of these actually are resistant. Thus it 
seems clear that no public health response to bioterrorism is 
likely to prove effective without addressing the overall 
problem of existence and the technical challenges of drug 
discovery and development.
    Development of effective countermeasures will depend on 
interdisciplinary research ranging from basic research into the 
mechanisms by which the agents cause disease, how the body 
responds, and how the agents are transmitted. This new 
knowledge then must be used to develop innovative vaccines, 
antibiotics, and antivirals and immunomodulators. Equally 
important will be to benefit from knowledge gained in previous 
failures in development efforts. It is important to realize 
while development of a new bioweapon only takes months, 
development of a single new drug or vaccine on average, based 
on many years of experience, requires anywhere from 8 to 10 
years. Thus, meeting time lines and research goals are vital to 
our defense given our current situation.
    The magnitude of this challenge cannot be underestimated. 
Success will require involvement of the very best scientific 
and medical talent in government, academia and the private 
sector. Likewise, in order to achieve success in a timely 
manner the United States must be able to capitalize upon the 
existing infrastructure for product development. Engaging the 
full spectrum of private industry from the smallest biotech to 
the largest pharmaceutical companies in the search for 
solutions will not only greatly raise the chances of success, 
but also significantly lower the total cost to taxpayers, 
augmenting public appropriations with private capital 
investment.
    The NIH, specifically NIAID, is uniquely positioned to lead 
this effort. The NIH recognizes that significant advances occur 
when they often are unforeseen. These advances expand the 
experimental possibilities. It must be recognized that not all 
research problems are equally approachable no matter how urgent 
and important to public health. Development of countermeasures 
for bioweapons is not like designing a new tank. Research and 
development of countermeasures will be a long-term endeavor.
    There is always uncertainty about where the most valuable 
discoveries can be made, but NIH is best placed to identify 
scientific opportunities and applications that are relevant to 
the most pressing issues. NIAID is unrivaled in its track 
record of bringing the right scientists and rigorous peer 
review and oversight of funded research. Indeed, many of the 
best investigators have already been funded by NIAID and have 
recently made major advances in determining the mechanism of 
action of the anthrax toxin and the molecular mechanism by with 
the Ebola virus induces death.
    As evidenced by mechanisms put in place early in the AIDS 
epidemic, NIAID has a positive track record of working with the 
private sector from early phase discovery to clinical 
development. NIAID can quickly mobilize the entire research 
community. Last fall NIAID conducted a study to show that 
existing stocks of smallpox vaccine could be diluted at least 
fivefold to provide immediate protection to a larger number of 
individuals should the need arise. Within 3 months post-9/11 a 
comprehensive biodefense research agenda was developed with 
broad input from the scientific and medical communities, 
including those from industry. Over 20 initiatives already have 
been launched to expedite biodefense research by NIAID.
    This impressive efficiency is in part based upon the 
synergy which is derived by driving the biodefense research in 
parallel with all other infectious disease research. Separation 
of these two efforts could result in failure due to missed 
opportunities, failure to apply the latest technologies or 
knowledge gained from the study of other infectious agents. 
Therefore, I strongly recommend that the Department of Health 
and Human Services continue to be responsible for the 
prioritization, direction, and conduct of Federal research 
efforts related to the development of countermeasures for 
bioterrorism.
    Although the administration's bill recognizes the necessity 
that HHS conduct the research and development programs, the 
bill provides that DHS in consultation with HHS shall have 
final authority to establish the research and development 
program, including the setting of research priorities. The 
proposed transfer of program and funding authority in the 
administration's bill gives ultimate control of research 
spending and priorities to DHS, a nonscientific, non-public, 
health-based agency. I will submit that you cannot wisely set 
research priorities without being actively engaged in research 
and with wise medical input from the medical and scientific 
investigators.
    The bottom line is that DHS could under the current 
administration's bill change priorities midstream and by budget 
allocations. To create the appropriate scientific and medical 
infrastructure in DHS would result in loss of momentum and 
unpredictability of new and ongoing research programs within 
HHS. There is no time to reinvent the wheel. Rather it should 
capitalize on the solid infrastructure that already exists in 
the infectious disease research in this country.
    It is not clear which activities by the DHS would 
duplicate, supplant, or replace existing programs conducted by 
HHS and create increased and recurring costs. One of the most 
critical determinants of success in biodefense research will be 
support and oversight of excellent science based upon peer 
review and merit. As stated earlier, NIH-NIAID has an 
unparalleled track record of success based upon external peer 
review. A scientific health agency, HHS, rather than the 
nonscientific, non-public health DHS, should have the principal 
authority for developing and prioritizing scientific and health 
related programs.
    The role of DHS should be to integrate threat analysis and 
vulnerability assessments and research agenda. This could be 
accomplished by appointment of an Assistant Secretary who would 
have dual reporting to HHS and DHS and to work closely with 
NIAID. The desired outcome would be mutually agreed upon 
research priorities that address threatening biological agents, 
whether they be intentionally released or naturally occurring.
    Last, regulation and oversight measures for work with 
infectious agents must be balanced so as not to impede 
legitimate research, diagnosis, and treatment of naturally 
occurring infectious agents. I recognize that there's concern, 
and I share those concerns, about pathogenic microorganisms 
being used as biological weapons by nations or individuals. As 
these concerns are addressed, however, I urge that there be 
careful review of possible measures that might be taken to 
establish appropriate safety and enforcement measures. HHS has 
the best scientific and institutional knowledge to provide 
oversight of select agent registration and to develop rational 
enforcement programs.
    Thus, I believe the program for select agents should remain 
within HHS at the CDC. To transfer it to DHS will result in a 
delayed implementation, which could considerably slow down 
implementation of the biodefense research agenda. And as 
currently structured, I would just point out that minimal 
regulations are being put in place now so there's opportunity 
to change those obviously by DHS further down the road. As a 
result of this, more importantly, DHS could result in undue 
tension within the research community. Inappropriate policy 
measures and regulations to prevent terrorists from acquiring 
pathogens could have unintended consequences for research aimed 
at developing the very countermeasures that could eventually 
remove agents from the select agent list. There needs to be 
careful balancing and public concern about safety and security 
and the need to conduct legitimate research to protect the 
public.
    I thank you for the opportunity to share my concerns with 
you this morning, and I'm happy to answer questions.
    [The prepared statement of Gail H. Cassell follows:]
 Prepared Statement of Gail H. Cassell, Vice President for Scientific 
Affairs and Distinguished Research Scholar in Infectious Diseases, Eli 
                           Lilly and Company
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to participate in this hearing. Before sharing my views, 
some comments about my background may be helpful. My name is Gail 
Cassell. I am a microbiologist currently serving as Vice President for 
Scientific Affairs and Distinguished Research Scholar in Infectious 
Diseases, Eli Lilly and Company. Prior to my arrival at Lilly five 
years ago, I was the Charles H. McCauley Professor and Chairman of the 
Department of Microbiology of the University of Alabama Schools of 
Medicine and Dentistry, Birmingham, Alabama. My background is that of a 
research scientist in infectious diseases working in laboratories of 
both industry and a research-intensive university as well that of a 
Director of large training programs for pre- and postdoctoral students 
in molecular genetics, virology, and immunology. I have served on the 
Advisory Committee of the Director of the National Institutes of Health 
(NIH) and on the Advisory Council of the National Institute of Allergy 
and Infectious Diseases of the NIH and as Chair of the Board of 
Scientific Councilor's of the National Centers for Disease Control and 
Prevention (CDC). I am currently a member of the Director's Advisory 
Committee of the CDC. Over the years, I have participated in reviews of 
the biomedical research programs (including bioweapons defense 
research) in the Department of Defense. Of particular relevance to the 
discussions today, I have been actively involved in issues related to 
biodefense for over the past decade, as a past President of the 
American Society for Microbiology (ASM), Chair of the Public and 
Scientific Affairs Board of the ASM and a member of ASM's Task Force on 
Biological Weapons. I served as Co-chair of the committee that reversed 
the decision to destroy the U.S. stocks of smallpox and as a member of 
the Advisory Committee to establish the first unit in the U.S. military 
to address a bioweapons attack on U.S. soil. In addition, I continue to 
serve on a number of committees in the National Academy of Sciences 
(NAS) dealing with bioweapons, including a Russian research advisory 
committee. Most recently I served on the Bioweapons Subcommittee of the 
NAS Committee on Science and Technology for Countering Terrorism.
    The events of September 11, and the anthrax incidents which 
followed, have proven the vulnerability of the United States to 
terrorism and the complexities of preparedness. The need to strengthen 
planning, coordination, implementation and oversight of homeland 
security is obvious. The establishment of a new federal Department of 
Homeland Security, at a cabinet level, can potentially achieve greater 
efficiency, effectiveness and accountability regarding many aspects of 
terrorism. However, there are unique characteristics of bioterrorism 
that deserve special consideration and suggest the need to address them 
in a manner differently from that proposed by the Administration's 
Bill. These characteristics include: (1) inadequacy of existing 
countermeasures and urgent requirement for interdisciplinary research; 
(2) indistinguishable features of bioterrorism and naturally occurring 
infectious diseases; and (3) the nature and extent of the bioterrorism 
threat and the need to balance public safety and legitimate research in 
regulation and oversight measures.
 1. inadequacy of existing countermeasures and urgent requirement for 
                       interdisciplinary research
    There is no simple counter to bioterrorism, no ``magic bullet.'' 
Instead, development of an integrated set of strategies is required. 
Such efforts must include preventing countries from acquiring 
bioweapons in the first instance, dismantling existing programs and 
capabilities where proliferation has already occurred, deterring the 
use of biological weapons, and, ultimately, putting in place 
countermeasures that can rapidly detect and effectively defend against 
such use. It is the latter that requires special consideration with 
respect to the proposed role of DHS.
    In the long term, the only way to defend against bioterrorism is 
through a combination of constant surveillance, accurate diagnostics to 
identify threats as early as possible, and continuous innovation to 
provide high quality vaccines and drugs that can be useful against any 
attacks that do occur. Research related to bioterrorism is inextricably 
linked to that of naturally occurring infectious agents and development 
of new antibiotics, antivirals, diagnostics and vaccines. The research 
and development of technologies for biodefense should be synergistic 
and not duplicative.
    The diversity of existing biological weapons and the ever-
increasing possibilities preclude simple therapeutic countermeasures to 
bioterrorism. Furthermore, response possibilities are limited even for 
known threats. Although there are 13 viruses on the current select 
agent list, there is only one antiviral, which is for smallpox and must 
be administered intravenously. There are no truly broad-spectrum 
antivirals, and only a limited number of antivirals for routine 
pathogens like influenza, herpes, hepatitis B, and HIV. The situation 
is somewhat better but still worrisome with respect to antibiotics. 
There has only been one new class of antibiotics developed in the past 
three decades. The Russians are known to have constructed antibiotic 
resistant bioweapons. In short, our antibiotic armamentarium is 
limited, and there is growing concern about an increase in resistance 
to existing antibiotics. It seems clear that no public health response 
to bioterrorism is likely to prove effective without addressing the 
overall problem of antimicrobial resistance and the challenges of drug 
discovery and development. Finally, the best deterrent against the use 
of a biological weapon of mass destruction may be a constant stream of 
new, innovative antibiotics, antivirals, and vaccines. Knowledge of 
such commitment and successful developments would surely dissuade the 
efforts of our enemies in such an arena.
    Development of these countermeasures will depend on 
interdisciplinary research ranging from basic research into the 
mechanisms by which the agents cause disease, how the body responds, 
and how the agents are transmitted. This new knowledge then must be 
used to develop innovative vaccines, antibiotics, antivirals, and 
immunomodulators. Equally important will be to benefit from knowledge 
gained in previous failures in countermeasure development efforts. 
Given the long lead-time necessary for development of vaccines and 
drugs (average 8-10 yrs), achieving timelines and goals are critical.
    The magnitude of the challenge to develop effective countermeasures 
is great. Success will require involvement of the very best scientific, 
medical, and pharmaceutical talent in government, academia, and the 
private sector. Likewise, in order to achieve success in a timely 
manner, the United States must be able to capitalize upon the expertise 
of and existing infrastructure for product development that resides in 
the pharmaceutical industry. Engaging the full spectrum of private 
industry, i.e., from the smallest biotech to the largest pharmaceutical 
companies, in the search for solutions to infectious diseases, will not 
only greatly raise the chances of success, it can also significantly 
lower the total cost to taxpayers, augmenting public appropriations 
with private capital investment. Thus, it is critical to recruit these 
organizations into the biodefense effort and assure effective alignment 
between government, academia and industry.
    NIH/NIAID is uniquely positioned to lead the effort. The NIH 
recognizes that significant advances occur when they are often 
unforeseen. These advances expand the experimental possibilities and 
open new pathways for research. It must be recognized that not all 
research problems are equally approachable no matter how urgent and 
important to public health. Research and development of countermeasures 
will be a long-term endeavor. There is always uncertainty about where 
the most valuable discoveries can be made but NIH is best placed to 
identify scientific opportunities and applications that are relevant to 
the most pressing issues that will yield solutions. NIH/NIAID is 
unrivaled in its track record of bringing together the brightest 
scientists and rigorous peer review and oversight of funded research. 
Indeed, many of the best investigators have already been funded by 
NIAID and have recently made major advances in determining the 
mechanism of action of the anthrax toxin and the molecular mechanism by 
which the Ebola virus induces death. As evidenced by mechanisms put in 
place early in the AIDS epidemic, NIAID has a positive track record of 
working with the private sector from early phase discovery to clinical 
development. They can quickly mobilize the research community. Last 
fall, the NIAID conducted a study to show that existing stocks of 
smallpox vaccine could be diluted at least 5-fold to provide immediate 
protection to a larger number of individuals should the need arise. 
Within three months a comprehensive Biodefense Research Agenda was 
developed with broad input from the scientific and medical communities, 
including those from industry. Over 20 initiatives already have been 
launched to expedite biodefense research. This impressive efficiency is 
in part based upon the synergy, which is derived by driving the 
biodefense research in parallel with all other infectious disease and 
immunology research. Separation of these two efforts could result in 
failure due to missed opportunities--failure to apply the latest 
technologies or knowledge gained from the study of other infectious 
agents. Therefore, I recommend that the Department of Health and Human 
Services (HHS) continue to be responsible for the prioritization, 
direction, and conduct of federal research efforts related to 
development of countermeasures for bioterrorism.
    Although the Administration's Bill recognizes the necessity that 
HHS conduct the research and development programs related to infectious 
diseases, Section 303(a)(2) of the Bill provides that DHS, in 
consultation with HHS, shall have final authority to establish the 
research and development program, including the setting of priorities. 
The proposed transfer of program and funding authority in the 
Administration's Bill gives ultimate control of research spending and 
priorities to DHS, a non-scientific, non-public health based agency. To 
create the appropriate scientific infrastructure in DHS would result in 
loss of momentum and unpredictability of new and ongoing research 
programs within HHS. There is no time to ``re-invent the wheel'' rather 
we should capitalize on the solid infrastructure that already exists in 
infectious disease research in this country. It is not clear which 
activities by the DHS would duplicate, supplant, or replace existing 
programs conducted by HHS and create increased and recurring costs. One 
of the most critical determinants of success in biodefense research 
will be support and oversight of excellent science based upon peer 
review and merit. As stated earlier, NIH/NIAID has an unparalleled 
track record of success based upon merit review.
    In summary, a scientific health agency, HHS, rather than the non-
scientific, non-public health DHS should have the principal authority 
for developing and prioritizing scientific and health related programs. 
The role of DHS should be to integrate threat analysis and 
vulnerability assessments into the research agenda. This could be 
accomplished by appointment of an Assistant Secretary that would have 
dual reporting to HHS and DHS and to work closely with NIH/NIAID. The 
desired outcome would be mutually agreed upon research priorities that 
address threatening biological agents.
 2. indistinguishable features of bioterrorism and naturally occurring 
                          infectious diseases
    While bioterrorism poses grave threats, the human race has been 
ravaged by infectious diseases throughout its history. The emergence of 
new infectious diseases (notably HIVAIDS) has decimated entire 
societies, while infectious agents such as influenza can turn 
unexpectedly virulent, e.g. the 1918 influenza pandemic killed tens of 
millions of people. In this broader context of emergent and resurgent 
infectious disease, the victims of a bioterrorist attack pose an 
indistinguishable set of public health challenges from any number of 
foreseeable natural outbreaks. Since well over 30 previously unknown 
infectious agents (including several new hemorrhagic fever viruses and 
new highly virulent strains of streptococci) have been identified since 
1973, it is imperative that our public health infrastructure and 
surveillance systems be structured to recognize both naturally 
occurring and intentionally released infectious agents. CDC should have 
this responsibility. Section 505(a)(2) of the Administration's Bill 
requires DHS to carry out these functions under agreement with HHS. A 
separate public health system for biodefense should not be created. The 
primary duty and authority should remain with CDC, which has the 
existing knowledge, experience, and expertise. Again, an Assistant 
Secretary with dual reporting to HHS and DHS could coordinate planning 
and development of programs and lend technical assistance. Working 
closely with the CDC Director mutually agreed upon public health 
priorities for bioterrorism preparedness and response could be achieved 
in an efficient manner.
  3. the nature and extent of the bioterrorism threat and the need to 
    balance public safety and legitimate research in regulation and 
                           oversight measures
    Biological weapons have varied characteristics. High potency, 
substantial accessibility, and relatively easy delivery characterize 
the most fearsome agents. Humans, animals, and plants are potential 
targets for bioterrorism. Many of these agents-bacteria, viruses, and 
toxins--occur naturally in the environment. Thus the agents and much of 
the technology required to produce them are available for civilian or 
military use in many countries. Regulation and oversight measures for 
work with infectious agents must be balanced so as not to impede 
legitimate research, diagnosis, and treatment of these naturally 
occurring infectious agents. I recognize that there is public concern 
about pathogenic microorganisms being used as biological weapons by 
nations or individuals. As these concerns are addressed, however, I 
urge that there be careful review of possible measures that might be 
taken to establish appropriate safety and enforcement measures. The 
response taken should be carefully weighed and it should be balanced to 
avoid over regulation and intrusive schemes that could interfere with 
the flow of research activities in academia and industry. Any resulting 
harm to research could deprive society of the benefits of research 
advances. Scientific research must not be discouraged by unreasonable 
restrictions. To do so would not serve the public interest.
    In reviewing the possible risks and options for responses, we 
should consider emulating the process used in overseeing recombinant 
DNA research. This experience is an example of where a technical 
problem was recognized and a balanced analysis and an appropriate 
mechanism were set in place for overseeing activities. The NIH 
Recombinant DNA Advisory Committee developed a rational approach to 
regulatory oversight of recombinant DNA. The NIH Guidelines were 
developed by a committee of experts and an oversight regime was 
designed with an understanding of the issues and risks. We should use 
the same model to construct a reasonable method that will not impede 
research or result in unnecessary costs. Institutions must take a 
proactive role in assuring that hazardous agents are brought into or 
shipped from their facilities and used in compliance with applicable 
regulations. The most effective approach to adequate oversight and 
record keeping is for institutions to monitor possession, transfer and 
use of select agents. Placing responsibility at the level of individual 
institutions for compliance with Title II of HR 3448 will be the least 
inhibitory to research.
    It is important to coordinate programs related to human, animal, 
and plant agents because some of the threats for each are the same. 
Section 302(a) of the Administration's Bill transfers to DHS the select 
agent registration and enforcement programs of HHS. However, it does 
not transfer the select agent registration and enforcement programs of 
the Department of Agriculture to the DHS. Subtitle C of the Public 
Health Security and Bioterrorism Preparedness Act of 2002 mandated 
coordination of activities of HHS and the Secretary of Agriculture 
regarding ``overlap agents''--that is, agents that appear on the 
separate lists prepared by HHS and Agriculture. Title II of that 
legislation expands the current select registration program to include 
mandatory registration of possession of select agents. Mr. Chairman, 
the Energy and Commerce Committee is to be congratulated for their role 
in this important legislation. Indeed, integration of the select agent 
registration program will undoubtedly result in a more efficient 
registration process thereby expediting registration.
    Coordination among agencies that have regulations for infectious 
substances is important. Better compliance can be achieved if 
regulations are clear and coherent, streamlined and integrated, based 
on real risks, and effectively communicated to individual researchers. 
Emphasis must be placed on education, guidance and dissemination of 
information to research investigators, who must clearly understand 
their role and responsibilities. Institutional Biosafety Committees can 
be strengthened and there should be qualifications and training for 
institutional biosafety officers. Laboratory scientists and safety 
managers in institutions must have input into the rule-making 
procedures and work to assure that regulations are realistically 
applied with minimal intrusiveness.
    The core elements of a regulatory regime are already in place in 42 
Code of Federal Regulations Part 72 and in the Biosafety and 
Microbiological and Biomedical Laboratories (BMBL) Manual. Appendix F 
includes guidelines for Laboratory Security and Emergency Response for 
Microbiological and Biomedical Laboratories. Although it is currently 
nonspecific, it is a reasonable basis for the development of 
biosecurity requirements. It should be possible for HHS to modify its 
current regulatory regime to govern registration for possession and 
build on the BMBL guidance to provide for threat and risk based 
regulations. Security for select agents should be based upon risk 
levels.
    HHS has the best scientific and institutional knowledge to provide 
oversight of select agent registration and to develop rational 
enforcement programs. The scientific communities, both in universities 
and in the private sector, are accustomed to self-regulation in use of 
radioactive materials, chemicals, and infectious agents. This service 
is provided by institutional Biosafety Offices. Likewise, review of 
protocols and inspection and accreditation of facilities are the norm 
for use of laboratory animals in research. Again, implementation of 
regulations related to select agents is reminiscent of the oversight 
put in place with the advent of recombinant DNA technology. In short, 
once the regulations have been established, implementation can be 
achieved through use of a system modeled after Biosafety Office 
Programs already in existence.
    I believe the program for select agents should remain within HHS. 
To transfer it to DHS will result in a delay to implementation, which 
could considerably slow down implementation of the biodefense research 
agenda. More importantly, housing it within DHS could result in undue 
tension with the research community. For example, it is unclear whether 
the regulations to be put in place within the next 180 days will be 
changed taking on more of a criminal approach rather than one based 
upon scientific knowledge and insights into the biomedical research 
process utilizing infectious agents. The Administration's Bill states 
that interim regulations will be put in place thereby leaving freedom 
following the transfer of authority to DHS for other regulations to be 
drafted.
    In summary, I support Title II and its protections for the 
legitimate and critical performance of research and diagnostic testing. 
Security for biological facilities is different from security for 
nuclear and chemical facilities and must take into account the unique 
aspects of work with biological agents. Inappropriate policy measures 
and regulations to prevent terrorists from acquiring pathogens could 
have unintended consequences for research aimed at developing the very 
countermeasures that could eventually remove agents from the select 
agent list. There needs to be a careful balancing of public concern 
about safety and security with the need to conduct legitimate research 
to protect the public. Because of the enactment of HR 3448, which again 
the Energy and Commerce Committee and this Subcommittee had direct 
responsibility, the United States is in a leadership position with 
regard to the establishment of reasonable controls on select agents. 
However, we should not have a false sense of security since no other 
country in the world has adopted similar legislation, which will be 
necessary. Ultimately, successful oversight will depend upon the 
integrity of the personnel who have access to select agents and on 
local institutional commitment.
                               conclusion
    Again, I appreciate having been given the opportunity to share my 
views and concerns with you. The inadequacy of our current public 
health infrastructure and existing biomedical defenses against a range 
of possible bioterrorist attacks has become clear. This inadequacy has, 
moreover, served to underscore the already well-documented need for 
better and more varied antimicrobials, vaccines, and other agents to 
detect, prevent or treat infectious diseases. One likely outcome from 
increased attention to bioterrorism threats will be the development of 
more comprehensive public health measures and countermeasures to 
threats posed by naturally occurring infectious diseases. I believe the 
recommendations I have made today provide the greatest chances for 
success.

    Mr. Greenwood. We thank you. Thank you for being with us.
    Ms. Hamburg for 5 minutes.

                TESTIMONY OF MARGARET A. HAMBURG

    Ms. Hamburg. Thank you for the invitation to discuss the 
proposed Department of Homeland Security, and the implications 
for public health and bioterrorism.
    I strongly support current efforts to give greater 
authority and accountability to our homeland security program, 
including the creation of a new department with cabinet level 
authority. Yet we should move forward carefully as you are 
doing. Realistically, a reorganization of this magnitude 
requires a strategic framework for action, one that defines 
critical goals and objectives and how best to achieve them and 
one that defines the relative roles and responsibilities of the 
different entities involved.
    The opportunities for greater efficiency, effectiveness and 
accountability through a new department is fairly evident in 
realms of overlapping security, such as border security, 
customs procedures and aspects of emergency response. How best 
to organizationally address the activities related to 
bioterrorism prevention, preparedness and response is a more 
complicated question.
    Bioterrorism is fundamentally different from other security 
threats we face. Meaningful progress against the biological 
threat depends on understanding it in the context of infectious 
and/or epidemic disease. It requires different investments and 
different partners. Unless we recognize this, our Nation's 
preparedness program will continue to be inadequately designed, 
the wrong first responders will be trained and equipped, we 
will fail to build the critical infrastructure we need for 
detection and response, the wrong research agendas will be 
developed, and we may miss important opportunities to prevent 
an attack from occurring in the first place.
    And before a major reorganization of the agencies and 
activities involved in biodefense, we would be well advised to 
examine our recent experience with the deadly dissemination of 
anthrax for lessons learned. It is stunning and disappointing 
that we have not done this. An independent, comprehensive 
analysis of the anthrax episodes and response should be 
undertaken. Looking within and across the relevant agencies of 
government, levels of government and at the relationships with 
private sector organizations, an informed analysis with 
identification of gaps and preparedness would be of enormous 
value. There may be certain real advantages to consolidating 
programs within the new Department of Homeland Security.
    The biological threat and the public health programs 
required to address it is of profound importance to our 
national security. By residing within this new department it 
may command more priority attention and support. It may help 
ensure that experts in biodefense and public health 
preparedness are full partners at the national security table.
    However, including biodefense and public health programs in 
the new department has some serious drawbacks. A fundamental 
concern is that you will loss program focus and organizational 
coherence by combining biodefense activities which deal largely 
with infectious disease medicine and public health into a 
department devoted mainly to a very different set of security 
functions and concerns. These biodefense activities could well 
be swallowed up in this huge new agency, which will likely lack 
the expertise and technical leadership necessary to plan and 
direct vital bioterrorism preparedness functions.
    In addition, most of the public health activities required 
for bioterrorism are just as important for day-to-day functions 
of public health and medical care. In the months since 9/11 the 
administration, through programs developed and administered by 
the HHS Office of Public Health Preparedness and the CDC, has 
made significant progress building the programs necessary to 
strengthen the public health infrastructure for bioterrorism 
within this broader context. If these programs are carved out 
and moved into this new department, it will disconnect certain 
functions such as bioterrorism surveillance, laboratory 
networks and response, from other essential components of 
infectious disease response and control. It will thin out 
already limited expertise and enormously complicate the ability 
of our public health partners at the State and local level to 
work effectively. Rather than consolidating functions in a 
single agency, transferring the bioterrorism preparedness 
activities into this new department may actually require the 
creation of parallel and duplicative capabilities.
    Therefore, HHS and CDC should continue to have direct 
responsibility for programs related to the public health 
infrastructure for infectious disease recognition, 
investigation and response, including bioterrorism.
    However, we will need to integrate these activities into 
the framework for Homeland Security. One approach might be a 
coordination office placed within the new department working 
closely with CDC to achieve mutually agreed upon national 
security and public health priority for bioterrorism and 
response.
    Similarly, future preparedness requires a comprehensive 
biodefense research agenda that links national security needs 
and research and development priorities and assures proper 
balance and integration of relevant research activities across 
many departments and agencies.
    Coordination of such an agenda could be undertaken by the 
proposed department, engaging other departments like HHS, DOD, 
Commerce, DOE and USDA. However, the role of the Department of 
Homeland Security should be that of coordinator/facilitator 
only. The actual design implementation and oversight of the 
research agenda and its component programs must remain at the 
level of the mission agencies where the scientific and 
technical expertise resides.
    For example, resources to develop and support the NIH 
biodefense research agenda should remain within that 
department.
    Clearly, a new Department of Homeland Security will require 
significant expertise in public health infectious disease and 
biodefense. This must be seen as an important priority and 
reflected in the appropriate and high level appointments and 
in-house entities.
    But in the final analysis, strengthening our homeland 
security programs will depend on achieving dramatically 
improved coordination and accountability. No matter where the 
lines are drawn in the new department critical activities will 
and should fall outside. So whatever the new department may 
look like, we must establish additional mechanisms to assure 
adequate oversight and coordination.
    There are many more issues that will need to be raised and 
clarified before such important legislation is passed, but time 
does not allow all of that discussion now. I thank you for the 
interest of your committee, the holding of these hearings, and 
I stand ready to help you in any way that I can. I would be 
happy to answer questions.
    [The prepared statement of Margaret A. Hamburg follows:]
Prepared Statement of Margaret A. Hamburg, Vice President of Biological 
                  Programs, Nuclear Threat Initiative
    Mr. Chairman and members of the Committee: I appreciate your far-
reaching interest in Homeland Security and particularly your attention 
to the public health and bioterrorism threats that are the focus of 
this hearing, and I thank you for the chance to participate in this 
hearing. My name is Margaret (Peggy) Hamburg. I am a physician and a 
public health professional, currently serving as Vice President for 
Biological Programs at NTI, a private foundation, co-chaired by Ted 
Turner and Sam Nunn, whose mission is to reduce the global threat from 
weapons of mass destruction. Previously, I have served as Assistant 
Secretary for Planning and Evaluation in the Department of Health and 
Human Services in the last Administration; as New York City Health 
Commissioner for six years, under both Mayor Dinkins and Mayor 
Giuliani; and as Assistant Director of the National Institute of 
Allergy and Infectious Diseases, National Institutes of Health. I have 
spent much of my time over many years working on bioterrorism 
preparedness and response, and I welcome this opportunity to offer my 
views on the new Department of Homeland Security and improving US 
defenses against bioterrorism.
    Events this past fall--including the attacks of September 11 and 
the dissemination of anthrax through the postal system--demonstrated 
our nation's vulnerability to terrorism, and underscored both the 
importance and complexity of homeland defense.
    I applaud current efforts to give greater authority and 
accountability to our homeland security program, including the creation 
of a new federal Department of Homeland Security. There is a strong 
rationale for consolidating some of the many departments and agencies 
that share similar functions or provide various aspects of what is 
needed for comprehensive preparedness and response. Both the 
Administration's Bill to establish a Department of Homeland Security 
and S. 2452 to establish a Department of Homeland Security and a 
National Office for Combating Terrorism as introduced by Senator 
Lieberman and colleagues, offer important opportunities to strengthen 
leadership, focus and coordination of essential programs and policies. 
However, they also raise a number of concerns.
    Preparing our nation against the threat of terrorist attack 
requires well-defined authority, accountability and coordination across 
an exceedingly broad array of agencies and activities. The existing 
Office of Homeland Security, despite the yeoman efforts of Governor 
Ridge and his staff, is clearly not structured for the task. A new 
cabinet-level Department of Homeland Security can potentially improve 
coordination of U.S. government activities such as border security, 
customs procedures and aspects of emergency response. But improving 
coordination of activities related to bioterrorism prevention, 
preparedness and response is a greater challenge.
    In my testimony this morning, I want to briefly raise a number of 
issues that apply broadly to the creation of a new Department of 
Homeland Security, then focus my attention specifically on the 
biological threat.
          department of homeland security: some broad concerns
    The attacks of September 11 followed by the anthrax attacks have 
created great political pressure on the White House and Congress to 
take action to improve homeland security. Just as President Bush 
refused to be rushed with his post-September military response in 
Afghanistan and delayed the strikes until they could be timed for 
maximum effectiveness, so must Congress--in creating a Department of 
Homeland Security, act deliberately, with full analysis and without 
undue haste, before taking steps it will find hard to reverse. We need 
to move forward only after the most careful consideration of our goals 
and how best to achieve them. Several important concerns come to mind:
Need for a Strategic Framework
    The creation of a new Department of Homeland Security represents an 
ambitious reorganization which will be difficult to implement and 
disruptive to many functions of government. Even under the best of 
circumstances, this restructuring will cost time and momentum in 
current programs. Thus the goals must be defined before legislation is 
passed, so the benefits of the new structure outweigh the costs of 
achieving that structure. We should be very clear about what we are 
doing and why--spelling out goals and objectives, as well as the 
related roles and responsibilities of the various partners.
Need for Balance
    Current plans require that a great many agencies and agency 
components be pulled into one large Department focused primarily on 
terrorism preparedness and response. At the same time, this new 
Department of Homeland Security will still be responsible for dealing 
with a broad range of other activities. Many of these more routine 
activities will be important to the core Departmental mission because 
they will, on a regular basis, allow for the practice of systems that 
would be recruited into service in the event of an attack (e.g. 
disaster response and sheltering, FEMA). Similarly, routine non-
terrorism activities might serve to identify unusual patterns or 
situations that might signal an impending terrorist event (e.g. 
monitoring shoreline for drug-runners or boating accident rescues, 
Coast Guard). However, there is serious concern that when you create a 
Department as diverse as this one would be, you will either lose focus 
on the organizing mission of countering terrorism or you will fail to 
effectively support those other routine functions. It is hard to 
imagine a Department remaining honed in on terrorism preparedness and 
response while responding to mudslides, hurricanes and fires, 
monitoring the fisheries, searching out drug traffickers, controlling 
hog cholera and investigating outbreaks of disease. It is also hard to 
imagine effective leadership for such a diverse array of tasks, 
requiring an equally diverse array of professional backgrounds and 
expertise.
Need to Address Existing Weaknesses (Not Just Move Pieces Around)
    Given the above concerns about managing this complex and varied new 
Department, serious questions must be raised as to how the Department 
will remedy known weaknesses in certain of its component agencies and 
activities. Reorganizing defective components will not improve 
performance. Some of the problems may benefit from new leadership or 
enhanced attention and scrutiny, but without a clear game plan and 
focused strategy, others may continue to fester, or worse, their 
continuing dysfunction may be amplified in a new and confusing 
bureaucracy. A host of personnel, budgetary and jurisdictional issues 
may add to the difficulties of providing appropriate oversight, 
management and operational accountability.
Need to Maintain Program Connectivity/Coherence
    In several domains, but particularly with respect to bioterrorism, 
the creation of a new and distinct Department may serve to disconnect 
certain functions such as bioterrorism surveillance, laboratory 
networks and response from the infrastructure needed to respond to 
routine, non-intentional public health issues. The response to a 
disease outbreak, whether naturally occurring or intentionally caused, 
will require the same critical components. Most likely, we will not 
initially know the cause of an emerging epidemic. What is more, our 
overall infrastructure for infectious disease recognition and response 
is far from robust. We must be careful not to further fragment our 
capacity, and inadvertently undermine our own best interests. We must 
also avoid the unnecessary development of duplicative systems at a time 
of limited resources.
              homeland security and the biological threat
    As our nation struggles to respond to the concerns posed by 
bioterrorism, both the nature of the threat and the role of public 
health, medicine and science continue to be poorly understood and 
underemphasized. The threat of bioterrorism is fundamentally different 
from other threats we face, such as ``conventional'' terrorism or 
attack with a chemical or nuclear weapon. By its very nature, the 
bioweapons threat--with its close links to naturally occurring 
infectious agents and disease--requires a different paradigm.
    Designing that paradigm is proving to be a difficult challenge. 
Public health has never been traditionally viewed as an element of 
national security. Consequently, those who specialize in national 
security are largely unfamiliar with the public health system--what it 
is, how it works and why it is important to our overall mission of 
protecting the nation. It is not surprising that the various Commission 
Reports (e.g. Hart-Rudman) that have looked at national security/
terrorism issues and current legislative proposals for the creation of 
a federal Department of Homeland Security have had trouble 
conceptualizing an appropriate organizational approach that includes 
bioterrorism preparedness and other biodefense activities. In fact, 
there is no clear and simple answer to the question of how best to 
organize the components of an effective bioterrorism prevention, 
preparedness and response program.
Critical Elements of a National Response
    Certainly, before a major reorganization of the agencies and 
activities involved in biodefense, we must understand how these 
components need to mobilize and work together in every stage of 
defense--from prevention, to preparedness, to response. Accomplishment 
of this task would greatly benefit from a thorough and complete 
critical analysis of our response to the anthrax attacks.
    It is stunning and disappointing that we haven't undertaken a 
systematic review of what happened. And I strongly recommend that an 
independent and comprehensive after-action review of the response to 
the anthrax letters be undertaken. It should be done in a rigorous 
fashion, looking within and across the relevant agencies of government, 
at all levels, and at the relationships with private sector 
organizations. We cannot afford to let these incidents go by without 
taking stock of what happened, what should have happened (but did not), 
and what needs to be done to improve response in the future. This must 
be more than a listing of lessons learned. It needs to be a well-
researched report, with thoughtful and informed analysis, 
identification of gaps in preparedness and response, and realistic 
recommendations for improvement. To the best of my knowledge, no such 
exercise is currently underway in a crosscutting and systematic manner. 
Even as the aftermath and the investigation of the of the anthrax 
letters is still unfolding, there is still a real urgency to undertake 
such a process, before significant events fade from memory and before 
new events and priorities overwhelm us.
    Such an analysis would give us indispensable insight into how we 
should structure our national response to bioterrorism, and how we 
should incorporate the following four essential elements.
    (1) Prevention. Every effort must be made to reduce the likelihood 
that dangerous pathogens will be acquired or used by those that want to 
do harm. This must include improving intelligence, limiting 
inappropriate access to certain biological agents and establishing 
standards that will help prevent the development and spread of 
biological agents as weapons.
    (2) Strengthening public health. Rapid detection and response will 
depend on enhanced disease surveillance and outbreak investigation from 
a well-trained cadre of public health professionals, educated and alert 
health care providers, upgraded laboratories to support diagnosis, and 
improved communications across all levels of government, across 
agencies and across the public and private sector.
    (3) Enhancing medical care capacity. We must improve treatment for 
victims of an attack by enhancing local and federal emergency medical 
response teams, training health professionals to diagnose and treat 
these diseases, developing strategies to improve the ability of 
hospitals to rapidly increase emergency capacity, and providing 
necessary drugs or vaccines where they are needed through the National 
Pharmaceutical Stockpile.
    (4) Research. A comprehensive research agenda will serve as the 
foundation of future preparedness. Perhaps most urgently, we need 
improved detectors/diagnostics, along with better vaccines and new 
medications.
    Some of these activities are already underway, but need to be 
strengthened and extended. Other programs and policies still need to be 
developed and implemented. All are essential for homeland security. Yet 
it is important to note that while certain aspects of these activities 
are required to respond to the threat of bioterrorism specifically, 
these programs are just as important for the day-to-day, routine 
activities of public health and medical care.
Potential Benefits of Housing Biodefense Activities in a New Federal 
        Department
    There are certain real advantages to be gained from placing these 
programs within a new federal Department of Homeland Security. First 
and foremost, the biological threat, and the necessary programs to 
address it, is of profound importance to our national security. These 
activities require greatly enhanced priority and support. By residing 
within this new Department, they may be more likely to command that 
needed attention and support. Furthermore, experts in biological 
weapons threats, biodefense and public health preparedness must be full 
partners at the national security table, participating in strategic 
planning, policymaking and program design and implementation. Being 
part of the Department of Homeland Security might help to 
institutionalize this important participation.
    In addition, legitimate concerns have been raised that if not 
housed within this new Department, crucial public health and 
bioterrorism programs may be neglected, and important operational 
public health and biomedical defense functions may not be integrated 
with national security objectives.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ O'Toole, Tara. ``Creating the Department of Homeland Security: 
Consideration of the Administration's Proposal.'' Testimony before the 
House Subcommittee on Oversight and Investigations, June 25, 2002
---------------------------------------------------------------------------
    Clearly, there is an urgent need for improved coordination and 
integration of bioterrorism programs and policies across agencies of 
government. The current patchwork--of programs that address 
bioterrorism prevention, preparedness and response, including 
research--is inadequate and unacceptable. These need to be brought 
together into a collective programmatic vision, and implemented in a 
manner that sets priorities, supports synergy, identifies gaps and 
avoids unnecessary overlap or duplication. To date, this has proved a 
difficult challenge. One might argue that the most effective way to 
address this concern is to pull these activities together under one 
roof.
    There might be additional benefit of centralizing aspects of 
biodefense activities under one roof from the perspective of certain 
state and local government entities as well as private sector 
entities--including the medical care system and the pharmaceutical 
industry--all of whom are essential partners in combating bioterrorism 
and should also be integrated into an effective vision and framework 
for action. Looking at the federal government from the outside, it can 
be very confusing to discern where and how best to interact with the 
system. Again, the creation of a unified site within a Department of 
Homeland Security might reduce confusion, strengthen the ability to 
work across levels of government, and support the kinds of public-
private partnerships that will prove essential to success.
Potential Disadvantages of Inclusion in a New Federal Department / 
        Recommendations
    While there clearly are benefits to be gained by moving certain 
aspects of bioterrorism and related public health issues into a 
consolidated new Department of Homeland Security, a serious cost/
benefit analysis has to consider how best to ensure that our overall 
governmental effort is maximally effective.
Organization of Bioterrorism Activities
    As currently envisioned, the Administration's proposal for a 
Department of Homeland Security would seek to develop a single, 
government-wide, comprehensive and integrated research and preparedness 
plan to prevent chemical, biological, radiological and nuclear (CBRN) 
attacks, to reduce our nation's vulnerabilities to terrorism and to 
minimize damage and assure effective response should an attack occur.
    This approach is intrinsically troubling--from the point of view of 
biodefense--because, as I noted earlier, the bioterrorism threat has 
some very distinctive features as compared to ``conventional'' 
terrorism or other weapons of mass destruction. Past experience tells 
us that many so-called bioterrorism programs failed to achieve their 
potential because they were addressed within the framework of CBRN or 
``Chem/Bio''. There was an underlying assumption that these problems 
could be effectively approached with a ``one size fits all'' model, but 
in reality, such programs simply failed to address the biological 
component.
    Meaningful progress against the bioterrorism threat depends on 
understanding it in the context of infectious and/or epidemic disease. 
It requires different investments and different partners. Until the 
distinctive nature of bioterrorism is fully taken into account at the 
level of policy, our nation's preparedness programs will continue to be 
inadequately designed: the wrong first responders will be trained and 
equipped; we will fail to fully build the critical infrastructure we 
need to detect and respond; the wrong research agendas will be 
developed; and we will never effectively grapple with the long-term 
consequence management needs that such an event would entail. We may 
also miss critical opportunities to prevent an attack from occurring in 
the first place.
Recommendations:
    (1) Any new Department of Homeland Security must be staffed at the 
highest levels of leadership and decision-making with individuals who 
have significant expertise in public health, infectious disease and 
biodefense/bioterrorism.
    (2) An Undersecretary for Biological Programs should be appointed 
to oversee and integrate the various activities going on within the 
Department of Homeland Security that relate to the biological threat. 
In addition, that individual should serve as liaison to the various 
other Departments with significant responsibilities and programs in the 
biological arena.
    (3) An external advisory group for biological programs should be 
established with the responsibility of reviewing the appropriateness 
and comprehensiveness of biological threat related programs, policies 
and resource allocation / budget priorities.
Emergency Response/Role of Public Health Infrastructure
    As noted earlier, a bioterrorism attack would differ in fundamental 
ways from other forms of terrorist assault. The requirements for 
effective bioterrorism preparedness and response are, for the most 
part, substantially different as well. Biological terrorism is not a 
``lights and sirens'' kind of attack. Unless the release is announced 
or a fortuitous discovery occurs early on, there will be no discrete 
event to signal that an attack has happened, and no site you can cordon 
off while you take care of the casualties, search for clues and 
eventually clean up and repair the damage. Instead, a biological 
terrorism event would most likely unfold as a disease epidemic, spread 
out in time and place before authorities even recognize that an attack 
has occurred. We would see the first evidence of attack only after 
people begin appearing at their doctor's office or emergency rooms with 
unusual symptoms or an inexplicable disease. In fact, it may prove 
difficult to ever identify the perpetrators, the site of release, or 
even to determine whether the disease came from a natural outbreak or a 
terrorist attack.
    Under most circumstances, the ``first responders'' to a 
bioterrorism event will be public health officials and health care 
workers. ``Ground zero'' will be in hospitals, health care facilities 
and laboratories. The ``battlefield'' response will come in the form of 
disease diagnosis, outbreak investigation, treatment of the sick and 
public health actions required to stop continuing contagion and stem 
disease. How swiftly we recognize and respond to a potential attack 
will dramatically influence our ability to reduce casualties and 
control disease. All of these recognition and response functions are 
more closely tied to public health and medical care activities than to 
the emergency response required for other types of catastrophic 
terrorism or even other kinds of natural disasters.
    In the months since 9/11, the Bush administration--through programs 
developed and administered by the HHS Office of Public Health 
Preparedness (OPHP) and the Centers for Disease Control and Prevention 
(CDC)--has made some progress in building the programs necessary to 
strengthen public health infrastructure for bioterrorism within this 
broader context of infectious disease. If these programs are carved out 
of their current habitats and moved into this new Department, it will 
disconnect bioterrorism preparedness from other essential components of 
infectious disease response and control, thin out already limited 
expertise, and complicate the ability of our public health partners at 
the state and local level to work together effectively. If the nation 
develops two parallel systems for infectious disease surveillance and 
response--one (that for bioterrorism) of which is only really activated 
and practiced in a crisis--the likely outcome will be to weaken and 
fragment our nation's capacity to respond to infectious disease--
whether occurring naturally or caused intentionally.
Recommendations:
    (1) HHS and CDC should continue to have direct responsibility for 
programs related to the public health infrastructure for infectious 
disease recognition, investigation and response, including 
bioterrorism.
    (2) A public health professional with appropriate background and 
experience could be placed within the Department of Homeland Security, 
perhaps with dual reporting to the DHS Secretary and the HHS Secretary. 
This individual could then work closely with the CDC Director to 
achieve mutually agreed upon public health priorities for bioterrorism 
preparedness and response
    (3) The Department of Homeland Security should assure greater 
coordination, collaboration and program integration among the 
components of government doing infectious disease surveillance 
activities (e.g. DOD, USDA, Wildlife and Forestry).
Biodefense Research
    Further investments must be made in biomedical research to develop 
new drugs, vaccines, rapid diagnostic tests and other medical weapons 
to add to the arsenal against bioterrorism. At the same time, it is 
also essential that we improve technologies to rapidly detect 
biological agents in environmental samples and develop other 
technologies to protect the health of the public. We must learn more 
about how these organisms cause disease and how the human immune system 
responds so that we can develop better treatments and disease 
containment strategies to protect us in the future. In addition, we 
must also devote more attention and resources to ``systems research,'' 
in an effort to understand more about such issues as personal 
protective gear, environmental safety and decontamination.
    Success will require collaboration among many agencies of 
government (HHS, DOD, DOE, USDA and others), academia and the private 
sector. Coordination of the development and budgetary support for such 
a comprehensive, integrated biodefense research agenda could certainly 
be offered under the auspices of the proposed Department of Homeland 
Security. This could help make sure that investment supports both 
national security needs and research and development priorities. It 
would also help integrate the bioterrorism-related research activities 
of the various mission agencies, including threats to humans, animals 
and crops. Hopefully, this would help foster proper recognition and 
support for elements of the research enterprise which are currently 
undervalued/under-resourced--such as the United States Army Medical 
Research Institute for Infectious Diseases (USAMRIID) and the 
Department of Agriculture's animal health research facility, Plum 
Island. It would also help identify program gaps, overlaps and 
opportunities for synergy.
    At the same time, the role of the Department of Homeland Security 
should be that of coordinator/facilitator. The actual design and 
implementation of the research agenda and its component programs must 
remain at the level of the mission agencies, where the scientific and 
technical expertise resides. With a few possible exceptions, it would 
be unrealistic and inefficient to build the kind of sophisticated 
scientific expertise necessary to take on the direct conduct or 
management of research and development activities across a broad range 
of disciplines and technologies at the level of this new Department.
Recommendations:
    (1) A research coordination office could be established within the 
Department of Homeland Security and charged with responsibility for 
assuring the development and funding support for a comprehensive, 
integrated biodefense research agenda. This research coordination 
office could also help support the integration of threat and 
vulnerability analysis with the process of setting the research agenda. 
Such a research coordination office might also be effectively placed 
within a strong White House Office of Homeland Security, where it could 
work across the full set of cabinet agencies, including the Department 
of Homeland Security, to ensure a comprehensive, integrated and 
appropriately funded biodefense research agenda. An individual with 
appropriate scientific background and experience should head this 
office.
    (2) Given the fact that HHS is the primary department with 
responsibility for biomedical research, and the unique role played by 
NIH, resources to support the NIH biodefense research agenda should 
remain within that Department.
    (3) An external advisory mechanism should be established to 
encourage ongoing communication and collaboration with academic and 
industry partners. New mechanisms must be developed to engage 
participation from outstanding scientists from academe and industry, 
and to bring new young scientists into these endeavors.
    (4) The highest level of government commitment is needed to address 
the national crisis in the development and production of new vaccines 
and antimicrobial drugs--a crisis that is growing in urgency in light 
of the bioterrorism threat. A new Department of Homeland Security, 
working closely with the appropriate agencies of government (e.g. FDA, 
NIH, DOD), industry and Congress, could lead such an effort, or it 
could be undertaken directly from the White House.
                           concluding remarks
    Mr. Chairman and Members of the Committee: Government has no more 
important mission than protecting the lives of its citizens. A new 
Department of Homeland Security and a heightened defense against 
bioterror go directly to the heart of that mission. These tasks are as 
complicated as they are crucial. I thank you for the depth of the 
interest you've exhibited by holding this hearing. I stand ready to 
help in any way I can. And I would be happy to answer your questions--
now or in the future.

    Mr. Greenwood. Thank you. The Chair recognizes himself for 
5 minutes for questions. This is a question I'd like to address 
to each of you. I think it's important to emphasize that the 
research programs targeted by the administration's bill are 
limited to only those dealing specifically with countermeasures 
to terrorist threats, such as smallpox and anthrax. Why 
shouldn't the new Secretary who will have access to a great 
deal of information about terrorist capabilities and interests 
have the authority to set the research priorities within this 
limited network?
    Ms. Heinrich. Our review of the proposed legislation states 
that the research would be broader than you suggest, Chairman. 
It says all biodefense research, which is--it is not only 
applied research and research that's focused onto particular 
pathogens, it's our understanding that it's an array of 
diseases. And what we have learned in discussions with experts 
is that there is a lot of interchange between those agents that 
could be used in naturally occurring infections, and in 
emerging infectious diseases.
    Mr. Greenwood. If in fact, though, someone else's 
interpretation was more narrow than yours would you be happy 
with that?
    Ms. Heinrich. We still would have concerns because you're 
separating out the people that are responsible for actually 
conducting the research from the overall overarching authority 
and responsibility. It would seem to us that the role of 
Homeland Security can be that of coordinator, as Dr. Hamburg 
has suggested, that we have to have the strategic framework 
that we don't have and that your operating agencies that are 
actually conducting the work can be in a position to actually 
respond to areas that the Secretary of Homeland Security has 
said are areas of priorities. If in fact there are conflicts, 
there may be other mechanisms that can be used to resolve 
those. Certainly we've heard before this notion from the Office 
of the President and it also may be that Congress through the 
appropriations process would have a role to play in making sure 
that priorities were responded to.
    Mr. Greenwood. Thank you. Ms. Cassell.
    Ms. Cassell. I would make the argument that having someone 
hold the purse string, so to speak, and being able to establish 
the priorities for research would be unwise if in fact that 
particular individual or agency, the head of that agency or 
department I should say, really does not have the scientific 
and medical infrastructure to wisely set the priorities. You 
stand a chance of not only disrupting research programs but, 
more importantly, I think what would happen is that you're not 
able to take full advantage of the scientific and medical 
infrastructure related to infectious disease research that 
already is ongoing and in place.
    For example, I think it was only possible to establish the 
research agenda for biodefense, for developing countermeasures 
in a 3 to 4-month period, based on the wealth of basic 
knowledge and ongoing research that's already going on within 
NIAID. I think if you transfer the authority for establishment 
of priorities, whether it be for only one agent or two agents, 
you would miss those opportunities for the leveraging and the 
synergism, and that would be a major concern. I think for the 
next couple of years we're probably okay because the research 
agenda has been established.
    However, giving the budget authority and the program 
authority to the Department of Homeland Security doesn't give 
me any assurance, in fact, that those efforts will have an 
opportunity to be materialized.
    Mr. Greenwood. Isn't the concern on the other end of the 
spectrum that you could have research that is so academic and 
so far removed from the immediate threat of terrorism, that we 
are just not focused where we ought to be?
    Dr. Cassell. I can appreciate some of those concerns. 
However, I think that having something like the assistant 
secretary and an individual like the assistant secretary that 
will have dual reporting would, in fact, take care of that 
concern, because you would constantly have the input from that 
assistant secretary into the research agenda with respect to 
helping to set priorities, and also basically oversight in 
terms of meeting deadlines and time lines and research goals.
    Mr. Greenwood. Ms. Hamburg?
    Ms. Hamburg. Yes. Well I think that clearly we need a 
stronger and more accountable system of coordination for a 
comprehensive integrated research agenda that engages the best 
talent within many parts of government and the private sector. 
But I think in terms of actually setting priorities and 
determining the elements of that research agenda, we will 
actually undermine our own best interests if we don't ensure 
that it actually is housed within agencies that are 
appropriately expert in the domains of research and connected 
to where the research is going.
    Again, all of us have emphasized the close connection 
between the bioweapons threat and the threat of naturally 
occurring infectious disease. I think we also have to recognize 
that the bioweapons threat is evolving very quickly, because 
our capabilities in science and technology are evolving very 
swiftly. Some of the expertise in security only setting 
research agenda may actually miss emerging and important 
threats that are coming forward because of new capabilities in 
science, our ability to manipulate organisms, to understand 
what makes them infective and actually to manipulate them so 
they might be more infective, to actually manipulate them so 
they might be more lethal to create new organisms de novo, and 
I think looking forward, if we want to be prepared, if we want 
to be ahead of the curve in terms of evolving threats, then we 
really have to link this very, very closely to the scientists 
who know where science and technology is actually going, and 
where we can best target our resources and our capabilities to 
really have the kind of comprehensive short-term, long-term 
research agenda that we need for our protection.
    Mr. Greenwood. Ms. Cassell, you wanted to add something?
    Ms. Cassell. Yes. Thank you. I think that we should be very 
careful to take advantage of lessons we can learn. We can learn 
by evaluating the defense research programs that have been in 
existence in terms of development countermeasures, very 
narrowly and with very narrow focus. We should look at the 
track record of those programs, I think, and again, lessons 
learned by being so narrowly focused, first having much broader 
focus in terms of taking advantage, as Dr. Hamburg has said, of 
other available knowledge.
    Mr. Greenwood. Thank you. The Chair recognizes the 
gentlelady from Florida, but before doing so, would indicate 
for everyone's information--is this a series of votes? Never 
mind.
    The gentleman from Florida for 5 minutes.
    Mr. Deutsch. Thank you. Thank you, Mr. Chairman. The White 
House and Governor Ridge have told the committee that the new 
Department of Homeland Security would be quite capable 
prioritizing and managing the research and development programs 
and public health preparedness programs in the Department of 
Health and Human Services and contracting actual work back to 
HHS without any delay in those programs.
    Is there any way that inserting another layer of 
decisionmakers over these programs would not close delay? If 
each of you can respond to that. Ms. Cassell?
    Ms. Cassell. I would say definitely not. I can't imagine 
that there won't be delay. First of all, you have to create 
appropriate scientific medical infrastructure within the new 
department in order to allow you to make those rational 
decisions that must be made.
    Ms. Hamburg. It's hard to imagine how that would increase 
efficiency and accountability. I think it will also require the 
addition of new layers of expertise within the Department of 
Homeland Security, and I think one needs to examine what are 
the benefits. Again, I come back to the crying need for better 
coordination, but that doesn't have to be achieved by creating 
a whole new systems of management.
    Ms. Heinrich. I'd like to suggest that we could learn from 
previous experience and actually look for places where we have 
successfully coordinated across Federal agencies in the private 
sector as well, especially in the area of R&D. I think there 
are examples of where agencies and programs have done that 
successfully.
    Mr. Deutsch. This is really a follow-up. What type of 
expertise would homeland security have--or have to have in-
house to prioritize and manage these programs?
    Ms. Hamburg?
    Ms. Hamburg. Well, I think, you know, one contribution the 
new Department of Homeland Security could make would be to 
bring to bear the best possible information about the nature of 
threats and the credibility of emerging threats so that it 
could be integrated into preparedness and response programs. It 
also could help to ensure that the various elements that are 
being actually implemented by different parts of government are 
brought together into a more comprehensive picture so there 
aren't unintended gaps in programmatic activity or unnecessary 
duplication of effort.
    And I think that it can offer an opportunity for 
individuals working outside of the Federal Government to have a 
place to go to in a coordinating way, to then find the services 
and programs that they need, get clarification of policies if 
you're at the State and local government, or if you're in the 
private sector, but not actually directly running those 
programs.
    Mr. Deutsch. You know, one of the issues which really ties 
into this is really where would they get that expertise? These 
are human resources. That is really a question of trying to 
hire people. And one of the things that has impressed me 
incredibly, you know, from the jurisdiction of this 
subcommittee and the committee is, you know, CDC and HHS and 
NIH are, you know, on part with no part in terms of expertise. 
I mean, and there's a culture in each of those agencies that 
sort of breeds that. And I've never seen that created 
overnight. I mean, it seems impossible to create overnight, so 
I guess the real question is, if that's the level, the best of 
the best, the brightest of the brightest, the most creative of 
the most creative, how can you even expect that to happen in 
any short period of time in a new agency? I mean, I see you 
agree with me, so I guess, you know, Ms. Cassell in particular, 
if you want to respond.
    Ms. Cassell. I think you're right on target. In fact, I 
could not agree with you more.
    I would just like to add to your comments in regards to 
what type of expertise would be required. One thing I think 
that is important if you're going to have the new department 
controlling, again, the research program, both from program 
development, setting of priorities and the budget, you need to 
have some expertise that's very knowledgeable with grant review 
and peer review process for ongoing research programs.
    I can give you an example. I'm familiar with, based on 
participation in different reviews of biomedical research 
programs in this country, and that is when monies were awarded 
to the Department of Defense, for example, for breast cancer 
research, ultimately the authority for review of those programs 
and oversight of the programs actually was not transferred 
initially, but certainly the NIH ended up playing the lead role 
in terms of the administration of the program. Again, because 
that was--in terms of peer review research----
    Mr. Deutsch. If I can make just one follow-up question, and 
that is really, you know--and this is just getting on the 
practical side of how you actually do this once--I mean, we 
are--once we create the agency. I mean, I have this real 
concern, and it's a practical concern, that there are people 
who are, you know, developers of--and really have the 
expertise, and it's not expertise you can just learn in school. 
It's expertise, that why would someone with that type of 
expertise in an environment that, you know, are in and they're 
happy, because otherwise these are people who clearly could 
leave and get jobs in different settings. Why would someone 
want to leave with a big question mark?
    And it almost seems like the people that are going to--the 
incentive if you're an agency--CDC, whatever, you almost want 
to get rid of your sort of deadwood to a new agency. There 
would seem to be a sort of bureaucratic incentive at that point 
not to give up your best people, but your second best people. I 
mean, is that a concern, and how do we deal with that?
    Ms. Hamburg. Well, I think you clearly are experiencing the 
way of government and that's a valid concern and we've 
certainly seen it happen in many instances. I've worked in 
government in most of my career at the local and Federal level, 
and it's a concern that I immediately had when I heard this 
proposal. I think it's also the case that we have a limited 
supply of trained professionals in many of these critical 
areas, whether it's the bench researchers working on certain of 
these pathogens or the epidemiologists and infectious disease 
experts that we need to shape the research activities, the 
programs and the policies, and so we cannot afford to dislocate 
people from where they are currently working and functioning 
and working in a dual use, not exclusively a bioterrorism 
manner, and pull them into a new department that will not fully 
utilize their very important and limited talent in terms of our 
national personnel resource base.
    Mr. Deutsch. Thank you.
    Ms. Heinrich.
    Ms. Heinrich. I would just make a comment that I think that 
it's a challenge to draw experienced researchers and new 
researchers into the field of this biodefense work away from, 
you know, where their current focus is. So it's probably a 
problem that's more complex rather than easier.
    Mr. Deutsch. Thank you.
    Mr. Bass [presiding]. The Chair recognizes himself for 5 
minutes. Just a process point here. I should note that Dr. 
Cassell and Dr. Hamburg are doctors, not--and should be 
addressed as such, even though they were mislabelled.
    Dr. Hamburg, I just have a quick question for you. Nuclear 
threat initiative has been closely associated with Nunn-Lugar, 
the nuclear weapons initiative, and I'm wondering if you could 
give us some perspective which the other two witnesses might be 
able to comment upon about how a similar type program might be 
structured for the bioterrorist threat or the biological 
threat, because we don't have any such program currently to 
date.
    Ms. Hamburg. Well, Let me just give a little bit of 
background. The organization for which I work is cochaired by 
former Senator Nunn and Ted Turner who has funded it. It's a 
charitable organization whose focus is to reduce the threat of 
weapons of mass destruction, and on our board actually are many 
distinguished individuals, including Senators Lugar and 
Domenici who have been deeply involved with these activities 
for many years, along with Senator Nunn.
    The Nunn-Lugar program really had focused predominantly on 
nuclear, but has had a biological component and it's been 
looking at how can we reduce the threat that exists from the 
weapons programs in the former Soviet Union that are now no 
longer active in many of the components, but facilities exist, 
people with expertise and know-how are now unemployed or 
underemployed. There are real security issues across many 
domains and concerns that important materials and capabilities 
could get in the hands of individuals who would use them to do 
harm.
    On the biological side, I think there's enormous 
opportunity and opportunity that we can realize almost 
immediately by making greater commitment to that program. The 
former Soviet Union had a very large biological weapons program 
functioning in many different institutes with literally 
thousands of scientists and personnel working on different 
aspects of biological threats, animal, human and crop. We need 
to make sure that we, as a Nation, and in partnership with 
other nations, do everything that we can to ensure that both 
the material developed and the expertise developed can be 
redirected into many valuable prosocial research activities, 
both academic and entrepreneurial.
    Mr. Bass. But Nunn-Lugar as it's currently constructed, can 
initiate and execute this kind of a program in biological 
containment as well as nuclear.
    Ms. Hamburg. It can, and there has been an element of it 
that has focused on the biological threat. It's been a small 
component, and it has, I think, been undersupported and 
undervalued in terms of the contribution that can be made. And 
I would be very eager to work with you if you'd like to explore 
opportunities in that realm to a greater degree.
    Mr. Bass. Dr. Castle.
    Ms. Cassell. Yes. I'd just like to comment that you 
probably may be aware that there are small programs within HHS 
and DOD, some of which are administered by The National Academy 
of Sciences, to do exactly as Dr. Hamburg has described with 
respect to engaging former Russian bioweapons research 
scientists into meaningful infectious disease research. But 
again, it's a very small program and has been, I would argue, 
woefully underfunded for the last 6 years.
    Mr. Bass. It's a huge problem. I yield back. I recognize 
the gentlelady from Colorado for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman. As I read the 
administration's proposed plan, it looks to me like the 
Department of Homeland Security would have the ability to shift 
research funds in both the NIH and in the CDC in any way they 
wanted. In other words, they could supersede decisions that 
those two agencies are currently making. Would that 
interpretation be correct, Dr. Cassell?
    Ms. Cassell. I'm going to agree with you 100 percent, and 
this is my major concern. I think it is the current of a lot of 
people. I think people may have trust that over the next 2 
years because the agenda has already been established, this 
won't happen, but in years following the next two, I think 
that's a very real possibility that would occur----
    Ms. DeGette. And looking at the legislation, I think people 
think it won't happen just because they think it won't be done, 
but it, in fact--the legislation gives the Department of 
Homeland Security to do exactly that. In other words, to say to 
the NIH, we think we need the resources you're using for other 
types of interdepartmental--any kind of research. We think, 
well, it might be important, but we think that this other thing 
is more important. So we're just superseding your decision, and 
we're redirecting it. That would be your understanding of the 
legislation as well?
    Ms. Hamburg. That is my impression that they have the final 
authority in terms of allocation of dollars and setting of 
priorities, and I think that is a real concern.
    Ms. DeGette. Ms. Heinrich, do you agree that that's what 
the legislation says?
    Ms. Heinrich. The legislation gives--the proposed 
legislation gives the Department of Homeland Security the money 
and the authority to establish priorities. It also says that it 
should conduct the research through HHS predominantly and NIH. 
It also gives the President the prerogative to decide not to 
conduct and do research through this kind of arrangement, but 
it doesn't give us any indication of under what circumstances 
the President might use that prerogative.
    Ms. DeGette. Okay. Thanks. See, here's the concern I have, 
and I think we're all agreeing. And by the way, Mr. Chairman, I 
think this is a wonderfully illuminating panel, and thank you 
very much for coming today.
    The concern I have, Dr. Cassell, in listening to your 
testimony, there are a lot of infectious diseases that are 
killing millions of people every month, every year, and a great 
deal of money has been invested in trying to cure them. HIV is 
an example that I can think of, but yet we haven't done that, 
so the question is, if the Department of Homeland Security 
decides to shift the money to select agents, what happens to 
the research that's being done for these other diseases?
    Ms. Cassell. Well, I think through the regular 
appropriations process, NIH and--one might take confidence that 
these other programs would be protected, and I think that we 
have heard assurance from the doctor who directed the NIAID 
that the other research programs won't be compromised. However, 
I think that, you know, that is today as we've said, and what 
will happen in 2 years out, I think that might be another 
question.
    I'd just like to add, if I might, to your concerns about 
some of the authorities that have been given, and it goes back 
to the oversight of select agents, and in fact, the way things 
are written now certainly, I think, gives a lot of room for 
going back and changing regulations and oversight of that 
program, and not that I want to change the direction you're 
going, but this does also potentially have the possibility of 
having a tremendous negative impact on the very research that 
we need to do in order to be able to get accounting measures.
    Ms. DeGette. Right. You're not changing direction. That's 
exactly what I was trying to get at. And Mr. Hauer said, well, 
the problem is that we have limited resources, and we just have 
to recognize that, and so practically speaking, if you want to 
continue ongoing research and then have research into select 
agents, you're not going to be able to do both. You are going 
to have to shift resources away from some ongoing research, and 
I guess the question many of us are asking is who should be 
making those decisions, the scientists at CDC and NIH or 
somebody who is in this new department who's superseding their 
decisions. Correct? Dr. Hamburg, do you have----
    Ms. Hamburg. Well, I think--I think that, you know, clearly 
we live in a world, with limited resources and we can't do 
everything we might want to do in all areas of activity. I 
think that one of the great advantages of really housing our 
research activities, both the priority setting and 
implementation of the research at places like NIH is that you 
get synergy that you will lose if you try to carve it out into 
segments.
    Fundamental understandings of how organisms cause disease, 
how the human immune system responds will have implications for 
both naturally occurring disease and intentionally caused 
disease. It will have implications for new drugs or vaccines we 
might develop against select agents that we're particularly 
concerned about as bioweapons threats, but also against 
organisms that might occur in nature. So I think you get more 
bang for your buck by having both biodefense-related research 
agenda but having it integrated with infectious disease 
research more broadly and understanding of immune response.
    Ms. DeGette. Thank you. Mr. Chairman, let me just say in 
closing up here, I'm really concerned about what this bill--
what the administration's proposal does for biological research 
within CDC and NIH, and I would hope that we could work in a 
bipartisan way to fix this, because some of the suggestions 
that this panel has had for having some coordination function 
but not a superseding function I think really make a lot of 
sense, and I yield back.
    Mr. Greenwood. The Chair thanks the gentlelady.
    I believe our questioning has been accomplished. So we 
thank the witnesses for your testimony in answering questions 
and excuse you and call forward our next panel, consisting of 
Dr. James McDonnell, the director of Energy Security and 
Assurance Program at the Department of Energy; Mr. John S. 
Tritak, director of Critical Infrastructure Assurance Office in 
the Department of Commerce; Mr. Robert Dacey, director of 
information security issues in the General Accounting Office; 
Dr. Samuel G. Varnado, director of the Infrastructure and 
Information Systems Center at Sandia National Laboratories; and 
Dr. Donald D. Cobb, associate director for threat reduction at 
Los Alamos National Laboratory.
    Thank you. You understand that this subcommittee is holding 
an investigative hearing and in doing so it is our practice to 
take testimony under oath. Do any of you object to taking 
testimony under oath? Seeing no affirmative responses, the 
Chair would then inform you that pursuant to the rules of the 
committee and the House, you're entitled to be represented by 
counsel. Do any of you wish to be represented by counsel?
    Seeing no affirmative responses, would you please stand and 
raise your right hand.
    [Witnesses sworn.]
    Mr. Greenwood. Thank you, you're under oath and Mr. Tritak, 
we'll begin with you. You're recognized for 5 minutes for your 
opening statement.

TESTIMONY OF JOHN S. TRITAK, DIRECTOR, CRITICAL INFRASTRUCTURE 
 ASSURANCE OFFICE, DEPARTMENT OF COMMERCE; JAMES F. MCDONNELL, 
DIRECTOR, ENERGY SECURITY AND ASSURANCE PROGRAM, DEPARTMENT OF 
    ENERGY; SAMUEL G. VARNADO, DIRECTOR, INFRASTRUCTURE AND 
   INFORMATION SYSTEMS CENTER, SANDIA NATIONAL LABORATORIES; 
 DONALD D. COBB, ASSOCIATE DIRECTOR FOR THREAT REDUCTION, LOS 
  ALAMOS NATIONAL LABORATORY; AND ROBERT F. DACEY, DIRECTOR, 
     INFORMATION SECURITY ISSUES, GENERAL ACCOUNTING OFFICE

    Mr. Tritak. Thank you, Mr. Chairman I'd like to have my 
written remarks in the record.
    Mr. Greenwood. Without objection.
    Mr. Tritak. But I actually would like to touch on a couple 
of themes that I think are of interest to the committee and 
spend my 5 minutes on those and any follow-up questions we 
could take.
    I think I'd like to start, Mr. Chairman, by trying to 
underscore how fundamentally different the homeland security 
mission is from what I would refer to as classic national 
security. When I got into this business back in the late 
1980's, national security was something the government did. It 
was something the State Department did, the Defense Department 
did, the Justice Department did on behalf of the people. The 
role of the private industry really was a supplier of services 
and goods or as a taxpayer. But these were quintessentially 
government functions.
    We're now entering a new age. Homeland security presents a 
national security problem that the government can't do alone. 
The target of terrorist activity, we know from statements made 
by bin Laden, is our economy, the pillars of economy 
specifically, which we take to mean the national infrastructure 
of the United States, and we also know that Osama bin Laden has 
urged his followers to exploit vulnerabilities, wherever they 
may be. On September 11, we saw how they were exploited in the 
physical sense, but we also have to take into account that the 
introduction of information systems and networks on a vast 
level create a veritable digitalness across the globe. It 
presents some new opportunities perhaps for exploitation.
    Now, let's be clear what the goal of the terrorists is. 
It's to force us to turn inward and to disengage from our 
global responsibility, particularly the Middle East. They're 
going to fail in that mission. The notion is that by attacking 
the economy of the American people, we will fall to our knees. 
And whether or not they're going to succeed, which I know they 
are not, they're certainly going to try. So we have to 
recognize that homeland security is going to be a shared 
responsibility between the government and the owners and 
operators of our economy, the vast majority of which are 
private. And frankly, that is going to require redefining and 
clarification of the respective roles and responsibilities of 
the government industry on a level that we've never had to 
conceive of before.
    The industry must be a full partner here. They bear 
responsibility to help secure our national infrastructure, and 
they need to work with government in a way that they are not 
used to. It's going to require a cultural investment on both 
sides. It's not easy for government to acknowledge that role--
that change of role that government plays in this. It's not 
easy for industry either. But what I believe needs to take 
place and one of the most awesome tasks that the new Secretary 
is going to have to undertake is to create a culture of 
collaboration and partnership with industry that must permeate 
every level of organization in the new Department of Homeland 
Security.
    We're not recreating a new Pentagon here. We're creating a 
new entity to achieve a common goal of protecting the American 
way of life within our borders against terrorism and to deal 
with episodic events where terrorism may find its mark.
    And as I indicated, it will require a cultural adjustment, 
and that is not going to be easy and some need to be skeptical 
of whether or not that can take place. I happen to think it's 
inescapable and that a cultural collaboration brought on by a 
confrontation with the owners and operators is what is 
required. And so I want to underscore that whatever else is 
being discussed here today in terms of statutory changes in the 
bill or anything else is to recognize that I think this is a 
fundamental principle that is inescapable in this new age.
    Now, going a little further, we also recognize that 
information sharing is an indispensable part of securing our 
infrastructure, indeed securing our homeland, and the 
administration's policy, and indeed the policy of the last 
administration, was to encourage information sharing. And 
information sharing has been taking place, the National 
Security Telecommunications Advisory Counsel, which you'll hear 
a little bit more about with Guy Copeland in the next panel.
    But as much as information sharing is taking place, there 
is a reluctance to engage in the wholesale open exchange in a 
proactive manner, in a dynamic manner, because of concerns 
about existing laws and regulations. People can disagree over 
whether FOIA does or does not cover this sort of activity. My 
question is a little more basic. In the current statutory and 
regulatory environment, is it conducive to promoting or 
impeding voluntary information sharing?
    And of course, resolving this is not going to be easy, 
because you may very well have two public goods that come into 
conflict, on the one hand, the need to encourage voluntary 
information sharing, and on the other, the demands of open 
government. Reconciling these two are inescapable, and frankly, 
they're going to fall on the shoulders of the Congress. I think 
it's important to recognize, however, that reconciliation and 
we need to address this issue.
    Now, the administration has made it clear that a narrowly 
crafted FOIA exemption would help advance the cause of 
voluntary information. I know that there are people who look at 
section 204 of the present bill and have expressed some 
concern. And as I understand it, that section is in the process 
of being relooked at and revised in light of the dialog that 
has taken place between the Congress and the administration.
    But what I'd like to be able to conclude is at least say 
something about the basic principles that the administration is 
trying to advance without going into details, which at this 
point, I'm not in a position to do. One, it's designed to be 
narrowly crafted, not overly broad. Two, it's only dealing 
within the zone of voluntary activity. There's no intention to 
role back mandatory disclosure requirements that exist in other 
parts of the law or regulation. And third, there's no intention 
to create safe havens for gross negligence or criminal 
activity. The idea here is to create an environment that is 
conducive and encourages this voluntary activity.
    Now, I want to be very clear about something, because you 
probably will hear a little bit about this later. FOIA reform 
in this area is not a silver bullet. There is not going to be 
an avalanche of information pouring into the Federal Government 
the day after the passage of the bill, because one thing that 
information sharing requires, and it cannot be legislated, it 
cannot be regulated, is trust, and that trust evolves over 
time, and part of the experience with industry and government 
engaging on an ongoing basis on a constructive activity that 
advances the public interest.
    What I referred to earlier is one example of a group that 
has been sharing information with the government for some time. 
They have already demonstrated the importance of it, but they 
too have indicated that more needs to be done in the way of 
FOIA.
    Ultimately, Mr. Chairman, this process is going to be one 
of give and take. What this bill ultimately has to look like 
and what it will look like will be a consensus between the 
government, the Federal and executive branch and the Congress 
on homeland security. Recognizing that honest people can agree 
or disagree on any specific provision, let there be no doubt 
about what needs to happen, and I for one stand ready to 
support your efforts and yours of the committee in moving this 
along. I would also like to acknowledge one other thing, if I 
may, Mr. Chairman, and that is, both your leadership over the 
years on this issue and also the leadership of a very, very 
solid staff on both sides of the aisle. I've had the 
opportunity now to meet with a fair number of them, and they 
are a very tough bunch, but the one thing I will tell you is 
that their professionalism and their honesty and 
straightforwardness made it a pleasure to deal with them, even 
if we disagreed on some of the details of the policy. Thank you 
very much.
    [The prepared statement of John S. Tritak follows:]
Prepared Statement of John S. Tritak, Director, Critical Infrastructure 
   Assurance Office, Bureau of Industry and Security, United States 
                         Department of Commerce
                            i. introduction
    Mr. Chairman, members of the Committee, I am honored to appear 
before you today to discuss the critical infrastructure protection 
activities proposed for transfer to the new Department of Homeland 
Security. I look forward to discussing with you the important role that 
the Critical Infrastructure Assurance Office (CIAO) would play in this 
new Department.
    It is very clear in this current environment that the country needs 
a single, unified homeland security structure that will improve 
protection against today's threats and be flexible enough to help meet 
the unknown threats of the future. The creation of the Department of 
Homeland Security is the most sweeping reorganization of our national 
security establishment in over 50 years. However, this decision was 
made on the basis of careful study and experience gained since 
September 11. The Administration considered a number of organizational 
approaches for the new Department proposed by various commissions, 
think tanks, and Members of Congress. The Secretary of Commerce, the 
Under Secretary and I--as well as all other senior management at the 
Commerce Department--fully support the President's plan and stand ready 
to undertake necessary efforts to facilitate the creation of the new 
Department as soon as possible.
    The new Department of Homeland Security would be organized into 
four divisions: Border and Transportation Security; Emergency 
Preparedness and Response; Chemical, Biological, Radiological and 
Nuclear Countermeasures; and Information Analysis and Infrastructure 
Protection. The new department will be comprised mainly of existing 
organizational elements located in other Federal departments and 
agencies. For example, my office, the CIAO, now located in the 
Department of Commerce's Bureau of Industry and Security, will become 
part of the new Information Analysis and Infrastructure Protection 
Division.
    I would like to take this opportunity to provide some background on 
the CIAO and to discuss briefly some of the specific activities and 
initiatives we are currently undertaking on cyber security and homeland 
security.
     ii. background on the critical infrastructure assurance office
    The CIAO is not a new arrival to the homeland security effort: we 
have been working to realize the objective of critical infrastructure 
assurance for four years. The CIAO was created in May 1998 by 
Presidential Decision Directive 63 (PDD-63) to serve as an interagency 
office located at the Department of Commerce to coordinate the Federal 
Government's initiatives on critical infrastructure assurance. On 
October 18, 2001, Executive Order 13231 (the Order), was issued and 
entitled ``Critical Infrastructure Protection in the Information Age,'' 
the CIAO began serving as a member of and an advisor to the newly 
created President's Critical Infrastructure Protection Board (the 
Board). The Board was created to coordinate Federal efforts and 
programs relating to the protection of information systems and networks 
essential to the operation of the nation's critical infrastructures. In 
carrying out its responsibilities, the Board fully coordinates its 
efforts and programs with the Assistant to the President for Homeland 
Security.
               iii. major ciao activities and initiatives
    CIAO's responsibilities for developing and coordinating national 
critical infrastructure policy focus on three key areas: (A) promoting 
national outreach and awareness campaigns both in the private sector 
and at the state and local government level; (B) assisting Federal 
agencies to analyze their own risk exposure and critical infrastructure 
dependencies; and (C) coordinating the preparation of an integrated 
national strategy for critical infrastructure assurance.
A. Outreach and Awareness
    The Federal government acting alone cannot hope to secure our 
nation's critical infrastructures. The national policy of 
infrastructure assurance can only be achieved by a voluntary public-
private partnership of unprecedented scope involving business and 
government at the Federal, State, and local levels. Forging a broad 
based partnership between industry and government lies at the heart of 
the CIAO's mission.
    Private Sector Partnerships: CIAO has developed and implemented a 
nation-wide industry outreach program targeting senior corporate 
leadership responsible for setting company policy and allocating 
company resources. The challenge of such an effort is to present a 
compelling business case for corporate action. The primary focus of the 
CIAO's efforts continues to be on the critical infrastructure 
industries (i.e., information and communications, banking and finance, 
transportation, energy, and water supply). The basic thrust of these 
efforts is to communicate the message that critical infrastructure 
assurance is a matter of corporate governance and risk management. 
Senior management is responsible for securing corporate assets--
including information and information systems. Corporate boards are 
accountable, as part of their fiduciary duty, to provide effective 
oversight of the development and implementation of appropriate 
infrastructure security policies and best practices.
    In addition to infrastructure owners and operators, the CIAO's 
awareness and outreach efforts also target other influential 
stakeholders in the economy. The risk management community--including 
the audit and insurance professions--is particularly effective in 
raising matters of corporate governance and accountability with boards 
and senior management. In addition, the investment community is 
increasingly interested in how information security practices affect 
shareholder value--a concern of vital interest to corporate boards and 
management. In partnership with these communities, the CIAO has worked 
to translate potential threats to critical infrastructure into business 
case models that corporate boards and senior management can understand. 
Corporate leaders are beginning to understand that tools capable of 
disrupting their operations are readily available not merely to 
terrorists and hostile nation states but to a wide-range of potential 
``bad actors.'' As a consequence, they are beginning to grasp that the 
risks to their companies can and will affect operational survivability, 
shareholder value, customer relations, and public confidence. The CIAO 
has also worked actively to facilitate greater communication among the 
private infrastructure sectors themselves. As individual Federal lead 
agencies under PDD-63 formed partnerships with their respective 
critical infrastructure sectors, private industry representatives 
quickly identified a need for cross-industry dialogue and sharing of 
experience to improve the effectiveness and efficiency of individual 
sector assurance efforts. In response to that expressed need, the CIAO 
assisted its private sector partners in establishing the Partnership 
for Critical Infrastructure Security (PCIS). The PCIS provides a unique 
forum for government and private sector owners and operators of 
critical infrastructures to address issues of mutual interest and 
concern. It builds upon, without duplicating, the public-private 
efforts already being undertaken by the Federal Lead Agencies.
    State and Local Government Partnerships: The CIAO has developed an 
outreach and awareness program for state and local governments to 
complement and support its outreach program to industry. State and 
local governments provide critical services that make them a critical 
infrastructure in themselves. They also play an important role as 
catalyst for public-private partnerships at the community level, 
particularly for emergency response planning and crisis management. The 
issue of securing the underlying information networks that support 
their critical services was a relatively new issue before September 11. 
State and local governments tend to be well organized as a sector, with 
multiple common interest groups. Similar to its program for industry, 
the CIAO has laid out a plan to implement outreach partnerships with 
respected and credible channels within state and local government. CIAO 
has also met with the National Governors Association and the National 
Association of State Chief Information Officers to encourage input into 
the National Strategy for Cyberspace Security. The front lines for the 
new types of threats facing our country, both physical and cyber, 
clearly are in our communities and in our individual institutions. 
Smaller communities and stakeholders have far fewer resources to 
collect information and analyze appropriate actions to take. 
Consequently, in February of this year, the CIAO began a series of four 
state conferences on Critical Infrastructures: Working Together in a 
New World, designed to collect lessons learned and applied from the 
events of September 11 from New York, Arlington, and communities across 
the United States. The intent of this conference series is to deliver a 
compendium of community best practices at the end of the first quarter 
of 2003. The first conference was held in Texas and the second in New 
Jersey. The last two will be held in the latter part of 2002 and the 
first quarter of 2003.
B. Support for Federal Government Infrastructure Activities
    Homeland Security Information Integration Program: The 
Administration is proposing in the President's Fiscal Year 2003 budget 
request to establish an Information Integration Program Office (IIPO) 
within the CIAO to improve the coordination of information sharing 
essential to combating terrorism nationwide. The most important 
function of this office will be to design and help implement an 
interagency information architecture that will support efforts to find, 
track, and respond to terrorist threats within the United States and 
around the world, in a way that improves both the time of response and 
the quality of decisions. Together with the lead federal agencies, and 
guided strategically by the Office of Homeland Security, the IIPO will: 
(a) create an essential information inventory; (b) determine horizontal 
and vertical sharing requirements; (c) define a target architecture for 
information sharing; and (d) determine the personnel, software, 
hardware, and technical resources needed to implement the architecture. 
The foundation projects will produce roadmaps (migration strategies) 
that will be used by the agencies to move to the desired state.
    Federal Asset Dependency Analysis--Project Matrix: The CIAO also is 
responsible for assisting civilian Federal departments and agencies in 
analyzing their dependencies on critical infrastructures to assure that 
the Federal government continues to be able to deliver services 
essential to the nation's security, economy, or the health and safety 
of its citizens, notwithstanding deliberate attempts by a variety of 
threats to disrupt such services through cyber or physical attacks.
    To carry out this mission, the CIAO developed ``Project Matrix,'' a 
program designed to identify and characterize accurately the assets and 
associated infrastructure dependencies and interdependencies that the 
U.S. Government requires to fulfill its most critical responsibilities 
to the nation. These are deemed ``critical'' because their 
incapacitation could jeopardize the nation's security, seriously 
disrupt the functioning of the national economy, or adversely affect 
the health or safety of large segments of the American public. Project 
Matrix involves a three-step process in which each civilian Federal 
department and agency identifies (i) its critical assets; (ii) other 
Federal government assets, systems, and networks on which those 
critical assets depend to operate; and (iii) all associated 
dependencies on privately owned and operated critical infrastructures. 
Early experience with the CIAO's Project Matrix process has 
demonstrated such significant utility that the Office of Management and 
Budget has recently issued a directive requiring all Federal civilian 
agencies under its authority to fund and perform the analysis.
C. Integrated National Strategy for Critical Infrastructure Assurance
    Finally, the CIAO also plays a major role with respect to the 
development and drafting of the two national strategies relating to 
critical infrastructure protection--the National Strategy for Cyber 
Space Security and the National Strategy for Homeland Security. 
Specifically, the CIAO coordinates and facilitates input from private 
industry, as well as state and local government, to the national 
strategies. The Office of Homeland Security has enlisted the CIAO to 
provide coordination and support for its efforts to compile information 
and private sector input to its strategy to protect the physical 
facilities of critical infrastructure systems. The CIAO, working with 
its private sector partners, also has been instrumental in coordinating 
input from the private sector to the cyber space security strategy.
                             iv. conclusion
    The American economy is the most successful in the world. However, 
in the information age, the same technological capabilities that have 
enabled us to succeed can now also be turned against us. Powerful 
computing systems can be hijacked and used to launch attacks that can 
disrupt operations of critical services that support public safety and 
daily economic processes.
    As the President and Governor Ridge have noted, today no Federal 
Agency has homeland security as its primary mission. Responsibilities 
for homeland security are dispersed throughout the Federal Government. 
The President's plan would combine key operating units that support 
homeland security so that the operations and activities of these units 
could be more closely directed and coordinated. This will serve to 
increase the efficiency and effectiveness of the Federal Government's 
critical infrastructure assurance and cyber security efforts.
    The CIAO looks forward to continuing its role in advancing critical 
infrastructure protection policy in the new Department of Homeland 
Security. Thank you for the opportunity to appear before you today. I 
welcome any questions that you may have.

    Mr. Greenwood. Thank you. Let me underscore your words 
about the staff. We couldn't do any of this without them.
    Mr. McDonnell for 5 minutes.

                 TESTIMONY OF JAMES F. McDONNELL

    Mr. McDonnell. Mr. Chairman and distinguished members of 
the committee, thank you for the opportunity to testify on the 
administration's proposal to create a Department of Homeland 
Security, and specifically, the critical infrastructure 
protection activities that will be assigned to the new 
department. I am James F. McDonnell, director of the Department 
of Energy, Office of Energy Assurance. I have been in this 
position since December of 2001, working with the Office of the 
Secretary to develop an integrated and streamlined management 
approach to protecting the national energy infrastructure. The 
Secretary of Energy has the responsibility as the lead Federal 
agency to coordinate protection activities in the energy 
sector.
    Presidential decision directive 63 assigned this 
responsibility to DOE, and the Secretary expects the homeland 
security national strategy to continue that assignment of 
responsibility. The Office of Energy Assurance was established 
at the Department to better protect against severe energy 
disruptions in close collaboration with State and local 
governments and the private sector, and where possible, to 
assist with emergency response efforts.
    The Office provides technical expertise and management 
oversight to identify energy system critical components and 
interdependencies, identify threats to the system, recommend 
actions to correct or mitigate vulnerabilities, plan for 
response and recovery system disruption, and provide technical 
response support during energy emergencies. As originally 
conceived, the Office has four principle areas of management, 
which are energy reliability. The Office of Energy Assurance 
coordinates Department of Energy policy development and 
intergovernmental, interagency activities related to the 
protection and reliability of the national energy 
infrastructure.
    The Office will utilize long-standing relationships with 
government appeared industry representatives to develop a 
national strategy for energy assurance and establish a national 
tracking and reporting process to assess the ongoing 
effectiveness of the national strategy, identifies shortfalls 
and develops corrective action plans; and coordinates efforts 
to expand cooperation on national energy infrastructure with 
friendly nations, international organizations and multinational 
corporations.
    Energy emergencies: The Office of Energy Assurance ensures 
we are prepared to support States and industry efforts to plan 
for, respond to and mitigate actions that disrupt the Nation's 
energy supplies. This Office's primary missions are twofold. 
First is the identification of potential threats to the 
national energy infrastructure, including natural disasters and 
industrial accidents, and deliberate acts of terror, sabotage. 
The Office maintains an effective communications and liaison 
network with the energy sector to facilitate information flow 
during emergencies and communicate potential and actual threats 
to the appropriate authorities.
    The second mission is to assist in the development of 
Federal energy emergency response plans. In carrying out this 
function, OEA will provide technical and professional 
assistance to States and industries for the development of 
local and regional response plans and conduct readiness 
exercises with States and industry to assist in identifying 
shortfalls prior to actual emergencies. Following such 
exercises, the Office will compile lessons learned during the 
conduct of emergencies and exercises for broad dissemination 
among relevant industries and facilities.
    Energy infrastructure: The energy assurance team works with 
the companies whose resources comprise the Nation's energy 
sector to improve the protection of critical energy facilities. 
The infrastructure office works with the energy sector to 
introduce new security practices into the energy sector. The 
Office also interfaces with the DOE laboratory community to 
help identify and speed commercialization of new technologies 
designed to enhance the protection of sensitive facilities.
    Infrastructure interdependencies: The Office of Energy 
Assurance had been designated to provide Federal oversight to 
the National Infrastructure Simulation and Analysis Center as a 
collaborative effort between the national laboratories, the 
Office of Energy Assurance, and other Federal agencies. The 
NISAC, once fully operational, will provide a fundamentally new 
technical planning and decision support environment for the 
analysis of critical infrastructures, their interdependencies, 
vulnerabilities and complexities for policy analysis and 
emergency planning. NISAC will use distributed information 
systems architectures to provide virtual analysis capabilities 
that will accommodate a large number of providers and a large 
number of users.
    Tasking for the NISAC will be developed through an 
interagency planning process chaired by the Department's NISAC 
administrator, which includes representatives of the 
laboratories and industry and will ensure that the NISAC is 
truly a national asset to meet national strategy.
    The Department of Homeland Security: The President's 
legislative proposal creating the Department of Homeland 
Security, includes moving the management of the National 
Infrastructure Simulation and Analysis Center, NISAC, and other 
functions of the Office of Energy Assurance from DOE to DHS.
    The NISAC capability, once established, will provide a 
unique tool for planning and decisionmaking. The complexities 
of the physical and cyber interdependencies associated with the 
national energy infrastructure are vast by themselves. Once 
those complexities are overlaid with the other infrastructures, 
such as telecommunications, the interdependency complexities 
rise to a level that they become an issue that must be 
addressed at a national level. The transfer of the NISAC into 
the Department of Homeland Security will ensure that 
requirements develop and programmatic tasking for NISAC meet 
national priorities. DOE is planning to transfer funding and 
two staff members to DHS to provide program oversight for 
NISAC. DOE will continue to be a customer of NISAC, seeking to 
utilize this national capability to support energy sector 
analysis.
    The transfer of the NISAC administrative functions with the 
Office of Energy Assurance into DHS will provide the new 
department with an integrated management structure to conduct 
activities associated with protecting the national energy 
infrastructure. The Office also manages a robust vulnerability 
assessment program that utilizes expertise from the private 
sector and the national laboratory complex, plans for and 
supports restoration and recovery efforts following natural 
disaster or acts of terrorism, assists States and industry in 
all aspects of energy emergency planning and supports the 
development of strategic energy policies.
    The new Department of Homeland Security will thus have the 
ability to directly access the expertise located associated 
with the Office of Energy Assurance and the National 
Laboratories for Assessments of the energy sector. In addition, 
the new homeland security centers for excellence will provide 
the department with direct access to the capabilities currently 
resident in the national laboratories for research and analysis 
in other areas of the Nation's critical infrastructure.
    Thank you, Mr. Chairman. I would be pleased to respond to 
any questions the committee may have.
    [The prepared statement of James F. McDonnell follows:]
 Prepared Statement of James F. McDonnell, Director, Office of Energy 
                  Assurance, U.S. Department of Energy
                              introduction
    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to testify on the Administration's proposal to 
create a Department of Homeland Security, and specifically, the 
critical infrastructure protection activities that will be assigned to 
the new department. I am James F. McDonnell, Director of the Department 
of Energy Office of Energy Assurance. I have been in this position 
since December of 2001, working with the Office of the Secretary to 
develop an integrated and streamlined management approach to protecting 
the National Energy Infrastructure. The Secretary of Energy has the 
responsibility as the lead federal agency to coordinate protection 
activities in the Energy Sector. Presidential Decision Directive 63 
assigned this responsibility to DOE and the Secretary expects the 
Homeland Security National Strategy to continue that assignment of 
responsibility. The Office of Energy Assurance was established at the 
Department to better protect against severe energy disruptions in close 
collaboration with State and local governments and the private sector 
and, where possible, to assist with emergency response efforts.
    The Office provides technical expertise and management oversight to 
identify energy system critical components and interdependencies, 
identify threats to the system, recommend actions to correct or 
mitigate vulnerabilities, plan for response and recovery to system 
disruption, and provide technical response support during energy 
emergencies. As originally conceived, the Office has four principle 
areas of management, which are:
Energy Reliability
    The Office of Energy Assurance coordinates Department of Energy 
policy development and intergovernmental, interagency activities 
related to the protection and reliability of the national energy 
infrastructure. The Office will utilize longstanding relationships with 
government and industry representatives to develop a national strategy 
for energy assurance and establish a national tracking and reporting 
process to assess the ongoing effectiveness of the national strategy, 
identifies shortfalls and develops corrective action plans; and 
coordinates efforts to expand cooperation on national energy 
infrastructure with friendly nations, international organizations and 
multinational corporations.
Energy Emergencies
    The Office of Energy Assurance ensures we are prepared to support 
states and industry efforts to plan for, respond to and mitigate 
actions that disrupt the nation's energy supplies. This Office's 
primary missions are twofold; first is the identification of potential 
threats to the national energy infrastructure, including natural 
disasters and industrial accidents, and deliberate acts of terror, 
sabotage. The Office maintains an effective communications and liaison 
network with the energy sector to facilitate information flow during 
emergencies and communicate potential and actual threats to the 
appropriate authorities.
    The second mission is to assist in the development of federal 
energy emergency response plans. In carrying out this function, OEA 
will provide technical and professional assistance to states and 
industries for the development of local and regional response plans and 
conduct readiness exercises with states and industry to assist in 
identifying shortfalls prior to actual emergencies. Following such 
exercises, the Office will compile lessons learned during the conduct 
of emergencies and exercises for broad dissemination among relevant 
industries and facilities.
Energy Infrastructure
    The Energy Assurance Team works with the companies whose resources 
comprise the nation's energy sector to improve the protection of 
critical energy facilities. The Infrastructure Office works with the 
energy sector to introduce new security practices into the energy 
sector. The Office also interfaces with the DOE laboratory community to 
help identify and speed commercialization of new technologies designed 
to enhance the protection of sensitive facilities.
Infrastructure Interdependencies
    The Office of Energy Assurance had been designated to provide 
federal oversight to the National Infrastructure Simulation and 
Analysis Center as a collaborative effort between the National 
Laboratories, the Office of Energy Assurance, and other federal 
agencies. The NISAC, once fully operational, will provide a 
fundamentally new technical planning and decision support environment 
for the analysis of critical infrastructures, their interdependencies, 
vulnerabilities, and complexities for policy analysis and emergency 
planning. NISAC will use distributed information systems architectures 
to provide virtual analysis capabilities that will accommodate a large 
number of providers and a large number of users. Tasking for the NISAC 
will be developed through an interagency planning process chaired by 
the Department's NISAC Administrator, which includes representatives of 
the laboratories and industry and will ensure the NISAC is truly a 
national asset meet national strategy.
The Department of Homeland Security
    The President's legislative proposal creating the Department of 
Homeland Security includes moving the management of the National 
Infrastructure Simulation and Analysis Center (NISAC) and other 
functions of the Office of Energy Assurance from DOE to DHS.
    The NISAC capability, once established, will provide a unique tool 
for planning and decision-making. The complexities of the physical and 
cyber interdependencies associated with the national energy 
infrastructure are vast by themselves. Once those complexities are 
overlaid with the other infrastructures, such as telecommunications, 
the interdependency complexities rise to a level that they become an 
issue that must be addressed at a national level. The transfer of the 
NISAC into the Department of Homeland Security will ensure that 
requirements development and programmatic tasking for NISAC meet 
national priorities. DOE is planning to transfer funding and two staff 
members to DHS to provide program oversight for NISAC. DOE will 
continue to be a customer of NISAC, seeking to utilize this national 
capability to support Energy Sector analysis.
    The transfer of the NISAC administrative functions with the Office 
of Energy Assurance into DHS will provide the new Department with an 
integrated management structure to conduct activities associated with 
protecting the National Energy Infrastructure. The Office also manages 
a robust vulnerability assessment program that utilizes expertise from 
the private sector and the National Laboratory complex, plans for and 
supports restoration and recovery efforts following natural disaster or 
acts of terrorism, assists states and industry in all aspects of energy 
emergency planning and supports the development of strategic energy 
policies. The new Department of Homeland Security will thus have the 
ability to directly access the expertise located associated with the 
Office of Energy Assurance and the national laboratories for 
assessments of the energy sector. In addition, the new Homeland 
Security Centers for Excellence will provide the Department with direct 
access to the capabilities currently resident in the national 
laboratories for research and analysis in other areas of the nation's 
critical infrastructure.
    Thank you, Mr. Chairman. I would be pleased to respond to any 
questions the Committee may have.

    Mr. Greenwood. Thank you, Mr. McDonnell.
    Mr. Varnado for 5 minutes.

                 TESTIMONY OF SAMUEL G. VARNADO

    Mr. Varnado. Mr. Chairman and distinguished members, thank 
you for this opportunity. I'm Stan Varnado, director of Sandia 
National Laboratories Programs Critical Infrastructure. The 
work you're doing here is very important and we're proud of 
being a part of it. My written statement has been entered into 
the record, and I'll just present a brief summary about of what 
is in that statement. I want to focus on two major problems in 
critical infrastructure protection. First is cyber security, 
and second is infrastructure interdependency.
    In the cyber area, past research has shown that computer 
systems that control many of the Nation's infrastructures are 
highly vulnerable to cyber attack. These systems are called 
Supervisory Control and Data Acquisition, or SCADA systems. 
They are ubiquitous in the electric power, oil and gas, 
telecommunications and transportation industry. We are 
particularly worried about the SCADA systems for several 
reasons. First, many of the U.S. infrastructure elements depend 
upon their reliable operations. Second, the systems in which 
the electric power industry are used--are using are being used 
in ways to which they were never designed because of the way 
the grid is being operated under the restructuring environment. 
Third, the consequences of attacks on the SCADA systems can be 
significant including loss of life, burnout of equipment that 
is difficult to replace, environmental impacts and others.
    Fourth, the industry is coming to us now and asking for 
help. Fifth, according to an article in the June 27th addition 
of The Washington Post, the Al Qaeda terrorist network is 
looking for information on the SCADA system to maybe plan an 
attack. In our research, we found many vulnerabilities in the 
SCADA systems and these will increase as the industry moves 
toward Internet-based control systems. Some of these 
vulnerabilities are listed in my written statement. We believe 
that the security of these systems must be up there. DHS should 
make the cyber security issue a prominent one.
    In the case of SCADA systems, DHS may want to work with the 
program that DOE has already staffed. They can supply 
requirements to DOE and could support DOE's request for 
resources. The second major area of concern is that of 
infrastructure interdependency. U.S. now depends upon an 
increasingly interdependent staff critical infrastructure 
elements that include electric power, oil and gas, 
transportation, water, communication, banking and finance and 
others. These systems depend upon each other for reliable 
operations. For example, banking and finance depend upon 
telecommunications which is dependent upon electricity, which 
is dependent upon coal, oil, nuclear and gas, which is 
dependent upon water and so on. The list is endless.
    Currently no two exists that allow an adequate 
understanding of the operation of such a complex system. The 
system interdependencies make it hard to identify critical 
nodes that must be protected, to define the consequences of 
outages and to optimize mitigation strategies.
    The National Infrastructure Simulation and Analysis Center, 
NISAC, which is proposed to now become a part of the new 
Department of Homeland Security, was established to address 
this problem. We use Sandia and Los Alamos National 
Laboratory's extensive computing and simulation capabilities to 
allow comprehensive assessments of the vulnerabilities of the 
Nation's infrastructure to allow identification of critical 
nodes and to develop and optimize mitigation strategy. I will 
provide some background on NISAC for you, and my colleague will 
provide additional information on NISAC capabilities.
    NISAC was formally established last year in the USA PATRIOT 
Act. The current status is that it's funded at $20 million in 
fiscal year 2002. The money this year came through DOD's DTRA's 
organization. In fiscal year 2003, the President's budget calls 
for the money to come through DOE. We have established a NISAC 
joint program office to represent both laboratories that are 
involved. We have selected a NISAC joint program director to 
manage the program. We are currently developing strategies and 
partnerships with public entities, private industry and 
universities who will also participate in this activity as 
technology suppliers. We are already developing models of the 
electric power grid, oil and gas distribution systems, 
telecommunications networks and economic models of the 
consequences. For example, in models of interdependencies of 
the electricity and telecommunications infrastructure in 
California has been developed. We are currently studying their 
interdependency and the consequences.
    The proposal to place NISAC in the new Department of 
Homeland Security is very sound. We agree with it. The reason 
is that it allows the NISAC to address national needs rather 
than just the need of any simulation. To achieve this, however, 
we need a national level multiagency committee that represents 
the interests of all the agencies, and that should be 
established in order to set requirements for NISAC. So our 
concern is we offer the following recommendations.
    The homeland security actions requires DHS to establish a 
national level multiagency process to solicit needs from all 
concerned agencies and to define requirements for NISAC. The 
Act should give DHS the authority to pass the DOE NSA 
laboratories directly, just as the nonNSA portions of DOE do 
now. This would eliminate bureaucratic red tape and additional 
costs and delay associated with the process. We further 
recommend the legislation specify that NISAC be managed for DHS 
by the existing NISAC joint program office in order to take 
advantage of the significant amount of research that has 
already been done.
    We believe that the inclusion of these recommendations in 
the Homeland Security Act will provide the greatest utilization 
advances to important issues facing critical infrastructure 
protection. Thank you, Mr. Chairman, and members of the 
committee for this opportunity.
    [The prepared statement of Samuel G. Varnado follows:]
 Prepared Statement of Samuel G. Varnado,, Sandia National Laboratories
                              introduction
    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to testify on the Administration's proposal to 
create a Department of Homeland Security, and specifically, the 
critical infrastructure protection activities that will be assigned to 
the new department. I am Dr. Samuel G. Varnado, Director of Sandia 
National Laboratories' Infrastructure and Information Systems Center. I 
have more than thirty-eight years' experience in energy, information, 
and infrastructure systems development. I currently coordinate the 
Laboratories' activities in critical infrastructure protection.
    Sandia National Laboratories is managed and operated for the 
National Nuclear Security Administration (NNSA) of the U.S. Department 
of Energy (DOE) by Sandia Corporation, a subsidiary of the Lockheed 
Martin Corporation. Sandia's unique role in the nation's nuclear 
weapons program is the design, development, qualification, and 
certification of nearly all of the nonnuclear subsystems of nuclear 
warheads. We perform substantial work in programs closely related to 
nuclear weapons, including intelligence, non-proliferation, and treaty 
verification technologies. As a multiprogram national laboratory, 
Sandia also conducts research and development for other Federal 
agencies when our special capabilities can make significant 
contributions.
    At Sandia National Laboratories, we perform scientific and 
engineering work with a mission in mind--never solely for its own sake. 
Even the fundamental scientific work that we do (and we do a great deal 
of it) is strategic for the mission needs of our sponsors. Sandia's 
management philosophy has always stressed the ultimate linkage of 
research to application. When someone refers to Sandia as ``the 
nation's premier engineering laboratory,'' that statement does not tell 
the whole story: We are a science and engineering laboratory with a 
focus on developing technical solutions to the most challenging 
problems that threaten peace and freedom.
    My statement, which amplifies my colleague David Nokes' testimony 
to this committee on June 25, 2002, will describe some of the key 
problems posed in protecting the nation's critical infrastructure and 
Sandia National Laboratories' contributions and capabilities in that 
area. I will also comment on the proposed relationship of that work to 
the Department of Homeland Security.
      sandia's contributions to critical infrastructure protection
    Like most Americans, the people of Sandia National Laboratories 
responded to the atrocities of September 11, 2001, with newfound 
resolve on both a personal and professional level. As a result of our 
own strategic planning, our LDRD investments, and the foresight of 
sponsors to invest resources toward critical infrastructure protection, 
Sandia was in a position to immediately address some urgent needs.
    For example, we quickly completed vulnerability assessments of a 
number of dams in the Western U.S. and worked with the electricity 
sector to improve the robustness of their supervisory control and data 
acquisition (SCADA) systems to cyber attacks. These and other 
contributions to critical infrastructure protection are possible 
because of strategic planning we had conducted years ago and early 
investment in the capabilities that were needed to respond. The 
outstanding technology base supported by NNSA for its core missions is 
the primary source of this capability. We also made strategic decisions 
to invest laboratory-directed research and development funds (LDRD) in 
the very things that we knew were urgent needs: physical security 
technology, modeling and simulation of infrastructure elements, and 
cyber security. We were heavily involved in supporting the President's 
Critical Infrastructure Protection Committee during the Clinton 
administration, and that activity provided impetus for our current 
activities. In recent months, requests for Sandia's services from 
federal agencies other than DOE for work in emerging areas of need have 
increased. Approximately twenty-eight percent of our total laboratory-
operating budget is now provided by federal agencies other than DOE.
       sandia capabilities for critical infrastructure protection
    Sandia National Laboratories and the other nuclear weapon 
laboratories constitute a broad, multidisciplinary technology base in 
nearly all the physical sciences and engineering disciplines. We 
leverage those capabilities to support other national security needs 
germane to our missions, including homeland security, when our 
capabilities can make significant contributions.
Physical Security
    For over 25 years, Sandia has been the lead laboratory for the DOE 
in safeguards and security. During this time, we have developed risk 
assessment methodology and used it to design the security approaches 
for storage and shipment of nuclear weapons and special nuclear 
material. We have developed vulnerability assessment capabilities and 
models to optimize mitigation strategies. These models were used in the 
early days to design protection systems for nuclear power plants as 
well as for our traditional missions. Recently, the same technology has 
been used to assess the vulnerabilities and improve the robustness of 
dams, chemical plants, water systems, conventional electric power 
plants, and pipelines.
    We have developed numerous airport security sensors and systems, 
including design of secure portals and explosives detectors. Today, a 
commercially produced, walk-through portal for detecting trace amounts 
of explosive compounds on a person is available for purchase and 
installation at airports and other public facilities. The technology 
for this device was developed, prototyped, and demonstrated by Sandia 
National Laboratories over a period of several years and licensed to 
Barringer Instruments of Warren, New Jersey, for commercialization and 
manufacture. The instrument is so sensitive that microscopic quantities 
of explosive compounds are detected in a few seconds.
    Using similar technology, we have developed and successfully tested 
a prototype vehicle portal that detects minute amounts of common 
explosives in cars and trucks. Detecting explosives in vehicles is a 
major concern at airports, military bases, government facilities, and 
border crossings. The system uses Sandia's patented sample collection 
and preconcentrator technology that has previously been licensed to 
Barringer for use in screening airline passengers. The same technology 
has been incorporated into Sandia's line of ``Hound <SUP>TM</SUP>'' 
portable and hand-held sensors, capable of detecting parts-per-trillion 
explosives and other compounds. These devices can be of great value to 
customs and border agents at ports of entry.
    Sandia pioneered a tool called Probabilistic Risk Assessment (PRA) 
to evaluate the risks in high-consequence systems such as nuclear 
weapons and nuclear power generation plants. We use this tool to assess 
the risks in critical infrastructure systems such as dams, water 
utilities, chemical plants, and power plants. Combined with our 
expertise in security systems for nuclear facilities, we have helped 
utilities and industrial associations create security assessment 
methodologies that help owners and operators determine vulnerabilities 
and identify mitigation options. Methodologies have been developed for 
water utilities, chemical storage facilities, dams, power plants, and 
electrical power transmission systems.
Cyber Security
    Sandia has significant ongoing work in the technology areas 
intended to protect cyber and network resources and the information 
that resides on such systems. Programs that assess the vulnerabilities 
associated with these systems are in place for our own resources as 
well as for those at other federal government agencies. We conduct red-
teaming to challenge information systems and identify and remove 
vulnerabilities. Our objectives are to enhance the robustness of 
critical information systems and develop solutions for survivability 
and response options for systems under attack. Sandia operates a 
supervisory control and data acquisition (SCADA) laboratory to study 
the real-time control systems that are used to control the power grid, 
the pipelines, transportation systems, and water systems. Sandia's 
capabilities in cyber security arise from our nuclear weapons mission, 
in which we design the cryptographic systems needed for secure command 
and control systems for the nuclear stockpile. Sandia is the only DOE 
laboratory that is approved by NSA to conduct cryptographic research. 
We have helped many infrastructure owners perform vulnerability 
assessments and develop risk mitigation strategies.
Modeling and Simulation
    National security and the quality of life in the United States rely 
on the continuous, reliable operation of a complex set of 
interdependent infrastructures: electric power, oil and gas, 
transportation, water, communications, banking and finance, emergency 
services, law enforcement, government continuity, agriculture, health 
services, and others. Today, these systems depend heavily on one 
another; that interdependency is increasing. Disruptions in any one of 
them could jeopardize the continued operation of the entire 
infrastructure system. Many of these systems are known to be vulnerable 
to physical and cyber threats and to failures induced by system 
complexity.
    In the past, the nation's critical infrastructures operated fairly 
independently. Today, however, they are increasingly linked, automated, 
and interdependent. What previously would have been an isolated failure 
could cascade into a widespread, crippling, multi-infrastructure 
disruption today. Currently, there are no tools that allow 
understanding of the operation of this complex, interdependent system. 
This makes it difficult to identify critical nodes, determine the 
consequences of outages, and develop optimized mitigation strategies.
    The National Infrastructure Simulation and Analysis Center (NISAC) 
concept, which would be transferred to the Department of Homeland 
Security under the Administration's bill, is also an example of our 
experience with critical infrastructures and will be described and 
discussed later in this statement.
              critical infrastructure protection problems
    The U.S. infrastructure is difficult to protect because of its size 
and complexity. There are many avenues for possible exploitation by an 
adversary. In this statement, I will address two of the problems we 
consider to be the most serious.
Cyber Security
    Computerized supervisory control and data acquisition (SCADA) 
systems control the operations of critical infrastructures such as 
power utilities, distribution networks, and municipal water supplies. 
These systems have generally been designed and installed with little 
attention to security. They are highly vulnerable to cyber attack. In 
fact, it has been claimed that it is possible to turn the lights off in 
many major cities with a cyber attack. An article in the June 27, 2002, 
edition of the Washington Post adds credence to this claim, and states 
that these systems have been the targets of probing by Al Qaeda 
terrorists. Some government experts conclude that the terrorists plan 
to use the internet as an instrument of bloodshed by attacking the 
juncture of cyber systems and the physical systems they control. The 
article further postulates that combined cyber and physical attacks 
could generate nightmare consequences.
    Sandia has been investigating vulnerabilities in SCADA systems for 
five years. During this time, many have been found. Our assessments 
show that security implementations are, in many cases, non-existent or 
based on false premises. Some of the vulnerabilities in legacy SCADA 
systems include inadequate password policies and security 
administration, no data protection mechanisms, and information links 
that are prone to snooping, interruption, and interception. When 
firewalls are used, they are sometimes not adequately configured, and 
there is often ``back-door'' access because of connections to 
contractors and maintenance staff. We have found many cases in which 
there is unprotected remote access that circumvents the firewall. From 
a security perspective, it should be noted that most of the SCADA 
manufacturers are foreign-owned. In summary, it is possible to covertly 
and easily take over control of one of these systems and cause 
disruptions with significant consequences. Recognition of that fact led 
numerous federal agencies and municipal water and transportation 
systems to request Sandia help following September 11.
    Of even more concern is the fact that the control systems are now 
evolving to the use of the internet as the control backbone. The 
electric power grid is now, under restructuring, being operated in a 
way for which it was never designed. More access to control systems is 
being granted to more users; there is more demand for real time 
control; and business and control systems are being connected. 
Typically, these new systems are not designed with security in mind. 
More vulnerabilities are being found, and consequences of disruptions 
are increasing rapidly. Industry is now asking for our help in 
understanding vulnerabilities, consequences, and mitigation strategies. 
After September 11, Sandia also received requests for help from private 
companies and professional societies.
Interdependencies
    The U.S. infrastructure is becoming increasingly interdependent. 
For example, the banking and finance sector depends upon 
telecommunications, which depends on electricity, which depends on 
coal, gas, oil, nuclear sources, water, and transportation. These 
interdependencies create the potential for high consequence, cascading 
failures in which a failure in one element of the infrastructure leads 
to failures in others. Further, interdependencies make it difficult to 
identify critical nodes, vulnerabilities, and optimized mitigation 
strategies. We have studied one case, for example, in which the best 
way to assure operation of the electric power grid is to protect the 
gas pipeline that feeds the generation stations in that area. The 
bottom line is that interdependencies cause the infrastructure to 
behave as a complex system whose behavior is difficult to predict.
    Most of the current federal critical infrastructure protection 
activities are directed at individual infrastructure elements. This 
stovepiped approach was reinforced by PDD-63, in which various agencies 
were assigned responsibility for protecting specific infrastructure 
elements (e.g., DOE was assigned electricity and oil and gas, DOT was 
assigned transportation, etc.). While it is necessary to understand 
these individual elements, the more compelling problem is to address 
the interdependent nature of the behavior of the infrastructure in 
order to prevent more severe consequences. We believe that this 
modeling and simulation effort is essential and will lead to the 
ability to define the critical nodes at the system level, identify 
consequences of outages, and define optimized protection strategies.
Possible Solutions to Critical Infrastructure Problems
    It is unreasonable to expect that every part of the infrastructure 
can be completely protected. Rather, a risk management strategy must be 
used to decide where to invest limited protection resources. Three 
steps are needed:

<bullet> Define the infrastructure elements that are truly critical. 
        Criteria must be established that define ``critical''. These 
        could include, for example, loss of life, economic impact, time 
        to rebuild, cost to rebuild, potential for loss of confidence 
        in the government, etc.
<bullet> Perform vulnerability assessments for these critical elements.
<bullet> Develop optimized prevention and mitigation strategies.
    It will be necessary to work closely with private industry in all 
these steps, since they own 85% of the US infrastructure. They must see 
a business case, based on risk analysis, before they are willing to 
invest in protection. Vulnerability assessment methodology is well 
known to Sandia, other DOE labs, and certain private companies. They 
can play important roles in all three steps, but especially in 
identifying, from a systems perspective, the critical nodes and in 
evaluating the consequences of disruptions so that business cases can 
be developed. The methodology for conducting the required analysis is 
known. What is needed from a technology development perspective is 
additional research in cyber security techniques and development of 
additional simulation and modeling capability, since modeling of the 
behavior of complex systems will require high performance computing. 
Additionally, help is needed in working with private industry. Many of 
the private owners of the infrastructure feel that identification of 
critical nodes and vulnerabilities is sensitive information, and they 
are reluctant to share it with the government. Government action is 
needed to create a process under which sensitive information can be 
shared among those in government and industry with a need-to-know.
    Congressional support is needed to help implement the following 
steps that will lead to a more robust national infrastructure:

<bullet> Establish a new category of sensitive, restricted information 
        for Critical Infrastructure Protection applications. Procedures 
        for protecting the information and processes for granting 
        access to both industry and government personnel are needed.
<bullet> Provide training in vulnerability and risk assessment 
        methodology to private industry.
<bullet> Support additional research into cyber security issues, 
        including cryptographic methods such as authentication, low 
        power encryption methods, and standards. The establishment of 
        test beds to allow evaluation of competing technologies should 
        be encouraged.
<bullet> Support development of tools needed for identifying critical 
        nodes, consequences of outages, and optimized mitigation 
        strategies.
     national infrastructure simulation and analysis center (nisac)
    The President's bill to establish a Department of Homeland Security 
provides for an Under Secretary for Information Analysis and 
Infrastructure Protection. It further proposes, under Title II, to 
transfer the responsibility for NISAC to the Department of Homeland 
Security. NISAC was formally chartered by the USA Patriot Act of 2001 
(Oct 26, 2001) to serve as ``a source of national competence to address 
critical infrastructure protection and continuity through support for 
activities related to counter terrorism, threat assessment, and risk 
mitigation.'' (Section 1016 of Public Law 107-56, the USA Patriot Act, 
10/26/2001). NISAC, a partnership of Sandia and Los Alamos national 
laboratories, is leveraging current modeling, simulation, and analysis 
expertise to develop higher fidelity simulations crucial to the success 
of the Nation's critical infrastructure protection program. These labs 
were chosen to manage NISAC because of their considerable investment in 
infrastructure and interdependencies modeling over the last decade, the 
availability of high performance computers at the labs, and their 
modeling and simulation capabilities.
Status
    The President's FY03 budget request called for the FY03 NISAC 
activities to be funded through the Department of Energy. NISAC, with 
Sandia and Los Alamos national laboratories as core partners, has 
devoted considerable effort to expanding the critical infrastructure 
modeling, simulation, and analysis capabilities of the two 
laboratories. A Joint Program Director has been selected to manage the 
NISAC program on behalf of both labs. NISAC has built consensus in the 
government and private sector on the importance of infrastructure 
interdependency analysis to the nation's critical infrastructure 
protection program. The NISAC Joint Program Office is developing 
strategic plans and associated research and development programs to 
meet its national charter. These plans include the identification of 
key strategic partners from other labs, universities, and private 
industry who will serve as technical collaborators in the performance 
of the tasks assigned to NISAC. Further, NISAC has proposed a senior-
level, national, interagency process, including DHS, to generate, 
prioritize, and set national-level requirements for its modeling and 
simulation activities.
Observations
    The proposal to move NISAC to the Department of Homeland Security 
is sound. It will allow NISAC to serve as a national resource that can 
address critical infrastructures and, most importantly, their 
interdependencies across the entire range of infrastructure elements--
energy, telecommunications, transportation, banking and finance, water, 
etc. It will allow the NISAC work to be prioritized by national needs, 
rather than the by the interests of a single agency. Further, it will 
be possible to implement a national level requirements-setting process 
for NISAC activities, which fulfills the intent of the Patriot Act.
    It is important that the existing NISAC Joint Program Office 
continue to serve as the managing entity for NISAC, serving under the 
oversight of the new DHS, in order to capitalize on the previous 
decade's investment in the technology base. An added benefit to the 
proposed organizational structure within DHS is that it would place 
NISAC and the National Communications System (NCS) under the same Under 
Secretary. NCS has significant capability in modeling the 
telecommunications infrastructure, while Sandia and Los Alamos have 
similar capabilities in modeling the energy infrastructure, chem./bio 
problems, and infrastructure interdependencies. This concentration of 
technical capability in one organization will provide a demonstrated 
competence that should lead to early and useful results.
Recommendations
<bullet> The legislation that establishes the Department of Homeland 
        Security should clearly state that NISAC will be managed by the 
        NISAC Joint Program Office for the Department of Homeland 
        Security.
<bullet> The legislation should state that DHS will assume both funding 
        and oversight responsibilities for NISAC as soon as DHS is 
        established. A NISAC program manager within DHS should be 
        named.
<bullet> The Homeland Security Act should give the Department of 
        Homeland Security the power to task the NNSA laboratories 
        directly, just as do the Science, Energy, Environmental, and 
        other non-NNSA offices of DOE. That authority would eliminate 
        the bureaucratic red tape and additional costs associated with 
        the Work-for-Others (WFO) process.
<bullet> The legislation should require that DHS establish a national 
        level, multi-agency process to solicit needs and define 
        requirements for NISAC. Participating agencies could include 
        DOE, DOT, DOC, OSTP, DOS, Treasury, and others. Final approval 
        for all NISAC activities should reside with a senior DHS 
        official.
                         summary and conclusion
    Sandia National Laboratories and the other NNSA laboratories 
constitute a broad, multidisciplinary technology base in nearly all of 
the physical sciences and engineering disciplines. We are eager to 
leverage those capabilities to support the science and technology needs 
of the Department of Homeland Security when our capabilities can make 
significant contributions.
    Sandia possesses strong competencies in physical and cyber security 
and in modeling and simulation. Most of this technology is suitable for 
transfer to industry and deployment in homeland security applications. 
We have been proactive in addressing the challenges of infrastructure 
protection. We have a track record of anticipating emerging homeland 
security threats and investing in technology development to counter 
them through our Laboratory-Directed Research and Development program 
and sponsor-directed programs. We are one of the premier laboratories 
for working with industry to transform laboratory technologies into 
deployable commercial applications. Bureaucratic and regulatory 
roadblocks exist that limit access to the DOE/NNSA national 
laboratories by other federal agencies, and those obstacles should be 
removed by the homeland security legislation in order to facilitate 
direct access to those resources.
    On behalf of the dedicated and talented people who constitute 
Sandia National Laboratories, I want to emphasize our commitment to 
strengthening United States security and combating the threat to our 
nation's critical infrastructures. It is our highest goal to be a 
national laboratory that delivers technology solutions to the most 
challenging problems that threaten peace and freedom. Thank you, Mr. 
Chairman. I would be pleased to respond to any questions you may have.

    Mr. Greenwood. Thank you, Dr. Varnado.
    Dr. Cobb for 5 minutes.

                   TESTIMONY OF DONALD D. COBB

    Mr. Cobb. Thank you, Mr. Chairman, and distinguished 
members of the committee for inviting Sandia and Los Alamos 
here today to discuss the issue of critical infrastructure 
protection, and in particular, the national infrastructure 
simulation and analysis center, or NISAC.
    This morning I'd like to discuss with you the efforts to 
protect the Nation's critical infrastructure in the form of 
this joint, and I think, unique Los Alamos and Sandia 
partnership. NISAC brings to bear on the problem of protecting 
the Nation's critical infrastructure, some of the most 
sophisticated modeling simulation technology to be found 
anywhere. This technology is based on a decade-long, $150 
million investment by the Federal Government in work at both 
laboratories. The work is to do complex modeling and simulation 
of some of the most complex systems, namely our infrastructure.
    It also is supported by two of the largest secure computing 
environments. I think that is an important point in that we 
have the experience to use massive computing as tools, and also 
the environment to protect the information in the appropriate 
fashion. NISAC, when it's fully operational, is envisioned to 
provide the type, scale, comprehensive level of information 
that will enable the Nation's senior leadership, our 
decisionmakers at the highest levels, to proactively work to 
deny terrorist attacks against high targets, key nodes and our 
critical infrastructure.
    For the first time, we'll be able to simulate the 
operations of and the interdependencies among the elements of 
our infrastructure, including telecommunications, electricity, 
oil and gas, transportation, public health and so forth.
    We will have confidence that these results can be used by 
decisionmakers to identify key gaps and vulnerabilities, and 
thereby set the priorities for investment in protection 
measures. Today NISAC is already providing important 
information to the Office of Homeland Security and other 
government agencies. Permit me to just describe one example.
    Recently we were asked to complete a short fuse study for 
the Office of Homeland Security looking at various scenarios 
for distributing vaccine. This study used a new simulation tool 
called EpiSims, which stands for epidemiological simulation. 
EpiSims, in turn, builds on a decade of transportation modeling 
simulation that was carried out for the Department of 
Transportation. This latter capability called TranSims 
literally reproduces the complex nonlinear pattern of traffic 
in major urban areas on a minute-by-minute basis.
    How are these two things connected? Basically, the 
methodology in TranSims, in order to replicate how dynamic 
interactions occur among members of a diverse population such 
as a major city in the United States and that synthetic urban 
population which is derived from demographic information are 
the tools that we need to do many of this type of model and 
simulation. So EpiSims used that basic methodology and those 
synthetic populations in the studies that we did.
    Along with input from some of the experts that you heard 
earlier on public health interactions so we could have the lead 
people in the area of public health allegation provide input 
and then looking at our results to confirm that they do, in 
fact, match their experience.
    So in recognition of this type of capability that has been 
developed over the years and building on this and leveraging 
it, Congress chartered NISAC under the U.S. PATRIOT Act of 2001 
to, quote, serve as a national source of competence to address 
critical infrastructure protection and continuity through 
support for activities related to counterterrorism, threat 
assessment and risk mitigation.
    As was stated earlier, the President's homeland security 
legislation calls for the transfer of NISAC to the new 
Department of Homeland Security. Because the purpose of NISAC 
and its true realization is the responsibility--has the 
responsibility across all the infrastructure sectors that are 
interdependencies, it seems to us that we concur that this is 
the appropriate place for NISAC to be. In other words, it 
should report directly to the agency that will inherit this 
responsibility for protecting our infrastructure.
    So in closing, let me say that through the NISAC 
collaboration, Sandia and Los Alamos look forward to continuing 
support the new Department of Homeland Security and in 
protecting our Nation's critical infrastructure and I thank you 
for the opportunity, and we will be happy to answer your 
questions later.
    [The prepared statement of Donald D. Cobb follows:]
 Prepared Statement of Don Cobb, Associate Director, Threat Reduction, 
                     Los Alamos National Laboratory
    Thank you Mr. Chairman and distinguished members of the House 
Energy and Commerce Subcommittee on Oversight and Investigations for 
inviting me here today to discuss the administration's proposal for 
creating the Department of Homeland Security. I am Don Cobb, Associate 
Director for Threat Reduction at Los Alamos National Laboratory. At Los 
Alamos, I am responsible for all programs directed at reducing threats 
associated with weapons of mass destruction. I personally have more 
than 30 years experience working to reduce these threats. Los Alamos is 
operated by the University of California for the DOE/NNSA and is one of 
three NNSA laboratories, along with Lawrence Livermore National 
Laboratory and Sandia National Laboratories, responsible for 
maintaining the nation's nuclear stockpile. In addition to our 
stockpile responsibilities, the three NNSA laboratories have been 
involved for decades in technology development and problem solving in 
the realm of arms control and nonproliferation. Through our work in 
these areas, Los Alamos has developed a skill and technology base that 
enabled us to respond immediately following the September 11 attacks, 
to calls for assistance in counter terrorism and homeland security. 
With the President's call for a new Department of Homeland Security, 
Los Alamos stands ready to focus its capabilities in support of this 
new department.
    Today, I would like to discuss with you the broad set of 
capabilities that Los Alamos brings to U.S. efforts to protect our 
homeland from future terrorist attacks. While my testimony is Los 
Alamos centric, progress in science and technology depends on 
collaboration among the national laboratories, government, industry and 
academia.
    Los Alamos National Laboratory firmly supports the creation of a 
Department of Homeland Security (DHS). Consolidation of federal 
homeland security agencies has the potential to protect the nation 
against terrorism.
    The President's proposal would give the Department four divisions: 
Information Analysis and Infrastructure Protection; Chemical, 
Biological, Radiological, and Nuclear Countermeasures; Border and 
Transportation Security; and Emergency Preparedness and Response. Each 
of these mission areas will require focused research and development 
(R&D). My statement will describe some of the key contributions Los 
Alamos and the other national laboratories can make to homeland 
security in each of these areas.
          engaging the science and technology (s&t) community
    ``The government will need mechanisms to engage the technical 
capabilities of the government and the nation's scientific, 
engineering, and medical communities in pursuit of homeland security 
goals,'' says a new National Academies report.<SUP>1</SUP> Every 
division of the DHS will require research, development, testing, and 
evaluation (RDT&E) to solve the technical challenges it will face.
---------------------------------------------------------------------------
    \1\ National Research Council Committee on Science and Technology 
for Countering Terrorism, Making the Nation Safer: The Role of Science 
and Technology in Countering Terrorism (Washington, DC: National 
Academy Press, June 2002).
---------------------------------------------------------------------------
    At Los Alamos, we have asked the question, ``How can a newly formed 
DHS best engage with the S&T community, including the national 
laboratories, universities and industry?'' I believe that in order to 
succeed, DHS requires a single, focused S&T office that serves as the 
central R&D organization for the Department. As suggested by the House 
and Senate bills, this office could be placed under a separate Director 
of Science and Technology. The best and brightest human resources, 
including federal staff augmented by scientists and engineers assigned 
from national laboratories, industry and academia, must staff this S&T 
office. Boundaries with other organizations must be ``permeable,'' 
enabling people to move back and forth easily.
    The S&T office would be responsible for the planning and oversight 
of focused RDT&E, including both rapid technology acquisition and long-
term, high-risk, high-payoff research. Functional responsibilities for 
the agency would therefore include:

<bullet> Threat and vulnerability assessment;
<bullet> Identification of needs through interactions with other 
        agencies, and with state and local governments;
<bullet> Strategic planning and prioritization for RDT&E investments;
<bullet> Program planning, budgeting, funding and oversight;
<bullet> Systems architectures;
<bullet> Science and technology acquisition from universities, industry 
        and national laboratories;
<bullet> Technology integration;
<bullet> Evaluation of technologies and systems effectiveness; and
<bullet> Close coordination with end-users during initial system 
        deployments.
    The office should be established quickly, in place and functioning 
concurrently with the establishment of the DHS--we want to maintain, 
and even accelerate, the momentum which has built since September 11. I 
now will describe some of the key contributions Los Alamos is making to 
homeland security.
           information analysis and infrastructure protection
    National Infrastructure Simulation and Analysis Center (NISAC). Los 
Alamos is partnering with Sandia National Laboratories to establish 
NISAC. NISAC is intended to provide improved technical planning, 
simulation, and decision support for the analysis of critical 
infrastructures, their interdependencies, and vulnerabilities for 
policy analysis and emergency planning. This technology is based on a 
decade long, $150M investment in basic research and software 
development, supported by the world's largest secure, scientific 
computing environment. NISAC will provide the type, scale, and 
comprehensive level of information that will enable the nation's senior 
leadership proactively to deny terrorist attack options against 
potentially high-value targets, instead of simply reacting to the 
latest threat scenarios. NISAC will provide essential analytic support 
for discovering and overcoming gaps in our homeland security.
    NISAC was created as part of the U.S.A. Patriot Act of 2001 (P.L. 
107-56). The President's proposal calls for the transfer of NISAC to 
the DHS. Because NISAC has responsibility across all infrastructure 
sectors, it is appropriate that NISAC should directly support the 
agency charged with cross-infrastructure responsibilities. NISAC is 
part of a broader portfolio of infrastructure modeling and simulation 
work at the two laboratories. This is significant. The technical and 
programmatic synergies that accrue to NISAC as a result of this 
association allow for immediate application of the R&D efforts to real 
problems today. From vulnerability assessments of actual 
infrastructures to ``what if'' simulations of biological event 
scenarios, NISAC is providing insights and information to senior 
decision makers now. As this capability matures, we will do more.
    National Transportation Modeling and Analysis Program (NATMAP). 
NATMAP, currently being developed for the Department of Transportation, 
builds on Los Alamos' transportation modeling technology developed over 
the past decade. NATMAP simulates individual carriers--trucks, trains, 
planes, and waterborne vessels--and the transportation infrastructures 
used by these carriers to simulate freight commodity shipments of the 
U.S. transportation network. It moves individual freight shipments from 
production areas, through intermodal transfer facilities and 
distribution centers, to points of consumption. The advantage of the 
NATMAP is that the nation's system can be represented at any level of 
detail--from trucks and goods moving among counties and within regions, 
to national multi-modal traffic flows including cross border trade with 
Mexico and Canada. This strength can be exploited for transportation 
policy, security and infrastructure investment purposes.
    Vulnerability/Threat Assessments: Nuclear Facilities. Over the last 
20 years, Los Alamos and Sandia have analyzed physical security and 
identified vulnerabilities at numerous nuclear facilities throughout 
DOE, DoD, and U.S. Nuclear Regulatory Commission (NRC) facilities. 
These facilities include nuclear reactors, plutonium-handling 
facilities, nuclear weapons storage facilities, commercial nuclear 
power plants, and spent nuclear fuel facilities. We routinely train 
external agencies on developing protection strategies for low-
probability/high-consequence scenarios, such as aircraft crash, 
sabotage, and fire. Fundamental to these activities are the unique 
facilities and capabilities that Los Alamos brings to these analyses. 
We are the only site where highly radioactive materials can be studied 
experimentally for their response to postulated threat scenarios. Such 
an understanding is essential for analyzing threats and their potential 
consequences.
    Threat Analysis and Warning. Following the September 11 attacks, we 
established a multidisciplinary team of analysts searching for evidence 
of terrorist activity. Such analysis requires the latest information 
management technologies, advanced computational methods, and automated 
pattern identification to search enormous amounts of electronic 
information. This tremendous task is complicated by the fact that the 
vast majority of data represents completely innocent activity. Under 
the new Department, a major effort will be needed to develop the tools 
that will provide the ability to accurately synthesize information from 
intelligence, law enforcement, and open sources. Using our experience 
in solving related problems over the years, for example in identifying 
activities indicating WMD proliferation, Los Alamos will continue to 
provide analytic capability in this area.
    Immigration and Naturalization Service: Entry/Exit System. The 
Immigration and Naturalization Service Data Management Improvement Act 
(DMIA) of 2000 (P.L 106-215) created a Task Force to evaluate how the 
flow of traffic at United States ports of entry can be improved while 
enhancing security and implementing systems for data collection and 
data sharing. The Task Force is advisory in nature, and as such, will 
develop recommendations regarding the development and deployment of an 
integrated, automated entry/exit system. A team of experts from Los 
Alamos is working with the Task Force to provide advice and objective 
recommendations regarding the design and development of the system.
    GENetic Imagery Exploitation (GENIE). Los Alamos has developed a 
sophisticated image analysis technology called GENIE to create high-
resolution maps. Current sensor platforms collect a flood of high-
quality imagery. Automatic feature extraction is key to enabling human 
analysts to keep up with the flow. Machine learning tools, such as the 
genetic algorithm-based GENIE, have been successfully used in military 
and intelligence applications of broad area search and object 
detection, evaluation of environmental disasters, space imaging, and 
diagnosis from medical imagery. GENIE has been quickly deployed on a 
wide range of processing systems across the nation, and was recently 
recognized with an R&D 100 award.
    Gigabit Computer Network Traffic Monitoring. Los Alamos has 
recently developed technology that can monitor computer network traffic 
at gigabit/gigabyte rates, which could be applied to the problem of 
terrorist activity detection. By being able to scan network traffic at 
gigabit rates, both for trends as well as between specific sources and 
destinations, our tools can be used to provide indicators or early 
warning of suspicious communications. While many of these traffic 
analysis techniques are well known, they have been limited until now by 
the inability to collect and process data at gigabit rates.
    Geographic Information Systems (GIS). Los Alamos has high-end 
computer systems capable of assembling, storing, manipulating, and 
displaying geographically referenced information. Our GIS make it 
possible to link, or integrate, information that is difficult to 
associate through any other means. For example, a GIS might allow 
emergency planners to easily calculate emergency response times in the 
event of a disaster; we can predict water quality, air quality, 
contaminant transport, wildfires and other natural hazards based on 
defined threat scenarios. A critical component of Los Alamos' GIS is 
our 3D modeling and visualization capability. We can produce wall maps 
and other graphics, allowing the viewer to visualize and thereby 
understand the results of analyses or simulations of potential events.
    chemical, biological, radiological, and nuclear countermeasures
    The response to chemical, biological, radiological and nuclear 
threats necessarily take very different approaches. The dual-use nature 
of chemical and biological materials makes them easily accessible. For 
instance, feritlizer can be used to help plants grow, but the same 
chemicals can also be used in the construction of a bomb. In addition, 
hazardous microorganisms can be grown from very small starting samples. 
Given the prevalence of these materials, the primary focus in 
countering chemical and biological threats is on early detection of 
attack, early warning to authorities and first responders, and rapid 
characterization of the agent to guide response. Radiological and 
nuclear materials, on the other hand, have a much longer history of 
being regulated and safeguarded at their source. Consequently, the best 
way to respond to this variety of threat is to prevent terrorists from 
ever acquiring the necessary materials, protecting them at their 
source. Thus, we have an opportunity for a layered protection strategy 
to counter nuclear terrorism.
Chemical and Biological Countermeasures
    Los Alamos has a long history of working in the biological 
sciences, born out of initial work done on the effects of radiation on 
humans. Over the years, this has developed into a significant 
expertise, including leadership in the international Human Genome 
Project and the development of now widely used biomedical technologies, 
based on our expertise in lasers and isotope chemistry. For example, 
Los Alamos created the field of flow cytometry, which allows 
researchers to flow objects past a laser that can rapidly answer 
questions about individual cells or molecules, like DNA. Thanks to this 
strong foundation in the biosciences, Los Alamos was able to make 
contributions during the recent anthrax attacks, as well as in the 
broader area of biothreat reduction, primarily through our work for 
NNSA's Chemical and Biological National Security Program (CBNP).
Field Detection and Early Identification of Pathogens
    The Biological Aerosol Sentry and Information System (BASIS), a 
joint Los Alamos-Livermore project, provides early warning of airborne 
biological weapons attacks for special events such as the Olympics. 
Planned for use in civilian settings, BASIS can detect a biological 
attack within a few hours, early enough to treat exposed victims and 
limit casualties significantly. It was deployed at the 2002 Winter 
Olympics in Salt Lake City. The BASIS system incorporates distributed 
sampling units (sensors), a re-locatable field laboratory, and an 
operations center that employs a secure web-based communications 
system.
    Advanced BASIS technology is currently being integrated into the 
Biosurveillance Defense Initiative. The Initiative, which is sponsored 
by the Defense Threat Reduction Agency of the Department of Defense and 
the NNSA, is a joint Los Alamos, Livermore, and Sandia program. The 
tri-lab effort will establish an urban test bed for biosurveillance in 
a U.S. metropolitan area this fall. Technologies developed by the three 
NNSA laboratories for early detection of biological incidents, as well 
as Department of Defense systems, will be included in the test bed.
Pathogen Characterization for Forensics, Attribution and Response
    Once an attack has occurred, it is up to the biological science and 
medical communities to respond to the aftermath. These communities, Los 
Alamos included, responded to the challenge posed by the fall 2001 
anthrax attacks. Los Alamos assisted the federal response to the 
attacks from the beginning, providing DNA forensics expertise to the 
investigation, determining what strain of anthrax was used, as well as 
other characteristics important for response (e.g., antibiotic 
resistance or genetic manipulation).
    Los Alamos was able to respond to the attacks as we did because we 
have been working for the past ten years on analyzing the DNA of 
anthrax and building a comprehensive database of strains from around 
the world. Beyond just anthrax, the Laboratory is working on a variety 
of pathogen strain analysis approaches for detection, characterization 
and attribution of threat pathogens. This work, along with that of our 
colleagues at Livermore and Northern Arizona University, has provided 
the assays being used in BASIS. Sophisticated analysis capability 
resides at Los Alamos for more comprehensive pathogen characterization 
and, importantly, for the identification of unknown microbes.
    Los Alamos works with a broad range of characterization and 
identification technologies. For instance, Los Alamos has established a 
DNA fingerprinting method for rapidly identifying the ``genetic 
barcode'' for each threat agent species. We have established an archive 
of such ``barcodes'' so that, when we conduct an analysis on a new 
sample, we can rapidly compare its signature to all those in the 
database. Additionally, if a threat pathogen is known, Los Alamos can 
use our DNA analysis methods to detect a broad range of agent 
properties that are important for understanding the attack and guiding 
prophylaxis and treatment; including evidence of genetic manipulation 
and antibiotic resistance. We can also differentiate strains of the 
known threat agents and can, for some species, determine their original 
geographic origin.
    Biological Demonstration and Application Program. The forensic 
technologies described above, as well as routine analytical techniques, 
are being evaluated and standardized in the Biological Demonstration 
and Application Program (BDAP). BDAP is a collaborative NNSA-sponsored 
effort between Los Alamos, Livermore and the Northern Arizona 
University. The BDAP will facilitate rapid transition of NNSA-developed 
forensic technology into use by the public health, law enforcement and 
intelligence communities.
    Biological Toxin Detection. We have developed a prototype of a 
simple, compact sensor system for detection of biological toxins, 
viruses, and bacteria. The prototype has been sent to a customer for 
use and evaluation. Our initial efforts have been focused on the 
development of a single-channel, hand-held, battery operated instrument 
for detection of cholera and ricin toxins within environmental samples. 
This sensor approach offers high sensitivity and specificity, 
simplicity of use, and rapid response time (5-10 minutes).
    Chemical Detection. Los Alamos has also developed sensors for 
detecting chemical threats. For instance, the Swept Frequency Acoustic 
Interferometer (SFAI) can be used to determine the composition of 
suspected chemical weapons without opening up the weapon or disturbing 
it. These devices are hand-carried and have been tested extensively. 
The technology is so sensitive that it can easily distinguish between 
the contents of cans of Coke <Register> and Diet Coke <Register>. 
Research is also moving forward employing fuel cell technology for 
development of an inexpensive, small and highly sensitive chemical 
agent vapor detector.
Nuclear and Radiological Countermeasures
    As described earlier, the radiological and nuclear threat must be 
dealt with in marked contrast to how the chemical and biological threat 
is managed. For example, if you wait to detect the use of a 
radiological or nuclear device, in most cases, it's too late. Instead, 
what is critical in this area is making every effort possible to secure 
materials at their source and ensure that terrorists cannot access 
them.
Securing Materials at their Source
    The DOE/NNSA Materials Protection, Control and Accounting (MPC&A) 
program is the first line of defense against nuclear terrorism. With 
the dissolution of the Soviet Union, NNSA/DOE estimates that Russia 
inherited approximately 850 tons of highly enriched uranium (HEU) and 
plutonium. Considering the International Atomic Energy Agency 
definition of significant quantities, this is enough material to make 
more than 50,000 nuclear explosive devices. MPC&A security upgrades are 
complete for about \1/3\ of the fissile material identified as being at 
risk of theft or diversion in Russia. Rapid progress is being made to 
increase the security of the remaining materials, but completing the 
effort will take several more years of intensive work.
    Whereas in the past nonproliferation efforts were focused on 
weapons-usable materials, today there is a recognition that other 
radiological materials (used for industrial, medical and research 
purposes) pose a threat in the form of radiological dispersal devices 
(RDDs), or ``dirty bombs.'' Los Alamos is actively working with DOE/
NNSA and counterparts in Russia to develop strategies to secure 
radiological sources that pose a threat in the form of a dirty bomb.
    Thousands of radiological sources are used in the U.S. for 
research, medical and industrial applications. The Nuclear Regulatory 
Commission plans to strengthen control of the sources it licenses for 
these uses. The DOE and its predecessor agencies originally produced 
radiological--sources for a variety of defense and civilian 
applications. These so-called ``orphan sources'' are being recovered by 
Los Alamos and repackaged as transuranic waste. More than 3,000 sources 
have been recovered to date. The pace of this recovery effort will 
likely increase to cover the more than 5,000 sources remaining.Second 
Line of Defense
    The Second Line of Defense (SLD) program has the mission to detect 
and recover any nuclear material that may slip through the first line 
of defense described above. The program works to strengthen Russia's 
overall capability to prevent the illegal transfer of nuclear 
materials, equipment, and technology to would-be proliferators. The 
immediate goal of the program is to equip Russia's most vulnerable 
border sites with nuclear detection equipment. A future goal is to 
establish a sustainable counter-nuclear smuggling capability in Russia. 
SLD provides training programs for front-line inspectors, and purchases 
detection equipment that can ``sniff'' out nuclear materials.
Protecting U.S. Borders, Bases and Cities
    This area, in effect the third line of defense, strives to detect 
radiological or nuclear materials at U.S. ports of entry. For several 
federal agencies, including the U.S. Coast Guard and the U.S. Customs 
Service, we are providing information on handheld radiation detectors 
and isotope identifiers. We are providing advice on what instruments to 
buy, and instructing operators in their use. Los Alamos is actively 
involved in a maritime surveillance study that analyzes potential 
vulnerabilities of commercial shipping.
    Los Alamos is also playing a role in helping to protect U.S. 
military bases. One example of this is a joint NNSA and Defense Threat 
Reduction Agency effort. Its goal is to improve the Department of 
Defense's ability to detect, identify, respond, and prevent 
unconventional nuclear attacks by national, sub-national, or terrorist 
entities. The project combines technology and resources from both 
agencies to develop, deploy, test and demonstrate nuclear protection 
systems and networks at four different U.S. military installations. 
This effort is currently underway and involves Los Alamos and several 
other NNSA and DOE laboratories. If successful, the systems will be 
applicable to civilian urban areas.
Radiation Sensors and Detection Systems
    Handheld Search Instruments. Handheld instruments are those that a 
police officer, customs inspector, or similar official can use to 
search for radioactive material on a person or in a suspicious package. 
They can identify the isotope emitting the radiation--an enhancement 
that allows a user to distinguish between benign radiation emitters 
such as radiopharmaceuticals or smoke alarms, and the weapons-usable 
material that we want to interdict. Los Alamos has developed a new 
handheld instrument with a Palm <SUP>TM</SUP> interface that enables 
users to distinguish between radiation sources within seconds. The Palm 
<SUP>TM</SUP> unit can provide data about the nature of the nuclear 
source at hand and the isotopes present. Los Alamos is exploring 
commercial licensing and production for this handheld search 
instrument. Earlier versions, the so-called GN (gamma-neutron) series 
of handheld instruments have already been commercialized.
    Package Monitor. The Laboratory has developed systems to detect 
nuclear materials, particularly hard-to-detect ones such as uranium-
235, which might be missed by regular search instruments. An example of 
this is a newly developed package monitor that detects nuclear material 
in parcels via neutron interrogation. A prototype of the package 
monitor is currently being field-tested at a U.S. Customs facility.
    Portal Monitors. Portal monitors are specialized radiation sensors 
in physical packages that are optimized for detecting radiation from 
nuclear materials as a pedestrian or vehicle passes through a choke 
point. Los Alamos is the DOE repository of portal-monitoring expertise 
and has helped developed the technical standards for portal monitor 
performance. LANL has placed portal monitors around the world in 
support of the nuclear Second Line of Defense program as well as 
domestic and international safeguards programs. Currently, LANL is 
involved in the technical evaluation of portal monitors from all U.S. 
vendors against the technical standards.
    Active Interrogation of Cargo Containers. Los Alamos is working 
with Idaho National Engineering and Environmental Laboratory and 
commercial partner ARACOR to develop and test a system that actively 
interrogates large cargo containers (air, sea, rail, and road) to 
determine if there is any nuclear material present. The system, a large 
U-shaped structure with a linear accelerator on one side and x-ray 
detectors on the other, can be driven over a cargo container to produce 
an x-ray image. The image shows neutron emissions, which are a 
signature of nuclear material.
    Long-Range Alpha Detector. The LRAD is potentially valuable for 
sampling volumes of air or extensive surfaces where an alpha emitter 
may have been dispersed, and thus might be used in response to 
radiation-dispersal attacks. LRADs have been used for environmental 
monitoring at places where dispersed uranium is a problem. An LRAD 
implementation for radon monitoring has been commercialized by Eberline 
and could be rapidly adapted to the contamination-monitoring role.
                  emergency preparedness and response
    Los Alamos plays an important role within the area of nuclear 
emergency response. The largest and the most well-known team in this 
area is the DOE-managed NEST team. NEST was created in 1975 in response 
to concerns over nuclear terrorism activity. Its effectiveness is due 
to well-established interagency relationships including significant 
Department of Defense and FBI collaboration. NEST is focused on 
responding to a threatened act involving radiological or nuclear 
materials or devices. Among the range of potential terrorist threats 
involving weapons of mass destruction, the nuclear response 
infrastructure and capabilities are the most mature and capable of 
addressing the threat. NEST includes the capabilities to search for, 
diagnose, and disable an improvised nuclear device.
    NEST depends on a team of highly dedicated individuals at the 
national laboratories and facilities throughout the DOE-complex who 
volunteer their expertise to this program. Los Alamos' NEST and related 
activities are funded at approximately $10 million in fiscal year 2002. 
More than 100 Los Alamos scientists and engineers are involved in 
various aspects of the NEST program. Nearly all are involved in other 
parts of the Laboratory's research in nuclear weapons or threat 
reduction. Many of the employees who work part-time on NEST are 
involved with more than one team within the NEST program.
    It is important to note that NEST is more than a group of 
scientists who stand at the ready with pagers on their belts, waiting 
to be contacted to respond to a crisis. NEST team members at the DOE 
and NNSA laboratories, including Los Alamos, are involved in a wide 
range of related activities including research and development into 
diagnostic tools, disablement techniques, and computer simulations and 
modeling; working with the intelligence and law enforcement communities 
on the analysis of threats and the development of analytical tools; 
training of employees from other government agencies in environments 
that allow hands-on work with the actual nuclear materials that they 
might encounter in the field; and providing subject-matter experts when 
required. Los Alamos has the lead within NEST for development of 
nuclear diagnostic tools to help determine the nature of the suspected 
threat device and for maintenance of what is called the ``home team,'' 
a group of experts parallel to those that would be deployed in the 
field who can provide analysis, advice and technical support.
    Los Alamos is involved to varying degrees in all aspects of the 
national NEST program. The activities of the national team, and Los 
Alamos' role, are as follows.
    Search Activities. Los Alamos is primarily involved in research and 
evaluation of detectors used for search.
    Joint Tactical Operations Team (JTOT). JTOT is a partnering of DOE 
and DoD expertise that provides advice or direct assistance to render 
safe a suspect malevolent employment of a nuclear device by terrorists 
or others and to perform a nuclear safety assessment for the eventual 
safe disposition of the device. Los Alamos plays a major role in the 
JTOT mission and is involved in maintaining management oversight, 
render-safe capability, diagnostics capability, emergency response 
home-team capability, a watchbill (a group of experts who are on call 
24 hours-a-day, seven days-a-week, year-round), communications support 
and deployable equipment, and contingency planning.
    Real Time Radiography. This system uses a portable source of x-rays 
to look at a suspect object in real time, without moving or disturbing 
the object. Using this technique, we can identify electronic components 
within the object, yielding important data for action decisions. Just 
as a dentist uses an x-ray to locate a cavity, we can use this system 
to locate where to drill a suspect object, disrupting its electronics 
and disabling other components. This system was adapted from 
commercially available equipment and enhances what is available to most 
emergency responder units.
    Accident Response Group (ARG). ARG is responsible for dealing with 
incidents involving a U.S. weapon, commonly referred to as a ``Broken 
Arrow.'' Los Alamos has experts on the ARG roster that may be called 
upon if their particular set of knowledge is necessary to deal with the 
given situation.
    Disposition. These assets support both the JTOT and the ARG team, 
making decisions about the ultimate disassembly and disposition of a 
device after it has been made safe to move and ship to a remote 
location.
    Consequence Management. Following an incident, this team is 
involved in the immediate monitoring of any potential radiological 
dispersal and in monitoring and forecasting that can advise responders 
on issues of evacuation and treatment.
    Attribution. This area involves drawing upon capabilities from the 
U.S. weapons testing program to analyze samples and draw forensic 
inferences about a threat device. In the case of a nuclear detonation 
or seizure of a weapon (or precursor material) it will be necessary to 
attribute quickly and accurately the material/item/incident to the 
perpetrators through an understanding of the materials used, type of 
device, yield produced or anticipated, the source of the technology and 
the pathway(s) that lead to the event. This requires an integrated 
national security program that draws on the broad based technical 
expertise available in NNSA as well as key NNSA facilities and 
analytical capabilities.
    Radiological Assistance Program (RAP). Related to but separate from 
NEST, DOE and Los Alamos maintain response plans and resources to 
provide radiological assistance to other federal agencies; state local, 
and tribal governments; and private groups requesting such assistance 
in the event of a real or potential radiological emergency. The Los 
Alamos RAP organization provides trained personnel and equipment to 
evaluate, assess, advise, and assist in the mitigation of actual or 
perceived radiological hazards or risks to workers, the public, and the 
environment. This Los Alamos capability supports associated activities 
throughout RAP Region Four: Kansas, Oklahoma, Texas, Arizona, and New 
Mexico.
                               conclusion
    Los Alamos is a national laboratory with a broad set of 
capabilities in the area of homeland security and a long history of 
serving the nation in this area. As President Bush stated in his June 
6, 2002, address to the nation, ``In the war against terrorism, 
America's vast science and technology base provides us with a key 
advantage.'' Our capabilities will continue to be at the service of the 
nation.

    Mr. Greenwood. Thank you very much, Dr. Cobb.
    Mr. Dacey for 5 minutes.

                  TESTIMONY OF ROBERT F. DACEY

    Mr. Dacey. Mr. Chairman and members of the subcommittee, 
I'm pleased to be here today to discuss the potential benefits 
and the challenges in implementing the information analysis and 
infrastructure protection division in the proposed Department 
of Homeland Security. As you requested, I will briefly 
summarize my written statement. As proposed by the President, 
the division's functions would include (1) receiving and 
analyzing law enforcement, intelligence, and other information 
to detect and identify potential threats of terrorism to the 
United States, (2) assessing the vulnerabilities of the key 
resources and infrastructures and developing a comprehensive 
national plan to secure them, and (3) taking necessary measures 
to protect these resources in coordination with executive 
agencies and in cooperation with State and local government 
personnel, the private sector and other entities.
    It is important to note, as has been said earlier today, 
that nonFederal entities control most of our Nation's critical 
infrastructures. The consolidation of these critical 
infrastructure protection functions and organizations may, if 
properly organized and implemented, lead over time to a more 
efficient, effective and coordinated program. Combining related 
efforts such as incidents reporting, warning, and analysis 
could not only eliminate possibly duplicative efforts, but 
might also result in stronger and more coordinated 
capabilities. Other potential benefits include better control 
of funding and the consolidation of points for Federal contact 
in coordinating CIP activities.
    Also, the division will face tremendous human capital, 
information management and technology, and other challenges, 
not the least of which will include integrating the diverse 
communications and information systems in the programs and 
agencies being brought together and securing the sensitive 
information that these networks and systems will likely 
process.
    Further, through our past work, we have identified other 
significant challenges for many of the aspects and the 
functions that are to be transferred to the new Department. For 
each of these challenges, significant improvements have been 
made and numerous continuing efforts are in progress. However, 
much more needs to be done to address them.
    These challenges which face the new Department include No. 
1, developing a national CIP strategy. A more complete strategy 
is needed that addresses specific CIP roles and 
responsibilities, both within the department and the many 
agencies that will remain outside of the Department. Also the 
strategy needs to clearly identify interim milestones and 
objectives and set timeframes for achieving them, establish 
performance measures and clarify how CIP entities will 
coordinate their activities with each other. A national 
strategy that covers both cyber and physical CIP is expected to 
be issued within the next several months.
    The second challenge is improving analysis and warning 
capabilities. More robust analysis and warning capabilities are 
still needed to identify threats and provide timely warnings. 
Such capabilities need to include both cyber threats which has 
been the historical focus of many of our national CIP efforts, 
as well as physical threats. The third area is improving 
information sharing on threats and vulnerabilities which needs 
to be improved both within the Federal Government and between 
the Federal Government and the private sector and State and 
local governments.
    The fourth and last area is addressing pervasive weaknesses 
in Federal information security. One of the principle tenets of 
PDD 63 was that the Federal Government would serve as a model 
for information security. At this point, a comprehensive 
strategy for information security is needed, again, in which 
roles and responsibilities for Federal systems will be 
delineated, appropriate guidance is given, regular monitoring 
is undertaken, and security information and expertise are 
shared to maximize its value. Resolving these significant 
challenges will be critical to the success of the new 
Department.
    Mr. Chairman, that concludes my statement. I'd be happy to 
answer any questions you or other members of the subcommittee 
may have.
    [The prepared statement of Robert F. Dacey appears at the 
end of the hearing.]
    Mr. Greenwood. Thank you, Mr. Dacey.
    The Chair recognizes himself for 5 minutes and I'll address 
the question first to you, Mr. Tritak. The last time you 
testified before this subcommittee was last year in April. I 
asked you to provide us with a worst-case scenario for a major 
terrorist attack using computer systems on a critical 
infrastructure, and we had a substantial discussion about those 
threats. You indicated then that your primary mission was 
awareness, essentially to work with the Federal civilian 
agencies and private sector companies to make sure that they 
were aware of the risks in planning for such terrorist attacks.
    Well, since then we've unfortunately had catastrophic and 
tragic terrorist attacks on the United States, albeit not 
primarily computer-based. Can you tell us how your role has 
changed and what you see it being or becoming in the new 
Department of Homeland Security?
    Mr. Tritak. Yes, I will, Mr. Chairman. First, obviously 9/
11, for many of us, was a shock and a surprise. We had--the 
kinds of things we saw, were things that kept us up at night 
for quite sometime.
    In turning to the worst-case, I tend to try to avoid 
characterizing it that way, but I think it is important because 
it builds on some of the things you have heard in the opening 
remarks, is that a terrorist is not going to limit himself to 
one means of disruption, and in fact, one could envision--in 
fact, if you will recall the article that came out in The 
Washington Post recently, a combined cyber physical attack may 
very well be contemplated by terrorists. If, God forbid, there 
should be another attack of this sort using terribly 
destructive physical means and then through cyber means 
disrupting communications, emergency communications and the 
like, that would create panic, but would also preclude our 
emergency people from getting to where they need when they 
needed to get there.
    I think where I view the role moving in this new 
organization is that the need to engage industry much more so 
even than we were able to before, but quite frankly before 9/
11, while people intellectually accepted the challenges, it 
seemed so farfetched. Now nothing seems other-worldly anymore. 
We need to figure out exactly how far they can go in dealing 
with this on a voluntary basis under--by incentivizing market 
forces as much as possible.
    Recognizing that we may have to bring in other measures to 
make--bridge the gap between where the business case can go and 
what homeland security demands. I think it requires 
collaboration, because what we want is we want to have an 
economy that remains robust and effective. We don't want to 
throw a bone to bin Laden in this regard.
    I think what we're seeing though, since 9/11 is I've been 
hearing from companies. They want to do the right thing. One 
great benefit of the new Department is I think there's going to 
be a clear message about what is needed. There's going to be 
maybe not one voice, but one message as to what needs to be 
done, and we're going to--I like to think that the work I do 
now is complementary to those things being done at other 
organizations, but I'm not going to kid you. There will be some 
overlap, and where efficiencies can be gained and an effective 
approach by industry will not be obtained by consolidating some 
of these networks.
    Mr. Greenwood. Thank you. Let me address the question to 
you, Mr. McDonnell. The NISAC, when fully staffed and 
operational, is intended to serve as a premiere operation for 
conducting complex interdependency analyses of the Nation's 
critical infrastructures, many of which are privately owned. 
How will these analyses be done, and would you be relying on 
data and modeling generated primarily from the DOE? And last, 
will you be working with the private sector infrastructures to 
jointly model the interdependencies? And following that, who 
can and will be the primary clients for these new capabilities?
    Mr. McDonnell. Sir, I can address the programmatic 
oversight of that; and they may choose to jump in here as well, 
addressing the technical aspects. It is a vision that NISAC 
will sort of use all source data which will use information 
from the industry, from different levels of government, and use 
different community capabilities throughout universities that 
are in collaboration with the national agencies.
    The development of a collaborative effort that is geared on 
sharing information is the common understanding of the 
provision. As Dr. Cobb mentioned, there is utilization of 
simulation capabilities that were designed for different 
functions some years ago. The Argonne National Laboratory has 
this dependence capability that's also being put into that.
    The envisioned principal customer prior to the announcement 
of the homeland security is the national government, the 
Federal Government, in a national program and that the 
priorities for the requirements for NISAC will be driven based 
on the collaborative process where private industry can come 
in, academia could go through the laboratory complex or through 
the member universities working at the laboratories and the 
laboratories can come in with science-based proposals to push 
the technology forward. Those requirements, those initial 
requests would be vetted in the emergency process.
    It's already been established this is an interdependency 
community. That community then kicks into the Executive Office 
of the President for a decision, and it will now move to the 
Department of Homeland Security to establish what the 
requirements, the priorities are going to be for the NISAC for 
the fiscal year. That way the States, academia, pretty much 
anyone who has an interest in this will have an opportunity to 
get their concerns on the table.
    That will be made in a collaborative effort. There won't be 
one agency that will be saying ``this is mine.'' it truly will 
be a national team effort to determine what should be done and 
how it should be done. The deliverables will be to myself as an 
emergency response planner to be able to take this data back 
from NISAC instead of waiting for disaster. I would sit down 
with other agencies and say let's game this out, let's model an 
infrastructure with, for example, a terrorist attack on a 
region with the intent of the destruction of the economy, as 
opposed to a specific site, and think through where the 
vulnerabilities are, what actions we want to make, make sure 
you've thought through these things.
    Mr. Greenwood. Let me interrupt you there. In your opening 
statement, your testimony, you indicated that knowing where the 
greatest nodes of vulnerability are is a difficult thing to 
accomplish and you've set about to do that. What occurred to me 
when you said that was, well, if you don't--if it's difficult 
for you to know right now, it's probably pretty darn difficult 
for the bad guys to know right now. It's going to be very 
difficult for them to assemble the information that you're 
going to be able to assemble. So when you complete your job 
you'll know something that the other guys don't know. They'll 
want to know very much, and you'll be sitting on some pretty 
critical information.
    What can you tell me--it's your sort of putting a genie in 
the bottle here--whatever the right words are--but you're going 
to create some information that doesn't exist. You're going to 
identify some vulnerabilities. By the very act of identifying 
those vulnerabilities you're going to create a vulnerability in 
the publication of information that's very dangerous. Can you 
tell me a little bit about how much thought has gone into how 
to protect that information?
    Mr. McDonnell. Yes. It's sort of a two-part question.
    First, I would submit to you that there probably are people 
overseas looking at our infrastructure with the intent of doing 
what I was discussing. Our military and our strategic planning 
has done that as part of our national war planning computers. 
So it's not so much that we're starting something new in 
looking at our infrastructure as an effort to attack the United 
States, it's getting the collaborative team of industry, State 
and Federal folks doing it together.
    The second part of the question is the protection of the 
infrastructure. As Dr. Cobb mentioned, part of the reason for 
the national laboratories wanting control and development of 
this information is they have for years done this and have the 
protocols in place to ensure that this information is 
protected. The Defense Department has been a partner in 
discussions on how we protect the community. The actual 
controlling and protecting the information has to be done as 
national security information, classified appropriate as 
national security information and protected.
    Mr. Greenwood. My time has expired.
    The Chair recognizes the gentleman from Florida.
    Mr. Deutsch. Mr. Dacey, in your testimony you detail the 
shortcomings of Federal agencies regarding the implementation 
of Presidential Directive 63 some 4 years after the 
Presidential Directive speech. My question is very simple: What 
does it take for agencies to take these Presidential Directives 
seriously?
    Mr. Dacey. As you pointed out, we did comment on some of 
the shortcomings in the implementation of PD 63. In that 
particular case, it had to do with Federal agencies. I think we 
have for quite a number of years indicated there are 
significant challenges in getting Federal agencies to 
adequately secure their systems, not just with respect to CIP 
but the broader issues we bring out in our testimony later on. 
I think there are a variety of issues that need to be 
considered, and I think some are being considered currently 
under legislation that would extend the existing GISRA 
requirements. That would be a requirement for regular reporting 
performance measurement by the agencies as well as independent 
analysis by the inspector reports going forward to OMB and to 
the Congress.
    Part of that process and structure would really require 
regular oversight, too, by agencies as well as by Congress to 
ensure that actions are taking place. There have been a number 
of improvements, but there are substantial challenges that go 
forward.
    I think, given initial implementation, GISRA, which we 
testified on earlier this year, it's clear agency heads are now 
starting to become aware of it and actions are taking place, 
but we're not close to having a secure system in the Federal 
Government.
    Mr. Deutsch. Has Congress provided the resources?
    Mr. Dacey. One of the challenges that agencies offered to 
us was one of having adequate technical resources to do the 
work. I know that in the fiscal year 2003 budget there is a 
substantial increase in computer security requested budget 
funding to help fund some of those requirements. So I think 
that will go a long way toward providing some of those 
resources. Whether that's enough or not I can't say. Because 
one of our criticisms at the time was this is the first time in 
the GISRA reporting that agencies really tried to assess what 
their actual costs were, and OMB came out in their report and 
indicated they didn't find a correlation between the amounts 
expended and the security of those systems.
    So I think it's going to take a little bit of time so that 
we have systems that measure those benefits of those costs to 
see if we're spending money appropriately and what additional 
funding will be necessary, if any.
    Mr. Deutsch. Have the agencies whose operations have been 
transferred to the new Department successfully implemented the 
Presidential Directive?
    Mr. Dacey. A lot of the efforts have been at the agency 
level. I'm not sure of the specific components, most of which 
are subcomponents of the larger agencies, how they fit 
specifically into that process. I can get back to you if we 
have any information. I'm just not sure we do at this point----
    Mr. Deutsch. If you can, I would appreciate it.
    [The information referred to follows:]

    As we stated in our written testimony, both GAO and the 
inspectors general have issued reports highlighting concerns 
about PDD 63 implementation in federal agencies, such as 
development of critical infrastructure protection plans, 
identification of mission-essential infrastructure assets, and 
performance of vulnerability assessments and preparation of 
related remediation plans. PDD 63 required agencies to appoint 
a critical infrastructure assurance officer and specified 
reporting at the agency level. Consequently, we do not have 
information at the agency subcomponent level that would 
correspond to almost all of the functions proposed to be 
transferred to the new Department of Homeland Security.

    Mr. Deutsch. Would the transfers to the new Department make 
it more or less likely that PD 63 will be implemented promptly?
    Mr. Dacey. I think there are certainly some tremendous 
benefits in putting into one central place some of these 
functions that are directly related to critical infrastructure 
protection. The main focus of the Department is really in terms 
of gathering a lot of information and trying to assess what is 
the nature of threats and what is the nature of vulnerabilities 
in our current critical infrastructure, and to begin 
identifying them and coming up with a national strategy.
    So there are a lot of tasks there. So that will lead to 
some improvements in the coordination of some of the functions 
that are currently carried out by the separate entities, as we 
pointed out in our testimony.
    The key part of it is, though, there are a significant 
number of entities outside of the new Department that are 
involved in CIP, particularly cyber CIP. It's going to be 
important, as we point out in the testimony, that these 
functions be appropriately coordinated, whether it be by the 
Critical Infrastructure Protection Board or otherwise. We're 
looking forward to a strategic plan that would include some 
discussion of how those entities will work together.
    We're talking in terms of entities working together in CIP, 
cyber CIP and those need to be coordinated with the ones that 
are being transferred to the new department.
    Mr. Deutsch. Has the Critical Infrastructure Assurance 
Office assigned tasks adequately?
    Mr. Dacey. In terms of that, we have not done an analysis 
of the functions being performed by the Critical Infrastructure 
Assurance Office. We have been aware that they have been doing 
outreach. Certainly that's one of their functions.
    Second, in terms of the national strategy, we understand 
we're about to see that. We're waiting and have made comments 
on the types of information that we would expect to be in the 
national strategy. I understand it will be issued in the some 
time in the next few months, probably September.
    The other area is in the project matrix, certainly they've 
been making significant efforts to work with the Federal 
Government. In fact, OMB has now required other agencies to 
undergo a project matrix which is really to see what are the 
critical assets that exist in these agencies and what are the 
critical infrastructure that they rely on and how do we protect 
them. I think that's an important project because I think some 
of the initial plans and programs submitted under PDD 63 which 
have been criticized didn't really get about fully identifying 
what those critical assets are in trying to determine what 
needs to be done to protect them. So I think project matrix, if 
it continues to be properly implemented, will be an important 
program to try to get at some of the initial objectives of PDD 
63.
    Mr. Deutsch. If we were to move the Critical Infrastructure 
Assurance Office to the new Department, would the performance--
would you predict the performance would be better at that 
point?
    Mr. Dacey. I think some of the issues that we pointed out. 
They do have some similar types of activities to some of the 
other entities being sent over. There's a lot of outreach going 
on by the Critical Infrastructure Assurance Office. Similarly, 
the NIPC is doing outreach through InfraGuard and other 
programs to the private sector and State and local governments.
    To some extent those activities, not that they're not 
coordinated now, but certainly bringing those together could 
provide an opportunity to consolidate the outreach efforts as 
well as to consolidate the points of contact in the Federal 
Government. As we said earlier, I think it helps to have some 
place where everybody knows here's where we need to call to 
deal with these issues. I think that's an important point.
    The other areas have to do with identifying critical 
assets. As I said the project matrix, the NIPC, has had a key 
asset initiative under way to try to identify key critical 
infrastructure assets. I think those two programs could be 
better coordinated under one program. I assume some of these 
would be combined in this new Department into one or a few 
programs versus the many that now exist.
    Mr. Whitfield [presiding]. Mr. Tritak, since that is one of 
your areas of responsibility, would you like to comment on Mr. 
Dacey's remarks?
    Mr. Tritak. I actually agree with everything he's just 
said. CIAO is a creation of the 1998 governmental organization. 
We operate on a fairly modest budget. I would like to think we 
made some headway in terms of reaching out to industry and the 
project matrix program which was an attempt and is an attempt 
to focus efforts--if you have scarce resources and you have to 
allocate them, be sure you allocate them against those 
functions which we can't afford to lose even for brief periods 
of time.
    I also agree with Mr. Dacey by creating this new Department 
we can make better use of not only the assets of CIAO but also 
the other agencies brought in under it. When you hear the word 
``outreach,'' there's a tendency to think of one model 
approach. There are different parts of audiences we're trying 
to reach. We spend much of our time trying to focus on 
corporate leadership. They're the ones that make the investment 
choices, and they set the policy. Once you get that kind of 
buy-in, the other is information sharing across agencies. Lots 
of the good work that's been done by NIPC and others is 
engaging in that level. So I think, however, when we--they're 
able to leverage this out much more effectively now.
    Bob Dacey and I talk at least once a week, but it's easier 
if I'm turning around a corner and talking to him.
    Mr. Whitfield. Thank you very much.
    There's been a lot of discussion about the public-private 
partnership. I would like to make a couple of comments, then 
ask each of you to comment on it, if you would.
    There's been some argument made that building this public-
private partnership is too much carrot and not enough stick and 
that a much more regulatory approach is needed. I'd like to 
know what your view is on that. Do you believe efforts to 
regulate security across these private sectors is warranted or 
even remotely likely to be effective?
    Mr. Tritak. The policy of both the past administration and 
this is to try and encourage, incentivize the market and to 
look to owners and operators to manage this risk in an 
effective manner. Clearly, we haven't begun I think to explore 
all the ways in which that can be done; and we think 
information sharing is one piece that can actually produce good 
results. In order for these modeling simulations to work, there 
has to be a collaboration between the owners and operators. By 
doing that, it creates all forms of possibilities in terms of 
work. So I think that it can work.
    I think that, more importantly, if we want this homeland 
security function to work properly we have to create a 
proposition in the mission statement that calls for 
collaboration and partnering. I think, as I indicated before, 
it's going to take some adjustment of government and industry. 
Both have to realize we're in a different ball game here. It's 
not just industry. It's on our side. They shouldn't just wait 
for government to come to tell them what needs to be done.
    Mr. Whitfield. Mr. McDonnell.
    Mr. McDonnell. First off, I wouldn't believe at this point 
that we have determined that regulation is warranted. There has 
been a lot of discussion about regulating security, but I've 
had teams go out with 25 key energy assets since the first of 
January and, in general, I truly believe that security managers 
and the executives out there are trying to do the right thing. 
They're looking to us for our leadership, to provide them the 
information they need to do the right thing. That is going to 
take a lot of work. That's the outreach efforts that I do think 
are complementary, where John's staff and mine tend to bump 
into each other and step on each other a little bit. It's a 
good, positive tension. We're working extremely hard to work 
with industry to give them the information they need to make 
intelligent decisions.
    I do not think that security should be regulated because I 
believe that we need to protect security information as 
national security information. We need to protect 
vulnerabilities from public disclosure. As we start regulating 
those then the nature of the information stops being a 
collaborative effort to protect the asset itself and starts 
being an effort to formulate a requirement of the Federal 
Government which then requires some level of disclosure.
    When the industry operators--when I send a team to the 
vulnerability sector, they know they're not going to see that 
information turn around back to them as regulation, as an 
increased burden that they have to deal with. They can share 
that information among staff and with the national laboratory 
folks that we that do these assessments and get real, honest 
observations and advice without worrying about having have us 
come back.
    That being said, if as we go forward with vulnerability 
assessments--let me back up real quickly. We've developed with 
industry voluntary security guidelines that have just been 
published with all of the energy sector. If we go forward with 
our vulnerability sectors and industry is not taking care of 
the assets, then maybe we need to revisit what regulation is 
required. At this point, we don't have any justification.
    Mr. Whitfield. Dr. Varnado.
    Mr. Varnado. I believe we're going to have sell industry a 
business case for why they should invest. Right now, we don't 
have tools to show them what are the consequences. So one of 
the things that NISAC is trying to do is to present to industry 
a cost-benefit program saying, if you protect against this 
particular threat, you will avoid this kind of consequence. But 
until this point we haven't really had a way to show them what 
the results will be of all of that. So one of the thrusts of 
our work is to do the economic modeling, and that's going on 
reasonably well at this point. At some point we'll be able to 
say to industry, this is your risk problem to manage.
    Industry is excellent in managing risk. That's what they 
do. But they need the tools to understand how to understand the 
risk. So at some point we will understand that. We will talk 
like insurance salesmen at that point. The government down the 
road will say, the risk that the industry is willing to accept 
is not acceptable to us. I think we need to work this business 
case risk management problem first and see how the industry 
responds.
    Mr. Whitfield. Dr. Cobb.
    Mr. Cobb. Just a short comment.
    I think in the balance between regulation and trying to 
move forward jointly there's a premium, at least from our 
perspective, on trust building; and trust building is somewhat 
difficult if it's totally governed by rule.
    I think--as Mr. McDonnell said, I think our experience in 
protecting proprietary and very sensitive information from 
major sectors of the American industry, for example, which is 
privately run, transportation information that affects a local 
urban area and so forth, that we have the experience--I know at 
Sandia and Los Alamos we have the experience of protecting this 
kind of vulnerability in securing information and working with 
the people who have those responsibilities to do the protection 
to their benefit. I would hope you would be able to maintain 
that.
    Mr. Whitfield. Mr. Dacey.
    Mr. Dacey. In terms of this area, we certainly have 
provided a lot of commentary in this testimony and the prior 
reports in determining some of the challenges that are faced by 
implementing the PDD 63. At the same time, I think it's been 
said already, that we're dealing with a little different 
situation.
    I think what we're looking at here is a need to have a 
relatively free flow of information taking place between 
private sector local government and the Federal Government and 
not so much in terms of periodic reports and things of that 
nature but regular free flow of information in both directions, 
both from those entities to the government and back. I think 
that makes it a little bit different of a dynamic in terms of 
the cooperation.
    We have done studies on information sharing and have 
pointed out a number of the key areas that are important to 
that process. At the same time, I think there are some things 
that maybe not have been explored as thoroughly as possible in 
terms of providing appropriate incentives for industry and the 
State and local governments to deal with it. For example, when 
we did our report information sharing and other prior work, 
it's been consistently pointed out that there are concerns with 
both FOIA, antitrust and civil liabilities issues with respect 
to the willingness of some of those entities to provide 
information voluntarily to the Federal Government.
    We also point out that, in terms of Y2K, we had similar 
concerns that were expressed in sharing information, very 
sensitive information, often times and now we're getting into 
some incident information too, specific breakins and attacks 
that have occurred that are fairly proprietary. Trying to get 
that kind of information, we may need consider some of these 
types of things--I know there's current draft legislation out 
on that issue exactly and some provisions certainly in the bill 
with respect to FOIA.
    In terms of other areas, there have been some bright spots. 
I think it's been consistently shown where we had a long-term 
relationship, and we pointed this out last April, with the 
electric power industry, the success of those efforts have been 
much greater than the other ISACs because the Federal 
Government has had a long-standing relationship with that 
industry. There is more a degree of trust that exists between 
them, as we pointed out. That could perhaps be a model. I'm not 
sure we're there in the other ISACs to quite to that level as 
we are with the electric power industry.
    Second, certain sectors--I believe it was the American 
Chemical Council is now requiring their members to undergo 
vulnerability assessments as a condition for membership in that 
organization. So there are some efforts taking place.
    The real question is, can the government get the 
information it needs on a voluntary basis? We haven't done a 
thorough analysis to assess that. But other witnesses can 
provide some insights about whether or not they are willing to 
provide this information.
    Again, it has to do with an incident that might signal an 
attack or scanning activity that might indicate that someone is 
trying to get some information. We know there's been activity 
in scanning and that area. So it's that vulnerability analysis. 
So I think there are a lot of things that need to be explored. 
The question for the Congress and the new Department is whether 
or not those have been adequately explored to make a change in 
the current direction.
    Mr. Whitfield. Well, thank you for your comments.
    I'll recognize the gentleman from Michigan, Mr. Stupak.
    Mr. Stupak. Thank you.
    Let me pick up where the Chair has just left off. Mr. 
Dacey, in your testimony, though, you conclude that--I'm 
quoting--the new Department will face tremendous information 
management and technology challenges, not the least of which 
will be integrating the diverse communications and information 
systems of the programs and agencies that need to be brought 
together.
    So if we have this tremendous challenge in trying to adjust 
management information and the information you get from other 
Federal agencies and private sector, there have been 
experiences you can point to within the Federal Government 
where there've been integrated Federal programs that suggest 
that this can't even be accomplished. Are other departments and 
agencies willing to give up their turf or their information, if 
you will?
    Mr. Dacey. I think one of the critical elements, success 
factors, if you will, of the new Department is to make sure all 
the relevant information is getting focused in this new sector. 
We now have a fairly active process taking place currently at 
NIPC in coordination with a lot of other entities, some of 
which will be transferred to the new Department in trying to 
deal real time with some these issues, trying to identify some 
of the concerns that exist out there. I think it's going to be 
important to try to deal with that.
    I think that's an issue that's going to have to be faced, 
regardless of the movement of this new Department. I think we 
really need to have a comprehensive way to bring this 
information together to properly analyze and see what the 
issues are. As we pointed out in numerous reports after 
September 11, the government had a lot of information relative 
to the attack. We need to figure out how to get that 
information together. I think that's going to be a challenge 
again, regardless of what gets moved to the new Department. The 
Federal Government needs to look at ways to get that 
information together.
    In terms of successes in putting together similar types of 
information, I'd have to get back to you on that and see if we 
have any examples that we can provide.
    [The information referred to follows:]

    The size of the integration of communication and 
information systems for the proposed Department of Homeland 
Security is unprecedented in the federal government. Although 
the federal government has made improvements in its IT 
management, our work shows that agencies continue to face 
challenges in (1) information technology investment selection 
and management control processes, (2) enterprise architecture, 
(3) software development, cost estimating, and systems 
acquisition practices, (4) effective chief information officer 
leadership and organizations, and (5) information security. The 
department will need to overcome challenges such as these to 
develop effective systems. We understand that the 
administration is working on the development of an enterprise 
architecture for the new department. An effective enterprise 
architecture is a key element of an such effort.

    Mr. Stupak. It seems to me if you have face-to-face contact 
with these departments and agencies and discuss it--because I 
can't think of--I've been here 10 years now. I remember going 
all the Y2K hearings. None of the computers seem to be 
compatible with the Federal Government. Every time you spent 
a--whether it's HHS, it doesn't work with this one, doesn't 
work with this, we have to start all over again.
    I think most of this information is stored within the 
computers. The computer systems aren't compatible. What happens 
to cyber security when these software programs are learning to 
talk with each other? GAO even said that there's pervasive 
weakness in the Federal information security. How do we 
accomplish that with this new Department when the computers 
won't talk to each other and cyber security is still a real 
threat out there?
    Mr. Dacey. I think the cyber security issue needs to be 
dealt with. What we talk about in our testimony and what we 
understand is currently under way is to look at standardized 
enterprise architecture for the new systems and the new 
Department. I think that's going to be critical. Otherwise, you 
will end up with stovepipe systems that won't talk to each 
other. You need a model. Here is where we are now, and here's 
where we want to be in the future. I think that's critical that 
be done as part of the process.
    Mr. Stupak. How long do you think it will take to us get 
there?
    Mr. Dacey. I don't know how long it will take. Certainly 
there have been challenges for the Federal Government in 
developing enterprise architecture in other settings, as we 
point out in your testimony as well.
    Mr. Stupak. None of them have worked.
    Mr. Dacey. I wouldn't say none, but certainly we have lots 
of examples.
    Mr. Stupak. Can you tell me of one that worked?
    Mr. Dacey. I'll get back to you on that.
    [The information referred to follows:]

    Federal agencies are at different stages of maturity in 
their development and use of enterprise architectures, with 
most agencies now establishing the management foundation needed 
to successfully develop and use them. But few agencies have 
actually developed and are currently using them. The Customs 
Service and the Internal Revenue Service, both within the 
Department of Treasury, are examples of agencies that have and 
are using enterprise architecture.

    Mr. Stupak. I'm not making a point. I just sat through so 
many of these hearings. It seems like nothing had compatibility 
and doesn't seem to work so well.
    You know, in your testimony you do speak a lot of the need 
to share information on the principle of vulnerabilities, 
including the private sector. There's been an interesting 
discussion going on there, but what really are the barriers to 
the sharing of sensitive information with private firms that 
may clearly have a need to know that the information comes from 
a law enforcement office, classified intelligence information? 
I mean, what are the barriers we're facing here?
    Mr. Dacey. Well, certainly one of the challenges which we 
pointed out last April in our report is the need to try to 
sanitize the information to protect from an intelligence 
standpoint sources and methods, from a law enforcement 
standpoint information that would be critical for potential 
prosecution. The key area there, it just takes a little time. I 
think we have seen evidence that those processes have worked.
    In looking at NIPC and some of the examples they could 
provide initially, there was a lot of information that was 
withheld pending trying to figure out what is the law 
enforcement value and protecting that. I think they've worked 
out mechanisms now to better allow them to disseminate the 
information and still have the law enforcement process ongoing. 
So I think there are definitely challenges. I think they can be 
accommodated.
    One of the other issues that's currently taking place is 
getting security clearances for certain people so more secure 
information can be shared with those people who do have 
clearances.
    Mr. Stupak. It would seem that--not only trying to figure 
out if there's a law enforcement angle to the information, it 
seemed like there was more of a turf war. We don't trust this 
with this information and this is our information and it's not 
going further or second guessing of the person who wrote the 
memos, wherever they may be. So I don't think it's all just 
computer-related problems or security-related problems but 
really leadership problems in trying to trust the information 
we have and not be afraid to share it with someone else who may 
get credit before. Having spent quite a bit of time in law 
enforcement, I certainly witnessed firsthand many times how 
that happens.
    What can we do--I know I'm over, Mr. Chairman, but let me 
ask this question--what can we do about the problem some people 
would say crying wolf with too much unspecific information 
regarding a possible terrorist attack or threat that is 
released to the public? How do we deal with that?
    Mr. Dacey. That is a challenge.
    One of the issues that we raised in our report last year 
was to make sure that we aren't too extensive in the number of 
reports that go out for that very reason. I think those that--
we've gotten a lot of more sensitive certainly since September 
11. There have been a lot of issues that have been out there, 
if you follow the NIPC. But a lot of the other sites, a lot 
more activity seems to be taking place right now in 
identification of potential threats that need to be 
communicated. I think there will be a continuing challenge.
    With respect to your other comment in terms of sharing, I 
think one of the issues that NIPC set up is a model--Ron Dick 
had indicated the critical success factor in his mind was 
really representation from the different sectors that 
contribute information. He has folks there from the CIA, from 
NSA, and from DOD intelligence agencies that are serving very 
key roles in the staff at NIPC. In fact, we criticize that in 
our April report. Since then, actually, I've--they've had 
consistent representation.
    So I think one of the keys is really to make sure we have a 
really multi-agency representation and capability. Otherwise, 
you're going to certainly have the potential for people not 
willing to share. If we have people there that are part of 
those organizations, hopefully they can help facilitate better 
communications.
    Mr. Whitfield. The gentleman's time has expired.
    I want to thank those members of Panel 3 for their 
testimony today. We appreciate your being here. Unless there's 
additional questions, we will dismiss this panel.
    The Chair calls forward Panel 4. The Chair welcomes those 
of you on Panel 4. We appreciate you being here today. We look 
forward to your testimony.
    We have as witnesses today: Mr. William Smith, Executive 
Vice President, Network Operations, BellSouth; Mr. Guy 
Copeland, Vice President, Federal Sector, Computer Sciences 
Corporation. We have Ms. Lynn Costantini, Director of Online 
Services at the North American Electric Reliability Council. We 
have Mr. John Sullivan, President and Chief Engineer of the 
Boston Water and Sewer Commission. We have Mr. Kenneth Watson, 
who's the President of the Partnership for Critical 
Infrastructure Security at Cisco Systems. We have Mr. David 
Sobel, who's General Counsel of the Electronic Privacy 
Information Center; and we have Mr. Jeremiah Baumann, 
Environmental Health Advocate with the U.S. Public Interest 
Research Group.
    You are aware that the committee is holding an 
investigative hearing and when doing so has had the practice of 
taking testimony under oath. Do you have any objection to 
testifying under oath today?
    The Chair advises you under the rules of the House and the 
committee you are entitled to be advised by counsel. Do you 
desire to be advised by counsel during your testimony today?
    In that case, if you would please rise and raise your right 
hand, I will swear you in.
    [Witnesses sworn.]
    Mr. Whitfield. You are now under oath, and you may proceed 
with your 5-minute summary of your written statement.
    Mr. Smith, the Chair will recognize you to start.

 TESTIMONY OF WILLIAM SMITH, EXECUTIVE VICE PRESIDENT, NETWORK 
     OPERATIONS, BELLSOUTH; GUY COPELAND, VICE PRESIDENT, 
 INFORMATION INFRASTRUCTURE ADVISORY PROGRAMS, FEDERAL SECTOR, 
 COMPUTER SCIENCES CORPORATION; LYNN P. COSTANTINI, DIRECTOR--
 ONLINE SERVICES, NORTH AMERICAN ELECTRIC RELIABILITY COUNCIL; 
  JOHN P. SULLIVAN, JR., PRESIDENT AND CHIEF ENGINEER, BOSTON 
   WATER AND SEWER COMMISSION; KENNETH C. WATSON, PRESIDENT, 
    PARTNERSHIP FOR CRITICAL INFRASTRUCTURE SECURITY, CISCO 
   SYSTEMS, INC.; JEREMIAH D. BAUMANN, ENVIRONMENTAL HEALTH 
  ADVOCATE, U.S. PUBLIC INTEREST RESEARCH GROUP; AND DAVID L. 
 SOBEL, GENERAL COUNSEL, ELECTRONIC PRIVACY INFORMATION CENTER

    Mr. Smith. Mr. Chairman and members of the subcommittee, 
good afternoon. My name is Bill Smith. I'm Chief Technology 
Officer for BellSouth Corporation. I appreciate the opportunity 
to be here with you today to discuss a vital national security 
issue and that is information sharing between government and 
the private sector and the role of the proposed Department of 
Homeland Security.
    As a major telecommunications network operator, the 
challenge we face is reliability, security, and robustness of 
the critical national and international infrastructures. 
Furthermore, we need a comprehensive strategy that's flexible 
enough to prepare for and respond to an evolving spectrum of 
threats. Such a strategy should both increase the protection of 
vital industry assets and ensure public safety.
    The cause of the increased reliance and interdependency and 
the potential for infrastructure disruption may come from 
multiple sources, including rapid growth, regulation, 
deregulation, terrorism, natural disturbances such as 
hurricanes and earthquakes. Telecommunications systems 
constitute a fundamental infrastructure of modern society, and 
a successful terrorist attempt to disrupt them could have 
devastating effects on national security, the economy and every 
citizen's life.
    It is clear to all that the telecommunications industry is 
facing some of the greatest challenges in our economy today. 
There is fierce competition and eroding market shares 
compromising the environment in which we operate.
    Despite these challenges, BellSouth continues to support 
numerous infrastructure protection initiatives formed pursuant 
to PDD 63, but like others in our industry we find that there 
are many duplicative efforts under way, all competing for the 
same scarce resources. In the wake of the September 11 
terrorist attacks, our industry as well as those supporting 
other infrastructures has seen dramatic increases in the number 
of requests to participate in these efforts.
    In addition, we've received numerous requests for sensitive 
information such as lists of critical facilities and Federal, 
State and local authorities. From the perspective of a 
corporation such as BellSouth these requests are troubling, 
because if such a list were released publicly, whether through 
accidental disclosure, it would provide terrorists with 
essentially a road map directing them to our most critical 
locations. Therefore, we would support efforts of the 
Department of Homeland Security to, among other things, serve 
as a focal point to coordinate these efforts and to allow us to 
make best use of our expertise and resources such as the 
National Coordinating Center, or NCC, for Telecommunications.
    I have included a number of our concerns in the written 
testimony. However, with FOIA our concerns are largest. With 
respect to FOIA, many companies are hesitant to voluntarily 
share information with the government because of the possible 
release of this information to the public.
    BellSouth currently shares cyber-related institutions 
information with the Telecom Sharing and Analysis Center or the 
telecom ISAC located in NC. However, whatever the cause of the 
concerns, information sharing is done on a limited basis within 
entrusted circles and strictly within a fashion that will 
eliminate any liability of harm from FOIA requests from 
BellSouth.
    This is not to say that ISACs do not provide value. 
BellSouth and the other ISAC participants have benefited from 
the advanced warning of viruses. Our first notification of the 
Nimba worm enabled us to successfully defend our networks. In 
turn, BellSouth was the first company notified in telephone 
ISACs the problems associated with simple network management 
protocol.
    Eventually, all the Nation's critical infrastructures will 
have ISACs, and their level of success will depend on several 
factors. First, information must be shared voluntarily in a 
trusted form. PDD 63 and the national plan clearly say that 
critical infrastructure protection must be in a public-private 
partnership. Legislating information sharing will not foster 
the type of cooperation that's needed to address these critical 
issues.
    Second but of equal concern is the need to improve 
information sharing within and amongst government agencies.
    In closing, I would like to reaffirm BellSouth's commitment 
to protecting our Nation's critical infrastructure. Thank you 
for the opportunity to appear here today. I look forward to 
answering any questions you may have.
    [The prepared statement of William Smith follows:]
 Prepared Statement of Bill Smith, Chief Technology Officer, BellSouth 
                              Corporation
    Mr. Chairman and Members of the Subcommittee. [Good morning/
afternoon.] My name is Bill Smith and I am Chief Technology Officer for 
BellSouth Corporation. I appreciate the opportunity to appear before 
you today to discuss a vital national security issue--information 
sharing between the government and the private sector and the role of 
the proposed Department of Homeland Security.
    Virtually every crucial economic and social function in our society 
depends on the secure and reliable operation of infrastructures. 
Indeed, they have enabled our country to achieve levels of productivity 
and a standard of living that is the benchmark for the rest of the 
world. However, these benefits have come at the cost of increased 
complexity, interdependency and risk. Critical infrastructures such as 
energy, banking and finance and transportation depend on the robustness 
of our telecommunications networks, while the explosive growth of the 
Internet's ability to interconnect computer networks, and our digital 
economy have increased the demand for reliable and disturbance-free 
communications.
    As a major telecommunications network operator, the challenge we 
face is maintaining the reliability, security and robustness of 
critical national and international infrastructures. And, we need a 
comprehensive strategy flexible enough to prepare for, and respond to, 
an evolving spectrum of threats. Such a strategy should both increase 
protection of vital industry assets and ensure public safety.
    Because of increased reliance and interdependency, the potential 
for infrastructure disruption may come from multiple sources, including 
system complexity, rapid growth, regulation, deregulation, terrorism, 
and natural disturbances such as hurricanes and earthquakes. 
Telecommunications systems constitute a fundamental infrastructure of 
modern society, and a successful terrorist attempt to disrupt them 
could have devastating effects on national security, the economy, and 
every citizen's life. At BellSouth, we continue to improve the security 
of our telecommunications systems, but our widely dispersed physical 
assets, unfortunately, can never be defended absolutely against a 
determined attack.
    It is clear to all that the telecommunications industry is facing 
some of the greatest challenges in our economy today. Fierce 
competition, eroding market shares and tenuous market conditions 
compromise the environment in which we operate.
    Despite these challenges, BellSouth continues to support the 
numerous infrastructure protection initiatives formed pursuant to 
Presidential Decision Directive 63 (PDD 63), but like others in our 
industry, find that there are many duplicative efforts underway, all 
competing for the same scarce resources.
    In the wake of the September 11th terrorist attacks, our industry, 
as well as those supporting other infrastructures, have seen dramatic 
increases in the number of requests to participate in these efforts. In 
addition, we have received numerous requests for sensitive 
information--such as lists of critical facilities--from federal, state 
and local authorities. From the perspective of a corporation such as 
BellSouth, these requests are troubling because if such a list were 
released publicly, whether through a FOIA request or through accidental 
disclosure, it could provide terrorists with a road map directing them 
to our most critical locations.
    Therefore, we would support efforts of a Department of Homeland 
Security to, among things, serve as a focal point to coordinate these 
efforts, and allow us to make the best use of our expertise and 
resources such as in the National Coordinating Center (NCC) for 
Telecommunications.
    In the current environment, we have the following concerns about 
information sharing:

<bullet> liability under the Freedom of Information Act
<bullet> third-party liability (e.g., sharing suspected problems about 
        a piece of equipment before thoroughly tested and verified)
<bullet> the lack of a defined antitrust exemption for appropriate 
        information sharing concerning infrastructure vulnerabilities
<bullet> possible disclosure of information under state sunshine laws
<bullet> disclosure of sensitive corporate information to competitors
<bullet> declassification of threat/intelligence information to a level 
        that can be acted upon by company personnel and,
<bullet> the natural inclination of law enforcement, DoD, and 
        intelligence agencies to dissuade the sharing of information 
        related to criminal investigations.
    With respect to FOIA, many companies are hesitant to voluntarily 
share sensitive information with the government because of the possible 
release of this information to the public. BellSouth currently shares 
cyber-related intrusion information with the Telecom Information 
Sharing and Analysis Center--the Telecom ISAC--located within the NCC. 
However, because of the concerns just noted, the information sharing is 
done on a limited basis, within trusted circles, and strictly within a 
fashion that will eliminate any liability or harm from FOIA requests 
for BellSouth information. This is neither maximally efficient nor 
effective.
    This is not to say that the ISACs do not provide value. BellSouth 
and the other ISAC participants have benefited from advance warnings of 
worms and viruses. For example, the ISAC provided us our first 
notification of the NIMDA worm in a clear and timely manner that 
enabled us to successfully defend our networks. In turn, BellSouth was 
the first company to notify the Telecom ISAC of problems associated 
with the simple network management protocol (SNMP).
    Eventually, all of the Nation's critical infrastructures will have 
ISACs, and their level of success will depend on several factors. 
First, information must be shared voluntarily in a trusted forum. PDD-
63 and the National Plan (Version 1.0 for Information Systems 
Protection) clearly state that critical infrastructure protection must 
be a public/private partnership. Legislating or regulating information 
sharing will not foster the type of cooperation that is needed to 
address these critical issues. Second, but of equal concern, is the 
need to improve information sharing and communication within and 
amongst governmental agencies.
    As an owner and operator of a significant portion of the Nation's 
critical infrastructure, BellSouth assumes a proactive stance regarding 
critical infrastructure protection. For this reason, we routinely 
monitor legislation addressing these issues. Although the House 
recently passed H.R. 4598, the ``Homeland Security Information Sharing 
Act,'' BellSouth hopes it is refined further as it moves through the 
legislative process. Specifically, it is not enough to share classified 
or sensitive information with select individuals as cited in the 
legislation. What is important is that that information be 
``actionable''--that is, recipients of such information must have the 
flexibility to act on that information by passing it on to other 
appropriate parties. With respect to H.R. 5005, the ``Homeland Security 
Act of 2002,'' we support this legislation and believe that Section 
201(5) will best be implemented through a public-private sector 
partnership, rather than through an expansion of regulatory authority 
and the imposition of new regulation. We also support Section 204 which 
provides an important FOIA exemption for information regarding 
infrastructure and other vulnerabilities that is provided voluntarily. 
Finally, we support the FOIA and antitrust protections embodied in H.R. 
2435, the ``Cyber Security Information Act.''
    In closing, I would like to reaffirm BellSouth's commitment to 
protecting our Nation's critical infrastructures. Thank you for the 
opportunity to appear here today. And I look forward to answering any 
questions you may have.

    Mr. Whitfield. Mr. Copeland, you're recognized for 5 
minutes.

                    TESTIMONY OF GUY COPELAND

    Mr. Copeland. Thank you, Mr. Chairman and members of the 
subcommittee. I am honored to be here today testifying on 
behalf of the Information Technology Association of America, 
known generally as ITAA, where I serve as Co-Chair of the 
Information Security Committee and Vice Chair of the Homeland 
Defense Task Group. I'm also a board member of the Information 
Sharing and Analysis Center for the Information Technology 
industry sector of the IT ISAC in which my company is a 
founding member and which ITAA was instrumental in forming.
    ITAA represents a broad spectrum of information technology 
and communications companies and is a strong public advocate 
for the very important goals of homeland security, including 
cyber security.
    A recent Washington Post article quoted the Chief of Staff 
of the President's Critical Infrastructure Protection Board. He 
said we were underestimating the amount of attention al Qaeda 
was paying to the Internet. Now we know that they see it as a 
potential attack vehicle. Al Qaeda spends more time mapping our 
vulnerabilities in cyberspace than we previously thought. An 
attack is a question of when, not if.
    A study just released by Internet security firm Riptech 
Incorporated found that Internet attacks against public and 
private organizations around the world leapt 28 percent in the 
last 6 months, with most targeting technology, financial 
services and power companies.
    Government and industry can work together to address this 
threat. That is why, for example, ITAA helped found the IT 
ISAC. It is the reason that ITAA has worked to help get the 
information and communications sector input into the 
President's developing a national strategy for critical 
infrastructure and cyberspace security. In turn, this Critical 
Infrastructure Assurance Office and the Critical Information 
Protection Board under Dick Clarke are working closely with 
industry.
    Corporations own and operate the majority of systems that 
make up and protect our country's critical infrastructure. ITAA 
joins with other sectors in believing that effective 
information sharing between government and private sector 
ultimately is critical to address insider threats.
    Sharing information about information security experiences 
is difficult. No company wants to risk information that they 
have volunteered in good faith and confidence may be misused or 
misinterpreted to their detriment, and certainly no company 
wants information to surface to any terrorists or criminals.
    Government agencies seek detailed data about infrastructure 
and computer attacks. The private sector wants consistently to 
provide comprehensive and detailed information to government on 
a voluntary basis but only with the guaranty that it be 
protected. Today, however, corporate counsels frequently raise 
the unacceptable risk that such information could be ultimately 
be divulged through the Freedom of Information Act. If the 
government wants to include the way America responds to the 
threat of critical infrastructure attacks, government needs to 
give CEOs the certainty that voluntarily provided sensitive 
information would be protected.
    As Mr. Dacey noted in the previous panel, various 
legislative proposals address this. Among them, ITAA has 
endorsed H.R. 2435, the Cyber Security Information Act, 
cosponsored by Representatives Tom Davis and Jim Moran and S. 
1456, the Critical Infrastructure Information Security Act, 
cosponsored by Senators Bob Bennett and John Kyl.
    Today, we would like to express our support for a proposed 
amendment to title II of H.R. 5005 being offered by Congressman 
Tom Davis, establishing relationships of trust and confidence 
for information sharing which are still all too rare.
    An excellent example cited by John Tritak is the 
President's Advisory Committee and related bodies such as the 
National Coordinating Center for Telecommunications.
    Dating to September 1982, the NSTAC is perhaps the oldest 
and most successful industry and government partnership to 
address telecommunications and information systems issues 
impacting national security and emergency preparedness. I 
suggest you examine the NSTAC and its partnering government 
organization, the National Communications System, and their 
ongoing joint government and industry processes as a successful 
foundation on which to build.
    Despite their past experience with sharing of operational 
information and in light of the need for even more sensitive 
sharing to address tomorrow's threats, the NSTAC is on record 
as twice endorsing the need for FOIA protection for voluntarily 
shared critical infrastructure information.
    Attached to my testimony is a list of several reasons why 
current FOIA interpretation may not be sufficient. Ambiguity 
and discretion remain the order of the day when it comes to 
agency decisionmaking and remains the top concerns. That is why 
there is clear unity in the private sector in favor of removing 
disincentives to information sharing, and that is why we 
support legislation in the U.S. House of Representatives and 
U.S. Senate and specifically we recommend adopting Tom Davis' 
amendment to H.R. 5005, the Homeland Security Act. We call on 
this committee and Members of the U.S. Congress that have not 
already indicated their support for this legislation to do so 
today.
    Also, Mr. Chairman, I would like to mention the proposal 
from the ITAA president to Congressmen Tauzin and Dingell last 
week.
    As the committee reviews and considers possible changes to 
the Homeland Security Act for 2002, ITAA encourages you and the 
administration to ensure proper priority for information 
security in the new Department. Toward this end, ITAA 
recommends creating a Bureau of Cyber Security headed by the 
Senate confirmed Assistant Secretary for Cyber Security. This 
proposal would have the Assistant Secretary for Cyber Security 
reporting to the Under Secretary for Information Analysis and 
Infrastructure Protection. We believe that such a structure 
will provide appropriate focus of resources and management 
visibility to address all cyber threats, including physical 
attacks on cyber assets and lead to better security in 
cyberspace.
    Thank you, Mr. Chairman. I would be pleased to answer 
questions.
    [The prepared statement of Guy Copeland follows:]
    Prepared Statement of Guy Copeland, Vice President, Information 
  Infrastructure Advisory Programs, Computer Sciences Corporation on 
      Behalf of the Information Technology Association of America
    Good morning Mr. Chairman and distinguished Members of the 
Subcommittee. I am honored to be here today. I am testifying on behalf 
of the Information Technology Association of America--known as ITAA--
(http://www.itaa.org/infosec) where I serve as Co-Chair of the 
Information Security Committee and Vice Chair of the Homeland Defense 
Task Group. I also am a Board Member of the Information Sharing and 
Analysis Center for the Information Technology industry sector--the IT 
ISAC (http://www.it-isac.org)--in which my company is a founding member 
and which ITAA was instrumental in forming. And I represent Mr. Van 
Honeycutt, the CEO of my company, Computer Sciences Corporation, in the 
President's National Security Telecommunications Advisory Committee--
more easily pronounced as the acronym NSTAC--(http://www.ncs.gov/nstac/
nstac.htm), a body that provides the President of the United States 
with industry advice regarding critical, information and 
telecommunications services supporting our national economy and other 
critical functions of society. Mr. Honeycutt chaired the NSTAC from 
September 1998, to September 2000. During that period I served as the 
chair of the working body of the NSTAC, the Industry Executive 
Subcommittee Working Session. Many of the companies represented in the 
NSTAC membership are also members of ITAA.
    ITAA represents a broad spectrum of information technology and 
communications companies, and supports the very important goal of 
increasing information sharing 1.) within the private sector and 2.) 
between industry and government in order to better protect our nation's 
critical infrastructure and to promote and sustain global physical and 
economic security.
    Also, Mr. Chairman, I would like to reference a proposal that ITAA 
noted in letters to Commerce Committee Chairman Tauzin and Ranking 
Member Dingell last week. As this Subcommittee and the full Committee 
review the Homeland Security Act of 2002 or H.R. 5005 and considers 
possible changes to the bill, ITAA encourages you and your colleagues 
to work with the Bush Administration to highlight information security 
in the new Department.
    Towards this end, ITAA recommends creating a Bureau of Cyber 
Security headed by an Assistant Secretary for Cyber Security. Under the 
current proposal, the components that would be merged into the 
Department of Homeland Security from other departments and agencies 
that focus on cyber security (e.g. NIPC, NCS, CIAO, and Cybercorps) 
would be included with those that focus on physical security in the new 
Information Analysis and Infrastructure Protection division. This 
melding would be a mistake. The challenges in the cyber world are 
sufficiently different from those in the physical world to merit a 
Bureau that focuses on Cyber Security and that is headed by a Senate-
confirmed public official.
    This proposal would have the Assistant Secretary for Cyber Security 
reporting to the Under Secretary for Information Analysis and 
Infrastructure Protection. There would be three bureaus in this new 
bureau under the revised structure: 1. Bureau of Analysis and Warning, 
which would analyze all source intelligence, 2. Bureau of Critical 
Infrastructure, which would develop protection for physical assets, and 
3. Bureau of Cyber Security, which would conduct programs within the 
USG and with the private sector to protect communications, the 
Internet, computer systems, and IT networks.
    We believe that such a structure would enhance the internal 
cohesion of U.S. cyber terrorism fighting efforts, provide appropriate 
focus of resources and management visibility, and lead to better 
homeland security in cyberspace. This only addresses one piece of the 
equation, however. Just as the Internet interconnects a vast array of 
public institutions and private entities, so too must the security 
policies and practices of public and private domains be linked to 
bolster the safety of all concerned.
    As you may know, Mr. Chairman, ITAA has endorsed H.R. 2435, the 
Cyber Security Information Act co-sponsored by U.S. Representatives Tom 
Davis and Jim Moran, and S. 1456, The Critical Infrastructure 
Information Security Act, co-sponsored by Senators Bob Bennett and John 
Kyl. Today, we would like to express our support for a proposed 
amendment to Title II of H.R. 5005 by Congressman Tom Davis. We call on 
this Committee and Members of U.S. Congress that have not already 
indicated their support for this legislation to do so today. For 
reasons I will outline below, the certainty and trust these bills 
engender are key to preventing or at least minimizing future threats to 
critical infrastructures.
    You may have heard the numbers before. According to the 2002 FBI / 
Computer Security Institute Survey:

<bullet> 90% of large corporations and government agencies responding 
        detected computer security breaches within the last twelve 
        months.
<bullet> 80% acknowledged financial losses due to computer breaches.
<bullet> 44% were willing and/or able to quantify their financial 
        losses. These 223 respondents reported $455,848,000 in 
        financial losses.
<bullet> 34% reported the intrusions to law enforcement.
    A December 2001 ITAA / Tumbleweed Communications survey found:

<bullet> 70% of Americans concerned about Internet and computer 
        security.
<bullet> 74% expressed fears that their personal information on the 
        Internet could be stolen or used for malicious purposes.
<bullet> 74% said they are concerned that cyber-attacks could target 
        critical infrastructure assets like telephone networks or power 
        plants.
    A study released yesterday by Internet security firm Riptech, Inc. 
found that ``. . . Internet attacks against public and private 
organizations around the world leapt 28 percent in the past six months, 
with most targeting technology, financial services and power 
companies.'' <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ ``Internet Attacks on Companies Up 28 Percent, Report Says,'' 
by Michael Barbaro, Washington Post, July 8, 2002.
---------------------------------------------------------------------------
    While these numbers show the magnitude of the economic impact and 
also the concerns of the American people about cyber attacks on our 
critical infrastructure, let me read a passage from an article in late 
June 2002 from the Washington Post to emphasize the sheer magnitude of 
the threat in this age of terrorism that we are living in:
    ``Unsettling signs of al Qaeda's aims and skills in cyberspace have 
led some government experts to conclude that terrorists are at the 
threshold of using the Internet as a direct instrument of bloodshed. 
The new threat bears little resemblance to familiar disruptions by 
hackers responsible for viruses and worms. It comes instead at the 
meeting points of computers and the physical structures they control.'' 
<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ ``Cyber-Attacks by Al Qaeda Feared,'' by Barton Gellman, 
Washington Post, June 27, 2002
---------------------------------------------------------------------------
    Sobering, isn't it? But, government and industry can work together 
to address this threat, reduce the economic impact of cyber attacks, 
and help reduce Americans' very understandable and justified concern 
about the possibility of cyber attacks on our nation's critical 
infrastructure. Information sharing between government and the private 
sector is a very important part of detecting and mitigating cyber 
threats.
    As the U.S. General Accounting Office (GAO) stated in an October 
15, 2001 report entitled ``Information Sharing: Practices That Can 
Benefit Critical Infrastructure Protection,'' information sharing and 
coordination ``are key elements in developing comprehensive and 
practical approaches to defending against computer-based, or cyber, 
attacks which could threaten the national welfare.''
    ``. . . The importance of sharing information and coordinating the 
response to cyber threats among various stakeholders has increased as 
our government and our nation have become ever more reliant on 
interconnected computer systems to support critical operations and 
infrastructures, such as telecommunications, power distribution, 
financial services, national defense, and critical government 
operations. Information on threats and incidents experienced by others 
can help stakeholders identify trends, better understand the risks they 
face, and determine what preventative measures should be implemented.'' 
<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Report to Senator Robert F. Bennett, Ranking Minority Member, 
Joint Economic Committee, Congress of the United States by the U.S. 
General Accounting Office, October 15, 2001, page 1.
---------------------------------------------------------------------------
    Many of the same concerns regarding information sharing existed in 
the period leading up to the Year 2000 date rollover, and resulted in 
an unprecedented effort between industry, government and the public 
interest sectors to support the drafting and passage of Federal 
legislation to remove legal obstacles--FOIA, antitrust, and civil 
liability--from ``Y2K readiness disclosures'' that were an essential 
element of our successful addressing of the date change challenge. 
Indeed, many of the same elements in the Year 2000 Information and 
Readiness Disclosure Act of 1998 are found in the Davis-Moran and 
Bennett-Kyl bills. This is not surprising, given that many of the same 
individuals who labored to assure our successful meeting of the Y2K 
challenge occurred have been in leading roles among critical 
infrastructure providers to assure that terrorism does not succeed 
where father time did not, for example, by helping to draft this 
legislation.
    In short, ITAA joins with our critical infrastructure providers in 
believing that effective information sharing can: 1) reduce the harm 
and impact of attacks on critical infrastructures; 2) help the owners 
and operators of critical infrastructure systems in multiple sectors to 
determine the nature of an attack; 3) provide timely warnings; 4) 
provide analysis to both industry and government to prevent future 
attacks; 5) mitigate attacks in real-time; and 6) assist in re-
constitution and recovery efforts.
    As I stated at the outset, ITAA supports the very important goal of 
information sharing. Strong and unwavering support of that goal is why 
ITAA and its members are cooperating with several other sectors and a 
variety of government partners in the National Cyber Security Alliance 
(http://www.staysafeonline.info), the Partnership for Critical 
Infrastructure Security (http://www.pcis.org), and the Cyber
Citizen Partnership (http://www.cybercitizenship.org).
    Support of that goal is why ITAA helped found the IT Information 
Sharing and Analysis Center (http://www.it-isac.org) and is the reason 
that ITAA has worked to help develop and facilitate private sector 
input for the Information & Communications Sector into the President's 
National Strategy for Critical Infrastructure and Cyberspace Security, 
a plan that Presidential Advisor Dick Clarke calls ``a living 
document'' that will change as the threats change.
    Support of that goal is why ITAA and its sister associations from 
around the world have prioritized e-security and critical 
infrastructure assurance as public policy priorities in the 46-country 
World Information Technology and Services Alliance or WITSA (http://
www.witsa.org), and is why ITAA and WITSA sponsored the first Global 
InfoSec Summit now nearly two years ago.
    Support of that goal is why ITAA continues to raise awareness of 
critical infrastructure assurance and e-security challenges as a 
business continuity issue, if not a business survivability issue at the 
CXO (CFO, CTO, etc.) and Board level among our member companies and 
throughout the private sector.
    Support of that goal is why ITAA and its members are so committed 
to building trust-based relationships with law enforcement officials 
and agencies at every level of government and internationally.
    Support of that goal is why ITAA and many of its sister 
associations--which represent millions of small and medium business as 
well as large corporations--have been in strong support of the bi-
partisan legislation that I referenced earlier. H.R. 2435 and S. 1456 
were introduced in both the U.S. House of Representatives and U.S. 
Senate last year to remove narrowly defined legal barriers to 
information sharing within the private sector and between the private 
sector and government.
    Better information sharing is a necessary step to leveling the 
playing field in the critical infrastructure assurance world. How so? 
``Bad actors'' have great advantages when it comes to pooling what they 
know about hacking tools, malicious code, network vulnerabilities and 
the like. One of the ironies of the Internet is that it can serve as a 
school for scoundrels, fostering hacker communities, serving as a 
classroom for future attacks and helping cyber-psychos communicate 
their exploits.
    Meanwhile, sharing information about corporate information security 
practices is inherently difficult. Companies are understandably 
reluctant to share sensitive proprietary information about prevention 
practices, intrusions, and actual crimes with either government 
agencies or competitors. Information sharing is a risky proposition 
with less than clear benefits. No company wants information to surface 
that they have given in confidence, and that may jeopardize--through 
misunderstanding or misperception--their market position, strategies, 
customer base, investor confidence or capital investments, and 
certainly no company wants information to surface that could aide 
terrorists or criminals.
    Government agencies seek detailed data about computer attacks for 
the purposes of better law enforcement, earlier detection, and the 
promotion of best practices in government and industry. Today, however, 
corporate counsels advise their clients not to share voluntarily the 
details of computer attacks with government agencies because the risk 
that such data could ultimately be divulged through the Freedom of 
Information Act (FOIA)--even over the agency's objections--is 
unacceptably high.
    The bottom line? Uncertainty. Uncertainty about whether existing 
law may expose companies and industries that voluntarily share 
sensitive information with the federal government to unintended and 
potentially harmful consequences. This uncertainty has a chilling 
effect on the growth of all information sharing organizations and the 
quality and quantity of information that they are able to gather and 
share with the federal government. We are not talking about a Harvard 
moot court debate. If we want to improve the way corporate America 
responds to the threat of critical infrastructure attacks, government 
needs to give CEOs and their corporate counsels the certainty that this 
legislation would provide.
    I would like to report on steps industry has already taken to 
promote information sharing and how this process can be improved; I 
would also like to emphasize two points about the proposed legislation:

1. Government partners have come to the private sector to ask for 
        information concerning current and potential vulnerabilities in 
        various sectors of our national critical infrastructure. The 
        private sector wants consistently to provide comprehensive and 
        detailed information to government on a voluntary basis, but in 
        order to do so have asked that that information be protected.
2. The private sector AND the Federal Government both have agreed for 
        years that it is important to develop and strengthen 
        information sharing processes and organizations within the 
        private sector since we own and operate the majority of systems 
        that make up and protect our country's critical infrastructure.
    The IT industry is one of several industries to adopt a formal 
approach to the information sharing challenge. In January 2001, 
nineteen of the nation's leading high tech companies announced the 
formation of a new Information Technology Information Sharing and 
Analysis Center (IT-ISAC) to cooperate on cyber security issues. The 
objective of the IT-ISAC is to enhance the availability, 
confidentiality, and integrity of networked information systems. The 
organization is a not-for-profit corporation that allows the 
information technology industry to report and exchange information 
concerning electronic incidents, threats, attacks, vulnerabilities, 
solutions and countermeasures, best security practices and other 
protective measures. I am proud to be a Founding Board Member of that 
organization.
    On the telecommunications side of the Information and 
Communications--or ``I&C'' -Sector, an ISAC has been formed by the 
National Coordinating Center for Telecommunications (NCC). Building on 
NCC's traditional role as the operational focal point for the 
coordination, restoration, and reconstitution of national security and 
emergency preparedness--or ``NS/EP''--Telecommunications and 
facilities, the NCC-ISAC facilitates voluntary collaboration and 
information sharing among government and industry participants. The 
NCC-ISAC gathers information about network vulnerabilities, threats, 
intrusions, and anomalies from various sources, including the 
telecommunications industry and the U.S. government. That information 
is then analyzed with the goal of averting or mitigating the effects of 
computer intrusions on the telecommunications infrastructure.
    The value of the ISAC approach is found in the ability to acquire 
and share information with the group in a way that individual group 
members cannot accomplish. This process often involves the rapid 
assessment and conversion of information that individual ISAC members 
had held as proprietary and confidential into a form that can be shared 
both with ISAC members and with other affected or interested parties. 
ISACs are exchanging some ``sanitized'' information between sectors and 
at times, on a very limited basis, with the National Infrastructure 
Protection Center or NIPC. The ISAC information product commonly deals 
with the provision of early warnings of impending attacks, and the 
establishment of trends in types and severity of attacks. If more legal 
protections were in place, there could be more sharing of Internet 
threat and solution information among the ISAC membership and other 
appropriate organizations, including the Federal Government. ISACs 
operate successfully because they are a closed community, founded on 
mutual trust, and focused on prevention before a large attack occurs. 
They differ markedly from other open communities whose duties are to 
alert the more general networked public after a breach has occurred.
    As the world economy continues to become more international in 
nature, ISACs will provide a rich source of useful, validated security 
threat information, for those enterprises that do not, or are not able 
to, participate in the information security structure. It is by sharing 
security data that the nation and the world will be able to respond 
effectively to the continuing and growing threat, both internally and 
externally, against critical infrastructures.
    Two additional points need to be made: First, this entire process 
is just getting underway. While there are a few examples of the most 
competitive companies sharing information within a few ISACs, more time 
is needed before we will be able to measure real success. Relationships 
of trust and confidence need to be built. That is why the government, 
through legislation, has a critical role to play NOW, in the formation 
of the process, and its encouragement.
    Second, many in the business community believe that their efforts 
are hampered by the government's apparent desire for a limited, one-way 
form of information sharing. The government seems to conduct much of 
its internal conversations about critical infrastructure on the basis 
of classified information--the kind that can only be shared in very 
restricted ways--and yet it expects the business community to share its 
own sensitive information without any ironclad assurances of 
confidentiality, certainly nothing like the treatment accorded 
classified information. We are not seeking that level of protection, 
but as we encourage greater sharing we must likewise promote the notion 
that the communication must flow in both directions.
    A lack of certainty is also a decided impediment to sharing 
critical infrastructure information with government. That kind of 
information is not ``ordinary'' and should be entitled to the 
extraordinary treatment of a complete ban on FOIA disclosure. 
Legislative proposals address this defect by taking the subject 
information out of the realm of agency discretion to disclose. We need 
to close the gate firmly when this information is shared with 
government.
    Concerns about inappropriate release of sensitive infrastructure 
information via FOIA have impeded current sharing with government. 
Dating to September 1982, the NSTAC is perhaps the oldest and most 
successful industry and government partnership to address 
telecommunications and information systems issues impacting national 
security and emergency preparedness (NS/EP).
    NSTAC activities are the genesis for technical reports, 
recommendations to the President, and NS/EP operational programs. 
Showing how industry and government partnership is an integral part of 
the success of the NSTAC, the primary working body of the NSTAC, the 
Industry Executive Subcommittee (IES) is chaired by a government 
executive, the Deputy Manager, National Communications System. The IES 
consists of executive representatives appointed by each NSTAC 
Principal. The IES holds regular Working Sessions to consider issues, 
analyses, or recommendations for presentation to the NSTAC members for 
their approval. When an issue requires research or other examination, 
the IES forms a task force to address it. For example, the National 
Coordinating Center for Telecommunications (NCC), an industry/
Government coordination center for day-to-day operational support to 
NS/EP telecommunications, began in 1984 from an NSTAC recommendation. 
More recently, the NCC has established an Information Sharing and 
Analysis Center (ISAC) function as part of its NS/EP telecommunications 
mission. The Telecommunications Service Priority (TSP) System, once an 
NSTAC issue, is also now an operational program. TSP is the regulatory, 
administrative, and operational authority that enables priority 
provisioning and restoration of telecommunications services for 
Federal, State, and local government users, as well as nongovernmental 
users. Also originating from NSTAC activities, an industry-based 
Network Security Information Exchange (NSIE) was created and meets 
regularly with a Government NSIE in a classified forum to address the 
threat posed to the public network as a result of actual or possible 
electronic exploitation of system vulnerabilities.
    Despite this track record of success, their past experience with 
sharing of operational information, and in light of the need for even 
more sensitive sharing to address tomorrow's threats, the NSTAC is on 
record as twice endorsing the need for FOIA protection for voluntarily 
shared, critical infrastructure information.
    Antitrust concerns are another potential legal hurdle to 
information sharing. We understand that the Department of Justice has 
offered assurances that its program of business review letters would be 
forthcoming for information sharing and analysis centers constituted 
under the Administration's policies. Yet the issuance of even a set of 
such letters would prove inadequate, for at least three reasons. First, 
such ISACs would have to be constituted with a view toward satisfying 
the Department, as opposed to maximally fulfilling their primary 
mission. Second, there is the unavoidable negative implication for 
numerous other affected parties not in possession of a business review 
letter. Third, the ISACs are not the only organizations that have been 
constituted to share cyber threat information among industry sector 
members or with Federal agencies.
    Beyond federal FOIA and antitrust--and let me emphasize the ITAA 
believes that addressing the FOIA issue is the heart of the proposed 
legislation--the current bills go on to clarify that critical 
infrastructure threat data shared voluntarily with the government would 
not be disclosed either under the Federal Advisory Committee Act (FACA) 
or under state FOIA laws. We do recognize the federalism question that 
the second provision raises. At the same time, homeland defense is 
creating a need for federal, state, and local bodies to work jointly to 
a previously unprecedented degree. In some instances, first responders 
will not be from federal agencies. Information sharing ought not to 
dead-end at the federal level but should flow all the way down to the 
first responders. Without the same protection at the state level as at 
the federal, state agencies will face the same lack of revealing detail 
that federal agencies are experiencing today. In this regard, language 
in Sec. 3(e) of H.R. 4598 recently passed by the House dealing with the 
sharing among law enforcement agencies of homeland security information 
may provide a model for treatment of FOIA-excluded critical 
infrastructure threat information moving to the states and local 
governments.
    Finally, the bills also call for limited use protection--not 
immunity--so that critical infrastructure information disclosed to the 
government cannot subsequently be used against the person submitting 
the information. Opponents of this legislation state that the provision 
is a smokescreen for promising unlimited liability to the corporate 
community. Nothing could be further from the truth. Once again, it 
bears repeating: the subject of this legislation is information that 
the government has requested informally from the business community. 
There is ample reason to grant limited use protection in return for 
full disclosure of this information intended to help the government 
accomplish its mission.
    A comparison with the legislative, public policy and marketplace 
purposes behind this legislation and that underlying the Y2K 
legislation may be instructive. In 1998, as today, many of the leading 
proponents of that legislation were uncertain about the extent of the 
need to alter FOIA's exemptions, in order to assure that information 
would flow from the private sector custodians to the government and 
beyond. But, lacking the luxury of time to wait for a court test case, 
consensus in Washington was that a Congressional imprimatur of approval 
of limited FOIA, antitrust and civil liability exposure (later provided 
in the ``Y2K Act of 1999'') was appropriate, indeed, critical, in view 
of the scope of risk, and extreme reticence of many corporate holders 
of information to share that.
    A very similar situation exists today with regard to custodians of 
critical infrastructure threat and risk information. Whatever position 
a legal scholar may take on the extent of FOIA's present shield, an 
affirmative statement of Congressional approval of ISACs and other 
information sharing organizations is essential to our meeting the 
challenge of the terrorist threat.
    Attached to my testimony is a list of several reasons why current 
FOIA language may not be sufficient to protect critical infrastructure 
information from disclosure. Ambiguity and discretion remain the order 
of the day when it comes to agency decisions about disclosure of any 
kind of business confidential data, despite its importance and despite 
good precedents in some of the Federal Courts. The lack of certainty is 
of course acceptable in the ordinary course of business; it simply 
reflects the bias of FOIA in favor of disclosure, a bias with which we 
do not quarrel. However, critical infrastructure assurance cannot be 
considered business as usual.
    With the appropriate protections in place, legitimate businesses, 
law enforcement agencies, intelligence agencies, and the Homeland 
Security organization--in whatever form it may take--can share the 
information needed to ward off attacks and track down attackers.
    There has been, in ITAA's view--and this view has also been 
expressed by other associations such as the Edison Electric Institute, 
the U.S. Chamber of Commerce, the National Association of 
Manufacturers, the Financial Services Roundtable, Americans for 
Computer Privacy, and the American Chemistry Council --a 
misunderstanding of the legislation by some critics. Again, we are not 
calling into question the existing FOIA case law, which taken together 
suggests that a federal agency would win a test case. Rather, we are 
saying only that the risk of a loss of such a test case--as viewed by 
the parties bearing the risk--remains unacceptably high. More 
importantly, corporations should not be required to accept such risks, 
or the cost of litigation, when reporting significant cyber events in 
an attempt to protect the public interest. Second, the proposed 
legislation has only to do with disclosure of computer attack data and 
critical infrastructure protection. Normal regulatory information 
gathering will proceed unimpeded, as it should.
    In closing, I would like to cite another passage from the 
Washington Post article that I referred to earlier in my testimony: 
``We were underestimating the amount of attention [al Qaeda was] paying 
to the Internet,'' said Roger Cressey, a longtime counterterrorism 
official who became chief of staff of the President's Critical 
Infrastructure Protection Board in October. ``Now we know they see it 
as a potential attack vehicle. Al Qaeda spent more time mapping our 
vulnerabilities in cyberspace than we previously though. An attack is a 
question of when, not if.'' <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ ``Cyber-Attacks by Al Qaeda Feared,'' by Barton Gellman, 
Washington Post, June 27, 2002
---------------------------------------------------------------------------
    The threats are out there. Our critical infrastructure is 
vulnerable. The private sector and public sector must work together to 
understand, respond to, and prevent these threats. That is why there is 
clear unity in the private sector in favor of removing disincentives to 
information sharing and that is why we support legislation in the U.S. 
House of Representatives and U.S. Senate--and specifically, we 
recommend adopting Tom Davis' amendment to H.R. 5005, the Homeland 
Security Act of 2002. We call on this Committee and Members of U.S. 
Congress that have not already indicated their support for this 
legislation to do so today.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that you and/or Members of this Committee may have at this time.
                              Appendix 1:
                focus on the freedom of information act
reasons current law fails to adequately protect critical infrastructure 
                           threat information
    The Freedom of Information Act (FOIA, 5 USC 552) expresses the 
policy of the United States in favor of disclosure of information in 
the government's possession, to the greatest possible extent. No one 
argues with this basic premise of government in America. Transparency 
and open government are important parts of the foundation of our 
democracy.
    At the same time, no one disputes that when the government engages 
in strategic planning and discussions about the national security and 
national defense in the emerging and dangerous world spawned by the 
resurgence of terrorism and the necessity of making war on it, the 
sensitive information generated should be exempt from disclosure on 
grounds of overriding national defense and foreign policy 
considerations.
    In addition, no one disputes that the ``Critical Infrastructure'' 
of the United States--from pipelines and electric utilities to 
information networks and telecommunications, transportation systems for 
goods and people and more--is at risk of attack both prior to, and now, 
during the war on terrorism.
    The bulk of this critical infrastructure, however, is under the 
ownership and control of America's private sector, not the national 
security umbrella of government. It is time to recognize the important 
role in national security and foreign policy that America's critical 
infrastructure plays, and treat information related to ``any threat to 
the security of critical infrastructure'' just as any other information 
exempt from disclosure as a matter of national security.
    That is not the case today. Information generated by the government 
and properly classified under ``criteria established by an Executive 
order to be kept secret in the interest of national security or foreign 
policy'' is exempt from disclosure. Period. 5 USC 552 (b)(1)(A)(B). 
Information generated by the private sector owners and operators of the 
nation's critical infrastructure and voluntarily shared with a 
government agency may be treated as ``confidential business 
information'' <SUP>1</SUP>, but only if the agency makes a number of 
determinations in its discretion, and it does not exercise its 
discretion to change its mind in the future. Such information may also 
fit within the FOIA exclusion for ``law enforcement information'' when 
disclosure ``could reasonably be expected to endanger the life or 
physical safety of any individual'' (5 USC 552(b)(7)(F)), but the same 
reservations about agency discretion apply here as well. Treatment of 
critical infrastructure threat information should be ``upgraded'' by 
providing that it is specifically exempted from disclosure by statute 
(5 USC 552(b)(3)), removing the extra burden of discretionary 
treatment.
---------------------------------------------------------------------------
    \1\ The statutory phrase is ``trade secrets and commercial or 
financial information obtained from a person and privileged or 
confidential.'' 5 USC 552 (b)(4).
---------------------------------------------------------------------------
    The change will not open the floodgates to a host of other 
exemptions from disclosure. This change would respond to a limited need 
for specific relief in the case of information that rises to the level 
of a national security concern, but resides outside the national 
security umbrella. It does not seem likely that other requests for new 
exemption could meet this test.
    It should be the case that upgrading this specific type of 
information is in the interest not just of the business community, but 
also of the government itself and the citizenry in general. It is in 
everyone's interest to take the steps reasonably necessary to protect 
critical infrastructure from attack, and learn from incidents and 
recoveries that have taken place in the past.
    What is clear is that current FOIA treatment of critical 
infrastructure threat information makes the private sector reluctant to 
engage in the full and frank disclosure of information to government 
that should be taking place right now. Why is the current FOIA 
treatment of critical infrastructure threat information less than 
adequate? There are a number of reasons. Here are several:

1. Under current rules the submitter of information does not know 
        whether it will be treated as confidential by the agency, and 
        the agency will not make a commitment at the time of 
        submission. This lack of certainty alone prevents many 
        disclosures.
2. Current policy requires that agencies not exercise their 
        discretionary authority unless and until a disclosure request 
        under FOIA is received. When a request is received, agencies 
        have discretion to inform the submitter of the need to defend 
        the confidentiality of their information. The agencies can 
        decide they have enough information to make the decision 
        without informing the submitter.
3. Recent precedents (the Critical Mass case and its progeny) suggest 
        that ``voluntarily'' submitted ``trade secret, commercial or 
        financial information'' may be protected from disclosure if not 
        ``customarily'' disclosed by the submitter. Nevertheless, every 
        word in quotes represents a different discretionary 
        determination that must be made by the agency at the time of a 
        FOIA request. Submitters have their arguments to make, but no 
        assurance that those arguments will be accepted.
4. Recent precedents are not necessarily accepted throughout the United 
        States in every judicial circuit. Submission of critical 
        infrastructure threat information should not be expected to be 
        limited to agencies in Washington, D.C.
5. Information disclosed to competitors in an ISAC under the terms of 
        binding non-disclosure agreements (NDA) conditioning ISAC 
        membership may qualify for confidential treatment under the 
        Critical Mass case, but absent strict compliance with such 
        formal requirements--as could happen in the case of an incident 
        recovery crisis or other emergency--disclosure by the submitter 
        could lead to a finding that Critical Mass protections do not 
        apply.
6. Agencies always have discretion to decide that, despite a 
        submitter's claim of confidentiality and the reasons for it, 
        the submitter's claim in light of the passage of time or other 
        considerations cannot be valid and the policy interests 
        expressed by FOIA are stronger and enough to justify 
        disclosure. That is a risk the business community has come to 
        accept in its ongoing dialogue with government. It is not a 
        risk that should have to be assumed for the treatment of 
        critical infrastructure threat information.
7. Some confidential business information turns stale with the passage 
        of time, justifying the exercise of agency discretion. Critical 
        infrastructure threat information does not. That alone should 
        be reason enough to upgrade its treatment under FOIA.
    In sum, it is essential to eliminate discretionary treatment for 
this limited class of information. The owners and operators of the 
nation's critical infrastructures should be able to have confidence 
that the information they share with government will not be made public 
at a later date. Today they do not have that confidence.

    Mr. Whitfield. Thank you.
    Ms. Costantini, you're recognized for 5 minutes.

                 TESTIMONY OF LYNN P. COSTANTINI

    Ms. Costantini. Chairman Greenwood, ladies and gentlemen of 
the subcommittee, thank you for the opportunity to testify on 
behalf of the North American Electricity Reliability Council. 
We are in support of the President's proposal for a Department 
of Homeland Security. NERC is a not-for-profit organization 
formed in 1965 to promote the reliability of electric systems 
that serve North America. It accounts for all the electricity 
supplied in the United States, Canada and a portion of Baja 
California, Mexico.
    In addition to its job of ``keeping the lights on,'' NERC 
services the electric industry's contact and coordinator in the 
United States and Canada for bulk electric systems security 
matters and it operates the Electricity Sector's Information 
Sharing and Analysis Center.
    As the director of Information Technology, it is my 
responsibility to ensure NERC's information assets and the 
environment in which they operate are secure. I serve on the 
Critical Infrastructure Protection Advisory Group, and I am a 
member of the ES-ISAC team.
    Generally, NERC supports the administration's Department of 
Homeland Security and appreciates the recognition in this 
proposal of the role of the private sector in protecting 
critical infrastructure. More than 80 percent of assets that 
drive our economy are privately held. Without the assistance of 
the U.S. Government to help the owners of these assets 
understand the threat environment and warn them when they are 
hauled out as targets, these assets may be vulnerable.
    The public-private partnership is crucial to helping us 
understand such complicated potential vulnerabilities as the 
independencies between and among different infrastructures, 
such as telecommunications, electricity, transportation and 
natural gas. NERC believes it's imperative to national security 
to refine and strengthen that public-private partnership. 
Organizing the authority and responsibilities for critical 
infrastructure protection under the Department of Homeland 
Security supports that goal.
    We recognize, however, that there exists barriers which 
prevent a flow of information between and among the public and 
private sectors. Except in special circumstances, information 
provided to the government is subject to disclosure to the 
citizenry and others via FOIA. Information sharing among 
members of private industry is subject to antitrust regulation, 
and trust is as much a concern as antitrust.
    The effect of these concerns is that some valuable 
information necessary to fully analyze risks to critical 
infrastructure interests is not being employed.
    These concerns are more than theoretical. For instance, the 
United States Department of Energy, working with the Office of 
Homeland Security, has asked the electric utility industry to 
provide the government with a list of nationally critical 
facilities. While we understand how this information can be 
useful, NERC and its members are unwilling to prepare a target 
list without adequate assurance that such information will 
receive appropriate protection. FOIA exemptions do not provide 
that level of assurance.
    Furthermore, in response to September 11, entire industries 
must now decide whether and how to share spare parts or other 
finite resources. The issue of sharing also involves potential 
allocations of scarce supplies. Entire industries may need to 
determine security-related requirements to ask of their 
suppliers. At the very least, entire industries want to discuss 
the security-related shortcomings of existing product supply 
industries. Each of these actions is ripe for antitrust 
allegation.
    NERC does believe these barriers to public-private 
partnership are surmountable. We will overcome them by 
clarifying the Freedom of Information Act exemption to provide 
indisputable, consistent rules for the nondisclosure of 
critical infrastructure protection information. Alternatively, 
create new statutes stipulating nondisclosure of specific, 
sensitive data provided to the U.S. Government for the purposes 
of critical infrastructure protection; grant security 
clearances for personnel in critical infrastructure industries 
so that the flow of information between the public and private 
sectors can remain intact and secure; provide limited antitrust 
exemptions such as those that enabled cross-sector coordination 
during the year 2000 rollover; continuing to build trust.
    NERC believes that centralizing leadership authority and 
responsibility under the Department of Homeland Security is a 
step toward this building trust.
    Recognizing the voluntary system of information sharing 
between the public and private sector as an effective means of 
promoting critical infrastructure assurance is vital. Helping 
the private sector overcome barriers to participation and 
providing antitrust protection will allow the trust 
relationship to grow and be fruitful.
    On behalf of NERC, I thank you for your time.
    [The prepared statement of Lynn P. Costantini follows:]
    Prepared Statement of Lynn P. Costantini, Director--Information 
        Technology, North American Electric Reliability Council
    critical infrastructure protection: the need for public-private 
                              partnership
    My name is Lynn Costantini, and I am the Director of Information 
Technology for the North American Electric Reliability Council. NERC is 
a not-for-profit organization formed after the Northeast Blackout in 
1965 to promote the reliability of the bulk electric systems that serve 
North America. NERC comprises ten Regional Reliability Councils that 
account for virtually all of the electricity supplied in the United 
States, Canada, and a portion of Baja California Norte, Mexico.
    In addition to its job of ``keeping the lights on,'' NERC serves as 
the electric industry's contact and coordinator in the United States 
and Canada for bulk electric system security matters and operates the 
Electricity Sector's Information Sharing and Analysis Center (ES-ISAC).
    As the Director of Information Technology, it is my responsibility 
to ensure NERC's information assets and the environment in which they 
operate are secure. I serve on NERC's Critical Infrastructure 
Protection Advisory Group and I am a member of the ES-ISAC team.
    Generally NERC supports the Administration's proposed Department of 
Homeland Security. NERC appreciates the recognition in this proposal of 
the role of the private sector in protecting critical infrastructures. 
Furthermore, NERC believes it is imperative to national security to 
refine and strengthen the public-private partnership. Organizing the 
authority and responsibilities for critical infrastructure protection 
under the Department of Homeland Security supports that goal.
    In this testimony, I will discuss the need to keep information 
flowing between the public and private sectors, the barriers to 
information sharing, what can be done to overcome those barriers, and, 
finally, the electricity sector's experience in these areas.
Background
    The information age dawned with little thought to security. We were 
in awe of the power at our fingertips (information!) and we rushed to 
find new ways to gather and use more and more information through an 
increasing array of new techniques. A computer on every desktop, 
complete with tools to improve efficiency and productivity, networked 
together so we could share precious resources. How could something so 
positive, so beneficial, be used against us? Never!
    Today we know better. The silver cloud had a black lining. First 
``script kiddies'' exploited vulnerabilities in our computing armor for 
fun. Then committed hackers exploited us for profit. Now we are faced 
with the prospect of nation-states exploiting us to rain terror. The 
need for security was never clearer or more urgent.
    We now also understand that security is multi-faceted. It is 
guards, gates, and guns. It is firewalls and intrusion detection 
systems. It is policy statements and disaster planning. It is also 
about understanding the spectrum of threats we face so we can 
accurately assess risk in the context of our industries, our operating 
environments. Ultimately, security is about awareness, preparedness, 
and action.
The Need for Partnership
    Security, then, demands cooperation and coordination between the 
public and private sectors. In fact, the public-private relationship is 
vital. It is true that more than 80% of assets that drive our economy 
are privately held. However, without the assistance of the United 
States government to help the owners of these assets understand their 
threat environment and warn them when they are called out as targets, 
these assets may be vulnerable.
    Moreover, the public-private partnership is crucial to helping us 
understand such complicated potential vulnerabilities as the 
interdependencies between and among different infrastructures, such as 
telecommunications, electricity, transportation, and natural gas.
Barriers to Public-Private Partnership
    Although the idea of information sharing seems so simple, it raises 
serious concerns. Except in special circumstances, information provided 
to the government is subject to disclosure to the citizenry and others 
via the Freedom of Information Act (FOIA). Furthermore, information 
sharing among members of private industry is subject to anti-trust 
regulations. Trust is as much an issue as anti-trust.
Freedom of Information Act
    Participants in critical infrastructure industries repeatedly cite 
the inability of the federal government to assure them that any 
sensitive information they supply will not fall into inappropriate 
hands as a significant barrier to information flow between the public 
and private sectors. The effect of these private-sector concerns is 
that some valuable information necessary to fully analyze 
vulnerabilities and risks to critical national interests is not being 
reported. This will likely remain the case until the government can 
offer such assurances of protection from disclosure.
    Of course, legitimate market participants, regulators, and others 
need to obtain information in a timely manner, but truly sensitive 
information must be protected.
    The existing FOIA disclosure exemptions do not provide the 
necessary levels of assurance.
    Exemption 4 asserts that information voluntarily given to the 
government will be protected if the provider customarily treats such 
information as confidential. This language leaves the door open to 
legal challenges and thus, to the possibility of disclosure of 
sensitive information. Rather than risk disclosure, the private sector 
may decide not to release information to the government.
    Exemption 1 protects sensitive information from disclosure by 
classifying it in the interest of national defense or foreign policy. 
This is strong, assuring language; however, only a small percentage of 
the personnel working in critical infrastructure industries have 
security clearances. The flow of information from the public sector 
back to the private sector would be jeopardized if sensitive 
information were classified.
    FOIA disclosure concerns are not simply theoretical. The United 
States Department of Energy, working with the Office of Homeland 
Security, has asked the electric utility industry to provide the 
government with a list of nationally critical electric facilities. We 
understand how this information would be useful. Indeed, NERC has 
maintained a critical equipment database since the mid-1980s, to which 
strict access controls are applied. NERC and its members are unwilling 
to hand over even a small part of any such database without adequate 
assurance that such information will receive appropriate protection.
Anti-trust Regulations
    Anti-trust regulation is another serious private-sector concern and 
goes beyond the potential problems caused by merely sharing information 
about threats. Entire industries must decide whether and how to share 
spare parts or other finite resources to repair major, widespread 
damage and prevent worse calamities due to cascading failures. The 
issue of sharing also involves potential allocations of scarce 
commodities--both supplies for repair and products for customers. 
Further, entire industries may determine security-related requirements 
to ask of their suppliers and business partners. At the least, entire 
industries may discuss the security-related shortcomings of existing 
products, suppliers and partners. Each of these actions is ripe for 
anti-trust allegation. The risk of allegation seriously dampens the 
willingness to share information, which, in turn, jeopardizes the 
ability to adequately analyze cross-sector dependencies and develop 
effective protection strategies.
Trust
    As noted by the General Accounting Office last October, one issue 
critical ``to establishing, developing, and maintaining effective 
information-sharing relationships [to] benefit critical infrastructure 
protections efforts, [is to] foster . . . trust and respect . . .'' 
<SUP>1</SUP> Without a trust relationship between government and 
private industry, information sharing stands little chance of success.
---------------------------------------------------------------------------
    \1\ Information Sharing--Practices That Can Benefit Critical 
Infrastructure Protection, GAO Report to Senator R. F. Bennett, Joint 
Economic Committee (October 2001)
---------------------------------------------------------------------------
    A report by the President's Commission on Critical Infrastructure 
Protection (PCCIP) in October 1997 specifically commended NERC as a 
model for information sharing, cooperation, and coordination between 
the private sector and government. Clearly, the successful relationship 
between NERC and its government partners ( the FBI and its National 
Infrastructure Protection Center, the Department of Energy, and others 
( has been a benefit to the electricity sector.
         overcoming the barriers to public-private partnership
Clarify the Freedom of Information Act disclosure exemptions.
    FOIA disclosure exemptions do not provide the necessary levels of 
assurance to the private sector that its sensitive information will be 
protected. Congress should clarify the exemptions to create 
indisputable, consistent rules for the non-disclosure of sensitive 
critical infrastructure protection information. Alternatively, create 
new statutes stipulating non-disclosure of specific, sensitive data 
voluntarily provided to the United States government for the purposes 
of critical infrastructure protection.
    Because of the FOIA concerns, participants in the electricity 
sector are asking federal regulators, agencies, and states to 
reconsider what information they request of utilities, especially 
market information that identifies system constraints and the 
availability of critical facilities. Our industry has especially asked 
that they reconsider how they share that information once they obtain 
it. In fact, the Federal Energy Regulatory Commission (FERC) is 
beginning to address those issues. FERC recently asked for advice and 
suggestions on how to prevent sensitive information from being 
disclosed despite the requirements of FOIA. However, there is no clear 
process or timeline for any final decision by FERC. Congress is in the 
best position to mitigate the security risks inherent in information-
sharing activities.
Grant security clearances for personnel in critical infrastructure 
        industries so that the flow of information between the public 
        and private sectors remains intact and secure.
    The owners of critical infrastructure assets need access to more 
specific threat information and analysis from the public sector in 
order to develop adequate protection strategies. This may require 
either more security clearances or treatment of some intelligence and 
threat information and analysis as sensitive business information, 
rather than as classified information.
Provide limited anti-trust exemptions.
    The possibility of anti-trust allegations inhibits cross-sector 
information sharing. The private sector wants clarity as to what 
information it can share and the extent to which information can be 
exchanged without risking anti-trust allegations. A legislative action 
similar to the 1998 Y2K Information and Readiness Disclosure Act would 
provide the necessary level of clarity.
Build Trust
    Infrastructure security requires a healthy, trusting public-private 
relationship. Overlapping and inconsistent roles and authorities may 
have hindered development of productive working relationships. 
Clarification of roles and responsibilities both within the government 
and the private sector is an important factor in building a trust 
model. Centralizing leadership, authority, and responsibility under the 
Department of Homeland Security is a step forward in building trust. 
Recognizing a voluntary system of information sharing between the 
public and private sector as an effective means of promoting critical 
infrastructure assurance is another. Helping the private sector 
overcome barriers to effective participation by clarifying FOIA and 
providing anti-trust protection will allow the trust relationship to 
grow and be fruitful.
                   the electricity sector experience
    NERC has a long history of coordination with the federal government 
on grid security. It began in the early 1980s when NERC became involved 
with the electromagnetic pulse phenomenon. Since then, NERC has worked 
with the federal government to address the vulnerability of electric 
systems to state-sponsored, multi-site sabotage and terrorism, Year 
2000 rollover impacts, and most recently the threat of physical and 
cyber terrorism. At the heart of NERC's efforts has been a commitment 
to work with various federal agencies including the National Security 
Council (NSC), the Department of Energy (DOE), the Nuclear Regulatory 
Commission (NRC), and the Federal Bureau of Investigations (FBI) to 
reduce the vulnerability of interconnected electric systems to such 
threats.
    NERC maintains a close working relationship with the FBI's National 
Infrastructure Protection Center (NIPC) and the Department of Energy's 
Emergency Operations Center (DOE EOC), and participates in and hosts 
several related critical infrastructure protection programs, the 
Indications, Analysis, and Warnings Program (IAWP); the Electricity 
Sector Information Sharing and Analysis Center (ES-ISAC); and the 
Partnership for Critical Infrastructure Security (PCIS).
    On at least two occasions, Congress has asked the General 
Accounting Office (GAO) to study the practices of organizations that 
successfully share sensitive information. GAO report B-247385, April 
1992, ``Electricity Supply, Efforts Under Way to Improve Federal 
Electrical Disruption Preparedness,'' and GAO report GAO-02-24, October 
15, 2001, ``Information Sharing: Practices That Can Benefit Critical 
Infrastructure Protection,'' outline and report on many of the ways in 
which NERC coordinates industry response activities.
Information Sharing and Analysis Center for the Electricity Sector (ES-
        ISAC)
    Presidential Decision Directive (PDD-63), issued in May 1998, 
called for government agencies to become involved in the process of 
developing a National Plan for Information Systems Protection, and to 
seek voluntary participation of private industry to meet common goals 
for protecting the country's critical systems through public-private 
partnerships. In September 1998, then Secretary of Energy Richardson 
sought NERC's assistance in developing a program for protecting the 
nation's critical electricity sector infrastructure and NERC agreed to 
participate as the electricity sector coordinator.
    In its role as the ES-ISAC, NERC performs the following functions:

<bullet> Receives incident data from electricity sector entities
<bullet> Assists the National Infrastructure Protection Center to 
        analyze electricity sector events
<bullet> Disseminates threat and vulnerability assessments
<bullet> Liaisons with other ISACs
<bullet> Analyzes sector interdependencies
<bullet> Participates in infrastructure exercises
Critical Infrastructure Protection Advisory Group
    NERC created its Critical Infrastructure Advisory Group (CIPAG) to 
evaluate sharing cyber and physical incident data affecting the bulk 
electric systems in North America. The CIPAG, which reports to NERC's 
Board of Trustees, has Regional Reliability Council and industry sector 
and associations representation as well as participation by the 
Critical Infrastructure Assurance Office in the Department of Commerce 
(CIAO), DOD, DOE, NIPC, and FERC.
    Participation in CIPAG represents all electricity sector segments, 
which is an essential ingredient to its success. The participants 
include the dedicated experts in the Electricity Sector who represent 
physical, cyber, and operations security. NERC is recognized as the 
most representative organization of the Electricity Sector for this 
coordination function, as demonstrated by NERC's performance as project 
coordinator for the Electricity Sector for the Y2K transition. The 
security committees and communities associated with industry 
organizations (American Public Power Association, Canadian Electricity 
Association, Edison Electric Institute, and National Rural Electric 
Cooperative Association) provide the expertise for security in the 
electricity sector to compliment NERC's existing operational and cyber 
security expertise. The CIPAG relies on small self-directed working 
teams, a proven and effective method for developing detailed processes 
and practices by subject matter experts, concluding with peer review in 
the forum environment, and approval by NERC's Board of Trustees.
    CIPAG activities are targeted to reducing the vulnerability of the 
North American bulk electric system to the effects of physical and 
cyber terrorism. The CIPAG's activities include developing 
recommendations and practices related to monitoring, detection, 
protection, restoration, training, and exercises.
                              conclusions
    NERC believes it is imperative to national security to refine and 
strengthen the public-private partnership. Building a strong trust 
relationship is essential to the success of this partnership. 
Overcoming the hurdles to effective communications and information 
sharing as described in this testimony will enable cooperation for the 
ultimate goal of protecting our nation's critical infrastructures, its 
economy, and the well-being of all its citizens. Thank you.

    Mr. Whitfield. Mr. Sullivan, you're recognized for 5 
minutes.

               TESTIMONY OF JOHN P. SULLIVAN, JR.

    Mr. Sullivan. Thank you, Mr. Chairman and members of the 
subcommittee.
    My name is John Sullivan. I'm the Chief Engineer of the 
Boston Water and Sewer Commission and the President of the 
Association of Metropolitan Water Agencies on whose behalf I'll 
testifying today.
    AMWA is an organization of the Nation's largest publicly 
owned drinking water agencies. In 1998, AMWA was designated the 
Water Sector's liaison to the Federal Government on critical 
infrastructure protection. In this role, AMWA has served as a 
community coordinator of security activities.
    Governor Ridge said 2 weeks ago that the DHS would focus 
the resources of the Federal Government on critical 
infrastructure protection. Giving the Cabinet-level agency the 
authority to coordinate and consolidate the Federal 
Government's vast resources will better protect consumers from 
bioterrorism and life-threatening disruption from water 
sources.
    We recognize the importance of engaging in a new and unique 
partnership with the Federal Government. We have been working 
with the National Infrastructure Protection Center, EPA and the 
Critical Infrastructure Assurance Office. We have also been 
working with the Office of Homeland Security to develop a 
national physical infrastructure protection plan, and we will 
be working with that office to develop a report on cyber 
security leads. We have also engaged the Departments of 
Defense, Energy and Interior and the national laboratories in 
discussions relating to security.
    AMWA serves as the first-ever Water Information Sharing and 
Analysis Center which became operational last September. The 
ISAC issues advisories and warnings and EPA security-related 
notices directly to approximately 1,000 major drinking water or 
wastewater systems, State drinking water administrators and 
several associations. Through the water ISAC, systems can also 
submit incident reports to be analyzed by NIPC. In the future, 
a more sophisticated ISAC that will be operational by the end 
of this year is being developed with seed money from the EPA 
grant.
    Relating to the ISAC is the issue of information sharing by 
the Federal Government. Title II of the President's proposal 
directly relates to the water sector's need for credible and 
timely intelligence. It is imperative that the information 
gathered by law enforcement and the intelligence agencies be 
shared with the water sector by way of the water ISAC. This 
data is necessary not only to prevent or reduce damages from a 
potential attack but also to better understand the type of 
disruptions that could occur, to analyze trends and to build 
protections into the design of our systems.
    Protecting security risk and other information is another 
top priority of the water sector. As part of the partnership 
between the government and water sector, AMWA is hopeful that 
the highest possible protection of information will be assured.
    As always, water utilities stand ready to share key 
information with Federal law enforcement and intelligence 
agencies as we would with the new DHS help them conduct their 
mission for protection of Americans in critical infrastructure. 
We look forward to engaging in a dialog on this important topic 
because it is essential that we avoid educating the terrorists. 
It is why the system vulnerability assessment program works.
    In 2000, more than a year before the September 11 attacks, 
the water sector began development of the vulnerability 
methodology the Boston water and sewer systems have since used. 
Now thousands of water systems are engaged in this process.
    Within the mission of the proposed department is the 
comprehensive assessment of the vulnerabilities of America's 
critical infrastructures, including water systems. Two weeks 
ago, Governor Ridge asked Congress to give the new Department 
the responsibility for the water system vulnerability 
assessment program. We strongly support this idea. If DHS is 
going to be a primary assessor of critical infrastructure 
responsibilities, then to separate water structures from the 
other sectors would undermine the ability to consolidate, 
coordinate and streamline homeland security. This is important 
given the interdependencies among the various sectors such as 
the reliance on electricity supplies to treat and distribute 
water and the need for reliable water supply by hospitals and 
industry.
    Research is another priority for the water sector. Under 
title III of the President's proposal, DHS would help fill in 
gaps in research with a national scientific research and 
development program. We believe that DHS should specifically be 
authorized to conduct research in methodologies and 
technologies to detect, prevent and respond to acts of 
terrorism, including acts of cyber terrorism against drinking 
water systems. The need for new, sophisticated science in water 
technology is vital.
    Thank you for holding this important hearing and for 
inviting us today. We anticipate a close and mutually 
beneficial relationship with the Department of Homeland 
Security and look forward to further discussions with Congress.
    [The prepared statement of John P. Sullivan, Jr. follows:]
 Prepared Statement of John P. Sullivan Jr., President, Association of 
                      Metropolitan Water Agencies
                              introduction
    Chairman Greenwood, Ranking Member Deutsch and members of the 
subcommittee, thank you for inviting me to testify. My name is John 
Sullivan. I am the Chief Engineer of the Boston Water and Sewer 
Commission. I am also the President of the Association of Metropolitan 
Water Agencies, or AMWA, on whose behalf I am testifying today.
    AMWA is an organization of the nation's largest publicly owned 
drinking water agencies, collectively serving more than 110 million 
people across the country. In 1998, AMWA was designated the Water 
Sector's liaison to the Federal government on critical infrastructure 
protection. In this role, AMWA has served as a coordinator of security 
activities across the Water Sector, which includes both drinking water 
and wastewater systems, the vast majority of which are publicly owned. 
We provide a single point of contact for the government to both gather 
important information about the Water Sector and communicate data from 
the government back to water systems across the United States.
    Water utilities are especially sensitive to maintaining the 
public's health, as well as its trust and confidence in a safe and 
reliable supply of water. We operate both in small towns and in the 
nation's largest cities and have a significant responsibility to the 
communities we serve. We are on the front line for defending critical 
water facilities here in the homeland, and we are acutely aware of this 
responsibility.
    Given these leadership responsibilities, we recognize the 
importance of engaging in a new and somewhat unique partnership with 
the Federal government. We are in the midst of a War on Terrorism and 
must view this partnership in new and creative ways to adapt to the 
evolving risk environment.
                  the department of homeland security
    The proposed Department of Homeland Security must provide a vital 
link between the Federal government and the Water Sector. Like other 
critical infrastructures, the Water Sector is dependent on the 
continuous supply of timely information on threats, warnings and other 
security risks to fulfill our responsibilities to the nation.
    There are a number of key areas within the enabling legislation 
that should be strengthened to ensure that the new department relates 
directly to the Water Sector. Four key provisions include:

<bullet> Critical infrastructure protection.
<bullet> Intelligence and information sharing.
<bullet> Vulnerability assessments.
<bullet> Science and technology development.
                   critical infrastructure protection
    Governor Ridge said here two weeks ago that DHS would focus the 
resources of the Federal government on critical infrastructure 
protection. He also recommended that Congress provide the new 
department with the responsibility for the Water Sector's vulnerability 
assessment program--a proposal that we support.
    AMWA, in its security role, has been working with a number of 
Federal entities, such as the National Infrastructure Protection Center 
(NIPC), the Environmental Protection Agency (EPA), and the Department 
of Commerce's Critical Infrastructure Assurance Office (CIAO). We have 
also been working with the Office of Homeland Security to develop of a 
national physical infrastructure protection plan and, we will be 
working with that office to develop a report on cyber security needs. 
We have also engaged the Department of Interior, the Department of 
Energy, the National Laboratories and the Department of Defense in 
discussions related to security. Having a Cabinet-level agency with the 
authority to coordinate and consolidate the Federal government's vast 
resources will better protect consumers from bioterrorism and life-
threatening disruption of water services.
                  intelligence and information sharing
    AMWA has undertaken a leadership role in organizing and 
coordinating the flow of information and cooperation across the Water 
Sector and with the government. AMWA is developing the first-ever Water 
Information Sharing and Analysis Center, or Water ISAC, which will 
provide water systems with alerts of potential terrorism and other 
security-related services and information. The Water ISAC is being 
developed to incorporate multiple pathways for communicating. It is 
essential that these pathways run both ways--local to Federal and 
Federal to local.
    Title II (Information Analysis and Infrastructure Protection) of 
the President's proposal directly relates to the Water Sector's need 
for credible and timely intelligence, and it is particularly relevant 
to the security of water systems and the effectiveness of the Water 
ISAC. The ISAC, which AMWA is developing in close cooperation with NIPC 
and EPA, will provide the nation's drinking water and wastewater 
utilities with a secure forum for gathering, analyzing and sharing 
security-related information. In addition, the Water ISAC will:

<bullet> Serve as a single point-of-contact for the Water Sector;
<bullet> Feed incident and trend information to the Federal government;
<bullet> Facilitate the assessments of water systems' vulnerabilities 
        (required under the bioterrorism bill);
<bullet> Analyze threats and risks unique to the Water Sector; and
<bullet> Serve as a delivery vehicle for water security research, as 
        authorized under the bioterrorism bill.
    Although the ISAC is not yet functional, the Water Sector has 
developed an informal process for distributing threat information to 
utilities and, in collaboration with NIPC, an interim mechanism to 
collect utility security incident information in order to analyze 
trends and imminent or ongoing threats.
    Regardless of which Federal agencies oversee critical 
infrastructure protection, it is imperative that information gathered 
by law enforcement and intelligence agencies be shared with the Water 
Sector, via the Water ISAC. This data is necessary not only to prevent 
or reduce damages from a potential attack, but also to better 
understand the types of disruptions that could occur, to analyze trends 
and to build protections into the design of our systems.
    Furthermore, as part of the partnership between the government and 
the Water Sector, AMWA is hopeful that the highest possible protection 
for security, risk and other information will be assured. AMWA is 
taking on responsibility for complex critical infrastructure 
responsibilities. We are focused on nothing less than promotion of the 
public's trust and confidence in the communities where we operate. 
Sensitive information that is either voluntarily shared by utilities, 
required by the government or is produced by the government must not 
fall into the hands of those who wish to harm the nation. Likewise, 
sensitive information developed by the government to assist water 
systems in deterring threats and protecting their systems must also be 
protected. Non-disclosure requirements and an exemption to the Freedom 
of Information Act are solutions, but there are others. We look forward 
to engaging in a dialogue on this important topic, because it is 
essential that we avoid educating the enemy.
                       vulnerability assessments
    Within the mission of the proposed department is the comprehensive 
assessment of the vulnerabilities of America's critical 
infrastructures, including water systems. Two weeks ago, Governor Ridge 
asked Congress to give the new department the responsibility for the 
water system assessments program--a proposal that we strongly support. 
If DHS is going to be the primary assessor of critical infrastructure 
vulnerabilities, then to separate water systems from the other sectors 
would undermine DHS's goal to coordinate, consolidate and streamline 
homeland security. This is particularly relevant given the 
interdependencies among the various sectors, such as the reliance on 
electricity supplies to treat and distribute water and the need for a 
reliable water supply by hospitals and industry.
    In the context of DHS legislation, we also urge the subcommittee to 
revisit other provisions in the bioterrorism statute relating to the 
assessments. Assessing vulnerabilities is the first step in securing a 
water system, and many water utilities have already completed their 
assessments. The drinking water community does not object to being 
required to conduct vulnerability assessments. In fact, in mid-2000--
more than a year before the September 11 attacks--the Water Sector 
began development of the vulnerability assessment methodology that 
Boston Water and Sewer and other large systems have since used. But 
under the bioterrorism law, EPA is required to collect hardcopies of 
these vulnerability assessments--more than 8,000 of them. In spite of 
non-disclosure provisions, the Water Sector is concerned that these 
extremely sensitive documents could wind up, intentionally or 
inadvertently, in the hands of malicious people. To avoid this, we 
recommend that the government not be required to collect the 
assessments. Instead, utilities could be subject to audits to ensure 
compliance.
                   science and technology development
    Under Title III (Chemical, Biological, Radiological, and Nuclear 
Countermeasures), DHS would help fill in the gaps in research with a 
national scientific research and development program. We believe that 
DHS should be specifically authorized to conduct research into 
methodologies and technologies to detect, prevent and respond to acts 
of terrorism against drinking water systems. The need for new, 
sophisticated science and technologies in water security is inarguable. 
Congress and the President recognized this need in the recently enacted 
bioterrorism law, which not only directed EPA to initiate a research 
program, but also authorized EPA to disseminate research results via 
the Water ISAC.
    We also encourage the inclusion of cyber terrorism prevention and 
response in DHS's research program. Water utilities increasingly rely 
on information systems to control many aspects of water treatment and 
distribution. It is essential that resources be invested now to design 
information systems with fewer vulnerabilities, rather than spend 
limited resources patching up those systems after installation.
    This research must be funded, and the Water Sector has requested 
the $15 million that Congress has authorized in the bioterrorism bill, 
to initiate this all-important research program.
                               conclusion
    Thank you for holding this important hearing and for inviting us to 
testify. We would be happy to work with you on changes to the DHS 
legislation that would further focus efforts to protect the nation's 
water supply from terrorist attack--whether domestic or international. 
We anticipate a close, mutually beneficial relationship with the 
Department of Homeland Security, and we look forward to further 
discussions with Congress.

    Mr. Whitfield. Thank you, Mr. Sullivan.
    Mr. Watson, you're recognized for 5 minutes.

                 TESTIMONY OF KENNETH C. WATSON

    Mr. Watson. Thank you, Mr. Chairman and distinguished 
committee members. I'm honored to testify before you today for 
PCIS in support of the President's proposal for a Homeland 
Security Department. A single Department with a clear line of 
authority would not only consolidate efforts currently spread 
over a hundred organizations but also provide needed national 
emphasis to improve our preparedness.
    Because networks are now integral to core business and 
government practices, security has become the top or next-to-
top requirement for CEOs and corporate boards. Both the cyber 
and physical aspects of security must be integrated into core 
networking practices and environments, especially now that we 
read in the Washington Post that al Qaeda is exploring the 
Internet as a means for attack, mapping our vulnerabilities in 
cyberspace and had detailed information on digital control 
systems on a laptop recovered in Afghanistan.
    Four years prior to the attacks of 9/11, the President's 
Commission on Critical Information Protection identified eight 
infrastructure sections critical to national and economic 
security and the health and safety of American citizens. 
Because there are no boundaries in cyberspace and because the 
vast majority of the Nation's critical infrastructures are 
privately owned and operated, the Commission recommended an 
unprecedented partnership between private industry and 
government. The PCIS was launched in December, 1999, in the 
World Trade Center to fulfill that need. The private sector 
portion of the PCIS was incorporated as a 501(c)6 nonprofit 
organization in January, 2001.
    We have eight member companies, representing all the 
critical infrastructure sectors. In the cyber dimension, 
private sector infrastructure companies represent the front 
lines of defense against attacks that take an average of 1\1/2\ 
minutes to traverse multiple jurisdictions and countries at the 
speed of light and cost the anonymous attacker no more than a 
personal computer and downloaded free software.
    The mission of PCIS is to coordinate cross-sector 
initiatives and complement public-private efforts to promote 
and assure reliable provision of critical infrastructure 
services in the face of emerging risks to economic and national 
security. This involves more than either physical or cyber 
security alone, and it spans actions from prevention, planning 
and preparation to business continuity recovery and 
reconstitution.
    Our top six initiatives this year are to coordinate the 
private input at the National Strategy for Critical 
Infrastructure Assurance; to serve as a clearinghouse for 
security efforts to the public; to publish an Effective 
Practices compendium in collaboration with CIAO; to provide 
critical infrastructure awareness materials and references on 
our website; to develop a risk assessment guidebook for use by 
any region or sector; and facilitate cross-sector information 
exchange.
    As a public service to promote awareness of the need to 
secure home and small business computers, another public-
private partnership was incorporated as a 501(c)3 within PCIS 
earlier this year. The website www.staysafeonline.info, has 
experienced over 5 million page views since February, and we 
believe this campaign is helping to lower the risk that 
America's growing broadband user base could be used to stage 
attacks against our infrastructures.
    I'd like to concentrate the remainder of my remarks on two 
key areas we believe still need work: First, additional 
emphasis on critical infrastructure assurance activities and, 
second, the removal of barriers to help with private 
information sharing.
    Critical infrastructure services are interlinked and 85 
percent of them are owned and operated by the private sector. 
The line between physical and cyber assets is becoming even 
more blurred by the widespread use of digital control systems; 
as Sam Barco said, electronically controlled devices that 
report on kilowatt hours transmitted, gallons per hour, cubic 
feet of natural gas, traffic on smart roadways and can actually 
control physical assets like floodgates, oil, gas and water 
valves and flood controllers, ATM machines and the list keeps 
growing.
    After over 20 years as a marine officer, it is second 
nature for me to relate everything I do to mission. Title II of 
the Homeland Security Act establishes an Under Secretary for 
Information Analysis and Infrastructure Protection. We believe 
that these are two all-encompassing functional areas. The 
information and analysis and warning function alone will be a 
full-time job. The job of critical infrastructure assurance is 
too vital to American commerce to be subsumed by the 
intelligence gathering reporting mission.
    However, similar to a corporate chief executive officer, 
the Secretary should have the latitude to organize the 
department to meet both the information analysis and warning 
requirements and those needed to protect America's critical 
infrastructures.
    Information sharing is the key to solving problems 
together. Both the private sector and the government agree that 
the exchange of timely and e-cyber vulnerability and 
countermeasure information will greatly benefit the cause of 
protecting our critical infrastructures, and the private sector 
wants to share this kind of information with the government.
    Most critical infrastructures have established information-
sharing analysis centers to share information on cyber threats, 
vulnerabilities, countermeasures, best practices and other 
solutions. Some of these are strictly in the private sector, 
while others include public and private participation. Some 
have been sharing critical information for a number of years 
and ISAC-type information to other normal reporting information 
or exchange vulnerabilities established. As ISACs mature, their 
effectiveness in sharing countermeasures within their 
industries dramatically improve in both quality and timeliness.
    However, even with all of the efforts toward public-private 
information exchange, only rarely is the private sector sharing 
most sensitive cyber vulnerability information with the 
government. The main reason for this is that companies do not 
believe Federal agencies can protect the information from 
Freedom of Information Act requests.
    Critical infrastructure threat and vulnerability 
information voluntarily shared with the government should be 
given similar protection as government classified information. 
The PCIS supports a narrowly written exemption for 
infrastructure threat and vulnerability information shared with 
the government.
    The other side of----
    Mr. Whitfield. Mr. Watson, if you'll excuse me, you're over 
about a minute. So if you could move ahead and summarize, we'd 
appreciate it.
    Mr. Watson. There's still much opportunity to work together 
to remove redundancy and improve communication and clarify 
roles. On behalf of the PCIS and our 80 member companies, I 
would like to thank you for your time today. I'll be glad to 
answer any questions you may have.
    [The prepared statement of Kenneth C. Watson follows:]
  Prepared Statement of Kenneth C. Watson, President, Partnership for 
                    Critical Infrastructure Security
                              introduction
    Chairman Greenwood and distinguished Committee Members, I am 
honored to testify before you today in support of the President's 
proposal for a Homeland Security Department. A single Department with a 
clear line of authority would not only consolidate efforts currently 
spread across over 100 Federal organizations, but also would provide 
needed national emphasis to improve our preparedness.
    Internet-based technologies are driving unprecedented productivity 
increases and dependencies. As you know, the US government reported 
that productivity in this country rose 8.4 percent in the first quarter 
this year, even with the sluggish market.<SUP>1</SUP> This is 
unprecedented. In the past, productivity has been in the 1.5- to 2-
percent range during down market conditions. Emerging high-growth 
``tornado'' markets such as IP telephony, storage networking, wireless, 
optical, virtual private networking, and cable integration of voice, 
video, and data are sweeping business sectors worldwide, bringing about 
both evolutionary and revolutionary changes in the way businesses and 
governments do business. These changes--increasing bandwidth, exploding 
connectedness, integration of all types of applications into multi-
purpose devices, distribution of both processes and storage, and 
erosion of physical boundaries--bring old and new vulnerabilities with 
them. Because networks are now integral to core business and government 
practices, security has become the top or next-to-top requirement of 
CEOs and Boards. Both the cyber and physical aspects of security must 
be integrated into core networking practices and environments, 
especially now that we read in the Washington Post that al-Qaeda is 
exploring the Internet as a means for attack, mapping our 
vulnerabilities in cyberspace, and had detailed information on digital 
control systems on a laptop recovered in Afghanistan.<SUP>2</SUP>
---------------------------------------------------------------------------
    \1\ US Bureau of Labor Statistics, ``Productivity and Costs, First 
Quarter 2002, Revised,'' USDL 02-318, May 31, 2002.
    \2\ Barton Gellman, ``Cyber-Attacks by Al Qaeda Feared: Terrorists 
at Threshold of Using Internet as Tool of Bloodshed, Experts Say,'' 
Washington Post, Thursday, June 27, 2002; Page A01
---------------------------------------------------------------------------
    Four years prior to the attacks of 9-11, the President's Commission 
on Critical Infrastructure Protection (PCCIP) identified eight 
infrastructure sectors as critical to national and economic security 
and the health and safety of American citizens. Securing the nation's 
critical infrastructures goes well beyond the government's traditional 
role of physical protection through defense of national airspace and 
national borders. Because there are no boundaries in cyberspace, and 
because the vast majority of the nation's critical infrastructures are 
privately owned and operated, the commission recommended an 
unprecedented partnership between private industry and government. The 
Partnership for Critical Infrastructure Security (PCIS) was launched in 
December 1999 in the World Trade Center to fill this need. The private-
sector portion of the PCIS was incorporated as a 501(c)6 non-profit 
organization in January 2001, and I was elected its first President and 
Chairman of the Board in March of that year.
    The PCIS Board and I fully support the President's plan and look 
forward to working with the Administration and the Congress to further 
cement the public-private relationships we have forged to assure the 
delivery of critical services to our citizens and customers. In the 
cyber dimension, private-sector infrastructure companies represent the 
front lines of defense against attacks that take an average of one and 
one-half minutes, traverse multiple jurisdictions and countries at the 
speed of light, and cost the anonymous attacker no more than a personal 
computer and downloaded free software.
            partnership for critical infrastructure security
    The mission of the PCIS is to coordinate cross-sector initiatives 
and complement public-private efforts to promote and assure reliable 
provision of critical infrastructure services in the face of emerging 
risks to economic and national security. This involves more than either 
physical or cyber security alone, and it spans actions from prevention, 
planning, and preparation to business continuity, recovery, and 
reconstitution.
    Presidential Decision Directive 63 followed the PCCIP 
recommendations by establishing Sector Liaison officials in the 
pertinent Federal Lead Agencies involved in critical infrastructure 
assurance, to work with Sector Coordinators who were industry leaders 
in the private sector in each of the critical sectors. We structured 
the PCIS Board so that those Sector Coordinators always represent a 
majority of Directors to ensure that the PCIS continues to meet the 
needs of all the infrastructure sectors. The PCIS currently has over 80 
corporate members from all the critical infrastructure sectors, plus ad 
hoc representation from all pertinent Federal lead agencies and the 
National Association of State Chief Information Officers.
    To illustrate the level of support in industry for the PCIS, the 
Board members are either presidents or chief operations or information 
security officer equivalents in their organizations: Presidents: 
Airports Council International--North America; Association of American 
Railroads; Association of Metropolitan Water Agencies; Information 
Technology Association of America; North American Electric Reliability 
Council; and The Institute of Internal Auditors. COO/CISO or 
Equivalent: Bank of America; BellSouth; Cellular Telecommunications & 
Internet Association; Conoco; Consolidated Edison of New York; 
Microsoft; Morgan Stanley; Union Pacific Corporation; US 
Telecommunications Association; and Telecommunications Industry 
Association.
    Lead agencies, coordinated by the Critical Infrastructure Assurance 
Office (CIAO) of the Department of Commerce, fully participate in PCIS 
working groups and its public-private coordinating committee. Our 
current ``top six'' initiatives are:

<bullet> Coordinate private-sector input to the National Strategy for 
        Critical Infrastructure Assurance, especially those areas of 
        cross-sector interest and dependency;
<bullet> Serve as a clearinghouse for digital control systems security 
        efforts, including research and development, exercises and 
        tests, and awareness;
<bullet> Publish an ``Effective Practices'' compendium, in 
        collaboration with the CIAO, starting with lessons learned 
        during the recovery from the 9-11 attacks;
<bullet> Provide critical infrastructure assurance awareness materials 
        and references for all PCIS members and the public;
<bullet> Develop a risk assessment guidebook for use by any region or 
        sector, concentrating on cross-sector dependencies; and
<bullet> Facilitate cross-sector information exchange, augmenting 
        efforts by the industry Information Sharing and Analysis 
        Centers (ISACs) and government cyber warning and information 
        organizations.
    As a public service to promote awareness of the need to take steps 
to secure home and small business computers, another public-private 
partnership, the National Cyber Security Alliance, was incorporated as 
a 501(c)3 educational foundation within the PCIS earlier this year. The 
web site, www.staysafeonline.info, has experienced over 5 million page 
views since February, and we believe this campaign is helping to lower 
the risk that America's growing broadband user base could be used to 
stage denial of service attacks against our infrastructures.
                        the president's proposal
    After reviewing the President's proposal, we believe it provides a 
clearer and more efficient organizational structure to accomplish 
homeland security missions than currently exists in the Federal 
government. Consolidating information analysis and warning; chemical, 
biological, nuclear, and radiological countermeasures; emergency 
preparedness and response; border and transportation security; and 
critical infrastructure assurance is a much-needed, logical response to 
the continuing threats of terror against the United States.
    Additionally, Section 732 shows foresight in taking advantage of 
current business practices such as ``other transactions'' for research 
and development and prototyping, creation of employer-employee 
relationships for contracting, authorization to invoke 40 U.S.C. 474, 
and flexible acquisition and disposition of property. These practices 
should encourage innovation, rapid procurement, advanced research, and 
beneficial contracting relationships with industry, but will require 
discipline and oversight.
    I'd like to concentrate the remainder of my remarks on two key 
areas we believe still need work: first, additional emphasis on 
critical infrastructure assurance activities; and second, the removal 
of barriers to public-private information sharing.
    After over 20 years as a Marine officer, it is second nature for me 
to relate everything I do to mission. In business as well as in 
government, those organizations that structure themselves and order 
their actions around their missions are the most successful. The 
mission of critical infrastructure assurance is imbedded within the 
overall mission of Homeland Security, but needs additional 
organizational emphasis.
    As critical infrastructure assurance has matured over the last five 
years, those of us intimately involved recognize its strong suits: 
public-private partnership, interdependency, and the recognition that 
physical business operations of our critical infrastructures depend on 
information systems and networks, far more so than in any other country 
in the world.
    The PCIS defined critical infrastructure assurance two years ago 
as: ``efforts to promote and assure reliable provision of critical 
infrastructure services in the face of emerging risks to economic and 
national security.''
    Economic and national security are important to assuring our 
critical infrastructures, but the essence of the mission is assuring 
the delivery of services over the infrastructures. Those services are 
what our citizens and customers expect and need, especially in time of 
crisis, and they include accurate and uninterrupted financial 
transactions, on-time and safe transportation, reliable electric power, 
available and dependable information and communications, safe and clean 
drinking water, safe and available oil and natural gas, and timely 
emergency services. All these services are interlinked in the Internet 
Economy; they depend more and more on networks to carry out basic 
business; and 85 percent of them are owned and operated by the private 
sector. The line between physical and cyber assets is becoming even 
more blurred by the widespread use of digital control systems--
electronically controlled devices that report on kilowatt hours 
transmitted, gallons per hour of oil and water, cubic feet of natural 
gas, traffic on ``smart roadways,'' and can actually control physical 
assets like flood gates; oil, gas, and water valves and flow 
controllers; ATM machines; and the list keeps growing.
    Industry defines critical infrastructure assurance to include both 
physical and cyber assets, but by ``physical'' we mean those assets 
essential to the delivery of each infrastructure's critical services. 
Cyber security also includes physical threats to critical 
infrastructures such as intentional or unintentional interruptions of 
the high-technology support to the infrastructures, like a backhoe 
cutting a key fiber-optic line.
      an effective critical infrastructure assurance organization
    Title II of the Homeland Security Act establishes an Under 
Secretary for Information Analysis and Infrastructure Protection. We 
believe these are two all-encompassing functional areas. The 
information analysis and warning function alone will be a full-time 
job, especially considering the monumental task of merging the 100-plus 
intelligence and law enforcement databases in order to effectively 
administer national threat correlation and support the Homeland 
Security Advisory System. The job of critical infrastructure assurance 
is too vital to American commerce to be subsumed by the intelligence 
gathering and reporting mission. Similar to a corporate Chief Executive 
Officer, the Secretary should have the flexibility to organize the 
Department to meet the requirements needed to protect America's 
critical infrastructures.
    The mission of Critical Infrastructure Assurance includes:

<bullet> Coordinating vulnerability assessments of key resources and 
        critical infrastructures;
<bullet> Development and maintenance of the National Strategy for 
        Critical Infrastructure Assurance;
<bullet> Facilitating true partnerships with private industry and state 
        and local government to address critical infrastructure issues;
<bullet> Taking or influencing measures necessary for securing key 
        resources and critical infrastructures;
<bullet> Facilitating and defining requirements for cutting-edge 
        research and development to enhance long-term critical 
        infrastructure assurance;
<bullet> Facilitating cross-sector and public-private sharing of 
        critical infrastructure threat, vulnerability, and 
        countermeasure information;
<bullet> Promoting awareness and education at all levels of critical 
        infrastructure assurance issues, including public and private 
        roles and responsibilities; and
<bullet> Coordinating with other executive agencies, state and local 
        governments, and the private sector regarding critical 
        infrastructure assurance.
              coordination with non-federal organizations
    Section 701 of the proposal requires the Secretary of Homeland 
Security to coordinate with state and local officials and the private 
sector in carrying out the mission of the Department of Homeland 
Security. Since most of the critical infrastructures are owned and 
operated by the private sector, coordination with the private sector 
has become an established norm, led by the efforts of the Critical 
Infrastructure Assurance Office (CIAO). The CIAO has developed working, 
productive relationships with the infrastructure leaders, the audit and 
other risk management industries, and now the National Governors' 
Association and the National Association of State CIOs. It also has 
facilitated the development of the PCIS and the various industry 
Information Sharing and Analysis Centers (ISACs). The various Under 
Secretaries should be given responsibility for coordinating with state 
and local governments and the private sector in their respective areas 
of responsibility, although it is understood and useful for the office 
of the Secretary of Homeland Security to coordinate activities across 
the entire Department.
                 removing information sharing barriers
    Information sharing is key to solving problems together. The best 
leaders know that the more their people know about the problems they're 
trying to solve, the better they will be able to use their intellect, 
creativity, and drive to solve them most effectively. Most critical 
infrastructure sectors have established Information Sharing and 
Analysis Centers (ISACs) to share information on cyber threats, 
vulnerabilities, countermeasures, best practices, and other solutions. 
Some of these are strictly in the private sector, while others include 
public and private participation. Some have been sharing critical 
information for a number of years, and some organizations added ISAC-
type information to other normal reporting or information exchange 
responsibilities previously established. As ISACs mature, their 
effectiveness in sharing both warnings and countermeasures within their 
industries is dramatically improving, in both quality and timeliness. 
They are developing a depth of knowledge that enables analysis and 
trending, beneficial to their industries and member companies. To date, 
these include: Financial Services ISAC, Telecom ISAC, Information 
Technology ISAC, Energy ISAC (oil and gas), Electric Power ISAC, 
Emergency Law Enforcement Services, and Surface Transportation ISAC.
    The water, food safety, chemical and manufacturing, aviation, and 
firefighting sectors are in the process of establishing ISACs.
    Several government organizations have cyber information sharing 
missions: FedCIRC (GSA), DoDCERT (DoD), NSIRC (IC), and NIPC (FBI).
    The ISACs are developing an Inter-ISAC Information Exchange 
Memorandum of Understanding, and some ISACs have signed MOUs with the 
NIPC. PCIS is facilitating cross-sector information exchange by 
developing a common taxonomy and co-hosting multi-ISAC and public-
private action meetings in conjunction with the President's Office of 
Cybersecurity. Both the private sector and the government agree that 
the exchange of timely cyber vulnerability and countermeasure 
information would greatly benefit the cause of protecting our critical 
infrastructures, and the private sector wants to share this kind of 
information with the government.
    However, even with all the efforts toward public-private 
information exchange, only rarely is the private sector sharing its 
most sensitive cyber vulnerability information with the government. The 
main reason for this is that companies do not believe Federal agencies 
can protect the information from Freedom of Information Act (FOIA) 
requests. Under the current law, companies have no assurance that 
information they share with a government agency will be treated 
confidentially, and agencies are not required to commit to 
confidentiality at the time of disclosure. Agencies are not even 
required to initiate the FOIA exemption process until a FOIA request is 
received. When it is received, the agency is asked to defend the 
information's confidentiality, and is not required to inform the 
originator if it believes it has enough information to proceed.
    Critical infrastructure threat and vulnerability information 
voluntarily shared with the government should be given the same 
protections as government classified information. The PCIS supports 
very narrowly written exemptions for infrastructure threat and 
vulnerability information shared with the government.
    Detractors claim that these new exemptions would provide walls 
behind which companies could hide environmental accidents and hazards, 
or that companies would use them to violate citizens' or employee 
privacy. Neither claim is true. Industry wants the exemption language 
written narrowly so as to cover only infrastructure threat and 
vulnerability information, and welcomes specific exclusions covering 
spills or other environmental accidents. Industry wants to share 
critical information with the government in a trusted working 
environment. Let's remove the exemption ambiguity in the current law 
and start sharing information with each other so that we can deter a 
digital 9-11 before it happens.
    The other side of the information-sharing coin is information from 
the government to the private sector. This process also needs work. 
Industry is generally dissatisfied with the quality and timeliness of 
cyber security information flowing from the government. One example 
will serve to illustrate the problem. The Klez.H worm began 
proliferating on April 17 this year. The IT-ISAC issued an advisory on 
that day, and the Computer Emergency Response Center Coordination 
Center at Carnegie Mellon University posted its alert on April 19. The 
NIPC advisory was not issued until April 29, 12 days later, and there 
was no new information in that alert. This does not mean that the NIPC 
isn't doing everything it can to release information. On the contrary, 
they participate in daily conference calls with at least two ISACs, and 
strive to overcome their intelligence classification and law 
enforcement sensitivity problems that are not present in the private 
sector. Delays in NIPC reporting may be due to protecting intelligence 
sources and methods, or because they decide not to repeat information 
already disclosed by the private sector or CERT/CC. Removing the FOIA 
barrier to information exchange will open up the private sector as an 
unclassified source of valuable information for NIPC and others working 
hard to protect the country.
    Regarding intelligence and law enforcement agencies, the proposal 
does not clarify jurisdiction issues between CIA, FBI, Secret Service, 
and other organizations that could be involved in cyber investigations. 
Private industry appreciates choice in its service suppliers. However, 
many companies do not know under what circumstances nor whom to call 
when they suspect cybercrime in their networks. Industry needs clear 
information about the various agencies regarding their programs, 
jurisdictions, competencies, and points of contact.
                               conclusion
    The PCIS and I think the proposed Homeland Security Department is 
vital to providing needed focus to the area of Critical Infrastructure 
Assurance for America. There is still much opportunity, as we move 
forward together, to remove redundancy, improve communication, and 
clarify roles--organizing to support commerce is vital to our economic 
and national security. It is vitally important to make progress in 
developing processes and providing legislative support to facilitate 
sharing of security information and alerts between government and the 
private sector. It is also important to improve information sharing 
from the government to industry, and to clarify jurisdiction among the 
myriad intelligence and law enforcement agencies involved in cyber 
security and cyber investigations. Finally, I encourage you to leverage 
existing expertise in the National Security Telecommunications Advisory 
Committee, the ISACs, and the PCIS as you shape this new, much-needed 
Department. However the government organizes itself, we in the private 
sector stand ready to assist any way we can.
    On behalf of the PCIS and our 80 member companies, I would like to 
thank you for your time today. I'll be glad to answer any questions you 
may have.

    Mr. Whitfield. Mr. Watson, thank you very much, and Mr. 
Baumann, you're recognized for 5 minutes.

                TESTIMONY OF JEREMIAH D. BAUMANN

    Mr. Baumann. Thank you, Mr. Chairman, and members of the 
committee, for the opportunity to testify before you today on 
the important issue of the proposed Department of Homeland 
Security. The U.S. Public Interest Research Group is the 
Federal advocacy office for the State Public Interest Research 
Groups, or State PIRGs, a network of advocacy organizations 
with a 30-year record of working to protect public health and 
safety and work with good government reforms.
    My testimony will focus primarily on the issue of chemical 
security, what needs to be done about this critical gap in 
security improvements to date, and ways the Department of 
Homeland Security as currently proposed could become an 
obstacle rather than an asset in addressing this important 
issue, specifically through its unclear designation of 
authority addressing safety of particular industry sectors, its 
lack of focus on protecting safety by reducing hazards and 
vulnerabilities, and through its preference for secrecy rather 
than safety.
    While my testimony focuses on chemical plants, I think many 
of these themes apply across industry sectors that face 
significant vulnerabilities. Let me first talk about the need 
for a Federal chemical security program.
    Across America thousands of industrial facilities are using 
and storing hazardous chemicals in quantities that put large 
numbers of Americans at risk. The best summary of this risk is 
that at almost 125 facilities, each of them put at least a 
million people at risk in the event of a chemical release.
    Unfortunately, security at these facilities ranges from 
poor to nonexistent. A series in a Pittsburg Tribune Review 6 
months after September 11 reported that an intruder could 
freely enter and walk through more than 60 chemical facilities 
not only in Pennsylvania but in Houston, Chicago and Baltimore 
as well.
    The Army Surgeon General has identified this threat as 
second only to that of bioterrorism. However, unlike 
bioterrorism, virtually nothing has been done to address this 
issue since September 11.
    A Federal chemical security program requires three basic 
components, a vulnerability assessment, a hazard reduction plan 
and increases in site security where significant threats 
remain. At chemical plants the need for a focus beyond mere 
assessment and even beyond traditional security is necessary, 
because fortunately there are well-established measures for 
reducing hazards at facilities using safer materials and 
processes that could eliminate these terrorist targets in 
communities.
    The bill as currently proposed not only does not establish 
any chemical security program, but could in some ways confuse 
or delay progress on the issue of chemical security. First, the 
bill does not clearly define what the new department's 
authorities regarding critical infrastructure should be 
generally, and chemical plant security specifically is left 
completely unclear.
    The committee should clarify two critical points regarding 
the new department's authority. First, the role for the 
Department of Homeland Security is one of coordinating security 
programs and advising agencies whose functions are not being 
transferred to the new department, not that their authority is 
either being reestablished in a new department or being 
transferred to the new department. This is particularly 
important for an agency like EPA where chemical plants have a 
much broader risk than just a security risk.
    There's also a significant chemical accident risk. Accident 
prevention as well as security could be undermined by removing 
the authority from this long history of expertise and 
experience in addressing this threat.
    The committee should also clarify that the creation of the 
new department does not delay, hinder or otherwise affect the 
ability of other regulatory agencies to exercise their 
authority, particularly regarding security and safety threats. 
EPA has already been pressured not to move forward with any 
chemical security program until the creation of a new 
department has been addressed. Such a delay would be 
irresponsible and potentially dangerous.
    The critical infrastructure and research and development 
sections of the bill as proposed have another potential 
problem, which is they focus almost entirely on securing 
infrastructure, with little attention to making infrastructure 
safer in order to protect public health and safety.
    Congress should ensure that the new department prioritizes 
reducing hazards and reducing vulnerabilities, not simply 
assessing them and not relying only on the traditional security 
strategies and perimeter security access control, surveillance 
and related measures.
    As discussed above, public health and safety can best be 
secured against a deliberate chemical release by reducing the 
hazard itself and eliminating the chance that any chemical 
release could harm the surrounding community.
    Congress should direct the new department to establish 
public health and safety as a priority and reducing hazards and 
vulnerabilities as a priority strategy and working with 
existing agencies to make sure that happens.
    Finally, I'll address what is perhaps the proposed bill's 
most threatening measure when it comes to protecting public 
health and safety, which is the surprisingly broad loophole 
proposed in the Freedom of Information Act. The public's right 
to know about public health and safety and the ensuing public 
accountability are safety tools that have a long record of 
protecting public safety, and the new Department of Homeland 
Security should treat information as such rather than 
undermining current protections.
    Restricting the public's right to know about hazards in 
communities and industry or government actions to remedy those 
hazards could hurt safety rather than help it. This information 
in a lot of cases has been shown to help enable the public 
communities, local emergency responders and other important 
constituencies to understand, prepare for and respond to not 
only accidents but potential terrorist attacks. It's also one 
of the most effective incentives for public safety 
improvements. Public disclosure has a long record of reducing 
risk.
    I'll wrap up briefly by just pointing out that the proposed 
bill goes against the tradition of the Freedom of Information 
Act. FOIA typically requires a concrete reason in the public 
interest to withhold specific documents and a specific 
definition of what documents need to be withheld in order to 
protect public safety. The proposed bill doesn't even define 
what documents could be exempt, explain why they wouldn't be 
covered by current FOIA exemptions, much less explain why they 
need to be exempt. The requirements are so vague that in theory 
some currently mandated public information could be removed 
from public view, because there are no definitions of voluntary 
information or exactly what critical infrastructure 
vulnerabilities could be included.
    In concluding, I would recommend that Congress only create 
FOIA exemptions for specific information and types of 
information being required in the private sector by the 
government, and since this bill does not do that, I would 
recommend that the FOIA exemption be removed from this bill and 
considered separate.
    [The prepared statement of Jeremiah D. Baumann follows:]
    Prepared Statement of Jeremiah D. Baumann, Environmental Health 
                                Advocate
    Thank you, Mr. Chairman and members of the Committee on Energy and 
Commerce, for the opportunity to testify before you today on the 
proposed Department of Homeland Security. My name is Jeremiah Baumann 
and I am the Environmental Health Advocate for the U.S. Public Interest 
Research Group (PIRG). U.S. PIRG is the federal advocacy office of the 
state PIRGs, a network of state-based public interest advocacy 
organizations with a 30-year history of advocacy for environmental and 
public health protection, consumer protection, good-government reforms, 
and other public interest issues.
    My testimony will focus on the issue of chemical security, what 
needs to be done about this critical gap in security improvements to 
date, and ways that the Department of Homeland Security--as proposed--
could become an obstacle rather than an asset in addressing this issue. 
In advance, however, I would like to make a few general observations 
that I think pervade the proposed bill creating a Department of 
Homeland Security beyond the realm of chemical security:

<bullet> The proposed bill, and particularly the sections addressing 
    critical infrastructure, and chemical, biological, radiological, 
    and nuclear countermeasures, lacks a focus on protecting public 
    health and safety. Instead, the focus is on securing infrastructure 
    and protecting assets. While these are often closely related to 
    public health and safety, they need to be put in this context, and 
    the new Department of Homeland Security needs a mandate from 
    Congress to make public health and safety its priority.
<bullet> The proposed bill tends to focus on securing existing 
    infrastructure when the first priority should be making 
    infrastructure safer. Some attributes of critical infrastructures 
    are inherently hazardous, but could be made inherently safer. 
    Making our infrastructure safer will require changes to the 
    infrastructure and investment in the near term. However, making 
    infrastructure safer will be less expensive in the long term 
    because the up-front investment will reduce or eliminate the 
    significant costs of making inherently dangerous facilities and 
    operations more secure, and of preparing for or responding to 
    attacks on infrastructure.
<bullet> The proposed bill indicates a dangerous preference for 
    secrecy. This could undermine basic mechanisms of public 
    accountability, the public's right to know about threats to health 
    and safety, and is likely to hinder, rather than help, safety.
    Examining the threats posed by the use and storage of highly 
hazardous chemicals in facilities through out nation's industrial 
infrastructure demonstrates why these three concepts are important. 
Protecting against terrorist attacks on a chemical-using industrial 
site requires a focus on protecting public health and safety using the 
most effective strategies, not just securing industrial facilities and 
protecting their assets. Furthermore, simply securing facilities as 
they are, without making them inherently safer, will not protect public 
health and safety from terrorist-related chemical incidents. Finally, 
new secrecy measures will be an obstacle to protecting public health 
and safety from chemical incidents, a category of hazard where a long 
record of public safety improvements has demonstrated the value of 
openness and of the public's right to know.
      the need for an aggressive federal chemical security program
The Threat of Chemical Terrorism
    Across America, thousands of industrial facilities use and store 
hazardous chemicals in quantities that put large numbers of Americans 
at risk of serious injury or death in the event of a chemical release. 
One hundred twenty-five facilities each put at least 1 million people 
at risk; 700 facilities each put at least 100,000 people at risk; and 
3,000 facilities each put at least 10,000 people at risk.<SUP>1</SUP> 
According to a 1998 report by U.S. PIRG, 1 in 6 Americans lives within 
a vulnerable zone--the area in which there could be serious injury or 
death in the event of a chemical accident--created by a nearby 
industrial facility.<SUP>2</SUP>
---------------------------------------------------------------------------
    \1\ James Belke, U.S. Environmental Protection Agency. ``Chemical 
accident risks in U.S. industry--A preliminary analysis of accident 
risk data from U.S. hazardous facilities,'' September 25, 2000.
    \2\ U.S. Public Interest Research Group and National Environmental 
Law Center. Too Close to Home. July 1998.
---------------------------------------------------------------------------
    The threat of terrorism has brought new scrutiny to the potential 
for terrorists to deliberately trigger accidents that until recently 
the chemical industry characterized as unlikely worst-case scenarios. 
Such an act could have even more severe consequences than the tens of 
thousands of chemical accidents that kill 150 Americans and injure 
5,000 every year.<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Mannan, Gentile, and O'Connor. ``Chemical Incident Data Mining 
and Application to Chemical Safety Trend Analysis,'' Mary Kay O'Connor 
Process Safety Center, Texas A&M University, 2001.
---------------------------------------------------------------------------
    Frederick L. Webber, president of the American Chemistry Council, 
has said ``No one needed to convince us that we could be--and indeed 
would be--a target at some future date . . . If they're looking for the 
big bang, obviously you don't have to go far in your imagination to 
think about what the possibilities are.'' <SUP>4</SUP> The Agency for 
Toxic Substances and Disease Registry said in 1999 that chemicals at 
industrial sites provide terrorists with ``. . . effective and readily 
accessible materials to develop improvised explosives, incendiaries and 
poisons.'' <SUP>5</SUP>
---------------------------------------------------------------------------
    \4\ Eric Pianin. ``Toxic Chemicals' Security Worries Officials,'' 
Washington Post, November 12, 2001.
    \5\ Pianin 2001 Ibid.
---------------------------------------------------------------------------
    Unfortunately, that report found security at these facilities 
ranging from poor to nonexistent. More recent investigations since 
September 11th tell the same story. Just months ago, a series in the 
Pittsburgh Tribune-Review reported that an intruder could freely enter 
and walk through more than 60 chemical facilities in Pennsylvania, 
Houston, Chicago, and Baltimore--completely unchallenged.<SUP>6</SUP> A 
recent report by the Department of Justice, made secret for unexplained 
reasons, apparently confirms these findings.
---------------------------------------------------------------------------
    \6\ Carl Prine. ``Lax Security Exposes Lethal Chemical Supplies,'' 
Pittsburgh Tribune-Review, April 7, 2002; and ``Chemicals Pose Risks 
Nationwide,'' Pittsburgh Tribune-Review, May 5, 2002.
---------------------------------------------------------------------------
An Opportunity to make Communities Safe
    Fortunately, there are well-established measures for reducing 
hazards at facilities--and making communities safer. Reducing chemical 
hazards at industrial facilities means making process changes that 
reduce or eliminate the possibility of a chemical release by reducing 
chemical use or switching to safer chemicals and processes. For many 
chemicals and processes, there are readily available and safer 
alternatives. A few examples demonstrate this simple concept:

<bullet> In New Jersey, 553 water treatment facilities have stopped 
    using chlorine gas because of its notorious potential for 
    disastrous chemical releases.<SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ Information provided by R. Baldini, Bureau of Release 
Prevention, New Jersey Department of Environmental Protection, 
September 2001.
---------------------------------------------------------------------------
<bullet> Here in Washington, DC, the city's Blue Plains Sewage 
    Treatment Plant has long recognized that a release of chlorine gas 
    or sulfur dioxide could blanket the downtown area, as well as 
    Anacostia, Reagan National Airport, and Alexandria.<SUP>8</SUP> 
    Over the course of eight weeks after September 11th, authorities 
    quietly removed up to 900 tons of liquid chlorine and sulfur 
    dioxide, moving tanker cars at night under guard. The city switched 
    to a hypochlorite process that dramatically reduces the safety 
    risk, virtually eliminating the chance of any off-site 
    impact.<SUP>9</SUP>
---------------------------------------------------------------------------
    \8\ Radian Corporation. ``Air Dispersion Model Assessment of 
Impacts From a Chlorine Spill at the Blue Plains Wastewater Treatment 
Plant,'' 1982; See also Chlorine Institute, Pamphlet 74, April 1998.
    \9\ Carol D. Leonnig and Spencer S. Hsu. ``Fearing Attack, Blue 
Plains Ceases Toxic Chemical Use,'' Washington Post, November 10, 2001.
---------------------------------------------------------------------------
<bullet> In response to the Pittsburgh Tribune-Review series on the 
    danger of chemical plants' lax security, Bethlehem Steel in 
    Pennsylvania is switching from hazardous sulfur dioxide to safer 
    materials and processes.<SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ Carl Prine. ``Companies Respond to Infiltration of 
Facilities.'' The Pittsburgh Tribune-Review, May 5, 2002.
---------------------------------------------------------------------------
    The threat of terrorism requires looking for ways to make 
industrial facilities inherently safer when it comes to chemical use. 
If terrorists continue to use airplanes or truck bombs, add-on security 
measures such as safety guards and physical barriers cannot prevent a 
chemical release. Similarly, secondary prevention or mitigation 
measures, such as safety valves, would be decidedly inadequate in the 
event of an attack like those seen on September 11th.
    Inherent safety is an opportunity for policymakers to remove a 
terrorist threat in many cases. This is an option that is not available 
for all terrorist risks. Airline passengers have to rely on increased 
security to make flying safer. For American industry, however, many 
chemicals have readily available safer alternatives and many facilities 
could re-design processes to be inherently safer.
Inaction on Chemical Security
    Since September 11th, the Senate has introduced, held hearings, and 
scheduled mark-up on a bill. But at this late date, little else has 
occurred to address chemical security. The administration developed a 
proposal on chemical security, but appears to have backed away from it. 
An EPA presentation in May outlined an aggressive legislative proposal, 
but later reports indicated that the proposal had been scaled back in 
scope and potentially reduced to agency guidance with little 
enforceability. News reports indicate that progress on the proposal 
slowed in response to resistance from the industry and from within the 
administration.
    The Department of Justice has released its ``Sandia methodology,'' 
guidance on assessing site security at chemical facilities. 
Unfortunately, this guidance has been issued with no indication that 
facilities will be required to implement it. Also, the guidance relies 
primarily on site security with only minimal mention of making 
facilities inherently safer. Additionally, the guidance is quite 
complicated and relies on sophisticated judgments on the relative risk 
of different security threats; it is unlikely that the average plant 
manager would have the expertise to implement this plan without 
assistance from security experts.
    The American Chemistry Council touts a voluntary program being 
developed to increase site security at chemical plants. While the 
American Chemistry Council is doing the right thing by beginning to 
address the security risks at their facilities, their program is not 
and cannot be sufficient, for three reasons:

1. The program is voluntary. In the wake of September 11th, airline 
    security, water supply security, and nuclear security have not been 
    allowed to happen on a voluntary basis. It makes no sense to allow 
    thousands of facilities with hazardous chemical stockpiles to 
    increase security on a voluntary basis. Furthermore, other 
    voluntary programs, particularly the industry's ``Responsible 
    Care'' program, to which the new security code is closely linked, 
    have too often been heavy on public relations and promotional 
    campaigns and light on substantive safety improvements. A 1998 
    survey of American Chemistry Council members showed that, despite 
    their on-paper commitment to the right-to-know principles of the 
    ``Responsible Care'' program, citizens could not get basic 
    information about toxic chemical use and accidents at 75% of the 
    facilities.<SUP>11</SUP>
---------------------------------------------------------------------------
    \11\ U.S. PIRG Education Fund. Trust Us, Don't Track Us. January 
1998.
---------------------------------------------------------------------------
2. The program applies only to American Chemistry Council members, 
    which comprise 11% of the 15,000 industrial facilities that store 
    and use high enough quantities of hazardous materials to be subject 
    to EPA's chemical accident prevention program. With nearly 125 
    facilities in the country each putting 1 million Americans at risk, 
    increasing security at 10% of them is not enough.
3. The program focuses primarily on increasing site security and only 
    peripherally mentions reducing hazards. Reducing the hazards 
    themselves--potentially eliminating terrorist targets--must be at 
    the core of any program to make communities safer from a terrorist 
    attack on a chemical plant.
A Federal Chemical Security Program
    The threat of chemical use and storage at thousands of industrial 
facilities deserves the same attention to security as water treatment 
facilities and nuclear plants. Three basic components are required: a 
vulnerability assessment, a hazard reduction plan, and increases in 
site security where significant threats of off-site consequences 
remain.
    The vulnerability assessment can follow methodologies laid out for 
other industry sectors and by various federal agencies and industry 
experts on a voluntary basis to date, with one critical difference: 
accountability. EPA's proposals have not included a requirement that 
vulnerability assessments be submitted to the federal government. This 
basic accountability is critical to government's ability to increase 
safety and protect against terrorist risks. Without the basic 
requirement that facilities submit their vulnerability assessments (and 
plans for reducing hazards and increasing site security) to the 
government, a federal program would be hardly an improvement over a 
voluntary program.
    Requiring facilities to submit hazard reduction plans must be the 
heart of a federal chemical security program. Reducing hazards means 
reducing or eliminating terrorist targets in communities nationwide--
the most effective protection possible. A program can take two 
approaches:

1. Mandate specific process changes to reduce the inherent dangers at 
    industrial plants. A federal security program could identify 
    technologies or materials that are highly hazardous and have 
    available alternatives and require that any facility using those 
    technologies or materials adopt the alternative. Examples include 
    chlorine used at wastewater treatment facilities and hydrogen 
    fluoride used at many oil refineries.
2. Require facilities to look for inherently safer technologies and 
    implement available alternatives. This approach allows more 
    flexibility to accommodate the significant differences between 
    plants. For this planning-based model to work, facilities must be 
    required to report to the government specifically what safer 
    alternatives were identified, which alternatives they plan to 
    implement and on what timeline, and the reasons for rejecting any 
    safer alternatives that were identified. The reasons permitted 
    should be strictly limited.
    A federal chemical security program should be led by EPA. The 
agency has the expertise and history with chemical plant safety, as 
well as, appropriately, the regulatory authority. The new Department of 
Homeland Security should play an advisory or coordinating role, 
particularly on the site security components. Additionally, research-
and-development funding could be directed toward identifying and 
promoting inherently safer technologies. It is critical that the new 
Department help improve chemical safety and security, but it is equally 
critical that the development of the new Department not stand in the 
way of swiftly establishing a federal chemical security program.
    As noted above, EPA's attempts to establish a chemical security 
program have met obstacles in recent weeks. Congress should mandate a 
chemical security program to ensure that the program moves forward 
without delay. The Chemical Security Act, S. 1602, introduced in the 
Senate, provides a good model. That legislation should be passed by 
Congress, either as an amendment to the Homeland Security bill, or 
separately on a similar or shorter timeline.
              the proposed department of homeland security
    The bill, as currently proposed, does not establish any chemical 
security program and moreover could confuse or delay progress on 
chemical security. It could do so because of its lack of clarity on the 
Department's role in chemical plant security and because of its lack of 
clear vision for how to address chemical security. Additionally, the 
proposed bill could undermine existing chemical safety programs by 
creating a sweeping exemption from the Freedom of Information Act that 
could reduce government and industry accountability and limit public 
access to information that could prove critical to protecting 
communities.
Ambiguous Authority and Responsibility
    The bill does not clearly define what the new Department's 
authorities regarding critical infrastructure generally, and chemical 
plant security specifically, would be. Section 201 provides the Under 
Secretary for Information Analysis and Infrastructure Protection with 
``primary responsibilities'' including:
<bullet> ``comprehensively assessing the vulnerabilities'' (paragraph 
    (2)) and ``developing a comprehensive national plan for securing'' 
    (paragraph (4)) ``the key resources and critical infrastructure'' 
    (paragraphs (2) and (4));
<bullet> ``integrating relevant information--to identify protective 
    priorities and support protective measures by the Department, by 
    other executive agencies--and by other entities'' (paragraph (3));
<bullet> ``taking or seeking to effect necessary measures to protect 
    the key resources and critical infrastructures . . . in 
    coordination with other executive agencies and . . . other 
    entities'' (paragraph (5)).
    Section 301 provides the Under Secretary for Chemical, Biological, 
Radiological, and Nuclear Countermeasures with ``primary 
responsibilities'' including:Q02
<bullet> ``securing the people, infrastructures, property, resources, 
    and systems'' from acts of terrorism involving ``chemical, 
    biological, radiological, or nuclear weapons or other emerging 
    threats'' (paragraph (1));
<bullet> ``conducting a national scientific research and development 
    program'' including efforts to ``identify, devise, and implement 
    scientific, technological, and other countermeasures'' to the same 
    threats (paragraph (2)); and
<bullet> ``establishing priorities for, directing, funding, and 
    conducting national research, development, and procurement of 
    technology and systems . . . for detecting, preventing, protecting 
    against, and responding to terrorist attacks that involve 
    [chemical, biological, radiological, nuclear, and related] weapons 
    and material'' (paragraph (3) and (3)(B)).
    These sections, examined together, create confusion and 
contradictions about where various authorities and responsibilities 
lie:
    1. There are internal contradictions and confusion. What is the 
difference (or relationship) between the responsibility of the Under 
Secretary for Information Analysis and Infrastructure Protection for 
``taking or seeking to effect measures necessary to protect'' critical 
infrastructure and the responsibility of the Under Secretary for 
Chemical, Biological, Radiological, and Nuclear Countermeasures for 
``securing'' the people and infrastructures? Similarly, what is the 
difference (or relationship) between the former and latter Under 
Secretaries' responsibilities for identifying and establishing 
priorities?
    2. It is unclear how these new Under Secretaries' ``primary 
responsibilities'' relate to those of other agencies whose functions 
are not transferred to the new Department. In some cases the new 
Department's responsibility seems to include ``securing'' people and 
infrastructure, but in other cases ``taking or seeking to effect'' 
measures ``in coordination'' with other executive agencies.
Clarifying Authority, Assuring Effective Security
    Congress should clarify that the role for the Department of 
Homeland Security is one of coordinating security programs and advising 
agencies whose functions are not transferred to the new Department, but 
that new authority in these cases is not being transferred or otherwise 
given to the new Department. EPA has the expertise and experience to 
address chemical safety and security. Moreover, EPA has the authority 
to address chemical safety and security, granted by the 1990 Clean Air 
Act Amendments.<SUP>12</SUP>
---------------------------------------------------------------------------
    \12\ Clean Air Act Section 112(r)'s general duty clause, 
definitions, and particularly 112(r)(7)(a).
---------------------------------------------------------------------------
    The agency which has the substantive expertise on safety 
protections for the affected industry should retain the authority. This 
is particularly true for the chemical industry, because deliberate or 
criminal efforts to trigger chemical releases are only one of many 
reasons a chemical release could threaten health and safety in a 
community (as noted above, there are thousands of accidental and non-
terrorist related spills and releases every year), and because safety 
improvements through hazard reduction must be the primary strategy for 
securing public health and safety from chemical releases related to 
terrorism.
Making Public Health and Safety a Priority
    The bill, as proposed, focuses almost entirely on securing 
infrastructure and resources with little attention to protecting public 
health and safety. In fact, one of the few mentions of the public int 
the bill is to the Department having primary responsibility for 
``securing the people'' (Sec. 301, paragraph (3)). ``Securing'' people 
hardly implies sound protection for public health and safety. While 
protecting public health and safety are presumably an end for which 
protecting critical infrastructure is a means, it is important that the 
new Department's mandate reside explicitly in this context. Without a 
clear mandate to protect public health and safety, the new Department 
could expend time and resources on measures that are in the short-term 
interest of protecting infrastructure and property but not in the long-
term interest of protecting public safety, or could expend time and 
resources on security programs without a clear public benefit.
    Without a clear definition of ``critical infrastructures'' or ``key 
resources,'' there are few limits on or clear characteristics of what 
types of industrial facilities or other private properties represent 
resources whose protection is sufficiently in the public interest to 
justify expending considerable public funds. Protecting undefined 
assets could result in programs to protect private property and 
resources without any requirement that such protections merit the use 
of public resources. To help clarify what types of facilities or 
properties may merit protection, Congress should make protecting public 
health and safety a clear priority of the Department, its Secretary, 
and each of the relevant Under Secretaries.
Beyond Assessment: Reducing Hazards and Vulnerabilities
    Congress should ensure that the new Department prioritizes reducing 
hazards and reducing vulnerabilities, not simply assessing them and not 
relying only on traditional security strategies of perimeter security, 
access control, and surveillance. As discussed above, public health and 
safety can best be ``secured'' against a deliberate chemical release 
from an industrial facility by reducing the hazard such that off-site 
impacts of a release are reduced or eliminated.
    Site security--perimeter security, access control, and 
surveillance--are band-aid fixes that should only be relied on where 
there is no way to reduce the inherent danger. The first question that 
the new Department (and other agencies with whom it coordinates) should 
ask is: Can the infrastructure be made safer? Reducing or eliminating 
the possibility of a chemical release is the most effective and long-
term protection for public health and safety and also reduced (or 
eliminates) the need for security measures, reducing costs to the 
government and the affected industry.
    Inherent safety can be applied across industry sectors. For 
example, transporting nuclear waste throughout our country to move it 
to the Yucca Mountain site will dramatically increase the inherent 
dangers in our infrastructure. Since nuclear facilities will continue 
to generate highly hazardous nuclear waste on site, regularly moving 
waste across our highways and rails will expand, not reduce, the amount 
of highly hazardous ``infrastructure'' in our country. This increased 
hazard will require more costs for security than would leaving the 
waste on site, where a fixed facility would be easier to secure than a 
moving vehicle.
    Fossil fuel energy offers another example. Securing the length of a 
vulnerable pipeline would likely be extraordinarily expensive and 
questionably effective. Removing pipelines from densely populated areas 
would not only be less costly, but also dramatically (and inherently) 
safer. Moving toward renewable energy, such as solar and wind, and 
particularly distributed generation, such as on-site solar or wind 
generators, would be inherently safer than expanding production from 
fossil-fuel based energy sources that rely on highly vulnerable systems 
for transporting energy.
    Congress should make reducing hazards and vulnerabilities the 
national policy of the United States, as the most effective threat 
reduction strategy, and should direct the new Department to work toward 
this end with the agencies that have current authority, rather than 
providing new or redundant authority.
  the public's right to know and public accountability as safety tools
    The proposed bill shows a troubling request for secrecy by 
proposing a sweeping and unprecedented exemption from the Freedom of 
Information Act. Restricting the public's right to know about hazards 
in communities and industry or government actions to remedy them could 
hurt safety rather than help it. By restricting our right to know, even 
through a well-intentioned effort to protect safety, government is 
abandoning its duty to warn the public if a community is at risk. It is 
limiting the ability of the public and communities to understand, 
prepare for, and respond to threats to safety. And it is also removing 
one of the most effective--and in a democratic society, substantively 
important--incentives for public safety improvements: public 
information.
    There are three primary ways that restricting public access to 
information can decrease public safety. First, secrecy without safety 
provisions--which is the strategy proposed by the bill--does nothing to 
address the threats except make them secret. Since September 11th, the 
administration has regularly employed public warnings. Allowing new 
secrecy could undermine efforts to provide due warning. Restricting 
public access also makes the community less safe because the ability of 
individuals and communities to participate in safety decisions ranging 
from chemical management and hazard reduction to site security and 
emergency response planning, is reduced and potentially eliminated. It 
is for exactly this reason that the Congress has for several decades 
used public disclosure and right-to-know laws--not secrecy provisions--
to protect public safety, particularly from chemical hazards.
    Public disclosure is a strategy with a long record of reducing 
risk. Public information empowers individuals and communities to work 
for measures that will reduce risk by working directly with a company 
locally or by advocating for policy changes to require risk reductions. 
As importantly, right-to-know programs provide a public incentive for 
relevant parties to be accountable to public values. The Toxics Release 
Inventory, established under the 1986 Emergency Planning and Community 
Right-to-Know Act, has been credited with contributing to a nearly-50% 
reduction in toxic chemical releases. More robust right-to-know 
programs have seen proportionally greater impacts. In Massachusetts, 
where companies report not just chemical releases but also chemical 
use, in products or in the workplace, chemical use is down 
approximately 40% and chemical releases are down nearly 90%. 
Restricting public access to information restricts opportunities for 
these kinds of protections of public safety and health and removes 
accountability for government and corporate actors.
    Section 204 of the proposed bill would contradict these lessons by 
creating an unprecedented and unwarranted loophole in the Freedom of 
Information Act. This section runs counter to the fundamental principle 
of FOIA: a presumption that the people of the United States have wide-
ranging access to their government and that a government of, by, and 
for the people requires an open government. In the rare cases where a 
compelling public interest requires secrecy, FOIA allows carefully 
limited exceptions for specific documents.
    The proposed bill runs almost exactly counter to this approach. It 
does not even define what documents would be exempt from FOIA that 
could not be covered by current FOIA exemptions (which already exist 
for national security, trade secrets, and certain voluntarily provided 
information), much less explain what compelling public interest 
necessitates this exemption. The requirements for what information 
could be made exempt are so vague that virtually any information on 
American industry, including information required to be public under 
other laws, could potentially be submitted to the new Department, 
certified as ``relating'' to critical infrastructure vulnerabilities, 
and permanently removed from public access. This would be a colossal 
step backwards for open government, public accountability, and the 
public's right to know about safety threats.
    When Congress addressed the security of water supplies, it was 
first determined that for vulnerability assessments being submitted to 
the government, current FOIA law may require public disclosure and that 
such disclosure could be a security threat. Congress then exempted only 
these documents from disclosure under FOIA. This should be the model 
for considering any exceptions from FOIA.
    Because this bill creates no new vulnerability assessments and 
requires no new information to be submitted to the government, Congress 
should not consider creating any new FOIA exemptions. Section 204 
should be struck from the bill.
                                 ______
                                 
       Environmental Defense, Greenpeace, National 
                                  Environmental    
   Trust, Natural Resources Defense Council, OMB Watch,    
                        U.S. Public Interest Research Group
                                                       July 8, 2002
    Dear Congressman,
    While almost ten months have passed since September 11, a 
significant vulnerability has yet to be addressed. Across the U.S., 
thousands of industrial facilities use and store hazardous chemicals in 
quantities that put large numbers of Americans at risk of serious 
injury or death in the event of a chemical release.
    Unfortunately, the administration's Homeland Security Act fails to 
address these critical safety issues. Moreover, EPA efforts to address 
the problem have encountered resistance within the administration as 
well as from some Members of Congress. Under current law, EPA has the 
expertise and legal authority <SUP>1</SUP> to address threats posed by 
major chemical releases at industrial facilities. EPA should act 
immediately and aggressively to require facilities that store toxic 
chemicals to assess and reduce their vulnerabilities by eliminating 
targets (for example, by converting to safer chemicals or processes) 
and enhancing security. Congress must make it clear that immediate 
action is expected from EPA to reduce this threat and should amend the 
Homeland Security Bill to require oversight to ensure that EPA 
implements a comprehensive hazard assessment and reduction program.
---------------------------------------------------------------------------
    \1\ Section 112(r) of the Clean Air Act (CAA) authorizes EPA to 
issue regulations ``to prevent accidental releases of regulated 
substances,'' defining such a release as ``an unanticipated emission of 
a regulated substance or other extremely hazardous substance into the 
ambient air from a stationary source.'' Likewise, the CAA imposes a 
``general duty'' of precaution on sources, directing them ``to design 
and maintain a safe facility taking such steps as are necessary to 
prevent releases . . .''
---------------------------------------------------------------------------
    In its current form, the Homeland Security Act not only fails to 
address chemical safety, but instead proposes to create new, far-
reaching secrecy provisions. These restrictions have the potential to 
keep the American public in the dark about potential risks from 
chemical facilities and hamper efforts to make communities safer. 
Congressional precedent has been to establish only very limited 
exemptions to the Freedom of Information Act (FOIA) for specific 
documents (for example, the recent exemption in the Bioterrorism 
Response Act of 2001 for water system vulnerability assessments). 
Section 204 of the administration's HoomHmeland Security Act contains 
an overly broad exemption from FOIA, not tied to any specific document 
or mandate. This section should be dropped from the bill.
    The lack of any action to address risks at chemical plants in 
communities around the nation is an irresponsible omission. EPA's 
proposed actions are long overdue--the agency should use its existing 
expertise and authority to act immediately. Efforts to further delay 
EPA action is unacceptable and contradicts the Administration's promise 
to quickly address priority threats with existing resources.
    We urge you to call on EPA to act immediately to require chemical 
facilities to assess and reduce their vulnerabilities and to eliminate 
the overly broad secrecy provisions in Section 204 of the Homeland 
Security Act of 2002.
            Sincerely,
                                              Carol Andress
                                              Environmental Defense
                                                  Rick Hind
                                                         Greenpeace
                                               Andy Igrejas
                                       National Environmental Trust
                                             Alys Campaigne
                                  Natural Resources Defense Council
                                               Sean Moulton
                                                          OMB Watch
                                           Jeremiah Baumann
                                U.S. Public Interest Research Group

    Mr. Whitfield. Thank you, Mr. Baumann. Mr. Sobel, you're 
recognized for 5 minutes.

                   TESTIMONY OF DAVID L. SOBEL

    Mr. Sobel. Thank you, Mr. Chairman, for providing me with 
the opportunity to appear before this subcommittee to discuss 
the administration's proposed legislation to create a new 
Department of Homeland Security. I will discuss proposals that 
would ironically limit public access to crucial data in the 
name of information sharing.
    My comments will focus on proposals to create a new Freedom 
of Information Act exemption for information obtained by the 
Department of Homeland Security concerning infrastructure 
protection and counterterrorism efforts, but I would also like 
to share with the subcommittee some general observations that I 
have made as the debate over critical infrastructure 
information has unfolded over the last few years. I believe it 
is essential to understand the broader context in which the 
FOIA exemption proposal arises.
    First, there appears to be a consensus that the government 
is not obtaining enough information from the private sector on 
vulnerabilities that could adversely affect the infrastructure. 
It is equally clear that citizens, the ones who will suffer the 
direct consequences of infrastructure failures, are also 
receiving inadequate information about these vulnerabilities.
    Second, there has not yet been a clear vision articulated 
defining the government's proper role in securing the 
infrastructure. Despite the emphasis on finding ways to 
facilitate the government's receipt of information, it remains 
unclear just what the government will do with the information 
it receives. The administration's homeland security proposal 
does not clearly define the new department's role in protecting 
the infrastructure.
    Third, rather than seeking ways to hide information, 
Congress should consider approaches that would make as much 
information as possible available to the public, consistent 
with the legitimate interests of the private sector. This is 
particularly critical in the context of the new department, 
which will assume an unprecedented range of responsibilities 
involving public safety.
    A broad coalition of organizations has serious concerns 
about various proposals, such as section 204 of the 
administration's bill to create a broad new FOIA exemption for 
information relating to security flaws and other 
vulnerabilities in the infrastructure.
    Section 204 would cast a shroud of secrecy over one of the 
new department's critical functions, removing any semblance of 
meaningful public accountability. If section 204 or a similar 
secrecy provision such as Representative Davis' bill is 
enacted, the public will be unable to hold the department 
accountable should it fail to make effective use of the 
information it obtains. What did DHS know and when did it know 
it is a question that will go unanswered.
    While section 204 is, in my view, exceedingly broad, I 
would urge the subcommittee to approach more circumspect 
exemption proposals with skepticism as well. Any new exemption, 
unless extremely limited, is likely to remove important 
information from public view and restrict public oversight of 
critical government operations. Perhaps most importantly, any 
new exemption designed to protect the voluntarily submitted 
private sector information is simply not needed. Established 
case law makes it clear that existing exemptions contained in 
the FOIA provide adequate protection against harmful 
disclosures of the type of information we are discussing.
    Exemption 4, which covers confidential private sector 
information, provides extensive protection. As my written 
statement explains in detail, Exemption 4 extends to virtually 
all of the infrastructure material that properly could be 
withheld from disclosure.
    In light of the substantial protections provided by FOIA 
Exemption 4 and the case law interpreting it, I believe that 
any claimed private sector reluctance to share important data 
with the government grows out of at best a misperception of 
current law. The existing protections for confidential private 
sector information have been repeatedly--have been cited 
repeatedly over the past 2 years by those of us who believe 
that a new exemption is unwarranted.
    Exemption proponents respond that the FOIA creates a 
perceived barrier to information sharing. They have not cited a 
single instance in which a Federal agency has disclosed 
voluntarily submitted data against the express wishes of an 
industry submittal.
    It should be noted that we are discussing the desire of 
private companies to keep secret potentially embarrassing 
information at a time when the disclosure practices of many in 
the business world are being scrutinized. If a company is 
willing to fudge its financial numbers to maintain its stock 
price, it would be similarly inclined to hide behind a critical 
infrastructure FOIA exemption in order to conceal gross 
negligence in its maintenance and operation of a chemical plant 
or a transportation system.
    In summary, overly broad new exemptions could adversely 
impact the public's right to oversee important and far-reaching 
governmental functions and remove incentives for remedial 
private sector action.
    I urge the Congress to preserve the public's fundamental 
right to know as it considers the establishment of a Department 
of Homeland Security, and I thank the subcommittee for 
considering my views.
    [The prepared statement of David L. Sobel follows:]
   Prepared Statement of David L. Sobel, General Counsel, Electronic 
                       Privacy Information Center
    Mr. Chairman and Members of the Subcommittee: Thank you for 
providing me with the opportunity to appear before the Subcommittee to 
discuss the Administration's far-reaching proposed legislation to 
create a new Department of Homeland Security. I will discuss the role 
that the exchange of information plays in protecting our nation's 
infrastructure and preventing terrorism, and focus on proposals that 
would, ironically, limit public access to crucial data in the name of 
``information sharing.'' The Electronic Privacy Information Center 
(EPIC) has a longstanding interest in computer and network security 
policy and its potential impact on civil liberties, emphasizing full 
and informed public debate on matters that we all recognize are of 
critical importance in today's inter-connected world.
    My comments will focus primarily on proposals to create a new 
Freedom of Information Act (FOIA) exemption for information obtained by 
the Department of Homeland Security concerning infrastructure 
protection and counter-terrorism efforts. But I would also like to 
share with the Subcommittee some general observations that I have made 
as the debate over ``critical infrastructure information'' has unfolded 
over the past few years. I believe it is essential to understand the 
broader context in which the FOIA exemption proposal arises.
    <bullet> There appears to be a consensus that the government is not 
obtaining enough information from the private sector on security risks 
and vulnerabilities that could adversely affect the critical 
infrastructure. I hasten to add that citizens--the ones who will suffer 
the direct consequences of infrastructure failures--are also receiving 
inadequate information about these vulnerabilities.
    <bullet> There has not yet been a clear vision articulated defining 
the government's proper role in securing the infrastructure. While 
there has been a great deal of emphasis on finding ways to facilitate 
the government's receipt of information, it remains unclear just what 
the government will do with the information it receives. In fact, many 
in the private sector advocate an approach that would render the 
government virtually powerless to correct even the most egregious 
security flaws. Despite its ambitious reach, the Administration's 
homeland security proposal does not clearly define the new Department's 
role in protecting the infrastructure.
    <bullet> The private sector's lack of progress on security issues 
appears to be due to a lack of effective incentives to correct existing 
problems. Congress should consider appropriate incentives to spur 
action, but secrecy and immunity, which form the basis for many of the 
proposals put forward to date, remove two of the most powerful 
incentives--openness and liability. Indeed, many security experts 
believe that disclosure and potential liability are essential 
components of any effort to encourage remedial action. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ See, e.g., ``Counterpane CTO Says Insurance, Liability to Drive 
Security,'' InfoWorld (February 20, 2002), <http://www.inforld.com/
articles/hn/xml/02/02/20/020220hncounterpane.xml> (According to 
security expert Bruce Schneier, ``[t]he challenges and problems of 
computer and network security won't be adequately addressed until 
companies can be held liable for their software and the use of their 
computer systems'').
---------------------------------------------------------------------------
    <bullet> Rather than seeking ways to hide information, Congress 
should consider approaches that would make as much information as 
possible available to the public, consistent with the legitimate 
interests of the private sector. This is particularly critical in the 
context of the new Department, which will assume an unprecedented range 
of responsibilities involving public safety.
    As indicated, I would like to focus my comments on proposals to 
limit public access to information concerning critical infrastructure 
protection. EPIC is a strong advocate of open government, and has made 
frequent use of the FOIA to obtain information from the government 
about a wide range of policy issues, including (in addition to computer 
security) consumer privacy, electronic surveillance, encryption 
controls and Internet content regulation. We firmly believe that public 
disclosure of this information improves government oversight and 
accountability. It also helps ensure that the public is fully informed 
about the activities of government.
    I have personally been involved with FOIA issues for more than 
twenty years and have handled information requests on behalf of a wide 
range of requesters. In 1982, I assisted in the preparation of a 
publication titled Former Secrets, which documented 500 instances in 
which information released under the FOIA served the public interest. I 
am convinced that an updated version of that publication would today 
yield thousands of examples of the benefits we all derive from the 
public access law that has served as a model for other nations around 
the world.
    EPIC and other members of the FOIA requester community have, for 
the past several years, voiced concerns about various proposals to 
create a broad new FOIA exemption, such as those contained in the Cyber 
Security Information Act (H.R. 2435) and the Critical Infrastructure 
Information Security Act (S. 1456), for information relating to 
security flaws and other vulnerabilities in our critical 
infrastructures. Section 204 of the Administration's proposed 
legislation, as I will discuss in more detail, contains an exemption 
provision that appears to be even more far-reaching than those 
previously proposed. We collectively believe these exemption proposals 
are fundamentally inconsistent with the basic premise of the FOIA, 
which, as the Supreme Court has recognized, is ``to ensure an informed 
citizenry, vital to the functioning of a democratic society, needed to 
check against corruption and to hold the governors accountable to the 
governed.'' <SUP>2</SUP> To accomplish that end, ``[d]isclosure, not 
secrecy, is the dominant objective of the Act.'' <SUP>3</SUP>
---------------------------------------------------------------------------
    \2\ NLRB v. Robbins Tire & Rubber Co., 437 U.S. 214, 242 (1978).
    \3\ Department of the Air Force v. Rose, 425 U.S. 352 (1976).
---------------------------------------------------------------------------
    It is clear that, as we simultaneously move further into the 
electronic age and confront the risks of terrorism, the federal 
government increasingly will focus on the protection of critical 
infrastructures. It is equally apparent that government policy in this 
emerging field will become a matter of increased public interest and 
debate. The proposal to create a vast Department of Homeland Security 
raises that debate to a new level of urgency. While reasonable 
observers can disagree over the merits of specific initiatives, I 
believe we all agree that infrastructure protection and counter-
terrorism activities raise significant public policy issues that 
deserve full and informed public discussion.
    The issue is perhaps best illustrated by examining the latest 
iteration of the ``critical infrastructure information'' exemption 
approach--Section 204 of the Administration's proposed Homeland 
Security Act. In what is surely among the most far-reaching one-
sentence statutory provisions ever drafted, Section 204 provides:
        Information provided voluntarily by non-Federal entities or 
        individuals that relates to infrastructure vulnerabilities or 
        other vulnerabilities to terrorism and is or has been in the 
        possession of the Department [of Homeland Security] shall not 
        be subject to [the FOIA].
    It should be noted that this provision would conceal from public 
scrutiny a major component of the Department's statutory mission--the 
information analysis and infrastructure protection functions set forth 
in Title II of the Administration's proposed legislation. Indeed, 
``information analysis and infrastructure protection'' is the first of 
the Department's ``primary responsibilities'' enumerated in Section 
101(b)(2).
    Section 204 would cast a shroud of secrecy over one of the 
Department's critical functions, removing any semblance of meaningful 
public accountability. The tragic events of September 11th illustrate 
the importance of such accountability mechanisms; the Congress, the 
media and the public are currently engaged in an examination of 
possible failures of intelligence or analysis that may have contributed 
to the tragedy. Indeed, the legislation we are discussing today is a 
direct outgrowth of that review process and public debate. If Section 
204, or a similar secrecy provision, is enacted, the news media and the 
public will be unable to hold the new Department accountable should it 
fail to make effective use of information it obtains. ``What did DHS 
know and when did it know it?'' is a question that will go unanswered. 
Such insulation from accountability is clearly the wrong way to go as 
we seek to create an effective new entity.
    While Section 204 is, in my view, exceedingly broad, I would urge 
the Subcommittee to approach more circumscribed exemption proposals 
with skepticism as well. Any new exemption, unless extremely limited, 
is likely to remove important information from public view and restrict 
public oversight of critical government operations. And, perhaps most 
importantly, any new exemption designed to protect voluntarily-
submitted private sector information is simply not needed.
    It is clear that government activities to protect the 
infrastructure will be conducted in cooperation with the private sector 
and, accordingly, will involve extensive sharing of information between 
the private sector and government. To facilitate the exchange of 
information, some have advocated enactment of an automatic, wholesale 
exemption from the FOIA for any information concerning potential 
vulnerabilities to the infrastructure that may be provided by a private 
party to a federal agency. Given the breadth of the proposed 
definitions of the categories of information to be exempted, I believe 
such an exemption would likely hide from the public essential 
information about critically important--and potentially controversial--
government activities undertaken in partnership with the private 
sector. It could also adversely impact the public's right to know about 
unsafe practices engaged in by the private operators of nuclear power 
plants, water systems, chemical plants, oil refineries, and other 
facilities that can pose risks to public health and safety. In short, 
critical infrastructure protection is an issue of concern not just for 
the government and industry, but also for the public--particularly the 
local communities in which these facilities are located.
    If the history of the FOIA is any guide, a new exemption would 
likely result in years of litigation as the courts are called upon to 
interpret its scope. The potential for protracted litigation brings me 
to what I believe is the most critical point for the Subcommittee to 
consider, which is the need for a new ``critical infrastructure'' FOIA 
exemption. FOIA caselaw developed over the past quarter-century makes 
it clear that existing exemptions contained in the Act provide adequate 
protection against harmful disclosures of the type of information we 
are discussing. For example, information concerning the software 
vulnerabilities of classified computer systems used by the government 
and by defense contractors is already exempt under FOIA Exemption 1. A 
broad range of information collected for law enforcement purposes may 
be (and routinely is) withheld under Exemption 7. Most significantly, 
Exemption 4, which protects against disclosures of trade secrets and 
confidential information, also provides extensive protection from 
harmful disclosures. Because I believe that Exemption 4 extends to 
virtually all of the ``critical infrastructure'' material that properly 
could be withheld from disclosure, I would like to discuss briefly the 
caselaw that has developed in that area.
    For information to come within the scope of Exemption 4, it must be 
shown that the information is (A) a trade secret, or (B) information 
which is (1) commercial or financial, (2) obtained from a person, and 
(3) privileged or confidential.<SUP>4</SUP> The latter category of 
information (commercial information that is privileged or confidential) 
is directly relevant to the issue before the Subcommittee. Commercial 
or financial information is deemed to be confidential ``if disclosure 
of the information is likely to have either of the following effects: 
(1) to impair the government's ability to obtain the necessary 
information in the future; or (2) to cause substantial harm to the 
competitive position of the person from whom the information was 
obtained.'' <SUP>5</SUP> The new FOIA exemption that has been proposed 
seeks to ensure that the government is able to obtain critical 
infrastructure information from the private sector on a voluntary 
basis, a concern which comes within the purview of Exemption 4's 
``impairment'' prong. The courts have liberally construed 
``impairment,'' finding that where information is voluntarily submitted 
to a government agency, it is exempt from disclosure if the submitter 
can show that it does not customarily release the information to the 
public.<SUP>6</SUP> In essence, the courts defer to the wishes of the 
private sector submitter and protect the confidentiality of information 
that the submitter does not itself make public.
---------------------------------------------------------------------------
    \4\ Getman v. NLRB, 450 F.2d 670, 673 (D.C. Cir. 1971), stay 
denied, 404 U.S. 1204 (1971).
    \5\ National Parks and Conservation Association v. Morton, 498 F.2d 
765, 770 (D.C. Cir. 1974).
    \6\ Critical Mass Energy Project v. Nuclear Regulatory Commission, 
975 F.2d 871 (D.C. Cir. 1992) (en banc), cert. denied, 113 S.Ct. 1579 
(1993).
---------------------------------------------------------------------------
    In addition to the protections for private sector submitters 
contained in FOIA Exemption 4 and the relevant caselaw, agency 
regulations seek to ensure that protected data is not improperly 
disclosed. Under the provisions of Executive Order 12600 (Predisclosure 
Notification Procedures for Confidential Commercial Information) issued 
by President Reagan in 1987, each federal agency is required to 
establish procedures to notify submitters of records ``that arguably 
contain material exempt from release under Exemption 4'' when the 
material is requested under the FOIA and the agency determines that 
disclosure might be required. The submitter is then provided an 
opportunity to submit objections to the proposed release. The 
protections available to private sector submitters do not end there; if 
the agency determines to release data over the objections of the 
submitter, the courts will entertain a ``reverse FOIA'' suit to 
consider the confidentiality rights of the submitter.<SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ See GTE Sylvania, Inc. v. Consumers Union, 445 U.S. 375 (1980).
---------------------------------------------------------------------------
    In light of the substantial protections against harmful disclosure 
provided by FOIA Exemption 4 and the caselaw interpreting it, I believe 
that any claimed private sector reticence to share important data with 
the government grows out of, at best, a misperception of current law. 
The existing protections for confidential private sector information 
have been cited repeatedly over the past two years by those of us who 
believe that a new FOIA exemption is unwarranted. In response, 
exemption proponents have not come forward with any response other than 
the claim that the FOIA creates a ``perceived'' barrier to information 
sharing.<SUP>8</SUP> They have not cited a single instance in which a 
federal agency has disclosed voluntarily submitted data against the 
express wishes of an industry submitter. Nor have they provided a 
single hypothetical example of voluntarily submitted ``critical 
infrastructure'' information that would not fall within the broad 
protection of Exemption 4.
---------------------------------------------------------------------------
    \8\ See, e.g., Letter from Daniel P. Burnham, Chair, National 
Security Telecommunications Advisory Committee to the President, June 
28, 2001 (``Real or perceived, barriers to [information] sharing must 
be removed. Among those barriers are the Freedom of Information Act and 
potential legal liabilities'') (emphasis added).
---------------------------------------------------------------------------
    Frankly, many in the FOIA requester community believe that 
Exemption 4, as judicially construed, shields far too much important 
data from public disclosure. As such, it is troubling to hear some in 
the Administration and the private sector argue for an even greater 
degree of secrecy for information concerning vulnerabilities in the 
critical infrastructure. As I have noted, shrouding this information in 
absolute secrecy will remove a powerful incentive for remedial action 
and might actually exacerbate security problems. A blanket exemption 
for information revealing the existence of potentially dangerous 
vulnerabilities will protect the negligent as well as the diligent. It 
is difficult to see how such an approach advances our common goal of 
ensuring a robust and secure infrastructure.
    It should not go unnoticed that we are discussing the desire of 
private companies to keep secret potentially embarrassing information 
at a time when the disclosure practices of many in the business world 
are being scrutinized. If a company is willing to fudge its financial 
numbers to maintain its stock price, what assurance would we have that 
it was not hiding behind a ``critical infrastructure'' FOIA exemption 
in order to conceal gross negligence in its maintenance and operation 
of a chemical plant or a transportation system?
    In summary, the Freedom of Information Act has worked extremely 
well over the last 36 years, ensuring public access to important 
information while protecting against specific harms that could result 
from certain disclosures. After monitoring the development of critical 
infrastructure protection policy for the last several years, I have 
heard no scenario put forth that would result in the detrimental 
disclosure of information under the current provisions of the FOIA. 
Overly broad new exemptions could, however, adversely impact the 
public's right to oversee important and far-reaching governmental 
functions and remove incentives for remedial private sector action. I 
urge the Subcommittee and the Congress to preserve the public's 
fundamental right to know as it considers the establishment of a 
Department of Homeland Security.

    Mr. Whitfield. Thank you, Mr. Sobel. The Chair at this time 
will recognize the gentleman from North Carolina for 5 minutes.
    Mr. Burr. I thank the Chair, and I will be briefer than 5 
minutes. Let me ask you, Mr. Sobel, since you just finished, I 
think we've heard testimony today calling for FOIA exemptions 
for sensitive information and others have indicated the 
concerns that currently there's too much information in the 
public domain, and that that would be useful from the 
standpoint of targeting and prioritizing--targeting the 
manufacturing facilities for terrorist attacks. Is there any 
information that is currently in the public domain via FOIA 
disclosures or otherwise about private sector critical 
infrastructure assets that you believe should not be in the 
public domain because it provides too much information that 
could be used by terrorists? And if so, what would it be?
    Mr. Sobel. Well, Congressman, the answer is very simple. I 
do not believe that as a result of the FOIA any material that 
could create potential harms or problems has been released, and 
as I indicated, the proponents of the FOIA exemption have not 
in the last 2 years that this issue has been debated come 
forward with a single example of such a disclosure. Their 
entire case is hypothetical and, as I said, as far as I'm 
concerned based on a misunderstanding and a misperception----
    Mr. Burr. So there's nothing that you would remove today?
    Mr. Sobel. That is correct, not information released as a 
result of the FOIA.
    Mr. Burr. Mr. Smith, what steps can we take to improve 
information sharing between the Federal Government and the 
private sector?
    Mr. Smith. Before I answer that question, let me just 
respond to a different point of view than an earlier answer. 
One of the reasons why that material has not been presented is 
because we haven't--we've refused to provide it. We have been 
asked, for example, to provide a list of the 100 most critical 
buildings in our network. Now, that would be tantamount to 
providing a road map to terrorists to say if you really want to 
hurt us, if you really want to take the telecommunications 
infrastructure down, here are a hundred buildings to target. So 
we refuse to do that.
    Now, the problem is, that limits our ability to work with 
agencies that we might cooperate with in developing preplanned 
response in the event of that kind of instance such as what we 
saw in Manhattan, but that is the reason why you don't see that 
information released. We have chosen not to do that.
    But to respond to your particular question, we think that 
with respect to H.R. 4598, recently passed, the information 
from the government to the private sector must really be 
actionable, that it supports the sharing of information, but 
sharing classified information or very limited sharing that we 
can act on is only part of the way. So we think there is work 
to do to improve that. And then certainly, as we've just said, 
on the other direction we think that FOIA protections really 
are critical for us to be able to share more information with 
government agencies in order to respond to those kind of 
threats.
    Mr. Burr. Well, it clearly is an issue that I don't think 
we will come to consensus based upon those who have sat and 
testified today. But this body, along with this administration, 
will be asked to move some very significant legislation that in 
the end won't be perfect, but hopefully will give us a greater 
degree of comfort in knowing that tools are in place to allow 
whoever the Secretary is of Homeland security the ability to 
carry out the job, to make assurances, but more importantly, to 
make sure that the security of this country is in fact intact 
in more ways than one.
    I'd like to thank all of you for your willingness to come, 
and I'd yield back.
    Mr. Whitfield. The gentleman from Florida is recognized for 
5 minutes.
    Mr. Deutsch. Thank you, Mr. Chairman. You know, Mr. Smith, 
I guess your comments were directly on point, and I guess this 
is really the differences on this panel in terms of the 
vulnerability assessments.
    Mr. Sullivan, in terms of the area of water in the West 1 
month ago the President signed the bioterrorism bill which 
passed the House 425 to 1 and the Senate 98 to 0, and it 
contained specifically this whole context of water issues in 
terms of safety and security and the vulnerability assessments. 
You testified that you believe the vulnerability assessments 
provided to EPA, you're concerned that these documents could 
wind up inadvertently in the hands of malicious people. The 
bioterrorism law establishes criminal penalties for releasing 
these documents. Do you have a basis for your concern or just 
more information out there, not really understanding the 
controls that they would have on that information?
    Mr. Sullivan. Well, first of all, the water industry has no 
objections at all to preparing vulnerability assessments. 
You've got to understand that these are absolute blueprints of 
how to take down a water system. It shows you the way. Now, 
these vulnerability assessments currently are going to be 
supplied, over 8,000 of them, in hard copy, but they're going 
to be smaller books and smaller systems in volumes of pages. 
And first, we are concerned that EPA, which is a regulatory 
agency, where are they going to secure these? It's not truly 
the ambition to be doing security of critical infrastructure. 
So as we all learned, and Congress has done it many times, as 
new information comes across, new opportunities come across, 
there may be a better opportunity here to have DHS provide this 
repository, if needed.
    Our preference, of course, is that these vulnerability 
assessments be kept in each utility and that access to them 
through an audit process or DHS audit, local FBI, would be 
dealt with in each utility itself so that we wouldn't be 
sending hard copies to some spot that we don't know where they 
go.
    Mr. Deutsch. If I can just follow up on this, I understand 
what you're saying, but my understanding of the law as passed 
is you have to do it, and it's sort of our burden to try to 
keep it secure. But it's your determination that you don't like 
the way EPA is securing these vulnerability assessments?
    Mr. Sullivan. We don't know how they're securing them yet. 
What we're suggesting is that there's another location--there's 
an improvement available to Congress now to house them under 
DHS. It's a suggestion by the water industry.
    Mr. Deutsch. There's nothing specific about EPA, but just 
the way--your experience with EPA, I mean, you just don't feel 
they have the ability to secure these documents?
    Mr. Sullivan. They're a regulatory agency. We're looking at 
DHS as the new secure critical infrastructure, that they can 
house it. So we think it is a better opportunity.
    Mr. Deutsch. Mr. Sobel, Mr. Watson seems to be raising a 
salient point about sharing highly sensitive information 
regarding cyber security owned and operated by the private 
sector. The overwhelming bulk of critical cyber systems in the 
United States today are usually not government owned. He says 
the private companies are not sharing this information with the 
public because of concerns that it's not protected from public 
disclosure under FOIA.
    Is he correct that information would not be protected under 
current law?
    Mr. Sobel. Congressman, I think clearly in my view that is 
not a correct assessment of current law. Basically what the 
courts have said is that if a disclosure of voluntarily 
submitted information against the wishes of the submitter would 
impede the government's ability in the future to get that kind 
of cooperation, it's not going to be disclosed, and that is 
precisely what we're talking about here.
    If there would be any disincentive that resulted from 
disclosure of voluntarily provided information, it is not 
disclosable. So virtually by definition, information is not 
disclosed against the wishes of the submitter of the voluntary 
information. It's really as simple as that, and as I've pointed 
out repeatedly, the proponents of this exemption have not 
pointed to one disclosure that has been against the wishes of 
an industry submitter.
    Mr. Deutsch. Thank you.
    Mr. Whitfield. Mr. Copeland, in your testimony, you call 
for a greater emphasis on cyber security in the legislation, 
and you even urge the creation of a Bureau of Cyber Security. I 
was wondering if you would just elaborate on why you believe 
that's important and why do you believe it should be separated 
from the physical security issues and what the primary mission 
of the new bureau should be.
    Mr. Copeland. Thank you, Mr. Chairman. I would like to 
clarify to the--I wasn't suggesting that it be separated from 
the physical security issues and in fact pointed out that it 
should be attending to physical attacks on cyber facilities. 
So, for example, physical attacks on network nodes that might 
cause a telecommunications outage are a serious concern. In 
fact, today by far the most common form of outage that networks 
experience, the back operators do more damage to our network 
than terrorists do today, and that is a common physical 
experience and fires and hurricanes and earthquakes caused the 
kind of physical problems they are accustomed to dealing with.
    One of the observations that our association has made and 
many of its members have made is that since September 11 
there's been an extremely enhanced level of awareness of 
physical security issues and attention to them, and 
unfortunately, we have been building a significantly high level 
of interest and awareness in some of the developing cyber 
security issues, and there was an attendant fall-off after 
September 11, and the focus shifted to physical security.
    Our concern is that the cyber security issues frequently 
are more esoteric, more complex, more difficult to understand 
because of the complexity, and if they tend to get mixed in 
with other activities that are focusing on the physical 
aspects, they tend to get lost in the shuffle.
    We think it's important that they get the degree of 
visibilities that are needed, that the resources necessary are 
applied and that a single executive be accountable for those 
particular aspects of the security and have to report to the 
Congress with that accountability.
    One needs only look at some of the experiences in the 
Federal Government where they should be leading by example to 
see that cyber security unfortunately has not been getting 
traditionally the attention it should in the departments and 
agencies. The score that has been given to information security 
by Congressman Horn in his oversight is one example of that. 
The reports that were submitted to the Congress under GISRA, 
the Government Information Security Requirements Act, indicate 
that most of the departments are at best achieving only barely 
passing grades in that area. So anything that can help to focus 
attention on that area is extremely important.
    Mr. Whitfield. Thank you, Mr. Copeland.
    Mr. Watson, some have argued that this public-private 
partnership created by Presidential Directive 63 to build a 
strong business model for ensuring the security and reliability 
of our Nation's critical infrastructures is not an effective 
model, and primarily because it does not include additional 
regulatory directives to compel the private sector owners to 
take additional steps. Do you agree with that argument, or do 
you feel like the directive has been successful?
    Mr. Watson. Mr. Chairman, I don't agree with the argument, 
because the PCIS is represented by presidents and chief 
operating officers, chief information security officers from 
the companies and trade associations that represent the 
critical infrastructures. There's enthusiastic participation. 
It's more enthusiastic because the government has approached 
industry eschewing the new regulation. So it creates an 
atmosphere of trust.
    One of the initiatives we took on last year was to look at 
research and development requirements with the idea of defining 
what the market could provide, identifying the gap between 
market security provision and national security and then going 
back to the government and saying we can come up to 80, 90 
percent, whatever the market might produce, and then let the 
government provide incentives for direct funding for research 
to fill the remaining gap. We think that kind of participation 
and partnership is new, and so we have a lot of work to do, but 
we think the model is very sound and working well.
    Mr. Whitfield. Thank you, Mr. Watson.
    Well, I'm going to thank this panel very much for your 
patience today and for your testimony. The committee really 
appreciates it. We appreciate the time and effort you put into 
it, and at this time I'll dismiss this panel. Thank you very 
much.
    The Chair at this time recognizes himself for a unanimous 
consent request and to offer a motion. Because of the sensitive 
nature of this hearing, particularly its implications for 
national security and after consultation with the minority, I 
will soon offer a motion that the subcommittee go into 
executive session. I yield to Mr. Deutsch for any comments on 
this procedure.
    Mr. Deutsch. I would agree with the Chair.
    Mr. Whitfield. Thank you. The Chair moves that pursuant to 
clause 2(g) of rule XI of the Rules of the House, the remainder 
of this hearing will be concluded in executive session to 
protect the information that might endanger national security.
    Is there discussion on the motion? If there is no 
discussion, pursuant to the rule, a recorded vote is ordered. 
Those opposed say nay. The ayes appear to have it. The ayes 
have it, and the motion is agreed to. So we'll go into 
executive session at this time.
    [Whereupon, at 2 p.m., the subcommittee proceeded in 
Executive Session.]
    [Additional material submitted for the record follows:]
 Prepared Statement of Jayson P. Ahern, Assistant Commissioner, Field 
                    Operations, U.S. Customs Service
    Chairman Tauzin, Chairman Greenwood, members of the Subcommittee, 
thank you for this opportunity to testify.
    Mr. Chairman, I know that the Subcommittee has a great deal of 
interest in the Administration's proposal for a new Department of 
Homeland Security and the inclusion of the U.S. Customs Service in that 
Department. I will tell you what Commissioner Bonner has told the 
employees of the Customs Service: ``I fully support the President's 
proposal and strongly believe that the new Department of Homeland 
Security will play a key role in safeguarding the American people.''
    For over 200 years, the U.S. Customs Service has defended our 
country's borders and facilitated international trade and travel. Since 
September 11th, at the direction of the President, the top priority of 
Customs has been responding to the continuing terrorist threat at our 
land borders, seaports, and airports. I would like to describe for you 
some of our most significant efforts and initiatives on that front.
    Since September 11th, Customs has been at a Level One alert across 
the country--at all ports of entry. Level 1 requires sustained, 
intensive anti-terrorist questioning, and includes increased 
inspections of travelers and goods.
    To help ensure that Customs forms a coordinated, integrated 
counter-terrorism strategy for border security, Customs established a 
new Office of Anti-Terrorism within the agency to coordinate Customs' 
role within our national security architecture.
    Customs agents are also working diligently under Project Shield 
America to monitor exports of strategic weapons and materials from the 
U.S. They are seeking to prevent international terrorist groups from 
obtaining sensitive U.S. technology, weapons and equipment that could 
be used in a terrorist attack on our nation.
    To help Customs officers in the field, the Commissioner also 
established the Office of Border Security. The mission of that office 
is to develop more sophisticated anti-terrorism targeting techniques 
for passengers and cargo in the seaport, airport, and land border 
environments.
    Customs has also created the Customs-Trade Partnership Against 
Terrorism,``C-TPAT'', which is a partnership with some of the largest 
U.S. importers to improve security along the entire supply chain, from 
the loading docks of foreign vendors to our land borders and seaports. 
We were very pleased to have Governor Ridge, Secretary O'Neill and 
Commissioner Bonner announce C-TPAT at the Ambassador Bridge in 
Detroit, Michigan on April 16, 2002. To date, there are over 250 
signatories to this initiative.
    To complement C-TPAT, Customs developed the Container Security 
Initiative which places Customs enforcement personnel in major foreign 
shipping ports. The Customs officers will establish international 
security criteria for identifying high-risk cargo containers that 
potentially pose a risk of containing terrorists or terrorist weapons. 
In addition to having U.S. Customs officers in Halifax, Montreal and 
Vancouver, Customs has recently signed an agreement that will place our 
officers in Rotterdam, Antwerp and Le Havre. We anticipate other ports 
will sign up in the near future.
    Customs continues to deploy technology necessary to rapidly and 
comprehensively inspect arriving and departing people, cargo and in all 
port environments and across all modes of transportation. To date 
Customs has deployed 87 large-scale non-intrusive inspection systems 
along with other technologies that will assist inspectors in conducting 
high-confidence, non-intrusive inspections quickly and efficiently.
    In 1998, Customs began deploying technology to detect radiological 
sources. Since that time, we have deployed over 4,000 personal 
radiation detectors and over 200 x-ray van mounted radiation detection 
units. This year we ordered over 4,000 additional personal radiation 
detectors and have funding for 172 portal radiation detectors and 128 
isotope identifiers for our ports of entry.
    Customs is working closely with the Department of Energy to 
investigate systems and technology to detect radiological and nuclear 
materials to enhance our detection capabilities. Specifically, we are 
working with the Pacific Northwest National Laboratory, the Lawrence 
Livermore National Laboratory and the Special Technology Laboratory. In 
addition, Customs is engaged with the Department of Transportation in 
the Container Working Group, with the U.S. Coast Guard for targeting 
sea containers and with the Federal Aviation Administration for 
detection technology for cargo and baggage.
    We are currently conducting operational field tests of portal 
radiation detection systems to determine system capabilities and to 
develop procedures and response protocols. A challenge will be our 
ability to differentiate between the numerous consumer goods such as 
cement, porcelain, potash, and bananas that may give off radiation, as 
well as medical isotopes given to humans for detection and treatment of 
disease and the attempt to smuggle and/or conceal a second radioactive 
source.
    Concerning other possible weapons of mass destruction, Customs, in 
partnership with Johns Hopkins University, is working to establish a 
chemical/biological project to investigate systems and technologies to 
augment and enhance our existing chemical/biological detection 
capabilities.
    The effective use of technology depends on good targeting, for 
which we require advance information. The Automated Manifest System, in 
conjunction with our advanced targeting systems allow Customs to sort 
through the cargo manifests provided by shippers and carriers, and pick 
out those that appear unusual, suspect, or high-risk.
    Legislation currently under consideration mandates the advance 
electronic transmission of cargo manifest information. This will 
significantly increase the amount and timeliness of information input 
into the Customs database, thus enhancing our ability to identify 
anomalies. We appreciate the support the House and Senate have shown 
for making the advance filing of electronic cargo manifest information 
mandatory.
    Thank you again, Mr. Chairman and the members of the Subcommittee, 
for this opportunity to testify. We look forward to working with your 
Subcommittee on this important legislation. I would be happy to answer 
any questions you may have.
                                 ______
                                 
   Prepared Statement of Linton F. Brooks National Nuclear Security 
               Administration, U. S. Department of Energy
                              introduction
    Thank you, Mr. Chairman for having me here today. This is an 
important topic: the establishment of a new Government Agency that will 
have sweeping responsibilities. The new Department of Homeland Security 
will enable us to more effectively respond to today's threats, through 
a streamlined and dynamic institution that will greatly enhance our 
ability to respond quickly, decisively, and where necessary, before 
threats against our homeland materialize. We are on the verge of making 
history. It's critical that we get it right.
    The Department of Energy and the National Nuclear Security 
Administration are fully committed to the homeland security mission, 
and the successful establishment of the Department of Homeland 
Security. We recognize that this will require restructuring and 
relocation of critical assets now under the stewardship of the NNSA. We 
are prepared to support these shifts in responsibilities, and indeed, 
to do what is necessary to make any transfer of responsibilities as 
smooth and painless as possible.
    There is an enormous amount of experience and expertise now 
residing in DOE/NNSA that will be vital to the success of the new 
Department. Our Technology Research and Engineering assets have been 
applied to homeland security problems long before last September; since 
then, such contributions became even more focused and accelerated.
    We've conducted the PROTECT subway demonstration, which will help 
provide chemical protection to the U.S. population. We deployed a 
prototype biodetection capability at the winter Olympics. We have 
greatly increased our work with the U.S. Customs and US Coast Guard 
with radiation and nuclear technology--specific technical support that 
will directly benefit the new Department. DOE/NNSA is committed to 
ensuring that its assets can continue to provide enabling science and 
technology to support homeland security and counter-terrorism mission 
needs.
    There are a number of capabilities currently residing in the 
Department of Energy that will support or be transferred to the new 
Department. Today I want to focus on those relevant to Title III of the 
legislation--those germane to technology research and development in 
support of the Homeland Security mission.
    Before beginning that discussion, let me briefly mention a few 
things that the Homeland Security Act does not do. It will not affect 
our ability to conduct our principal missions of stockpile stewardship, 
nuclear nonproliferation, naval nuclear propulsion, and, just coming to 
NNSA, emergency response. NNSA will retain all of its programs and 
responsibilities that contribute to our ability to assure the safety, 
security, and reliability of the nation's nuclear weapons stockpile.
    With respect to nuclear nonproliferation, the Administration 
proposes to transfer the core of our chemical-biological WMD work and 
certain nuclear programs related to the domestic threat. This is 
largely self-contained work and primarily supports domestic 
preparedness programs.
    NNSA has unique assets and capabilities, developed primarily from 
our work with nuclear weapons and with nonproliferation, that have been 
applied to homeland security problems long before last September.
    Some of these initiatives have long timelines; Long before 9/11, 
DOE has led USG efforts to support ``first responders'' with our 
chemical, biological, and nuclear research programs. We've worked 
closely with the FBI and other agencies to ensure that cutting edge 
detection and identification technologies are available to those that 
would need them first. And we began this work long before there was a 
recognized need to do so--we took the initiative because we anticipated 
the requirement. It is as good an example as any of why long-range 
research is so critical to the security of this country.
    We have aggressively pursued these efforts since last 9/11. But 
it's time for a more focused organization and we are committed to that 
change and to continuing to provide enabling science and technology in 
support of homeland security and counterterrorism mission needs.
       nonproliferation and verification research and development
    The NNSA Nonproliferation and Verification Research and Development 
Program conducts applied research, development, testing, and evaluation 
of technologies that lead to prototype demonstrations and resultant 
detection systems. As such, the program strengthens the U.S. response 
to current and projected threats to national security worldwide posed 
by the proliferation of nuclear, chemical, and biological weapons and 
the diversion of special nuclear material. The R&D program provides 
operational organizations with innovative systems and technologies to 
satisfy their nonproliferation and counter-terrorism mission 
responsibilities. The program's three main elements are:

<bullet> Nuclear explosion monitoring, which will remain within the 
        Department of Energy
<bullet> Chemical and Biological National Security, which will be 
        transferred in its entirety to the Department of Homeland 
        Security
<bullet> Proliferation Detection
    Proliferation Detection sponsors a high-risk research on detection 
technologies that can support both nonproliferation and homeland 
security. Those elements that can be disaggregated and identified as 
supporting homeland security will be transferred to the new Department. 
At a minimum, we will transfer our research and development to counter 
nuclear smuggling. Where the activity supports both the homeland 
security and non-proliferation functions, we will examine arrangements 
as joint programs. The Administration's proposed legislation gives the 
President the necessary flexibility to provide for joint operation.
    Let me describe those functions that will be transferred, after 
which I will return to the subject of long-term coordination.
Major Activities Identified for Transfer
    Within, the Nonproliferation and Verification Research and 
Development Program, the Chemical and Biological National Security 
Program and the nuclear smuggling detection activity fall squarely into 
the Homeland Security mission and thus have been designated for 
transfer in their entirety.
Chemical and Biological National Security Program
    The Chemical and Biological National Security Program works to 
develop technologies and systems to improve the U.S. capability to 
prepare for and respond to domestic chemical and biological threats 
against civilian populations, complementing DOD's focus on the 
battlefield and military installations. As part of its primary nuclear 
science and technology mission, NNSA and the National Laboratories have 
developed extensive capabilities in chemistry, biology, and materials 
and engineering sciences that form the basis for the NNSA chemical and 
biological national security program. We have conducted research on the 
biological foundations necessary to establish signatures of biological 
threat agents and develop assays certified by the Centers for Disease 
Control for those agents, which are applied to develop detectors.
    NNSA has conducted demonstration projects of prototype detector 
capabilities in partnership with other agencies to support their 
operational missions, such as the systems I just mentioned that have 
been developed and applied for the Olympics and the Washington Metro, 
to illustrate possible system approaches for population protection. We 
are now working to expand the number of signatures and assays of 
biological agents that we can detect with increased sensitivity, and to 
improve public health response through the CDC. The next generation of 
bio-detectors will detect a much wider range of agents, which will 
enable public health agencies to more rapidly treat affected people.
Homeland Security Nuclear Smuggling Activities
    The nuclear smuggling component of our proliferation detection 
program also squarely fits within homeland security and will be 
transferred. NNSA and the National Laboratories have unique insight 
into nuclear proliferation activities--the facilities and 
infrastructure, as well as the observable signatures of nuclear weapon 
development activity. We also have the capability to develop technical 
solutions for the U.S. government to detect and characterize such 
proliferation activities in their early stages. NNSA has worked closely 
with homeland security agencies, including U.S. Customs, U.S. Coast 
Guard, and the Departments of Transportation and Justice to apply this 
technical base to detection of nuclear weapons and materials at U.S. 
borders. With these agencies, we have previously conducted 
demonstrations of radiation detection methods at international border 
crossings, including a port, a rail yard, and airport personnel and 
baggage handling facilities. With many of these agencies becoming part 
of the new Department, it is a good fit for the R&D applications to 
counter nuclear smuggling to be transferred to the Department of 
Homeland Security.
Nuclear Threat Assessment and Trafficking in Nuclear Materials
    In addition to the transfer of research and development, Title III 
of the proposed legislation provides for the transfer of the Department 
of Energy's Nuclear Assessment Program to the new Department of 
Homeland Security. This program provides a national capability to 
assess accurately and swiftly the credibility of communicated threats 
of nuclear terrorism. The Lawrence Livermore National Laboratory (LLNL) 
leads this unique effort. Since September 1978, the Nuclear Assessment 
Program has been used to assess the credibility of over 60 nuclear 
extortion threats, 25 nuclear reactor threats, 20 nonnuclear extortion 
threats and approximately 650 cases involving the reported or attempted 
illicit sale of nuclear materials.
    When activated, DOE-based threat credibility assessment teams 
perform comprehensive technical, operational and behavioral assessments 
of communicated nuclear threats at the start of an actual or perceived 
emergency. Since communicated nuclear threats are a serious violation 
of federal law, the FBI is the lead federal agency. Since the Program's 
inception in 1977, the Nuclear Assessment Program has developed close 
and working relationships with its counter-terrorism counterparts in 
Customs, State, FBI, DIA, CIA, and others in the nonproliferation 
community. The Program also provides expert technical support to law 
enforcement and others for Special Event Preparedness, on-scene 
technical support, and national and international training.
    Since 9/11 the Nuclear Assessment Program has performed 
approximately 70 assessments involving communicated nuclear threats, 
reports of illicit trafficking of nuclear materials, and special 
analysis reports for law enforcement and intelligence components. This 
national asset provided immeasurable support to all government agencies 
tasked with separating critical from non-critical information in the 
aftermath of 9/11.
Observations
    With the transfer of these programmatic responsibilities to the 
Department of Homeland Security, it will be critically important that 
the new Department assume the leadership to maintain the technical base 
at the National Laboratories. Upon this foundation is built our future 
technical capability. The multidisciplinary scientific environment of a 
national laboratory is ideally suited to pursue high risk, long-term 
research, in spite of the need to focus on short-term requirements for 
homeland security. It is the ability to pursue such research that makes 
our national laboratories a national treasure--and a unique asset with 
unmatched capabilities. Only through such investment will the 
scientific and technical capability exist to meet the needs for 
innovative solutions to future homeland security problems.
    With respect to the remainder of the proliferation detection 
program, no matter how the responsibilities are finally apportioned, 
the research will be of value to both departments. For that reason, it 
is critical that we work together closely. By so doing, our 
nonproliferation and homeland security efforts will continue to benefit 
from the unparalleled capabilities of the National Laboratories.
    I support fully the concept of locating the new Department's main 
research facility at Lawrence Livermore, with satellite centers of 
excellence located at other national laboratories. It will create a 
campus-like environment where scientists will be dedicated, full-time, 
to thinking about homeland security, and it will allow for direct 
interaction with the expertise that resides at the other DOE labs as 
well as other labs throughout the federal government. It's good for DOE 
and it's good for the Department of Homeland Security.
                               conclusion
    I want to reiterate in no uncertain terms: The National Nuclear 
Security Administration supports fully the transfer of the programs 
noted in Section 302(2) of the bill under discussion. The details of 
what would be included in the legislative package were worked out 
directly with my office. These programs are a natural fit for the 
Department of Homeland Security, whose primary mission is the critical 
task of protecting the United States from catastrophic terrorism. DOE/
NNSA will also work to ensure that its assets can continue to 
contribute enabling science and technology in support of DHS mission 
needs.
    Obviously, that is a goal that I am pleased to support 
wholeheartedly. I believe that the Administration's proposed 
legislation represents a major step toward its realization.
    Thank you, and I look forward to any questions you may have.
                                 ______
                                 
    Prepared Statement of Robert A. Bryden, Staff Vice President of 
                      Security, FedEx Corporation
    Mr. Chairman and Members of the Committee,
    My name is Robert A. Bryden, Staff Vice President of Security for 
FedEx Corporation, the parent corporation of FedEx Express. It is an 
honor for me to address this committee and speak about the very 
important topic of cargo security, particularly the prevention of the 
importation of unauthorized radiological materials into the United 
States. As you know, for at least six months FedEx has been in close 
contact with members of the staff of this committee on this subject. We 
have had several meetings with Ray Shepard and Chris Nauer, and have 
allowed them to tour our facilities at Charles DeGaulle Airport in 
Paris, and our National Hub at Indianapolis. We have fully cooperated 
with staff, and trust that they have provided you with the information 
you need and desire.
    I would like to discuss some of the measures that FedEx utilizes in 
the detection and handling of radioactive materials. FedEx has a multi-
layered security program in place to detect the presence of unapproved 
dangerous goods, including radioactive materials, and prevent their 
movement in the FedEx worldwide system. These include, but are not 
limited to, employee training and awareness programs, physical 
screening of packages originating at certain security-sensitive areas 
of the world, and radioactive monitoring devices aboard FedEx aircraft 
and on FedEx employees. In addition, our ability to track and trace 
shipments back to the place of tender constitutes a significant 
deterrent to utilizing the FedEx system for the shipment of illegal 
materials. While we are confident that these measures exceed those of 
any other transportation company in the world, the events of 9/11 have 
shown us that the state-of-the-art must be advanced. To that end, we 
have deployed, on a trial basis, advanced radioactive monitoring 
sensors at our Indianapolis Hub. This is a much more difficult endeavor 
than one might initially think. Because of the normal volume of 
radioactive shipments that FedEx routinely transports, such as 
pharmaceuticals, it is difficult to calibrate the sensors to detect 
undeclared shipments while at the same time not creating ``false 
alarms'' for legal shipments. The Indianapolis sensing equipment is 
very sophisticated, and can be finely tuned. In addition, it measures 
different types of radiation, and appears to be up to the task of 
adding a significant, additional layer of security to the FedEx system. 
We would be happy to update you periodically as we gather more data. If 
the trials continue to be successful, we intend to deploy the equipment 
at significant FedEx facilities throughout the world.
    Again, I would like to thank you for the opportunity to address the 
committee. Security is a shared responsibility, and I want you to know 
that FedEx has committed its time, expertise, and money to ensure that 
its worldwide express delivery system is not employed as a tool of 
wrongdoers. I would be happy to answer any questions that you may have 
at this time.
                                 ______
                                 
Prepared Statement of Frank Panico, Manager, International Networks and 
              Transportation, United States Postal Service
    Good morning, Mr. Chairman and members of the Subcommittee. Thank 
you for this opportunity to speak with you today about in-bound 
international mail.
    We share your concerns about the possible use of the mail to ship 
radioactive materials and other potentially dangerous substances. As 
events of the past year have demonstrated, the United States Government 
must be more vigilant than ever in regard to both international and 
domestic terrorism.
    Needless to say, compromising the U.S. Mail system has the 
potential to adversely impact the entire nation through a single 
terrorist act, so we take threats to this system very seriously.
    Last year, Congress provided the Postal Service with $500 million 
in the Fiscal Year 2002 Department of Defense Appropriations bill. The 
conference report required that the Postal Service prepare a 
comprehensive Emergency Preparedness Plan. The Emergency Preparedness 
Plan was submitted to Congress on March 6, 2002.
    The Postal Inspection Service provided the Postal Service with a 
threat assessment, which serves as a basis for our Emergency 
Preparedness Plan. The Postal Inspection Service maintains a continuous 
liaison with all appropriate federal law enforcement agencies and 
monitors threats to the nation and its mail.
    The threat assessment concluded, ``Accordingly, the Postal Service 
believes, and is acting on the assumption that the threat for the 
inappropriate use of the mails continues.'' The threat assessment also 
notes, ``The greatest opportunities to limit the damage of covert NBC 
[nuclear, biological, or chemical] attacks, or prevent them entirely, 
exist during the first phases of the incident.''
    Therefore, our Emergency Preparedness Plan places a premium on 
threat identification, combined with protection to both employees and 
customers of the Postal Service at the earliest feasible point in our 
distribution system.
    Unfortunately, the Postal Service has had to deal with the issue of 
bombs in the mail for a number of years. The most widely reported case 
was the Unabomber, but there have been other incidents over the years. 
As a result, we continue to educate our employees about identifying 
suspicious packages, particularly package bombs. Beyond education, we 
make responsible changes to our processes as necessary to meet new 
threats.
    For example, in 1996, the Postal Service revised our procedures for 
accepting domestic and international parcels for mailing. Since that 
time, all domestic stamped parcels and all international and military 
mail weighing 16 ounces or more must be presented in person to a postal 
retail clerk or letter carrier. As a result, the number of package 
bombs in the mail system dropped from 18-20 per year to an average of 
about 3-5 per year.
    The Postal Service is looking at a variety of process changes and 
technology initiatives that could be applied to the threat of chemical, 
biological and radiological hazards in the mail.
    As described by the plan, the Postal Service is currently testing 
bio-detection technology on the automated processing equipment at one 
of our mail processing plants. This equipment has already passed tests 
at Edgewood Arsenal. In addition, we are testing filtration devices to 
improve our employee safety and to minimize cross-contamination of the 
mail. We anticipate a contract award by the end of September.
    Careful review and consideration is being given to all currently 
available processes and technologies. The paramount conclusion is that 
no single solution exists to solve the complex problem of using the 
mail as a tool of terrorism. Further, no solution or even series of 
solutions can totally eliminate the threat.
    To assist us in this review, we have contracted with Mitretek 
Systems to perform a comprehensive threat analysis. Mitretek is a well-
respected, nonprofit systems-engineering company that provides 
programmatic and technical support on chemical, biological, 
radiological, and conventional weapons threats to the U.S. defense and 
intelligence communities.
    In fact, Mitretek's President and CEO, Dr. Lydia W. Thomas, has 
been appointed to serve on the recently established Homeland Security 
Advisory Council by President Bush.
    This assessment will review threats that may impinge on the mail, 
including the full spectrum of biological, chemical, explosive, and 
radiological threats. The assessment considers threats that may be 
directed at the Postal Service or may use the Postal Service as a 
vehicle.
    As a result of this assessment, we will propose steps that may be 
taken to counter the threats and develop an overall risk/cost/benefit 
analysis, including an estimate of system effectiveness for protecting 
employees and customers, and for ensuring the continuity of postal 
operations in the event of a terror attack.
    The viability of the Postal Service, and its value to the American 
people, is dependent upon an open and accessible system. Extreme 
procedural changes could reduce threats, but would significantly damage 
the usefulness of the mail to the American people--and the American 
economy.
    Since the anthrax attacks, the Postal Service has worked closely 
with both the Office of Homeland Security and the President's Office of 
Science and Technology Policy. We provided both of these organizations 
with copies of our Emergency Preparedness Plan and followed up with 
briefings to their staffs.
    Building upon our Emergency Preparedness Plan, we worked with 
Homeland Security in the development of a national Critical 
Infrastructure Plan. The Office of Science Technology and Policy has 
established the Inter-Agency Working Group for the protection of 
vulnerable systems, a group on which our Vice President of Engineering 
sits. He chairs the Mail and Package Working Group. This group is 
evaluating existing technology, as well as providing guidance as to 
where research and development efforts should be best directed.
    We also continue to coordinate with all appropriate agencies about 
mail security, including the US Customs Service. The USPS and the 
Inspection Service have met with Customs and discussed the potential 
for radiological, chemical and biological hazards in foreign-
originating mail.
    Most of our previous discussions have centered on the examination 
of outbound mail, as the Customs Service has the authority and 
responsibility for the examination of all in-bound mail and cargo.
    In addition, the Dangerous Goods Subgroup of the Universal Postal 
Union's Postal Security Action Group (PSAG) is working closely with the 
International Atomic Energy Agency (IAEA) to address the issue of 
radioactive materials in the mail. PSAG has worked with some of the 
international posts that have experimented with screening mail.
    While these experiments have identified low-level radioactive 
materials, such as smoke detectors and medical equipment, there have 
been no instances of suspicious radioactive mailings.
    As for international mail, we believe that the Customs Service is 
the agency with the responsibility and authority to detect radiological 
material imported into the country. And Customs has assured us that it 
is working on the issue. We believe Customs would be the most effective 
and efficient agency to perform this duty and we will continue to work 
with them, and all appropriate agencies at home, and abroad, to assure 
the safety of America's mail system.
    To that end, we would be pleased to work with this Committee in any 
way possible to preserve the security and the usefulness of the United 
States mail.
    Thank you, Mr. Chairman. I would be happy to respond to any 
questions or suggestions you might have.
                                 ______
                                 
     Prepared Statement of Wayne J. Shotts, Associate Director for 
 Nonproliferation, Arms Control, and International Security, Lawrence 
                     Livermore National Laboratory
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. I am Wayne Shotts, the 
Associate Director for Nonproliferation, Arms Control, and 
International Security at the Lawrence Livermore National Laboratory 
(LLNL). I am responsible for managing the work being conducted at the 
Laboratory that pertains to homeland security. The urgency of our 
efforts has increased dramatically in the wake of September 11. The 
events of that day tragically make clear that the United States is not 
immune to the scourge of terrorism, and they call for the nation's 
leaders and technical community to take dramatic steps to improve 
homeland security.
    Enactment of legislation to form a Department of Homeland 
Security--an idea supported by the President and the Congress--will 
fundamentally change for the better the nation's approach to preventing 
terrorist attacks on the United States, reducing the nation's 
vulnerability to terrorism, and managing the aftermath of any attack. 
The mission is complex and daunting in scope. One major challenge for 
the new department will be effective integration of relevant 
activities, which are currently dispersed among many government 
organizations. Another challenge will be focusing the unsurpassed 
scientific and technical talent of this nation to improve capabilities 
to deal effectively with threats, those most critical today and as well 
as those emerging in the future.
    I support formation of a Department of Homeland Security and I am 
here to comment from a technical perspective on both the needs of the 
new department to pursue a sustained research, development, testing, 
and evaluation (RDT&E) program and the capabilities available to it to 
do so. Currently, RDT&E capabilities are dispersed, but there is an 
important concentration of them--particularly related to chemical, 
biological, radiological and nuclear threats--in the Department of 
Energy's National Nuclear Security Administration (NNSA) and its 
laboratories and other sites. I will discuss relevant capabilities at 
LLNL and some of the important programs and partnerships we have in 
place. They illustrate LLNL's approach to developing and deploying 
technologies and systems to strengthen homeland security and the 
success we are having in placing the right tools in the hands of the 
right people.
    Effective partnerships among the various sources of expertise and 
with the users of new capabilities are required to make necessary 
improvements in homeland defense to cope with today's dangers and 
prepare for the threats of tomorrow. Focus on the most effective 
approaches to the highest priority issues is also required. At LLNL, we 
are anxious to contribute to homeland security to the best of our 
abilities and confident that we can help make the Department of 
Homeland Security a success.
               llnl's contributions to homeland security
    Lawrence Livermore National Laboratory was established 50 years ago 
to pursue innovative solutions to the nation's pressing needs to 
advance nuclear weapons science and technology. Since then, the 
Laboratory has continually adapted to address the evolving challenges 
of the day and anticipate future needs, keeping a central focus on 
national security. As one of NNSA's three national laboratories, LLNL 
is a principal participant in the Stockpile Stewardship Program to 
maintain and enhance the safety, security, and reliability of the 
nation's nuclear weapons stockpile. The Laboratory is also engaged in 
vital national programs to reduce the threat posed by the proliferation 
of weapons of mass destruction (WMD) and to provide for homeland 
security. These complementary missions--stockpile stewardship and 
countering WMD threats--are integrally connected in terms of their 
overarching goal of enhancing security, and the research activities 
largely draw on the same base of scientific and technical capabilities 
and expertise.
    Because Livermore and our sister NNSA laboratories (Los Alamos and 
Sandia) have long been working to develop technical capabilities to 
detect, counter, and mitigate WMD proliferation and terrorism, we were 
able to respond rapidly and effectively to the events of September 11 
and its aftermath. Although those investments are paying great 
dividends in the newly declared war on terrorism, substantial sustained 
investment is needed to develop vastly improved warning and response 
capabilities to protect the U.S. against these threats, now and in the 
future. We are fully committed to this long-term national security 
endeavor and are well positioned to provide RDT&E support to the 
Department of Homeland Security.
    Lawrence Livermore is contributing widely and effectively to the 
war against terrorism with capabilities and partnerships and through 
RDT&E programs directly relevant to the Department of Homeland 
Security's mission. The provided examples illustrate three major points 
about the Laboratory:

<bullet> LLNL has demonstrated the capability to work problems from 
        end-to-end--starting with an understanding of the threat and 
        the users' needs, devising a systems solution, developing the 
        enabling technology advances, testing both the component 
        technologies and systems solution in cooperation with users, 
        moving the new technologies to U.S. industry, and working with 
        the user community to ensure effective deployment and training.
<bullet> LLNL has strong capabilities and active programs in each of 
        the WMD areas--chemical, biological, radiological, and nuclear. 
        In addition, the Laboratory has major programmatic activities 
        in threat assessment and intelligence support as well superb 
        supercomputing capabilities. Accordingly, we have a ``critical 
        mass' of programs and capabilities that provides the Laboratory 
        an excellent overall perspective of threats, technical 
        opportunities, and user needs.
<bullet> LLNL has many strong ties to research partners and the user 
        community--including sister laboratories, the Nevada Test Site 
        for remote testing, a wide range of universities, and many ties 
        at the local- and state-government level.
  the capability to work problems from end-to-end--basis as an example
    A research and development program particularly focused on the area 
of WMD terrorist threats is an integral part the legislative proposal 
for a Department of Homeland Security for good reason--the nation faces 
a dire immediate threat that unquestionably will grow more 
sophisticated over time. The nation's vulnerabilities vary widely in 
their significance and their potential for being ameliorated by new 
capabilities and/or changes in operations. What is needed is a 
comprehensive perspective of the issues, a vision where one wants to 
go, and a pragmatic approach to problem solving to put products in the 
field expeditiously.
    At LLNL, we take a systems approach to the overall problem and 
determine what priority items can be dealt with expeditiously with 
existing equipment or modest improvements in technology and where 
investments in longer-term research and development will be necessary. 
In those areas where a new system based on existing or emerging 
technologies can make a substantial difference, it is important to work 
the problem comprehensively with the end user in mind.
    The development of the Biological Aerosol Sentry and Information 
System (BASIS) by Livermore and Los Alamos exemplifies this approach 
and serves as model of how the Department of Homeland Security could 
most rapidly and effectively take technology from the conceptual stage 
through to actual deployment. The process is more than R&D, it is 
RDT&E--research, development, testing, and evaluation.
    In late 1999 we were challenged by the Secretary of Energy to 
develop and field a biological detection system in time for the 2002 
Salt Lake City Olympics. At the time, there was no system suitable for 
civilian use for broad-scale biological environmental detection and 
monitoring. Early detection and rapid response are the keys to reducing 
the human health consequences of a biological agent attack. Over the 
next three years, we and our colleagues at Los Alamos developed and 
demonstrated a successful system to meet this challenge. BASIS was 
fielded at Salt Lake City in February 2002 as part of the overall 
security strategy for the Olympic Games where it performed exactly as 
designed. The goal-oriented approach used in this program greatly 
contributed to its outstanding achievement. In particular, BASIS 
benefited from:

<bullet> A Clear Objective at the Outset. For BASIS, clear, top-level 
        objective was established at the beginning of the project with 
        respect to the desired cost and performance attributes of the 
        system. The objective was based on an understanding of the 
        threat, technical possibilities, and user needs. After this, 
        the management of the program and the technical details were 
        left to the technical team.
<bullet> Close Interactions between Users and Technology Developers. 
        There were extensive direct interactions with the Salt Lake 
        Olympic Committee, local, state, and federal response agencies, 
        the public health system, and the technology developers from 
        conception through implementation and operation.
<bullet> Problem-Solving Systems Approach. The sponsors, users, and 
        technologists recognized the need for a system-level solution, 
        not a single technological widget, and for the system to work 
        in conjunction with other equipment (e.g., medical surveillance 
        systems). LLNL and LANL brought together a team of engineers, 
        biologists, computer scientists, and operations specialists to 
        execute the program.
<bullet> Advanced Technology Developed by Labs, Transferred to and then 
        Procured from Industry. The system used the most advanced 
        biological detection technologies available (i.e., PCR). The 
        best biological detection instrument for this application was 
        from a commercial entity (Cepheid) that had earlier licensed 
        the technology from LLNL.
<bullet> Testing and Evaluation against Standards by Recognized 
        Authority. The biological assays were co-developed by LLNL and 
        the Center for Disease Control's (CDC) Bioterrorism Laboratory. 
        The testing regimen was established with law enforcement and 
        public health, assuring a high level of confidence in the 
        system.
<bullet> Transfer of Operations to Contractors. Local contractors 
        provided the bulk of the staff for all aspects of the system 
        operations at the Olympics. LLNL/LANL staff were used in 
        supervisory roles and for technical support.
   strong capabilities and active programs--nuclear and radiological 
                                threats
    As one of NNSA's three national laboratories, LLNL is fully engaged 
in the Stockpile Stewardship Program and has a very large science and 
technology base supportive of work on nuclear weapons, nuclear 
materials, and nonproliferation that can be leveraged to support 
homeland security. The Laboratory is home to one of the nation's two 
research facilities for special nuclear materials. It operates a remote 
test site and has a close working relationship with the Nevada Test 
Site where work that requires even greater isolation is carried out. 
Several activities that contribute to homeland security merit special 
mention:
    Nuclear Threat Assessment Program. The NNSA's Nuclear Assessment 
Program was established in 1977 to provide a national capability for 
correctly and expeditiously assessing the credibility of communicated 
nuclear threats. Shortly after its inception, the Nuclear Assessment 
Program became the central point of contact and action office within 
the NNSA for assessing and monitoring illicit nuclear material 
trafficking incidents worldwide. Selected elements of the program are 
routinely used to provide NNSA technical support to the law 
enforcement, diplomatic and intelligence communities. The major support 
activities include real-time assessments of nuclear threats and black 
market transactions, participation in FBI designated Special Events, 
and providing NNSA courses on nuclear crime at various national and 
international training venues. Since the terrorist attack on September 
11, there has been dramatic increase in requests for our services; we 
have assessed 25 nuclear threats, 90 illicit trafficking cases, and 51 
other nuclear related incidents.
    The operational capability consists of a small group of 
professionals who are collectively knowledgeable in nuclear explosives 
design and fabrication, nuclear reactor operations and safeguards, 
radioactive materials and hazards, linguistics analysis, behavioral 
analysis and profiling, as well as terrorist tactics and operations. 
The assessor teams are organized into specialty teams and operate in 
secure facilities at the three participating NNSA contractor sites. An 
Assessment Coordinating Center at LLNL directs credibility assessment 
operations for the NNSA and provides a single point of contact for 
federal crisis managers during emergency operations.
    Nuclear Incident Response. The Laboratory is a key participant in 
the national nuclear incident response groups, including the Joint 
Technical Operations Team (which deals with nuclear terrorism or 
extortion threats), the Accident Response Group (which responds in the 
event of an accident involving U.S. nuclear weapons) and the 
Radiological Assessment Program (which assists state and local 
agencies). Livermore maintains a deployable response capability, called 
HOTSPOT, which can be transported to any location by military aircraft 
to provide local radiological field support.
    Specifically, the Radiological Assessment Program (RAP) provides 
technical and operational expertise to state and local agencies to 
mitigate the consequences of a radiological incident or emergency. It 
uses DOE and national laboratory experts with skills in assessing 
radiological and toxic contamination and the attendant risks to human 
health. The Livermore RAP teams have primary responsibility for 
California, Nevada, Hawaii, and the U.S. Pacific Rim territories. They 
are called upon, on average, three to five times per year. In 2001, 
they responded to three requests for assistance along with normal 
exercises and training. Typically, RAP investigates containers 
suspected of housing radioactive materials, seeks the location of lost 
industrial or medical radioactive sources, and advises federal, state, 
and local authorities on the consequences of a radioactive release or 
personnel contamination. RAP regularly drills with similar teams from 
other federal agencies, state, local, and tribal governments as well as 
private companies and organizations.
    To deal with the latest emerging threats, LLNL now maintains a home 
team capability to assist response workers at all levels. The home team 
is trained to recognize and respond to nuclear terrorism. Included 
within this umbrella is the ability to supply timely interpretation of 
signals from field instruments (the so-called ``nuclear triage' program 
being developed at NNSA headquarters).
    Search and Inspection Technologies. There is a pressing need for 
technologies to improve the screening of passengers, baggage, and 
cargo. Candidate technologies, in various stages of development at 
Livermore, include computed tomography (CT), x-ray scanning, gamma-ray 
imaging, neutron interrogation, and ultrasonic and thermal imaging. 
These efforts build on projects and expertise in the Stockpile 
Stewardship Program to develop improved sensors for non-destructive 
evaluation of the condition of weapons and weapon components in the 
stockpile. NNSA has assigned LLNL the responsibility to establish a 
national test bed for the inspection of cargo containers (discussed 
further below).
    Two Laboratory-developed search technologies demonstrated their 
applicability to counterterrorism response when they were deployed to 
the World Trade Center. The first, a micropower radar, can ``see' many 
feet into concrete rubble and could be a valuable tool for search and 
rescue operations. The other, a remote monitoring instrument that uses 
hyperspectral data to detect and identify trace gas emissions, was 
flown over Ground Zero to characterize hazardous gases emanating from 
the rubble.
    Sensor Networks. Livermore has developed a concept for correlated 
sensor networks for detecting and tracking ground-delivered nuclear 
devices or nuclear materials, the Detection and Tracking System (DTS). 
A novel algorithm integrates data from the various sensors, together 
with information from other sources (e.g., an intelligent traffic 
system) to identify sources of concern, track their movement through 
the road network, and guide responders in intercepting the suspect 
vehicle. Since September 11, DTS development was accelerated and a 
prototype system was demonstrated in an urban environment. We are 
preparing for further, larger scaled demonstrations of this system with 
added capabilities.
   strong capabilities and active programs--biological and chemical 
                                threats
    Bioscience research at the Laboratory traces its root to 1963, when 
a program was established to study how radiation and chemicals interact 
to produce adverse consequences to humans. Research activities at LLNL 
and LANL led to a focus on DNA and technology development that led to 
DOE's decision to launch its Human Genome Initiative in 1987. Both 
laboratories are part of DOE's Joint Genome Institute, which includes 
Lawrence Berkeley National Laboratory and is located in nearby Walnut 
Creek, California, and have contributed to deciphering the human 
genetic code. We are applying our expertise in genomics to counter the 
threat of bioterrorism. In addition, in support of Livermore's national 
security and other programs, the Laboratory also has outstanding 
capabilities in chemistry and materials science.
    Biological Agent Detectors. The biodefense capabilities that have 
been deployed in the wake of September 11 have, at their core, advances 
in biological detection instrumentation developed at Livermore. We have 
made technology breakthroughs in biodetection instrumentation, 
pioneering the miniaturization and ruggedization of both flow cytometry 
and DNA identification devices. Our miniature thermal cycler unit makes 
possible DNA amplification via polymerase chain reaction (PCR) and 
identification in minutes rather than the hours and days previously 
required. Livermore's miniaturized PCR technology has been licensed to 
private industry and forms the basis of today's most advanced 
commercial biodetection instruments (e.g., Cepheid's Smart Cycler, 
Environmental Technology Group's handheld biodetector).
    Cepheid Smart Cyclers are the heart of the field laboratory of the 
Biological Aerosol Sentry and Information System (BASIS), developed 
jointly by Livermore and Los Alamos and previously discussed. In 
developing BASIS, the two laboratories worked closely with the many law 
enforcement, emergency response, and public health agencies that would 
be involved in dealing with a bioterrorism event to develop appropriate 
sample handling (chain of custody), communications, and response 
protocols.
    DNA Signatures. Biodetectors depend on unique antibodies or DNA 
sequences to identify and characterize biological pathogens. Livermore 
is developing gold-standard DNA signatures of top-priority threat 
pathogens (anthrax, plague, etc.) and are working with the Centers for 
Disease Control and Prevention (CDC) to validate these signatures and 
distribute them to public health agencies nationwide. We are also 
working with the Federal Bureau of Investigation, CDC, Department of 
Defense, and U.S. intelligence agencies to develop detailed biological 
``fingerprints' and data to support forensic analysis of any act of 
biological terrorism.
    Chemical Analysis for Forensic Attribution. Timely and complete 
analysis of suspect chemicals can answer important questions related to 
nonproliferation, counterterrorism, and law enforcement. Our Forensic 
Science Center has assembled a unique capability for detecting and 
characterizing ultratrace levels of virtually any compound in any 
sample matrix. Expertise and instrumentation are available for complete 
chemical and isotopic analysis of nuclear materials, inorganic 
materials, organic materials (e.g., chemical warfare agents, illegal 
drugs), and biological materials (e.g., toxins, DNA). The Forensic 
Science Center also develops advanced laboratory and field capabilities 
for ultratrace analysis, including a portable (55-pound) gas 
chromatograph/mass spectrometer, field kits for thin-layer 
chromatography, and novel sample collectors using solid-phase 
microextraction.
    The Forensic Science Center has begun the rigorous testing required 
to become the second U.S. laboratory certified by the Organization for 
the Prohibition of Chemical Weapons (OPCW), which is responsible for 
implementing the Chemical Weapons Convention (CWC). Under the terms of 
the CWC, all samples collected from inspected facilities must be 
analyzed at two OPCW-designated laboratories. The U.S. Congress 
mandates that all U.S. samples be tested in the U.S. Currently, the 
U.S. has only one designated laboratory, the Edgewood Chemical and 
Biological Forensic Analytical Center. Livermore will provide the 
second required facility.
strong capabilities and active programs--underpinning capabilities and 
                               facilities
    Several special capabilities at Livermore merit special mention 
because they provide broad yet critical support to homeland security: 
our International Assessments Program, the National Atmospheric Release 
Advisory Center (NARAC), the Counterproliferation Analysis and Planning 
System (CAPS), high-performance computations, and the Computer Incident 
Advisory Capability.
    Intelligence Analysis and Threat Assessment. One of the most 
critical, yet difficult, elements of homeland security and 
counterterrorism is gaining insight into the capabilities, intentions, 
and plans of persons, groups, or states hostile to the U.S. Our 
International Assessments Program (Z Division) is one of the strongest 
capabilities in the country for analysis and research related to 
foreign nuclear weapons and other weapons of mass destruction, 
including early-stage foreign technology development and acquisition, 
patterns of cooperation, and foreign cyber threats. Such intelligence 
analyses serve as the foundation for homeland defense against WMD 
threats. Intelligence provides an essential input to threat analyses 
that, in turn, provide the basis for defining functional requirements 
for technical homeland security systems. Furthermore, intelligence can 
provide ``indications and warning' of an imminent attack, thus guiding 
further deployment of defensive assets. Thus there is a critical need 
for both long-term, in-depth intelligence analysis and timely, 
responsive indications and warning.
    Z Division regularly provides analysis products to our 
intelligence, defense and policy-making customers. Our assessments of 
foreign weapons programs and activities provide important input to 
policy makers and diplomats as they develop strategies for U.S. 
responses to events affecting national security. The capabilities in Z 
Division also support our Nuclear Threat Assessment Program (previously 
discussed), which analyzes nuclear terrorist threats and smuggling 
incidents.
    In addition to filling a critical niche by providing all-source 
intelligence analyses of foreign nation-state programs to acquire WMD, 
we develop data analysis tools and data integration methods to aid 
intelligence collection and assessment and avoid the pitfalls of 
information stovepiping. Some of these tools are currently being 
evaluated by our analysts as well as end-users across the Intelligence 
Community, while many others are under intense development and will be 
applied to the counter-terrorism problem. In the aftermath of September 
11, we provided intelligence analysts and assessments as well as 
information-operations tools and expert personnel to the U.S. 
Intelligence Community.
    Atmospheric Modeling for Consequence Management. The National 
Atmospheric Release Advisory Center (NARAC), located and operated at 
the Laboratory, is a national emergency response service for real-time 
assessment of incidents involving nuclear, chemical, biological, or 
natural hazardous material. NARAC can map the probable atmospheric 
spread of contamination in time for an emergency manager to decide 
whether protective actions are necessary. NARAC is on call to respond 
to real incidents and can also be used to evaluate specific scenarios 
for emergency response planning, such as optimizing the siting of 
bioaerosol samplers or determining evacuation routes.
    Since it was established in 1979, NARAC has responded to more than 
70 alerts, accidents, and disasters and has supported more than 800 
exercises. In addition to accidental radiological releases (e.g., 
Chernobyl, 1986; Three Mile Island, 1979), NARAC has assessed natural 
and manmade disasters (Mt. Pinatubo volcanic ash cloud, 1991; Kuwaiti 
oil fires, 1991). NARAC has also provided assessments to state and 
local responders to toxic chemical accidents (e.g., Richmond sulfuric 
acid cloud, 1993; Sacramento River Spill, 1991). State and local 
agencies can request NARAC support for actual releases or planning by 
contacting DOE's Office of Emergency Response or the NARAC program 
office at Livermore.
    The Counterproliferation Analysis and Planning System (CAPS). 
Developed continually updated by LLNL, Counterproliferation Analysis 
and Planning System (CAPS) is a versatile and powerful modeling system 
for analyzing, end-to-end, a proliferator's WMD production processes 
and for assessing interdiction options and their corresponding 
consequences. CAPS is as easy to use as a Web browser, with its 
powerful and complex science (spectral analysis, toxic release 
modeling, etc.) invisible to the user. CAPS is widely accepted by the 
military's mission planners and is the Department of Defense's 
preferred counterproliferation planning tool.
    High-Performance Computing. With supercomputers acquired as part of 
NNSA's Advanced Simulation and Computing (ASCI) program and additional 
institutional investments in massively parallel computers, Livermore is 
an international leader in high-performance computing. Many 
groundbreaking applications are being developed. An example directly 
relevant to homeland security is our computational biology work 
directed at genomics--the development and use of bioinformatics tools 
and databases.
    We have developed computational tools to automatically identify 
regions of bacterial and viral pathogen genomes that have a high 
probability of being unique to that genome. We can now process any 
draft or finished pathogen genome in a few hours and confidently detect 
all regions that are not ``matched' in any other known sequenced 
genome. This capability has been tested on numerous bacterial and viral 
pathogens both at LLNL and with collaborators such as the Centers for 
Disease Control, the U.S. Army Medical Research Institute of Infectious 
Diseases, and the Department of Agriculture. We are currently using 
this unique computational capability to satisfy pathogen detection 
needs of these and other federal and state agencies.
    Building on the approach we are taking, we will attempt to tackle 
more complex problems such as automatically determining all protein 
signature targets in a genome and determining the ``pathomics' of 
virulence across all pathogens (i.e., the molecular mechanisms of 
virulence itself). The computational needs to address these problems 
will require use of cutting-edge supercomputer resources such as those 
at LLNL.
    Computer Incident Response. LLNL is home to DOE's Computer Incident 
Advisory Capability (CIAC), which was formed in 1989. We assist any DOE 
facility that experiences a computer security incident with analysis, 
response, and restoration of operations. CIAC serves as DOE's watch and 
warning center, notifying the complex of vulnerabilities that are being 
exploited, specifying countermeasures to apply, and providing a picture 
of the attack profile. The center also develops science and technology 
solutions in support of computer network defense and products such as 
SafePatch, which earned its developers a Government Technology 
Leadership Award. CIAC's list of clients has grown to encompass other 
government agencies, and there have been several incidents where the 
team worked with the Federal Bureau of Investigation.
        strong ties to research partners and the user community
    One key attribute of LLNL is the Laboratory's proximity to 
important assets--potential major partners in RDT&E and 
commercialization as well as key customers for homeland security. The 
San Francisco Bay Area is home to three international airports, two 
seaports, an FBI field office, Customs and INS headquarters, Silicon 
Valley, area biotechnology firms and health-care providers, mass 
transit and rail systems, and high-visibility targets (e.g., Golden 
Gate Bridge). In addition, as part of University of California, LLNL 
has close ties with the many UC campuses in the area (Berkeley, San 
Francisco, Davis, and Santa Cruz) as well as Stanford University (and 
associated medical schools). We are also right next to Sandia-
California. Almost every aspect of the homeland security equation is 
just minutes away from Livermore.
    Many of our various research partners are cited throughout my 
testimony. An often overlooked--yet important--aspect of a successful 
research and development program is understanding the users' needs. 
Additional examples of our connections and work with the user community 
follow.
    Expert Personnel Assisting in Homeland Security. Livermore 
scientists serve on various task forces, committees, and advisory 
groups dealing with aspects of homeland security and counterterrorism. 
For example, a Livermore expert on x-ray imaging is a member of the 
National Academy of Science Committee on Assessment of Technology 
Deployed to Improve Commercial Aviation Security. Other Laboratory 
scientists serve as technical advisors to the U.S. Customs Service, the 
National Guard, and the Los Angeles Emergency Operations Center, and as 
members or advisors to various Defense Science Board task forces 
addressing homeland defense. Still others are assisting the California 
Highway Patrol and the California State Office of Emergency Services 
(OES) with training related to weapons of mass destruction and serving 
as members of the California Council on Science and Technology, which 
is providing technical advice to the OES's State Strategic Committee on 
Terrorism.
    Forensic Science Support to Law Enforcement. Over the years, 
Livermore's Forensic Science Center (previously discussed) has 
responded to many requests from law enforcement for assistance in 
forensic analysis of unique samples. Since September 11 and the 
subsequent anthrax scare, hundreds of samples of concern have been 
analyzed for local and federal law enforcement and government 
officials. Previously, the Center has been brought in to analyze 
Supernote counterfeit bills, methamphetamine samples, biotoxins, 
suspect chemical-warfare specimens, and nuclear contraband. It has 
characterized explosive traces from the 1993 World Trade Center 
bombing, the Unabomber case, and the Fremont serial bomber; performed 
forensic sleuthing related to the Riverside ``mystery fumes' case; 
analyzed samples for the Glendale ``Angel of Death' case; and analyzed 
Capitol Hill offices as requested following anthrax decontamination. 
Locally, the Center assisted Livermore police by rapidly identifying a 
vapor that sickened response personnel at the scene of a suicide; once 
the chemical was identified (malathion), law enforcement agencies were 
able to take appropriate personnel-protection measures and complete 
their investigation.
    LINC for Improved Emergency Preparedness. Through the LINC program 
(Local Integration of the National Atmospheric Release Advisory Center 
with Cities), we are currently working with local agencies in the 
Seattle area. A LINC pilot project is testing and evaluating the 
effectiveness of an approach to emergency preparedness that offers the 
potential for dramatic improvements. Sponsored by NNSA's Chemical and 
Biological National Security Program, LINC integrates capabilities at 
LLNL's NARAC (previously discussed) with local emergency management and 
response centers. Ultimately, LINC's goal is to provide continuous 
operation of an integrated, nationalwide system that aids emergency 
preparedness and response at all levels of government.
    A National Test Bed for Standards, Test, and Evaluation. One key 
function of the Department of Homeland Security will be the setting of 
standards for technical homeland security systems. To set such 
standards will require practical, technical judgment, with 
consideration of the threats that the technology is intended to 
address, a concept of operations for its use, and the infrastructure 
necessary to use it effectively. This process must involve the 
Intelligence Community, end users in federal, state and local 
government, and technical experts. Candidate technologies must undergo 
objective testing and evaluation to determine how well they satisfy the 
standards, as input to acquisition decisions by those with operational 
responsibilities.
    NNSA has assigned LLNL the responsibility to establish a national 
test bed for the inspection of cargo containers for chemical, 
biological, radiological, and nuclear weapons and materials. To meet 
this responsibility, we have initiated threat analyses to establish the 
range of threat scenarios that such inspection systems should address. 
We have also begun a research program, based on calculations and 
experiments, to characterize the relevant ``observables' for successful 
detection. We have engaged federal, state and local organizations with 
operational responsibilities in this area to factor in their practical, 
operational constraints. We have set up a test facility where exemplar 
containers are loaded with surrogate materials, as well as typical 
cargo, so that commercial equipment and research prototypes can be 
tested in meaningful scenarios. We believe that this methodology should 
be extended to other terrorist scenarios of concern.
    Risk and Vulnerability Assessments of Critical Facilities. Through 
our participation in DOE's Vulnerability and Risk Assessment Program, 
we have made systematic assessments of the threat environment, cyber 
architecture, physical and operational security, policies and 
procedures, interdependencies, impact analysis, risk characterization, 
and possible mitigation measures for the 2002 Winter Olympic Games in 
Salt Lake City, eleven electric and gas infrastructures, and several 
independent service operators (ISOs), including the California ISO 
during the electrical energy crisis. We have also analyzed the 
vulnerability of buildings, dams, and other structures to catastrophic 
damage from earthquakes and explosive events. Projects have included 
evaluation of the earthquake vulnerability of major bridge structures 
(including the Golden Gate and San Francisco-Oakland Bay bridges), the 
structural integrity of nuclear material shipping containers for a 
variety of impact scenarios, and the likely damage resulting from the 
explosion of natural gas storage tanks in a suburban environment.
    More generally, LLNL has applied risk and decision theoretic 
methodologies to a wide range of hazardous endeavors, both internal to 
the Laboratory and for the public sector, and we can be considered a 
major scientific contributor to the discipline of risk assessment and 
risk management. We have developed methodologies for and conducted risk 
assessments of nuclear power generation, nuclear explosive operations, 
information systems, transportation systems and hazardous material 
protection (called vulnerability analyses) to identify and enhance 
safety, safeguards and security. In addition, LLNL has assisted other 
federal agencies in the application of risk management.
    Engineering a Novel Truck-Stopping Device. In October 2001, the 
Governor of California contacted Livermore requesting assistance to 
develop a means of stopping tanker trucks, to keep hijacked trucks from 
becoming motorized missiles. The objective was to make it possible to 
stop these large trucks using equipment readily available to peace 
officers, namely their vehicles and their weapons. A retired Livermore 
engineer and consultant teamed with Laboratory engineers, technicians, 
and heavy equipment operators to develop a simple mechanical device to 
accomplish this. It can be readily attached to the back of a tanker 
truck. When bumped from the rear by the patrol vehicle, the device 
would cause the trailer braking system to lose air pressure 
automatically locking the trailer brakes. A prototype was demonstrated 
in Oakland in late November 2001, and testing at high speeds was 
conducted at the Nevada Test Site in February and March 2002. We are 
currently developing a portable remote-controlled system and working 
with the California Highway Patrol and a major California trucking 
company on implementing a field trial program.
                            closing remarks
    In its efforts to combat terrorism and ensure homeland security, 
the nation can build on an attribute that has made the United States 
the world leader that it is--the remarkable capability of the American 
people to focus extraordinary energy on achieving important objectives 
in a time of need. Establishing a Department of Homeland Security can 
fundamentally change for the better the nation's approach to preventing 
terrorist attacks on the United States, reducing the nation's 
vulnerability to terrorism, and managing the aftermath of any attack.
    As the Administration and many leaders in Congress have already 
stated, to succeed the new department will need to pursue a sustained 
RDT&E program--particularly related to chemical, biological, 
radiological and nuclear threats--that is prioritized to meet prudently 
established objectives. These threats are significant and will grow 
more sophisticated over time. At Livermore, we are fully committed to 
this long-term national security endeavor to improve homeland security 
and are well positioned to provide effective RDT&E support to the 
department. LLNL brings to the Department of Homeland Security relevant 
existing mission responsibilities and programs, experience working with 
a wide range of research partners and users, and a track record of 
taking technologies from concept to prototype development and 
deployment.
                                 ______
                                 
  Prepared Statement of Steven W. Martin, Director, Homeland Security 
            Programs, Pacific Northwest National Laboratory
                              introduction
    Mr. Chairman, members of the House Energy and Commerce Subcommittee 
on Oversight and Investigations; my name is Steve Martin, and I am the 
Director of Homeland Security Programs at the Department of Energy's 
Pacific Northwest National Laboratory (PNNL). On behalf of the 
Laboratory Director, Dr. Lura Powell, I am pleased to provide testimony 
today.
    In this statement I begin with a brief overview of Pacific 
Northwest National Laboratory. This is followed by some comments 
regarding the nature of our homeland security challenges and some 
examples of ways in which PNNL is contributing to help meet the needs 
for securing our homeland. I close with comments on the role of the 
national laboratories managed by the Office of Science and the National 
Nuclear Security Administration in the Department of Energy.
                 pacific northwest national laboratory
    Pacific Northwest National Laboratory (PNNL) is a Department of 
Energy (DOE) multi-program laboratory, managed by DOE's Office of 
Science. Since 1965, the Pacific Northwest Division of Battelle 
Memorial Institute, a not-for-profit entity based in Ohio, has operated 
PNNL for the DOE. PNNL employs approximately 3,500 staff and maintains 
a business volume in excess of $500M annually, $230M of which is 
related to national security work for a number of government clients in 
areas such as combating terrorism, homeland security, proliferation 
detection and monitoring, underground nuclear test detection, nuclear 
weapon dismantlement, nuclear materials safeguards and security, 
environmental and waste characterization, and fundamental science.
                    our homeland security challenges
    Terrorism is not a new phenomenon and for decades PNNL has 
performed work for government agencies with missions designed to combat 
terrorism. Recent events serve to remind us of the vulnerabilities to 
the security of our homeland and it is becoming even more evident that 
there are terrorist elements with a willingness to deploy weapons of 
mass destruction against U.S. interests--both abroad and at home.
    The threat we face is dynamic and complex. We need to be as 
flexible and adaptable as are the adversaries who would threaten us. As 
we organize around the need to manage the risks associated with the 
threats posed by weapons of mass destruction (WMD), we must do so in a 
reasonable and systematic manner. The actual financial costs of 
developing and implementing mitigating strategies and countermeasures 
are only one consideration of a comprehensive risk management strategy. 
We must also ensure that the solution is implemented in a manner that 
considers negative consequences such as reduced operational 
efficiencies or productivity that currently give U.S. industry and the 
U.S. economy a competitive advantage.
    Finally, it is imperative that organizational and technological 
standards evolve that ensure solutions can be integrated across the 
various functions and responsibilities outlined for the new Department 
of Homeland Security (DHS). Solutions must facilitate integration of 
operations and functions, information sharing, and interoperability.
                pnnl contributions to homeland security
    PNNL participated, along with other DOE and NNSA laboratories, in a 
demonstration of national laboratory science and technology with 
potential for application within the Office of Homeland Security. At 
that demonstration PNNL profiled several of the following technologies. 
These are but a few examples that demonstrate that capabilities at PNNL 
span the entire WMD threat spectrum.
    <bullet> Millimeter Wave Holographic Imaging System: This system, 
developed for the FAA for personal security checkpoint screening, is 
capable of detecting all threats and contraband.
    <bullet> Acoustic Inspection Device: This handheld system was 
originally developed by PNNL for inspection of chemical weapon 
stockpiles in Iraq following the 1991 Gulf War. It can be used by Law 
Enforcement Officials to Detect concealments, hidden compartments or 
anomalies in liquid-filled containers and solid form commodities; Sort 
material types into groups of like and unlike, and Identify liquids and 
solid materials over a wide range of temperatures. It has recently been 
commercialized by U.S. Customs as an inspection and screening tool.
    <bullet> Biodetection Enabling Analyte Delivery System (BEADS): It 
is necessary to process large environmental samples to obtain traces of 
threat biomaterial and deliver that material in a small volume to a 
sensor. BEADS enables automated sample preparation for biodetection 
systems.
    <bullet> Plutonium Measurement and Analysis (PUMA): A radiation 
monitoring system that uses glass fibers to detect the presence of 
radionuclides, such as plutonium. This technology offers flexible, 
lightweight, low-power detection capability.
    <bullet> Hazardous Material Chemical Agent Detector (HAZMATCADtm): 
This commercially available tool takes advantage of special (sensitive 
and selective) polymers developed by PNNL and allows faster response 
times to lower concentrations of hazardous chemicals and agents.
    <bullet> WMD Interdiction Training for International and Domestic 
Border Security Officials: In 1997, Congress provided for the U.S. 
training of international border security officers in detecting, 
identifying, and interdicting the smuggling of WMD materials and items. 
Since then, Border Officers from 17 nations have been trained as part 
of the International Border Security Training Program. PNNL is 
responsible for conducting this highly successful training known as 
Interdict/RADACAD at the Hazardous Materials Management and Emergency 
Response (HAMMER) Training Center, a $30M facility located near PNNL at 
the Hanford Site. The value of this program has been demonstrated by 
seizures of sensitive materials in Eastern Europe, including nuclear 
reactor components destined for Iran and a quantity of Uranium-235. The 
border security officials responsible for both of these seizures 
attribute their success to the training they received in this program 
from PNNL at HAMMER.
    PNNL initiated training of U.S. Customs Officers this year. Thus 
far, two 3-day courses in radiation detection and protection and the 
use of advanced detection equipment have been completed. For the 
foreseeable future, one U.S. Customs class per month is scheduled.
    The practical operational environment of HAMMER is enhanced by 
props that include a mock border crossing, a Port of Entry building 
with a loading dock, inspection pit and radiation portal monitor, as 
well as intermodal shipping containers and transport vehicles with 
concealment compartments and traps commonly used by smugglers.
    <bullet> International Emergency Preparedness for WMD: PNNL 
supports a US government-sponsored training program that teaches 
international first responders how to recognize, respond to and manage 
an incident involving a WMD. In addition to the operations training at 
HAMMER, PNNL also supports a course for international mail handlers on 
Postal Chemical/Biological Incident Management. In the same way the 
international WMD interdiction training eventually expanded to 
accommodate U.S. Customs Officers, consideration should be given to 
leveraging this training capability and facility to accommodate the 
government's articulated desire to train U.S. first responders to 
handle WMD incidents.
    <bullet> Federal Emergency Management Information System and EMAD
VANTAGE: Decision support and command and control tools have been 
developed for both emergency managers and emergency responders. These 
tools provide an automated decision support architecture that applies 
to situation planning and response capabilities for large multi-user 
environments.
    <bullet> National Counterdrug Center (NCC): Operational 
coordination (or interoperability) across multiple agencies, missions, 
or functions is a known limiting factor impacting interdiction efforts. 
The NCC is a simulation-based interoperability training system that can 
improve multi-agency operational planning and execution in a virtual 
environment. While the current focus is drug interdiction, this 
national capability can be readily leveraged to accommodate training 
and planning capability for all-threat interdiction to include weapons 
of mass destruction. In addition, since the underlying objectives are 
to support interoperability, it is plausible that the capability and 
concept of simulation-based interactive environments can support the 
needs of first responders (police, fire, and emergency medical) as 
well.
    <bullet> Information visualization and knowledge management: For 
over a decade PNNL has been conducting research that helps government 
analysts deal with the overwhelming amount of information they must 
process. PNNL has developed and successfully deployed tools for 
exploiting large and diverse sets of information and analysts within a 
number of government agencies are currently taking advantage of PNNL 
tools like SPIRE and Starlight to help them connect the dots.
    <bullet> Critical Infrastructure Protection: PNNL is one of many 
DOE laboratories tasked to assure the integrity of energy 
infrastructures by conducting vulnerability assessments and 
recommending risk-mitigating strategies. The bulk of this work has 
focused on the electrical power infrastructure, an area wherein PNNL 
has recognized capability.
    <bullet> Radiological Detection Expertise: Even though PNNL has 
existed for nearly four decades, there are over 50 years of history 
related to radiation detection technology development and deployment as 
a result of the legacy from the Hanford site's involvement in the 
Manhattan project. Instruments incorporating PNNL radiation detection 
technologies have been fielded in a number of locations, including: 
outer space, deep undersea, within the core of both naval and civilian 
reactors, border crossings, international nuclear test detection 
networks, high altitude aircraft, nuclear accident sites such as Three 
Mile Island and Chernobyl, U.S. nuclear complex sites, and deep 
underground. In addition, PNNL staff participate in a number of U.S. 
Government or international policy working groups including the 
Radiation Detection Panel (DOE), the Nuclear Smuggling Working group 
(IAEA), and the Radiation Instrumentation Steering Committee (IEEE.) 
PNNL currently holds leadership positions in the International Nuclear 
Materials Management Association.
    <bullet> Radiation Portal Monitoring Support to US Customs: The 
U.S. Customs Service, Office of Information and Technology (OIT), 
Applied Technology Division (ATD), working with the Department of 
Energy (Pacific Northwest National Laboratory-PNNL), has established a 
terrorist radiation/nuclear detection project to investigate systems 
and technologies to augment and enhance their existing radiological 
detection capabilities. This project addresses the maritime, aviation, 
land crossing, and rail USCS inspection environments.
    the role of science and technology and our national laboratories
    The science and technology response to our homeland security 
challenges must draw broadly on the talent and expertise resident in 
our research universities, our industry, and in all the government 
laboratories managed by multiple agencies. The national laboratories 
managed by DOE's Office of Science and the National Nuclear Security 
Administration will play a very substantial role, particularly on 
weapons of mass destruction issues. These laboratories have specialized 
capabilities in several areas of science and technology, such as the 
control and detection of nuclear materials, and expertise pertinent to 
radiological, chemical and biological threats. The national 
laboratories maintain the interdisciplinary approach and scientific and 
engineering breadth necessary to take a broad systems view of these 
problems, and have the ability to deliver solutions in a secure 
environment.
    I very much appreciate the opportunity to provide this testimony 
and will be pleased to answer questions or provide any additional 
information that would be helpful.
                                 ______
                                 
 Prepared Statement of Barry S. Howe, Vice President, Thermo Electron 
                              Corporation
    Thank you Mr. Chairman and members of the subcommittee for this 
opportunity to submit testimony on behalf of my company, Thermo 
Electron Corporation (NYSE:TMO), a technology company based in Waltham, 
Massachusetts. As a senior executive at a major technology firm, my 
role here today is to offer some ideas on how companies like Thermo 
Electron can be a partner with government to apply proven technological 
solutions to the serious homeland security challenges facing our 
nation--solutions that are already available and in use successfully at 
border checkpoints and in multiple other applications around the world 
today.
    Improving security at the nation's borders, airports, and seaports 
has become a top national priority. Recent events have heightened 
concerns about the potential use of weapons of mass destruction and so-
called ``dirty'' bombs. Given, for example, that the U.S. Customs 
Agency is currently equipped to screen a small percentage of the large 
cargo containers that enter the United States, there are clearly gaps 
in our nation's security system that threaten our country's safety. But 
current technology is available to help mitigate these risks.
    We at Thermo believe that three points are particularly important 
to this hearing: First, when properly installed and operated, current 
radiation-detection systems work very well. They can and have 
successfully thwarted attempts to illegally transport nuclear 
material--regardless of the mode of transport. Second, the United 
States should monitor for radiation in non-traditional locations. 
Third, we should protect our shipping infrastructure against 
terrorists.
             thermo electron background and qualifications
    Thermo Electron offers a comprehensive range of security-related 
instruments--supporting chemical, explosive, radiological, and 
biological-detection capabilities--to help ensure the safety of public 
places and people. Many of these products have and will continue to be 
critical in the detection and prevention of terrorist acts, as well as 
for the emergency and forensic response to such events.
    Our instruments have played an important role in the aftermath of 
September 11th. Authorities in New York and Washington D.C. deployed a 
variety of Thermo instruments to understand the nature and extent of 
the post-attack hazards. For example, Thermo's gas and particulate 
monitors were deployed at Ground Zero and at the Pentagon to assess 
levels of asbestos, carbon monoxide, carbon dioxide, formaldehyde, and 
ammonia to determine whether it was safe for residents and workers near 
the disaster sites to return to their homes and offices. In addition, 
our monitors are in continuous use near the Fresh Kills landfill in 
Staten Island (where Trade Center debris has been transported) to 
ensure that environmental conditions remain safe.
    In the November 2001 anthrax contamination of the Senate Office 
Building, officials used Thermo's sophisticated sampling equipment to 
assess the anthrax threat, monitor the cleanup, and evaluate when it 
was safe to re-occupy the building.
    Thermo also produces the EGIS explosive trace systems, which can 
detect and identify in seconds plastic, commercial, and military 
explosives, as well as ICAO taggants--chemical markers added to 
military explosives in the manufacturing process to assist detection. 
The EGIS system has been approved by the Transportation Security 
Authority (TSA) and we are in current discussions as to how it will be 
deployed in the U.S. to support the Congressional mandate to have 100 
percent of checked baggage screened for explosives by the end of the 
year.
    The EGIS has become the trace-detection standard throughout Europe 
for airport screening of bags and electronic items. It has been used to 
protect embassies in trouble spots worldwide, deployed to screen 
British Rail freight traveling through the Channel Tunnel, used in 
Israel to ensure maximum security at border crossings, and installed in 
mailrooms to screen suspicious packages.
    As part of the unprecedented levels of security at the 2002 Olympic 
Games, the Federal Bureau of Investigation (FBI) used EGIS to search 
for explosives to ensure the safety of athletes and spectators. In 
addition, law enforcement agencies, such as the FBI and the Bureau of 
Alcohol, Tobacco and Firearms (ATF), and forensic laboratories use EGIS 
routinely on-site and in the lab for post-blast investigation to 
determine the type and origin of explosives.
    However, it is our radiation, nuclear-material detection and 
radiological protection products that are most relevant to today's 
hearing. Thermo produces a full range of monitoring systems from hand-
held, mobile, and environmental monitors for first responders to 
complete systems suitable for use in airports and other large public 
venues, as well as tunnels, border crossings, and other checkpoints.
       thermo electron radiation measurement and protection group
    Thermo's Radiation Measurement and Protection group is a world 
leader in its field. Current brand names include Bicron, Eberline, ESM, 
Harshaw, Mini, NE, and NNC. We have been manufacturing and supplying 
equipment to customers worldwide for more than 50 years. Included in 
the Radiation Measurement and Protection staff of approximately 350 are 
mechanical, electrical and software engineers, health physicists, and 
nuclear power plant operators. Their experience ranges from research 
environments, such as NASA, to nuclear submarines. This combination of 
technical prowess and real-world applications expertise is critical to 
our mission of designing and manufacturing sophisticated and 
technologically advanced equipment that is foolproof, yet extremely 
easy to use.
    ISO 9001 certified, Thermo's Radiation Measurement and Protection 
manufacturing facilities have been tested and have been approved by the 
Czech Metrological Institute (Prague Test), German TUEV, PTB, CE, 
International Atomic Energy Agency's (IAEA) Illicit Trafficking 
Radiation Detection Assessment Program (ITRAP Test), American National 
Standards Institute (ANSI), and the Health Physics Instrumentation 
Committee (HPIC), among others.
    In 1987, we began development of a large-scale vehicle radiation-
monitoring system at the request of the steel industry, following the 
inadvertent and widely publicized melting of radioactive sources at 
various facilities. Since then, we have manufactured and installed more 
than 1,400 of these state-of-the-art systems, which we continue to 
update and improve.
    We also manufacture small-scale and pedestrian monitors for a 
variety of applications. End users cover the gambit of national 
laboratories, nuclear power plants, states (both domestic and 
international), steel mills, foundries, metal-recycling facilities, 
solid waste facilities/transfer stations, waste-to-energy plants, and 
most recently, the International Atomic Energy Agency (IAEA) at the 
Vienna International Centre (VIC) in Austria.
    Our systems have been tested again and again the world-over by 
various entities for compliance against rigorous standards as well as 
to evaluate their ultimate level of reliable detection. Through the 
course of this testing, we have consistently met all requirements.
    In 1997, we were invited and successfully participated in the 
Illicit Trafficking Radiation Assessment Program (ITRAP), sponsored by 
the IAEA, INTERPOL, and the World Customs Organization. Our Automobile 
and Personnel Monitor (APM), hand-held FH40G, FieldSpec (isotope 
identifier), and pocket/pager devices (PM1401GN/PM1703GN), products 
developed for this application, have not only surpassed the ITRAP 
requirements for overall performance--sensitivity, usability, and 
reliability--but have proven to be a very cost-effective solution for 
the interdiction of radioactive materials. The Weapons of Mass 
Destruction Civilian Support Team (WMDCST) has equipped their 35 teams 
around the country with our FieldSpec devices.
                   security at international borders
    Since 1992, the U.S. government has spent $86 million on radiation-
detection equipment and personnel training in 30 countries of the 
former Soviet Union and Central and Eastern Europe as part of the 
Second Line of Defense, a Department of Energy initiative. In a study 
released just last month, the General Accounting Office assessed these 
efforts to stop the smuggling of radioactive materials. The report 
detailed a number of problems with the deployment overseas of 
radiation-detection equipment. However, the GAO also recounted 
noteworthy success stories. Over the past 10 years, according to the 
GAO, 181 attempts to smuggle nuclear material have been foiled at 
international borders.
    Thermo Electron has placed 80 radiation-monitoring systems at 
border crossings in 15 countries around the world, including Argentina, 
Austria, Canada, China, the Czech Republic, Estonia, Finland, Germany, 
Latvia, Poland, Slovakia, Spain, United Kingdom, and the United States 
(summarized in Appendix B). They comply with existing international 
standards, and are proof that current, readily available technology can 
make a difference.
    We believe it continues to be an important priority to stop 
smuggling at its source. However, as the GAO report demonstrates, the 
United States government has had little control over other countries' 
use of the radiation-detection equipment that our taxpayer dollars have 
funded. Fortunately, we have designed our equipment to work with 
remote-monitoring capabilities so that any alarm can notify supervisory 
personnel as appropriate. The equipment can also be monitored remotely 
to verify status, review history, and prepare reports detailing any 
alarms, equipment failures, and downtime--which can be a vital part of 
any follow-up program to help ensure the Second Line of Defense program 
increases its effectiveness.
    Ultimately, it is clear from the GAO findings that we cannot rely 
on other nations to prevent the illicit export of radioactive material 
to our shores. We should control our own destiny by having a 
comprehensive radiation-detection program in place at our own borders, 
airports, and seaports.
         monitoring for radiation in non-traditional locations
    Protecting military installations, government buildings, and other 
government facilities remains a critical radiation-detection priority. 
However, the obvious aim of these terrorists is to target our symbols 
and our citizens. Some of the clearest threats today involve large 
gatherings of everyday people at national holiday celebrations, 
parades, protests, and sporting events.
    We believe the federal government can provide protection at these 
venues that is flexible, effective, and a prudent use of public funding 
using mobile systems, including handheld devices, described in Appendix 
A, the product section of this document.
   protecting the nation's shipping infrastructure against terrorists
    Courier services and the postal system are obvious areas of 
vulnerability. Recent anthrax incidents have taught us that terrorists 
can send their packages of destruction using our own infrastructure.
    Thus, the same detection systems that the United States should put 
in place at our borders, seaports, and airports should also be 
installed at courier and shipping locations around the world.
    A leading worldwide courier service has been testing a radiation-
monitoring program with Thermo Electron equipment at a U.S. facility. 
We are also in discussions with other commercial vendors to determine 
their needs at locations around the world. We believe a comprehensive 
system of radiation-monitors at courier sites would go a long way in 
defending this nation and others against terrorism.
                               standards
    One topic that may be discussed today is whether the U.S. should 
delay deployment of radiation-detection systems to develop new, U.S. 
standards for these devices. Thermo has participated in the development 
of existing standards and would be willing to offer expertise again in 
the ongoing development of any new standards.
    Thermo's devices already comply with the existing international 
standards that were developed with extensive involvement of American 
experts. An integral part of the standards requires manufacturers to 
have all products independently tested. These standards were approved 
by two highly respected, multi-national organizations--the 
International Atomic Energy Agency and the International 
Electrotechnical Commission. They are also the basis for American 
Society for Testing and Materials standards, now in draft form. We 
believe the existing international standards, and the ASTM draft rules 
modeled on them, do constitute a well-considered and effective system 
of protection.
    One critical issue for the committee is how our government can 
fully leverage the capability of the nation's technology providers and 
expedite the deployment of proven equipment that can effectively detect 
radiation today.
    September 11th and its aftermath have brought the threat of nuclear 
and radiological terror to the national consciousness. But we at Thermo 
have been working successfully to develop solutions for a robust and 
reliable security system for years--in close partnership with entities 
like the Department of Energy, the Department of Justice, U.S. Customs, 
the national laboratories, as well as city and state emergency response 
teams and first responders.
    Of course, terrorists will always try to defeat any security system 
to accomplish their destructive goals. That is why United States 
government agencies and the nation's technology companies should 
continue to work in partnership to develop even better technologies for 
tomorrow. We at Thermo continue to invest R&D resources to leverage our 
current technologies as platforms for the next generation of advanced 
products, including looking at ways to integrate our multiple, proven 
detection capabilities--radiation, explosives, chemical, and 
biological--into a comprehensive solution.
    But products that are effective and available today can be put in 
place immediately to ensure the security of our nation, and the safety 
of our citizens.
    Thank you Mr. Chairman for this opportunity to testify on behalf of 
Thermo Electron Corporation.
                                 ______
                                 
Prepared Statement of Jim Holsen, Vice President of Engineering, United 
                          Parcel Service, Inc.
    Good morning Mr. Chairman and members of the Subcommittee. My name 
is Jim Holsen and I am Vice President of Engineering for United Parcel 
Service.
    I have responsibility to oversee the project that UPS has 
undertaken to place radiation-detection equipment at key international 
locations. We made this decision, as we do with all of our security 
measures, based on an ongoing assessment of the risks. We have had 
discussions with a number of governmental agencies and with staff of 
this committee as we have assessed the current risks, and we have 
determined that deploying the equipment at this time is a prudent 
decision.
    We think our experience provides some useful lessons in how the 
private sector and governmental agencies could improve their 
cooperation to enhance the efficacy of the security-related activities 
of both. The new Department of Homeland Security should foster 
appropriate relationships between government and the private sector 
that encourage cooperation.
    Because UPS operates all over the world, we have been dealing with 
international security threats for many years. The multi-faceted 
security measures we employ are developed based on our continuing risk 
assessment. Certainly, since September 11, our threat assessments have 
taken on new dimensions. These decisions have to be made in the context 
of a business that involves the delivery of millions of packages every 
day, with time commitments that require an extremely efficient and 
time-sensitive system, which is crucial to the flow of commerce. Our 
system includes many inherent security measures.
    In developing the radiation-detection equipment deployment 
strategy, we evaluated our system and the available equipment. We 
discussed the technology with a number of governmental agencies, 
vendors and other private sector entities. Our plan is based on the 
best information available to us at this time. As with all threats, we 
plan to continue to monitor this risk and may modify our approach if 
new information indicates that such modification is needed.
    I want to emphasize that we have had very cooperative and helpful 
discussions with the various government agencies we have consulted 
while developing this strategy. However, issues have arisen that have 
made the process difficult, inefficient, and perhaps less effective 
than it could otherwise be. These issues go beyond any one of those 
agencies, and we believe are as frustrating to the governmental 
officials we spoke to as they are to us.
    The first issue relates to the number of different agencies 
involved in radiation monitoring. We have consulted with the Customs 
Service, the Department of Energy, and the Transportation Security 
Administration. In addition, we have met with the White House Office of 
Science and Technology Policy and the Office of Homeland Security. We 
have found that each of these agencies approaches the issues 
differently. We have also found that these agencies are working with 
different outside labs and experts. While we have found all of these 
agencies helpful, it would have been preferable to have one 
authoritative voice speaking for the federal government. We are put in 
the position of making decisions about our deployment strategy without 
consistent, definitive knowledge. To wait until such information may be 
available leaves the risk unabated.
    The second issue of concern is related to the first. We need 
guidance on the nature of the threats we are trying to address and have 
been unable to obtain such information from the experts within the 
agencies with whom we have talked. The government experts have been 
cooperative and helpful, but their ability to respond to our inquiries 
has been limited by the restrictions on the information we need. 
Recognition of the appropriate level of information sharing needed is 
critical.
    While we are willing to work appropriately with governmental 
agencies to address threats--a role we have played for some time--we 
cannot do so in the absence of appropriate intelligence information. If 
the government is unwilling to share information with us, we cannot 
adequately assist the government in addressing the threats.
    In conclusion, we believe that the deployment of this equipment is 
a prudent step in light of the information available to us at this 
time. We will continue to evaluate the nature of the threats with the 
best available information. We will continue our cooperation with the 
interested governmental agencies and hope that our concerns regarding 
coordination and intelligence sharing will be addressed. The new 
Department of Homeland Security should foster appropriate relationships 
between the government and the private sector.
    Again, thank you for the opportunity to meet with you today, and I 
am prepared to answer any questions that you may have.
                                 ______
                                 
   Prepared Statement of K. David Nokes, Sandia National Laboratories
    Mr. Chairman and distinguished members, it is my pleasure to appear 
again before this committee. I am David Nokes, Director of the Systems 
Assessment and Research Center and Coordinator for Sandia National 
Laboratories' homeland security and combating terrorism activities. My 
statement is an addendum to the one I provided at your June 25 hearing.
    I would like to provide Sandia's views on the role of Science and 
Technology (S&T) within the new Department of Homeland Security (DHS) 
and some thoughts on how S&T might be organized.
    We believe that a robust and comprehensive S&T portfolio within DHS 
is absolutely essential if this country is to achieve the breakthrough 
improvements that it must achieve in homeland security performance. 
Furthermore, the S&T program must address a range of very different 
needs. It is important to recognize that the S&T needs of DHS are a 
continuum ranging from off-the-shelf items to the fundamental research 
necessary to solve exceptionally difficult problems.
    We must first address the urgent, pressing problems that can at 
least be partially solved by putting existing, known technology into 
the hands of the people in the field who have the day-to-day 
responsibility for homeland security. This task is largely one of 
quickly establishing performance requirements and then transferring the 
technology to commercial entities for efficient production.
    An example of this class of problem is the detection of clandestine 
nuclear weapons and Radiological Dispersal Devices (RDDs), so-called 
``dirty bombs,'' crossing into the United States at legal points of 
entry. Sandia has demonstrated equipment that, within this constrained 
environment, has a very high probability of detecting such devices, 
even when shielded, and alerting officials in real time. We have 
demonstrated a very low rate of false and nuisance alarms. I believe 
that we are well-positioned to move beyond the demonstration stage and 
implement widespread deployment at ports of entry.
    Among the challenges that require substantial additional work are 
detection systems for chemical and especially biological attacks. 
Although point sensors for some agents exist and limited demonstrations 
of area sensors have been performed, much developmental work will be 
required to broaden the spectrum of agents that are detectable, lower 
the false alarm rate, and ensure continuous operation. In addition, the 
command and control architecture to network these sensors into an 
effective and affordable system that can protect large urban areas has 
not been designed.
    Detecting clandestine nuclear weapons or RDDs in large urban areas 
(as opposed to ports of entry) is a problem that also needs substantial 
research. Although, unlike chemical or biological devices, radiological 
weapons all have a detectable signature prior to use, the limitations 
of physics prevent individual sensors from affording a large detection 
range. The problem becomes command and control of networks of sensors 
and developing a strategy that optimizes performance and cost.
    An essential first step for the S&T portfolio at DHS will be 
developing strategic planning and prioritization of the S&T investments 
of the Department. This must be driven by threat and vulnerability 
analyses that identify the areas with greatest need.
    The S&T needs of the DHS are exceptionally diverse because of the 
great variety of the individual elements of its mission. Each Under 
Secretary of Homeland Security will have unique R&D requirements. 
Clearly, the Under Secretary for Chemical, Biological, Radiological, 
and Nuclear Countermeasures will need access to a substantially 
different set of R&D resources than the Under Secretary for Border and 
Transportation Security.
    We recommend that each Under Secretary create a laboratory network 
tailored for his or her missions by directly tasking existing 
institutions that possess the required competencies. We call this 
entity a ``Virtual National Laboratory,'' and it has already been tried 
and proven as an effective model for multi-institutional programs 
involving research and technology development. Virtual national 
laboratories may be of permanent or limited duration and can be 
reconfigured as necessary for evolving requirements.
    To illustrate, the Under Secretary for Chemical, Biological, 
Radiologcial, and Nuclear Countermeasures may design one or more 
matrixed laboratory systems specific to his needs that include 
representation from the National Institutes of Health, some DOE/NNSA 
labs, leading research universities, and the pharmaceutical industry. 
The Under Secretary for Border and Transportation Security may design 
one or more matrixed laboratory systems specific to her needs that 
include representation from the Naval Research Laboratory and other DoD 
labs, DOE/NNSA, industry, and universities.
    Each of these ``virtual national laboratories'' would have a 
defined organizational structure with a laboratory director and program 
directors, although it would own no real property. The laboratory 
director would manage a Laboratory Liaison Council (LLC) with 
representation from the constituent institutions. The LLC would be the 
Under Secretary's vehicle for direct access to the national laboratory 
system. He would not have to go through each institution's sponsoring 
federal agency in a ``work-for-others'' procurement process. This 
structure is illustrated in the diagram attached as supplemental 
material to my statement.
    A significant advantage of this concept is that it encourages 
competition of the right sort--competition of ideas (not direct 
competition of labs for money)--and cooperation on results, pulling 
together the right resources for a particular mission focus. It 
encourages rapid transition of the fruits of research into application, 
and helps avoid the ``valley of death''' that often prevents promising 
research from being developed and deployed.
    Specific suggestions follow:

<bullet> Each Under Secretary should have authority for ``conducting a 
        national scientific research and development program to support 
        the missions of the Department'' for which he or she is 
        responsible, ``. . . including directing, funding, and 
        conducting research and development relating to the same'' (as 
        per Sec. 301 (2) of the President's bill).
<bullet> In addition, each Under Secretary should appoint a Director of 
        Research and Development with authority to immediately create 
        networked laboratory systems (virtual national laboratories) 
        through cooperative arrangements with federal, academic, and 
        private research institutions. Appropriate funding will be 
        required.
<bullet> Directors of Research and Development will be assisted by 
        Laboratory Liaison Councils with representation from the 
        institutions of the virtual national laboratory.
<bullet> Directors of Research and Development should have authority 
        and appropriated funding to originate and award Cooperative 
        Research and Development Agreements (CRADAs) and other 
        technology transfer mechanisms between virtual national 
        laboratories and industry on an expedited basis.
<bullet> DHS legislation should authorize all relevant federally funded 
        R&D institutions to accept direct tasking from the DHS and 
        should instruct ``landlord'' agencies to facilitate DHS 
        taskings of institutions under their sponsorship.
<bullet> At least initially, DHS should rely on the established great 
        laboratories of the nation rather than creating new ones for 
        its science and technology (S&T) program. There is insufficient 
        time to establish a ``green field'' laboratory that can make 
        contributions on the scale required in a timely manner.
<bullet> Thought must be given to ensure that S&T activities are agile 
        and not encumbered with bureaucratic processes that stifle the 
        imaginative and innovative work required if we are to be 
        successful. New processes will be necessary in some cases, 
        rather than importing existing ones from organizations brought 
        into the new department.
<bullet> As recommended by the National Research Council in their 
        recent report, Making the Nation Safer: The Role of Science and 
        Technology in Countering Terrorism, an office of ``Under 
        Secretary for Technology'' should be created, reporting to the 
        Secretary (p. 12-6). This office will manage a strategic, peer-
        reviewed research program with universities, national 
        laboratories, and industry. Sustained funding at the mission 
        level will be required.
<bullet> Also as recommended by the National Research Council (p. 12-
        7), a Homeland Security Institute should be established as a 
        Federally Funded Research and Development Center (FFRDC) under 
        the direction of the Under Secretary for Technology. This 
        entity should perform policy and systems analysis, help define 
        standards and metrics, and assist agencies with evaluating 
        technologies for deployment.
    The creation of the new DHS will be an enormous undertaking, and we 
appreciate your hard work helping to achieve an effective structure for 
securing our homeland. Sandia is committed to contributing to this 
urgent undertaking.
    Thank you, Mr. Chairman. I look forward to your questions.





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
